Audit Report




OIG-11-031
Audit of the Department of the Treasury’s Fiscal Years 2010 and
2009 Financial Statements
November 15, 2010




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Memorandum for the Secretary


Section I – Independent Auditors’ Report and Management’s Response


Section II - Department of the Treasury Fiscal Year 2010
             Performance and Accountability Report
THIS PAGE INTENTIONALLY LEFT BLANK
                                           DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220




     OFFICE OF                                      November 15, 2010
INSPECTOR GENERAL




            INFORMATION MEMORANDUM FOR SECRETARY GEITHNER

            FROM:                      Eric M. Thorson
                                       Inspector General

            SUBJECT:                   Audit of the Department of the Treasury’s Financial Statements for
                                       Fiscal Years 2010 and 2009


            INTRODUCTION

            I am pleased to transmit KPMG LLP’s report on the Department of the Treasury’s (the
            Department) financial statements as of and for the fiscal years (FY) ending September 30, 2010
            and 2009.

            The Chief Financial Officer’s Act of 1990, as amended, requires the Department of the Treasury
            Office of Inspector General or an independent auditor, as determined by the Inspector General, to
            audit the Department’s financial statements. Under a contract monitored by my office, KPMG
            LLP, an independent certified public accounting firm, performed an audit of the Department’s
            FY 2010 and 2009 financial statements. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards issued by the Comptroller
            General of the United States; Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as amended; and the GAO/PCIE Financial
            Audit Manual.

            RESULTS OF INDEPENDENT AUDIT

            In its audit of the Department, KPMG LLP

                •   reported that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;

                •   reported that two material weaknesses related to unpaid tax assessments and information
                    systems security and a significant deficiency related to tax refund disbursements
                    identified by the auditor of the Internal Revenue Service collectively represent a material
                    weakness for the Department as a whole;

                •   reported that weaknesses related to 1) financial management practices at the
                    Departmental level, 2) financial accounting and reporting at the Office of Financial
                    Stability, and 3) information system controls at the Financial Management Service
                    represent significant deficiencies for the Department as a whole;
Page 2

   •     reported an instance of noncompliance with laws and regulations related to the Internal
         Revenue Code Section 6325;

   •     reported that the Department’s financial management systems did not substantially
         comply with the requirements of the Federal Financial Management Improvement Act of
         1996 related to Federal financial management system requirements and applicable
         Federal accounting standards; and

   •     reported an instance of a potential Anti-deficiency Act violation related to certain
         transactions and activities of the Treasury Inspector General for Tax Administration.

EVALUATION OF AUDITORS’ PERFORMANCE

To ensure the quality of the audit work performed, we reviewed KPMG LLP’s approach and
planning of the audit, evaluated the qualifications and independence of the auditors, monitored
the progress of the audit at key points, reviewed and accepted KPMG LLP’s audit report, and
performed other procedures that we deemed necessary. Additionally, we provide oversight of the
audits of financial statements and certain accounts and activities conducted at 13 component
entities of the Department. Our review, as differentiated from an audit performed in accordance
with generally accepted government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or on whether the Department’s financial management systems
substantially complied with the Federal Financial Management Improvement Act of 1996 or
conclusions on compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ report dated November 15, 2010, and the conclusions expressed in that report.
However, our review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

I appreciate the courtesies and cooperation extended to KPMG LLP and my staff during the
audit. Should you or your staff have questions, you may contact me at (202) 622-1090 or
Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

Attachment

cc: Daniel Tangherlini
    Assistant Secretary for Management
       and Chief Financial Officer
         SECTION I –

INDEPENDENT AUDITORS’ REPORT
 AND MANAGEMENT’S RESPONSE
THIS PAGE INTENTIONALLY LEFT BLANK
                           KPMG LLP
                           2001 M Street, NW
                           Washington, DC 20036-3389




                                    Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury:

We have audited the accompanying consolidated balance sheets of the U.S. Department of the
Treasury (Department) as of September 30, 2010 and 2009, and the related consolidated statements
of net cost, and changes in net position, combined statements of budgetary resources, and the
statements of custodial activity (hereinafter referred to as “consolidated financial statements”) for the
years then ended. The objective of our audits was to express an opinion on the fair presentation of
these consolidated financial statements. These consolidated financial statements are incorporated in
the accompanying U.S. Department of the Treasury Fiscal Year 2010 Performance and
Accountability Report (PAR).

We did not audit the amounts included in the consolidated financial statements related to the Internal
Revenue Service (IRS) and the Office of Financial Stability (OFS), component entities of the
Department. The financial statements of IRS and OFS were audited by another auditor whose reports
thereon have been provided to us. Our opinion, insofar as it relates to the amounts included for IRS
and OFS, is based solely on the reports of the other auditor.

In connection with our fiscal year 2010 audit, we, and the other auditor, also considered the
Department’s internal control over financial reporting and tested the Department’s compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements that could have a
direct and material effect on these consolidated financial statements. Our conclusions on internal
control over financial reporting and compliance and other matters, insofar as they relate to IRS and
OFS, are based solely on the reports of the other auditor.

Summary

As stated in our opinion on the consolidated financial statements, based on our audits and the reports
of the other auditor, we concluded that the Department’s consolidated financial statements as of and
for the years ended September 30, 2010 and 2009, are presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles.

As discussed in Note 21, the Department implemented Statement of Federal Financial Accounting
Standards No. 33, Pensions, Other Retirement Benefits, and Other Postemployment Benefits:
Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount Rates and
Valuation Dates, effective October 1, 2009.

As discussed in Note 29, the Department is a participant in significant legislation and transactions
whose purpose is to assist in stabilizing the financial markets.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
U.S. Department of the Treasury
November 15, 2010
Page 2 of 14


Notes 1A, 1V, 8, 9, and 12 respectively, discuss the following matters:

        •   The consolidated financial statements do not include the assets, liabilities, or results of
            operations of commercial entities in which the Department has a significant equity
            interest as it has determined that none of these entities meet the criteria for inclusion as a
            federal entity and are therefore not included in the consolidated financial statements.

        •   The valuation of certain investments, loans, commitments, and asset guarantees is based
            on estimates. These estimates are inherently subject to substantial uncertainty arising
            from the likelihood of future changes in general economic, regulatory, and market
            conditions. In addition, there are significant uncertainties related to the potential effect of
            proposed transactions, such as the restructuring of American International Group, Inc.,
            on the amounts that the Department will realize from its investments. As such, there will
            be differences between the net estimated value of these investments, loans,
            commitments, and asset guarantees at September 30, 2010, and the amounts that will
            ultimately be realized from these assets or be required to pay to settle these commitments
            and guarantees. Such differences may be material and will also affect the ultimate cost of
            these programs.

Our, and the other auditor’s, consideration of internal control over financial reporting identified
significant deficiencies that we consider to collectively be a material weakness and other
deficiencies that we consider to be significant deficiencies, as defined in the Internal Control Over
Financial Reporting section of this report, as follows:

Material Weakness

       •    Financial Systems and Reporting at the Internal Revenue Service (Repeat Condition)

Significant Deficiencies

       •    Financial Management Practices at the Departmental Level (Repeat Condition)
       •    Financial Accounting and Reporting at the Office of Financial Stability
            (Repeat Condition)
       •    Information System Controls at the Financial Management Service (Repeat Condition)

The results of our tests, and the tests performed by the other auditor, of compliance with certain
provisions of laws, regulations, contracts, and grant agreements disclosed an instance of
noncompliance with Internal Revenue Code (IRC) Section 6325, that is required to be reported under
Government Auditing Standards, issued by the Comptroller General of the United States, and Office
of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended. In addition, the Department’s financial management systems did not
substantially comply with the Federal Financial Management Improvement Act of 1996 (FFMIA)
requirements related to compliance with Federal financial management system requirements
(FFMSR) and applicable Federal accounting standards. Our, and the other auditor’s audit
disclosed no instances in which the Treasury’s financial management systems did not
substantially comply with the U.S. Standard General Ledger at the transaction level.


                                                    2
U.S. Department of the Treasury
November 15, 2010
Page 3 of 14



In other matters, the Department informed us of an instance of a potential Anti-deficiency Act
violation related to certain transactions and activities of the Treasury Inspector General for Tax
Administration (TIGTA). This matter is currently under review.

The following sections discuss our opinion on the consolidated financial statements; our, and the
other auditor’s, consideration of the Department’s internal control over financial reporting; our, and
the other auditor’s tests of compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements; and management’s and our responsibilities.

Opinion on the Financial Statements

We have audited the accompanying consolidated balance sheets of the Department of the Treasury
as of September 30, 2010 and 2009, and the related consolidated statements of net cost, changes in
net position, the combined statements of budgetary resources, and the statements of custodial
activity, for the years then ended.

We did not audit the amounts included in the consolidated financial statements related to the IRS, a
component entity of the Department, which reflect total assets of $43.2 billion and $36.8 billion, net
costs of operations of $13.4 billion and $12.5 billion, before applicable eliminating entries,
budgetary resources of $13.4 billion and $12.8 billion, and custodial revenues of $2.3 trillion each as
of and for the years ended September 30, 2010 and 2009, respectively. The financial statements of
IRS as of and for the years ended September 30, 2010 and 2009, were audited by another auditor
whose report dated November 5, 2010, has been provided to us, and our opinion, insofar as it relates
to the amounts included for the IRS, is based solely on the report of the other auditor.

In addition, we did not audit the amounts included in the consolidated financial statements related to
the OFS, a component entity of the Department, which reflect total assets of $244.2 billion and
$337.4 billion, net (income) and net costs of operations of ($23.1) billion and $41.6 billion, before
applicable eliminating entries, and budgetary resources of $195.3 billion and $699.4 billion, as of
and for the years ended September 30, 2010 and 2009, respectively. The financial statements of OFS
as of and for the years ended September 30, 2010 and 2009, were audited by another auditor whose
report dated November 5, 2010, has been provided to us, and our opinion, insofar as it relates to the
amounts included for the OFS, is based solely on the report of the other auditor.

In our opinion, based on our audits, and the reports of the other auditor, the consolidated financial
statements referred to above present fairly, in all material respects, the financial position of the
Department of the Treasury as of September 30, 2010 and 2009, and its net costs, changes in net
position, budgetary resources, and custodial activity for the years then ended, in conformity with
U.S. generally accepted accounting principles.

As discussed in Note 21, the Department implemented Statement of Federal Financial Accounting
Standards No. 33, Pensions, Other Retirement Benefits, and Other Postemployment Benefits:
Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount Rates and
Valuation Dates, effective October 1, 2009.




                                                  3
U.S. Department of the Treasury
November 15, 2010
Page 4 of 14


As discussed in Note 29, the Department is a participant in significant legislation and transactions
whose purpose is to assist in stabilizing the financial markets.

Notes 1A, 1V, 8, 9, and 12, respectively, discuss the following matters:

        •   The consolidated financial statements do not include the assets, liabilities, or results of
            operations of commercial entities in which the Department has a significant equity
            interest as it has determined that none of these entities meet the criteria for inclusion as a
            federal entity and are therefore not included in the consolidated financial statements.

        •   The valuation of certain investments, loans, commitments, and asset guarantees is based
            on estimates. These estimates are inherently subject to substantial uncertainty arising
            from the likelihood of future changes in general economic, regulatory, and market
            conditions. In addition, there are significant uncertainties related to the potential effect of
            proposed transactions, such as the restructuring of American International Group, Inc.,
            on the amounts that the Department will realize from its investments. As such, there will
            be differences between the net estimated value of these investments, loans,
            commitments, and asset guarantees at September 30, 2010, and the amounts that will
            ultimately be realized from these assets or be required to pay to settle these commitments
            and guarantees. Such differences may be material and will also affect the ultimate cost of
            these programs.

The information in the PAR in Part 1: Management’s Discussion and Analysis (MD&A), and the
Required Supplemental Information section of Part 3: Annual Financial Report, is not a required part
of the consolidated financial statements, but is supplementary information required by U.S. generally
accepted accounting principles. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of
this information. However, we did not audit this information and, accordingly, we express no opinion
on it.

Our audits, and the audits of the other auditor, were conducted for the purpose of forming an opinion
on the consolidated financial statements taken as a whole. The information in the Message from the
Secretary of the Treasury, Part 2: the Annual Performance Report, the Message from the Assistant
Secretary for Management and Chief Financial Officer, and the Inspector General’s Transmittal
Letter in Part 3, and Part 4: Other Accompanying Information is presented for purposes of additional
analysis and is not required as part of the consolidated financial statements. This information has not
been subjected to auditing procedures and, accordingly, we express no opinion on it.

Internal Control Over Financial Reporting

Our, and the other auditor’s, consideration of the internal control over financial reporting was for a
limited purpose described in the Responsibilities section of this report, and was not designed to
identify all deficiencies in the internal control over financial reporting that might be significant
deficiencies, or material weaknesses and therefore, there can be no assurance that all deficiencies,
significant deficiencies, or material weaknesses have been identified. This report also includes our
consideration of the results of the other auditor’s testing of internal control over financial reporting
that is reported on separately by the other auditor. The other auditor performed an examination of


                                                    4
U.S. Department of the Treasury
November 15, 2010
Page 5 of 14


internal control over financial reporting for the purpose of providing an opinion on the effectiveness
of IRS’s and OFS’s internal controls. This report, insofar as it relates to the results of the other
auditor, is based solely on the reports of the other auditor.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a
material misstatement of the Department’s consolidated financial statements will not be prevented or
detected and corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance.

In our fiscal year 2010 audit, we, and the other auditor, identified the significant deficiencies in
internal control over financial reporting, discussed below. The significant deficiency related to
Financial Systems and Reporting at IRS is considered to be a material weakness. Because of the IRS
material weakness in internal control discussed below, the other auditor’s opinion on IRS’ internal
control stated that IRS did not maintain effective internal control over financial reporting as of
September 30, 2010, and thus did not provide reasonable assurance that losses and misstatements
material in relation to the IRS’s financial statements would be prevented or detected and corrected on
a timely basis. The other auditor’s opinion on OFS’s internal control stated that OFS maintained, in
all material respects, effective internal control over financial reporting as of September 30, 2010.

MATERIAL WEAKNESS

Financial Systems and Reporting at IRS (Repeat Condition)

IRS continued to make progress in addressing its internal control deficiencies. However, material
weaknesses related to unpaid tax assessments, and information security controls continued to exist in
fiscal year 2010, in addition to a new significant deficiency related to tax refunds disbursements.

The challenges IRS faces as a result of these deficiencies adversely affect IRS’s ability to
(1) produce reliable financial statements without significant compensating procedures, and (2) make
well-informed decisions. As IRS continues to increase the automation of accounting and reporting
processes, the need for effective security over the data these systems process becomes increasingly
critical. These weaknesses also significantly increase the risk that sensitive taxpayer information may
be compromised.

These deficiencies in internal control over financial reporting identified by the auditors of IRS’s
financial statements are collectively considered a material weakness for the Department as a whole.
These deficiencies are summarized as follows:

        •   Serious internal control issues continue to affect IRS’s management of unpaid tax
            assessments. Specifically, a lack of adequate procedures and systemic limitations in the
            programs used resulted in the following issues: (1) IRS’s reported balances for taxes
            receivable and other unpaid assessments were not traceable from its general ledger
            system for tax administration-related transactions to individual transactions in underlying


                                                  5
U.S. Department of the Treasury
November 15, 2010
Page 6 of 14


            source records, (2) IRS lacked a subsidiary ledger for unpaid tax assessments that would
            allow it to produce reliable, useful, and timely information with which to manage and
            report externally, and (3) IRS experienced errors and delays in recording taxpayer
            information, payments, and other tax assessment-related activities. (Material Weakness)

        •   Internal control over IRS’s information system’s security continued to be ineffective,
            particularly as it relates to controls over access to mission-critical applications and
            processing sensitive information. As a result, IRS could not rely on the internal controls
            contained in its automated financial management system to provide reasonable assurance
            that (1) its financial statements taken as a whole, were fairly stated, (2) the information
            IRS relied on to make decisions on a daily basis were accurate, complete, and timely,
            and (3) proprietary financial and taxpayer information was appropriately safeguarded.
            (Material Weakness)

        •   Weaknesses in IRS’s controls over manual tax refunds as well as processing of claims
            for the First-Time Home Buyer Credit that resulted in duplicate or otherwise erroneous
            tax refund disbursements. (Significant Deficiency)

The other auditor noted that the material weaknesses and significant deficiency in internal control
noted above may adversely affect any decision by IRS’s management that are based, in whole or in
part, on information that is inaccurate because of these deficiencies.

Additional details related to the material weakness identified above have been provided to IRS
management by the auditors of IRS’s financial statements in their report dated November 5, 2010.

Recommendations

Recommendations to address the material weakness discussed above have been provided to IRS
management by the auditors of IRS’s financial statements. We recommend that the Assistant
Secretary for Management and Chief Financial Officer (ASM/CFO) provide effective oversight to
ensure that corrective actions are taken by IRS to resolve this material weakness.

SIGNIFICANT DEFICIENCIES

Financial Management Practices at the Departmental Level (Repeat Condition)

We identified the following two deficiencies that we collectively consider to be a significant
deficiency at the Departmental level. Both are repeat deficiencies related to Department-wide control
environment weaknesses.

Department-wide Entity Level Controls Affecting Financial Reporting

Due to expanded accounting and reporting requirements and related responsibilities, further
improvements are needed in the current staffing structure and staff skills at the Departmental level.




                                                  6
U.S. Department of the Treasury
November 15, 2010
Page 7 of 14


The Office of Accounting and Internal Control (AIC), within the Office of the Deputy Chief
Financial Officer (ODCFO) is responsible for establishing and maintaining financial policies that
guide financial and budgetary reporting throughout the Department, and ensure the overall integrity
of financial data reported at the Departmental level. In fiscal year 2010, the Department took several
steps to improve its current staffing structure and staff skills, including outlining a human capital
needs assessment, hiring new staff, and providing training to existing staff. However, we continue to
note weaknesses in the internal control environment, as described below, that negatively impact
financial management at the Departmental level.

In fiscal year 2010, AIC supplemented its existing staff and realigned duties and responsibilities
within AIC. Although these steps helped with AIC’s staffing structure and needs, delays in hiring
these additional personnel limited the opportunity to fully train them on the Department’s unique
accounting and reporting needs. As a result, key accounting functions and duties, as well as
accounting decisions continue to be performed by a few key senior staff members, until the new staff
members are fully trained on Treasury’s unique accounting transactions. With regard to budgetary
accounting and issues identified Department-wide, there is limited senior staff within AIC who have
the knowledge and experience to adequately respond to and address issues. The lack of accounting
staff possessing the knowledge and experience necessary to address accounting and reporting issues
and questions at the Departmental level increases the risk that a misstatement in the consolidated
financial statements and related note disclosures will not be detected.

Financial Accounting and Reporting

The Department’s financial accounting and reporting policies, procedures, the related internal
controls, and testing for effectiveness of internal control over financial reporting, need improvement
in the following areas.
•   Management’s review procedures over the consolidated financial statements are not sufficient to
    ensure the accuracy and validity of reported amounts. We continued to identify incorrect
    amounts and disclosures in the draft consolidated financial statements that were significant, but
    not material, and that were not detected by AIC. While improvements were noted in the review
    and approval process for preparing its consolidated financial statements and related note
    disclosures, additional supervision and review is needed. Further, the documentation supporting
    the consolidated financial statements amounts were in certain instances inadequate or incomplete
    in areas such as the President’s Budget Reconciliation. For example, certain key documentation
    that supported reconciling items was not provided until requested or had to be prepared
    subsequently.
•   While the Department took steps in fiscal year 2010 to develop policies and procedures over 14
    accounting and reporting areas, policies and procedures related to certain other significant
    accounting areas need to be addressed. Written policies and procedures to account for and report
    various non-routine, complex, and unique transactions, such as accounting and reporting of
    custodial transactions, U.S. Mint’s Seigniorage, transfers to the General Fund, and non-entity
    transactions have not been documented. Further, AIC did not have written procedures for
    performing certain key financial statements analyses such as that for proprietary and budgetary
    relationships, and cumulative results of operations. In addition, while the policies and procedures
    developed in fiscal year 2010 identify management controls in the workflow diagrams,
    descriptions of the controls need to be included in the policies and procedures. Proper


                                                  7
U.S. Department of the Treasury
November 15, 2010
Page 8 of 14


    documentation depicting processes and controls is a critical component of internal control
    because it presents management’s overall processes to gather, process, and report financial
    information and ensure their compliance with applicable laws and regulations.
•   The Department’s actions to ensure that the Secretary’s assurance statement on the effectiveness
    of internal control over financial reporting is supported by verifiable results continue to require
    further improvement. Specifically, components are not consistently complying with the
    Department’s guidance for conducting management’s assessment of the effectiveness of internal
    control over financial reporting. Several steps were taken in the current year to improve
    implementation. AIC provided additional guidance to components by publishing fiscal year 2010
    OMB Circular No. A-123, Management’s Responsibility for Internal Control (A-123) Guidance
    (FY 10 Guidance), which clarified and enhanced previous guidance in various key areas. AIC
    provided sample documentation to components to follow during their test work. While the FY
    2010 Guidance appeared to be clear in terms of instructions, our review revealed several
    instances where the components did not completely adhere to the requirements of the Guidance.
    Four of six components that we tested conducted some, but not all, test work as required by the
    FY 2010 Guidance. These issues may ultimately result in the Secretary’s assurance statement on
    the effectiveness of internal control over financial reporting not being supported.
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires that agencies establish
internal controls according to standards prescribed by the Comptroller General and specified in the
Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government (Standards). The GAO Standards require that internal controls be documented in
management directives, administrative policies or operating manuals; transactions and other
significant events be clearly documented; and information be recorded and communicated timely
with those who need it within a timeframe that enables them to carry out their internal control
procedures and other responsibilities. The GAO defines “internal control” as an integral component
of an organization’s management that provides reasonable assurance that the following objectives are
achieved: effectiveness and efficiency of operations, reliability of financial reporting, and
compliance with applicable laws and regulations. The GAO Standards also identify the control
environment as one of the five key elements of control, which emphasizes the importance of
conscientiousness in management’s operating philosophy and commitment to internal control. These
standards cover controls such as human capital practices, supervisory reviews, policies, procedures,
monitoring, and segregation of duties.
A-123 states that monitoring the effectiveness of internal control should occur in the normal course
of business. In addition, periodic reviews, reconciliations or comparisons of data should be included
as part of the regular assigned duties of personnel. Periodic assessments should be integrated as part
of management’s continuous monitoring of internal control, which should be ingrained in the
agency’s operations. An effective, continuous monitoring program can level the resources needed to
maintain effective internal controls throughout the year.




                                                  8
U.S. Department of the Treasury
November 15, 2010
Page 9 of 14


Recommendations

We recommend that the ASM/CFO:

Department-wide Entity Level Controls Affecting Financial Reporting

1. Provide AIC staff the appropriate training and on-the job experience to ensure that they possess
   the necessary knowledge and skills needed for their respective positions.

Financial Accounting and Reporting

2. Develop a plan to enhance the quality of supervisory reviews performed on the consolidated
   financial statements and supporting documentation by responsible officials including those with
   programmatic oversight, to ensure that errors and inconsistencies are identified and corrected in
   a timely manner.

3. Require that policies and procedures are developed in sufficient detail to support all of the
   significant accounting and reporting requirements at the Departmental level, and include non-
   routine or complex accounting and reporting matters. These policies should be periodically
   updated (at least annually).

4. Improve the monitoring process of the A-123 work conducted by components to ensure that the
   Department’s Guidance is fully implemented and complied with, and supports the Secretary’s
   assurance statement on the effectiveness of internal control over financial reporting.

Financial Accounting and Reporting at the OFS (Repeat Condition)
During fiscal year 2010, OFS resolved one significant deficiency and made progress in addressing their
other significant deficiency. However, the remaining control issues along with other control deficiencies
that the other auditor identified collectively represent a continuing significant deficiency in OFS’s
internal control over its accounting and financial reporting processes. The OFS deficiencies also
collectively constitute a significant deficiency for the Department and are summarized as follows:
•   While improvements were noted in OFS’s review and approval process for preparing its financial
    statements, notes, and MD&A, the other auditor identified incorrect amounts and inconsistent
    disclosures in OFS’s draft financial statements, notes, and MD&A that were significant, but not
    material, and were not detected by OFS.
•   The other auditor identified instances where OFS’s procedures related to its process for accounting
    for certain program transactions, preparing its financial statements, and its oversight and monitoring
    of financial-related services provided to OFS by asset managers and certain financial agents were
    not always followed or effectively implemented.
•   OFS’s documentation was incomplete for certain areas of its asset valuation process. Specifically,
    some valuation methodology changes and the basis for certain assumptions derived from informed
    opinion that were used in valuing assets were not included in its written documentation. After the
    other auditor notified OFS that the documentation was incomplete, OFS was able to provide
    adequate additional information about its asset valuation process.



                                                    9
U.S. Department of the Treasury
November 15, 2010
Page 10 of 14


•   OFS did not have adequate procedures to determine whether the tool and related guidance it used
    properly calculated valuations for certain assets with projected future disbursements. OFS’s use of
    the tool and related guidance resulted in errors in the valuation of such assets.
OFS had other controls that reduced the risk of misstatements resulting from these deficiencies. For
significant errors and issues that were identified, OFS revised the financial statements, notes, and
MD&A, as appropriate. Properly designed and implemented controls over the accounting and financial
reporting processes are key to providing reasonable assurance regarding the reliability of the balances
and disclosures reported in the financial statements and related notes in conformity with generally
accepted accounting principles. Misstatements may occur in other financial information reported by
OFS and not be prevented or detected because of this significant deficiency.
Additional details related to the significant deficiency identified above have been provided separately
to OFS management by the auditors of the OFS’s financial statements.

Recommendations

Recommendations to address the significant deficiency discussed above will be provided to OFS
management by the auditors of OFS’s financial statements. We recommend that the ASM/CFO
provide effective oversight to ensure that corrective actions are taken by OFS to resolve this
significant deficiency.

Information System Controls at the FMS (Repeat Condition)

FMS made progress in its efforts to address prior year weaknesses in the Information System (IT)
controls and security programs it manages. Despite these improvements, current year tests conducted
over IT general controls revealed that the necessary policies and procedures to detect and correct
control and functionality weaknesses have not been consistently documented, implemented, or
enforced. Specifically, issues were identified in the areas of (1) security management; (2) access; (3)
change configuration; and (4) segregation of duties. These weaknesses could compromise FMS’s
ability to ensure security over sensitive financial data and reliability of key systems and collectively
serve to weaken the IT general control environment at FMS.

Recommendation

The detailed findings and related recommendations have been provided to FMS management in
separate reports. We recommend that the ASM/CFO provide effective oversight and the resources
necessary to ensure that information security requirements over financial systems are implemented at
FMS.

Compliance

The results of certain of our tests, and the tests performed by the other auditor, of compliance as
described in the Responsibilities section of this report, exclusive of those referred to in FFMIA,
disclosed the following instance of noncompliance that is required to be reported herein under
Government Auditing Standards and OMB Bulletin No. 07-04.




                                                  10
U.S. Department of the Treasury
November 15, 2010
Page 11 of 14


       •    Noncompliance with IRC Section 6325 - The IRC grants IRS the power to file a
            lien against the property of any taxpayer who neglects or refuses to pay all
            assessed Federal taxes. Under IRC Section 6325, IRS is required to release a
            Federal tax lien within 30 days after the date the tax liability is satisfied, or has
            become legally unenforceable, or the Secretary of the Treasury has accepted a
            bond for the assessed tax. Despite actions IRS has taken to date to improve its
            lien release process, instances continued to be identified where IRS did not
            timely release the applicable Federal tax lien within 30 days after taxpayers paid
            or were otherwise relieved of a tax liability (Repeat Condition).

The results of our other tests, and the tests performed by the other auditor, of compliance as
described in the Responsibilities section of this report, exclusive of those referred to in FFMIA,
disclosed no other instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards and OMB Bulletin No. 07-04.

The results of our tests of FFMIA, and the tests performed by the other auditor, disclosed instances
where the Department’s financial management systems did not substantially comply with FFMIA
Section 803(a) requirements (Repeat Condition) related to compliance with (1) federal financial
management system requirements (FFMSR), and (2) applicable Federal accounting standards. Our,
and the other auditor’s audit disclosed no instances in which the Treasury’s financial
management systems did not substantially comply with the U.S. Standard General Ledger at
the transaction level.

       Instances of noncompliance with FFMSR are summarized below:

        •   Persistent deficiencies in IRS’s internal control over information security remain
            uncorrected. As a result of these deficiencies, IRS was (1) unable to rely upon these
            controls to provide reasonable assurance that its financial statements are fairly stated in
            the absence of effective compensating procedures, (2) unable to ensure the reliability of
            other financial management information produced by its systems, and (3) at increased
            risk of compromising confidential IRS and taxpayer information.

        An instance of noncompliance with Federal accounting standards is summarized below:

        •   IRS’s automated systems for tax related transactions did not support the net taxes
            receivable amount on IRS’s balance sheet and other required supplemental information
            related to uncollected taxes - compliance assessments and tax write-offs - in accordance
            with Statement of Federal Financial Accounting Standards No. 7, Accounting for
            Revenue and Other Financing Sources and Concepts for Reconciling Budgetary and
            Financial Accounting.

The Secretary of the Treasury also stated in his Letter of Assurance, included in Part 1:
Management’s Discussion and Analysis, of the accompanying PAR that the Department cannot
provide assurance that its financial management systems are in substantial compliance with FFMIA.
IRS has established a remediation plan to address the conditions that led to its systems’ substantial
noncompliance with the requirements of FFMIA. This plan outlines the actions to be taken to resolve
these issues, and defines related resources and responsible organizational units. Many of the actions


                                                   11
U.S. Department of the Treasury
November 15, 2010
Page 12 of 14


detailed in the plan are long-term in nature and are tied to IRS’s systems modernization efforts. The
Department’s remedial actions and related timeframes are presented in Appendix D: Material
Weaknesses, Audit Follow-up, Financial Systems, and Recovery Act Risk Management, of the PAR.

Recommendation

We recommend that the ASM/CFO provide effective oversight to ensure that (1) IRS implements
appropriate controls so that Federal tax liens are released in accordance with Section 6325 of the
IRC; and (2) IRS implements its plan of action to solve financial management problems so as to
enable resolving the identified instances of financial management systems’ noncompliance with the
requirements of FFMIA. Detailed recommendations to address the noncompliance findings discussed
above have been provided to IRS management by the auditors of the IRS’s financial statements.

Other Matter

The Department informed us of an instance of a potential Anti-deficiency Act violation related to
certain transactions and activities of the TIGTA. Specifically, budgetary control weaknesses existing
within the TIGTA may have allowed a potential violation of the Anti-deficiency Act. This matter is
currently under review.

Department’s Response to Internal Control and Compliance Findings

The Department indicated in a separate letter immediately following this report that it concurs with
the findings presented in this section of our report. Further, it has responded that it will take
corrective action, as necessary, to ensure the matters presented are addressed by the respective
component management within the Department. We did not audit the Department’s response and,
accordingly, we express no opinion on it.

                                            * * * * *

We noted certain additional matters involving internal control over financial reporting and its
operation that we will report to the Department in a separate letter.

Responsibilities

Management’s Responsibilities. Management is responsible for the consolidated financial
statements; establishing and maintaining effective internal control; and complying with laws,
regulations, contracts, and grant agreements applicable to the Department.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2010 and
2009 consolidated financial statements of the Department based on our audits and the reports of the
other auditor. We, and the other auditor, conducted our audits in accordance with the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and OMB Bulletin No. 07-04, as amended. Those
standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the consolidated financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis


                                                 12
U.S. Department of the Treasury
November 15, 2010
Page 13 of 14


for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of the Department’s internal control over financial
reporting. Accordingly, we express no such opinion.

An audit also includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
     financial statements;

•   Assessing the accounting principles used and significant estimates made by management; and

•   Evaluating the overall consolidated financial statement presentation.

We believe that our audits, and the reports of the other auditor related to the amounts included for
IRS and OFS, provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2010 audit, we considered the Department’s internal
control over financial reporting, exclusive of the internal control over financial reporting related to
IRS and OFS, by obtaining an understanding of the design effectiveness of the Department’s internal
control, determining whether internal controls had been placed in operation, assessing control risk,
and performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the Department’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of the Department’s
internal control over financial reporting. Internal control over financial reporting related to IRS and
OFS was considered by the other auditor whose reports thereon dated November 5, 2010, have been
provided to us. We, and the other auditor, did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our audit was not to express an opinion on the effectiveness of the Department’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the Department’s internal control over financial reporting. The objective of the other auditor’s audits
was to express an opinion on the effectiveness of the IRS’s and the OFS’s internal control over
financial reporting. Because of the IRS material weakness in internal control, the other auditor’s
opinion on the IRS’ internal control stated that IRS did not maintain effective internal control over
financial reporting as of September 30, 2010. The other auditor’s opinion on OFS’s internal control
stated that OFS maintained, in all material respects, effective internal control over financial reporting
as of September 30, 2010.

As part of obtaining reasonable assurance about whether the Department’s fiscal year 2010
consolidated financial statements are free of material misstatement, we, and the other auditor,
performed tests of the Department’s compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect
on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in
Section 803(a) of FFMIA. We, and the other auditor, limited our tests of compliance to the
provisions described in the preceding sentence, and we, and the other auditor, did not test compliance
with all laws, regulations, contracts, and grant agreements applicable to the Department. However,


                                                   13
U.S. Department of the Treasury
November 15, 2010
Page 14 of 14


providing an opinion on compliance with laws, regulations, contracts, and grant agreements was not
an objective of our audits and, accordingly, we, and the other auditor, do not express such an
opinion.

                               ______________________________

This report is intended solely for the information and use of the Department, the Department’s Office
of Inspector General, OMB, the GAO, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




November 15, 2010




                                                 14
THIS PAGE INTENTIONALLY LEFT BLANK
        SECTION II –

 DEPARTMENT OF THE TREASURY
FISCAL YEAR 2010 PERFORMANCE
  AND ACCOUNTABILITY REPORT
THIS PAGE INTENTIONALLY LEFT BLANK
                    thedepartment
                          treasury
                      of the




November 15, 2010




                    performance and
                    accountability
                    report

                           fiscal year   2010
                     the    united states
                           department
                           of the treasury


                                     our vision
                 Set the global standard in financial and economic leadership



                                    our mission
        Serve the American people and strengthen national security by managing the
U.S. Government’s finances effectively, promoting economic growth and stability, and ensuring
       the safety, soundness, and security of U.S. and international financial systems



                                    our values
                                        service
                         Work for the benefit of the American people

                                      integrity
     Aspire to the highest ethical standards of honesty, trustworthiness, and dependability

                                     excellence
               Strive to be the best, continuously improve, innovate, and adapt

                                    objectivity
                                Encourage independent views

                                accountability
                            Responsible for our conduct and work

                                     community
                    Dedicated to excellent customer service, collaboration,
                          and teamwork while promoting diversity
the department
       treasury
  of the




f i s cal y e ar 2 0 10

performance and
accountability
report
the department of the treasury




                                 This page left intentionally blank


ii
                                                    performance and accountability report | fiscal year 2010




table of contents




                                                                                                                table of contents
   Message from the Secretary of the Treasury
                                                            v


Part 1: Management’s Discussion and Analysis
   Introduction                                                                                           3

   Organization                                                                                           4

   The Treasury Department’s 2007-2012 Strategic Framework                                                7

   Fiscal Year 2010 Summary of Performance by Strategic Goal                                              8

   Treasury’s Priority Performance Goals                                                                 10

   Financial Highlights                                                                                  11

   Fiscal Year 2010 Performance by Strategic Goal                                                        12

       Effectively Managed U S Government Finances                                                       12

       U S and World Economies Perform at Full Economic Potential                                        15

       Prevented Terrorism and Promoted the Nation’s Security
       Through Strengthened International Financial Systems                                              29

       Management and Organizational Excellence                                                          32


   Department of the Treasury Key Performance Measures for 2010                                          35

   Summary of Management and Performance Challenges and High-Risk Areas                                  37

   Analysis of Financial Statements                                                                      40

   Improper Payments Information Act and Recovery Auditing Act                                           45

   Management Assurances                                                                                 47

   Material Weaknesses, Audit Follow-up, and Financial Systems                                           48





table of contents
                                                                                        iii
                    the department of the treasury




                    Part 2: Annual Performance Report
table of contents




                         Introduction                                                                                    53
                         Completeness and Reliability of Performance Data                                                54
                         Strategic Objective: Available Cash Resources to Operate the Government                         56
                         Strategic Objective: Improved Economic Opportunity, Mobility and Security with
                                        Robust, Real, Sustainable Economic Growth at Home and Abroad                     77
                         Strategic Objective: Trust and Confidence in U S Currency Worldwide                             99
                         Strategic Objective: Pre-Empted and Neutralized Threats to the International
                                        Financial System and Enhanced U S National Security                             104
                         Strategic Objective: Enabled and Effective Treasury Department                                 118


                    Part 3: Annual Financial Report
                         Message from the Assistant Secretary for Management and Chief Financial Officer                133
                         Inspector General’s Transmittal Letter                                                         135
                         Auditors’ Report on the Department’s Financial Statements                                      137
                         Management’s Response to Auditors’ Report                                                      151
                         Financial Statements                                                                           152
                         Notes to the Financial Statements                                                              160
                         Required Supplemental Information (Unaudited)                                                  266


                    Part 4: Other Accompanying Information
                         APPENDICES
                            Appendix A: Other Accompanying Information (Unaudited)                                      273
                            Appendix B: Improper Payments Information Act and Recovery Auditing Act                     277
                            Appendix C: Management and Performance Challenges and Responses                             285
                            Appendix D: Material Weaknesses, Audit Follow-up, Financial Systems,
                                      and Recovery Act Risk Management                                                  333
                            Appendix E: Glossary of Acronyms                                                            343




                    iv                                                                                     table of contents
                                                          performance and accountability report | fiscal year 2010




                                                                                                                                            message from the secretary
Message froM the secretary of the treasury


                                  november 15, 2010

                                  over the past two years, the treasury Department has taken a series of unprecedented steps to
                                  pave the way for the nation’s recovery from the worst recession in our lifetimes. the Department’s
                                  top priority has been to serve the american people by strengthening the u.s. economy, helping
                                  create jobs, and restoring confidence in our financial system.

                                  since the last report, we have made important progress on all fronts. over the past year, in addi­
                                  tion to continued implementation of the recovery act, we have recovered most of our invest­
                                  ments in the financial system; helped usher in a historic law to reform our financial system; crafted
                                  important new consumer protections; and significantly increased support for small businesses.

                                   there is much work still to be done to get our economy growing faster. In 2010, the private sector
added more than 1.1 million jobs—an average of 112,000 jobs a month for 10 straight months. treasury will continue to work to
build on these positive trends, accelerate job creation, and drive economic recovery.

the financial system today is also much stronger—and looks much different—than it did two years ago. the firms that remain are
in a much better position to withstand future stress. Most banks have more capital than before the crisis and more than their global
competitors. overall, private capital has replaced public funds, and the government is winding down its financial system rescue
efforts faster than anticipated.

because of treasury’s careful stewardship of taxpayer dollars and the further strengthening of the financial system, the troubled
asset relief Program will likely cost substantially less than originally thought possible. since its inception, the projected cost of
this program has continued to decline dramatically. the Department has stopped committing new funds and has already recovered
$204.1 billion of the total $387.7 billion that has been disbursed for the program, and has received nearly $28 billion in additional
profits from dividends, interest, warrants, and other transactions. Moving forward, further progress towards replacing public support
with private investment will continue to demonstrate treasury’s ongoing commitment to maximize repayments to taxpayers.

In addition to the important efforts to meet our immediate obligations, the Department worked closely with congress to pass
fundamental financial reform. our financial system helped trigger the most severe economic recession in 70 years. the flaws in
that system had to be fixed to protect future generations. In July, after months of negotiations and hard work, congress passed the
Dodd-Frank Wall Street Reform and Consumer Protection Act—the most sweeping financial reforms since the great Depression. the
President quickly signed it into law, and treasury immediately began implementing the new reforms. the Department is now stand­
ing up the consumer financial Protection bureau, conducting meetings of the financial stability oversight council, and putting in
place the office of financial research.

against this backdrop of dramatic change, treasury continues to pursue its goals of effectively managing u.s. government finances,
helping u.s. and world economies perform at full economic potential, promoting the nation’s security through strengthened
international financial systems, and efficiently managing the Department’s resources.




message from the secretary                                                                                                              v
                             the department of the treasury
message from the secretary




                             the Department again received an unqualified opinion on our treasury consolidated financial statements, and we also received
                             another unqualified opinion on the financial statements of our office of financial stability/troubled asset relief Program, which
                             reflect the financial results of their second year of operations.

                             We have validated the accuracy, completeness, and reliability of the financial and performance data in this report. Maintaining our
                             commitment to continuous program and operational improvement, the Department also made progress in reducing management
                             control weaknesses and in efforts to achieve federal financial systems and control objectives.




                             timothy f. geithner
                             secretary of the treasury




                             vi                                                                                            message from the secretary
part 1:

management’s
discussion
and analysis
THIS PAGE INTENTIONALLY LEFT BLANK
                                                            performance and accountability report | fiscal year 2010




                                                                                                                                              part 1: management’s discussion and analysis
IntroDuctIon



to repair and reform the financial system, treasury implemented        treasury continued to secure strong international support
measures ranging from preparation and initial implementation           through the group of 20 (g-20) to reform the international
of the Dodd-Frank Wall Street Reform and Consumer Protection           financial system based on the fundamental principles of a strong
Act (Dodd-frank act) to ongoing rescue and economic recovery           regulatory framework, effective supervision, management of risks
initiatives begun in 2008 and 2009 and to work with interna­           associated with systemic institutions, and transparent interna­
tional partners to reform the international financial system.          tional assessment and peer review. the Department also helped
treasury also plays a critical role in achieving one of the obama      strengthen global bank capital standards through establishment
administration’s top domestic priorities in the implementation         of a new basel III capital agreement.
of health care reform. In addition to these priorities, treasury
                                                                       the Department has a major role in implementing health care
continued to focus on managing the government’s finances and
                                                                       reform. the Irs began developing new systems and business
streamlining operations, including maximizing paperless transac­
                                                                       processes for near term provisions, conducting initial planning
tions and strong performance management in fiscal year 2010.
                                                                       for longer-term provisions, and defining appropriate outreach
the Dodd-frank act, passed in July 2010, introduced wide­              activities for each affected taxpayer group. While implement­
ranging financial reforms to better protect consumers, prevent         ing new provisions, the Irs continued to focus on its priority
financial firms from taking risks that threaten the economy, and       performance goal of improving voluntary tax compliance.
provide the government more effective tools to manage financial
                                                                       fiscal year 2010 saw strong demand in wholesale government
crises. to implement the Dodd-frank act, treasury is establish­
                                                                       securities. During the year, the Department conducted over 290
ing new regulatory bodies, including the consumer financial
                                                                       government securities auctions, a near record, and issued $8.41
Protection bureau, financial stability oversight council, office
                                                                       trillion in marketable treasury securities. only fiscal year 2009
of financial research, and federal Insurance office; overseeing
                                                                       had a greater number of auctions. on average, nominal note and
the closure of the office of thrift supervision and its integration
                                                                       bond auctions have been oversubscribed by 1.9 times, signifi­
into the office of the comptroller of the currency; and working
                                                                       cantly above the previous record of 1.5 times in fiscal year 2009.
with other government agencies to develop new market regula­
tions and guidance.                                                    the Department accelerated its efforts to increase the number
                                                                       of electronic transactions with the public to reduce paper use,
as the economy recovers from the financial crisis and recession,
                                                                       increase efficiency, and reduce costs. one of treasury’s three
treasury has continued its efforts to restore growth and create jobs
                                                                       priority performance goals sets a target to increase electronic
through implementation of the Housing and Economic Recovery
                                                                       transactions with the public by 33 percent by the end of fiscal
Act of 2008 (hera), the Emergency Economic Stabilization Act
                                                                       year 2011. Initiatives related to tax payments, savings bond
of 2008 (eesa), and the American Recovery and Reinvestment
                                                                       purchases, benefit payments, and vendor invoicing will all be
Act of 2009 (recovery act); coordination with federal and state
                                                                       included in this effort. savings are estimated at $400 million
partners; execution of treasury’s housing Programs; regulation of
                                                                       over five years. In addition to these initiatives, e-filing of tax
national banks and thrifts; and various other initiatives. as the
                                                                       returns continued to increase in 2010. sixty-nine percent of
financial system continues to stabilize and the economy recovers,
                                                                       individual returns were filed electronically, up from 66 percent
the troubled asset relief Program (tarP) will wind down and
                                                                       in fiscal year 2009. business returns electronically filed increased
efforts will be focused on implementing financial regulatory reform
                                                                       12 percent over 2009, reaching 25.5 percent.
and protection for consumers.




introduction                                                                                                                             3
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               finally, the Department launched a new performance manage­
                                               ment process led by the Deputy secretary and coordinated
                                                                                                                  O rganizatiOn
                                               through the assistant secretary for Management. Performance        The Department of the Treasury is the executive
                                               review meetings are conducted every quarter for treasury               agency responsible for promoting economic prosperity and
                                               bureaus and policy offices. the meetings in 2010 focused on            ensuring the financial security of the united states. the
                                               clarifying missions, goals, and performance measures and formu­        Department is organized into the departmental offices and
                                               lation of the fiscal year 2012 budget. the performance review          nine operating bureaus and three inspectors general. the
                                               process will mature over the next fiscal year as a deeper under­       departmental offices are primarily responsible for policy
                                               standing of the factors that drive performance are analyzed, and       formulation, while the bureaus are primarily the operating
                                               strategies are developed to deliver improved results.                  units of the organization.

                                               for the online version of this report, please see http://www.
                                               treasury.gov/offices/management/dcfo/accountability-reports.       Departmental Offices
                                                                                                                  Domestic Finance advises and assists in areas of domestic
                                                                                                                      finance, banking, and other related economic matters.
                                                                                                                      In addition, this office develops policies and guidance for
                                                                                                                      treasury Department responsibilities in the areas of financial
                                                                                                                      institutions, federal debt finance, financial regulation, capital
                                                                                                                      markets, financial management, fiscal policy, and cash
                                                                                                                      management decisions.

                                                                                                                  International Affairs protects and supports u.s. economic
                                                                                                                      prosperity by strengthening the external environment for
                                                                                                                      u.s. growth, preventing and mitigating global financial
                                                                                                                      instability, and managing key global challenges.

                                                                                                                  Terrorism and Financial Intelligence (tfI) marshals the
                                                                                                                      Department’s intelligence and enforcement functions with
                                                                                                                      the twin aims of safeguarding the financial system against
                                                                                                                      illicit use and combating intransigent regimes, terrorist
                                                                                                                      facilitators, money launderers, drug kingpins, and other
                                                                                                                      national security threats.

                                                                                                                  Economic Policy reports on current and prospective economic
                                                                                                                      developments and assists in the determination of ap­
                                                                                                                      propriate economic policies. the office is responsible for
                                                                                                                      the review and analysis of domestic economic issues and
                                                                                                                      developments in the financial markets.

                                                                                                                  Tax Policy develops and implements tax policies and programs,
                                                                                                                      reviews regulations and rulings to administer the Internal
                                                                                                                      revenue code, negotiates tax treaties, and provides
                                                                                                                      economic and legal policy analysis for domestic and
                                                                                                                      international tax policy decisions. tax policy also provides
                                                                                                                      revenue estimates for the President’s budget.




                                               4                                                                                                                   organization
                                                           performance and accountability report | fiscal year 2010




                                                                                                                                             part 1: management’s discussion and analysis
Treasurer of the United States serves as a senior advisor             The Bureau of the Public Debt (bPD) borrows the money
    and representative of treasury on behalf of the secretary in            needed to operate the federal government through the
    the areas of community development, real estate, and other              sale of marketable, savings, and special purpose u.s.
    business development initiatives. the treasurer also serves             treasury securities. In addition, it accounts for and ser­
    as one of the agency’s principal advisors and is a spokesper­           vices the public debt and provides reimbursable support
    son in the areas of financial literacy, education and public            services to federal agencies.
    engagement.
                                                                      The Financial Crimes Enforcement Network (fincen)
Community Development Financial Institutions Fund                           safeguards the financial system from the abuses of
    (cDfI fund) expands the capacity of community develop­                  financial crime, including terrorist financing, money
    ment financial institutions and community development                   laundering, and other illicit activity.
    entities to provide credit, capital, tax credit allocations,
    and financial services to underserved domestic populations        The Financial Management Service (fMs) provides

    and communities.                                                        central payment services to federal program agencies,
                                                                            operates the federal government’s collections and
Internally, the departmental offices are responsible for overall            deposit systems, provides government-wide accounting
management of the Department. The Office of Management and                  and reporting services, and manages the collection of
the Chief Financial Officer is responsible for internal manage­             delinquent debt owed to the u.s. government.
ment and controls, as well ensuring contracting opportuni­
ties through the Office of Small and Disadvantaged Business           The Internal Revenue Service (Irs) is the largest of the

Utilization. support organizations include general counsel,                 Department’s bureaus and determines, assesses, and
legislative affairs, and Public affairs. also, three inspectors             collects tax revenue for the federal government.
general—the Office of the Inspector General (OIG), the Treasury       The United States Mint designs, produces, and issues circulat­
Inspector General for Tax Administration (TIGTA), and the                   ing and bullion coins, numismatic coins and other items,
Special Inspector General for the Troubled Asset Relief Program             congressional gold medals, and other medals of national
(SIGTARP)— provide independent audits, investigations, and                  significance. the united states Mint maintains physical
oversight for the Department of the treasury and its programs.              custody and protection of the nation’s gold assets.

                                                                      The Office of the Comptroller of the Currency (occ)
Bureaus
                                                                            charters, regulates, and supervises national banks to
bureaus employ 98 percent of treasury’s workforce and are
                                                                            ensure compliance with consumer laws and regulations
responsible for carrying out specific operations assigned to the
                                                                            and a safe, sound, and competitive banking system that
Department.
                                                                            supports citizens, communities, and the economy.
The Alcohol and Tobacco Tax and Trade Bureau (ttb)
                                                                      The Office of Thrift Supervision (ots) charters, examines,
       collects federal excise taxes on alcohol, tobacco, firearms,
                                                                            supervises, and regulates federal and state-chartered
       and ammunition and assures compliance with tobacco
                                                                            savings associations and their holding companies in
       permitting and alcohol permitting, labeling, and market­
                                                                            order to maintain each thrift’s safety and soundness and
       ing requirements to protect consumers.
                                                                            compliance with consumer laws.
The Bureau of Engraving and Printing (beP) designs and
       manufactures high quality notes and other financial
       documents that deter counterfeiting and meet customer
       requirements for quality, quantity, and performance.




organization                                                                                                                             5
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               the Department                         Of the           treasury O rganizatiOnal C hart



                                                                                                                                                    Treasury Inspector
                                                   Office of the Chief of Staff                                         Secretary                     General for Tax
                                                                                                                                                      Administration

                                                                                                                                                Special Inspector General
                                                                                       Inspector General            Deputy Secretary              for the Troubled Asset
                                                                                                                                                      Relief Program




                                                                                  Under Secretary Domestic       Under Secretary Terrorism           Under Secretary
                                                                                          Finance                  Financial Intelligence          International Affairs




                                                     Internal Revenue                Assistant Secretary          Assistant Secretary          Assistant Secretary            Assistant Secretary
                                                          Service                     Financial Markets           Terrorist Financing         International Markets               Tax Policy
                                                                                                                                                 & Development

                                                    Bureau of Engraving              Assistant Secretary           Assistant Secretary                                      Alcohol and Tobacco
                                                       and Printing                   Financial Stability       Intelligence and Analysis      Assistant Secretary          Tax and Trade Bureau
                                                                                                                                              International Finance


                                                                                    Assistant Secretary            Financial Crimes                                           Assistant Secretary
                                                    United States Mint
                                                                                    Financial Institutions       Enforcement Network            Senior Coordinator             Economic Policy
                                                                                                                                             China Affairs & Strategic
                                                                                                                                             and Economic Dialogue
                                                       Office of the               Community Development                                                                      Assistant Secretary
                                                     Comptroller of the           Financial Institutions Fund                                                                   Public Affairs
                                                        Currency


                                                      Office of Thrift               Assistant Secretary                                                                      Assistant Secretary
                                                       Supervision                          Fiscal                                                                             Legislative Affairs


                                                                                              Bureau of                                                                       Assistant Secretary
                                                                                           the Public Debt                                                                   for Management and
                                                                                                                                                                             Chief Financial Officer

                                                                                             Financial
                                                                                            Management                                                                         General Counsel
                                                                                              Service


                                                                                                                                                                                   Treasurer




                                               6                                                                 the department of the treasury organizational chart
                                                                                performance and accountability report | fiscal year 2010




                                                                                                                                                                                 part 1: management’s discussion and analysis
the treasury DePartMent’s
2007-2012 strategIc fraMeWork

the treasury Department’s Strategic Framework is a summary of our goals, objectives, and outcomes. this framework provides the
basis for performance planning and continuous improvement.

              Strategic Goals              Strategic Objectives                        Value Chains**   Value Chain Outcomes
              Effectively Managed U.S.      Available cash resources to operate the    Collect          •	 Revenue collected when due through a fair and uniform
              Government Finances           government                                 Disburse           application of the law at the lowest possible cost
                                                                                       Borrow           •	 Timely and accurate payments at the lowest possible cost
 Financial




                                                                                       Account          •	 Government financing at the lowest possible cost over time
                                                                                       Invest           •	 Effective cash management

                                                                                                        •	 Accurate, timely, useful, transparent and accessible financial
                                                                                                          information


              U.S. and World Economies      Improved economic opportunity,             Strengthen       •	 Strong U.S. economic competitiveness
              Perform at Full Economic      mobility and security with robust, real,   Regulate         •	 Free trade and investment
              Potential                     sustainable economic growth at home
                                            and abroad                                                  •	 Decreased gap in global standard of living
 Economic




                                                                                                        •	 Competitive capital markets

                                                                                                        •	 Prevented or mitigated financial and economic crises


                                            Trust and confidence in U.S. currency      Manufacture      •	 Commerce enabled through safe, secure U.S. notes and coins
                                            worldwide

              Prevented Terrorism and       Pre-empted and neutralized threats to      Secure           •	 Removed or reduced threats to national security from
              Promoted the Nation’s         the international financial system and                        terrorism, proliferation of weapons of mass destruction,
              Security Through              enhanced U.S. national security                               narcotics trafficking and other criminal activity on the part of
 Security




              Strengthened International                                                                  rogue regimes, individuals, and their support networks
              Financial Systems                                                                         •	 Safer and more transparent U.S. and international financial
                                                                                                          systems


              Management and                Enabled and effective Treasury             Manage           •	 A citizen-centered, results-oriented and strategically aligned
              Organizational Excellence     Department                                                    organization
 Management




                                                                                                        •	 Exceptional accountability and transparency




              ** Value Chains – Programs grouped by a common purpose.




the treasury department’s 2007-2012 strategic framework                                                                                                                      7
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               fIscal year 2010 suMMary of PerforMance by
                                               strategIc goal
                                               Strategic Goal            Key Accomplishments                                           Key Challenges                                                     Trend
                                               Effectively Managed       •	 Collected $2.3 trillion in tax revenue and $23.8 billion   •	 Continue to work toward the Congressional goal of having         Performance 
                                               U.S. Government             in federal excise taxes on tobacco, alcohol, firearms,        80 percent of tax returns filed electronically
                                               Finances                    and ammunition                                              •	 Continue “Paperless” initiatives to convert paper savings
                                                                                                                                                                                                           Budget 
                                                                         •	 Processed over 141.9 million individual returns and          bonds, payments, vendor invoices, and collections to
                                               Cost*:                      issued over 109.5 million refunds                             electronic forms
                                               2009: $14.4 billion                                                                                                                                         Cost 
                                                                         •	 Processed 69 percent of individual tax returns             •	 Implement tax provisions in the Patient Protection and
                                               2010: $15.5 billion         electronically, up from 66 percent in fiscal year 2009        Affordable Care Act
                                                                         •	 Converted nearly 1.5 million federal benefit check         •	 Expand efforts to address offshore tax evasion
                                                                           recipients to direct deposit in fiscal year 2010, 50        •	 Increase compliance among corporate returns
                                                                           percent more than fiscal year 2009
                                                                                                                                       •	 Improve audit coverage of high net-worth/high-income
                                                                         •	 Conducted 47 percent more auctions than the fiscal
                                                                                                                                         taxpayers
                                                                           year 2000 to 2008 average
                                                                                                                                       •	 Continue to make progress toward completing the new
                                                                         •	 Extended the average maturity of the debt by five
                                                                                                                                         taxpayer account database (the Customer Account Data
                                                                           months to an historic average of 58 months                    Engine II)
                                                                                                                                       •	 Accurately forecast government receipts

                                                                                                                                       •	 Develop standard electronic invoicing platform and intra­
                                                                                                                                         governmental transaction processing systems
                                               U.S. and World            •	 Supported enactment of the Dodd-Frank Wall Street          •	 Stand up the Consumer Financial Protection Bureau,               Performance 
                                               Economies Perform at        Reform and Consumer Protection Act of 2010 and                Financial Stability Oversight Council, Office of Financial
                                               Full Economic Potential     initiated implementation of financial reforms                 Research, and Federal Insurance Office
                                                                                                                                                                                                           Budget 
                                                                         •	 Continued implementation of the Emergency Economic         •	 Close the Office of Thrift Supervision and transfer its
                                               Cost*:                      Stabilization Act of 2008 to repair financial and             functions to the Office of the Comptroller of the Currency,
                                               2009: $4.4 billion          housing markets                                               the Federal Reserve, and the Federal Deposit Insurance            Cost 
                                                                         •	 Improved mortgage availability and housing market
                                                                                                                                         Corporation
                                               2010: $5.5 billion
                                                                           stability by implementing the Housing and Economic          •	 Reform the housing finance system to improve long-term
                                                                           Recovery Act of 2008                                          market stability
                                                                         •	 Implemented economic stimulus measures under the           •	 Continue to monitor and mitigate risks at national banks
                                                                           American Recovery and Reinvestment Act of 2009                and thrifts
                                                                         •	 Supported enactment of the Small Business Jobs Act         •	 Reduce mortgage delinquency and foreclosure rates
                                                                           of 2010 to strengthen the capacity of small businesses      •	 Maintain and promote open economies despite rising
                                                                           to create jobs                                                protectionist interests
                                                                         •	 Coordinated with G-20 nations and other partners to
                                                                                                                                       •	 Reform Medicare and Social Security to ensure long-term
                                                                           strengthen international financial regulations                solvency
                                                                         •	 Contributed to fiscal stabilization efforts in countries
                                                                                                                                       •	 Manage cost, productivity, and quality issues related to
                                                                           most directly affected by the financial crisis and            coin and currency production
                                                                           economic recession
                                                                                                                                       •	 Increase financial literacy and access to financial services
                                                                         •	 Coordinated the economic track of the U.S. – China
                                                                                                                                         in low-income and underserved communities
                                                                           Strategic and Economic Dialogue
                                                                                                                                       •	 Monitor compliance of Recovery Act tax provisions
                                                                         •	 Led U.S. engagement in the multilateral development
                                                                           banks to further alleviate poverty and foster broad­
                                                                           based economic growth
                                                                                                                                                                                                    Table continued on next page




                                               8                                                                 fiscal year 2010 summary of performance by strategic goal
                                                                             performance and accountability report | fiscal year 2010




                                                                                                                                                                               part 1: management’s discussion and analysis
Strategic Goal              Key Accomplishments                                           Key Challenges                                                   Trend
Prevented Terrorism          •	 Obtained commitment from financial institutions to        •	 Fully implement anti-money laundering and counter-            Performance 
and Promoted the               reduce business relations with Iran and Iranian banks        terrorist financing laws in key countries
Nation’s Security            •	 Implemented sanctions against North Korean arms           •	 Continue to support efforts in Mexico to detect, interdict,
Through Strengthened                                                                                                                                       Budget 
                               trafficking, luxury goods procurement, and illicit           and investigate the flow of illicit proceeds from narcotics
International Financial        economic activities                                          and human smuggling
Systems                                                                                                                                                    Cost 
                             •	 Supported establishment of the Afghanistan Threat         •	 Modernize Bank Secrecy Act information and analysis
                               Finance Cell                                               •	 Develop compliance practices and regulations for newly
Cost*:
                             •	 Enhanced mechanisms to combat mortgage and loan             regulated industries, such as pre-paid access cards and
2009: $570 million
                               modification fraud and detect health care fraud              mortgage brokers
2010: $668 million
                             •	 Provided key information on Southwest border cash         •	 Strengthen evaluation methodology for Terrorism and
                               flows to law enforcement                                     Financial Intelligence impact measure
                             •	 Seized over $1 billion in forfeitures and recoveries

Management and               •	 Achieved second most-improved agency in the Best          •	 Increase implementation of SIGTARP recommendations            Performance 
Organizational                 Places to Work Rankings by the Partnership for Public        for the Troubled Asset Relief Program
Excellence                     Service                                                    •	 Launch re-designed Treasury website
                                                                                                                                                           Budget 
                             •	 Provided management, financial, budget, IT, facilities,
                                                                                          •	 Implement next stage of Homeland Security Presidential
Cost*:                         procurement, and human capital support to implement          Directive 12 (HSPD-12) logical and physical access
2009: $296 million             the Dodd-Frank Wall Street Reform and Consumer                                                                              Cost 
                               Protection Act                                             •	 Continue consolidation of Treasury data centers
2010: $337 million
                             •	 Exceeded procurement savings and high-risk contract       •	 Implement Enterprise Content Management technology

                               reduction goals set by Office of Management and              initiative to improve Department-wide efficiency
                               Budget (OMB)                                               •	 Continue to implement aggressive paper reduction targets

                             •	 Maintained status as the only agency to consistently      •	 Complete all material loss review work (due to bank
                               receive fully green marks on the OMB Environment and         failures) on time
                               Energy Scorecard
                                                                                          •	 Close planned corrective actions from audits on time
                             •	 Established and conducted data driven budget and
                                                                                          •	 Streamline hiring process
                               performance reviews at the Deputy Secretary level for
                               all bureaus
* Cost is stated as “Performance Cost,” and in addition to budgetary resources, includes imputed costs, depreciation, losses, and other expenses not requiring budgetary
  resources.


               Legend                                      Symbol
               Favorable upward trend                         
               Favorable downward trend                       
               Unfavorable upward trend                       
               Unfavorable downward trend                     
               No change in trend, no effect                  
               No change in trend, favorable effect           
               No change in trend, unfavorable effect         
               Baseline                                        B




fiscal year 2010 summary of performance by strategic goal                                                                                                                  9
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               treasury’s PrIorIty PerforMance goals



                                               the Department established three Priority Performance goals          Significantly Increase the Number of
                                               in 2010 to drive its focus and achieve measurable results for the    Electronic Transactions with the Public
                                               american people in the next two years. these goals are based
                                                                                                                    the safety, security, efficiency, and reliability of treasury
                                               on existing priorities and the strategic goals of the treasury
                                                                                                                    transactions are paramount to maintaining public trust. billions
                                               Department.
                                                                                                                    of transactions for payments to recipients, savings bonds
                                                                                                                    purchases, and tax collections are executed in a year. Increasing
                                               Repair and Reform the Financial System                               the number of electronic transactions with the public will:
                                               the financial crisis of the last two years, with its attendant         •	   reduce costs
                                               recession, job losses, and foreclosures, has required the              •	   reduce errors
                                               Department to take extraordinary actions to preserve the func­
                                                                                                                      •	   Decrease the public’s vulnerability to fraud
                                               tioning of financial and housing markets and restore confidence
                                                                                                                      •	   Increase convenience for recipients and taxpayers
                                               in the integrity of the financial system. gaps and weaknesses
                                               in the supervision and regulation of financial firms limited the       •	   reduce environmental impact
                                               government’s ability to:
                                                 •	   Monitor and prevent risks that built up in the financial
                                                      system
                                                 •	   Provide adequate protections for consumers and investors


                                               Increase Voluntary Tax Compliance
                                               Improving both service and enforcement, along with reforms to
                                               simplify the tax law, are essential to ensure the u.s. tax system
                                               remains the most effective and fairest voluntary compliance
                                               system in the world. reliance on a voluntary compliance tax
                                               system requires:
                                                 •	   effective taxpayer services that enable taxpayers to under­
                                                      stand and meet their tax obligations
                                                 •	   effective enforcement to ensure that all businesses and
                                                      individuals pay the tax they owe




                                               10                                                                                treasury’s priority performance goals
                                                                                                                 performance and accountability report | fiscal year 2010




                                                                                                                                                                                                                                                        part 1: management’s discussion and analysis
fInancIal hIghlIghts


  Total Assets                                 $16,000                                                                     Total Liabilities                             $16,000
                                               $14,000                                                                                                                   $14,000
                                               $12,000                                                                                                                   $12,000
                       Dollars (in Billions)




                                                                                                                                                Dollars (in Billions)
                                               $10,000                                                                                                                   $10,000
                                                $8,000                                                                                                                    $8,000
                                                $6,000                                                                                                                    $6,000
                                                                                   $11,117.0



                                                                                               $13,846.6



                                                                                                            $15,599.3




                                                                                                                                                                                                             $10,807.3



                                                                                                                                                                                                                          $13,418.5



                                                                                                                                                                                                                                       $15,498.2
                                                $4,000                                                                                                                    $4,000
                                                         $8,988.0



                                                                    $9,528.8




                                                                                                                                                                                   $8,873.1



                                                                                                                                                                                              $9,407.7
                                                $2,000                                                                                                                    $2,000
                                                   $0                                                                                                                        $0
                                                         2006       2007          2008         2009        2010                                                                    2006       2007          2008         2009         2010

                                                                               Fiscal Year                                                                                                               Fiscal Year


The increase of $1.8 trillion in total assets in fiscal year 2010 is largely due to the                                  Total liabilities increased by $2.1 trillion from fiscal year 2009 to fiscal year 2010. The
increase in future funds required from the General Fund of the U.S. Government to                                        majority of the increase is due to borrowings from other federal agencies and debt
pay for the federal debt owed to the public and other federal agencies.                                                  issued to the public.



  Net Federal                                    $450                                                                      Total Budgetary                               $2,000
  Debt Interest                                                                                                            Resources                                     $1,800
                                                 $400
  Costs
                                                 $350                                                                                                                    $1,600
                       Dollars (in Billions)




                                                                                                                                                Dollars (in Billions)
                                                                                                                                                                         $1,400
                                                 $300
                                                                                                                                                                         $1,200
                                                 $250
                                                                                                                                                                         $1,000
                                                 $200
                                                                                                                                                                           $800
                                                 $150
                                                                                                                                                                           $600




                                                                                                                                                                                                                         $1,835.0



                                                                                                                                                                                                                                      $1,193.1
                                                 $100                                                                                                                      $400
                                                         $390.9



                                                                    $420.4



                                                                                   $440.9



                                                                                               $363.2



                                                                                                            $390.6




                                                                                                                                                                                   $503.1



                                                                                                                                                                                              $523.0



                                                                                                                                                                                                            $772.2
                                                  $50                                                                                                                      $200
                                                   $0                                                                                                                        $0
                                                         2006       2007          2008         2009        2010                                                                    2006       2007          2008         2009         2010

                                                                               Fiscal Year                                                                                                               Fiscal Year


The increase of $27.4 billion in net interest paid on the federal debt is due to the                                     The majority of the decrease in total budgetary resources for fiscal year 2010 was
increase in the debt. Total federal debt and interest payable increased by $1.66                                         due to the reduction of Troubled Asset Relief Program (TARP) activity and investments
trillion in fiscal year 2010.                                                                                            in the Government Sponsored Enterprises (GSEs).



  Net Outlays                                  $1,000                                                                      Net Cash                                        $2.5
                                                 $900
                                                                                                                           Revenue
                                                                                                                           Received
                                                 $800                                                                                                                      $2.0
                                                                                                                                                Dollars (in Trillions)
                       Dollars (in Billions)




                                                 $700
                                                 $600                                                                                                                      $1.5
                                                 $500
                                                 $400                                                                                                                      $1.0
                                                 $300
                                                 $200                                                                                                                      $0.5
                                                         $413.0



                                                                    $436.0



                                                                                  $462.9



                                                                                               $922.2



                                                                                                           $340.5




                                                                                                                                                                                   $2.28



                                                                                                                                                                                              $2.45



                                                                                                                                                                                                            $2.37



                                                                                                                                                                                                                         $1.96



                                                                                                                                                                                                                                      $1.98




                                                 $100
                                                   $0                                                                                                                      $0.0
                                                         2006       2007          2008         2009        2010                                                                    2006       2007          2008         2009         2010

                                                                               Fiscal Year                                                                                                               Fiscal Year


The majority of the $581.7 billion decrease in net outlays was due to the reduction                                      Net cash revenue received on behalf of the U.S. Government increased by $12.7
of Troubled Asset Relief Program (TARP) activity and investments in the Government                                       billion for fiscal year 2010. This increase can be attributed to an overall improvement
Sponsored Enterprises (GSEs).                                                                                            in the economy.




financial highlights                                                                                                                                                                                                                               11
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               fIscal year 2010 PerforMance

                                               by strategIc goal


                                                                                                                    and payment of premium tax credits. the Irs is assessing the
                                               effeCtively m anageD                                                 overall impact of new health insurance exchanges on tax ad­
                                               u.s. gOvernment finanCes                                             ministration and analyzing information technology (It) system
                                                                                                                    designs that will be needed for enrollment verification, payment
                                               the treasury Department manages the nation’s finances by
                                                                                                                    and accounting processes, tax reconciliation, and administration
                                               collecting money due to the united states, making its pay­
                                                                                                                    of both individual and employer requirements.
                                               ments, managing its borrowing, investing when appropriate, and
                                               performing central accounting functions. In fiscal year 2010, the    Provisions effective in later years will place new administrative
                                               treasury implemented tax provisions contained in the Patient         responsibilities on the Irs and require new systems, business
                                               Protection and Affordable Care Act of 2010 (aca) and the             processes, and coordination with other federal and state entities.
                                               Hiring Incentives to Restore Employment Act of 2010 (hIre). the      efforts will continue into fiscal year 2011. In addition, tIgta
                                               Department also sought to improve processes for tax filing and       reviewed the aca for its impact on tax administration.
                                               payments and created a new office of financial Innovation and
                                               transformation (fIt).
                                                                                                                    Creation of Office of Financial Innovation
                                                                                                                    and Transformation
                                               IRS Implementation of the Patient                                    In fiscal year 2010, treasury created the fIt to develop a
                                               Protection and Affordable Care Act                                   standard electronic invoicing platform and intra-governmental
                                               of 2010                                                              transaction processing systems. the goals of this effort are to
                                               the aca was signed into law on March 23, 2010 and was                lower overall financial transaction processing costs, facilitate the
                                               later amended by the Health Care and Education Reconciliation        resolution of audit issues, and increase transparency of financial
                                               Act of 2010 on March 30, 2010. aca represents the largest            information. fIt’s work comes at a critical time as agencies are
                                               set of tax law changes in more than 20 years, with more than         looking for ways to improve financial transaction procedures
                                               40 provisions that amend the tax laws. although the new law          that are inefficient, fragmented, and expensive. Performance
                                               goes into effect gradually over many years, numerous provisions      will be measured by the reduction in duplicative systems and
                                               like the small business health care tax credit, the Qualifying       improved transparency. Potential government-wide savings are
                                               therapeutic Discovery credit, and the expanded adoption              estimated at hundreds of millions of dollars annually.
                                               credit require immediate action.

                                               the Irs established teams to implement the various provisions.       Implemented the Hiring Incentives to
                                               efforts focused on:                                                  Restore Employment Act
                                                 •	   Developing new systems and business processes for near­       the hIre act of 2010 provides employers an incentive to hire
                                                      term provisions                                               workers who have been unemployed for 60 days or longer by
                                                                                                                    exempting wages paid to these workers from the employer’s 6.2
                                                 •	   conducting initial planning for longer-term provisions
                                                                                                                    percent share of social security payroll taxes for the remainder
                                                 •	   Defining appropriate outreach activities for each affected
                                                                                                                    of the year. In addition to exempting employers from these
                                                      taxpayer group
                                                                                                                    payroll taxes, the hIre act allows employers to claim a tax
                                               the Irs and the Department of health and human services              credit of up to $1,000 for each newly hired qualifying worker
                                               (hhs) partnered to form a coordinating committee to assess           who is retained for one year.
                                               cross-cutting policy considerations. Interagency working teams
                                                                                                                    the Irs collaborated with the payroll industry to implement
                                               were formed to assess operational needs such as data infrastruc­
                                                                                                                    these provisions. treasury estimated that businesses hired
                                               ture, eligibility, enrollment, customer service, communications,



                                               12                                                                  fiscal year 2010 performance by strategic goal
                                                            performance and accountability report | fiscal year 2010




                                                                                                                                             part 1: management’s discussion and analysis
8.1 million new workers who were unemployed for 60 days or             such as “Where’s My refund?,” earned Income tax credit
longer between february to august 2010, making those busi­             (eItc) assistant, and podcasts. over 213 million tax products
nesses eligible to receive hIre act tax exemptions and credits.        were downloaded, an increase of almost 12 percent. In addi­
                                                                       tion, the Irs created youtube videos on subjects including the
Increased Tax Compliance through                                       education tax credit, Making Work Pay, and the homebuyer
                                                                       credit (see www.youtube.com/user/irsvideos). Many were avail­
Greater Openness and Transparency
                                                                       able in english, american sign language, and spanish.
the Irs continues to use more efficient strategies to ensure
large corporate taxpayers are in compliance. the commissioner          the Irs and its partners provide free tax assistance to the
of the Irs announced changes to filing uncertain tax positions,        elderly, disabled, and people with limited english proficiency at
mainly that filers will now be required to provide a concise           more than 12,000 Volunteer Income tax assistance and tax
description for positions taken on their tax returns. Providing        counseling for the elderly sites throughout the nation. More
descriptions will increase certainty and lead to more efficient        than 3.1 million tax returns were prepared in fiscal year 2010. to
examinations. over the next year, Irs examiners will receive           assist taxpayers in the gulf coast, treasury provided a dedicated
special training on the handling of uncertain tax positions.           toll-free telephone line and hosted a gulf coast assistance Day
                                                                       at seven taxpayer assistance centers in the gulf coast region.
In exchange for more openness and transparency before filing,
                                                                       overall, the customer service representative level of service
the Irs compliance assurance Process (caP) program has
                                                                       increased from 70 percent in fiscal year 2009 to 74 percent in
helped resolve issues with large corporate taxpayers earlier and
                                                                       fiscal year 2010.
ensured filing of more accurate returns. the caP program al­
lows taxpayers who identify their tax issues to get certainty with     ttb continued its efforts to promote voluntary compliance
respect to their tax obligations at the time of filing, as opposed     among industry members in 2010 through industry seminars, web
to having to wait for the Irs to examine issues during an audit.       site tutorials, and other outreach efforts. Despite the prolonged
the caP program benefits both the Irs and the taxpayer by              economic downturn, efforts were successful in maintaining the
fostering compliance, reducing the time it takes to process a          voluntary compliance rate achieved in fiscal years 2008 and
return, and improving both customer and employee satisfaction          2009. ttb had a compliance rate of 94 percent for timely filed
while maintaining a high level of quality. In fiscal year 2010,        tax payments among large excise taxpayers this fiscal year.
participation increased to 112 corporate taxpayers, with all 102
from 2009 returning.
                                                                       Expanded Enforcement of Tax Laws to
                                                                       Ensure Tax Compliance
Tax Returns Filed Electronically                                       Irs enforcement initiatives continued to focus on pursuing
In fiscal year 2010, treasury processed 141.9 million individual       noncompliant high-income and high net-worth individuals and
returns and issued more than 109.5 million refunds totaling $366       reducing overseas tax evasion. as a result of these efforts, fiscal
billion. sixty-nine percent of individual returns were filed elec­     year 2010 Irs total enforcement revenue was $57.6 billion,
tronically, up from 66 percent in fiscal year 2009. business returns   exceeding the $48.9 billion in revenue received in fiscal year
filed electronically increased 12 percent over 2009, reaching 25.5     2009 by 18 percent. the number of audits of high net-worth
percent. although this is a clear improvement, treasury has not        individuals increased more than five percent.
yet reached the congressional goal of 80 percent of tax returns
filed electronically. treasury is improving online resources and       the Irs strengthened international enforcement efforts by dou­
engaging in a tax preparer strategy to improve the e-file rate.        bling its offshore presence, including establishing new offices in
                                                                       asia and central america, placing additional law enforcement
                                                                       personnel at existing offices, and expanding interactions with
Improved Outreach and Automated Tools
                                                                       key international organizations involved in tax and financial
to Improve Taxpayer Service                                            law compliance. the Irs also identified and examined 17,888
treasury strives to ensure taxpayers have access to the informa­       foreign resident tax returns with tax deficiencies totaling over
tion and support necessary to meet their tax obligations. the          $1.4 billion.
Irs continued to improve its automated web tools and services,



effectively managed u.s. government finances                                                                                           13
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               to enforce the floor stocks tax (fst) on tobacco products in                                                           mail, bond inserts, webcasts and other online information, and
                                               the Children’s Health Insurance Program Reauthorization Act of                                                         targeted print and radio advertising.
                                               2009 (chIPra), ttb developed a targeted audit plan. ttb
                                                                                                                                                                      treasuryDirect continued to grow, adding 99,800 new customer
                                               completed more than 250 field visits to verify fst payment,
                                                                                                                                                                      accounts to reach nearly one million accounts in fiscal year
                                               which identified $10.2 million in additional tax, or an average
                                                                                                                                                                      2010. bPD continues to improve the system and added a
                                               underpayment of $40,000. fst collections at the end of the fis­
                                                                                                                                                                      streamlined process for reinvesting marketable securities.
                                               cal year totaled nearly $1.3 billion. During fiscal year 2010, ttb
                                               carried out 35 joint investigations with various federal, state,
                                               and local law enforcement agencies, resulting in the seizure of                                                        Greater Use of Electronic Fund Transfers
                                               more than 3,000 cases of alcohol beverage products and nearly                                                          for Payments
                                               100,000 cartons of cigarettes having an estimated federal and                                                          During fiscal year 2010, fMs continued to expand the use of
                                               state tax liability of $30 million.                                                                                    electronic fund transfers to deliver federal payments, improve
                                                                                                                                                                      service to payment recipients, and reduce government program
                                               High Number of Debt Auctions with High                                                                                 costs. go Direct, a campaign to motivate federal benefit recipi­
                                               Demand                                                                                                                 ents to use direct deposit, recently concluded a successful fifth
                                                                                                                                                                      year in which nearly 1.5 million conversions were attributed to
                                               there has been an unprecedented demand for treasury securi­
                                                                                                                                                                      the campaign. a total of five million conversions have occurred
                                               ties. In fiscal year 2010, the Department conducted over 290
                                                                                                                                                                      since the inception of the campaign in 2005. fMs has also
                                               government auctions, a near-record. on average, nominal note
                                                                                                                                                                      helped unbanked federal check recipients receive electronic pay­
                                               and bond auctions have been oversubscribed by 1.9 times,
                                                                                                                                                                      ments through Direct express, a program which allows federal
                                               significantly above the previous record of 1.5 times in fiscal year
                                                                                                                                                                      benefits recipients to receive payments on a pre-paid debit card.
                                               2009. the value of marketable securities issues, $8.41 trillion,
                                                                                                                                                                      More than one million people have signed up for the card since
                                               was only lower than the fiscal year 2009 level of $8.87 trillion.
                                                                                                                                                                      it was introduced in april 2008. overall, 82 percent of treasury
                                               In this strong demand environment, treasury extended the
                                                                                                                                                                      payments and associated information were made electronically,
                                               average maturity of the debt by 5 months, back to an historic
                                                                                                                                                                      an increase of one percentage point from fiscal year 2009.
                                               average of 58 months.


                                               Prepared to End Paper Payroll Saving                                                                                   Challenges Forecasting Government
                                               Bonds and Expanded Online Savings                                                                                      Receipts During the Recovery
                                               Bond Customer Base                                                                                                     several factors in the current climate have complicated efforts to
                                                                                                                                                                      forecast government receipts. key economic factors such as gross
                                               In fiscal year 2010, treasury announced an initiative to end
                                                                                                                                                                      domestic product and employment did not improve as much as
                                               the sale of paper savings bonds through payroll savings plans by
                                                                                                                                                                      assumed in the President’s fiscal year 2011 budget. In addition,
                                               January 2011. throughout 2010, the bPD worked with federal
                                                                                                                                                                      individual tax payments in april 2010 came in below forecast
                                               reserve banks, agents, and employers to encourage customers
                                                                                                                                                                      as liabilities for tax year 2009 were much lower than expected.
                                               to transition to treasuryDirect, an online system for purchasing
                                                                                                                                                                      credits from the American Recovery and Reinvestment Act of
                                               electronic treasury securities. outreach efforts included direct
                                                                                                                                                                      2009 (recovery act) further reduced these taxes. corporate
                                                                                                                                                                      profitability and thus corporate tax receipts also turned around,
                                                Number of                               $15,000,000                                                            400
                                                Debt Auctions                                                                                                         showing strong increases in fiscal year 2010. federal reserve
                                                vs. Debt                                $12,000,000                                                            320
                                                Outstanding                                                                                                           earnings, reflecting the increase in securities held by the federal
                                                                Dollars (in Millions)




                                                                                         $9,000,000                                                            240    reserve, more than doubled from their level in fiscal year 2009.
                                                                                         $6,000,000                                                            160

                                                                                         $3,000,000                                                            80

                                                                                                $0                                                             0
                                                                                                      2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
                                                                                                                           Fiscal Year
                                                                                                           Debt Outstanding              Number of Auctions




                                               14                                                                                                                    fiscal year 2010 performance by strategic goal
                                                          performance and accountability report | fiscal year 2010




                                                                                                                                           part 1: management’s discussion and analysis
                                                                    tory system by providing an effective system for monitoring
u.s. anD WOrlD e COnOmies                                           and responding to systemic risks that could threaten financial
p erfOrm at full e COnOmiC                                          stability; creating a single point of accountability for tougher,
pOtential                                                           more consistent supervision of the largest and most intercon­
                                                                    nected institutions; and providing regulatory coverage of the full
to achieve conditions that enable economies to perform at full      range of risks and participants in the financial system. the act
economic potential, the treasury Department must stimulate          addressed these reforms in the following ways:
growth through the development and implementation of poli­
                                                                      •	   Created a Financial Stability Oversight Council. the
cies that effectively strengthen private sector growth, regulate
                                                                           financial stability oversight council (the council)
banking and financial markets, create pro-growth tax policies,
                                                                           includes the heads of the principal federal financial regula­
advocate free trade and investment, and foster sustained and
                                                                           tors and is chaired by the secretary of the treasury. the
broad-based economic development.
                                                                           council has primary responsibility for examining emerging
In fiscal year 2010, the Department focused primarily on                   threats to the financial system, facilitating the coordina­
repairing and reforming the financial system and implement­                tion of financial regulatory policy, designating firms for
ing stimulus measures to restore the country’s foundation for              heightened supervision by the federal reserve, and making
economic growth and jobs creation. the Dodd–Frank Wall                     recommendations to the federal reserve and other federal
Street Reform and Consumer Protection Act of 2010 (Dodd­                   financial regulators concerning heightened prudential
frank act), enacted in July 2010, is the most comprehensive                standards.
reform of financial regulation since the great Depression. the        •	   Created an Office of Financial Research. the office
Department is implementing these reforms in partnership                    of financial research (ofr) is a new treasury office
with other federal agencies, state regulators, and international           established to support the council in its identification and
authorities. continuing implementation of the recovery act                 analysis of risks in the financial system. ofr will collect
and passage of the Small Business Jobs Act of 2010 provide impor­          and standardize financial data, develop and publish key ref­
tant support for businesses and consumers contending with a                erence databases, and conduct research on financial market
weakened economy. In addition, the Department continued to                 activities to identify potential sources of systemic risk.
implement the troubled asset relief Program (tarP) under
                                                                      •	   Established a Federal Insurance Office. the federal
the Emergency Economic Stabilization Act of 2008 (eesa); man­
                                                                           Insurance office (fIo) is a new treasury office established
age initiatives to support the housing market under the Housing
                                                                           to advise the secretary on insurance policy and regulatory
and Economic Recovery Act of 2008 (hera); regulate national
                                                                           issues; monitor the insurance industry to identify gaps in
banks and thrifts; and execute other initiatives to stabilize the
                                                                           regulation that could contribute to a systemic crisis; and
financial system and support economic recovery.
                                                                           assist the secretary and the u.s. trade representative in
                                                                           negotiating international insurance agreements.
Financial Regulatory Reform
                                                                      •	   Improved supervision and regulation of the largest, most
on July 21, 2010, President obama signed the Dodd-frank act                interconnected financial firms. any financial firm which
into law, enacting historic reforms that replaced an outdated              could pose a threat to financial stability through a combina­
financial regulatory system with a new foundation for invest­              tion of size, leverage, or interconnectedness will be subject
ment, innovation, and growth. these reforms will help ensure               to comprehensive supervision and regulation by the federal
that risks taken by financial institutions do not threaten the             reserve. larger, more interconnected firms will be subject
health of the economy as a whole.                                          to higher prudential standards requiring them to internalize
                                                                           the risks they impose on the system and submit to early
Monitoring and mitigating systemic risk
                                                                           remediation action should their capital levels decline.
In the recent crisis, insufficient monitoring of emerging concen­          through the reforms, shareholders and creditors will bear
trations of risk in the financial system created the perception            the risks, and the ultimate costs, of failure, not taxpayers.
that some large firms were “too-big-to-fail.” to eliminate this
perception, the Dodd-frank act reformed the financial regula­



u.s. and world economies perform at full economic potential                                                                          15
                                               the department of the treasury
part 1: management’s discussion and analysis




                                                 •	   Strengthened oversight of systemically important pay­                   capital ratios for financial firms, as well as the standards
                                                      ment, clearing, and settlement systems. the council                     for the quality of capital held. In addition, significant
                                                      has been provided authority under the act to designate                  exposures between financial firms will carry added capital
                                                      systemically important payment, clearing, and settlement                charges. the combination of higher capital ratios, new
                                                      systems and activities, and subject them to risk manage­                capital requirements, and tougher and more extensive
                                                      ment standards. these will generally be prescribed by the               measurement standards will help ensure that firms have
                                                      federal reserve, sec, and commodity futures trading                     sufficient resources to weather financial crises without
                                                      commission (cftc) in consultation with the council.                     government assistance.
                                                 •	   Constrained the size of the largest firms. the Dodd-frank          •	   Enhanced resolution authority. although bankruptcy is
                                                      act prevents any financial firm from growing by acquisi­                the primary solution for failing non-bank financial compa­
                                                      tion to hold more than ten percent of the liabilities in                nies, the recent financial crisis demonstrated the need for
                                                      the financial system, limiting the adverse effects from the             an additional legal mechanism to wind down these firms.
                                                      failure of any single firm, and preventing further concentra­           the Dodd-frank act established an emergency resolution
                                                      tion within the financial system.                                       regime, modeled on the existing system for federal Deposit
                                                 •	   Comprehensive oversight of the over-the-counter (OTC)                   Insurance corporation (fDIc) resolution of failed banks,
                                                      derivatives markets for the first time. growth and                      to resolve any large, interconnected financial firm whose
                                                      rapid innovation of credit default swaps and other otc                  imminent failure could threaten the stability of the finan­
                                                      derivatives created new financial risks. the Dodd-frank                 cial system. under the regime, major financial firms are
                                                      act regulates otc derivative markets for the first time,                required to develop rapid resolution plans to be deployed
                                                      requiring standardized derivative contracts be centrally                in the event of their failure and treasury possesses the
                                                      cleared and traded on regulated exchanges or other trading              authority to appoint the fDIc as receiver for any failing
                                                      platforms, and establishes stronger prudential and business             firm which poses a threat to the broader system.
                                                      conduct standards for all major participants in otc deriva­      Restoring discipline to the market
                                                      tives markets.
                                                                                                                       the Dodd-frank reforms help restore market discipline by limit­
                                                 •	   Separated banking and speculative trading. the Dodd­             ing regulatory arbitrage and reducing incentives for excessive
                                                      frank act separates speculative proprietary trading from         risk-taking.
                                                      the business of banking to safeguard taxpayers and deposi­
                                                                                                                         •	   Abolished OTS and transferred its duties to the OCC,
                                                      tors. the act further limits banks’ investments in hedge
                                                                                                                              Federal Reserve, and FDIC. the Dodd-frank act
                                                      funds and private equity funds.
                                                                                                                              abolishes ots, and transfers its duties to occ, the federal
                                                 •	   Required registration of advisors to hedge funds and                    reserve, and fDIc. this reform streamlines the regulatory
                                                      other private pools of capital. under the Dodd-frank act,               system and reduces potential for regulatory arbitrage.
                                                      hedge funds and other private pools of capital, including
                                                                                                                         •	   Strengthened supervision and regulation of securitiza­
                                                      private equity funds, are now required to register with the
                                                                                                                              tion markets. to better align investor and issuer interests,
                                                      sec. Prior to the financial crisis, the government lacked
                                                                                                                              the Dodd-frank act requires that originators or issuers of
                                                      the data necessary to monitor these funds’ activities and
                                                                                                                              certain asset-backed securities retain a five percent stake
                                                      assess potential risks in the market.
                                                                                                                              in the credit risk of the securities they sell. the act also
                                                                                                                              provides the sec authority to require robust reporting by
                                               Requiring basic reform of capital,
                                                                                                                              these originators and issuers.
                                               supervision, and resolution authority
                                                                                                                         •	   Strengthened credit rating agency regulation. the
                                               the Dodd-frank act imposes higher prudential standards
                                                                                                                              Dodd-frank act includes provisions expanding transpar­
                                               on the largest, most interconnected firms, including stronger
                                                                                                                              ency and disclosure requirements for credit rating agencies
                                               capital, leverage, and liquidity requirements.
                                                                                                                              and institutes tougher examinations of internal controls at
                                                 •	   Raised standards for all financial firms. the Dodd-frank
                                                                                                                              these agencies to help ensure investors have more reliable
                                                      act, together with the basel III capital agreements, raised
                                                                                                                              information to assess the risks they are taking.



                                               16
                                                                    fiscal year 2010 performance by strategic goal
                                                           performance and accountability report | fiscal year 2010




                                                                                                                                           part 1: management’s discussion and analysis
  •	   Realigned executive compensation. the Dodd-frank act            •	   full transparency and disclosure are provided in the
       requires all publicly-traded companies hold non-binding              implementation process, through publication of draft rules,
       shareholder votes on executive compensation packages and             available opportunities for public comment, and consulta­
       establishes greater independence for board compensation              tion with a broad range of groups and individuals
       committees. the measures are intended to better align           •	   regulations are streamlined and simplified where possible to
       executive compensation with long-term shareholder value              minimize duplication and eliminate rules that do not work
       and prevent use of compensation incentives that could
                                                                       •	   Implementation is coordinated with other federal agencies
       threaten a firm’s safety and soundness.
                                                                            to ensure that new rules across government work together
                                                                            and not against each other
Protecting consumers and investors from
financial abuse                                                        •	   every effort is made to create a more level playing field,
                                                                            both between banks and non-banks in the u.s., as well as
the Dodd-frank act contains historic reforms to protect con­
                                                                            between major financial institutions globally
sumers and investors from the kinds of abuse that contributed to
the recent financial crisis.                                           •	   freedom of innovation is protected to ensure economic
                                                                            growth
  •	   Created a Consumer Financial Protection Bureau. the
       Dodd-frank act consolidates authorities for consumer
                                                                     Treasury’s support for new entities
       financial protection—which were fragmented across seven
       federal agencies—into a single, independent consumer          treasury has primary responsibility under the legislation to
       financial Protection bureau (cfPb) within the federal         stand-up the cfPb, the council, ofr, and fIo. the secretary
       reserve system. the cfPb will protect consumers in the        also has general direction over the transfer of authorities from
       financial marketplace against deceptive and unscrupulous      ots to occ.
       practices and ensure that they have the information needed
       to choose financial products wisely.
                                                                     The Consumer Financial Protection Bureau
                                                                     under the act, the secretary is responsible for standing up
  •	   Strengthened investor protections. the Dodd-frank act
                                                                     the cfPb until the first Director is confirmed by the senate.
       strengthens the sec’s authority to protect investors by
                                                                     the secretary has designated July 21, 2011, as the “designated
       establishing consistent standards of conduct and account­
                                                                     transfer date” on which the cfPb will assume certain authori­
       ability for broker-dealers and investment advisors, improv­
                                                                     ties from seven federal agencies. after the designated transfer
       ing the timing and quality of disclosures, and restricting
                                                                     date, the cfPb will implement rules for consumer financial
       “short sale” activities. the act also creates an Investor
                                                                     products and services, develop supervision programs to regularly
       advocate to identify issues of concern to investors and
                                                                     examine the most critical bank and nonbank financial services
       raises the maximum cash advance amount provided by the
                                                                     providers, operate programs to promote greater financial
       securities Investor Protection corporation from $100,000
                                                                     literacy among consumers, and establish a nationwide consumer
       to $250,000.
                                                                     complaint response unit. Immediate tasks include designing an
                                                                     organizational structure, establishing program and administra­
Treasury’s implementation of the Dodd-Frank
Act                                                                  tive support offices, and recruiting staff. on september 17,
                                                                     2010, President obama named elizabeth Warren as assistant to
In implementing the Dodd-frank act, treasury is working
                                                                     the President and the secretary named her as special advisor
hard to ensure that the new rules provide necessary protec­
                                                                     on the cfPb to help stand-up the bureau.
tions against financial excess, while preserving the benefits of
financial innovation.
                                                                     Financial Stability Oversight Council
Guiding Principles for Implementation                                Prior to the Dodd-frank act, the regulatory framework was
                                                                     structured to focus regulators narrowly on individual institutions
  •	   reforms are implemented as quickly as possible to provide
                                                                     and markets, allowing loopholes, gaps and inconsistencies to
       clarity to the public and the markets
                                                                     emerge which weakened standards. the council’s primary role
                                                                     is to overcome this siloed structure and improve coordination



u.s. and world economies perform at full economic potential                                                                          17
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               between financial regulators. the council also plays an impor­        Transfer of OTS Authorities
                                               tant role in making regulatory decisions, including determining       under the Dodd-frank act, the responsibilities of ots are trans­
                                               which major non-bank financial firms and critical financial           ferred to occ, the federal reserve, and fDIc. the bulk of these
                                               market utilities should be subject to heightened supervision and      responsibilities will be transfered to occ. currently, occ and
                                               development of prudential standards. federal and state regula­        ots staff are working together under the general direction of the
                                               tors will work together through the council to identify risks         secretary to ensure a smooth transfer of authorities to occ.
                                               to financial stability, respond to any emerging threats in the
                                               system, and promote market discipline. the first meeting of the
                                               council was held on october 1, 2010.
                                                                                                                     Troubled Asset Relief Program (TARP)
                                                                                                                     tarP was established by treasury following passage of eesa on
                                               The Office of Financial Research                                      october 3, 2008. established during the height of the financial
                                                                                                                     crisis, tarP, in conjunction with other federal government
                                               ofr was established to support the council by providing
                                                                                                                     actions, helped to unfreeze the markets for credit and capital,
                                               information and analysis necessary to fulfill its mission. under
                                                                                                                     bringing down the cost of borrowing for businesses, individuals,
                                               the legislation, ofr has two primary divisions: a Data center
                                                                                                                     and state and local governments, restoring confidence in the
                                               and a research and analysis center. the Data center will set
                                                                                                                     financial system, and restarting economic growth. tarP did so
                                               standards for financial reporting and collect data to improve the
                                                                                                                     faster, and at a much lower cost, than many anticipated.
                                               quality of information that supervisors and market participants
                                               rely on to manage risk. the Data center will also develop and         at the peak of the financial crisis, many banks were not making
                                               publish reference databases identifying and describing financial      new loans to businesses, or even to one another. Many busi­
                                               contracts and institutions to increase market transparency            nesses could not get financing in capital markets. numerous
                                               and facilitate research on the financial system. the research         municipalities and state governments could not issue bonds at
                                               and analysis center will analyze market activities to identify        reasonable rates. the securitization markets — which provide
                                               possible concentrations of risk or sources of market instability      financing for credit cards, student loans, auto loans and other
                                               and report findings to council members and congress. treasury         consumer financing — had basically stopped functioning. the
                                               is committed to seeking advice and expertise from the private         economy was contracting at an accelerating rate, with millions
                                               sector, academia, and congress in standing up ofr and will            of americans losing their jobs.
                                               make every effort to avoid duplicating existing government data
                                               collection efforts or imposing unnecessary burdens on industry        by the middle of 2009, assisted by the combined impact of the
                                               participants.                                                         federal government’s financial programs, borrowing rates had
                                                                                                                     fallen sharply for businesses, individuals, and state and local
                                               The Federal Insurance Office                                          governments. More companies could fund themselves in private
                                               fIo was created to provide the federal government dedicated           markets by issuing equity and long-term debt. housing prices
                                               expertise for the first time regarding the insurance industry. the    began to stabilize. the value of the savings of american workers
                                               office will monitor the insurance industry, including identify­       had begun to recover. economic growth turned from negative to
                                               ing gaps or issues in the regulation of insurance that could          positive.
                                               contribute to a systemic crisis in the insurance industry or the
                                                                                                                     eesa provided the secretary of the treasury with the authority
                                               financial system. fIo may receive and collect data and informa­
                                                                                                                     to purchase or guarantee $700 billion but it has been clear for
                                               tion on and from the insurance industry and insurers; enter into
                                                                                                                     some time that tarP will cost taxpayers substantially less than
                                               information-sharing agreements; analyze and disseminate data
                                                                                                                     $700 billion. In December 2009, the secretary of the treasury
                                               and information; and issue reports. treasury will work closely
                                                                                                                     announced that no more than $550 billion of the authority
                                               with the u.s. trade representative to effectively engage repre­
                                                                                                                     would be used. In July 2010, the Dodd-frank act reduced the
                                               sentatives from other countries on prudential insurance issues.
                                                                                                                     cumulative authority to $475 billion, in line with expected
                                                                                                                     investment amounts. finally, many of the investments under
                                                                                                                     the program, particularly those aimed at stabilizing banks, have
                                                                                                                     thus far delivered positive returns for taxpayers.



                                               18                                                                   fiscal year 2010 performance by strategic goal
                                                            performance and accountability report | fiscal year 2010




                                                                                                                                             part 1: management’s discussion and analysis
as a result of improved market conditions, lower utilization           the reported cost of tarP activities from inception (october
of the program, and careful stewardship, the expected cost of          3, 2008) through september 30, 2010 based on the treasury
tarP over its lifetime continues to decline. In the august 2009        financial statements was $18.5 billion. unlike the federal budget
Midsession review of the President’s 2010 budget, the lifetime         cost estimate, this reflects only transactions through september
cost of tarP, based on budget scoring conventions, was pro­            30, 2010. thus, it does not include the committed but undis­
jected to be $341 billion (assuming the full $700 billion of tarP      bursed funds for housing programs as well as other programs, all
authority was utilized). by the february 2011 President’s budget,      of which are included in the expected lifetime cost for budget
the lifetime cost of tarP had decreased to $117 billion (assum­        purposes. the $18.5 billion cost consists of $23.1 billion of
ing $546 billion of the $700 billion tarP authority was utilized).     reported tarP net income in the treasury financial statements
                                                                       for fiscal year 2010 and the $41.6 billion of reported tarP net
the Department’s most recent analysis of the potential lifetime
                                                                       cost for the year ended september 30, 2009. the change since
cost of tarP suggests that if the proposed restructuring of aIg
                                                                       last year is primarily due to the early repayment of tarP invest­
is completed as announced the lifetime cost of tarP could
                                                                       ments by the larger banks and an improvement in the financial
be less than $50 billion. under the proposed restructuring of
                                                                       markets and the economy.
aIg, treasury would receive 1.1 billion shares of aIg common
stock in exchange for its tarP investment. While this cost is          since its inception, tarP has disbursed $387.7 billion in
based on the october 1, 2010 market price, it should be noted          direct loans and equity investments; collected $204.1 billion in
that the proceeds that would actually be received by treasury          repayments; and reported $16.7 billion in dividends, interest,
from the future sale of such stock would be based on the market        and fees, and $10.9 billion in net proceeds from the sale and
price at the time of sale, which may differ materially from the        repurchase of assets in excess of cost. as of september 30, 2010,
october 1, 2010 market price. of course, the final lifetime cost       tarP had $179.2 billion in gross outstanding direct loans
of tarP will depend on how financial conditions evolve in the          and equity investments, which are valued at $142.4 billion. In
future, including the price of aIg shares, and other common            addition, from inception through september 30, 2010, tarP
stock held by tarP.                                                    incurred costs related to treasury housing programs of $0.8
                                                                       billion and administrative costs of $0.5 billion.
the estimated lifetime cost of tarP reflects several factors, in­
cluding the cost of the initiatives to help responsible homeowners     the cost estimates for budget and financial statement purposes
avoid foreclosure, for which $45.1 billion is budgeted and which       are only estimates. they are based on current market prices
has not yet been spent. all funds disbursed for housing programs       where available. because market prices change, such estimates
result in a cost because these funds will not be returned. It also     will change. the ultimate cost of the outstanding tarP
reflects primarily losses on investments in the auto companies         investments is therefore subject to significant uncertainty and
and aIg. these losses are largely offset in part by gains on tarP      will depend on, among other things, how the economy, financial
investments in banks and gains in other programs.                      markets and particular companies perform.

because the restructuring has not occurred and its completion is       treasury is moving quickly to recover the federal government’s
subject to contingencies, the value of the aIg investment in the       investments. treasury aims to dispose of its investments as
fiscal year 2010 financial statements does not reflect any potential   quickly as practicable, in a timely and orderly manner consistent
from the restructuring.                                                with the duty to promote financial stability and protect taxpay­
                                                                       ers’ interests.
note that the lifetime cost of tarP, based on budget scoring
                                                                         •	   treasury continues to carefully manage the tarP assets
conventions, differs from the cost included in the treasury
                                                                              and has recovered more than 75 percent of the tarP
financial statements. estimates of lifetime costs assume that
                                                                              funds provided to banks, principally through the capital
all planned expenditures are made. by contrast, the tarP
                                                                              Purchase Program (cPP), and expects these capital support
financial statement costs are based on transactions through
                                                                              programs for banks to provide an overall positive return for
september 30, 2010.
                                                                              taxpayers.




u.s. and world economies perform at full economic potential                                                                            19
                                               the department of the treasury
part 1: management’s discussion and analysis




                                                 •	   treasury is beginning to recover investments in the auto          Housing and Government Sponsored
                                                      industry. gM has repaid the assistance it received that           Enterprise Programs
                                                      remained outstanding as a loan and has recently agreed
                                                                                                                        treasury’s housing initiatives have sought to assist responsible
                                                      to repurchase the preferred stock issued to treasury. the
                                                                                                                        homeowners who are struggling in the aftermath of the
                                                      ultimate loss estimate on investments in chrysler and ally
                                                                                                                        recent financial crisis and recession. the home affordable
                                                      financial, Inc. (formerly gMac) is expected to be less than
                                                                                                                        Modification Program (haMP) in tarP and tax relief for
                                                      last year as well due to financial improvements in both firms.
                                                                                                                        first-time home buyers provided direct assistance to homeown­
                                                 •	   the restructuring plan announced by aIg on september              ers. treasury support for state hfas, ongoing functions of the
                                                      30, 2010, assuming it is completed as announced, will             government sponsored enterprises (gses, in this case fannie
                                                      accelerate the timeline for repaying the federal government       Mae and freddie Mac), and stability in the mortgage-backed
                                                      and put taxpayers in a considerably stronger position to          securities (Mbs) market have sought to ensure overall stability
                                                      recoup treasury investments in the company. as noted              in housing financial markets.
                                                      earlier, the aIg restructuring is not yet completed and its
                                                      closing is subject to contingencies.                              the haMP program is designed to help make housing afford­
                                                                                                                        able to american homeowners who are strained by the double
                                               treasury also expanded the treasury housing Programs under               impact of high mortgage payments and a significantly reduced
                                               tarP. treasury launched the housing finance agency (hfa)                 home value. the program has reached out to these borrow­
                                               Innovation fund for the hardest hit housing Markets (hfa                 ers and provided an industry-leading solution for servicers to
                                               hardest hit fund, or hhf) to help state housing finance                  negotiate lower mortgage payments with qualifying homeown­
                                               agencies provide additional relief to homeowners in the states           ers, allowing those homeowners to make continued mortgage
                                               hit hardest by unemployment and house price declines. In                 payments through a trial program and remain in their homes.
                                               addition, treasury and the Department of housing and urban               through september 30, 2010, treasury has made commitments
                                               Development (huD) enhanced the fha-refinance program                     to fund up to $29.9 billion in haMP payments. eighteen
                                               to enable homeowners whose mortgages exceed the value of                 months into the program, treasury under haMP has helped
                                               their homes to refinance into more affordable mortgages if their         more than 619,000 homeowners enter a trial modification,
                                               lenders agree to reduce the unpaid principal balance by at least         reducing their monthly mortgage payments to more afford­
                                               ten percent.                                                             able levels. this includes nearly 220,000 homeowners whose
                                                                                                                        mortgage terms have been modified permanently.
                                               final authority to make commitments within the reduced
                                               tarP authorization expired on october 3, 2010. servicers that
                                                                                                                        Senior Preferred Stock Purchase Agreements
                                               participate in the Making home affordable Program (Mha)
                                                                                                                        the Housing and Economic Recovery Act of 2008 (hera) autho­
                                               can continue to make mortgage modifications through the end
                                                                                                                        rized treasury to purchase obligations and other securities issued
                                               of calendar year 2012. the hfa hardest hit fund permits
                                                                                                                        by fannie Mae, freddie Mac or one of the 12 federal home
                                               participating state housing agencies to provide support through
                                                                                                                        loan banks. at the time the federal housing finance agency
                                               their programs until as late as calendar year 2017, depending
                                                                                                                        (fhfa) placed fannie Mae and freddie Mac into conservator­
                                               on available funding. the fha-refinance program is designed
                                                                                                                        ship in september 2008, treasury established senior Preferred
                                               to enable homeowners to refinance their mortgage loans and
                                                                                                                        stock Purchase agreements (sPsPas) to ensure that each
                                               reduce their overall mortgage debt through the end of calendar
                                                                                                                        firm maintained a positive net worth. the maximum amount
                                               year 2012.
                                                                                                                        available to each gse under this agreement was originally $100
                                               treasury continues to provide detailed information about                 billion and in May 2009 was raised to $200 billion. In December
                                               tarP to insure transparency. treasury published a Two-Year               2009, the Department amended the sPsPas to replace the $200
                                               Retrospective Report on tarP on october 5, 2010. this report             billion per gse funding commitment cap with a formulaic cap
                                               includes information on tarP programs and the effects of                 that will allow continued draws for three years at amounts that
                                               tarP and other federal government actions to address the                 will automatically adjust upwards quarterly by the cumulative
                                               financial crisis. readers are invited to refer to this document at       amount of any losses realized by either gse and downward by
                                               www.financialstability.gov.                                              the cumulative amount of any gains, but not below $200 billion,



                                               20                                                                      fiscal year 2010 performance by strategic goal
                                                          performance and accountability report | fiscal year 2010




                                                                                                                                                          part 1: management’s discussion and analysis
and will become fixed at the end of the three years. at the con­     GSEs Actual and Projected Draw Payments and Dividend Receipts
clusion of the three year period, the remaining commitment will      (in millions):
then be fully available to be drawn per the terms of the agree­                       Fiscal Year
                                                                                        Ending            Draw               Dividend       Net Draws
ments. as of september 30, 2010, treasury’s gross investment                         September 30       Payments             Receipts      (Dividends)
in fannie Mae and freddie Mac were $85.9 billion and $63.9           Beginning                2009      $       95,600   $       (4,336)   $    91,264
billion, respectively. the losses the gses continue to report are    Balance

largely the result of delinquencies and defaults on loans that       Actual                   2010              52,600          (12,142)        40,458
                                                                     Projected1          2011-2013              87,600          (61,772)        25,828
were originated and guaranteed in 2006, 2007, and 2008. less
                                                                     Projected   2
                                                                                         2014-2017              51,400         (102,781)       (51,381)
than one percent of losses have come from loans originated in
                                                                     Projected2          2018-2022             113,000         (151,795)       (38,795)
2009 or 2010.
                                                                     Projected3          2023-2031             107,900         (139,334)       (31,434)
the u.s. government’s investment in and support of the               Net Cumulative Draws               $      508,100   $    (472,160)    $    35,940
gses through the sPsPas was structured in such a way that            1 / No cap
                                                                     2 / Fannie Mae and Freddie Mac with cap
ensures that virtually all profits in the company revert to the      3 / Freddie Mac only with cap
government in the form of dividends on the preferred shares
in fannie Mae and freddie Mac. to get a true picture of the
                                                                    the $508 billion in total gross draw payments, of which $360
government’s exposure in the companies, it is critical to factor
                                                                    billion is recorded as an accrued contingent liability as of
in those dividends and net them against the draws that the
                                                                    september 30, 2010, has a counterpart increase in the projected
gses make from treasury. for instance, while for fiscal year
                                                                    senior preferred stock liquidation preference and this asset value
2010 the gses’ draws exceeded dividends by $40.5 billion,
                                                                    would then be subject to any expected fair value adjustments.
in the quarter ending september 30, 2010 the government
                                                                    ultimately, the cost to the government is expected to be the
received more in dividend payments than the companies drew
                                                                    valuation losses on the senior preferred stock and common stock
from the treasury sPsPas.
                                                                    warrants, partly offset by dividend revenues received from the
the gses are projected to have positive net operating income        gses, which will be received until the point in time in which
after 2012. however, over time their net income will be             the funding commitment caps are reached. freddie Mac would
inadequate to cover the senior preferred dividend payments due      reach its adjusted cap of $224 billion in 2031. While fannie
to treasury based on the balance of preferred stock outstand­       Mae is projected to begin generating positive net income in
ing and the accretion of the balance due to incremental draws       2013, because of its greater level of credit losses (and draws)
over time to fund further dividends. the projections take into      than freddie Mac, it would reach its cap of $284 billion in 2022.
account that the gses will be gradually winding down their          as shown, the projections would imply that a total of $472
retained mortgage portfolios to the $250 billion cap specified      billion of dividends are received, resulting in a total net draw of
in the sPsPas and do not assume any changes to operating            $36 billion.
assumptions on the single family guarantee business.
                                                                    GSE MBS Purchase Program
the chart below depicts the expected gross and net draws under
                                                                    the gse Mbs Purchase Program helped support the availability
the existing sPsPas, without considering the likely future
                                                                    of mortgage credit by temporarily providing additional capital
fair value adjustments to the senior preferred stock liquidation
                                                                    to the mortgage market. by purchasing these securities, treasury
preference. the net draws reflect the net payout by treasury
                                                                    sought to broaden access to mortgage funding for current and pro­
for each gse to maintain positive net worth at the end of each
                                                                    spective homeowners, as well as promote market stability. In total,
period. as shown below, beyond 2013 the gses’ draws under
                                                                    since inception of the program in september 2008, the treasury
the sPsPas are only required to cover dividend payments above
                                                                    Department purchased Mbs worth approximately $225.5 billion,
the amount of anticipated positive net income. no dividend
                                                                    $29.9 billion of which were purchased in fiscal year 2010. In total,
receipts are projected beyond the years when the commitment
                                                                    treasury has received back $61.1 billion in principal and $13.9
caps are reached, which is 2022 and 2031 for fannie Mae and
                                                                    billion in interest from Mbs holdings; of those amounts, $38.9
freddie Mac, respectively.
                                                                    billion in principal and $8.9 billion in interest were received in
                                                                    fiscal year 2010. as of september 30, 2010, the valuation of Mbs


u.s. and world economies perform at full economic potential                                                                                         21
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               held under hera programs was $172.2 billion. the gse Mbs              tennessee. as of september 30, 2010, $56.1 million has been
                                               Purchase Program expired on December 31, 2009.                        disbursed to states participating in hhf, largely for administra­
                                                                                                                     tive and startup expenses. further information on the funded
                                               Housing Finance Agencies Initiative                                   programs is available at http://www.FinancialStability.gov/roadto­
                                               state and local hfas are agencies or authorities created by state     stability/hardesthitfund.html.
                                               law charged with helping individuals and families of low or mod­
                                               erate income obtain affordable housing. hfas provide mortgage         Comprehensive reform of the U.S. housing
                                               financing for new homebuyers, refinancing and modification            finance system
                                               opportunities to existing homeowners at risk, loans for rehabili­     the Dodd-frank act includes fundamental reform of mortgage
                                               tation of single-family homes, and support for the development        market rules, including ability-to-pay requirements and risk
                                               and rehabilitation of multifamily properties. In the course of the    retention standards for mortgages, and treasury and huD
                                               financial crisis, hfas experienced challenges obtaining funding       are preparing to offer recommendations for further reform of
                                               in private markets, limiting their ability to provide support for     the housing finance system. In april 2010, treasury and the
                                               economically-distressed communities. the hfa Initiative pro­          Department of housing and urban Development (huD)
                                               vided funding to more than 90 hfas to enable them to continue         posted seven questions for public comment and received over
                                               supporting housing markets. In fiscal year 2010, treasury under       300 responses from a broad cross-section of stakeholders. In
                                               the hfa new Issue bond Purchase Program (nIbP) purchased              august, treasury and huD hosted a conference on the future
                                               $15.3 billion of gse-issued securities backed by hfas’ mortgage       of housing finance, including experts from academia, con­
                                               revenue bonds. under the hfa temporary credit and liquidity           sumer and community organizations, industry groups, market
                                               Program, treasury purchased participation interests from the          participants, congressional staff, and other stakeholders. In
                                               gses in liquidity facilities supporting $8.2 billion of existing      september, the secretary and elizabeth Warren, assistant to
                                               hfa variable rate demand obligations (VrDos) single family            the President, held a forum on simplifying mortgage disclosure
                                               and certain multi-family mortgage loans. since inception of the       forms. to provide for long-term stability in housing markets,
                                               program, treasury’s obligation has been reduced to $7.6 billion.      the obama administration has committed to deliver a proposal
                                               treasury’s actions are authorized by hera authority, which            for comprehensive reform of the u.s. housing finance system to
                                               expired on December 31, 2009.                                         congress in January 2011.

                                               Helping those hit hardest                                             Supporting America’s Small Businesses
                                               In february 2010, the obama administration announced the
                                                                                                                     treasury and the small business administration (sba) led
                                               housing finance agency Innovation fund for the hardest hit
                                                                                                                     efforts to pass the Small Business Jobs Act of 2010. enacted on
                                               housing Markets (hfa hardest hit fund, or hhf), allowing
                                                                                                                     september 27, 2010, the act will strengthen the capacity of small
                                               hfas in the nation’s hardest hit housing markets with high
                                                                                                                     businesses to create jobs and support economic recovery by:
                                               unemployment to design innovative, locally-targeted foreclosure
                                                                                                                       •	   creating a small business lending fund (sblf) to provide
                                               prevention programs. states included those with average home
                                                                                                                            $30 billion in capital to small banks
                                               price declines greater than 20 percent since the housing market
                                               downturn, accounting for the majority of “underwater” mortgag­          •	   establishing a state small business credit Initiative
                                               es in the country; those with concentrated areas of economic                 (ssbcI) to provide $1.5-2 billion to spur $20 billion of
                                               distress due to unemployment; or those with an unemployment                  private sector lending through innovative state programs
                                               rate at or above the national average for the past year.                •	   extending and expanding key sba loan programs
                                                                                                                       •	   Instituting small business tax cuts, including zero capital
                                               a total of $7.6 billion is being made available to 18 states
                                                                                                                            gains for key small business investments
                                               and the District of columbia. these states include alabama,
                                               arizona, california, florida, georgia, Illinois, Indiana,
                                               kentucky, Michigan, Mississippi, nevada, new Jersey, north
                                               carolina, ohio, oregon, rhode Island, south carolina, and




                                               22                                                                   fiscal year 2010 performance by strategic goal
                                                             performance and accountability report | fiscal year 2010




                                                                                                                                              part 1: management’s discussion and analysis
under the legislation, treasury will manage implementation of                received allocations of authority to issue recovery Zone
the tax cuts and distribution of funding through the sblf and                bonds, which modified build america bonds with a higher
ssbcI.                                                                       subsidy rate of 45 percent of the borrowing costs, based on
                                                                             individual employment declines in 2008.
American Recovery and Reinvestment                                      •	   Sales tax deduction for vehicle purchases: the
Act of 2009                                                                  recovery act allowed taxpayers to deduct state and local
the Department of the treasury played a pivotal role in                      sales and excise taxes paid on the purchase of certain new
implementing the American Recovery and Reinvestment Act of                   cars, light trucks, motor homes, and motorcycles through
2009 (recovery act). by providing targeted investments and                   calendar year 2009.
implementing tax provisions to benefit both businesses and              •	   Economic recovery payments: the recovery act
individuals, the Department continued to stimulate the u.s.                  provided $250 one-time economic recovery payments
economy, create and sustain jobs, and build the foundation                   to eligible retirees, veterans, and other high-need re­
for long-term economic growth. of the $787 billion provided                  cipients. fMs, in coordination with the social security
by the recovery act, treasury is managing programs that will                 administration, the railroad retirement board, and the
contribute nearly $300 billion in benefits to the american                   Department of Veterans affairs, issued over 55 million
people through the year 2019. treasury’s recovery act programs               payments, totaling over $13.8 billion to benefit recipients.
include the following:                                                       fMs processed 46.6 million of these payments electroni­
  •	   Making Work Pay Tax Credit: In 2009 and 2010, the                     cally rather than by paper check, saving taxpayers over $17
       Making Work Pay provision of the recovery act provided                million.
       a refundable tax credit of up to $400 for working individu­      •	   Community Development Financial Institutions
       als and up to $800 for married taxpayers filing joint returns.        (CDFI) awards: the recovery act appropriated $98 mil­
       an estimated $49 billion will have been made available to             lion in grants to expand funding for the cDfI and native
       taxpayers under the Making Work Pay provision through                 american cDfI assistance (naca) programs, providing
       calendar year 2010.                                                   community banks, credit unions, loan funds, and venture
  •	   American Opportunity Tax Credit: the american                         capital funding to increase lending to individuals or busi­
       opportunity tax credit expanded the number of parents                 nesses lacking access to mainstream financial institutions.
       and students who qualify for a tax credit to pay for college     •	   New Markets Tax Credit (NMTC): the nMtc
       expenses for 2009 and 2010. to date, 8.8 million people               Program, administered by the cDfI fund, facilitates
       have benefitted from this tax credit totaling over $7 billion.        investment in low-income communities by permitting
  •	   Consolidated Omnibus Budget Reconciliation                            credits against federal income taxes for equity investments
       Act of 1985 (COBRA) health insurance continua­                        in designated treasury-certified community Development
       tion premium subsidy: the recovery act expanded                       entities (cDes). cDes are required to use substantially
       eligibility for cobra health insurance premium assistance             all nMtc proceeds to make loans and investments in
       to longer-term unemployed workers. nearly four million                businesses and real estate developments in low-income and
       households have benefited from the cobra premium                      distressed urban and rural communities. the recovery act
       assistance program.                                                   provided a total of $3 billion for the credits. a total of $3
                                                                             billion was awarded to 56 organizations in 2009.
  •	   Build America Bonds: build america bonds are taxable
       municipal debt for which the issuer receives a direct            •	   Health Coverage Tax Credit (HCTC): hctc was
       federal subsidy equal to 35 percent of the borrowing costs.           created by the Trade Adjustment Assistance Reform Act of
       since april 2009 there have been 1,556 issuances of build             2002 to help displaced workers and retirees who have lost
       america bonds, which provided over $107 billion for states            their jobs due to free trade to assist eligible beneficiaries
       and local governments throughout the country to help                  to receive affordable health care. the program originally
       finance projects including schools, utilities, public safety          provided a refundable tax credit for 65 percent of the cost
       and transportation. states, counties and municipalities also          of qualified insurance. In May 2009, the tax credit was




u.s. and world economies perform at full economic potential                                                                              23
                                               the department of the treasury
part 1: management’s discussion and analysis




                                                     increased from 65 percent to 80 percent of qualified health                another $11 billion in 2010, totaling $22 billion over two
                                                     insurance premiums, allowing participants to only pay 20                   years. the act provides a federal subsidy for school con­
                                                     percent for health insurance each month. the increased                     struction financing to states and the 100 largest educational
                                                     credit will expire on December 31, 2010. the recovery                      agencies based on school funding data. the bonds provide a
                                                     act provisions have assisted 32,000 additional taxpayers                   federal tax credit to investors designed to cover 100 percent
                                                     with enrolling in hctc.                                                    of the interest. over $7.4 billion in Qualified school
                                                •	   Payments for Specified Energy Property in Lieu of                          construction bonds were issued through september 2010.
                                                     Tax Credits: this program responded to the devaluation                •	   Qualified Energy Conservation Bonds and
                                                     of after-market tax credits as a result of the credit crisis and           Clean Renewable Energy Bonds: Qualified energy
                                                     recession by converting an existing tax credit for invest­                 conservation bonds provide a subsidy for energy
                                                     ments in renewable energy production to a cash payment of                  conservation-oriented repair and rehabilitation of public
                                                     equivalent value. as of the end of fiscal year 2010, treasury              schools through a federal tax credit to investors covering
                                                     has awarded $4.3 billion in cash assistance to over 3,000                  70 percent of the interest on the bonds. the recovery
                                                     eligible applicants. treasury estimates that $16 billion in                act established a cap of $3.2 billion for these bonds. new
                                                     financial support will be distributed over the life of the pro­            clean renewable energy bonds (“new crebs”) provide
                                                     gram to thousands of renewable energy production facilities.               incentives for entities not eligible for renewable energy tax
                                                •	   Payments for Low-Income Housing Projects in Lieu                           credits, such as public power providers, government bodies,
                                                     of Tax Credits: the recovery act gives state housing                       and cooperative electric companies, to invest in renewable
                                                     credit agencies the choice to receive cash payments for all                electricity generation. a total of $2.4 billion of clean
                                                     or part of their 2009 low-income housing tax credit alloca­                renewable energy bonds (crebs) was allocated to 1,067
                                                     tion. as of the end of fiscal year 2010, 55 state housing                  applicants through september 30, 2010.
                                                     agencies have applied for funds, and $4.9 billion in awards           •	   Net Operating Loss Carry Back: the recovery act
                                                     have been made to those agencies. state agencies used                      extended the period for business taxpayers to carry back a
                                                     these funds to finance nearly 1,100 affordable housing proj­               2008 net operating loss (nol) to offset taxable income in
                                                     ects that will add over 67,000 units of affordable housing to              preceding taxable years from two to five years. over $3.5
                                                     the housing supply and create approximately 105,000 jobs.                  billion in nol carryback adjustments were claimed by
                                                •	   First-Time Homebuyer Credit Expansion: the                                 businesses to offset taxable income for the preceding three
                                                     recovery act allowed eligible first-time homebuyers to                     to five years.
                                                     claim a refundable credit up to $8,000 without a payback
                                                     requirement. nearly 2.4 million taxpayers claimed over              Strengthened International Economic
                                                     $17 billion in first time homebuyer credits for houses              Coordination
                                                     purchased in 2009.                                                  treasury protects and supports economic prosperity at home
                                                •	   Indian Tribal Economic Development Bonds: the                       by encouraging financial stability and sound economic policies
                                                     recovery act added $2 billion in bond-issuing authority             abroad. In fiscal year 2010, treasury pursued this agenda by
                                                     for Indian tribal governments. the new bond program                 focusing on restarting economic growth following the financial
                                                     gives Indian tribal governments the same broad flexibility          crisis, encouraging open trade and investment policies, sup­
                                                     afforded to state and local governments to use tax-exempt           porting multilateral and bilateral engagements, reforming the
                                                     bonds to finance economic development projects. certain             international financial system by addressing international finan­
                                                     gaming facilities are excluded from participation. two              cial regulatory reform and the role and responsibilities of the
                                                     award rounds of $1 billion each were conducted in 2009 to           international financial institutions (IfIs), and by continuing to
                                                     76 Indian tribal governments                                        encourage broad-based, sustainable economic growth around the
                                                                                                                         world to create new engines of growth in the global economy.
                                                •	   Qualified School Construction Bond Allocation: the
                                                     recovery act established an allocation cap of $11 billion
                                                     for Qualified school construction bonds in 2009, and




                                               24                                                                       fiscal year 2010 performance by strategic goal
                                                           performance and accountability report | fiscal year 2010




                                                                                                                                          part 1: management’s discussion and analysis
Demonstrated U.S. leadership at G-20                                 similarly, u.s. support for and continued engagement in the
meetings                                                             multilateral development banks (MDbs) has also been vital.
the g-20 is a multilateral forum that includes the leaders from      the MDbs acted with speed and force to protect the poorest
the 20 largest economies in the world, accounting for 85 percent     around the world from the worst impacts of the crisis, and
of world output. beginning with the g-20 summit in london,           continued u.s. leadership in these institutions will help further
when President obama joined other g-20 leaders to develop col­       strengthen the global economy, reduce poverty and help fragile
laborative and coordinated responses to the economic crisis, the     nations. for example, in July, following passage of the 2010
obama administration and treasury have actively engaged with         Supplemental Appropriations Act, the treasury Department
the g-20 nations, and through other multilateral and bilateral       announced that the united states, the IfIs, and other donors
forums, to foster economic growth and address challenges, includ­    had achieved the goal of eliminating haiti debt owed to the
ing the need for international financial regulatory reform and       IfIs at the time of the January earthquake. the announcement
transnational issues, such as food security and climate change.      marked one of the fastest multilateral debt reductions in history.
                                                                     In september 2010, treasury delivered u.s. funds allowing the
Participated in development of new global                            Inter-american Development bank (IDb) to cancel $447 mil­
capital standards for banks                                          lion in debt and initiate the provision of $2.5 billion in grants
one of the lessons of the financial crisis was that more robust      which will extend over the next decade.
capital standards must be at the heart of efforts to make the
financial system stronger and more secure. treasury has played
                                                                     National Export Initiative and support for
                                                                     free trade and investment
a key role with global partners in strengthening capital stan­
dards. In september 2010, new global capital standards—basel         treasury, with other agencies, helped launch and implement
III— were announced, which will require banks to hold enough         the President’s national export Initiative (neI). President
capital so they can withstands losses similar to those witnessed     obama underscored the importance of trade as a catalyst for
during the depths of the financial crisis without turning to         american jobs and set the goal to “double our exports over
the taxpayer for help. the standards require banks to hold           the next five years, an increase that will support two million
significantly more capital against risky trade-related assets and    jobs in america.” treasury’s primary role in the neI focuses on
obligations, hold a higher percentage of their capital reserves in   macroeconomic rebalancing. treasury works to promote free
common equity and other less risky assets, and hold an addi­         trade and investment as part of the obama administration’s
tional 2.5 percent capital conservation buffer on top of an eight    broader economic agenda, and partners with g-20 nations and
percent reserve, which if breached would trigger restrictions on     other countries to achieve these objectives.
a firm’s ability to pay dividends or buy back stock. through the
g-20 process, the financial stability board, and engagement          U.S.-China Strategic and Economic Dialogue
with international standard setting bodies, treasury led efforts     the u.s.-china strategic and economic Dialogue (s&eD)
to ensure that reforms in the international financial system         was established by President obama and chinese President hu
matched domestic regulatory reform initiatives.                      in april 2009 and represents the highest-level bilateral forum
                                                                     to discuss a broad range of issues between the two nations.
Worked with global partners to avert regional                        treasury secretary geithner and secretary of state clinton, as
economic instability                                                 special representatives of President obama, and Vice Premier
the IfIs responded quickly to meet their members’ needs for          Wang and state councilor Dai, as special representatives of
financial support and policy advice during the global economic       President hu, co-chair the Dialogue, which includes strategic
and financial crisis. u.s. support for the International Monetary    and economic tracks and takes place annually in alternat­
fund (IMf)—including the IMf’s recent lending commitments            ing capitals. the second meeting of the s&eD took place in
to europe—were critical to restoring market confidence and           beijing in late May 2010. secretary geithner led ten heads
stability, promoting global growth and recovery, and protecting      of u.s. government agencies for discussions with chinese
u.s. jobs.                                                           President hu, Premier Wen, Vice Premier Wang, and a delega­
                                                                     tion comprised of key chinese economic ministries and agency
                                                                     heads. Discussions focused on creating new opportunities for



u.s. and world economies perform at full economic potential                                                                         25
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               u.s. workers and firms; promoting strong recovery and more           and conserving bio diversity. cIf are comprised of the clean
                                               balanced growth; promoting more resilient, open, and market­         technology fund (ctf) and strategic climate fund (scf).
                                               oriented financial systems; and strengthening the international      the ctf seeks to reduce the growth of greenhouse gas emis­
                                               financial architecture. significant progress was made on top         sions in developing countries through financing the additional
                                               obama administration priorities, including encouraging china         costs of deploying commercially available cleaner technologies
                                               to move towards a more market-based exchange rate, agreeing          over dirtier, conventional alternatives. the scf supports three
                                               to launch expert and high-level bilateral innovation discussions     targeted programs: the Pilot Program for climate resilience,
                                               to ensure innovation policies encourage the best ideas wherever      the forest Investment Program, and the Program for scaling-up
                                               they originate, and strengthening opportunities for u.s. firms       renewable energy in low-Income countries. each program
                                               and workers by reducing barriers to foreign investment in            seeks to pilot new approaches and scaled-up activities to address
                                               services, high-technology goods, high-end manufacturing, and         climate change challenges in developing countries, while
                                               energy saving products. economic policy cooperation between          promoting low-carbon, climate-resilient economic growth.
                                               the united states and china, including mutual efforts to
                                               boost domestic demand through decisive monetary and fiscal           Regulation of Banks and Thrifts
                                               policy actions, has been one of the most important elements
                                                                                                                    occ and ots are the primary regulators of national banks,
                                               of the international effort to bring about a global economic
                                                                                                                    savings associations, and savings and loan holding companies.
                                               recovery. the u.s. will host the next round of the strategic and
                                                                                                                    given the weak economy, fiscal year 2010 activity focused on
                                               economic Dialogue in 2011.
                                                                                                                    monitoring and responding to adverse conditions in credit
                                                                                                                    and financial markets, improving credit risk management at
                                               Global Agricultural and Food Security
                                               Program                                                              supervised institutions, and monitoring loan portfolios. to
                                                                                                                    streamline the regulatory system, the Dodd-frank act provides
                                               treasury led efforts to establish the global agriculture and food
                                                                                                                    for the abolishment of ots and transfer of its duties to occ,
                                               security Program (gafsP) , a food security trust fund that is
                                                                                                                    the federal reserve, and fDIc. occ and ots are currently
                                               administered by the World bank and is an integral part of the
                                                                                                                    working with other agencies to ensure a smooth transition.
                                               obama administration’s broader “feed the future” initiative.
                                               the gafsP seeks to improve food security and reduce poverty
                                               by delivering rapid and predictable financing for agriculture
                                               sectors in low-income countries. launched in april 2010 with
                                                                                                                     Assets of
                                                                                                                                                               $400
                                               $880 million in commitments from the united states, canada,           Failed Banks                                      ■ State       ■ OTS          ■ OCC
                                                                                                                     by Primary                                $350
                                               south korea, spain, and the bill & Melinda gates foundation,          Regulator                                 $300
                                                                                                                                       Dollars (in Billions)




                                               gafsP represents a global effort to aid vulnerable populations        by Year
                                                                                                                                                               $250
                                               afflicted by hunger and poverty and is a key element of the           (through                                  $200
                                                                                                                     9/30/2010)
                                               obama administration’s initiative to enhance food security in                                                   $150
                                                                                                                                                               $100
                                               poor countries. the fund was created in response to a call by
                                                                                                                                                               $50
                                               g-20 leaders at the Pittsburgh summit in 2009 for nations to                                                     $0
                                                                                                                                                                      2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
                                               address the food security challenge in order to foster economic
                                                                                                                                                                                           Calendar Year
                                               growth over time.
                                                                                                                     Number of
                                                                                                                                                                175
                                               Supported global agreement on climate                                 Bank Failures
                                                                                                                     by Primary                                           ■ State        ■ OTS         ■ OCC
                                                                                                                                                                150
                                               change
                                                                                                                                     Number of Bank Failures




                                                                                                                     Regulator
                                                                                                                                                                125
                                                                                                                     by Year
                                               treasury supports u.s. efforts to address climate change by           (through                                   100

                                               managing u.s. engagement in the multilateral climate finance          9/30/2010)                                  75

                                               funds, the global environment facility (gef) and climate                                                          50

                                               Investment funds (cIf). the gef provides partial funding,                                                         25

                                               mostly in grants, for projects that provide global environ­                                                       0
                                                                                                                                                                      2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010

                                               mental benefits, such as reducing greenhouse gas emissions                                                                                  Calendar Year




                                               26                                                                  fiscal year 2010 performance by strategic goal
                                                          performance and accountability report | fiscal year 2010




                                                                                                                                          part 1: management’s discussion and analysis
Despite efforts to identify and correct issues at an early stage,    issued industry guidance related to concentration risks and
federal regulators closed a number of national banks and thrifts     meeting the credit needs of small businesses. occ, ots, and
in fiscal year 2010. In total, 172 insured depository institutions   the federal reserve, and fDIc continued their shared national
insured by fDIc with $121.7 billion in deposits were resolved        credit review of large syndicated loans held by multiple banks.
by the fDIc over the year. of these, 30 were national banks          the 2010 review covered 8,700 credit facilities with commit­
regulated by occ with $25.7 billion in deposits, 23 were federal     ments totaling $2.7 trillion. occ, ots, and other federal
thrifts regulated by ots with $25.1 billion in deposits, and         banking agencies also warned financial institutions of the risks
119 were state banks with $70.9 billion in deposits. Work-out        that were accumulating in many banks’ commercial real estate
solutions, whereby some or all deposits and assets were assumed      (cre) loan portfolios. occ developed several diagnostic
by another existing bank, were arranged by fDIc and regulators       tools to help assess risks in cre portfolios and conducted asset
for almost all failed institutions.                                  quality reviews of all community and mid-size banks that have
                                                                     significant cre concentrations to assess the adequacy of credit
occ’s and ots’s on-site supervisory assessments focused on
                                                                     underwriting, problem loan identification, and loan-loss reserves
the quality of credit risk management practices (including
                                                                     for these portfolios. occ also provided additional supervisory
effective credit risk rating systems and problem loan identi­
                                                                     guidance on accounting and classification issues associated
fication), adequacy of loan-loss reserves, and effective loan
                                                                     with residential mortgage modifications and cre work-outs.
work-out strategies. Primary emphasis was placed on ensuring
                                                                     Monitoring banks with significant cre concentrations will
the strength of capital buffers to weather earnings pressures and
                                                                     continue to be a primary focus of occ supervisory strategies in
asset quality deterioration. other critical areas included sound
                                                                     2011 and 2012.
liquidity risk management through diversified funding sources
and realistic contingency funding plans, and maintenance of          In an effort to make key aspects of mortgage loan data more
consistent underwriting standards regardless of intent to hold or    transparent and publicly available, the occ and ots publish
sell a loan. for troubled institutions, occ and ots employed         joint quarterly reports on loan performance, delinquencies,
a number of remedial measures, including Prompt corrective           and foreclosures. the Mortgage Metrics Report presents data
action determinations when institution capital deteriorated          from nine national banks and thrifts with the largest mortgage
below specified thresholds, requirements to increase available       portfolios (about 65 percent of all first-lien mortgages in the
capital and liquidity, required changes in bank management,          country). the report can be used by examiners to assess emerg­
and required approval for changes in business plans. to combat       ing trends, evaluate asset quality and loan-loss reserve needs,
mismanagement, formal enforcement actions such as cease­             identify anomalies, and evaluate loss mitigation actions among
and-desist orders, removal or prohibition orders, civil money        federally-regulated banks and thrifts. occ and ots continue
penalties, and formal agreements were utilized. In severe cases,     to encourage bankers to work with creditworthy borrowers who
financial institutions were required to enter into sales, mergers,   may be facing financial difficulties.
or liquidation or enter fDIc receivership. through the first half
                                                                     occ and ots are also working closely with other domestic
of fiscal year 2010, the occ issued 207 enforcement actions
                                                                     and international supervisors, including members of the
against national banks and 82 against institution-affiliated
                                                                     council, the basel committee on bank supervision, the
parties. ots issued a total of 170 formal enforcement actions
                                                                     financial stability board (fsb), and the senior supervisors’
against institutions and 68 formal enforcement actions against
                                                                     group (ssg), to identify and coordinate actions aimed at both
individuals.
                                                                     restoring functioning markets and strengthening risk manage­
In addition to individual bank examinations, the occ                 ment practices.
conducted a variety of other activities aimed at identifying
                                                                     key initiatives related to these efforts are the following:
and responding to systemic trends and emerging risks that
could adversely affect asset quality or the availability of credit     •	   Enhanced capital standards. the financial crisis high­
at national banks and the banking system. occ examiners                     lighted areas where the basel II capital framework required
and credit risk staff completed the annual survey of credit                 strengthening. the occ worked together with other
underwriting Practices, assessing standards at the 51 largest               basel committee members to revise and publish the new
national banks with assets of $3 billion or more. occ and ots               basel III rules to improve capital standards. the occ and



u.s. and world economies perform at full economic potential                                                                          27
                                               the department of the treasury
part 1: management’s discussion and analysis




                                                     other u.s. banking agencies will implement the new basel             •	   Accounting and financial disclosure issues. the occ
                                                     standards through the u.s. notice and rulemaking process.                 and other federal banking agencies continue to work
                                                •	   Enhanced liquidity risk management and liquidity                          closely with the sec, financial accounting standards
                                                     buffers. In March 2010, the occ, with federal financial                   board, and International accounting standards board to
                                                     Institutions examination council (ffIec) member                           improve financial disclosure rules.
                                                     agencies and the conference of state banking supervisors,          as a participant in the council, occ will be actively involved
                                                     issued Interagency guidance on funding and liquidity               in promoting measures to improve coordination among federal
                                                     risk Management.                                                   regulators to help identify and address systemic risks.
                                                •	   Correspondent banking concentrations. In april 2010, the
                                                     occ and other federal banking agencies issued guidance to          Provided Assistance to Low-Income and
                                                     address risks associated with funding and credit concentra­        Underserved Communities
                                                     tions arising from correspondent relationships.
                                                                                                                        the cDfI fund provides grants, loans, and tax credits to cDfIs,
                                                •	   Interest rate risk. In January 2010, the occ, the other            which provide capital, credit, and financial services to under­
                                                     federal banking agencies, and the conference of state              served populations and economically distressed communities
                                                     banking supervisors issued a joint advisory statement              in the united states. the cDfI fund awards funds through an
                                                     reminding institutions of supervisory expectations regard­         annual competitive application process. since its inception, the
                                                     ing sound practices for managing interest rate risk. the           cDfI fund has awarded over $932 million through its largest
                                                     advisory statement reminds institutions of the importance          program, the cDfI Program. the cDfI Program competitively
                                                     of maintaining processes for measuring and, where neces­           awarded $104.8 million in fiscal year 2010 to 179 cDfIs and
                                                     sary, mitigating exposure to unexpected or substantial             organizations.
                                                     increases in rates.
                                                •	   Incentive compensation structures. occ participated                Managed Currency and Coin
                                                     with the federal reserve in a horizontal review of incentive       Manufacturing
                                                     compensation structures and practices across the largest
                                                     financial institutions. follow-up work is being conducted          Planned productivity improvements for
                                                     by the agencies’ examination teams and will continue into
                                                                                                                        printing and engraving currency notes
                                                     2011. as announced in June 2010, the occ along with                at the beP, the production of newly-redesigned $100 currency
                                                     the federal reserve, the fDIc, and ots, issued guidance            notes led to a 8.8 percent decrease in productivity due to high
                                                     on incentive compensation policies to ensure that these            spoilage and slower operating speeds. to improve productivity
                                                     policies take into account risk and are consistent with safe       and efficiency, the beP is undertaking a multi-year project to in­
                                                     and sound practices.                                               stall new equipment to enable production of 50 currency notes
                                                                                                                        per printed note sheet, which is expected to increase productiv­
                                                •	   Addressing off-balance sheet risks. In January 2010, the
                                                                                                                        ity by 40 to 50 percent. this project is slated for completion in
                                                     occ and other federal banking agencies amended their
                                                                                                                        fiscal year 2013.
                                                     risk-based capital rules to include certain consolidated
                                                     asset-backed commercial paper in their list of risk-weighted
                                                                                                                        Improved supply management for bullion
                                                     assets. In addition, new regulations were issued requiring
                                                                                                                        coin production
                                                     banking organizations to include all of their entities in their
                                                                                                                        as financial market volatility continued, investors increased
                                                     calculations of risk-based capital needs, including those
                                                                                                                        their holdings of precious metals. throughout fiscal year 2010,
                                                     they typically do not report in their financial statements.
                                                                                                                        the united states Mint made significant efforts to expand raw
                                                     this rule is in response to changes in the accounting for
                                                                                                                        materials supply and enhance productivity to meet demand.
                                                     certain off-balance sheet structures that went into effect in
                                                                                                                        revenue from the sale of gold and silver bullion coins increased
                                                     January 2010.




                                               28                                                                      fiscal year 2010 performance by strategic goal
                                                            performance and accountability report | fiscal year 2010




                                                                                                                                             part 1: management’s discussion and analysis
from $1.7 billion in fiscal year 2009 to $2.9 billion in fiscal year
2010, a 70.6 percent increase. the u.s. Mint expanded average
                                                                       p reventeD terrOrism anD
monthly gold and silver blank supply by 1.5 million ounces (a 56       p rOmOteD the natiOn’s seCurity
percent increase from fiscal year 2009 to 2010) by working with        thrOugh strengtheneD
fabricators and identifying a new supplier. the production facility    i nternatiOnal finanCial s ystems
in West Point, new york realized higher output without incur­
ring significant costs by automating processes, shifting employees     While promoting financial and economic growth at home and
where they were needed, and maintaining continuous assaying,           abroad, the treasury Department performs a unique role in pre­
inspection, and coin production. output per labor hour increased       serving national security. In fiscal year 2010, treasury continued
23 percent from 175 ounces per hour in fiscal year 2009 to 215         to disrupt the financial networks of terrorists, drug traffickers,
ounces per hour in fiscal year 2010.                                   and weapons of mass destruction (WMD) proliferators. treasury
                                                                       safeguarded the nation’s financial security and carried out
In fiscal year 2010, the u.s. Mint fully satisfied demand for          critical law enforcement responsibilities pertaining to predatory
american eagle gold bullion products and sufficiently expanded         lending practices.
silver blank supply to remove ordering limits on silver bullion
coins in august 2010. by the close of fiscal year 2010, expanded
supply reached levels sufficient to allow the u.s. Mint to
                                                                       Combated Iran’s Efforts to Acquire
redirect a portion of both gold and silver blanks to numismatic
                                                                       Proliferation-Related Materials
production, enabling the Mint to launch previously suspended           In June 2010, the united nations (un) adopted united
american eagle proof numismatic products late in calendar year         nations security council resolution (unscr) 1929, broad­
2010.                                                                  ening the existing un sanctions on Iran. shortly thereafter,
                                                                       treasury announced new designations under executive order
Explored cost-reduction options related                                (eo) 13382 targeting individuals and entities that facilitate
to the penny, nickel, and other coin                                   Iranian proliferation activities. Most prominently, treasury
denominations                                                          designated Post bank, an Iranian state-owned bank, for provid­
for the fifth year in a row, the penny and nickel cost more to         ing support to and acting on behalf of unscr 1929 designee
produce than their face value. global prices for copper, nickel,       bank sepah. treasury also designated five Islamic republic of
and zinc (the metals used to produce the penny and nickel)             Iran shipping lines (IrIsl) front companies and blocked 27
remain high, elevating per-unit production costs. the united           vessels due to their connection to IrIsl. In august, treasury
states Mint and the Department of the treasury are developing          announced a set of designations targeting the government of
options for more cost-effective ways to produce circulating coins.     Iran’s support for terrorism and terrorist organizations, including
                                                                       hizballah, hamas, Palestinian Islamic Jihad, the Popular front
                                                                       for the liberation of Palestine-general command, and the
                                                                       taliban.

                                                                       the european union (eu), australia, canada, norway, Japan,
                                                                       and south korea have implemented sanctions to press Iran
                                                                       to resume negotiations on its nuclear program and meet its
                                                                       international obligations. the financial measures the u.s.
                                                                       and others have implemented are imposing serious costs and
                                                                       constraints on Iran. Iran is effectively unable to access financial
                                                                       services from reputable banks, conduct major transactions in
                                                                       dollars or euros, or secure needed foreign investment, financing,
                                                                       and technology to modernize its aging energy infrastructure.
                                                                       these financial measures threaten Iran’s oil and gas production
                                                                       and export capacity.



prevented terrorism and promoted the nation’s security through
strengthened international financial systems                                                                                           29
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               Prevented North Korean Proliferation and                              Finalized Terrorist Finance Tracking
                                               Other Illicit Activities                                              Program Agreement
                                               a new sanctions program, established by President obama               treasury, in conjunction with the Departments of Justice (DoJ)
                                               on august 30, targets north korean arms trafficking, luxury           and state, successfully led negotiations for a new terrorist
                                               goods procurement, and illicit economic activities. these             finance tracking Program agreement (tftP) with the eu.
                                               sanctions enhance u.s. implementation of unscr 1718 and               the new agreement which came into effect on august 1, allows
                                               1874 on north korea, address threats to u.s. national security,       treasury to subpoena financial payment messaging data stored
                                               and protect the international financial system. the treasury          in the eu for use in u.s. counterterrorism investigations. the
                                               Department continues to implement sanctions targeting north           tftP was initiated by treasury to identify, track, and pursue
                                               korean proliferation activities.                                      terrorists and their networks. since the start of the program,
                                                                                                                     the tftP has provided thousands of valuable leads to u.s.
                                               Supported Counterterrorism Efforts in                                 government agencies and other governments to investigate and
                                                                                                                     prevent terrorist attacks.
                                               Afghanistan
                                               treasury served a leading role in establishing the afghanistan
                                               threat finance cell (atfc). the atfc is a kabul-based task            Supported Efforts to Combat Money
                                               force charged with collection, analysis, and dissemination of         Laundering and Drug Trafficking in
                                               intelligence to disrupt funding and support for the taliban and       Mexico
                                               other terrorist and insurgent networks in afghanistan. the            over the past year, treasury and its Mexican counterparts
                                               atfc provides threat finance expertise to u.s. civilian and           increased efforts to combat money laundering and target the
                                               military leaders and assists afghan authorities in investigations     financial underpinnings of criminal organizations in Mexico.
                                               of insurgent finance, narcotics trafficking, and government           treasury provided technical assistance to Mexico through
                                               corruption. through this assistance, the atfc has helped build        training on forensic accounting, financial investigations, and
                                               the capacity of afghan authorities to operate independently, a        financial sector supervision to address money laundering. In
                                               key u.s. policy goal in afghanistan.                                  august 2010, the Director of the office of foreign assests
                                                                                                                     control (ofac) met with private and public sector officials
                                               In June 2010, the financial transactions and reports analysis
                                                                                                                     in Mexico city to strengthen coordination between treasury
                                               center of afghanistan (fintraca) formally entered the
                                                                                                                     and Mexican actions against cartels. During the year, treasury
                                               egmont group under treasury sponsorship. the egmont
                                                                                                                     has designated 49 individuals and 25 entities associated with
                                               group is the world’s organization of financial intelligence units
                                                                                                                     Mexican drug cartels, enhanced information exchange with
                                               (fIus), which share financial intelligence to improve global law
                                                                                                                     the Mexican fIu, and improved coordination on a variety of
                                               enforcement. fintraca can now engage with the other 119
                                                                                                                     counter narcotics initiatives.
                                               fIus that form this global network.
                                                                                                                     treasury continued to leverage partnerships with u.s. law
                                               treasury will continue to investigate bulk cash movements and
                                                                                                                     enforcement and the Mexican fIu to support the detection, in­
                                               illicit financial flows into and out of afghanistan. to support
                                                                                                                     terdiction, and investigation of the flow of illicit proceeds from
                                               these efforts, treasury is planning to deploy additional personnel
                                                                                                                     narcotics and human smuggling into u.s. and Mexican banks.
                                               to the attaché office in kabul to bolster the regulatory and
                                                                                                                     In support of these efforts, treasury completed a joint study with
                                               investigative capacity of the afghan government.
                                                                                                                     the Mexican fIu to more accurately baseline u.s. dollar cur­
                                                                                                                     rency activity in Mexico. the study will allow both countries to
                                                                                                                     more effectively measure the scope of bulk cash smuggling into
                                                                                                                     Mexico and the effectiveness of future anti-money laundering
                                                                                                                     (aMl) and cash interdiction efforts. treasury and the Mexican
                                                                                                                     fIu produced a joint intelligence advisory with the national




                                               30                                                                   fiscal year 2010 performance by strategic goal
                                                           performance and accountability report | fiscal year 2010




                                                                                                                                          part 1: management’s discussion and analysis
Drug Intelligence center (nDIc) on trends in trade-based              fincen released a report specifically describing trends found
money laundering and black market peso exchange. further,             in depository institution suspicious activity reports (sars)
treasury initiated support for a newly-created southwest border       on loan modification and foreclosure rescue scams in June
anti-Money laundering alliance through analysis of wire re­           2010. the relevant sars increased from 28 reports filed by
mittance data; issued an advisory on a new Mexican regulation         depository institutions and money services businesses in 2004,
that may precipitate a significant change in recent cash smug­        to over 3,000 sars filed in 2009. the sars in the sample
gling trends; and identified and referred Mexican cartel money        dataset revealed that in the eight months between the issuance
laundering suspects to u.s. and Mexican law enforcement.              of an april 2009 fincen advisory requesting filers report loan
                                                                      modifications and foreclosure rescue fraud activity in sars, fil­
Major Asset Seizures and Forfeitures                                  ers increased reporting by over 100 percent In addition, fincen
                                                                      published its latest mortgage fraud report in July 2010, which
the treasury forfeiture fund collected over $1 billion in forfei­
                                                                      provided analysis of depository institution sars and described
tures and recoveries. the abn aMro bank signed a Deferred
                                                                      filing trends, evolving patterns, and emerging typologies. the
Prosecution agreement with the u.s. government and agreed
                                                                      report is intended to benefit law enforcement, regulators, and
to forfeit $500 million to the treasury forfeiture fund in con­
                                                                      financial industries.
nection with a conspiracy to defraud the united states, violate
the International emergency economic Powers act (IeePa),              fincen was recognized by the DoJ for playing an important
violate the trading with the enemy act (tWea), and violate            role in operation stolen Dreams, an effort over 3.5 months
the bank secrecy act (bsa). of this amount, $250 million was          to take down mortgage fraud schemes across the country. the
shared with the Justice forfeiture fund. In another case jointly      operation involved 1,215 criminal defendants nationwide who
managed by treasury and the DoJ, credit suisse bank signed a          were allegedly responsible for more than $2.3 billion in losses.
Deferred Prosecution agreement and agreed to a total forfeiture
of $536 million. the District attorney of the county of new
                                                                      Collaborated to Detect Health Care Fraud
york received half, $268 million, the treasury forfeiture fund
                                                                      treasury is working with the health care fraud Prevention and
received $134 million in equitable sharing from the Justice
                                                                      enforcement action team (heat), which brings investigators
forfeiture fund, and the balance of $134 million was retained
                                                                      and prosecutors together in selected geographical areas to target
by DoJ as the lead agency. In both cases, these banks permitted
                                                                      individuals and organizations who are defrauding the health
illegal transactions on behalf of customers and other countries
                                                                      care system. treasury is working closely with hhs, DoJ, and
sanctioned in programs administered by the Department of the
                                                                      other federal and state law enforcement agencies to identify
treasury.
                                                                      increasingly complex health care fraud schemes. treasury
                                                                      developed an initiative to use the bank secrecy act (bsa)
Enhanced Mechanisms to Combat                                         analytical assessments to identify the most egregious individual
Mortgage and Loan Modification Fraud                                  perpetrators and organized groups in these schemes. through
treasury continued to combat mortgage fraud, foreclosure rescue       this analytical process, treasury will be able to provide the
scams, and loan modification fraud, an activity begun in prior        investigators with an overall assessment of the targeted juris­
years. treasury developed a notice of proposed rulemaking             dictions, as well as the organizations and individuals that are
that would require non-bank residential mortgage lenders and          suspected of being engaged in health care fraud.
originators to guard against and report on illicit financial trans­
actions. fincen published an advisory to financial institutions
on fraud related to home equity conversion mortgages (hecMs)
in april 2010 and an updated advisory to financial institutions
on loan modification fraud in June 2010.




management and organizational excellence                                                                                            31
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               m anagement              anD      O rganizatiOnal                     Modernized Information Technology
                                                                                                                     With an annual It budget of over $3 billion dollars, the
                                               exCellenCe
                                                                                                                     Department is focused on enabling innovation in support of its
                                               the Department of the treasury strives to achieve excellence in       expanding financial and economic missions, while increasing
                                               the design and execution of its management processes, enabling it     the operational efficiency and effectiveness of existing It assets.
                                               to better accomplish its mission. continual improvement in the        Primary examples of this innovation include enterprise content
                                               effectiveness and efficiency of these processes through institu­      Management, the Irs’s customer account Data engine II,
                                               tionalized performance reviews and relentless follow-up will drive    fincen’s It Modernization, It projects central to treasury’s
                                               improved results. some of the highlights of these areas follow.       duties under the Dodd-frank act, Data center consolidation,
                                                                                                                     and increasing the amount of data that is readily accessible
                                                                                                                     to the public through the obama administration’s open
                                               Performance Management
                                                                                                                     government effort. to track performance, treasury utilizes the
                                               In fiscal year 2010, the Department began to conduct quarterly        federal It Dashboard to monitor and assess its key programs.
                                               formal performance reviews of its bureaus and policy offices.         treasury had two high risk investments in fiscal year 2010.
                                               Meetings are held with the Deputy secretary, the assistant
                                               secretary for Management, and bureau and policy officials. the        for the Department’s first high risk investment related to its
                                               intent is to utilize performance information to drive improved        network, “tnet,” the following actions were taken during fiscal
                                               results and improve the performance culture of the organization.      year 2010:
                                               the first session in 2010 reviewed existing bureau missions,            •	   treasury officials met with the federal cIo, Vivek kundra,
                                               goals, and measures. the second session focused on the fiscal                on september 29, 2010, to discuss the investment
                                               year 2012 budget formulation. the third session reviewed 2010
                                                                                                                       •	   treasury and oMb finalized a plan on actions to improve
                                               performance and plans for 2011.
                                                                                                                            performance
                                                                                                                       •	   In fiscal year 2011 treasury’s legacy wide area network will
                                               Improved Management of Human Capital                                         be fully decommissioned and treasury will complete its data
                                               attention in fiscal year 2010 focused on employee Viewpoint                  transition to gsa’s network realizing a cost savings of $40
                                               survey (now called the fedView survey) scores, the best Places               million per year
                                               to Work rankings, and revisions to the senior executive service         •	   treasury will corporatize the decision making related to the
                                               (ses) rating system. by targeting key areas for improvement,                 investment and appointed a new program manager
                                               the Department moved from 17th to 12th on the best Places
                                               to Work in government survey, making treasury one of the              for the Department’s second high risk investment, treasury
                                               most improved agencies across the federal government. the             enterprise Identity, credential and access Management
                                               Department also improved its scores in all four key areas of the      (teIcaM), the following actions were taken during fiscal year
                                               employee Viewpoint survey: leadership and knowledge manage­           2010:
                                               ment, results-oriented performance culture, talent management,          •	   treasury officials met with the federal cIo on october 25,
                                               and job satisfaction. see http://bestplacestowork.org/BPTW/rank­             2010 to discuss the investment
                                               ings/overall/large for survey rankings.                                 •	   an improvement plan is in development but is not yet 

                                               treasury implemented several changes to the ses performance                  finalized

                                               management process to clarify performance expectations and            the Department continues to implement effective information
                                               support more meaningful distinctions in ratings and rewards.          security tools to thwart attacks and keep key information safe.
                                               because ses reform has been identified as a major priority of         two of treasury’s Department-wide strategic security objectives
                                               the President’s Management council, treasury plans to pursue          include use of homeland security Presidential Directive-12
                                               additional initiatives in fiscal year 2011 related to performance,    credentials for access to business applications and use of
                                               hiring, and executive development.                                    data-loss prevention tools to prevent the accidental leakage of




                                               32                                                                   fiscal year 2010 performance by strategic goal
                                                          performance and accountability report | fiscal year 2010




                                                                                                                                         part 1: management’s discussion and analysis
information. Treasury is also enhancing its capability to monitor   Achieved Acquisition Savings
the use of illegal and unauthorized software in its networks and    The Department executed its fiscal year 2010 plan to meet the
systems. This capability will help prevent software piracy and      OMB acquisition improvement mandate to deliver 3.5 percent
the introduction of hostile software which would put Treasury’s     in procurement savings in fiscal year 2010 and achieve a ten
IT-based business processes and information at risk of theft,       percent reduction in high risk contracting in fiscal year 2010.
compromise, or disruption.                                          As of September 30, Treasury had exceeded both goals, realizing
                                                                    over $241.9 million in savings versus the goal of $158.4 million,
Increased Use of Electronic Transactions                            and $129.4 million in high risk contracting reduction versus the
In 2010, Treasury began implementing a “paperless” initiative to    goal of $48.8 million.
increase the use of electronic transactions with the public. The
                                                                    The Department has taken steps to achieve 3.5 percent savings
largest effort involves migrating Social Security, Supplemental
                                                                    in fiscal year 2011 ($158 million) and reduce the use of high risk
Security Income, Veterans, Railroad Retirement, and Office of
                                                                    contracting authorities. Treasury will continue to actively tran­
Personnel Management payments to electronic transactions.
                                                                    sition to lower risk contracting strategies. Treasury will achieve
Individuals will be able to receive benefits either through
                                                                    its targets through active management of acquisition operations
direct deposit or Treasury’s Direct Express debit card. Today,
                                                                    and increased examination of high dollar/risk contracts.
one million Americans are receiving their benefit payments
through Direct Express. Beginning March 1, 2011, Treasury will
require that new enrollees receive payments electronically. All     Improved Transparency and
recipients will be required to receive payments electronically by   Accountability
March 1, 2013. Currently, 85 percent of federal benefit recipi­     In April 2010, the Department of Treasury published
ents receive their payments electronically. Moving all recipients   its first Open Government plan in line with the Obama
of these benefits to electronic payments is expected to save        Administration’s Open Government Directive. An Open
upwards of $300 million in the first five years.                    Government Steering Committee with representatives from
                                                                    each of Treasury’s bureaus was established to develop guidance
Currently, nearly 98 percent of all business tax dollars are paid
                                                                    and lead activities across the Department. In executing the
electronically through Treasury’s free Electronic Federal Tax
                                                                    plan, Treasury released 84 data sets, increased stakeholder
Payment System (EFTPS). IRS research has shown that busi­
                                                                    outreach efforts, and began a more focused approach to tracking
nesses using EFTPS are 31 times less likely to make an error. For
                                                                    reductions in the Freedom of Information Act (FOIA) request
tax collection, businesses with $2,500 or more in quarterly tax
                                                                    backlog. In addition, the Department identified costs savings
liabilities that are permitted to use paper Federal Tax Deposit
                                                                    from Open Government initiatives such as tracking the impact
coupons will have to make those deposits electronically begin­
                                                                    of proactive disclosure through FinancialStability.gov on FOIA
ning in 2011. This change will save an estimated $65 million in
                                                                    requests to the Office of Financial Stability (OFS). Using this
the first five years.
                                                                    data, Treasury developed a cost-benefit matrix to assess open
Finally, Treasury will eliminate the option to purchase paper       government initiatives.
savings bonds through payroll deductions for federal employees
                                                                    The Department of the Treasury received a Leading Practices
on September 30, 2010 and for the private sector by January
                                                                    Award for Participation and Collaboration for achievement
1, 2011. Individuals will still be able to purchase paper sav­
                                                                    above and beyond the requirements of the Directive. This award
ings bonds at financial institutions for themselves and as gifts.
                                                                    recognized Treasury as an agency that outlined the best and
Payroll savers will be encouraged to continue their purchases
                                                                    most innovative strategies for promoting open government over
through TreasuryDirect, a web-based system that allows inves­
                                                                    the next two years. Treasury was only one of eight agencies to
tors to buy and hold electronic Treasury securities. This change
                                                                    receive an award.
is estimated to save nearly $50 million in the first five years.




management and organizational excellence                                                                                          33
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               Provided Effective Oversight of Treasury                               tIgta is responsible for successful investigations of entities
                                               Programs                                                               and individuals who threaten the u.s. tax system. tIgta
                                               the treasury Inspector general chairs the council of Inspectors        estimates approximately $11.46 billion in potential financial
                                               general on financial oversight (cIgfo), which was estab­               benefits could be realized through implementation of its audit
                                               lished by the Dodd-frank act. cIgfo facilitates information            recommendations in fiscal year 2010 and $230 million in
                                               sharing among inspectors general with a focus on concerns that         potential savings could be realized from investigative recoveries
                                               may apply to the broader financial sector and on ways to im­           from embezzlements, thefts, court order fines, penalties, and
                                               prove financial oversight. the treasury Inspector general also         restitution. these benefits included $2.8 billion in cost savings
                                               serves as a statutory member of the recovery accountability            recommendations, $8.6 billion in potential increased revenue/
                                               and transparency board which was established in 2009 to                revenue protected recommendations, $0.2 million in taxpayer
                                               coordinate and conduct oversight of recovery act funds to              rights and entitlement recommendations, and $36 million in
                                               prevent fraud, waste, and abuse.                                       recommendations related to inefficient use of resources. these
                                                                                                                      reports also included recommendations impacting over two
                                               the oIg committed nearly all audit resources to mandated               million taxpayer accounts.
                                               work primarily related to material loss reviews of failed banks
                                               during the fiscal year. Due to the unprecedented number of             sIgtarP promotes efficiency and effectiveness in treasury’s
                                               treasury-regulated bank failures requiring review, the oIg was         management of the tarP through transparency, coordinated
                                               unable to meet its performance goal of completing 100 percent          oversight, and robust enforcement against those who waste,
                                               of audits by the statutory deadline. During fiscal year 2010, 53       steal, or abuse tarP funds. sIgtarP’s primary tools for
                                               treasury-regulated banks failed. by comparison, 27 treasury­           informing taxpayers about tarP are audit and quarterly reports,
                                               regulated banks failed during fiscal year 2009. for fiscal year        which are available for inspection at www.sigtarp.gov. since
                                               2010, oIg had 18 required material loss reviews in progress            its inception, sIgtarP has conducted 22 distinct audits and
                                               at the start of the year; initiated 20 new material loss reviews       issued 11 audit reports on topics such as use of tarP funds,
                                               during the year; and completed ten. During fiscal year 2010, ma­       external influences on program decision-making, oversight
                                               terial loss reviews were required when the bank failure caused a       of aIg’s executive compensation, and treasury’s role in the
                                               loss to the Deposit Insurance fund of $25 million or more. this        decision to reduce the number of gM and chrysler dealerships.
                                               threshold was recently increased to $200 million. In addition,         sIgtarP’s investigations division has over 104 ongoing major
                                               the office of Investigations initiated four criminal investigations    criminal and civil investigations. sIgtarP closely coordinates
                                               of failed treasury banks as a result the office of audit’s findings.   its oversight activities with other tarP oversight bodies to
                                               During fiscal year 2010, the oIg office of audit completed             ensure maximum coverage while avoiding redundancy and
                                               50 percent of statutory audits by their required deadline and          undue burden.
                                               completed 68 products overall.




                                               34

                                                                                        performance and accountability report | fiscal year 2010




                                                                                                                                                                                                                                                              part 1: management’s discussion and analysis
DePartMent of the treasury
key PerforMance Measures for 2010

the following table contains ten key performance metrics providing a representative overview of the Department’s performance
for 2010. Discussion of the factors contributing to each measure’s performance results, and plans to improve the measures’ results in
future years, follows the table.




                                                                                                                                                                                               Percent Target
                                                                                                                                                                                               Achieved 2010




                                                                                                                                                                                                                                               Actual Trend
                                                                                                                                                                                                                                Target Trend
                                                                                     2007 Actual




                                                                                                                   2008 Actual




                                                                                                                                                   2009 Actual




                                                                                                                                                                                 2010 Actual




                                                                                                                                                                                                                  2010 Actual
                                                                      2007 Target




                                                                                                    2008 Target




                                                                                                                                   2009 Target




                                                                                                                                                                  2010 Target




                                                                                                                                                                                                                  vs. Target
                                                            Bureau




                                                                                                                                                                                                                                4-year


                                                                                                                                                                                                                                               4-year
Performance Measure Official Title
 Percentage collected electronically of total dollar        FMS       80             79             79             80              80              84             80             85            106%              Exceeded          ►              ▲
 amount of Federal government receipts (%)
 Customer Service Representative (CSR) Level of             IRS       82             82.1           82             52.8            70              70             71             74            104%              Exceeded          ▼              ▼
 Service (%)
 Percent of Business Returns Processed Electronically       IRS       19.5           19.1           20.8           19.4            21.6           22.8            24.3           25.5          105%              Exceeded          ▲              ▲
 (%)
 Percent of Individual Returns Processed Electronically     IRS       57             57.1           61.8           57.6            64             65.9            70.2           69.3           99%               Unmet            ▲              ▲
 (%)
 Number of full-time equivalent jobs created or             CDFI     34,009         35,022         28,676         29,539         30,000          70,260          85,000         80,796          95%               Unmet            ▲              ▲
 maintained in underserved communities by businesses
 financed by CDFI program awardees
 Rehabilitated national banks as a percentage of            OCC       40             52             40             47              40              29             40             23             58%               Unmet            ►              ▼
 problem national banks one year ago (CAMELS 3, 4
 or 5) (%)
 Clean audit opinion on TARP financial statements           DO                                                                   Baseline         Met                1              1          100%                Met             ►              ►

 Percent of customers satisfied with Financial Stability.   DO                                                                   Baseline          65             70             63             90%               Unmet            ▲              ▼
 gov (%)
 Percent of timely completed Planned Corrective             DO        85             71.7           85             82.5            85             85.6            87.5           88.4          101%              Exceeded         ▲              ▲
 Actions (%)
 Impact of TFI programs and activities                      DO                                                                   Baseline         7.81            7.4            8.1           109%              Exceeded          ►             ▲
 Note: Performance measures were not audited.



In fiscal year 2010, fMs collected nearly $2.94 trillion through                                                                                 Legend                                                         Symbol
approximately 9,000 financial institutions, with 85.3 percent of                                                                                 Favorable upward trend                                           
the dollars collected electronically. fMs’s metric “Percentage                                                                                   Favorable downward trend                                         

collected electronically of total dollar amount of federal govern­                                                                               Unfavorable upward trend                                         

ment receipts” exceeded its performance target by five percent­                                                                                  Unfavorable downward trend                                       
                                                                                                                                                 No change in trend, no effect                                    
age points and showed a one percentage point improvement over
                                                                                                                                                 No change in trend, favorable effect                             
2009. More than 108 million payments were processed through
                                                                                                                                                 No change in trend, unfavorable effect                           
eftPs, an increase in transaction volume of seven percent,
                                                                                                                                                 Baseline                                                         B
despite only a 3.5 percent growth in tax revenue collected. fMs
regularly reaches out to the banking community to promote
electronic collection and is implementing marketing programs
to encourage migration of paper-based collections to electronic
collection systems and Pay.gov.




  department of the treasury key performance measures for 2010                                                                                                                                                                                      35
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               the Irs metric “customer service representative (csr) level          national banks continued to operate in a highly challenging
                                               of service” exceeded its performance target by four percent in       and volatile environment. the impact of the past and cur­
                                               fiscal year 2010 and improved on the prior fiscal year’s result by   rent economic climates on these banks requires longer term
                                               four percentage points. the Irs is addressing demand through         rehabilitation efforts. given the weak economy, occ focused
                                               improved self-service options. twenty-one percent more               on monitoring and responding to adverse conditions in credit
                                               automated calls were completed compared to fiscal year 2009,         and financial markets, improving credit risk management at
                                               reaching 35.1 million calls. the number of assistor answered         supervised institutions, and monitoring loan portfolios. for all
                                               calls was 36.7 million, lower than the 39 million assistor calls     national banks, occ is continuing to focus on quick responses
                                               answered in fiscal year 2009.                                        to deteriorating bank credit quality and on ensuring banks
                                                                                                                    maintain adequate liquidity, loan-loss reserves, and capital
                                               Irs electronic filing metric “Percent of business returns
                                                                                                                    buffers. because of changing conditions, occ should consider
                                               Processed electronically” exceeded its performance target by
                                                                                                                    changing their target setting methodology.
                                               five percent, a 12 percent increase over fiscal year 2009. the
                                               “Percent of Individual returns Processed electronically” came        for fiscal year 2010, the office of financial stability (ofs)
                                               within one percent of meeting its target. Increased electronic       received a clean audit opinion on tarP financial statements.
                                               filing can be attributed to changes in filing patterns, economic     this is a significant accomplishment, and ofs will continue
                                               and demographic trends, legislative requirements, and Irs            to strive for accuracy and transparency in its financial state­
                                               administrative processes. Irs expects the percentage of both         ments. however, the metric “Percent of customers satisfied
                                               business and individual returns filed electronically to increase     with financialstability.gov” fell short of its 70 percent target
                                               in fiscal year 2011 based on recent experience, historical growth    by seven percentage points and was also two percentage points
                                               trends, increased marketing, and expanded programs aimed at          lower than fiscal year 2009. ofs is using survey analysis results
                                               boosting electronic filing. Irs will continue to pursue additional   to identify opportunities for implementing new webpage layouts.
                                               legislative mandates to increase electronic filing for businesses
                                                                                                                    During fiscal year 2010, the Department achieved 88.4 percent
                                               taxpayers, such as a 2011 provision requiring taxpayers filing
                                                                                                                    of timely completed Planned corrective actions (Pcas),
                                               more than ten individual returns during a calendar year to file
                                                                                                                    which exceeded its target of 87.5 percent. throughout fiscal
                                               electronically.
                                                                                                                    year 2011, the Department will continue to monitor progress
                                               the cDfI fund’s metric “number of full-time equivalent jobs          on the timely completion of Pcas and continue to provide
                                               created or maintained in underserved communities by businesses       valuable information on various aspects of audit follow-up.
                                               financed by cDfI Program awardees” achieved 80,796, a 15             In addition, the target completion rate has been raised to 90
                                               percent increase over the prior year and within five percent of      percent for fiscal year 2011.
                                               the target. this target was unmet primarily due to the effects of
                                                                                                                    tfI’s performance metric “Impact of tfI programs and activi­
                                               the economic downturn. the cDfI Program in fiscal year 2010
                                                                                                                    ties” exceeded its performance target and improved on the fiscal
                                               competitively awarded $104.8 million in funding to 179 cDfIs
                                                                                                                    year 2009 results by nine percent. this metric consists of four
                                               and organizations for providing loans, investments, financial
                                                                                                                    overall focus areas, with additional detailed focus area compo­
                                               services, and technical assistance to underserved populations
                                                                                                                    nents. these components align to performance goals established
                                               and low-income communities. the amount of money cDfIs
                                                                                                                    by tfI. the external review process for this measure still needs
                                               were able to attract from private investment reached nearly
                                                                                                                    to be developed, but the implementation of this measure is a
                                               $2 billion, more than triple the 2010 target of $600 million,
                                                                                                                    large step in the effort to measure performance for a policy office
                                               largely due to higher program funding provided in legislation
                                                                                                                    that also has operational responsibilities.
                                               passed after the target was set.

                                               During fiscal year 2010, occ’s metric “rehabilitated national
                                               banks as a percentage of problem national banks one year ago
                                               (caMels 3, 4 or 5)” achieved 58 percent of its performance
                                               target, dropping by 21 percent compared with fiscal year 2009.




                                               36                                         department of the treasury key performance measures for 2010
                                                                    performance and accountability report | fiscal year 2010




                                                                                                                                                                                    part 1: management’s discussion and analysis
suMMary of ManageMent anD PerforMance
challenges anD hIgh-rIsk areas

annually, in accordance with the Reports Consolidation Act of 2000, the treasury office of Inspector general (oIg) and the treasury
Inspector general for tax administration (tIgta) identify the most significant management and performance challenges facing the
Department. the government accountability office (gao) identifies high-risk areas biennially. these challenges do not necessar­
ily indicate deficiencies in performance; rather, some represent inherent risks that must be monitored continuously. treasury made
much progress on these issues in fiscal year 2010, and will continue to focus on resolving them during fiscal year 2011.

summaries of the Ig-identified management challenges and gao-identified high-risk areas are below. for details, refer to appendix c
for this year’s oIg and tIgta memoranda identifying major management and performance challenges, and the secretary’s responses.


treasury-WiDe m anagement C hallenges – a s i DentifieD by Oig
Management Challenge                             Summary of Major Issues
 Transformation of Financial Regulation          •	 Implement and enforce the provisions of the Dodd-Frank Wall Street Reform and Consumer Protection Act and other
                                                   federal consumer financial laws consistently
                                                 •	 Identify risks to financial stability that could arise from the activities of large, interconnected financial companies;
                                                   respond to emerging threats to the financial system; and promote market discipline
                                                 •	 Assess and report on systemic risks

                                                 •	 Monitor the insurance industry

                                                 •	 Streamline and improve supervision of depository institutions and holding companies

 Management of Treasury’s Authorities Intended   •	 Protection of the taxpayer from unnecessary risk associated with the implementation and administration of
 to Support and Improve the Economy                programs intended to support and improve the economy, including the provisions of:
                                                      •	 Small Business Jobs Act of 2010
                                                      •	 American Recovery and Reinvestment Act of 2009
                                                      •	 Housing and Economic Recovery Act of 2008
                                                      •	 Emergency Economic Stabilization Act of 2008

 Anti-Money Laundering and Terrorist             •	 Prevent and detect money laundering and terrorist financing
 Financing/ Bank Secrecy Act Reporting           •	 U.S. and international financial systems that are safe and transparent

                                                 •	 Efficient management, safeguarding, and use of Bank Secrecy Act information

 Management of Capital Investments               •	 Effective use of taxpayer funds for large capital investments




irs m anagement C hallenges – a s i DentifieD by tigta
Management Challenge                             Summary of Major Issues
 Security                                        Appropriate physical security and protection of financial, personal, and other information
 Modernization                                   Improve taxpayer service and efficiency of operations
 Tax Compliance Initiatives                      Improve compliance and fairness in the application of the tax laws
 Implementing Health Care and Other Tax Law      Responsiveness to new tax provisions, including tax-related health care provisions of the Patient Protection and
 Changes                                         Affordable Care Act, the Recovery Act, and adjusting to expiring provisions
 Providing Quality Taxpayer Service Operations   Improve taxpayer service
 Human Capital                                   Enable the IRS to achieve its mission
 Erroneous and Improper Payments and Credits     Effective use of taxpayer funds
 Globalization                                   Increase outreach efforts to foreign governments on cross-border transactions
 Taxpayer Protection and Rights                  Apply the tax laws fairly
 Leveraging Data to Improve Program              Use resources to focus on producing the best value for stakeholders
 Effectiveness and Reduce Costs




  summary of management and performance challenges and high-risk areas                                                                                                         37
                                               the department of the treasury
part 1: management’s discussion and analysis




                                                                                                                         Target specific areas of noncompliance and improve
                                               h igh-r isk a reas –                                                      voluntary compliance with extensive research
                                               a s i DentifieD by gaO                                                      •	   the Irs continued to focus examinations on high-net
                                                                                                                                worth individuals, flow-through entities, and large
                                               Enforcement of the Tax Laws                                                      corporations (assets > $10 million). In fiscal year 2010,
                                               Issue: the Irs needs to improve its enforcement of tax laws,                     the Irs conducted over 153,000 high-net worth audits,
                                                    not only to catch tax cheats, but also to promote broader                   an increase of 5.5 percent. audits of large corporations
                                                    compliance by giving taxpayers confidence that others are                   increased by 8.1 percent, a significant achievement given
                                                    paying their fair share.                                                    the size (more than $10 million in assets) and complexity
                                                                                                                                of these corporate entities. the number of flow through
                                               Goal: Improve research on noncompliance, increase the use of
                                                                                                                                audits totaled more than 29,000.
                                                    third party information reporting, focus on improving stan­
                                                                                                                           •	   During fiscal year 2010, the Irs began laying the ground­
                                                    dards among tax return preparers, and increase emphasis on
                                                                                                                                work to ensure the quality and integrity of professional
                                                    international noncompliance.
                                                                                                                                tax return preparation, which most taxpayers rely on in
                                               Challenges and Actions Taken/Planned:                                            one form or another. the Irs successfully implemented
                                                 Reduce the opportunity for evasion                                             an application process to comply with the mandate
                                                                                                                                that all paid tax return preparers obtain a preparer tax
                                                    •	   During fiscal year 2010, the Irs continued to focus
                                                                                                                                identification number.
                                                         on the many taxpayers that shift income abroad and
                                                         engage in offshore tax evasion schemes in order to hide           •	   In fiscal year 2010, the Irs released the research
                                                         their wealth and avoid paying taxes. With cross-border                 community strategic Plan. the plan focuses on research
                                                         transactions on the rise, the Irs more than doubled                    efforts aimed at effectively determining ways to address
                                                         offshore presence by opening new offices in asia and                   taxpayer compliance.
                                                         central america, placing additional personnel at its              •	   In fiscal year 2011, the Irs will continue to expand its
                                                         existing offices throughout the world, and expanding its               efforts to address international tax evasion, expand the
                                                         interaction with key international organizations involved              focus on corporate and high net-worth returns to inte­
                                                         in tax and financial law compliance.                                   grate significant new information reporting authorities
                                                    •	   In fiscal year 2010, the Irs began mining the informa­                 into compliance programs, and proceed with additional
                                                         tion from participants of its offshore voluntary disclosure            mandates for paid tax preparers. the mandates include
                                                         program started in 2009, to identify financial institutions,           the requirement that all paid tax return preparers except
                                                         advisors, and others who promoted or otherwise helped                  attorneys, certified public accountants, and enrolled
                                                         u.s. taxpayers hide assets and income offshore. the Irs                agents pass a competency test and complete continuing
                                                         also used audit results and intelligence from ongoing                  professional education of 15 hours per year. the Irs also
                                                         offshore initiatives to refine case identification and selec­          plans to conduct research to enhance compliance and
                                                         tion methods and to identify promoters, facilitators, and              use analytically-based technologies to provide tools for
                                                         participants in abusive offshore arrangements.                         detecting and reducing noncompliance.

                                                    •	   In fiscal year 2011, the Irs will use mined data from the
                                                         offshore voluntary disclosure program to develop ad­
                                                         ditional strategies to prohibit promoters and facilitators
                                                         from soliciting new clients.




                                               38                             summary of management and performance challenges and high-risk areas
                                                             performance and accountability report | fiscal year 2010




                                                                                                                                               part 1: management’s discussion and analysis
IRS Business Systems Modernization                                          •	   the Irs also deployed an additional release of Mef that
Issue: the business systems Modernization (bsM) program is                       enabled acceptance of the forms and schedules to reach
    developing and delivering a number of modernized systems                     61 percent of the e-file population, and with enhanced
    to replace the aging business and tax processing systems                     disaster recovery capabilities to manage operational risk.
    currently in use. this effort is highly complex and sched­                   In addition, the Irs deployed the final release of aMs,
    uled to be carried out over a numbers of years, ultimately                   enabling users to view correspondence images online,
    creating a more efficient and effective Irs. though the                      eliminating manual processing and reducing case cycle
    Irs experienced delays and cost overruns in the early years                  time from 10-14 days to zero days. aMs also facilitated
    of the effort, improved practices and oversight are now                      the identification of unallowable or fraudulent claims
    contributing to better delivery of outcomes.                                 for first-time home buyer credits claimed by taxpayers
                                                                                 filing amended returns.
Goal: Meet all bsM project milestones within a cost and
                                                                            •	   In fiscal year 2011, the Irs will continue to focus on
    schedule variance of 10 percent of the initial estimate.
                                                                                 modernization of the tax administration systems to
Challenges and Actions Taken/Planned:                                            provide additional benefits to taxpayers. the Irs will
                                                                                 further develop caDe 2 to accommodate tax law
  Fully implement all projects and programs for the BSM
                                                                                 changes in the 2012 filing season.
  program
    •	   In fiscal year 2010, Irs modernization efforts continued
         to focus on core tax administration systems designed
                                                                        Modernizing the Outdated U.S.
         to provide more sophisticated tools to taxpayers and to
                                                                        Regulatory System
         Irs employees. the customer account Data engine
                                                                        Issue/Goal: efficient and effective implementation of financial
         (caDe), Modernized e-file (Mef), and account
                                                                            regulatory reform legislation.
         Management services (aMs) modernization projects
         delivered the changes necessary for a successful filing
                                                                        Challenges and Actions Taken/Planned:
         season, and continued to support implementation of
                                                                        actions related to this high-risk area are provided on page
         recovery act tax provisions.
                                                                        15 (financial regulatory reform), page 24 (strengthened
    •	   the Irs revised its caDe strategy (caDe 2) to imple­           International economic coordination), and page 26
         ment a new taxpayer account database for the 2012 filing       (regulation of banks and thrifts).
         season that provides for daily updating of individual
         taxpayer accounts to improve taxpayer service and
         accuracy, reduce interest paid on late refunds, improve
         data security, and allow the development of new tools
         to combat fraud and improve enforcement activities.
         completion of the taxpayer account database is the pre­
         requisite for other major initiatives, including significant
         expansion of online services and transactions and next
         generation of enforcement technologies.




  summary of management and performance challenges and high-risk areas                                                                    39
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               analysIs of fInancIal stateMents

                                                    CONDENSED BALANCE SHEET (in millions):                                                     2010                2009
                                                        Due From the General Fund                                                   $    13,655,637      $   11,992,719
                                                        Other Intra-governmental Assets                                                   1,025,169             923,457
                                                        Cash, Foreign Currency, and Other Monetary Assets                                   375,282             341,308
                                                        Gold and Silver Reserve                                                              11,062              11,062
                                                        TARP Direct Loans and Equity Investments, Net and Asset Guarantee Program           144,692             239,657
                                                        Investments in Government Sponsored Enterprises                                     109,216              64,679
                                                        Investments and Related Interest                                                     12,639              13,565
                                                        Credit Program Receivables and Direct Loans, Net                                    186,396             184,460
                                                        Tax, Other Related Interest Receivables, Net                                         36,976              30,408
                                                        Beneficial Interest in Trust                                                         20,805              23,472
                                                        Other Assets                                                                         21,383              21,814
                                                      Total Assets                                                                  $    15,599,257      $   13,846,601
                                                        Federal Debt and Interest Payable                                           $    13,623,731      $   11,962,385
                                                        Other Intra-governmental Liabilities                                              1,424,976           1,275,613
                                                        Liabilities to Government Sponsored Enterprises                                      359,900             91,937
                                                        Other Liabilities                                                                     89,554             88,610
                                                      Total Liabilities                                                                  15,498,161          13,418,545
                                                        Unexpended Appropriations                                                            400,557            455,144
                                                        Cumulative Results of Operations                                                   (299,461)            (27,088)
                                                      Total Net Position                                                                     101,096            428,056
                                                      Total Liabilities and Net Position                                            $    15,599,257      $   13,846,601



                                                    CONDENSED STATEMENT OF NET COST (in millions):                                             2010                2009
                                                        Net Financial Program Cost                                                  $        13,243      $       13,055
                                                        Net Economic Program (Revenue)/Cost                                                 297,234             195,705
                                                        Net Security Program Cost                                                               340                 322
                                                        Net Management Program Cost                                                             526                 509
                                                      Total Program Cost before Assumption Changes                                          311,343             209,591
                                                        (Gains)/Losses Due To Changes in Actuarial Assumptions                                  820                   0
                                                        Total Net Cost of Treasury Operations                                       $       312,163      $      209,591
                                                        Net Federal Costs (primarily interest on the Federal Debt)                  $       346,678      $      313,341



                                                    CONDENSED STATEMENT OF CHANGES IN NET POSITION (in millions):                              2010               2009
                                                        Beginning Balance                                                           $       (27,088)     $       37,743
                                                        Budgetary Financing Sources                                                         503,042             668,894
                                                        Other Financing Sources (Uses)                                                    (116,574)           (210,793)
                                                        Total Financing Sources                                                             386,468             458,101
                                                        Net Cost of Operations                                                            (658,841)           (522,932)
                                                        Net Change                                                                        (272,373)             (64,831)
                                                      Cumulative Results of Operations                                              $     (299,461)      $     (27,088)
                                                        Beginning Balance                                                                 $455,144            $271,968
                                                        Appropriations Received                                                             456,970             855,762
                                                        Appropriations Used                                                               (502,439)           (668,153)
                                                        Other                                                                                (9,118)             (4,433)
                                                        Total Budgetary Financing Sources                                                   (54,587)            183,176
                                                      Total Unexpended Appropriations                                                       400,557             455,144
                                                      Net Position - Year End                                                       $       101,096      $      428,056




                                               40                                                                                       analysis of financial statements
                                                             performance and accountability report | fiscal year 2010




                                                                                                                            part 1: management’s discussion and analysis
   Condensed statement of Budgetary resourCes (in millions):                              2010                  2009
       Unobligated Balances, Brought Forward                                  $       457,588      $       284,630
       Recoveries of Prior Year Obligations                                             42,349                 8,096
       Budget Authority                                                               929,687            1,814,086
       Other Budget Authority                                                       (236,543)            (271,778)
     total Budgetary resources                                                $    1,193,081       $     1,835,034
       Obligations Incurred                                                   $       820,838      $     1,387,195
       Unobligated Balance                                                            301,811              413,998
       Unobligated Balance, Not Available                                               70,432               33,841
     total status of Budgetary resources                                      $    1,193,081       $     1,835,034
       Total Unpaid Obligated Balances, Net                                   $       158,323      $         56,977
       Obligations Incurred, Net                                                      820,838            1,387,195
       Gross Outlays                                                                (733,710)          (1,248,916)
       Recoveries of Prior Year Unpaid Obligations, Actual                            (42,349)               (8,096)
       Changes in Uncollected Customer Payments Federal                                  5,087             (28,748)
     total unpaid obligated Balance, net, end of year                         $      208,189       $      158,412
     net outlays                                                              $     340,510        $     922,165



   Condensed statement of Custodial aCtivity (in millions):                              2010                 2009
         Individual Income and FICA Taxes                                     $    1,988,760       $    2,036,557
         Corporate Income Taxes                                                       277,937              225,482
         Other Revenues                                                               179,613              139,648
   total Cash revenue received                                                     2,446,310            2,401,687
         Less Refunds                                                               (469,937)            (437,972)
   net Cash revenue received                                                       1,976,373            1,963,715
         Beneficial Interest in Trust                                                  (2,666)              23,472
         Accrual Adjustment                                                              6,539              (1,097)
   total Custodial revenue                                                         1,980,246            1,986,090
         Amounts Provided to Fund the Federal Government                           1,975,986            1,963,228
         Amounts Provided to Fund Non-Federal Entities                                     387                  487
         Non-cash Revenue - Beneficial Interest in Trust                               (2,666)              23,472
         Accrual Adjustment                                                              6,539              (1,097)
   total disposition of Custodial revenue                                          1,980,246            1,986,090
   net Custodial revenue activity                                             $              0     $              0




analysis of financial statements                                                                                       41
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               summary Of auDitOr’s r epOrt On                                the        treasury Department ’s finanCial
                                               statements
                                               the Department received an unqualified audit opinion on its fiscal year 2010 financial statements. as summarized in the table
                                               below, the auditor reported one open material weakness as of september 30, 2010. During the fiscal year 2010 financial audit,
                                               the auditors downgraded the material weakness they identified in the fiscal year 2009 audit, “financial Management Practices
                                               at the Departmental level,” to a significant deficiency. the office of accounting and Internal control (aIc) and the office of
                                               Performance budgeting (oPb) worked diligently during the year to close many of the planned corrective actions to improve its
                                               financial management practices and made significant progress. the auditor also reported significant deficiencies related to financial
                                               reporting at the office of financial stability and information system controls at the financial Management service. In addition,
                                               the auditor reported an instance of noncompliance with laws and regulations related to section 6325 of the Internal revenue code
                                               (release of federal tax liens), and that the Department’s financial management systems did not substantially comply with the require­
                                               ments of the Federal Financial Management Improvement Act of 1996.


                                               SUMMARY OF FINANCIAL STATEMENT AUDIT
                                                Audit Opinion                                              Unqualified
                                                Restatement                                                                                    No
                                                                                                             Beginning
                                                Material Weaknesses                                           Balance          New           Resolved      Consolidated   Ending Balance
                                                Financial Systems and Reporting at the IRS                        1             0               0               0               1
                                                Financial Management Practices at the Departmental level          1             0               1               0               0
                                                Totals                                                            2             0               1               0               1




                                               limitations on the Principal Financial Statements
                                               the principal financial statements have been prepared to report the financial position and results of operations of the Department
                                               of the treasury, pursuant to the requirements of 31 u.s.c. 3515 (b). While the statements have been prepared from the books and
                                               records of the Department of the treasury, in accordance with gaaP for federal entities and the formats prescribed by oMb, the
                                               statements are, in addition to the financial reports, used to monitor and control budgetary resources which are prepared from the
                                               same books and records.

                                               the financial statements should be read with the realization that they are for a component of a sovereign entity, that liabilities not
                                               covered by budgetary resources cannot be liquidated without the enactment of an appropriation, and that the payment of all liabili­
                                               ties other than for contracts can be abrogated by the sovereign entity.




                                               42                                                                                     analysis of financial statements
                                                            performance and accountability report | fiscal year 2010




                                                                                                                                               part 1: management’s discussion and analysis
                                                                     Liabilities. Intra-governmental liabilities totaled $6 trillion,
m ajOr h ighlights                                                        and include $4.6 trillion of principal and interest payable
the following provides the major highlights of the                        to various federal agencies, such as the social security
Department’s financial position and results of operations for             trust fund. these borrowings do not include debt issued
fiscal year 2010.                                                         separately by other governmental agencies, such as the
                                                                          tennessee Valley authority or the Department of housing
Assets. total assets increased from $13.9 trillion at september           and urban Development.
    30, 2009 to $15.6 trillion at september 30, 2010. the pri­
    mary reason for the increase is the rise in the federal debt,         liabilities also include federal debt held by the public,
    which causes a corresponding rise in the “Due from the                including interest, of $9 trillion; this debt was mainly
    general fund of the u.s. government” account ($13.7                   issued as treasury notes. the increase in total liabilities
    trillion.) this account represents future funds required              in fiscal year 2010 over fiscal year 2009 ($2.1 trillion and
    from the general fund of the u.s. government to pay                   15.5 percent), is the result of increases in borrowings from
    borrowings from the public and other federal agencies.                various federal agencies ($184.7 billion), and federal debt
                                                                          held by the public, including interest, ($1.5 trillion). Debt
    the majority of loans and interest receivable ($552.9 bil­            held by the public increased primarily because of the need
    lion) included in “Intra-governmental” assets are the loans           to finance budget deficits.
    issued by the bureau of the Public Debt to other federal
    agencies for their own use or to private sector borrowers,
                                                                      Total Liabilities
    whose loans are guaranteed by the federal agencies.
                                                                                                         12%              58%
                                                                                             Other Liabilities            Federal Debt and
                                                                                                                          Interest Payable
 Total Assets                                                                                                             (With the Public)
                 3% Intra-governmental
                     Loans and Interest
                            Receivable

                                                      88%
                           9%                         Due from the
                  Other Assets                        General Fund                                         30%
                                                                                              Federal Debt and
                                                                                               Interest Payable
                                                                                          (Intra-governmental)




  analysis of financial statements                                                                                                        43
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               Net Cost of Treasury Operations. the consolidated                                                                                Net Federal Debt Interest Costs. the increase of $27.4
                                                    statement of net cost presents the Department’s gross and                                                                        billion in net interest paid on the federal debt is due to the
                                                    net cost for its four strategic missions: financial program,                                                                     increase in the debt.
                                                    economic program, security program, and management pro­
                                                    gram. the majority of the net cost of treasury operations                                                                    Net Federal                              $500
                                                                                                                                                                                 Debt Interest
                                                    is in the economic program which includes troubled asset                                                                     Cost
                                                                                                                                                                                                                          $450
                                                                                                                                                                                                                          $400
                                                    relief Program (tarP) activity and investments in the




                                                                                                                                                                                                 Dollars (in Millions)
                                                                                                                                                                                                                          $350
                                                    government sponsored enterprises (gses). financial                                                                                                                    $300
                                                                                                                                                                                                                          $250
                                                    program costs include costs associated with treasury’s role                                                                                                           $200
                                                    as the primary fiscal agent for the federal government                                                                                                                $150
                                                                                                                                                                                                                          $100




                                                                                                                                                                                                                                 $390.9



                                                                                                                                                                                                                                          $420.4



                                                                                                                                                                                                                                                      $440.9



                                                                                                                                                                                                                                                                 $363.2



                                                                                                                                                                                                                                                                               $390.6
                                                    in managing the nation’s finances by collecting revenue,                                                                                                              $50
                                                    making federal payments, managing federal borrowing,                                                                                                                   $0
                                                                                                                                                                                                                                 2006     2007        2008       2009         2010
                                                    performing central accounting functions, and producing                                                                                                                                         Fiscal Year

                                                    coins and currency sufficient to meet the demand.

                                                                                                                                                                                Custodial Revenue. total net cash revenue collected by
                                                Total Treasury                           $300,000
                                                Program Costs                                                                                                                        treasury on behalf of the federal government includes
                                                                                         $250,000
                                                                                                                                                                                     various taxes, primarily income taxes, user fees, fines and
                                                                 Dollars (in Millions)




                                                                                         $200,000                                                                                    penalties, and other revenue. over 92.7 percent of the
                                                                                         $150,000                                                                                    revenues are from income and social security taxes.
                                                                                         $100,000
                                                                                                                           $297,234
                                                                                                        $13,243




                                                                                                                                                                                 Total Cash
                                                                                          $50,000
                                                                                                                                                 $340




                                                                                                                                                                     $526




                                                                                                                                                                                 Revenue                          7%
                                                                                              $0                                                                                 Received              Other Revenue
                                                                                                    Financial        Economic                  Security           Management                                                                                              81%
                                                                                                                                                                                                                      12%                                                 Individual Income
                                                                                                                                 Program Costs
                                                                                                                                                                                                                 Corporate                                                and FICA Taxes
                                                                                                                                                                                                              Income Taxes

                                                Net Cost of                                $350
                                                Treasury
                                                Operations                                 $300
                                                by Fiscal Year
                                                                                           $250
                                                                 Dollars (in Billions)




                                                                                           $200

                                                                                           $150

                                                                                           $100
                                                                                                                                                        $209.59



                                                                                                                                                                      $312.16
                                                                                                    $14.03



                                                                                                                  $12.02



                                                                                                                                      $27.14




                                                                                                                                                                                 Net Cash                                 $3.0
                                                                                            $50
                                                                                                                                                                                 Revenue
                                                                                              $0                                                                                 Received                                 $2.5
                                                                                                    2006          2007                2008          2009             2010
                                                                                                                                                                                                 Dollars (in Trillions)




                                                                                                                               Fiscal Year                                                                                $2.0

                                                                                                                                                                                                                          $1.5

                                                                                                                                                                                                                          $1.0

                                                                                                                                                                                                                          $0.5
                                                                                                                                                                                                                                 $2.28



                                                                                                                                                                                                                                          $2.45



                                                                                                                                                                                                                                                      $2.37



                                                                                                                                                                                                                                                                 $1.96



                                                                                                                                                                                                                                                                               $1.98




                                                                                                                                                                                                                          $0.0
                                                                                                                                                                                                                                 2006     2007        2008       2009         2010

                                                                                                                                                                                                                                                   Fiscal Year




                                               44                                                                                                                                                analysis of financial statements
                                                             performance and accountability report | fiscal year 2010




                                                                                                                                              part 1: management’s discussion and analysis
IMProPer PayMents InforMatIon act
anD recoVery auDItIng act

                                                                        status of this program is well-documented. oMb has deemed the
i mprOper payments                                                      eItc a complex program for the purposes of the IPIa.
i nfOrmatiOn aCt
                                                                        Earned Income Tax Credit
Background                                                              the eItc is a refundable tax credit that offsets income tax
the Improper Payments Information Act of 2002 (IPIa) requires           owed by low-income taxpayers and, if the credit exceeds the
agencies to review their programs and activities annually to            amount of taxes due, provides a lump-sum payment in the form
identify those susceptible to significant improper payments.            of a refund to those who qualify. the fiscal year 2010 estimate is
according to office of Management and budget (oMb)                      that a maximum of 28.7 percent ($18.4 billion) and a minimum
circular a-123, Management’s Responsibility for Internal Control,       of 23.9 percent ($15.3 billion) of the eItc total program pay­
appendix c, Requirements for Effective Measurement and                  ments are overclaims.
Remediation of Improper Payments (a-123, appendix c), “sig­
nificant” means that an estimated error rate and a dollar amount        the Irs has a robust base enforcement program for the eItc
exceed the threshold of 2.5 percent and $10 million of total            which consists of examinations (audits), math error notices, and
program funding. a-123, appendix c also requires the agency             document matching. In fiscal year 2010, the Irs expanded its
to implement a corrective action plan that includes improper            approach to decrease improper payments.
payment reduction targets.

however, some federal programs are so complex that developing           exeCutive O rDer 13520 -
an annual error rate is not feasible. the government-wide chief
financial officers council developed an alternative for such pro­
                                                                        r eDuCing i mprOper payments anD
grams to assist them in meeting the IPIa requirements. agencies         eliminating Waste in feDeral
may establish an annual estimate for a high-risk component of           p rOgrams
a complex program (e.g., a specific program population) with
oMb approval. agencies must also perform trend analyses to              on november 20, 2009, President barack obama issued
update the program’s baseline error rate in the interim years           executive order 13520 - Reducing Improper Payments and
between detailed program studies. When development of a                 Eliminating Waste in Federal Programs (eo 13520). according
statistically valid error rate is possible, the reduction targets are   to eo 13520, the purpose of the order is to “reduce improper
revised and become the basis for future trend analyses.                 payments by intensifying efforts to eliminate payment error, waste,
                                                                        fraud, and abuse in the major programs administered by the Federal
                                                                        Government, while continuing to ensure that Federal programs
Treasury’s Risk Assessment Methodology                                  serve and provide access to their intended beneficiaries.”
and Results for Fiscal Year 2010
each year, treasury develops a comprehensive inventory of all           section 2 of the order, “transparency and Public Participation,”
funding sources and conducts a risk assessment for improper             directed oMb “to identify federal programs in which the
payments on all of its programs and activities. the risk assess­        highest dollar value or majority of government-wide improper
ment performed on all of treasury’s programs and activities in          payments occur.” oMb identified the eItc as a “high-priority
fiscal year 2010 resulted in low and medium risk susceptibility         program” under eo 13520. the requirements of the high­
for improper payments except for the Internal revenue service’s         priority programs are described in appendix b.
(Irs) earned Income tax credit (eItc) program. the high-risk




  improper payments information act and recovery auditing act                                                                           45
                                               the department of the treasury
part 1: management’s discussion and analysis




                                                                                                                  on recovery auditing activities, contracts issued, improper pay­
                                               r eCOvery auDiting aCt                                             ments identified, and recoveries achieved. bureaus and offices
                                                                                                                  may use recovery auditing firms to perform many of the steps
                                               Background                                                         in their recovery program and identify candidates for recovery
                                               In accordance with the Recovery Auditing Act of 2002, a-123,       action.
                                               appendix c, requires agencies issuing $500 million or more in
                                               contracts to establish and maintain recovery auditing activities   Results for Fiscal Year 2010
                                               and report on the results of those recovery efforts annually.
                                                                                                                  During fiscal year 2010, treasury issued $6.4 billion in contracts
                                               recovery auditing activities include the use of (1) contract
                                                                                                                  (defined as issued and obligated contracts, modifications,
                                               audits, in which an examination of contracts pursuant to
                                                                                                                  task orders, and delivery orders). the Department identified
                                               the audit and records clause incorporated in the contract is
                                                                                                                  improper payments in the amount of $467,000 from recovery
                                               performed; (2) contingency contracts for recovery services in
                                                                                                                  auditing efforts, and recovered $518,000, including prior year
                                               which the contractor is paid a percentage of the recoveries; and
                                                                                                                  recoveries, with $58,000 outstanding as accounts receivable on
                                               (3) internal review and analysis in which payment controls are
                                                                                                                  september 30, 2010.
                                               employed to ensure that contract payments are accurate.
                                                                                                                  note: additional detail on treasury’s IPIa and recovery
                                               for recovery auditing act compliance, treasury requires each
                                                                                                                  auditing act Programs can be found in appendix b.
                                               bureau and office to review its post-payment controls and report




                                               46                                          improper payments information act and recovery auditing act
                                                     performance and accountability report | fiscal year 2010




                                                                                                                                 part 1: management’s discussion and analysis
ManageMent assurances


                             the seCretary’s letter                      Of   a ssuranCe


     the Department of the treasury’s management is responsible for establishing and maintaining effective internal
     control and financial management systems that meet the objectives of the Federal Managers’ Financial Integrity Act
     (fMfIa). treasury has evaluated its management controls, internal controls over financial reporting, and compli­
     ance with federal financial systems standards. as part of the evaluation process, we considered results of extensive
     testing and assessment across the Department and independent audits.

     treasury provides assurance that the objectives of the Federal Managers’ Financial Integrity Act over operations
     have been achieved, except for the material weaknesses noted below. In accordance with oMb circular a-123,
     appendix a, we provide qualified assurance that internal control over financial reporting was operating effec­
     tively based on the results of the assessment as of June 30, 2010. treasury is not in substantial compliance with
     the Federal Financial Management Improvement Act due to the material weakness related to revenue accounting
     systems.

     as of september 30, 2010, treasury has four material weaknesses as follows (with origination/resolution time­
     frames indicated):
         Operations:
              Internal Revenue Service
               •	 Improve Modernization Management controls and Processes (fiscal year 1995/2011)

               •	 computer security (fiscal year 2001/2012)

              Financial Management Service
               •	 systems, controls, and Procedures to Prepare the government-wide financial statements

                  (fiscal year 2001/2014)
         Financial Reporting:
             Internal Revenue Service
              •	 unpaid assessments (remaining portions of financial accounting of revenue – custodial)

                 (fiscal year 1995/2015)

     treasury management remains dedicated to the resolution of these weaknesses. overall, treasury continues
     to make progress in reducing management and control weaknesses and in meeting federal financial systems
     requirements.




                                                                       timothy f. geithner
                                                                       november 15, 2010




management assurances                                                                                                       47
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               MaterIal Weaknesses, auDIt folloW-uP,
                                               anD fInancIal systeMs

                                               summary Of m anagement a ssuranCes
                                               Summary of Material Weaknesses
                                               Material Weaknesses                                                     Beginning Balance   New     Resolved   Consolidated   Reassessed   Ending Balance
                                                IRS – Unpaid Assessments (remaining portions of Financial Accounting          1              0         0           0             0              1
                                                of Revenue – Custodial)
                                                IRS – Improve Modernization Management Controls and Processes                 1              0         0           0             0              1
                                                IRS – Computer Security                                                       1              0         0           0             0              1
                                                FMS – Systems, Controls, and Procedures to Prepare the Government­            1              0         0           0             0              1
                                                wide Financial Statements
                                                DO – Financial Management Practices                                           1              0         1           0             0              0
                                                Total Material Weaknesses                                                     5              0         1           0             0              4


                                               as of september 30, 2010, treasury has four material weaknesses under section 2 of the Federal Managers’ Financial Improvement Act
                                               as shown in the tables below.

                                               Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
                                               Statement of Assurance                                                                                      Qualified
                                               Material Weaknesses                                                     Beginning Balance   New     Resolved   Consolidated   Reassessed   Ending Balance
                                                IRS – Unpaid Assessments (remaining portions of Financial Accounting          1              0         0           0             0              1
                                                for Revenue – Custodial) (See Appendix D)
                                                DO – Financial Management Practices                                           1              0         1           0             0              0
                                                Total Material Weaknesses                                                     2              0         1           0             0              1


                                               Effectiveness of Internal Control over Operations (FMFIA § 2)
                                               Statement of Assurance                                                                                      Qualified
                                               Material Weaknesses                                                     Beginning Balance   New     Resolved   Consolidated   Reassessed   Ending Balance
                                                IRS – Improve Modernization Management Controls and Processes                 1              0         0           0             0              1
                                                IRS – Computer Security                                                       1              0         0           0             0              1
                                                FMS – Systems, Controls, and Procedures to Prepare the Government­            1              0         0           0             0              1
                                                wide Financial Statements
                                                Total Material Weaknesses                                                     3              0         0           0             0              3


                                               Conformance with Financial Management System Requirements (FMFIA § 4)
                                               Statement of Assurance                                                             Systems conform to financial management system requirements
                                               Non-Conformances                                                        Beginning Balance   New     Resolved   Consolidated   Reassessed   Ending Balance
                                                Total Non-conformances                                                        0              0         0           0             0              0




                                               48                                                          material weaknesses, audit follow-up, and financial systems
                                                              performance and accountability report | fiscal year 2010




                                                                                                                                            part 1: management’s discussion and analysis
Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                                      Agency                        Auditor
Overall Substantial Compliance                                                          No                            No
 1. System Requirements                                                                                   No
 2. Accounting Standards                                                                                  No
 3. USSGL at Transaction Level                                                                            Yes




Federal Managers’ Financial Integrity Act                              Office of Management and Budget
(FMFIA)                                                                Circular A-123, Appendix A
the management control objectives under fMfIa are to                   the Department continues to strengthen and improve the
reasonably ensure that:                                                execution of the treasury mission through the application of
  •	   Programs achieve their intended results                         sound internal controls over financial reporting. In response
                                                                       to office of Management and budget (oMb) circular a-123,
  •	   resources are used consistent with overall mission
                                                                       Management’s Responsibility for Internal Control, appendix a,
  •	   Programs and resources are free from waste, fraud, and 

                                                                       Internal Control over Financial Reporting, treasury developed
       mismanagement 

                                                                       and implemented an extensive annual testing and assessment
  •	   laws and regulations are followed                               methodology that identified and documented internal controls
  •	   controls are sufficient to minimize any improper or errone­     over financial reporting at the transaction level integrated with
       ous payments                                                    the government accountability office’s Standards for Internal
  •	   Performance information is reliable                             Control. the testing and assessment were completed across all
                                                                       material treasury bureaus and offices by June 30, 2010. treasury
  •	   system security is in substantial compliance with all 

                                                                       provides qualified assurance that internal controls over financial
       relevant requirements 

                                                                       reporting are effective as of June 30, 2010, due in large part to
  •	   continuity of operations planning in critical areas is suf­
                                                                       the unpaid assessment weakness (remaining portions of the
       ficient to reduce risk to reasonable levels
                                                                       financial accounting of revenue - custodial weaknesses) at the
  •	   financial management systems are in compliance with 
           Internal revenue service (Irs).
       federal financial systems standards 


Deficiencies that seriously affect an agency’s ability to meet         Audit Follow-Up
these objectives are deemed “material weaknesses.” treasury            During fiscal year 2010, treasury continued its efforts to
can provide assurance that the objectives of the fMfIa have            improve both the general administration of management
been achieved, except for the material weaknesses noted in the         control issues throughout the Department and the timeliness of
secretary’s letter of assurance. During fiscal year 2010, treasury     the resolution of all findings and recommendations identified
downgraded or closed one material weakness. although the               by the office of the Inspector general (oIg), the treasury
last open material weakness is targeted to be closed in fiscal         Inspector general for tax administration (tIgta), the
year 2015, treasury is focusing on making sufficient progress to       special Inspector general for the troubled asset relief Program
downgrade the weakness sooner.                                         (sIgtarP), the government accountability office (gao),
                                                                       and external auditors.
each year, material weaknesses, both the resolution of existing
ones and the prevention of new ones, receive special attention         treasury management at every level will maintain the momen­
from management. In fiscal year 2010, treasury continued to            tum on accomplishing planned corrective actions (Pcas) to
make resolution of material weaknesses a performance require­          resolve and implement sound solutions for all audit recommen­
ment for every executive, manager, and supervisor.                     dations. treasury has made considerable progress by focusing
                                                                       on achieving a high rate of timely implementation of planned




material weaknesses, audit follow-up, and financial systems                                                                           49
                                               the department of the treasury
part 1: management’s discussion and analysis




                                               corrective actions (Pcas). In fiscal year 2010, treasury’s offices   work satisfies both the bureaus’ diverse financial operational
                                               and bureaus completed 88.4 percent of Pcas on time or early.         and reporting needs, as well as the Department’s internal and
                                                                                                                    external reporting requirements. the financial data warehouse
                                               Federal Financial Management                                         is part of the overarching treasury-wide financial analysis and
                                                                                                                    reporting system (fars), which also includes applications for
                                               Improvement Act (FFMIA)
                                                                                                                    the bureaus to report the status of their planned audit correc­
                                               the Federal Financial Management Improvement Act (ffMIa)
                                                                                                                    tive actions. In addition to the existing fars applications,
                                               of 1996 mandates that agencies “... implement and maintain
                                                                                                                    the Department is reviewing existing government owned and
                                               financial management systems that comply substantially with
                                                                                                                    operated systems for the implementation of a Department-wide
                                               federal financial management systems requirements, ap­
                                                                                                                    fleet management information system, which would streamline
                                               plicable federal accounting standards, and the united states
                                                                                                                    and enhance management controls and reporting and improve
                                               government standard general ledger at the transaction level.”
                                                                                                                    fleet management planning and decision making.
                                               ffMIa also requires that remediation plans be developed for
                                               any entity that is unable to report substantial compliance with      treasury’s fars applications operate at a contractor operated
                                               these requirements.                                                  hosting facility. In accordance with the guidance contained
                                                                                                                    in the american Institute of certified Public accountants’
                                               During fiscal year 2010, the Department issued revised ffMIa
                                                                                                                    statement of auditing standards (sas) no. 70, Service
                                               guidance and procedures based on federal guidance issued by
                                                                                                                    Organizations, the service provider’s independent auditors
                                               the office of Management and budget (oMb). oMb requires
                                                                                                                    examined the controls for the dedicated hosting service. In
                                               agencies to use a risk-based approach to assess their financial
                                                                                                                    the opinion of the auditors, the description of the controls
                                               management systems’ compliance with ffMIa. In compli­
                                                                                                                    presents fairly, in all material respects, the relevant aspects of
                                               ance with the revised guidance, treasury’s bureaus and offices
                                                                                                                    the provider’s controls that had been placed in operation as of
                                               conducted a self-assessment to determine their risk level.
                                                                                                                    september 30, 2010.
                                               With the exception of the Internal revenue service (Irs), all
                                                                                                                    fourteen treasury bureaus and offices use the financial opera­
                                               treasury bureaus and offices are in compliance with ffMIa.
                                                                                                                    tions services and systems support from the bureau of the Public
                                               as required, the Irs has a remediation plan in place to correct
                                                                                                                    Debt’s administrative resource center. utilizing these services
                                               the identified deficiencies. for each identified deficiency, the
                                                                                                                    reduces the need for treasury to maintain duplicative financial
                                               remediation plan provides specific remedies, target dates,
                                                                                                                    management systems; enhances the quality, timeliness, and ac­
                                               responsible officials, and estimated resources required to correct
                                                                                                                    curacy of financial management processes; and achieves a more
                                               the deficiencies. this plan is reviewed and updated quarterly.
                                                                                                                    efficient and cost-effective business model. treasury continues
                                               (refer to appendix D for detailed information.)
                                                                                                                    to work with the bureaus to evaluate plans for continuous
                                                                                                                    improvement to their financial management systems structure.
                                               Financial Management Systems
                                               Framework
                                               the Department’s overall financial management systems
                                               framework consists of a treasury-wide financial data warehouse,
                                               supported by a financial reporting tool, and separate bureau
                                               core financial systems. bureaus submit their monthly financial
                                               data to the data warehouse within three business days of the
                                               month-end. the Department then produces monthly financial
                                               statements and reports for management analysis. this frame­




                                               50                                                material weaknesses, audit follow-up, and financial systems
part 2:

annual
performance
report
THIS PAGE INTENTIONALLY LEFT BLANK
                                                          performance and accountability report | fiscal year 2010




introduction



the annual Performance report (aPr) provides information             throughout the report, cost is stated as “Performance cost,”
that enables the public to assess the Department’s performance       and represents imputed costs, depreciation, losses, and other
relative to its mission and stewardship of the resources entrusted   expenses not requiring budgetary resources. Performance
to it. the report is organized by strategic goal, objective, and     cost was used rather than net cost because it more accurately
outcome, and provides detail on how each of the metrics              represents the total cost to achieve a result or outcome. for
contributes to the Department’s overall mission. a performance       instance, while the net cost to manufacture coins and currency
statement is provided for each objective, along with charts and      for non-appropriated bureaus such as the u.s. Mint and the
tables for cost and budget. baseline measures are included in the    bureau of engraving and Printing is zero because it is essentially
calculations and count as having “met” their targets. as in prior    self-funded, the real cost of operating these organizations is over
years, treasury has developed new measures and discontinued          $4 billion once all imputed costs, depreciation, losses, and other




                                                                                                                                           part 2: annual performance report
measures based on analysis of performance management needs.          expenses are included. While performance cost is more than
                                                                     net cost, it is less than the gross cost reported on the statement
the table of key performance measures in each goal section
                                                                     of net cost because it excludes accounts that do contribute to
includes data from the last two years; a performance rating
                                                                     the cost of achieving performance for the agency, such as the
for 2010; the percent of target achieved; the percent change
                                                                     exchange stabilization fund and the federal financing bank.
in actual results from the last fiscal year; the fiscal year 2011
                                                                     fiscal year 2010 is the fourth year that treasury has included
target; and trends in both performance and targets over the
                                                                     this information.
last four years. trends are indicated by colored arrows, with red
indicating an unfavorable direction, green a favorable direction,    overall, the Department set more aggressive targets on 37
black indicating no change, and “b” for a baseline measure.          percent of its measures in 2010 compared to 2009, and achieved
the Department considers external factors when evaluating            72 percent of those targets compared to 80 percent in 2009.
performance. In some cases, additional indicators are discussed      the treasury Department continues to review its performance
to provide an enhanced description of progress.                      measure set and eliminate or modify measures to obtain the
                                                                     best information possible on performance. treasury’s annual
each section of the aPr concludes with a “Moving forward”
                                                                     Performance report has not been audited.
piece that describes future actions to be taken. actions could
include closing performance gaps, developing new measures, or        see http://www.treasury.gov/offices/management/dcfo/
drafting new polices and regulations.                                accountability-reports for the full report of the treasury
                                                                     Department’s fiscal year 2010 Performance Measures.




introduction                                                                                                                         53
                                    the department of the treasury




                                    coMPleteness anD relIabIlIty
                                    of PerforMance Data

                                                                                                             on the integrity of the information and data presented in the
                                    aCCuraCy Of p erfOrmanCe                                                 annual Performance and accountability report.
                                    m easures*
                                    Measures are classified for accuracy as follows:
                                      •	   Reasonable Accuracy: Judged to be sufficiently accurate for
                                                                                                             COmpleteness Of Data
                                           program management and performance reporting purposes             Not Available: there were no measures in fiscal year 2010 for
                                           (specified in office of Management & budget circular                     which data was not available.
                                           a-11, section 230-4(f))
                                                                                                             Discontinued: the following performance measures were
                                      •	   Questionable or Unknown Accuracy: Judged to be materially
                                           inadequate (specified in office of Management & budget                   discontinued in fiscal year 2010 and will not have data
part 2: annual performance report




                                           circular a-11, section 230-4(f) as “materially inadequate”)              available for this report. explanations for why these
                                                                                                                    measures were discontinued can be found at http://www.
                                                                                                                    treasury.gov/offices/management/dcfo/accountability-reports.

                                    p rOCeDures fOr COnDuCting                                               Bureau            Performance Measure
                                    r evieW Of the Department ’s                                              BEP              Currency Production
                                    p erfOrmanCe m easure Data                                                BEP              Improper and/or erroneous payments or purchases
                                                                                                              BEP              Maintain ISO certification
                                    the Department of the treasury’s office of strategic Planning
                                    and Performance Management prepares the annual report on                  BEP              Other financial losses

                                    performance measures and monitors component-submitted                     BEP              Security costs per 1000 notes delivered

                                    performance information. based on a finding in fiscal year 2006,          BEP              Total financial losses
                                    it was determined that improvements to the internal control               BEP              Total regulatory fines and claims paid
                                    process for performance measures were needed. Improvements                CDFI             Administrative cost per number of Bank Enterprise Award (BEA)
                                    to the process included:                                                                   applications processed

                                      •	   all measures are now prioritized as high, medium, or low,          CDFI             Administrative costs per financial assistance (FA) application
                                                                                                                               processed
                                           based on the relationship to achieving the Department’s
                                                                                                              CDFI             Administrative costs per number of Native American CDFI
                                           goals                                                                               Assistance (NACA) applications processed
                                      •	   a representative sample of measures are selected for review        CDFI             Administrative costs per number of New Markets Tax Credit
                                           every fiscal quarter                                                                (NMTC) applications processed

                                      •	   supporting documentation from that sample is reviewed for          DO               Number of material weaknesses closed (significant management
                                                                                                                               problems identified by GAO, the IGs and/or other bureaus)
                                           accuracy, reliability, and completeness
                                                                                                              MINT             Absolute Value of Production Percent Deviation from net Pay
                                      •	   all measure calculations are verified, data sources are
                                                                                                              MINT             Employee Confidence in Protection
                                           validated, and comparisons are made to prior year results
                                                                                                              MINT             Numismatic Net Margin
                                      •	   Information related to the measures is maintained in hard­
                                                                                                              MINT             Protection Cost Per Square Foot
                                           copy form and can be reviewed at any time
                                                                                                              Treasury         Operating expenses as a percentage of revenue – Consolidated/
                                    as a result, performing this process will uncover any potential           Franchise Fund   Integrated Administrative Management

                                    data or calculation error and will provide additional assurances          Treasury         Operating expenses as a percentage of revenue – Financial
                                                                                                              Franchise Fund   Systems, Consulting and Training

                                    * Performance measures were not audited.


                                    54                                                                   completeness and reliability of performance data
                                                                             performance and accountability report | fiscal year 2010




Baseline: the following measures established baseline values
        and targets in fiscal year 2010:

Bureau         Performance Measure
 BPD           Percent of overall customer satisfaction with Government Agency
               Investment Services
 BPD           Percent of Summary Debt Accounting business processes
               restructured or eliminated
 BPD           Percent of Primary Dealers that submit live bids from their disaster
               recovery site on two separate auction dates
 CDFI          Application Cycle Time - BEA
 CDFI          Application Cycle Time - CDFI
 CDFI          Application Cycle Time - NMTC
 CDFI          Application Cycle Time - Native Initiatives
 CDFI          Disbursement Cycle Time - BEA




                                                                                                                                        part 2: annual performance report
 CDFI          Disbursement Cycle Time - CDFI
 CDFI          Disbursement Cycle Time - NMTC
 CDFI          Disbursement Cycle Time - Native Initiatives
 Mint          Circulating on-time delivery
 MINT          Safety Incident Recordable Rate



Data Reliability: Performance data presented in this report
        meets the standards for reliability set forth in office of
        Management & budget circular a-11, section 230-5(f).
        the circular states that performance data must be accurate
        and reliable and that verification and validation techniques
        should be in place.

for additional details on performance measure information, see
http://www.treasury.gov/offices/management/dcfo/accountability­
reports.




completeness and reliability of performance data                                                                                  55
                                    the department of the treasury




                                    strategic goal:
                                    effectIVely ManageD
                                    u.s. goVernMent fInances
                                     strategic objective:
                                            available cash resources to operate the Government


                                    the treasury Department manages the nation’s finances by
                                                                                                          Budget Trend                                $15,000,000
                                    collecting money due to the united states, making its pay­            Available Cash
                                    ments, managing its borrowing, investing when appropriate, and        Resources to                                $12,000,000




                                                                                                                             Dollars (in Thousands)
                                                                                                          Operate the
                                    performing central accounting functions. sound fiscal manage­         Government                                   $9,000,000
                                    ment ensures the continual operation of essential government
                                                                                                                                                       $6,000,000
                                    services and allows the Department to meet its financial obliga­




                                                                                                                                                                    $11,498,755


                                                                                                                                                                                  $10,759,020


                                                                                                                                                                                                $11,699,999


                                                                                                                                                                                                                 $12,024,656


                                                                                                                                                                                                                               $12,642,310


                                                                                                                                                                                                                                               $13,785,364


                                                                                                                                                                                                                                                             $13,851,632
                                    tions while minimizing borrowing costs. accurate projections of                                                    $3,000,000
part 2: annual performance report




                                    the u.s. government’s cash requirements ensure that funds are                                                             $0
                                                                                                                                                                    2004          2005          2006             2007          2008            2009          2010
                                    available to cover federal payments on an ongoing basis. the
                                                                                                                                                                                                              Fiscal Year
                                    ability of the treasury to manage the nation’s finances is es­
                                    sential to maintaining the stability and integrity of the financial
                                                                                                          Performance
                                    system.                                                               Cost Trend
                                                                                                                                                      $20,000,000

                                                                                                          Available Cash
                                                                                                                             Dollars (in Thousands)

                                    the bureaus and policy offices responsible for the achievement        Resources to                                $15,000,000
                                                                                                          Operate the
                                    of this objective are the following:                                  Government
                                                                                                                                                      $10,000,000
                                      •	   alcohol and tobacco tax and trade bureau (ttb)                                                                           $11,910,415


                                                                                                                                                                                  $13,111,129


                                                                                                                                                                                                $12,979,117


                                                                                                                                                                                                                 $13,354,531


                                                                                                                                                                                                                               $14,042,171


                                                                                                                                                                                                                                               $14,425,866


                                                                                                                                                                                                                                                             $15,511,409
                                                                                                                                                       $5,000,000
                                      •	   bureau of the Public Debt (bPD)
                                      •	   financial Management service (fMs)                                                                                 $0
                                                                                                                                                                    2004          2005          2006             2007          2008            2009          2010
                                      •	   Internal revenue service (Irs)                                                                                                                                     Fiscal Year

                                      •	   office of Domestic finance
                                                                                                          Performance Cost
                                    the outcomes associated with this objective are the following:        by Outcome                         transparent and accessible                                                        management
                                                                                                                                                   financial information
                                                                                                          Available Cash                                                                                                       2.3% Government
                                      •	   revenue collected when due through a fair and uniform          Resources to          2.2%Timely and                                                                                 financing at the lowest
                                                                                                          Operate the        accurate payments
                                           application of the law at the lowest possible cost                                      at the lowest
                                                                                                                                                                                                                               possible cost over time
                                                                                                          Government
                                                                                                                                   possible cost
                                      •	   timely and accurate payments at the lowest possible cost
                                                                                                                                                                                                                                             94.7% Revenue
                                                                                                                                                                                                                                             collected when
                                      •	   government financing at the lowest possible cost over time                                                                                                                                        due through a fair
                                                                                                                                                                                                                                             and uniform
                                      •	   effective cash management                                                                                                                                                                         application of the
                                                                                                                                                                                                                                             law at the lowest
                                      •	   accurate, timely, useful, transparent and accessible                                                                                                                                              possible cost

                                           financial information
                                    Performance measures associated with this objective had 46
                                    percent more aggressive targets compared to 2009.




                                    56                                               strategic goal: effectively managed u.s. government finances
                                                                              performance and accountability report | fiscal year 2010




r evenue COlleCteD When D ue thrOugh a fair                                                                       anD         unifOrm a ppliCatiOn
Of the l aW at the l OWest pOssible C Ost

based on performance results, treasury was mostly successful in achieving this strategic outcome for fiscal year 2010 as demonstrated by the
chart below. It is important to note that 2010 targets for this outcome were over 50 percent more aggressive than in 2009.


Key Performance Measure Table
the following table contains only key performance measures associated with this outcome. actual and target trends represent four
years of data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/
management/dcfo/accountability-reports.

                                                                                                            Percent      Percent                                4-year   4-year
                                                                                2009     2010     2010     of Target    Change in Performance          2011     Target   Actual
Key Performance Measure                                              Bureau    Actual   Target   Actual    Achieved      Actual      Rating           Target    Trend    Trend

 Amount of delinquent debt collected per $1 spent ($)                 FMS      $53.76   $43.00   $54.54*    126.8%         1.5%            Exceeded   $43.00             




                                                                                                                                                                                  part 2: annual performance report
 Amount of delinquent debt collected through all available tools      FMS      $5.03    $4.65    $5.45      117.2%         8.4%            Exceeded   $4.84              
 ($ billions)
 Percentage collected electronically of total dollar amount of        FMS        84      80        85       106.3%         1.2%            Exceeded     82               
 Federal government receipts (%)
 Percentage of delinquent debt referred to FMS for collection         FMS       100      97       100       103.1%         0.0%            Exceeded     97                
 compared to amount eligible for referral (%)
 Unit cost to process a Federal revenue collection transaction ($)    FMS      $1.57    $1.25    $1.67      66.4%          6.4%             Unmet     $1.70              
 Customer Contacts Resolved per Staff Year                            IRS      12,918   9,398    10,744     114%         -16.8%            Exceeded   10,181             
 Customer Service Representative (CSR) Level of Service (%)           IRS       70       71       74        104.2%         5.7%            Exceeded    75                
 Examination Quality (LMSB) - Industry (%)                            IRS        88      89        87       97.8%         -1.1%             Unmet      89                 
 Field Collection National Quality Review Score                       IRS       80.5      81      80.6      99.5%          0.1%             Unmet       82               
 Field Examination National Quality Review Score (%)                  IRS       85.1     86.3     84.9      98.4%         -0.2%             Unmet      86.3              
 Percent of Business Returns Processed Electronically (%)             IRS       22.8     24.3     25.5      104.9%        11.8%            Exceeded    25.4              
 Percent of Individual Returns Processed Electronically (%)           IRS       65.9     70.2     69.3      98.7%          5.2%             Unmet      74.7              
 Refund Timeliness - Individual (paper) (%)                           IRS       99.2     98.4     96.1      97.7%         -3.1%             Unmet      98.4              
 Taxpayer Self Assistance Rate                                        IRS       69.3     61.3     64.4      105.1%        -7.1%            Exceeded    62.7              
 Amount of revenue collected per program dollar ($) (New data         TTB       $427    $400     $478       119.5%        11.9%            Exceeded   $410               
 compilation methodology, 2008)
 Percent of voluntary compliance from large taxpayers in filing       TTB        94      92        94       102.2%         0.0%            Exceeded    94                 
 tax payments timely and accurately (in terms of revenue)
*Estimated



Analysis of Performance Results                                                                            Legend                                      Symbol

the table presents a sample of the measures associated with                                                Favorable upward trend                        
                                                                                                           Favorable downward trend                      
the achievement of the revenue collection outcome. based on
                                                                                                           Unfavorable upward trend                      
the full suite of measures relating to this outcome, during fiscal
                                                                                                           Unfavorable downward trend                    
year 2010, treasury met or exceeded targets for 69 percent of
                                                                                                           No change in trend, no effect                 
its performance measures relative to this strategic outcome (27                                            No change in trend, favorable effect          
measures out of 39). this was a decrease from fiscal year 2009,                                            No change in trend, unfavorable effect        
when targets for 73 percent of performance measures were either                                            Baseline                                         B
met or exceeded. however, 50 percent of our performance



strategic objective: available cash resources to operate the government                                                                                                     57
                                    the department of the treasury




                                    targets were made more aggressive in fiscal year 2010 contribut­        Taxpayer Service and Revenue
                                    ing to the lower percentage of met or exceeded. two measures            Processing
                                    were discontinued in fiscal year 2010.
                                                                                                            Internal Revenue Service
                                    Irs is the largest contributor to this outcome. for fiscal year         the Irs delivered a successful 2010 filing season, while rising
                                    2010, Irs achieved an overall success rate of 66 percent,               to challenges posed by the implementation of provisions in
                                    meeting or exceeding the target for 21 of its 32 performance            the American Reinvestment and Recovery Act of 2009 (recovery
                                    measures. In fiscal year 2010, Irs met or exceeded 56 percent           act), the Worker, Homeownership, and Business Assistance
                                    (10 of 18) of its enforcement targets, and 50 percent (one of           Act of 2009 (Whbaa), and increased telephone demand for
                                    two) of its business system Modernization targets.                      economic recovery Payment inquiries. In fiscal year 2010, the
                                                                                                            total revenue collected by the Irs was $2.3 trillion. results of
                                    In fiscal year 2010, the Irs met or exceeded 83 percent (10
                                                                                                            the 2010 filing season include:
                                    of 12) of the taxpayer service performance targets. the two
                                    measures that fell short of the target were the individual e-file         •	   Processed 141.9 million individual returns and issued more
                                    rate and refund timelines, which were both within 97 percent                   than 109.5 million refunds totaling $366 billion, compared
                                    of their targets. the individual e-file rate fell short of the target          to 144.4 million returns resulting in 111.4 million refunds
                                    due to a higher than anticipated number of paper returns re­                   totaling $339.6 billion for the same period in 2009
part 2: annual performance report




                                    ceived during fourth quarter. refund timeliness fell short of the         •	   achieved a 74 percent telephone level of service, an
                                    target due to delays caused by the computation of the Making                   increase from 70 percent in 2009, while answering 36.7
                                    Work Pay credit and the first time homebuyer credit.                           million assistor calls
                                                                                                              •	   Processed over 2.9 million free file returns
                                    Performance at fMs was generally positive. Performance targets
                                    for four of fMs’s five measures were either met or exceeded in            •	   responded to more than 5.6 million web and 815,300
                                    fiscal year 2010. fMs failed to meet its target for “unit cost to              telephone requests for information on the one time $250
                                    process a federal revenue collection transaction.” the average                 economic recovery Payment
                                    cost to process a collection item has increased in recent years
                                                                                                            In fiscal year 2010, electronic filing increased compared to 2009
                                    due to a downturn in the economy, and due to additional
                                                                                                            results. Individual returns electronically filed increased to 69.3
                                    development expenses related to the collections and cash
                                                                                                            percent, up from 65.9 percent in 2009, with the total number
                                    Management Modernization (ccMM) Initiative.
                                                                                                            of individual returns filed electronically reaching 98.4 million.
                                    the ttb measures for this outcome, “amount of revenue per               business returns electronically filed increased 12 percent over
                                    Program Dollar” and “Percent of Voluntary compliance from               2009, reaching 25.5 percent. tax professional use of e-file
                                    large taxpayers in filing tax payments timely and accurately (in        reached 62.3 million returns. filing via home-computer reached
                                    terms of revenue),” exceeded their fiscal year 2010 performance         34.6 million returns, 7.4 percent greater than 32.2 million in
                                    targets by 19.5 percent and two percent, respectively. Voluntary        2009.
                                    compliance results were 94 percent of revenue, the same com­
                                    pliance rate achieved in 2009. amount of revenue per program
                                    dollar was $478, an increase from $427 in fiscal year 2009.
                                                                                                              IRS Customer                                        100.0%
                                                                                                              Service                                                      87%
                                                                                                                                                                                  83%    82%    82%
                                                                                                                               Customer Service Representative





                                                                                                              Representative
                                                                                                                                                                  80.0%
                                                                                                              Level of
                                                                                                              Service
                                                                                                                                      Level of Service





                                                                                                                                                                                                                 70%    74%
                                                                                                                                                                  60.0%

                                                                                                                                                                                                          53%
                                                                                                                                                                  40.0%


                                                                                                                                                                  20.0%


                                                                                                                                                                   0.0%
                                                                                                                                                                           2004   2005   2006   2007      2008   2009   2010

                                                                                                                                                                                            Fiscal Year




                                    58                                                strategic goal: effectively managed u.s. government finances
                                                           performance and accountability report | fiscal year 2010




“customer contacts resolved per staff year” was 10,744,              establishing savings and Individual Development accounts (a
 achieving 114 percent of the target. the Irs is addressing          special savings account where money is matched by donations),
 demand through improved self-service options. More automated        credit counseling, and financial coaching.
 calls were completed, reaching 35.1 millions calls, a 21 percent
                                                                     to help taxpayers address questions, the Irs partnered with
 increase from the 29 million automated calls completed in
                                                                     external stakeholder organizations to expand the availability
 fiscal year 2009. the number of assistor answered calls was 36.7
                                                                     and hours of service at taxpayer assistance sites. the Irs also
 million, lower than the 39 million assistor calls answered in
                                                                     helped facilitate filing compliance by developing new products
 fiscal year 2009. responses to account questions received via
                                                                     and enhancing communication with the taxpayer community.
 the telephone were correct 95.7 percent of the time, an increase
                                                                     the Irs updated forms and made forms accessible to the visu­
 over the 94.9 percent accuracy achieved in fiscal year 2009.
                                                                     ally impaired. the Irs also translated more tax products into
In addition to e-filing, Irs internet presence facilitates better    spanish and implemented a multilingual website.
information and service. the Irs added more automated web
                                                                     each year, the Irs and its partners provide free tax assistance to
tools and services in 2010. over 213 million tax products were
                                                                     the elderly, disabled, and people with limited english profi­
downloaded by taxpayers, an increase of almost 12 percent.
                                                                     ciency at Volunteer Income tax assistance (VIta) and tax
More than 108.8 million electronic payments totaling over




                                                                                                                                              part 2: annual performance report
                                                                     counseling for the elderly (tce) sites. In fiscal year 2010, more
$1.9 trillion were processed through the electronic federal tax
                                                                     than $13.5 million in VIta and tce grants were awarded
Payment system (eftPs). More than 66.9 million taxpayers
                                                                     to 171 organizations, a 17 percent increase in the number of
used “Where’s My refund?” an increase of 23.8 percent from
                                                                     organizations from 2009. the Irs developed a “VIta site list”
2009. the Irs website also:
                                                                     on Irs.gov to provide information on site locations throughout
  •	   Provided taxpayers with electronic tools such as the earned
                                                                     the nation, which attracted over 45,000 visits. assistors at the
       Income tax credit (eItc) assistant to determine if they
                                                                     more than 12,000 VIta and tce sites throughout the nation
       qualify for the refundable tax credit
                                                                     prepared more than 3.1 million tax returns. the number of
  •	   Provided explanations of tax benefits of the recovery act     returns prepared for individuals with disabilities and/or families
  •	   Developed an automated service for taxpayers to obtain        with disabled dependents increased by 99 percent, preparing
       a PIn to satisfy signature requirements when e-filing a       360,500 returns, compared to 181,200 prepared in fiscal year
       current year return                                           2009.
  •	   created a system that allows taxpayers to self screen and
                                                                     In an effort to assist the taxpayer community during the
       make online appointments for return preparation in the
                                                                     economic downturn, the Irs and its partners hosted five open
       taxpayer assistance centers. taxpayers made approxi­
                                                                     house events at 200 taxpayer assistance centers (tacs) and
       mately 19,000, or 18 percent of scheduled appointments,
                                                                     partner sites across all 50 states. the goals of these events were
       on-line
                                                                     to help resolve tax issues and assist taxpayers in preparation of
  •	   created a special section on Irs.gov titled “tax center       tax returns. as a result, more than 31,400 taxpayers were served,
       to assist unemployed taxpayers” for taxpayers who are         and over 7,700 returns were prepared. other outreach efforts
       struggling financially                                        included:

reaching taxpayers through social media was expanded by the            •	   held two special saturday events in which more than 

Irs during the fiscal year 2010 filing season. the Irs produced             9,500 taxpayers faced with unresolved tax related issues 

a number of podcasts that were available on Irs.gov and                     were assisted, and over 4,000 returns were prepared 

itunes. In addition, the Irs created youtube videos on subjects        •	   Provided a dedicated toll-free telephone line and hosted
including the education tax credit, Making Work Pay, and                    a gulf coast assistance Day at seven tacs in the gulf
the new homebuyer credit. Many were available in english,                   coast region, that provided guidance and assistance to
american sign language, and spanish (www.youtube.com/user/                  taxpayers affected by the oil spill in the gulf of Mexico
irsvideos). the Irs and its partners educated and promoted asset       •	   used state-of-the-art automated check processing to 

building to low- and moderate- income taxpayers by creating six             deposit checks electronically at point of receipt at ten 

customized webcasts to cover a wide range of activities, such as


strategic objective: available cash resources to operate the government                                                                  59
                                    the department of the treasury




                                           tacs, thereby protecting a taxpayer’s personal identifiable   (chIPra), enacted in february 2009. tobacco excise tax
                                           information (PII) from identity theft when mailing checks     collections nearly doubled between fiscal year 2008 and fiscal
                                           to processing sites, resulting in $95 million in checks       year 2009 and, in the first full year of collections under the new
                                           processed                                                     tax rate, tobacco revenues were up nearly 38 percent compared
                                                                                                         to the prior year.
                                    the Irs also assisted taxpayers who owed delinquent taxes,
                                    especially those who were having difficulties meeting their          firearms and ammunition excise tax (faet) collections have
                                    tax obligations because of unemployment or other financial           also grown significantly in recent years. since ttb assumed
                                    problems, by:                                                        responsibility for administering the faet tax program in 2003,
                                      •	   granting assistors greater authority to suspend collection    collections have increased 87 percent. consumer spending
                                           actions in certain hardship cases, preventing an automatic    patterns contributed to a spike in faet revenues in fiscal year
                                           default of an installment agreement and expediting levy       2009, followed by a decline in collections of approximately 20
                                           releases, if warranted                                        percent in fiscal year 2010. however, faet collections remain
                                                                                                         15 percent above fiscal year 2008 levels, due to the enforcement
                                      •	   considering offers in compromise from taxpayers facing
                                                                                                         efforts of ttb tax specialists and auditors.
                                           economic troubles, including those who were recently
                                           unemployed                                                    ttb expanded its electronic tax filing program to enable all
part 2: annual performance report




                                      •	   Increasing taxpayers’ ability to speak to an assistor by      excise taxpayers to file and pay taxes electronically through
                                           expanding the number of call sites for taxpayers looking to   the Pay.gov web-based system. More than 6,400 ttb taxpayers
                                           resolve their balance due and/or delinquent return account    are registered to use Pay.gov to pay excise taxes and file excise
                                           while experiencing shorter wait times                         tax returns and monthly operational reports, an increase of 23
                                                                                                         percent over the prior year.
                                    as one of the federal government’s largest benefit programs for
                                    working families and individuals, the earned Income tax credit       the national revenue center (nrc), ttb’s tax processing
                                    (eItc) provides additional help for those taxpayers struggling       center, receives approximately 68,000 telephone calls and
                                    financially. In fiscal year 2010, the Irs conducted its fourth       inquiries on an annual basis. In fiscal year 2010, ttb developed
                                    annual eItc awareness Day in order to educate the public on          and implemented an improved phone tree menu system for the
                                    the availability and benefits of this important tax credit. the      main toll-free telephone number that better directs calls related
                                    Irs hoped to reach qualifying taxpayers by communicating the         to routine questions to clerks or contractors, and evenly rotates
                                    benefits of eItc through interviews, news conferences, and           incoming calls of a technical nature to specialists. this system
                                    media tours.                                                         ensures that specialists’ time is reserved for more complex or
                                                                                                         specific questions.
                                    Alcohol and Tobacco Tax and Trade Bureau
                                    ttb collects excise taxes associated with the sale of alcohol,       Financial Management Service
                                    tobacco, firearms, and ammunition through its collect the            fMs collects revenues needed to operate the federal govern­
                                    revenue program. In fiscal year 2010, ttb collected $23.8            ment. In fiscal year 2010, fMs collected nearly $2.94 trillion
                                    billion in federal taxes from nearly 7,100 excise taxpayers. this    through a network of roughly 9,000 financial institutions, with
                                    represents a 15 percent increase in tax revenue compared with        85.3 percent of the dollars collected electronically. the most
                                    fiscal year 2009, collected from a taxpayer base that grew by        important program that supports electronic collections is
                                    only six percent. ttb collected $478 in revenue for every            the electronic federal tax Payment system (eftPs), which
                                    dollar spent on its revenue collection program, an 11.9 percent      supports electronic tax payments at any time. In fiscal year
                                    increase over the prior year.                                        2010, more than 108 million payments were processed through
                                                                                                         eftPs, reflecting an increase in transaction volume of seven
                                    the increased rate of return is principally due to the higher
                                                                                                         percent despite only a 3.5 percent growth in tax revenue
                                    federal excise tax rate imposed on tobacco products by the
                                                                                                         collected.
                                    children’s health Insurance Program reauthorization act




                                    60                                              strategic goal: effectively managed u.s. government finances
                                                        performance and accountability report | fiscal year 2010




Pay.gov is a system that allows individuals and businesses to      In fiscal year 2010, fMs collected $5.45 billion in delinquent
make non-tax payments to federal agencies over the internet.       debt including economic recovery Payments in the following
Pay.gov provides collections, form submittal, bill presentment,    categories:
and agency financial reporting services. Pay.gov, which has been     •	   $2.10 billion in past due child support
implemented with 153 federal agencies representing 667 cash
                                                                     •	   $2.30 billion in federal non-tax debt
flows, has collected $81.9 billion and processed 49.4 million
                                                                     •	   $435 million in state tax offsets
transactions in fiscal year 2010.
                                                                     •	   $618 million in tax levies
the Paper check conversion over-the-counter (Pcc otc)
program converts paper checks received at federal agency           as a result of fMs’ continued improvements to the program,
points-of-sale locations throughout the united states and          collections have steadily increased to more than $47.9 billion
overseas into electronic debits to the check writer’s account      since the enactment of the DcIa in 1996. agencies referred
through the automated clearing house (ach) system or into          100 percent of their eligible delinquent debt at the end of fiscal
a substitute check image that is truncated and cleared under the   year 2010. In calendar year 2010, Irs is expected to refer an
authority of check 21. Pcc otc fully automates and improves        additional $47.7 billion of tax debts for continuous levy, a 13
the collection, reconciliation, research of returned checks, and   percent increase from calendar year 2009.




                                                                                                                                        part 2: annual performance report
reporting processes associated with the over the counter collec­
                                                                   the Department of education started the federal salary offset
tions of federal Program agencies (fPas). Pcc otc has been
                                                                   Pilot in June 2010 by removing the salary bypass indicator
implemented with 11 new agencies and collected $16.6 billion
                                                                   from 170 of their direct loan debts. the centers for Medicare
in fiscal year 2010. since the inception of Pcc otc in 2001,
                                                                   and Medicaid services, u.s. Postal service, u.s. army corps
70 agencies have used the program.
                                                                   of engineers, and Defense finance and accounting service
In addition, fMs is implementing collections and cash              continue to take offsets and levies using the non-treasury
Management Modernization, a comprehensive effort to                Disbursing office process. fMs continues to roll out the state
streamline, modernize, and improve the processes and systems       reciprocal Program, allowing states to submit other state debt
supporting treasury’s collections and cash management program.     to treasury offset Program (toP) for offset against federal
this effort will improve financial performance by enabling         vendor payments and offset of state tax and vendor payments
fMs and fPas to more effectively manage financial transac­         to satisfy federal non-tax debt. currently, three states are
tion information and improve the efficiency of the collections     participating in the program. fMs also continued to roll out
information reporting processes. for example, the transaction      Debt check, an online program used to help agencies bar
reporting system is a single touch point to standardize and        delinquent debtors from obtaining new loans or loan guaran­
consolidate collections information and eliminate redundancies     tees. the Department of commerce’s economic Development
in the federal government’s collections reporting processes.       administration will be the next agency to utilize Debt check.
                                                                   In addition, fMs began providing Debtor locator report data
additionally, partnerships are being formed with fPas to           with partial matches to the federal and state agencies in toP.
implement the holistic approach to improve cash management         With partial match information, the agencies and states will be
practices. through this effort, agencies are signing strategic     able update their debtor files, improve their debt matching in
cash Management agreements (scMas) to convert electronic           toP, and increase offset collections.
and paper processes to more efficient electronic collection
mechanisms. In fiscal year 2010, 11 scMas were signed.
                                                                   Improving Voluntary Compliance and
fMs’ Debt collection program recovers delinquent government        Narrowing the Tax Gap
and child support debt by providing centralized debt collection    the Irs remains committed to finding ways to increase
management and operational services to fPas and states as          compliance and reduce the tax gap. In fiscal year 2010, the
required by the Debt collection Improvement act of 1996            Irs developed new methodologies for estimating the corporate
(DcIa) and related legislation.                                    income tax gap; updated the estate and gift tax nonfiling and




strategic objective: available cash resources to operate the government                                                            61
                                    the department of the treasury




                                    underreporting tax gap estimates; and developed a new basis for                                                   In fiscal year 2010, the Irs met 56 percent (10 of 18) of
                                    estimating the individual income tax nonfiler gap.                                                                examination performance measures in fiscal year 2010. of the
                                                                                                                                                      eight measures that fell short of the target, two were within 99
                                    research allows the Irs to target specific areas of noncompli­
                                                                                                                                                      percent (field collection quality and collection coverage) of the
                                    ance to improve voluntary compliance and allocate resources
                                                                                                                                                      fiscal year 2010 target, three were within 98 percent (field exam
                                    more effectively to reduce the tax gap. the fiscal year 2010
                                                                                                                                                      quality, exam quality for coordinated industry, and conviction
                                    national research Program (nrP) efforts included a study to
                                                                                                                                                      rate), one was within 97 percent (exam quality – industry),
                                    assess the reporting compliance of employment taxes. the study
                                                                                                                                                      one was within 96 percent (collection efficiency), and one
                                    spans three tax years from 2008 through 2010 and examines ap­
                                                                                                                                                      (tax exempt/government entity (te/ge) determination case
                                    proximately 2,200 randomly-selected taxpayers each year. this
                                                                                                                                                      closures) fell within 74 percent of the target.
                                    new study complements the ongoing study of individual report­
                                    ing compliance and the study of subchapter s corporations due                                                     of the eight Irs measures that did not meet their target, four
                                    to be released in 2011.                                                                                           were related to quality of the examination and collection
                                                                                                                                                      programs. the field exam national Quality review score was
                                    the Irs continues to study the effects of services it offers to
                                                                                                                                                      84.9 percent, within two percentage points of the 86.3 percent
                                    taxpayers on the internet, at walk-in sites, and on its toll-free
                                                                                                                                                      target. examination quality for industry was 87 percent, two
                                    telephone lines as well as exploring the relationships between
part 2: annual performance report




                                                                                                                                                      percentage points below the target. field collection quality, at
                                    taxpayer errors and unclear correspondence. as part of this
                                                                                                                                                      80.6 percent, was only half a percentage point away from the
                                    effort, the Irs is testing the impact of on-line assistance and
                                                                                                                                                      target. Quality for coordinated industry was 95 percent, within
                                    instruction, and the impact of service quality to aid in the
                                                                                                                                                      one percentage point of target. Major contributors to the
                                    development of new approaches to service.
                                                                                                                                                      shortfall were gaps in quality related to efficient resolution of
                                    ttb continued its efforts to promote voluntary compliance                                                         issues, meeting timeframes, income determination and verifica­
                                    among industry members in 2010 through industry seminars,                                                         tion, and documentation of the audit trail.
                                    web site tutorials, and other outreach efforts. Despite the pro­
                                                                                                                                                      the conviction rate in fiscal year 2010, 90.2 percent, missed
                                    longed economic downturn, ttb believes its outreach efforts
                                                                                                                                                      the target of 92 percent because of the increase in the number
                                    were successful in improving upon the voluntary compliance
                                                                                                                                                      of dismissals caused by unavailability of witnesses or fugitive
                                    rate. ttb had a compliance rate of 94 percent for timely filed
                                                                                                                                                      subjects. these are primarily money laundering investigations
                                    tax payments among large excise taxpayers this fiscal year.                                                       in which more than three years passed since the date of indict­
                                                                                                                                                      ment. collection efficiency and coverage were not met due to
                                    Enforcement                                                                                                       delays in the issuance of return delinquency notices resulting in
                                                                                                                                                      fewer balance due dispositions.
                                    Internal Revenue Service
                                    enforcement of the tax laws is an integral component of the                                                       the last measure, te/ge determination case closures, was
                                    Irs effort to enhance voluntary compliance. Irs enforcement                                                       105,247 and fell short of the target for two reasons. first, a
                                    activities, such as examination and collection, target elements                                                   planned system conversion took longer than expected, requiring
                                    of the tax gap and are a high priority.                                                                           staff to switch to manual processing multiple times throughout
                                                                                                                                                      the year. second, te/ge received 47 percent fewer applications
                                      IRS                                                                                                             of plans that required much less time (0.25 hrs) to complete
                                                                             $70.0
                                      Enforcement                                                                                                     than anticipated.
                                      Revenue                                $60.0
                                                     Dollars (in Billions)




                                                                             $50.0
                                                                                                                                                      the Irs enforcement activities, which target elements of the
                                                                             $40.0
                                                                                                                                                      tax gap, showed steady progress, building on fiscal year 2009
                                                                             $30.0
                                                                                                                                                      successes in key enforcement programs:
                                                                             $20.0
                                                                                                                                                        •	   total individual audits increased 11 percent
                                                                                                     $47.3
                                                                                     $37.6


                                                                                             $43.1




                                                                                                             $48.7


                                                                                                                     $59.2


                                                                                                                              $56.4


                                                                                                                                      $48.9


                                                                                                                                              $57.6




                                                                             $10.0

                                                                              $0.0
                                                                                     2003    2004    2005    2006    2007     2008    2009    2010
                                                                                                                                                        •	   automated underreporter contact closures increased almost
                                                                                                             Fiscal Year                                     20 percent



                                    62                                                                                       strategic goal: effectively managed u.s. government finances
                                                              performance and accountability report | fiscal year 2010




  •	   number of high net-worth audits increased more than five       the pressure on offshore financial institutions known to facili­
       percent                                                        tate concealment of income by u.s. citizens resulted in:
  •	   large corporate audits increased 8.1 percent—a significant       •	   a large bank entering into a deferred prosecution agree­
       achievement given the size (more than $10 million) and                ment on charges of conspiring to defraud the united states.
       complexity of these corporate entities                                Investigations resulted in indictments or guilty pleas of
                                                                             clients and bankers on federal income tax related charges,
as a result of these efforts, fiscal year 2010 Irs total enforce­
                                                                             including filing false income tax returns, failing to report
ment revenue was $57.6 billion, exceeding the $48.9 billion in
                                                                             foreign bank accounts, and concealing over millions in
revenue received in fiscal year 2009.
                                                                             income subject to taxation.
In fiscal year 2010, the Irs placed extraordinary focus on iden­        •	   a bank in scotland agreeing to forfeit $500 million as part
tifying those who hide assets overseas to avoid paying taxes. as             of a deferred prosecution agreement. the bank violated
part of an overall strategy to improve offshore compliance, the              the bank secrecy act (bsa) and conspired to defraud the
Irs continued to take aggressive steps to track tax evaders who              u.s. by altering or removing names and references from
hide their wealth by engaging in offshore tax evasion schemes.               payment messages to sanctioned countries, thereby allow­
the Irs more than doubled its offshore presence by opening                   ing these entities to move hundreds of millions of dollars




                                                                                                                                            part 2: annual performance report
new offices in asia and central america, placed additional                   through the u.s. financial system without identification.
law enforcement personnel at its existing offices throughout            •	   a swiss corporation agreeing to forfeit $536 million to
the world, and expanded its interaction with key international               the united states. the violations relate to transactions
organizations involved in tax and financial law compliance. all              illegally conducted on behalf of customers and other
of these steps are designed to develop new leads in ongoing                  countries sanctioned in programs administered by the
criminal tax and financial crime investigations.                             Department of the treasury. the corporation deliberately
                                                                             removed material information from payment messages so
some notable accomplishments include:
                                                                             that wire transfers would pass undetected through filters at
  •	   expanding international presence and coordination with                u.s. financial institutions.
       treaty partners and international organizations to improve
       offshore compliance                                            original Issue Discount (oID) redemption is a tax scheme in
  •	   establishing a global illicit financial unit to identify and   which promoters convince taxpayers to file a series of false Irs
       investigate large multinational tax and financial crime        forms and request fraudulent tax refunds based on fictional
       cases generally perpetrated by organized crime syndicates      claims of large income tax withholding. the Irs identifies
                                                                      and blocks the vast majority of these refund requests, however,
  •	   Identifying and examining 17,888 foreign resident tax
                                                                      clients of these promoters are subject to significant tax, penalty,
       returns with tax deficiencies totaling over $1.64 billion
                                                                      and interest for obtaining a fraudulent refund. In fiscal year
the voluntary disclosure program the Irs offered in 2009, com­        2010, the Irs set up a task force to investigate oID cases
bined with powerful whistle-blower initiatives, yielded informa­      resulting in:
tion on illegal transactions and violations of international laws       •	   100 open investigations
and fraud by banks and professionals. In fiscal year 2010, the          •	   Decreases in frivolous returns filed from 14,290 in 2009 to
Irs began reviewing the information from program participants                5,540 in 2010
to identify financial institutions, advisors, and others who
                                                                        •	   Decreases in frivolous refund claims from $24 trillion in 

promoted or otherwise helped u.s. taxpayers hide assets and
                                                                             2009 to $1.2 trillion in 2010

income offshore. the u.s. expanded its crackdown on offshore
tax evasion beyond the largest swiss bank to europe’s biggest         the Irs continues to ensure large corporate taxpayers are in
lender by market share. the Justice Department is conducting          compliance and use strategies that are less time and resource
criminal investigations of clients who kept accounts at overseas      intensive. the compliance assurance Process (caP) program
bank branches and failed to report them to the Irs.                   has been the most successful example of enhanced transparency
                                                                      between the Irs and large corporate taxpayers. In exchange for




strategic objective: available cash resources to operate the government                                                                63
                                    the department of the treasury




                                    more openness and transparency before filing, the Irs resolves       colleges and universities make up one of the largest non-profit
                                    issues early and ensures filing of accurate returns. the caP         segments in terms of revenue and assets. the colleges and
                                    program allows taxpayers who identify their tax issues to get        universities project is part of an ongoing effort by Irs to review
                                    certainty with respect to their tax obligations at the time the      the largest, most complex organizations in the tax-exempt sector
                                    return is filed, rather than waiting for the Irs to examine issues   to identify issues that warrant additional guidance or scrutiny. In
                                    during an audit.                                                     fiscal year 2010, the Irs released an interim report summarizing
                                                                                                         responses to compliance questionnaires sent to 400 public and
                                    the caP program benefits both the Irs and the taxpayer by
                                                                                                         private colleges and universities. the report discusses the re­
                                    fostering compliance, reducing the time it takes to process a
                                                                                                         spondents’ organizational structures, demographics, exempt and
                                    return, and improving both customer and employee satisfaction
                                                                                                         unrelated business activities, endowments, executive compensa­
                                    while maintaining a high level of quality. In fiscal year 2010,
                                                                                                         tion, and governance practices. the Irs opened examinations
                                    participation increased to 112 corporate taxpayers, with all 102
                                                                                                         on several organizations that were selected based on responses
                                    from 2009 returning.
                                                                                                         to the questionnaire. these examinations focus primarily on
                                    In fiscal year 2010, the Irs introduced a new quality examina­       unrelated business income and executive compensation issues.
                                    tion process to replace the old joint audit planning process.
                                                                                                         In fiscal year 2010, the Irs launched a number of important
                                    the new process improves efficiency by streamlining internal
part 2: annual performance report




                                                                                                         changes to its oversight of the tax return preparer community to
                                    administrative processes, increasing consistency, clearly defining
                                                                                                         improve tax administration and tax compliance. these included
                                    roles and responsibilities, and providing the examination teams
                                                                                                         a coordinated return preparer compliance strategy to ensure that
                                    with more administrative flexibility. this approach ensures
                                                                                                         the more than one million tax return preparers are competent,
                                    taxpayers are actively engaged with the audit team throughout
                                                                                                         helping ensure the Irs collects the right amount of tax. key
                                    the entire examination process.
                                                                                                         elements of this compliance strategy include:
                                    the Irs criminal investigation program continued investigating        •	   requiring registration and the assignment of preparer
                                    egregious tax, money laundering, and other financial crimes that           tax identification number (PtIn) for all paid tax return
                                    adversely affect tax administration. Improved case development             preparers
                                    and selection methods, coupled with heightened fraud aware­           •	   establishing mandatory testing and continuing education
                                    ness resulted in the successful prosecution of taxpayers involved          for paid tax return preparers who are not an attorney, certi­
                                    in abusive tax schemes, high income non-filers, employment                 fied public accountant, or enrolled agent
                                    tax evasion cases, and other flagrant forms of tax evasion. using     •	   Developing a public database so taxpayers can ensure their
                                    its unique statutory jurisdiction and financial expertise, the             tax return preparer is registered with the Irs
                                    Irs made significant contributions to important national law
                                                                                                          •	   Making all tax return preparers subject to ethical standards
                                    enforcement priorities. Performance levels for the Irs criminal
                                                                                                               of treasury circular 230 and subject to discipline by the
                                    investigation program remained high in fiscal year 2010, as
                                                                                                               Irs
                                    indicated by the following:
                                                                                                          •	   Increasing the Irs enforcement presence in the tax return
                                      •	   completion of 4,325 criminal investigations
                                                                                                               preparer community
                                      •	   a conviction rate of 90.2 percent
                                      •	   a Department of Justice acceptance rate of 93.9 percent,      In fiscal year 2010, the Irs made a number of due diligence
                                           with a u.s. attorney acceptance rate of 91.8 percent,         visits and took enforcement actions where warranted on paid
                                           which compares favorably with other federal law enforce­      tax preparers resulting in the following:
                                           ment agencies                                                  •	   completed more than 5,000 field visits to tax return 

                                      •	   2,184 convictions secured                                           preparers

                                                                                                          •	   completed 265 undercover “shops,” of which 62 percent
                                    In fiscal year 2010, the Irs continued to ensure compliance of             resulted in preparation of fraudulent returns during the
                                    exempt organizations and expanded its enforcement presence in              2010 filing season
                                    the tax return preparer community.




                                    64                                              strategic goal: effectively managed u.s. government finances
                                                             performance and accountability report | fiscal year 2010




  •	   completed 165 knock and talk Visits, which identified         could exceed $3 billion. In June 2010, the ttb administrator
       at-risk tax return preparers during the 2010 filing season    testified before the house Ways and Means committee,
  •	   achieved 91 convictions (a 100 percent conviction rate)       subcommittee on oversight regarding the illicit tobacco trade
       on tax return preparer program criminal investigations        and ttb’s jurisdiction and enforcement profile.

  •	   Promoted compliance through publicity and education by        During fiscal year 2010, ttb carried out 35 joint investigations
       participating in several outreach events for the tax return   with various federal, state, and local law enforcement agencies,
       preparer program                                              resulting in the seizure of more than 3,000 cases of alcohol
                                                                     beverage products and nearly 100,000 cartons of cigarettes
Alcohol and Tobacco Tax and Trade Bureau                             having an estimated federal and state tax liability of $30 million.
In conjunction with the increased excise tax rate, chIPra            ttb closed 33 investigations involving diversion of products
imposed a requirement to pay a floor stocks tax (fst) on all         having an estimated tax liability of more than $30.3 million. as
tobacco products held for sale as of april 1, 2009. through on­      a result of these activities, ttb assessed or collected roughly
premises visits to industry and targeted post audit verifications,   $1.9 million in taxes owed. ttb is also involved in multiple
ttb auditors enforced collection of the tobacco fst from the         ongoing criminal investigations of illegal activity.
manufacturers, importers, wholesalers, and retailers who held




                                                                                                                                           part 2: annual performance report
tobacco products for sale at the time of the tax rate increase.      ttb collaborated with several federal agencies, international
ttb combined technology, outreach to federal and state agency        organizations, and other stakeholders to ensure that the revenue
stakeholders, and sophisticated targeting techniques to develop      due on imported alcohol and tobacco products is collected.
a targeted audit plan.                                               through its partnership with u.s. customs and border
                                                                     Protection (cbP), and by using data from cbP’s International
using a short field examination program developed for its            trade Data system, ttb identified 165 entities (15 percent
auditors and investigators, ttb completed more than 250 field        of those who imported cigarettes or other tobacco products in
visits to verify fst payment, which identified $10.2 million in      fiscal year 2010) as having imported tobacco products without
additional tax, or an average underpayment of $40,000. fst           a federal permit. ttb notified each entity to cease their illegal
collections to date to more than $1.3 billion. the strategic         operations, and all have stopped importing or obtained a permit
approach used to deploy limited staff resources enabled ttb to       to import tobacco products. the tax value of these imports is
leverage its field presence to cover a wide universe of potential    $500,000.
fst taxpayers without adversely impacting the bureau’s other
audit and investigation priorities. In addition to fst examina­      ttb participated with cbP and Immigration and customs
tions, ttb completed 145 targeted audits to ensure overall tax       enforcement on the fraud Investigative strike team (fIst).
compliance, resulting in the identification of $7.4 million in       the fIst initiative addresses smuggling and fraud activity
additional tax, penalties, and interest in fiscal year 2010.         along united states’ borders. ttb field personnel participated
                                                                     in fIst operations in six u.s. cities with ports or international
tax fraud in the alcohol and tobacco industries poses a high         borders. through these efforts, ttb identified regulated
risk to federal revenue collection, as well as a lucrative funding   industry members for comprehensive audits and identified more
source for criminal or terrorist organizations. Diversion includes   than $250,000 of additional excise tax liability based on these
tax evasion, theft, distribution of counterfeit products, and        examinations.
distribution in the united states of products marked for export
or for use outside the country. the Department of the treasury’s
                                                                     Business Systems Modernization
february 2010 report to congress on “federal tobacco receipts
lost Due to Illicit trade and recommendations for Increased          Internal Revenue Service
enforcement” estimated that the federal revenue loss on              the Irs modernization efforts continue to focus on core tax
cigarettes diverted from lawful commercial channels may              administration systems designed to provide more sophisticated
have reached $1.5 billion in the years prior to the tax increase     tools to taxpayers and to Irs employees. In 2010, 50 percent
imposed by chIPra. at the new tax rate, revenue losses               (one of two) of its business system Modernization targets were




strategic objective: available cash resources to operate the government                                                             65
                                    the department of the treasury




                                    achieved. the schedule variance measure was met, but only two        ment effort in fiscal year 2010 that will allow industry members
                                    of the five releases met the cost variance threshold of +/- ten      to electronically submit new and amended permit applications
                                    percent.                                                             for approval. the Permits online (Ponl) project will provide
                                                                                                         a secure, web-based system to support online submission, rout­
                                    Irs accomplishments in fiscal year 2010 include:
                                                                                                         ing, and processing of original and amended permit applications.
                                     •	   customer account Data engine (caDe). caDe posted               Ponl will allow ttb to screen and authorize applicants to op­
                                          more than 41.2 million tax returns and processed more          erate alcohol and tobacco businesses under the Federal Alcohol
                                          than 35.8 million refunds. for the first time, caDe posted     Administration Act and the Internal revenue code. Ponl will
                                          more than seven million payments submitted with taxpayer       reduce costs to the industry and to ttb, help meet increasing
                                          returns and issued 8,128 savings bonds refunds. In fiscal      demand for services, and improve customer satisfaction. the
                                          year 2010, the Irs revised its caDe strategy to imple­         system will be released in early fiscal year 2011.
                                          ment a new taxpayer account database for the 2012 filing
                                          season. this new database will support daily processing and    ttb made significant progress in its development of the
                                          accelerate the refund processing time for most taxpayers.      formulas online (fonl) business application development
                                          the cost of caDe release 5.2 Milestone 4b was less than        project in fiscal year 2010. this system will allow industry
                                          planned because legislative and filing season changes were     members to submit beverage and nonbeverage alcohol formula
part 2: annual performance report




                                          reduced in scope and complexity.                               forms and documentation via the web, and grants formula
                                                                                                         read access rights to certificate of label approval (colas)
                                     •	   Modernized e-file (Mef). the Irs deployed an additional
                                                                                                         online industry users based on their permit numbers stored in
                                          release that enabled the acceptance of individual forms
                                                                                                         Integrated revenue Information system (IrIs), ttb’s permit
                                          1040 (federal and state returns), form 4868 extensions, and
                                                                                                         and tax database. this effort also enables industry members to
                                          21 other supporting 1040 forms and schedules. Modernize
                                                                                                         register for both fonl and colas online via the web. this
                                          e-file release 6.1 Milestone 4a-5 required additional fund­
                                                                                                         online filing solution is scheduled for release in fiscal year 2011.
                                          ing to support unplanned, required needs including disaster
                                          recovery activities, increased performance testing, and
                                          back-end validation and expanded functionality, including      Protection of Sensitive Information
                                          the development of a transactional national account profile.   the Irs takes the issue of identity theft very seriously. In fiscal
                                          In fiscal year 2010, Mef accepted over 6.9 million returns.    year 2010, to preserve and enhance public confidence, the Irs
                                     •	   account Management services (aMs). aMs deployed its            advocated the protection and proper use of identity information
                                          final release in february 2010. the cost of aMs release 2.1    by:
                                          Milestone 5 deployment was less than planned due to the          •	   Placing markers on more than 284,000 taxpayer accounts
                                          required realignment of aMs project funds to support r1.3             to alert employees the account belongs to a substantiated
                                          software and infrastructure design activities. since the de­          identity theft victim; and
                                          ployment, aMs processed more than 2.3 million accounts           •	   ensuring identity theft indicators and business rules isolate
                                          and distributed more than 2.2 million electronic transcript           returns for additional screening to validate whether the
                                          cases. the final aMs release provided users the ability to            true taxpayer filed the return. More than 82,000 returns
                                          view correspondence images online and on-demand, elimi­               were selected for additional screening and closed; and $245
                                          nating manual processing and reducing case cycle time from            million was protected from being refunded to perpetrators
                                          days to minutes. aMs also facilitated the identification of           on thousands of fraudulent returns.
                                          unallowable or fraudulent claims for first-time home buyer
                                          credits claimed through amended returns.                       the Irs also protects its systems and taxpayers from evolving
                                                                                                         online threats. by identifying fraudulent sites and phishing
                                    Alcohol Tobacco Tax and Trade Bureau                                 scams, the Irs helps to reduce the number of taxpayers who
                                    ttb continued with business application development to               fall victim to online fraud schemes. During fiscal year 2010, the
                                    improve internal efficiency and to reduce regulatory burden on       Irs shut down 4,109 phishing sites (899 domestic and 3,210
                                    industry members. ttb undertook a major software develop­            international), compared to 3,444 sites in fiscal year 2009.




                                    66                                             strategic goal: effectively managed u.s. government finances
                                                            performance and accountability report | fiscal year 2010




Conclusion                                                            In 2010, the Irs announced new recommendations to improve
 the treasury Department, through its bureaus Irs, fMs, and           oversight of federal tax return preparers, including new registra­
 ttb, was relatively successful in achieving its strategic outcome    tion, testing, and continuing education requirements. the
“revenue collected when due through a fair and uniform appli­         recommendations are intended to increase taxpayer compliance
 cation of the law.” In fiscal year 2010, 69 percent of the targets   and ensure uniform and high ethical standards of conduct for
 were met or exceeded. going forward, target setting in fiscal        tax return preparers. Primary implementation of the initial
 year 2011 for 14 of 39 metrics (36 percent) is more aggressive       changes is anticipated in fiscal year 2011.
 than in 2010.                                                        assisting taxpayers with their tax questions before they file
Despite missing some key performance targets for fiscal year          prevents inadvertent noncompliance and reduces burdensome
2010, such as its quality metrics, Irs generally met or exceeded      post-filing notices and other correspondence from the Irs.
its performance targets. the Irs remains committed to finding         In fiscal year 2011, the Irs plans to increase level of service
ways to increase compliance and reduce the tax gap. In fiscal year    by adding resources to meet the ever increasing demand and
2010, the Irs developed new methodologies for estimating the          continue to make efficiency improvements such as automated
corporation income tax gap; updated the estate and gift tax non­      self-service applications that allow taxpayers to obtain informa­
                                                                      tion on less complex issues such as refund inquiries. these




                                                                                                                                              part 2: annual performance report
filing and underreporting tax gap estimates; and developed a new
basis for estimating the individual income tax non-filer gap.         improvements free up staff to deal with the more complex tax
                                                                      law issues stemming from the passage of new legislation.

Moving Forward                                                        Data and technology are central to the future of tax admin­
In fiscal year 2011, the Irs will focus efforts on the following 
    istration. In fiscal year 2011, the Irs plans to complete the
priorities:
                                                          new taxpayer account database and continue investments
                                                                      in electronic filing systems. completion of the core taxpayer
  •	   Taxpayer Service – Increase the telephone level of service
                                                                      account database is the cornerstone of Irs It modernization
       and improve the Irs website where an increasing percent­
                                                                      that will expedite refunds to 140 million individual taxpayers. It
       age of taxpayers find the help they need
                                                                      is also a prerequisite for other major initiatives, such as expan­
  •	   Enforcement – expand efforts to address offshore tax eva­
                                                                      sion of online paperless services. In addition, next generation
       sion and expand the focus on corporate and high-wealth
                                                                      compliance systems require a relational database structure and
       returns
                                                                      movement away from the legacy data storage model. the ability
  •	   Business Systems Modernization – complete the new              of the Irs to support increasingly complex taxpayer service and
       taxpayer account database. build and deploy advanced           compliance initiatives will be severely limited until the new
       information technology systems, processes, and tools to im­    taxpayer account database is completed.
       prove Irs efficiency and productivity. ensure the privacy
       and security of data and safety and security of employees.     Improving compliance by businesses of all sizes is important.
                                                                      specific proposals to improve compliance by businesses would:
  •	   Human Capital – Make the Irs the best place to work in
       government                                                       •	   Provide treasury regulatory authority to require that 

                                                                             information returns be filed electronically

the Irs will continue to invest in strong compliance programs,
including a robust international enforcement initiative to ad­          •	   require corporations and partnerships with assets of $10
dress offshore tax evasion. enforcement initiatives will address             million or more that are required to file schedule M-3 to
underreporting of income associated with international activi­               file their tax returns electronically
ties and expand enforcement efforts on noncompliance among              •	   Provide treasury regulatory authority to reduce the current
corporate and high-wealth taxpayers and the complex business                 threshold, filing 250 or more returns during a calendar year,
enterprises they control (including corporations, partnerships,              to require electronic filing of certain other large taxpay­
and trusts).                                                                 ers not required to file schedule M-3 (such as exempt
                                                                             organizations)




strategic objective: available cash resources to operate the government                                                                  67
                                    the department of the treasury




                                     •	   Implement standards clarifying when employee leasing 
         verification program, building on the error tracking Database
                                          companies can be held liable for their clients’ federal 
      (etD) developed in fiscal year 2010 to identify late filers,
                                          employment taxes
                                              non-filers, and errant filings of operational reports. In fiscal year
                                     •	   Increase certainty about the rules pertaining to classifica­   2011, the etD will be expanded to include operational reports
                                          tion of employees as independent contractors                   for all ttb-regulated commodity types. ttb also intends to
                                                                                                         create a module in the etD to address missing and late excise
                                    fMs will continue to expand the use of electronic collection         tax returns.
                                    mechanisms that use the most advanced and secure collection
                                    technologies that are flexible enough to accommodate the vary­       In the first full year of collections under the new tobacco tax
                                    ing needs and technical sophistication of all taxpayers and fPas.    rates imposed by chIPra, ttb collection efforts resulted in
                                                                                                         year-to-year revenue increase of 15 percent. going forward, rev­
                                    In fiscal year 2011, ttb expects to support the Department’s         enue collection activities will focus both on legitimate industry
                                    high priority performance goal related to voluntary tax              members and those operating outside of legal distribution chains.
                                    compliance by achieving a compliance rate of 94 percent for          ttb will continue to include in its audit plan a mix of compre­
                                    timely filed tax payments among its largest taxpayers (those         hensive audits, limited scope audits, and examinations in order
                                    paying more than $50,000 in excise taxes annually). ttb will         to maximize ttb’s audit resources and provide broad industry
                                    sustain its high compliance rate through its continued efforts
part 2: annual performance report




                                                                                                         coverage. ttb also plans to address revenue risk areas in fiscal
                                    to promote industry member use of the online tax return and          year 2011 through enhanced risk modeling and audit programs.
                                    payment filing system, Pay.gov. ttb will further enhance its tax




                                    68                                                strategic goal: effectively managed u.s. government finances
                                                                          performance and accountability report | fiscal year 2010




timely          anD       aCCurate payments                               at the           l OWest pOssible COst
as the government’s financial manager, fMs oversees a daily cash flow in excess of $94 billion, disbursing over $2.3 trillion in pay­
ments to more than 100 million people. these payments include income tax refunds, social security benefits, veterans’ benefits and
other federal payments to individuals and businesses. based on performance results, treasury was successful in achieving timely and
accurate payments at the lowest possible cost during fiscal year 2010.

Key Performance Measure Table
the following table contains only key performance measures associated with this outcome. actual and target trends represent four
years of data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/
management/dcfo/accountability-reports.

                                                                                                       Percent      Percent                               4-year   4-year
                                                                           2009     2010      2010    of Target    Change in Performance          2011    Target   Actual
 Key Performance Measure                                         Bureau   Actual   Target    Actual   Achieved      Actual      Rating           Target   Trend    Trend

 Percentage of paper check and electronic funds transfer (EFT)    FMS     100.0    100.0     100.0     100.0%         0.0%              Met      100.0              
 payments made accurately and on-time (%)




                                                                                                                                                                            part 2: annual performance report
 Percentage of Treasury payments and associated information       FMS      81.0     81.0      82.0     101.2%         1.2%            Exceeded    83.0             
 made electronically (%)
 Unit cost for federal government payments ($)                    FMS     $0.37    $0.40     $0.36*    110.0%        -2.7%            Exceeded   $0.40             
*Estimated



Analysis of Performance Results                                                                       Legend                                     Symbol

In fiscal year 2010, treasury exceeded targets for 67 percent and                                     Favorable upward trend                        
                                                                                                      Favorable downward trend                      
met targets for 33 percent of its measures related to this outcome.
                                                                                                      Unfavorable upward trend                      
fMs has consistently made 100 percent of payments accurately
                                                                                                      Unfavorable downward trend                    
and on-time. the percentage of payments made electronically
                                                                                                      No change in trend, no effect                 
increased by one percentage point, and the unit cost for federal                                      No change in trend, favorable effect          
government payments was down 2.7 percent, or $0.01.                                                   No change in trend, unfavorable effect        
                                                                                                      Baseline                                      B

Financial Management Service
                                                                                      the second measure is the percentage of treasury payments and
During fiscal year 2010, fMs continued to expand and market
                                                                                      associated information made electronically. this measure is an
the use of electronic funds transfer to deliver federal payments,
                                                                                      indication of the decrease in the number of paper checks issues,
improve service to payment recipients, and reduce government
                                                                                      which reduces costs associated with postage, printing, and
program costs. through fMs, treasury met or exceeded targets
                                                                                      re-issuance of checks. overall, 82 percent of treasury payments
for 100 percent of its performance measures relative to this
                                                                                      and associated information were made electronically in fiscal
strategic outcome. this is in line with fiscal year 2009, when
                                                                                      year 2010 versus 81 percent in fiscal year 2009, a one percentage
the bureau met or exceeded 100 percent of its targets.
                                                                                      point increase.
the first of the three performance measures for this strategic
                                                                                      fMs manages several payment systems and technologies to
outcome concern accuracy and timeliness of payments. During
                                                                                      promote electronic payments. the Payments application
fiscal year 2010, 100 percent of paper check and electronic
                                                                                      Modernization (PaM) is an effort to replace legacy applications
funds transfer (eft) payments were made accurately and on
                                                                                      that are used to disburse approximately one billion federal
time, matching the performance target and actual performance
                                                                                      payments valued at over $2.3 trillion. PaM involves replacing
results from fiscal year 2009.
                                                                                      over thirty applications with a single standardized application.
                                                                                      In addition, fMs manages a stored Value card program that




strategic objective: available cash resources to operate the government                                                                                               69
                                    the department of the treasury




                                    facilitates transactions by military personnel in remote and dan­      Conclusion
                                    gerous locations. finally, the automated standard application          During fiscal year 2010, treasury, through fMs, successfully
                                    for Payments (asaP.gov) allows grantee organizations receiv­           achieved timely and accurate payments at a unit cost of $0.36
                                    ing federal funds to electronically draw from accounts.                as indicated by having met or exceeded its performance measure
                                    fMs’s nationwide go Direct campaign, encouraging current               targets. as the acceptance of electronic payments continues to
                                    federal benefit check recipients to switch to direct deposit, is       expand, increased efficiency should result in further cost reduc­
                                    now in its sixth year. go Direct recently concluded an extremely       tions. fMs is working to support greater adoption of electronic
                                    successful fifth year in which over 1.5 million conversions were       payments and to renovate systems that accept electronic
                                    attributed to the campaign. the current number of total conver­        payments.
                                    sions obtained since the inception of the campaign in 2005 is
                                    five million. fMs has also facilitated unbanked federal check          Moving Forward
                                    recipients to receive electronic payments through Direct express.      over the next fiscal year, fMs will continue efforts to expand
                                    More than one million people have signed up for the card since it      electronic funds transfer, improve service to payment recipients,
                                    was introduced in april 2008.                                          and decrease the average unit cost of payments. the fiscal year
                                                                                                           2011 target for percent of electronic payments is 83 percent,
                                    the third measure is unit cost for federal government payments.
part 2: annual performance report




                                                                                                           an increase of two percentage points from the fiscal year 2010
                                    this is a measure showing the efficiency of payments. In fiscal year
                                                                                                           target. fMs will also continue its go Direct campaign. for
                                    2010, the unit cost was $0.36, a decrease from fiscal year 2009.
                                                                                                           fiscal year 2011, fMs plans to continue issuing 100 percent of
                                                                                                           payments accurately and on-time. the PaM will contribute to
                                    Bureau of the Public Debt                                              more efficient processing of payments.
                                    In 2010, bPD implemented an electronic payment system
                                    using Pay.gov that allows debtors to pay what they owe online.
                                    Debtors began using the system the same day it was implement­
                                    ed and within the first two weeks, 36 payments were received
                                    totaling over $11,400. earlier, in 2010, bPD implemented a
                                    similar system, also using Pay.gov, which allows individuals to
                                    give gifts online to reduce the public debt.




                                    70                                              strategic goal: effectively managed u.s. government finances
                                                                          performance and accountability report | fiscal year 2010




gOvernment finanCing                                   at the            l OWest pOssible COst O ver time
bPD conducts the Department’s debt financing operations by issuing and servicing treasury securities. In fiscal year 2010, bPD
conducted more than 290 auctions resulting in the issuance of more than $8.41 trillion in marketable treasury bills, notes, bonds,
and treasury Inflation Protected securities. bPD’s government agency Investment services (gaIs) program supports federal, state,
and local government agency investments in non-marketable treasury securities and also manages over $4 trillion in customer assets.

based on performance results, through bPD, treasury was generally successful in achieving or exceeding the performance measures for
government financing at the lowest possible cost over time during fiscal year 2010 by meeting or exceeding 89 percent of its targets.

Key Performance Measure Table
the following table contains only key performance measures associated with this outcome. actual and target trends represent four
years of data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/
management/dcfo/accountability-reports.




                                                                                                                                                                            part 2: annual performance report
                                                                                                     Percent Percent                                      4-year   4-year
                                                                 2009         2010        2010      of Target Change in Performance             2011      Target   Actual
Key Performance Measure                               Bureau    Actual       Target      Actual     Achieved Actual        Rating              Target     Trend    Trend

 Cost per debt financing operation ($)                 BPD     $170,214     $193,962    $154,790*   120.2%       -9.1%          Exceeded      $201,258             

 Cost per federal funds investment transaction ($)     BPD      $41.71       $45.70      $74.05*     38.0%        77.5%          Unmet         $76.91              
 Cost per TreasuryDirect assisted transaction ($)      BPD      $8.72        $8.57        $8.17*    104.7%       -6.3%          Exceeded       $7.95               
 Cost per TreasuryDirect online transaction ($)        BPD      $5.21        $5.69        $5.60*    101.6%        7.5%          Exceeded       $5.46               
 Percent of auction results released in two minutes    BPD       100          95          100       105.3%         0.0%         Exceeded        100                
 +/- 30 seconds (%)
 *Estimated



Analysis of Performance Results                                                                     Legend                                       Symbol

the table above is a sample of the measures associated with                                          Favorable upward trend                           
                                                                                                     Favorable downward trend                         
the achievement of the government financing outcome. bPD
                                                                                                     Unfavorable upward trend                         
exceeded 56 percent of its nine performance measures associ­
                                                                                                     Unfavorable downward trend                       
ated with this outcome, met 33 percent, and failed to meet 11
                                                                                                     No change in trend, no effect                    
percent (one measure) related to this outcome. these results                                         No change in trend, favorable effect             
are consistent with fiscal year 2009 performance when bPD                                            No change in trend, unfavorable effect           
met or exceeded all but one target. this year, “cost per federal                                     Baseline                                         B
funds investment transaction” was unmet, while bPD met the
target for the metric it missed last year, “cost per treasuryDirect                    In fiscal year 2010, the Department conducted over 290 govern­
online transaction.”                                                                   ment securities auctions, similar to the number conducted in
                                                                                       fiscal year 2009. however, the cost per debt financing operation
In order to effectively finance the u.s. government, treasury                          fell considerably from $170,214 in fiscal year 2009 to $154,790
must efficiently execute its securities auctions. by minimizing                        in fiscal year 2010. going forward, treasury will start to measure
the time that bidders are exposed to the risk of adverse market                        the cost of debt financing operations using a five-year rolling
movements, participants are likely to bid at rates and yields                          average, which will smooth out the effects of spikes in the
more favorable to the federal government. bPD consistently                             number of auctions.
releases securities auction results within two minutes, plus or
minus 30 seconds, of the auction close. bPD exceeded its target                        In 2010, bPD made the decision to end sellDirect services
of 95 percent for the percent of auctions with results released                        effective December 17, 2010. this program allows investors
within two minutes and achieved 100 percent.                                           who hold marketable securities in the treasuryDirect and



strategic objective: available cash resources to operate the government                                                                                               71
                                    the department of the treasury




                                    legacy treasury Direct systems the option to sell their securities   In support of the treasury-wide initiative to reduce paper, bPD
                                    on the secondary market through the federal reserve bank of          implemented electronic issue folders for treasury’s marketable
                                    chicago. the decision was based on escalating operating costs,       securities auctions. an auction issue folder, created each time a
                                    which would result in user fees comparable to those charged          security was auctioned, contained up to 32 different documents
                                    by brokers/dealers. transaction volumes for this service are low,    related to auction processing. this initiative eliminated the
                                    averaging 13,000 per year.                                           retention of multiple copies of paper-based folders.

                                    a key component of treasury’s retail securities programs is
                                    treasuryDirect, which continues to grow in size and function.        Office of Debt Management
                                    In the past year, 99,800 new customer accounts were added            the long-standing goal of the treasury’s office of Debt
                                    and treasuryDirect reached a milestone one million accounts          Management (oDM) is to maintain the lowest cost of borrow­
                                    in august. bPD enhances the system regularly, and in 2010, the       ing over time. this objective is achieved by being regular and
                                    bureau added a streamlined process for reinvesting marketable        predictable with treasury debt issuance and communication to
                                    securities. In addition, bPD partnered with its largest issuing      market participants while optimizing the size, mix, and calendar
                                    agent, national bond and trust, to reach that agent’s customer       of debt issuance. the ability of treasury to manage the nation’s
                                    base, and 12,000 new customers enrolled in treasuryDirect in         debt management is essential to maintaining the stability and
                                                                                                         integrity of the financial system. oDM pursued a number of
part 2: annual performance report




                                    the first half of august, up from a consistent monthly average of
                                    about 6,000 new accounts. overall, the cost per treasuryDirect       policies to support the liquidity and functioning of the market
                                    online transaction was $5.60, meeting the target of $5.69, but an    for treasury securities.
                                    increase from the fiscal year 2009 cost of $5.21.
                                                                                                         treasury auctions in fiscal year 2010 have witnessed unprec­
                                    the gaIs program accounts for over $6 trillion in investment         edented demand. on average, nominal note and bond auctions
                                    and borrowing activities implemented by various federal, state,      have been oversubscribed by 1.9 times, significantly above the
                                    and local government entities. this year bPD completed its           previous record of 1.5 times in fiscal year 2009. In this strong
                                    long-term goal of consolidating the entire gaIs line of business     demand environment, treasury extended the average maturity
                                    into one information technology system. the systems reduction        of the debt by 5 months, back to an historic average of 58
                                    allows Public Debt to streamline the diversity of technology         months. after large scale changes to the auction calendar in
                                    involved in supporting gaIs programs, as well as consolidate         fiscal year 2009, this year’s financing need have been reached
                                    and standardize internal control processes. fifty-five percent       mainly through changes to auction sizes.
                                    of gaIs customers reported overall “excellent” satisfaction
                                    with the program, a baseline for this new measure. In addition,      Conclusion
                                    the cost per federal funds investment transaction was $74.05,
                                                                                                         In fiscal year 2010, treasury met or exceeded 89 percent of the
                                    greater than the target of $45.70 due to a methodology change
                                                                                                         targets that were established to demonstrate the achievement of
                                    that better aligns costs with transactions.
                                                                                                         financing the government at the lowest possible cost over time.
                                                                                                         there was a nearly 9 percent year over year decrease in cost per
                                    Bureau of the Public Debt                                            debt financing operation associated with the increased number
                                    In fiscal year 2010, treasury announced an initiative to end         of auctions.
                                    the sale of paper savings bonds through payroll savings plans
                                    by January 2011. throughout 2010, bPD worked with federal            Moving Forward
                                    reserve banks, agents, and employers to encourage customers
                                                                                                         bPD will move toward an all-electronic environment for retail
                                    to transition to treasuryDirect. extensive outreach efforts were
                                                                                                         securities. although a date has not been established, proposed
                                    employed including: direct mail, bond inserts, use of Public
                                                                                                         future plans include eliminating the issuance of paper over-the­
                                    Debt and federal reserve bank websites, on-demand webcasts
                                                                                                         counter savings bonds and decommissioning the legacy system
                                    and targeted print, and radio advertising.




                                    72                                             strategic goal: effectively managed u.s. government finances
                                                         performance and accountability report | fiscal year 2010




for marketable securities. treasuryDirect will be enhanced to       the gaIs program will work to maintain a high customer
streamline payroll savings purchases and make it easier for         satisfaction rating from customers. additionally, system func­
investors to purchase securities as gifts. retail payment systems   tionality and reporting will continue to be enhanced to better
will be updated to refer payments to the toP to offset any debts    serve customer needs.
that payees owe to the federal government.
                                                                    treasury anticipates that oDM will continue to be challenged
bPD is also exploring the feasibility of conducting treasury’s      given continued volatility in global financial markets. oDM
marketable securities auctions via remote access. remote access     has been working with outside consultants to develop models to
will strengthen bPD’s ability to continue to execute auctions in    improve its forecasting ability and is currently in the process of
a contingency situation.                                            testing those models.

along with the federal reserve bank of Philadelphia, bPD is
working to automate the regression testing of major functional­
ity within the treasury automated auction Processing system.
scheduled for completion by the end of calendar year 2010, this
project will save time and improve the quality of application




                                                                                                                                         part 2: annual performance report
software releases.




strategic objective: available cash resources to operate the government                                                            73
                                    the department of the treasury




                                    effeCtive Cash m anagement
                                    the treasury manages the government’s central operating account and cash position to support gross annual transactions totaling
                                    $24 trillion. the Department’s office of fiscal Projections (ofP) provides forecasts of federal receipts, outlays, and debt transactions
                                    to ensure that funds are available on a daily basis to cover federal payments. by increasing the accuracy of fiscal projections, the
                                    Department is able to minimize borrowing costs, which has direct and material impact on the government’s net operating cost.

                                    to analyze the effectiveness of the cash management techniques employed, the Department measures the variance between actual
                                    and projected receipts. this has been particularly challenging for the past few years due to the financial crisis. treasury did not meet
                                    its aggressive goal of a five percent or lower variance in fiscal year 2010. the fiscal year 2010 result is consistent with the variance in
                                    the past four years.

                                    Key Performance Measure Table
                                    the following table contains the key performance measure associated with this outcome. actual and target trends represent four
                                    years of data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/
                                    management/dcfo/accountability-reports.
part 2: annual performance report




                                                                                                                                                 Percent Percent                               4-year   4-year
                                                                                                                    2009      2010     2010     of Target Change in Performance        2011    Target   Actual
                                    Key Performance Measure                                                 Bureau Actual    Target   Actual    Achieved Actual        Rating         Target   Trend    Trend

                                     Variance between estimated and actual receipts (annual forecast) (%)    DO      5.5       5       5.8        84.0%         5.5%          Unmet     5               



                                    Analysis of Performance Results                                                                          Legend                                   Symbol

                                    given economic uncertainties and legislative changes, the                                                Favorable upward trend                     
                                                                                                                                             Favorable downward trend                   
                                    forecasts for fiscal year 2010 were not as good as those for fiscal
                                                                                                                                             Unfavorable upward trend                   
                                    year 2009. the estimated variance for fiscal year 2010 is 5.8
                                                                                                                                             Unfavorable downward trend                 
                                    percent, higher than the 5.0 percent target. revenue has been
                                                                                                                                             No change in trend, no effect              
                                    volatile over the past few years due to the financial crisis.                                            No change in trend, favorable effect       
                                                                                                                                             No change in trend, unfavorable effect     
                                    Individual tax payments in april came in below forecast as li­
                                                                                                                                             Baseline                                    B
                                    ability for tax year 2009 was much lower than expected. credits
                                    from the recovery act, while stimulating the economy, further
                                    reduced these taxes. corporate profitability and thus corporate                         Moving Forward
                                    tax receipts turned around, showing strong increases in fiscal                          treasury anticipates that forecasting government receipts and
                                    year 2010. federal reserve earnings, reflecting the increase in                         outlays in fiscal year 2011 will continue to be challenging due to
                                    securities held by the federal reserve, more than doubled from                          the difficulty in forecasting the strength of the current recovery.
                                    their level in fiscal year 2009.                                                        Volatility caused by changing economic conditions and new
                                                                                                                            programs enacted by congress will have to be accounted for in
                                                                                                                            current forecasting models.
                                    Conclusion
                                    ofP continues to effectively manage the government’s daily cash                         further, treasury is currently working to enhance its forecast­
                                    position and to minimize borrowing costs over time to ensure                            ing ability. ofP is in the process of developing a new system
                                    that government activities and services continue uninterrupted.                         to create and manage its forecasts and expects this system to
                                    Despite not meeting the targeted variance between forecast and                          facilitate and strengthen its estimation process. the targeted
                                    actual budget receipts, ofP continues to update and modify                              variance between estimated and actual receipts will continue to
                                    existing models and monitor new initiatives as they are intro­                          be 5 percent in fiscal year 2011.
                                    duced. the actual results came in close to the target considering
                                    the volatility and extent of the current economic environment.


                                    74                                                         strategic goal: effectively managed u.s. government finances
                                                                    performance and accountability report | fiscal year 2010




aCCurate , timely, useful , transparent                                                anD        aCCessible finanCial
i nfOrmatiOn
the government-wide accounting and reporting Program maintains the federal government’s books and accounts for its monetary as­
sets and liabilities by operating and overseeing the government’s central accounting and reporting system. based on performance results,
treasury was successful in achieving accurate, timely, useful, transparent and accessible financial information during fiscal year 2010.

Key Performance Measure Table
the following table contains only key performance measures associated with this outcome. actual and target trends represent four
years of data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/
management/dcfo/accountability-reports.

                                                                                                   Percent Percent                                   4-year   4-year
                                                                     2009     2010       2010     of Target Change in Performance           2011     Target   Actual
Key Performance Measure                                    Bureau   Actual   Target     Actual    Achieved Actual        Rating            Target    Trend    Trend

 Cost per summary debt accounting transaction ($)           BPD     $8.66    $11.81     $11.41*    103.4%        31.8%        Exceeded     $12.54             




                                                                                                                                                                       part 2: annual performance report
 Release federal government-wide statements on time         DO        1        1          1*       100.0%        0.0%             Met        1                 
 Percentage of government-wide accounting reports issued    FMS      100      100        100       100.0%        0.0%             Met       100                
 accurately (%)
 Percentage of government-wide accounting reports issued    FMS      100      100        100       100.0%        0.0%             Met       100                
 timely (%)
 Unit cost to manage $1 million dollars of cash flow ($)    FMS     $7.08    $11.77     $7.36      139.8%        4.0%         Exceeded     $10.15             
 *Estimated


Analysis of Performance Results                                                                   Legend                                    Symbol

fMs met or exceeded all three of its performance targets for                                      Favorable upward trend                         
                                                                                                  Favorable downward trend                       
this strategic outcome during fiscal year 2010. the unit cost to
                                                                                                  Unfavorable upward trend                       
manage one million dollars of cash flow was $7.36, substantially
                                                                                                  Unfavorable downward trend                     
lower than the $11.77 target but above the $7.08 level achieved
                                                                                                  No change in trend, no effect                  
in fiscal year 2009. fMs also met both its targets of 100% for                                    No change in trend, favorable effect           
accurate and timely reports on government-wide accounting.                                        No change in trend, unfavorable effect         
                                                                                                  Baseline                                       B
bPD surpassed the target for its performance measure “cost per
summary Debt accounting transaction.” the cost was $11.41
                                                                                   past five years for the fr. however, in fiscal year 2009, the
in fiscal year 2010, below the target of $11.81. however, the
                                                                                   oMb extended the release date of the financial report to
cost was 32 percent above the fiscal year 2009 actual of $8.66.
                                                                                   february 26, 2010, due to substantial reporting requirements of
                                                                                   the recovery act. the Department anticipates a return to the
Financial Management Service                                                       regular release schedule for the fiscal year 2010 fr of just 75
the Department, through fMs’ government-wide accounting                            days after the close of the fiscal year.
and reporting Program, maintains the federal government’s
books and accounts for its monetary assets and liabilities by                      to complement and support the accelerated release of the fr,
operating and overseeing its accounting and reporting system.                      treasury continues to release the Monthly Treasury Statement on
the consolidated financial report of the united states                             the eighth workday of each month. this release schedule allows
government (fr) provides a comprehensive view of the                               treasury to provide agency financial managers complete and
federal government’s finances and is critical to a fully informed                  accurate financial data more often as a basis for preparation of
budget process. fMs met the 45-day reporting deadline for the                      their financial statements.




strategic objective: available cash resources to operate the government                                                                                          75
                                    the department of the treasury




                                    office of the fiscal assistant secretary (ofas), in coopera­           efforts to resolve the significant disclaimers that have impacted
                                    tion with oMb, and with the support of the government                  the government-wide audit for more than a decade, including
                                    accountability office (gao) develops, produces, and issues             the development of a general fund reporting entity, which is
                                    The Federal Government’s Financial Health – A Citizens’ Guide          intended to facilitate interagency accounting, promote central­
                                    to the Financial Report of the U.S. Government. this guide             ization and efficiency, and improve data integrity.
                                    provides a summary of the key data and issues addressed in the
                                    full fr in a manner that is user-friendly to the general public.       Moving Forward
                                    the government-wide accounting (gWa) Modernization                     treasury will continue to work to produce more accurate and
                                    Program is improving long standing federal accounting processes        useful financial statements and reports for the public. the
                                    and provides agencies with methodologies and tools to improve          financial Information and reporting standardization (fIrst)
                                    the accuracy and consistency of their financial data. this multi­      initiative addresses the core of federal financial management
                                    year effort will improve the reliability, usefulness, and timeliness   problems, which is improving the quality of agency account­
                                    of the government’s financial information and provide agencies         ing. once this foundation is in place, the federal government
                                    and other users with better access to that information. It will        will be in a position to receive a clean audit opinion on the
                                    also eliminate duplicate reporting and reconciliation burdens by       financial report of the u. s. government. More importantly,
                                                                                                           fIrst will be the foundation for a central repository of ac­
part 2: annual performance report




                                    agencies, resulting in significant government-wide savings.
                                                                                                           curate financial information.
                                    to date, the program has implemented several improvements
                                    to provide agencies more timely data and enhanced tools to             early in fiscal year 2011, the gWa Modernization Program will
                                    reconcile their fund balances with treasury. the authority             implement enhancements to all of its public facing compo­
                                    transaction Module automated the processes for borrowing               nents to allow agencies to enter and review the component
                                    from treasury, non-expenditure transfers, and appropriation            based treasury account symbol as published in the common
                                    warrant transactions. the Provisional account statement now            government-wide accounting classification code July 2007
                                    provides gWa reporting organizations the capability to view            Version 1.0 Document. additionally, in mid fiscal year 2011,
                                    their submitted transactions on a daily basis, permitting a daily      the program will implement the first non-treasury Disbursed
                                    reconciliation of fund balances.                                       organization as a gWa reporter. additionally, the new
                                                                                                           classification transaction and accountability Module will be
                                                                                                           deployed in 2011, facilitating the ability of agencies to more
                                    Bureau of the Public Debt
                                                                                                           quickly transition to becoming gWa reporters.
                                    through its summary Debt accounting program, bPD contin­
                                    ues to reliably account for the borrowing activity of the federal      bPD will continue to accurately account for and report on
                                    government and report timely on the resulting debt. During             federal debt. bPD will modernize its current summary debt
                                    fiscal year 2010, 100 percent of daily financial statements            accounting system and has established a goal to migrate to a
                                    were produced within three business days, and 100 percent of           shared service solution by fiscal year 2013. this approach will
                                    monthly ledgers closed within one business day. as noted in the        standardize business, system, and data elements and reduce
                                    Schedules of Federal Debt, these accomplishments contributed to        operational risk and costs.
                                    continuous unqualified audit opinions and no material weak­
                                    nesses of internal controls.


                                    Conclusion
                                    fMs continues to make improvements to its policies, proce­
                                    dures, information systems, and internal controls associated
                                    with compiling and issuing the fr. gao closed two of 44
                                    recommendations in the fiscal year 2009 audit report. fMs
                                    will continue to resolve the preparation issues that are within
                                    its realm of control. ofas continues to oversee increased


                                    76                                              strategic goal: effectively managed u.s. government finances
                                                           performance and accountability report | fiscal year 2010




strategic goal:
u.s. anD WorlD econoMIes PerforM at full
econoMIc PotentIal
 strategic objective:
        improved economic opportunity, Mobility, and security with robust,
        real, sustainable economic Growth at Home and abroad


economic growth stimulates economic opportunity, mobil-               •	   free trade and investment
ity, and security for americans and others around the world.          •	   Prevented or mitigated financial and economic crises
Promoting the development of new markets in the u.s. ensures
                                                                      •	   Decreased gap in global standard of living
that all americans benefit from economic growth. the expan­
sion of underdeveloped economies abroad opens markets,
                                                                      Budget Trend
enhances regional stability, reduces the spread of disease, creates




                                                                                                                                                                                                                               part 2: annual performance report
                                                                                                                   $2,000,000
                                                                      Improved
opportunities for profitable trade, and demonstrates democracy        Economic




                                                                                          Dollars (in Thousands)
                                                                      Opportunity,                                 $1,500,000
in action. treasury promotes economic growth through direct           Mobility, and
and indirect regulation of financial markets; regulation of           Security with
                                                                                                                   $1,000,000
                                                                      Robust, Real,
national banks and thrifts; implementation of policies promot­        Sustainable




                                                                                                                                                                      $1,057,863


                                                                                                                                                                                   $1,383,230


                                                                                                                                                                                                $1,678,247


                                                                                                                                                                                                             $1,627,776
                                                                      Economic
ing international trade, investment, and economic security;                                                         $500,000




                                                                                                                                $825,793


                                                                                                                                           $874,059


                                                                                                                                                      $975,283
                                                                      Growth at
programs encouraging investment in economically distressed            Home and
                                                                      Abroad                                              $0
communities; and policy initiatives directed at expanding the                                                                   2004       2005       2006            2007         2008         2009         2010

capacity of financial institutions to provide affordable credit,                                                                                                   Fiscal Year

capital, and financial services to the american people.
                                                                      Performance                                  $1,500,000
the bureaus and offices responsible for achievement of this           Cost Trend
                                                                      Improved
objective are:                                                                                                     $1,200,000
                                                                                          Dollars (in Thousands)




                                                                      Economic
                                                                      Opportunity,
  •	   alcohol and tobacco tax and trade bureau (ttb)                 Mobility, and
                                                                                                                    $900,000

                                                                      Security with
  •	   community Development financial Institutions fund              Robust, Real,                                 $600,000
                                                                                                                                                      $1,016,696


                                                                                                                                                                      $1,077,080


                                                                                                                                                                                   $1,162,382


                                                                                                                                                                                                $1,423,847


                                                                                                                                                                                                             $1,403,829
       (cDfI fund)                                                    Sustainable
                                                                                                                                $829,468


                                                                                                                                           $927,076




                                                                      Economic                                      $300,000
  •	   the office of the comptroller of the currency (occ)            Growth at
                                                                      Home and                                            $0
                                                                                                                                2004       2005       2006            2007         2008         2009         2010
  •	   the office of Domestic finance                                 Abroad
                                                                                                                                                                   Fiscal Year
  •	   the office of economic Policy
  •	   the office of International affairs
                                                                      Performance Cost    1.2% Decreased gap in
                                                                      by Outcome         global standard of living
  •	   the office of thrift supervision (ots)
                                                                      Improved           1.5% Competitive                                                                          .08% Free trade and
  •	   the office of financial stability (ofs)                        Economic             capital markets                                                                         investment
                                                                      Opportunity,
                                                                      Mobility, and
Performance measures associated with this objective had 24            Security with         22.3% Strong
                                                                      Robust, Real,        U.S. economic
percent more aggressive targets compared to 2009.                     Sustainable        competitiveness                                                                                        74.2% Prevented
                                                                                                                                                                                                or mitigated
                                                                      Economic
the outcomes associated with this objective are:                      Growth at
                                                                                                                                                                                                financial and
                                                                                                                                                                                                economic crises
                                                                      Home and
  •	   strong u.s. economic competitiveness                           Abroad
  •	   competitive capital markets




strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                                                                                                         77
                                    the department of the treasury




                                                                                                        Discussion and analysis in Part one covers policy initiatives.
                                    a ssessing the effeCtiveness                        Of
                                                                                                        established programs are typically already defined by law or
                                    e COnOmiC pOliCy                                                    administrative function and have specific objectives and man­
                                                                                                        agement scope. for performance management, it is generally
                                    the Department’s economic policy efforts can be separated
                                                                                                        easier to assess the performance of established programs, given
                                    into two categories: policy initiatives and established programs.
                                                                                                        their clearer objectives and scope. Most of the Department’s
                                    Differences between them largely correspond to timing in
                                                                                                        performance measures consequently assess established programs
                                    the policy process. Policy initiatives are efforts to influence
                                                                                                        and not policy initiatives.
                                    economic growth and financial market activity through new leg­
                                    islative proposals or government-wide policy. the Management
part 2: annual performance report




                                    78                       strategic goal: u.s. and world economies perform at full economic potential
                                                                                  performance and accountability report | fiscal year 2010




strOng u.s. e COnOmiC COmpetitiveness
strong u.s. economic competitiveness is crucial for robust economic growth worldwide, continued investment in the united states,
and job creation. the treasury Department develops policies and programs intended to promote a prosperous financial infrastructure,
a balanced macroeconomy, market efficiency, technological readiness, and innovation. for fiscal year 2010, treasury generally met or
exceeded its performance targets for established programs promoting u.s. economic competitiveness.

Key Performance Measure Table
the following table contains key performance measures associated with this outcome. actual and target trends represent four years of
data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/management/
dcfo/accountability-reports.

                                                                                                                         Percent Percent                                 4-year    4-year
                                                                                         2009        2010      2010     of Target Change in Performance         2011     Target    Actual
Key Performance Measure                                                          Bureau Actual      Target    Actual    Achieved Actual        Rating          Target    Trend     Trend

Annual percentage increase in the total assets of Native CDFIs (%)                CDFI      23        15         26     173.3%     13.0%       Exceeded          19                




                                                                                                                                                                                             part 2: annual performance report
Commercial real-estate properties financed by BEA Program applicants              CDFI      500      285        283      99.3%     -43.4%          Unmet       DISC                
that provide access to essential community products and services in
underserved communities
Community Development Entities' annual investments in low-income                  CDFI     $3.60    $2.50       $3.10   124.0%     -13.9%      Exceeded        $2.50               
communities ($ billions)
Community Development Entities' cumulative investments in low-income CDFI                  $12.50 $10.00 $15.80         158.0%     26.4%       Exceeded       $10.00               
communities ($ billions)
Dollars of private and non-CDFI Fund investments that CDFIs are able to           CDFI     $1,298    $600     $1,989    331.5%     53.2%       Exceeded        $1080               
leverage because of their CDFI Fund Financial Assistance ($ millions)
Increase in community development activities over prior year for all BEA          CDFI     $292      $210       $290    138.1%     -0.7%       Exceeded        $210                
program applicants ($ millions)
Increase in the percentage of eligible areas served by a CDFI                     CDFI      25.1      21        27.5    131.0%     9.6%        Exceeded          20                
Number of full-time equivalent jobs created or maintained in underserved          CDFI     70,260 85,000 80,796          95.1%     15.0%           Unmet      85,000               
communities by businesses financed by CDFI program awardees
Number of small businesses located in underserved communities                     CDFI      640      252        1005    398.8%     57.0%       Exceeded         250                
financed by BEA Program applicants
Percent of CDFIs that increased their total assets (cumulative) (%)               CDFI      88        65         84     129.2%     -4.6%       Exceeded          60                
Percent of CDFIs that increased their total assets over the previous year (%)     CDFI      69        66         52      78.8%     -24.6%          Unmet       DISC                
Percentage of eligible areas served by one or more CDFI (%)                       CDFI      14.8       5        16.6    332.0%     12.2%       Exceeded        DISC                
Percentage of loans and investments that went into severely distressed            CDFI      81        66        73.4    111.2%     -9.4%       Exceeded          66                
communities (%)
Average number of days to process an original permit application at the           TTB       64        72         65     109.7%     1.6%        Exceeded          70                
National Revenue Center (%)
National Revenue Center (NRC) customer satisfaction survey                        TTB       89        85         89     104.7%     0.0%        Exceeded          85                
Percent of electronically filed Certificate of Label Approval applications (%)    TTB       74        78         79     101.3%     6.8%        Exceeded          81                
Percentage of importers identified by TTB as illegally operating without          TTB       15        19         15     121.1%     0.0%        Exceeded          15                
a Federal permit (%)


                                                                                  Legend                                  Symbol       Legend                                     Symbol
                                                                                   Favorable upward trend                              No change in trend, no effect               
                                                                                   Favorable downward trend                            No change in trend, favorable effect        
                                                                                   Unfavorable upward trend                            No change in trend, unfavorable effect      
                                                                                   Unfavorable downward trend                          Baseline                                    B



strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                                                                       79
                                    the department of the treasury




                                    Analysis of Performance Results                                       •	   the nMtc Program, which provides tax credit allocation
                                    Performance for established programs promoting strong u.s.                 authority to cDes for targeted investments in low-income
                                    economic competitiveness exceeded target levels for 56 percent             communities, awarded $5 billion in tax allocation author­
                                    of measures, met targets for 32 percent of measures, and did not           ity, including both the recovery act and regular tax credit
                                    meet target levels for 12 percent of measures. five performance            authority. cumulative investments in low-income com­
                                    measures were discontinued. cDfI fund met or exceeded 18 of                munities rose to $15.8 billion, exceeding the performance
                                    its 21 active performance measures, while ttb exceeded its four            target, an increase of $3.1 billion over the prior year.
                                    active performance measures. these results indicate that these             allocatees projected 77,000 jobs will be created which
                                    programs generally succeeded in achieving their performance                would exceed the target of 60,000 jobs.
                                    goals, although targets may need to be set more aggressively in       •	   naca provides financial assistance, technical assistance,
                                    some cases.                                                                and training to native american cDfIs and other native
                                                                                                               entities seeking to become or create native american
                                                                                                               cDfIs. naca awarded $10.3 million in financial and
                                    Community Development Financial
                                                                                                               technical assistance to 45 organizations. the naca
                                    Institutions Fund
                                                                                                               program disbursed 85 percent of both award fund rounds
                                    the cDfI fund promotes economic opportunity by expanding
                                                                                                               (recovery act and regular appropriations) 60 days from an­
part 2: annual performance report




                                    the capacity of community development financial institutions
                                                                                                               nouncement. the naca program registered a 26 percent
                                    to provide capital, credit, and financial services to underserved
                                                                                                               increase in the total assets of naca awardees, thereby
                                    populations and economically distressed communities in the
                                                                                                               exceeding its target.
                                    united states. the cDfI fund receives applications on an an­
                                                                                                          •	   the bea Program, which provides cash awards to banks
                                    nual basis and awards funds through a competitive process. the
                                                                                                               for increasing their investment in low-income communi­
                                    fund’s fiscal year 2010 activities can be broken up into six pro­
                                                                                                               ties and cDfIs, registered an increase in community
                                    gram areas: financial and technical assistance (cDfI Program),
                                                                                                               development activities. fiscal year 2010 bea Program
                                    new Markets tax credits Program (nMtc Program), native
                                                                                                               awardees increased their qualified community development
                                    Initiatives, bank enterprise award Program (bea Program),
                                                                                                               activities by $343.4 million over the prior fiscal year. this
                                    financial and education counseling Pilot Program (fec Pilot
                                                                                                               included a $276.2 million increase in loans and invest­
                                    Program), and the capital Magnet fund (cMf).
                                                                                                               ments in distressed communities, a $53.4 million increase
                                      •	   the cDfI Program in fiscal year 2010 awarded $104.8 mil­
                                                                                                               in loans, deposits, and technical assistance to cDfIs,
                                           lion in funding to 179 community development financial
                                                                                                               and a $13.8 million increase in the provision of financial
                                           institutions (cDfIs) and organizations to provide loans,
                                                                                                               services in distressed communities. In fiscal year 2010, the
                                           investments, financial services, and technical assistance to
                                                                                                               bea Program met its administrative cycle time target for
                                           underserved populations and low-income communities. In
                                                                                                               processing applications to the date of award announcement
                                           fiscal year 2010, the cDfI Program met its administrative
                                                                                                               in 21 weeks (which was less than the six month target).
                                           target for cycle time from application deadline to the date
                                                                                                               the bea Program met its administrative cycle time target
                                           of award announcement. the cDfI Program also met its
                                                                                                               for disbursing at least 85 percent of the award funds within
                                           administrative target of disbursing at least 85 percent of
                                                                                                               60 from the date of award announcement.
                                           award funds in 60 days from the date of announcement.
                                                                                                          •	   the fec Pilot Program provides grants to organizations to
                                           Due to increased program funding associated with the
                                                                                                               establish and expand financial education and counseling
                                           economic downturn, cDfIs were able to attract $1,989
                                                                                                               services for prospective homebuyers. a total of $2 million
                                           million in private investment, far more than the target of
                                                                                                               was awarded equally to five organizations.
                                           $600 million. cDfIs provided funds for projects that cre­
                                           ated or maintained 80,796 jobs, which in the aftermath of      •	   the cMf will provide $80 million in grants to cDfIs and
                                           the recession is lower than the target of 85,000 jobs. since        qualified nonprofit housing organizations in fiscal year 2011
                                           its inception in 1994, the cDfI fund has awarded over               following an application cycle which began in fiscal year
                                           $932 million through the cDfI Program.                              2010. cMf awards can be used to finance affordable hous­
                                                                                                               ing activities, related economic development activities,



                                    80                         strategic goal: u.s. and world economies perform at full economic potential
                                                         performance and accountability report | fiscal year 2010




    and community service facilities. applications identified       since the end of fiscal year 2003 when the system was intro­
    proposed housing projects in 49 states, the District of         duced. ongoing system enhancements and outreach efforts have
    columbia, and Puerto rico and requested more than $1            contributed to high adoption rates.
    billion in grants that would leverage an estimated $23.38
                                                                    In fiscal year 2010, ttb investigators closed more than 560 field
    billion in total investments. the cDfI fund met the
                                                                    investigations into permit applications, product integrity, and
    application-award cycle time of 6 months with an applica­
                                                                    consumer complaints, and continued work on 280 in-progress
    tion deadline of april 15 and an award announcement date
                                                                    investigations. to increase program effectiveness ttb revised
    of october 14, 2010.
                                                                    its operating plan, directing resources to more complex and
                                                                    long-term investigations. under the plan, ttb reduced its
Protecting the Public through Alcohol                               caseload to enable more in depth reviews of civil violations to
and Tobacco Regulation                                              determine if criminal conduct was involved. the flexibility built
ttb uses its label approval, formula approval, and product          in to the new operating plan allowed ttb to redirect resources
integrity enforcement functions to protect alcohol consumers        to address a scandal involving the fraudulent labeling of wine
from fraud and deception. ttb received and processed about          imported as Pinot noir from france. ttb’s work prevented
6,700 domestic and imported alcohol beverage formulas and           approximately 1.9 million bottles of mislabeled Pinot noir wine




                                                                                                                                        part 2: annual performance report
laboratory analyses to ensure that all ingredients met the food     from reaching u.s. consumers in the marketplace.
and Drug administration (fDa) food safety standards and
were properly classified for tax and labeling purposes. before      ttb’s International trade program helps keep the u.s. econo­
alcohol beverages can be introduced into interstate commerce,       my strong by facilitating import and export trade in alcohol and
a certificate of label approval (cola) or an exemption must         tobacco products, while administering the consumer protection
be obtained from ttb by the importer or bottler. ttb seeks to       standards provided under its jurisdiction. by maintaining and
protect consumers through its permitting process, ensuring that     enhancing collaboration with its counterpart regulators in
operators in the alcohol and tobacco industries are qualified. In   foreign countries, ttb ensures that products entering the u.s.
fiscal year 2010, ttb issued 5,770 original and 18,200 amended      market are safe and compliant. ttb made significant progress in
permits; the total number of regulated industry members is now      working with foreign counterparts and negotiating international
well over 52,000. ttb averaged 65 days to process original          agreements. Memoranda of understanding (Mous) in progress
permit applications. expeditiously processing permit applica­       will facilitate trade by increasing mutual understanding of each
tions allows qualified persons to commence operations sooner,       country’s alcohol and tobacco production requirements, labeling
and contributes to the overall growth and health of the u.s.        and licensing standards, and revenue protection measures.
and global economy. additionally, through its screening process,    these agreements also provide a formal process whereby each
ttb works to prevent illegal operations in the alcohol and          party can exchange information that has the potential to impact
tobacco industries. because alcohol and tobacco trade is a lawful   trade, regulatory compliance, and product safety.
trade, and subject to substantial tax, it provides a compelling
venue for organized crime and terrorist organizations to use the    Improving Access to Financial Services
commodities for unlawful profits.                                   and Promoting Financial Capability
                                                                    the office of financial education promotes policies and
In fiscal year 2010, ttb approved 102,500 (78 percent) of the
                                                                    programs that help empower americans with the knowledge
132,600 cola applications received; the remaining 30,100
                                                                    and skills they need to make wise financial choices. the office
applications were either rejected, returned for correction, with­
                                                                    also works to expand access to financial services for those
drawn, expired, or surrendered. applications received increased
                                                                    outside the financial mainstream, such as americans without
by more than six percent over fiscal year 2009, bringing total
                                                                    bank accounts. Individuals and families with strong financial
applications back to levels seen in 2008. as of august 23, 2010,
                                                                    capabilities and access to financial services are more likely to
79 percent of the applications received were filed electronically
                                                                    be financially stable and invest for future goals such as hom­
through ttb’s electronic label application system, colas
                                                                    eownership, education, and retirement. the office launched a
online, an increase of 5 percent over the prior year. usage rates
                                                                    pilot to help use tax refund season as an opportunity to provide
for the colas online have increased more than 75 percent


strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                 81
                                    the department of the treasury




                                    unbanked and underbanked americans with access to safe,              Moving Forward
                                    low-cost financial accounts.                                         economic recovery in low-income communities has historically
                                    recent financial education efforts include launching an              lagged recovery elsewhere in the country. like the communities
                                    enhanced nationwide “financial capability challenge” with            they serve, cDfIs were hit especially hard by the economic
                                    the Department of education to improve high school students’         downturn, and have found it more challenging to obtain sources
                                    financial capabilities; providing leadership and support to the      of capital. In response, the cDfI fund has been asked to imple­
                                    multi-agency financial literacy and education commission,            ment several new programs and expand existing core programs.
                                    which promotes federal interagency collaboration on financial        these initiatives will enable the cDfI fund to expand assistance
                                    education; overhauling the financial literacy and education          to underserved communities in new and highly focused ways.
                                    commission’s financial education website, www.MyMoney.gov,           In order to keep pace with this growth, the cDfI fund has
                                    to make it a more powerful tool for consumers; and developing a      several priority projects planned for fiscal year 2011. the cDfI
                                    national strategic plan to promote financial literacy.               fund is streamlining and enhancing its It systems and data
                                                                                                         management processes to ensure there is sufficient capability to
                                    Conclusion                                                           handle increased application workloads and the implementation
                                    the cDfI fund increased essential financial support to               of new programs. the cDfI fund will continue to evaluate the
part 2: annual performance report




                                    institutions serving low-income communities and underserved          high demand and impact of its programs and devise additional
                                    populations in the u.s. through its programs and initiatives,        strategies to help meet those demands. the cDfI fund will also
                                    the cDfI fund enabled locally-based organizations to further         evaluate innovative financial tools to promote access to capital
                                    economic development related to affordable housing, small            and stimulate local economic growth. finally, the launch of an
                                    businesses, community facilities, and community development          enhanced compliance, monitoring, and certification effort is
                                    financial services. to improve program management, the cDfI          underway to ensure that cDfIs are satisfying all requirements.
                                    fund has initiated development of new performance measures.
                                                                                                         In fiscal year 2011, ttb will continue to inform industry
                                    ttb’s Protect the Public program exceeded all of its per­            members of the benefits of e-filing and will continue to provide
                                    formance targets in fiscal year 2010. ttb’s efforts to boost         system demonstrations and publish online guidance to the user
                                    electronic filing of alcohol beverage label applications resulted    community. the introduction of formulas online (fonl),
                                    in performance results that exceeded the fiscal year target and      the new e-filing system that enables the online submission of
                                    improved upon 2009 performance results by seven percent. the         alcohol beverage formulas, will also support increased user rates
                                    bureau’s rate of customer satisfaction with the permit and claims    for colas online. the integration of fonl with the existing
                                    processing services at the nrc did not change from the prior         colas online system will streamline the process of obtaining
                                    year but efforts to improve turnaround times still helped ttb        both formula and label approval for those in the alcohol bever­
                                    achieve a level of customer satisfaction five percent greater than   age trade. ttb adjusted its targets for fiscal year 2011 in response
                                    its target. ttb’s push for processing efficiency resulted in an      to the noncompliance rates reported in the last two years.
                                    average cycle time of 65 days to process an original permit ap­
                                                                                                         even during the economic contraction, applications to open
                                    plication, better than its target of 72 days. however, this is one
                                                                                                         new businesses in the alcohol and tobacco industries continued
                                    day longer than the 2009 average cycle time. ttb’s ongoing
                                                                                                         to rise. original permit applications have grown 19 percent over
                                    mission to protect the public through improved enforcement
                                                                                                         the last five years, and four percent in the last fiscal year. to ad­
                                    is further evidenced by ttb’s identification of only 15 percent
                                                                                                         dress growing workloads, ttb purchased a commercial product
                                    of importers operating without a permit, unchanged from
                                                                                                         to enable the electronic submission and processing of original
                                    2009. this measure gauges the threat to consumers and federal
                                                                                                         and amended permit applications. In fiscal year 2011, ttb will
                                    revenue collection by illicit import activity. ttb is reviewing
                                                                                                         begin its phased release of the new Permits online (Ponl)
                                    alternative methods to assess importer compliance.
                                                                                                         system. the first phase will enable electronic filing for the three
                                                                                                         highest volume permit areas. ttb anticipates increased cus­




                                    82                       strategic goal: u.s. and world economies perform at full economic potential
                                                         performance and accountability report | fiscal year 2010




tomer satisfaction as applicants experience faster response times
and the ease of using the electronic filing system. additionally,
                                                                    COmpetitive Capital m arkets
to streamline the permit application process, ttb created a task    Prosperous capital markets play an important role in facilitating
force to analyze and improve ttb bond forms, instructions, and      economic growth by inspiring investor confidence and ensuring
internal business processes to improve service to industry.         fair asset pricing. treasury strives to preserve the integrity of the
                                                                    u.s. market, which is essential to maintaining effectiveness.
ttb will continue to monitor imports of tobacco products by
non-permitted entities, placing special emphasis on enforcing       robust supervision and regulation of financial firms, more
the Prevent All Cigarette Trafficking Act (Pact), legislation       comprehensive supervision of financial markets, provisions
enacted in april 2010 to prevent tobacco smuggling and ensure       to protect consumers and investors from financial abuse, and
the proper payment of all tobacco taxes. the methods most           establishment of viable government tools to manage financial
commonly used to import tobacco products without a permit           crises are fundamental to a thriving and competitive financial
and without payment of the appropriate taxes are internet and       system.
mail-order purchases. the Pact act prohibits shipments of
tobacco products via the u.s. Postal service (usPs). In fiscal      for a description of treasury’s initiatives associated with
year 2011, ttb will coordinate with the usPs and other com­         the maintenance of capital market stability, please refer to




                                                                                                                                            part 2: annual performance report
mon carriers to provide enforcement assistance. furthermore,        Management’s Discussion and analysis and the “Prevented and
under chIPra, all importers of processed tobacco are required       Mitigated financial and economic crises” section.
to obtain an importers permit from ttb. In the year ahead,
ttb will assess the number of legitimate importers of processed
tobacco and ensure they apply for and obtain a permit or cease
importations.




strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                     83
                                    the department of the treasury




                                    free traDe anD i nvestment
                                    open foreign and domestic markets for goods and services are vital for a robust, growing, and sustainable u.s. economy. treasury
                                    continues to work with other agencies to fight protectionism and maintain open markets for american products and services. for
                                    fiscal year 2010, treasury exceeded its performance targets for programs seeking to promote free trade and investment.

                                    Key Performance Measure Table
                                    the following table contains key performance measures associated with this outcome. actual and target trends represent four years of
                                    data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/management/
                                    dcfo/accountability-reports.

                                                                                                                                            Percent Percent                                   4-year   4-year
                                                                                                            2009     2010          2010    of Target Change in Performance           2011     Target   Actual
                                    Key Performance Measure                                       Bureau   Actual   Target        Actual   Achieved Actual        Rating            Target    Trend    Trend

                                     Number of New Trade and Investment Negotiations               DO       15        6             13      216.7%       -13.3%        Exceeded       6                
                                     Underway or Completed
                                     Number of specific new trade actions involving Treasury       DO       98       40             83      207.5%       -15.3%        Exceeded      50                
part 2: annual performance report




                                     interagency participation in order to enact, implement and
                                     enforce U.S. trade law and international agreements



                                    Analysis of Performance Results                                                                        Legend                                    Symbol

                                    Performance for programs aimed at promoting free trade and                                             Favorable upward trend                         
                                                                                                                                           Favorable downward trend                       
                                    investment greatly exceeded target levels for both measures.
                                                                                                                                           Unfavorable upward trend                       
                                    While actual results decreased from their 2009 levels, perfor­
                                                                                                                                           Unfavorable downward trend                     
                                    mance stayed well above operational targets for the year. this                                         No change in trend, no effect                  
                                    performance reflects the aggressive role treasury is taking to                                         No change in trend, favorable effect           
                                    strengthen international trade partnerships.                                                           No change in trend, unfavorable effect         
                                                                                                                                           Baseline                                       B

                                    Maintaining Attractiveness of Investment
                                    and Trade Environment                                                                         treasury drastically reduced the number of subsidies that
                                    Maintaining the attractiveness of Investment and trade envi­                                  organization for economic co-operation and Development
                                    ronment in a global economy requires coordination with and                                    (oecD) member governments can provide when financing
                                    the cooperation of international partners. In this area, treasury                             national exports. the oecD agreements open markets
                                    worked with partners to improve joint stewardship of the global                               and level the playing field for u.s. exporters and save u.s.
                                    economy and has continued to play a leading role in advocating                                taxpayers about $800 million annually.
                                    for a stronger and safer global financial system while fighting                          •	   treasury has actively engaged in interagency delibera­
                                    against protectionism.                                                                        tions and decisions impacting more than 80 specific trade
                                      •	   treasury helped advance strategic & economic Dialogue                                  actions, including trade legislation (generalized system of
                                           (s&eD) trade issues with china, in particular indigenous                               Preferences and andean trade Preferences act extensions
                                           innovation, government procurement, and investment                                     and enactment of the haiti economic lift Program act),
                                           liberalization, to ensure that u.s. invested companies and                             trade disputes, review of country eligibility for prefer­
                                           exports are treated fairly.                                                            ence programs, and review of specific trade petitions and
                                                                                                                                  recommendations.
                                      •	   treasury supports trade liberalization and budget discipline
                                           through its role in negotiating, implementing, and policing                       •	   u.s initiatives to negotiate trade and investment agree­
                                           international agreements to reduce official export subsidies.                          ments, particularly with regard to financial services and




                                    84                             strategic goal: u.s. and world economies perform at full economic potential
                                                            performance and accountability report | fiscal year 2010




      financial transfers, were advanced by treasury. treasury         Conclusion
      participated in the launching, negotiation and, implemen­        Improving trade and investment linkages with international
      tation of 13 trade and investment agreements. the center­        partners is essential to sustaining the u.s. economy in a global
      piece of the fiscal year 2010 trade agenda was the com­          market. to that end, treasury exceeded its targets with regard
      mencement of negotiations of the trans-Pacific Partnership       to trade and investment negotiations, as well as trade actions.
      (tPP) agreement, which includes australia, new Zealand,          however, measures should be reassessed since results are heavily
      singapore, chile, Peru, brunei, Malaysia, and possibly           dependent on actions not necessarily within treasury’s control.
      Vietnam. successful conclusion of the tPP agreement,
      which could serve as a platform for economic integration
      across the asia-Pacific region, can help america ensure
                                                                       Moving Forward
      its share of the job-creating economic opportunities this        the Department will continue to play a critical role in advocat­
      region has to offer.                                             ing for free trade and preventing the effects of the global reces­
                                                                       sion from leading to increased protectionism. In fiscal year 2011,
 •	   efforts were made to further advance an ambitious and
                                                                       treasury is committed to moving forward with the pending free
      balanced Doha round that would provide substantial new
                                                                       trade agreements with korea, columbia, and Panama as soon
      market access, and to address outstanding concerns with
                                                                       as possible. however, progress towards the Department’s goals




                                                                                                                                            part 2: annual performance report
      pending free trade agreements with korea, colombia, and
                                                                       could be slowed if weaker economic conditions persist.
      Panama. Intensified engagement is expected to continue
      during the next fiscal year. In addition, several negotiations
      of bilateral Investment treaties are expected to continue.




strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                    85
                                    the department of the treasury




                                    p reventeD                  Or      m itigateD finanCial anD e COnOmiC C rises
                                    treasury has been at the forefront of the u.s. government’s response to the financial crisis and economic recession. through imple­
                                    mentation of the Dodd–Frank Wall Street Reform and Consumer Protection Act (Dodd-frank act), Housing and Economic Recovery Act
                                    of 2008 (hera), Emergency Economic Stabilization Act of 2008 (eesa), American Recovery and Reinvestment Act of 2009 (recovery
                                    act), coordination with federal, state and international partners, treasury’s housing Programs, regulation of national banks and
                                    thrifts, and various other initiatives, treasury made concerted efforts in fiscal year 2010 to restore economic growth and create jobs.
                                    a description of some of these initiatives can be found in the Management Discussion and analysis in Part I. summary descriptions
                                    of these programs and their performance follows.

                                    Key Performance Measure Table
                                    the following table contains only key performance measures associated with this outcome. actual and target trends represent four
                                    years of data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/
                                    management/dcfo/accountability-reports.

                                                                                                                                                       Percent Percent                                      4-year     4-year
part 2: annual performance report




                                                                                                                     2009            2010     2010    of Target Change in Performance          2011         Target     Actual
                                    Key Performance Measure                                                  Bureau Actual          Target   Actual   Achieved Actual        Rating           Target        Trend      Trend

                                     Average days to close a FOIA case                                         DO         67         64       95       51.6%     41.8%         Unmet               80                     

                                     Changes that result from project engagement (Impact)                      DO        3.1         3.1       3       96.8%     -3.2%         Unmet               3.1                    
                                     Clean audit opinion on TARP financial statements                          DO         1           1        1      100.0%     0.0%           Met                1                      
                                     Percentage of Congressional correspondence responses drafted              DO         87         90       97      107.8%     11.5%        Exceeded             93                     
                                     within 48 hours (%)
                                     Percentage of Customers Satisfied with FinancialStability.gov (%)         DO         65         70       63       90.0%     -3.1%         Unmet               65                     
                                     Percentage of SIGTARP and GAO oversight recommendations                   DO        100         100      93       93.0%     -7.0%         Unmet               100                    
                                     responded to on time
                                     Scope and intensity of engagement (Traction)                              DO        3.7         3.6      3.5      97.2%     -5.4%         Unmet               3.6                    
                                     Percent of national banks with composite CAMELS rating of 1 or            OCC        82         90       70       77.8%     -14.6%        Unmet               90                     
                                     2 (%)
                                     Percentage of national banks that are categorized as well                 OCC        86         95       90       94.7%     4.7%          Unmet               95                     
                                     capitalized (%)
                                     Rehabilitated national banks as a percentage of problem national          OCC        29         40       23       57.5%     -20.7%        Unmet               40                     
                                     banks one year ago (CAMELS 3, 4 or 5) (%)
                                     Total OCC costs relative to every $100,000 in bank assets                 OCC      $8.81       $9.22    $9.28*    99.4%     5.3%          Unmet           $9.22                      
                                     regulated ($)
                                     Percent of safety and soundness exams started as scheduled (%)            OTS        94         90       97      107.8%     3.2%         Exceeded             90                     
                                     Percent of thrifts that are well capitalized (%)                          OTS        97         95       95      100.0%     -2.1%          Met                95                     
                                     Percent of thrifts with composite CAMELS ratings of 1 or 2 (%)            OTS        84         80       77       96.3%     -8.3%         Unmet               80                     
                                     Total OTS costs relative to every $100,000 in savings association         OTS     $19.88 $22.00 $24.01            90.9%     20.8%         Unmet          $24.00                      
                                     assets regulated ($)
                                      *Estimated


                                                                                                      Legend                                          Symbol      Legend                                             Symbol
                                                                                                         Favorable upward trend                                   No change in trend, no effect                       
                                                                                                         Favorable downward trend                                 No change in trend, favorable effect                
                                                                                                         Unfavorable upward trend                                 No change in trend, unfavorable effect              
                                                                                                         Unfavorable downward trend                               Baseline                                            B




                                    86                               strategic goal: u.s. and world economies perform at full economic potential
                                                            performance and accountability report | fiscal year 2010




Analysis of Performance Results                                               c. Increase liquidity and volume in securitization
Performance results for this outcome generally reflect the                       markets
challenges associated with the slow economic recovery and still­       2.	 Prevent avoidable foreclosures and help preserve 

weakened financial system. the performance measures for these              homeownership

programs are to a significant degree outcome-oriented, and their       3.	 Protect taxpayer interests
results will improve as the economy grows and the impact of            4.	 Promote transparency
the Department’s programs mature. target trends were generally
level with 2009 results. of the 11 measures that did not meet        1. Ensure the Overall Stability and Liquidity of the
their targets, eight measures achieved 90 percent or higher of          Financial System
the target level.
                                                                     to ensure the overall stability and liquidity of the financial
six new measures were baselined in fiscal year 2009 for ofs.         system, treasury developed several programs under tarP that
the measures assess management of program operations and are         were broadly available to financial institutions. under the
intended to complement performance indicators used by the            capital Purchase Program (cPP), treasury provided capital
Department to track financial market conditions. In fiscal year      infusions directly to banks and insurance companies deemed




                                                                                                                                          part 2: annual performance report
2010, ofs exceeded targets for 17 percent of these measures,         viable by their regulators but in need of a stronger asset base to
met targets for 50 percent, and did not meet targets for 33          weather the crisis. the capital assistance Program (caP) was
percent of measures. the widest gap between target and actual        developed to supplement the supervisory capital assessment
was for average days to process a foIa request, which was 95         Program (scaP), or “stress test” of the largest u.s. financial
days rather than the target of 64. the result is associated with     institutions. If these institutions were unable to raise adequate
managing the most difficult legacy foIa requests as the majority     private funds to meet the scaP requirements, treasury stood
of foIa cases on backlog were completed during the fiscal year.      ready to provide additional capital.

occ exceeded targets for 33 percent of its six measures and did      In addition, treasury provided direct aid to certain financial
not meet targets for 66 percent. ots exceeded targets for 40         industry participants through the targeted Investment Program
percent of its five measures, met targets for 20 percent, and did    (tIP), the asset guarantee Program (agP), and the aIg
not meet targets for 40 percent.                                     Investment Program. these programs were designed to mitigate
                                                                     the potential risks to the system as a whole from the difficulties
                                                                     facing these firms.
OFS Strategic and Operational Goals
the purpose of eesa was to provide the secretary of the              similarly, the automotive Industry financing Program (aIfP)
treasury with the authorities and facilities necessary to restore    provided funding for general Motors corporation (gM) and
liquidity and stability to the u.s. financial system. In addition,   chrysler llc (chrysler), as well as their financing affiliates,
the secretary was directed to ensure that such authorities were      in order to prevent a significant disruption of the automotive
used in a manner that protects home values, college funds,           industry that would have posed a systemic risk to financial mar­
retirement accounts, and life savings; preserves homeownership;      kets and negatively affected economic growth and employment.
promotes jobs and economic growth; maximizes overall returns         treasury’s actions helped gM and chrysler undertake massive
to taxpayers; and provides public accountability. eesa also          and orderly restructurings through the bankruptcy courts that
provided specific authority to take certain actions to prevent       have resulted in leaner and stronger companies.
avoidable foreclosures.
                                                                     the Public-Private Investment Program (PPIP) was established
In light of this statutory direction, treasury established the       to facilitate price discovery and liquidity in the markets for
following as its operational goals:                                  troubled real estate-related assets as well as the removal of such
  1.	 ensure the overall stability and liquidity of the financial    assets from the balance sheets of financial institutions. In addi­
      system                                                         tion to these initiatives, treasury implemented the consumer
                                                                     and business lending Initiative (cblI) to enhance liquidity
         a. Make capital available to viable institutions
                                                                     and restore the flow of credit to consumers and small businesses.
         b. Provide targeted assistance as needed

strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                    87
                                    the department of the treasury




                                    treasury developed programs to revitalize asset-backed securities    is also designed to protect taxpayers and to compensate them for
                                    markets critical to restoring the flow of credit to consumers and    risk. for example, in exchange for capital injections, recipi­
                                    small businesses. cblI is composed of the term asset-backed          ents of tarP funds have to adhere to corporate governance
                                    securities loan facility, the sba 7a securities Purchase             standards, limit executive pay, and provide additional reporting
                                    Program, and the community Development capital Initiative.           on lending activity. In addition, treasury generally received
                                                                                                         preferred equity, which provides dividends. the dividend rates
                                    2. Prevent Avoidable Foreclosures and Help Preserve                  increase over time to encourage repayment.
                                       Homeownership
                                                                                                         further, eesa stipulated that the taxpayer benefit as the
                                    to prevent avoidable foreclosures and preserve homeowner­
                                                                                                         institutions which received tarP funds recovered. In connec­
                                    ship, treasury launched the Making home affordable Program
                                                                                                         tion with most investments, treasury also receives warrants
                                    (Mha), which includes the home affordable Modification
                                                                                                         for additional securities in the institutions. under the broad
                                    Program (haMP). after 18 months, more than 1.3 million
                                                                                                         programs described above, the treasury has priority over existing
                                    homeowners participating in haMP have entered into trial
                                                                                                         shareholders of tarP recipients for which tarP holds equity
                                    modifications that reduced their mortgage payments to more
                                                                                                         investments. this gives taxpayers the ability to share in the
                                    affordable levels. this includes 619,000 homeowners with
                                                                                                         potential upside along with existing shareholders.
                                    non-gse loans. nearly 500,000 homeowners participating in
part 2: annual performance report




                                    the haMP Program have had their mortgage terms modified              finally, treasury seeks to achieve the goal of protecting the
                                    permanently, with over 220,000 of those participants in non­         taxpayer through the effective management and disposition of
                                    gse loans that would be funded by the Department. haMP               all tarP investments.
                                    participants (both gse and non-gse loans) collectively have
                                    experienced a 36 percent median reduction in their mortgage          4. Promote Transparency
                                    payments—more than $500 per month—amounting to a total,              eesa requires transparency and accountability. specifically,
                                    program-wide anticipated savings for homeowners of more than         eesa requires treasury to provide congress with a variety
                                    $3.2 billion. Mha has also spurred the mortgage industry to          of reports. these include a monthly report to congress on
                                    adopt similar programs that have helped millions more at no          tarP activity, and transaction reports posted within two days
                                    cost to the taxpayer.                                                detailing every tarP transaction. In carrying out its operations,
                                                                                                         treasury has sought to not only meet the statutory requirements
                                    In addition, treasury launched the housing finance agency
                                                                                                         but also to be creative and flexible with respect to additional
                                    (hfa) Innovation fund for the hardest hit housing Markets
                                                                                                         transparency initiatives. treasury proactively provides to the
                                    (hfa hardest hit fund, or hhf) to help state housing
                                                                                                         public monthly “Dividends and Interest reports” reflecting
                                    finance agencies provide additional relief to homeowners in the
                                                                                                         dividends and interest paid to treasury from tarP investments,
                                    states hit hardest by unemployment and house price declines,
                                                                                                         loans, and asset guarantees, as well as monthly reports detailing
                                    and treasury and the Department of housing and urban
                                                                                                         the lending activity of participants in the cPP.
                                    Development (huD) enhanced the fha refinance Program
                                    by creating the fha short refinance option to enable more            eesa also provided for extensive oversight of the tarP,
                                    homeowners whose mortgages exceed the value of their homes           including by the congressional oversight Panel, the special
                                    to refinance into more affordable mortgages if their lenders agree   Inspector general for the tarP, the financial stability
                                    to reduce principal by at least ten percent.                         oversight board (fsob), and the gao. In addition, treasury
                                                                                                         officials frequently testify before congress on the progress
                                    3. Protect Taxpayer Interests                                        of tarP programs, and treasury staff provide briefings to
                                    federal government financial programs, including tarP, helped        congressional staff on programmatic developments.
                                    prevent the u.s. financial system from collapse, which could
                                    have resulted in a much more severe contraction in employment
                                    and production. the manner in which tarP was implemented




                                    88                       strategic goal: u.s. and world economies perform at full economic potential
                                                                                           performance and accountability report | fiscal year 2010




Troubled Asset Relief Program and the Office of Financial Stability
Table 1: TARP Summary1
From TARP Inception through September 30, 2010
Dollars in billions
                                                                         Purchase Price or              Total $                  Investment                 Outstanding               Received from
                                                                        Guarantee Amounts              Disbursed                 Repayments                  Balance2                  Investments
 Capital Purchase Program3                                                      204.9                     204.9                      152.54                      49.8                       19.8
 Targeted Investment Program                                                    40.0                       40.0                       40.0                        0.0                        4.2
 Asset Guarantee Program                                                            5.0                     0.0                        0.0                        0.0                        0.7
 American International Group Investment Program           5
                                                                                69.8                       47.6                        0.0                       47.6                        0.0
 Consumer and Business Lending Initiative                                           5.3                    0.9   4
                                                                                                                                       —                          0.9                        —
 Public Private Investment Program                                              22.4                       14.1                        0.4                       13.7                        0.2
 Automotive Industry Financing Program                                          81.8                       79.7                       11.2                       67.2                        2.9
 Treasury Housing Programs Under TARP                                           45.6                        0.5                       N/A                        N/A                        N/A
 Totals                                                                         474.8                     387.7                      204.1                      179.2                       27.8




                                                                                                                                                                                                             part 2: annual performance report
 1 / This table shows the TARP activity for the period from inception through September 30, 2010, on a cash basis. Received from investments includes dividends and interest income reported in the
     Statement of Net Cost, and Proceeds from sale and repurchases of assets in excess of costs.
 2 / Total disbursements less repayments do not equal the outstanding balance. Other transactions affecting the outstanding balance include Treasury housing program funding of $0.5 billion as
     repayments are not required (or expected). Also, the outstanding balance is affected by certain non-cash items including capitalized interest of $0.3 billion, write-offs totaling $3.9 billion, and
     losses on two preferred stock transactions of $0.2 billion.
 3 / Treasury received $16.1 billion in proceeds from sales of Citigroup common stock, of which $13.1 billion is included at cost in investment repayments, and $3.0 billion of net proceeds in excess of
     cost is included in Received from Investments.
 4 / Includes Community Development Capital Initiative exchange from CPP of $363 million.
 5 / The disbursed amount is lower than purchase price because of the $29.8 billion facility available to AIG. During the periods ended September 30, 2010 and September 30, 2009, AIG drew $4.3
     billion and $3.2 billion respectively from the facility, leaving an undrawn amount of $22.3 billion under this facility.


 Total Dollars              $79.7 Automotive                                                                TARP                     $0.6 Public Private
                          Industry Financing                            $0.5 Treasury Housing
                                                                                                                                   Investment Program                                $14.1 Automotive
 Disbursed by                       Program                             Programs Under TARP                 Investment
                                                                                                                                                                                     Industry Financing
 TARP                                                                                                       Repayments                     $0.7 Asset                                Program
 (in Billions)            $14.1 Public Private                                                              and Other              Guarantee Program
                         Investment Program                                                                 Amounts
                                                                                                            Received from
                              $0.9 Consumer                                                                 Investments                  $44.2 Targeted                                      $172.3
                                and Business
                                                                                                                                            Investment                                       Capital
                            Lending Initiative                                            $204.9            (in Billions)
                                                                                                                                               Program                                       Purchase
                              $47.6 American                                              Capital                                                                                            Program
                          International Group                                             Purchase
                         Investment Program                                               Program

                                     $0.0 Asset                $40.0 Targeted
                             Guarantee Program                 Investment Program




additional information on the tarP program is available in                                               financial markets, credit risk management, and national banks’
the Two-Year Retrospective Report on the Troubled Asset Relief                                           and thrifts’ loan portfolios. the Dodd-frank act calls for many
Program and ofs Fiscal Year 2010 Agency Financial Report,                                                of the duties of ots to be transferred to occ in July 2011, and
which can be found at www.FinancialStability.gov.                                                        for ots to be abolished.

                                                                                                         as the regulator of national banks, the occ has established
Regulation of Banks and Thrifts                                                                          four strategic goals that help support a strong economy for the
occ and ots are the primary regulators of national banks and                                             american public: 1) a safe and sound national banking system;
thrifts, respectively. occ and ots work to streamline their                                              2) fair access to financial services and fair treatment of bank cus­
licensing and supervisory procedures and to keep regulations                                             tomers; 3) a flexible legal and regulatory framework that enables
current, clearly written, and supportive of an effective process                                         the national banking system to provide a full competitive array
that promotes competitive financial services, consistent with                                            of financial services; and 4) an expert, highly motivated, and
safety and soundness. fiscal year 2010 activity focused on moni­                                         diverse workforce that makes effective use of occ resources.
toring and responding to adverse conditions in the credit and                                            to achieve the goals and objectives outlined in its strategic

strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                                                                                       89
                                    the department of the treasury




                                    plan, the occ organizes its activities under three programs:            ots gauges efficiency through the measures “Percent of safety
                                    supervise, regulate, and charter.                                       and soundness exams started as scheduled” and “total ots
                                                                                                            costs relative to every $100,000 in savings association assets
                                    as the supervisor of national banks, the occ has various ways
                                                                                                            regulated.” In fiscal year 2010, targeted costs for regulating
                                    to influence the national banking system: policy guidance and
                                                                                                            $100,000 in assets were $22.00, while actual costs were higher at
                                    regulations that set forth standards for sound banking practices;
                                                                                                            $24.01. these costs are 21 percent higher than fiscal year 2009,
                                    on-site examinations and ongoing off-site monitoring that
                                                                                                            largely due to the failure or merger of a number of larger thrifts.
                                    enable occ to assess compliance with those standards and to
                                                                                                            ninety-seven percent of safety and soundness exams were
                                    identify emerging risks or trends; and a variety of supervisory
                                                                                                            started as scheduled in fiscal year 2010. this is an improvement
                                    and enforcement tools—ranging from matters requiring boards’
                                                                                                            over 94 percent in 2009 and surpasses the target of 90 percent.
                                    and managements’ attention to informal and formal enforce­
                                    ment actions—that are used to obtain corrective action to               Promoting Credit Availability to Creditworthy
                                    remedy weaknesses, deficiencies, or violations.                         Borrowers
                                    as of June 30, 2010, occ supervised 1,497 institutions with             throughout the economic turmoil, the occ has encouraged
                                    national bank charters and 51 federal branches, with assets             national banks to work constructively with borrowers who may
                                    totaling approximately $8.5 trillion. ninety-one percent of             be facing financial difficulty and to extend credit in a respon­
part 2: annual performance report




                                    national banks were classified as well capitalized. ots super­          sible and prudent manner. ensuring that credit is extended in a
                                    vised 753 private sector thrifts with assets of $931.2 billion.         responsible manner is especially important to the restoration of
                                    In addition, ots supervised 441 holding company enterprises             a healthy financial sector and strong economy.
                                    with approximately $4.1 trillion in u.s. domiciled consolidated           •	   Small Business Lending: to help promote increased small
                                    assets. these enterprises owned 402 thrifts with total assets                  business lending, the occ and other federal banking
                                    of $714 billion, or 77 percent of total thrift industry assets. a              agencies partnered with the small business administration
                                    majority of thrifts, 95 percent, were classified as well-capitalized.          (sba) and held seminars for bankers on small business
                                                                                                                   lending issues and the sba’s loan programs. In february
                                    occ’s supervision ensures that the national banking system                     2010, the occ and other banking agencies issued an inter­
                                    operates in a safe and sound manner while complying with con­                  agency statement on meeting the credit needs of creditwor­
                                    sumer protection laws and regulations. as of september 30, 2010,               thy small business borrowers. the statement reiterates the
                                    70 percent of national banks earned composite ratings of either                agencies’ policy that financial institutions that engage in
                                    1 or 2 under the standard method of evaluating a bank’s opera­                 prudent small business lending after performing a compre­
                                    tions, to include capital adequacy, asset quality, Management,                 hensive review of a borrower’s financial condition will not
                                    earnings, liquidity, and sensitivity to market risk (caMels).                  be subject to criticism for loans made on that basis.
                                    the occ’s early identification and intervention with problem
                                    banks can lead to successful remediation of these banks.                       to improve the agencies’ ability to monitor the credit
                                                                                                                   available to households and businesses, the occ and
                                    the measure “total occ costs relative to every $100,000 in                     other federal banking agencies made several changes to
                                    bank assets regulated” gauges the efficiency of occ opera­                     the information that banks and thrifts must report in their
                                    tions in meeting the supervisory demands of a growing, more                    consolidated reports of condition and Income (call
                                    complex national banking system. the measure supports the                      reports) and thrift financial reports (tfr). effective with
                                    occ’s strategic goal of efficient use of agency resources. occ’s               their March 2010 filings, institutions have begun reporting
                                    fiscal year 2010 cost relative to every $100,000 regulated was                 small business loan data on a quarterly rather than annual
                                    $9.28, while the target was $9.22. In fiscal year 2010, the occ                basis. Institutions with $300 million or more in total assets
                                    conducted a survey of national banks to assess the effective­                  or unused credit card commitments will also provide sepa­
                                    ness of its supervisory policies. over 75 percent of those who                 rately the amount of unused credit card lines for consumers
                                    responded reported receiving the right amount of information                   and for other credit card borrowers. additional breakdowns
                                    for all subject areas. bankers were also generally pleased with                of other unused loan commitments will also be gathered.
                                    the overall quality of bulletins and handbooks.




                                    90                        strategic goal: u.s. and world economies perform at full economic potential
                                                             performance and accountability report | fiscal year 2010




       this information will allow the agencies to better monitor       and other federal financial Institutions examination council
       credit flows throughout a business cycle.                        (ffIec) member agencies issued a revised ffIec bsa/aMl
  •	   residential Mortgage Modifications and commercial real           examination manual in april 2010 to incorporate regulatory
       estate (cre) loan Work-outs: the occ has also worked             changes and new supervisory guidance. In March 2010, the
       closely with treasury on its various mortgage modification       occ and the ots, along with the other federal banking
       programs and efforts to help homeowners facing financial         agencies, fincen, sec, and commodity futures trading
       difficulty. the occ has provided technical assistance on         commission (cftc) issued interagency guidance on obtaining
       program design and implementation and has encouraged na­         and retaining beneficial ownership information. the guidance
       tional banks to participate in those programs. In early 2009,    clarifies and consolidates existing regulatory expectations for
       congress adopted the Helping Families Save Their Homes Act       financial institutions obtaining beneficial ownership informa­
       of 2009. section 104 of this act requires the occ and ots        tion for certain accounts and customer relationships.
       to submit the Mortgage Metrics report to congress on a
       quarterly basis and specifically requires the number of mort­    Fair Access to Financial Services and Fair
       gage modifications made that resulted in lower payments and
                                                                        Treatment of Bank Customers
       the number of modified mortgage that re-defaulted.               the occ fulfills its strategic goal of fair access to financial




                                                                                                                                               part 2: annual performance report
                                                                        services and fair treatment of bank customers through its ongo­
       In response to the growing number of residential mortgage        ing supervisory programs for national banks and their operating
       modifications and cre work-outs, in fiscal year 2010 the         subsidiaries. these programs include ongoing supervisory
       occ provided additional supervisory guidance on account­         examinations to ensure compliance with fair lending laws, the
       ing and classification issues associated with such activities.   Community Reinvestment Act (cra), section 5 of the Federal
       the occ supervisory guidance to examiners on residential         Trade Commission Act (prohibiting unfair or deceptive acts
       mortgage modifications stressed that the occ expects             and practices), and other consumer laws and regulations. In
       mortgage modifications to be undertaken in a manner              addition to supervisory activities, the occ issues guidance and
       that improves the likelihood that borrowers can repay the        handbooks, and offers training to bankers and bank directors
       restructured credit under modified terms and in accor­           to help them understand and meet their compliance and cra
       dance with a reasonable repayment schedule. In october           obligations.
       2009, the occ and other banking agencies issued a joint
       policy statement on prudent cre workout programs. the            Fair Lending
       statement is intended to promote supervisory consistency,        the occ’s and ots’s fair lending supervisory process is de­
       enhance the transparency of cre workout transactions,            signed to assess and monitor the level of fair lending risk in every
       and ensure that supervisory policies and actions do not in­      national bank and thrift. the occ and the ots assess compli­
       advertently curtail the availability of credit to creditworthy   ance with fair lending laws and regulations; obtain corrective
       borrowers. the statement includes a variety of examples to       action when significant weaknesses or deficiencies are found in a
       illustrate how examiners will apply the principles outlined      bank’s policies, procedures, and controls relating to fair lending;
       in the guidance. the agencies hosted a seminar for the           and ensure enforcement action is taken when warranted.
       banking industry on the guidance in December 2009.
                                                                        the occ and the ots responded to the mortgage crisis by
Bank Secrecy Act/Anti-Money Laundering                                  encouraging national banks and thrifts to work with consumers,
(BSA/AML)                                                               supporting private and public sector initiatives and programs
through on-site examination activities, the occ and ots                 that seek to assist these borrowers, and collecting and analyzing
examiners evaluate banks’ and thrifts’ compliance with bsa/             extensive mortgage lending and workout data from the largest
aMl requirements and, where weaknesses are noted, seek                  national banks and thrifts. In January 2010, the occ updated
corrective action. the occ has also developed a Money                   its fair lending examination handbook to more effectively ad­
laundering risk system that provides community banks with               dress disparate treatment in loan pricing, broker activity redlin­
succinct bsa/aMl risk assessment information to enhance the             ing, and steering borrowers to higher cost loans. these updates
effectiveness of bsa/aMl supervision. the occ, the ots,                 were coordinated with the other federal banking agencies.


strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                       91
                                    the department of the treasury




                                    Community Development                                               In December 2009, the occ, the ots, and other federal bank­
                                    the occ actively supports the efforts of national banks to          ing agencies issued for public comment proposed supervisory
                                    engage in sound and successful community development activi­        guidance on managing consumer compliance and reputation
                                    ties and processes community development investment notices         issues involved with reverse mortgages. the guidance discusses
                                    and proposals under title 12, code of federal regulations Part      legal questions raised by reverse mortgages and stresses the
                                    24. the occ, the ots, and other federal banking agencies,           need to provide adequate information to consumers about these
                                    were co-sponsors of the 2010 national Interagency community         products, provide qualified independent counseling to consumers
                                    reinvestment conference. through the first half of fiscal year      considering them, and avoid potential conflicts of interests. the
                                    2010, national banks made $2.31 billion in Part 24 investments.     guidance also addresses related policies, procedures, internal
                                                                                                        controls, and third party risk management. final guidance was is­
                                    the occ and the ots also conduct outreach with a variety            sued in 2010. effective with the December 31, 2010, call report
                                    of organizations, including advocacy groups, research organiza­     and tfr filings, financial institutions will be required to provide
                                    tions, community development practitioners, and community           information on the volume of reverse mortgages that they hold
                                    development membership organizations whose constituencies           or have originated and sold during the year and on the volume of
                                    include or affect low- and moderate-income consumers, dis­          referrals they made to other lenders for a fee for such products.
                                    tressed communities, and small and minority-owned businesses.
part 2: annual performance report




                                    During fiscal year 2010, the occ identified and publicized          the occ is leading the interagency effort and ots is partici­
                                    strategies for stabilizing communities affected by foreclosure      pating along with other federal agencies in implementing the
                                    and resulting property vacancies and continued its support of       registration requirements of the Secure and Fair Enforcement for
                                    financial literacy programs. the agency issued publications         Mortgage Licensing Act of 2008 (s.a.f.e. act). In June 2009,
                                    and partnered with the sba to promote bank involvement in           the agencies issued a proposal that establishes the registration
                                    economic stimulus and recovery measures.                            requirements for mortgage loan originators employed by agency­
                                                                                                        regulated institutions, as well as requirements for these institu­
                                    While maintaining its consumer help Web site, which was             tions, including the adoption of policies and procedures to
                                    launched in 2007 (www.helpwithmybank.gov), the occ                  ensure compliance with the s.a.f.e. act and final rule. the law
                                    continued to seek ways to work with the other federal financial     also requires these mortgage loan originators to obtain a unique
                                    regulatory agencies to better assist consumers when they have       identifier through the nationwide Mortgage licensing system
                                    questions or need help in resolving issues with their banks.        and registry (registry) that will remain with that originator,
                                                                                                        regardless of changes in employment. When the system is fully
                                    Consumer Protection                                                 operational, consumers will be able to use the unique identifiers
                                    During fiscal year 2010, the occ and the ots continued their        to access employment and other background information of
                                    work with the other federal banking agencies to improve con­        registered mortgage loan originators. the final rule was issued in
                                    sumer protection. these efforts included an interagency initia­     July 2010. substantial progress also has been made in modifying
                                    tive to design and test a more understandable financial privacy     the registry to accommodate the registration of employees of
                                    notice that is clear so that consumers can effectively exercise     agency-regulated institutions. the registry is expected to be
                                    their preferences for information sharing. after conducting both    fully operational in January 2011.
                                    quantitative and qualitative consumer research, the occ, the
                                                                                                        In april 2010, ots proposed supplemental overdraft
                                    ots, and other federal agencies (including the cftc, ftc,
                                                                                                        guidance, and in May, 2010, issued examination procedures for
                                    and sec) finalized model privacy notice forms. In november
                                                                                                        reviewing unfair or deceptive acts or practices under the federal
                                    2009, the forms were provided to the industry through amend­
                                                                                                        trade commission act. occ, ots and the other federal
                                    ments to the rules that implement the financial privacy require­
                                                                                                        banking regulators issued revised examination procedures for
                                    ments of the gramm-leach-bliley act. In april 2010, the eight
                                                                                                        regulations incorporating consumer protections for credit cards,
                                    federal regulators released an online form builder that financial
                                                                                                        gift cards, and electronic transaction overdrafts in the Credit
                                    institutions can download and use to develop and print custom­
                                                                                                        Card Accountability, Responsibility and Disclosure Act of 2009.
                                    ized versions of the model consumer privacy notice.




                                    92                      strategic goal: u.s. and world economies perform at full economic potential
                                                           performance and accountability report | fiscal year 2010




In addition to these interagency efforts, in fiscal year 2010 the    Contributions of the Office of Economic
occ issued guidance on consumer protection and safety and            Policy
soundness issues associated with tax refund anticipation loans,
                                                                     economic Policy continued to support the secretary and other
guidance to national banks on complying with provisions of
                                                                     senior policy makers by providing technical analysis, economic
the new opt-in requirements relating to overdraft protection
                                                                     forecasts, and policy guidance. the office routinely provided
programs, and provisions of the credit carD act of 2009.
                                                                     economic intelligence on current and prospective economic
the occ also worked with the other federal banking agencies          developments in the united states. throughout the fiscal year,
to develop and issue examination procedures related to the           staff monitored and analyzed a number of trends and economic
unlawful Internet gambling enforcement act of 2006 and the           developments, including the ongoing housing market correc­
Protecting tenants at foreclosure act of 2009.                       tion, the pace of economic recovery, and developments in labor
                                                                     markets. economic Policy continued to carry out its traditional
In 2010, the occ continued the quarterly public service              role in the preparation of the President’s budget and supported
advertisement program, started in 2006, to promote awareness         the secretary of the treasury in his roles as chairman and
of banking issues and policies that affect consumers. the agency     Managing trustee of the social security and Medicare boards of
released print articles and 30-second radio spots in english and     trustees. specific examples of contributions are listed below:




                                                                                                                                            part 2: annual performance report
spanish for use in local newspapers and radio stations. topics         •	   economic Policy continued to play a key role in the
covered in 2010 included gift cards, tenants in foreclosure,                development and operations of the haMP component
overdraft protection and refund anticipation loans. the spots               of the Making home affordable Initiative, which aims to
ran more than 6,500 times in 44 states.                                     provide relief to struggling homeowners and stabilize the
                                                                            housing market.
Enforcement
                                                                       •	   economic Policy conducted ongoing research on policies
as needed, the occ uses its enforcement authority to address
                                                                            enacted to assist in the recovery of the economy. the
safety and soundness violations and noncompliance with laws
                                                                            research culminated in a series of reports to increase under­
and regulations. through the first half of fiscal year 2010, the
                                                                            standing of the impact of the policies and provide guidance
occ issued 207 enforcement actions against national banks
                                                                            on future policy development. topics covered include the
and 82 against institution-affiliated parties. the occ assessed a
                                                                            cobra tax credit, the hIre act tax exemption, and
$50 million civil money penalty against a national bank for vio­
                                                                            build america bonds.
lations of the bank secrecy act (bsa) as part of a coordinated
                                                                       •	   economic Policy has also been involved in the implemen­
action with the DoJ, financial crimes enforcement network
                                                                            tation of the affordable care act, specifically in providing
(fincen), and other federal agencies. the bank also agreed to
                                                                            analysis and recommendations for the regulations that are
forfeit $110 million to the u.s. under a deferred prosecution
                                                                            being issued.
agreement with the u.s. attorney’s office in the southern
District of florida and the Department of Justice.
                                                                     Conclusion
the occ also entered into a formal agreement with a national
                                                                     treasury supported key legislation, the Dodd-frank act and the
bank to reimburse consumers harmed by the bank’s credit card
                                                                     small business Jobs act, in its efforts to repair and reform the
account closing practices; agreed-upon reimbursement totaled
                                                                     financial system and the economy. treasury made a substantial
$775,000. In another action, a national bank was directed to
                                                                     contribution towards stabilizing the housing market through
make $5.1 million in restitution to over 60,000 consumers
                                                                     haMP and treasury housing Programs; however, this critical
adversely affected by its relationships with a third party payment
                                                                     sector of the economy remains fragile. Private capital has not
processor. the bank also received a $100,000 civil money penalty.
                                                                     yet returned to the market, and the gses and the government




strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                     93
                                    the department of the treasury




                                    continue to play an outsized, though necessary, role in ensur­         •	   consumer protection, including easy-to-understand 

                                    ing the availability of mortgage credit. roughly 95 percent of              mortgage products and honest practices

                                    all mortgages are currently financed through either the gses,          •	   financial stability, meaning that credit and interest rate
                                    ginnie Mae, the federal housing administration (fha), the                   risk are spread in an efficient and transparent manner that
                                    Department of Veterans affairs (Va), or the Department of                   does not generate excess volatility
                                    agriculture (usDa).
                                                                                                           •	   alignment of incentives of issuers, originators, brokers,
                                    treasury seeks to exit investments as soon as practicable to                ratings agencies and insurers for long-term viability rather
                                    remove treasury as a shareholder, eliminate or reduce treasury              than short term gains
                                    exposure, return tarP funds to reduce the federal debt, and            •	   avoidance of privatized gains funded by public losses
                                    encourage private capital formation to replace federal govern­         •	   strong regulation to ensure capital adequacy throughout
                                    ment investment. the desire to achieve such objectives must                 the mortgage finance chain, enforce strict underwriting
                                    be balanced against a variety of other objectives, including                standards and protect borrowers from unfair, abusive or
                                    avoiding further financial market or economic disruption and                deceptive practices
                                    the potentially negative impact to the issuer’s health or capital
                                                                                                           •	   standardization of mortgage products
                                    raising plans from treasury’s disposition. treasury must also
                                                                                                                support for affordable single and multifamily housing
part 2: annual performance report




                                                                                                           •	
                                    consider the limited ability to sell an investment to a third
                                    party due to the absence of a trading market or lack of investor       •	   Diversified investor base and sources of funding
                                    demand, and the possibility of achieving potentially higher            •	   accurate and transparent pricing
                                    returns through a later disposition. an issuer typically needs         •	   secondary market liquidity
                                    the approval of its primary federal regulator in order to repay
                                                                                                           •	   clear goals and objectives for institutions that have 

                                    treasury, and therefore regulatory approvals also affect how
                                                                                                                government support, charters, or mandates 

                                    quickly an institution can repay.
                                                                                                         In addition, in March 2010, the obama administration
                                    Moving Forward                                                       announced enhancements to an existing fha program that
                                                                                                         will permit lenders to provide additional refinancing options to
                                    treasury’s implementation of key financial reforms and efforts to
                                                                                                         homeowners who owe more than their homes are worth because
                                    support economic recovery will continue into fiscal year 2011.
                                                                                                         of large declines in home prices in their local markets. this
                                    Implementation of Dodd-frank act and small business Jobs
                                                                                                         fha short refinance program will provide more opportunities
                                    act initiatives, continued implementation of recovery act
                                                                                                         for qualifying mortgage loans to be restructured and refinanced
                                    programs, management of the wind-down of tarP, implemen­
                                                                                                         into fha-insured loans. tarP funds will be made available up
                                    tation of housing programs, and other efforts are essential to
                                                                                                         to approximately $8 billion in the aggregate to provide addi­
                                    supporting the Department’s goal of restoring financial strength
                                                                                                         tional coverage to lenders for a share of potential losses on these
                                    and long-term stability.
                                                                                                         loans and to provide incentives to support the write-downs of
                                    In fiscal year 2011, treasury will play a key role in facilitating   second liens and encourage participation by servicers.
                                    development of a new system for housing finance, while being
                                                                                                         treasury is also planning studies and program evaluations. In
                                    careful to maintain relative stability in the housing market
                                                                                                         order to understand what drives mortgage defaults, treasury will
                                    through this difficult time. a stable, well-functioning market
                                                                                                         link data on individual mortgages to administrative data on em­
                                    should achieve the following objectives:
                                                                                                         ployment status and individual borrowers from credit bureaus. a
                                      •	   Widely available mortgage credit                              more thorough understanding of what drives mortgage perfor­
                                      •	   housing affordability                                         mance could expand the options available to the government
                                                                                                         to manage its exposure to mortgage risk, address the problem of




                                    94                        strategic goal: u.s. and world economies perform at full economic potential
                                                           performance and accountability report | fiscal year 2010




legacy assets in the financial system, and contribute to effective   the needs of credit worthy borrowers, including appropriate
housing policies that strengthen the market.                         and effective residential mortgage modification programs; and
                                                                     ensuring that national banks comply with cra, the bsa/aMl,
treasury will also ensure that ots authorities, duties, em­
                                                                     and usa PatrIot act requirements; and further enhancing
ployees, and property are transferred in an orderly fashion to
                                                                     supervisory analytical tools. Many national banks will continue
occ, federal reserve, and fDIc. occ’s priorities for fiscal
                                                                     to have substantial volumes of troubled loans. In addition, the
years 2011-2012 will focus on strengthening the resiliency
                                                                     occ expects the level of enforcement actions associated with
of the national banking system through our supervisory and
                                                                     problem banks and bank failures to continue through the next
regulatory programs and activities. other supervisory priorities
                                                                     fiscal year.
include identifying and resolving potential problem banks at
the earliest possible stage; encouraging national banks to meet




                                                                                                                                       part 2: annual performance report




strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                95
                                    the department of the treasury




                                    DeCreaseD gap in glObal stanDarD Of living
                                    a decreased gap in the global standard of living, associated with improved economic conditions in emerging markets, improves
                                    economic opportunity for americans. for the two performance measures associated with decreasing the gap in the global standard
                                    of living, treasury exceeded the 2010 performance target for one and the other was baselined. this performance reflects an improve­
                                    ment from 2009, when one target was not met.


                                    Key Performance Measure Table
                                    the following table contains key performance measures associated with this outcome. actual and target trends represent four years of
                                    data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/management/
                                    dcfo/accountability-reports.

                                                                                                                                                Percent Percent                                 4-year   4-year
                                                                                                                2009      2010      2010       of Target Change in Performance          2011    Target   Actual
                                    Key Performance Measure                                           Bureau   Actual    Target    Actual      Achieved Actual        Rating           Target   Trend    Trend

                                     Monitor quality and enhance effectiveness of International        DO               Baseline    97          100.0%          NA            Met       100       B        B
                                     Monetary Fund (IMF) lending through review of IMF country
part 2: annual performance report




                                     programs (%)
                                     Percentage of Grant and Loan Proposals Containing Satisfactory    DO       94        90        92.5        102.8%        -1.6%         Exceeded    90               
                                     Frameworks for Results Measurement (%)



                                    Analysis of Performance Results                                                                        Legend                                      Symbol

                                    Performance for programs seeking to decrease the gap in the                                             Favorable upward trend                       
                                                                                                                                            Favorable downward trend                     
                                    global standard of living exceeded one target and met the
                                                                                                                                            Unfavorable upward trend                     
                                    other. the measure related to IMf program effectiveness was
                                                                                                                                            Unfavorable downward trend                   
                                    baselined, and the previous measure was discontinued. for
                                                                                                                                            No change in trend, no effect                
                                    “Percentage of grant and loan proposals containing satisfactory                                         No change in trend, favorable effect         
                                    frameworks for results measurement,” the actual result exceeded                                         No change in trend, unfavorable effect       
                                    the target but decreased from 2009 actuals. given that actual                                           Baseline                                      B
                                    results have exceeded targets for this measure for the last four
                                    years, it may be worth revising the target upward in the future.                     the framework is essentially a commitment by the world’s lead­
                                                                                                                         ing economies to monitor current and prospective economic
                                                                                                                         developments and cooperate on implementing globally consis­
                                    International Financial Institution Support
                                                                                                                         tent policies. achievements in the first year have focused on
                                    the treasury Department provided critical support for u.s.
                                                                                                                         establishing five-year baseline forecasts for growth, demand, and
                                    efforts to foster a strong and sustainable global economic
                                                                                                                         the evolution of external balances and on developing baskets
                                    recovery through g-20 actions. robust foreign growth, par­
                                                                                                                         of policies that potentially could improve outcomes relative to
                                    ticularly robust foreign domestic demand growth, is extremely
                                                                                                                         the baseline. the key u.s. objectives within the g-20 macro­
                                    important to a vibrant u.s. economy and u.s. job creation.
                                                                                                                         economic dialogue are to ensure a strong recovery, create jobs,
                                    this is especially true at a time when americans are re-building
                                                                                                                         reduce unemployment, and foster durable, long-term growth
                                    their personal finances and saving more. recognizing the need
                                                                                                                         through a more balanced global economy.
                                    for a balanced global economy in which foreign economies are
                                    more reliant on domestic sources of growth and u.s. growth                           the treasury Department continued to play a central role in
                                    is less skewed toward domestic demand, the u.s. proposed a                           efforts to build a stronger and safer global financial system.
                                    framework for strong, sustainable, and balanced growth,                              through the g-20 process, the financial stability board, and
                                    which was adopted at the Pittsburgh summit by g-20 leaders.                          engagement with international standard setting bodies, treasury




                                    96                             strategic goal: u.s. and world economies perform at full economic potential
                                                          performance and accountability report | fiscal year 2010




led efforts to ensure that reforms in the international financial   contribution of up to $120 million in reconstruction aid for
system matched domestic regulatory reform initiatives. this will    the multi-donor haitian reconstruction fund (hrf). at the
ensure that banks here and in foreign countries comply with         request of the government of haiti, treasury played an integral
high standards and are prevented from a “race to the bottom.”       role in designing and negotiating a partial credit guarantee fund
In fiscal year 2010, the treasury Department strongly supported     to assist banks in restructuring loans and extending new credit
international efforts to strengthen bank capital standards. these   to small and medium-sized enterprises (sMes) and credit coop­
standards will require banks to hold enough capital so they can     eratives. the credit guarantee fund was subsequently supported
withstand losses similar to those sustained in the depths of the    by funding from the hrf trust fund, the World bank, and the
recession without turning to the taxpayer for help. banks will be   Inter-american Development bank (IDb).
required to hold significantly more capital against the types of
risky trading-related assets and obligations that caused so much    Expanded access to financial services for
unexpected financial damage during the crisis.
                                                                    consumers and small and medium-sized
the treasury Department’s leadership in the International           enterprises
Monetary fund (IMf) helped advance u.s. priorities of               treasury worked with fellow g-20 co-chairs canada and
modernizing the IMf’s governance structures to reflect global       korea to create and lead the g-20 financial Inclusion experts




                                                                                                                                         part 2: annual performance report
economic realities and enhancing the IMf’s lending toolkit          group. the group worked in two tracks dedicated to expanding
for more effective crisis prevention and response. With strong      financial services for consumers and sMes. the first track of
support from the u.s., the IMf membership is working to             experts surveyed best practices among national regulators and
achieve a five percent shift in IMf quota share from overrepre­     international standards-setting bodies to develop a list of policy
sented countries to underrepresented, dynamic emerging market       principles to support expanding innovative approaches to finan­
and developing countries. In fiscal year 2010, the treasury         cial service delivery and an action plan for implementing these
Department supported international efforts to strengthen the        principles around the world. the second track launched the
global financial safety net through enhancements to the IMf’s       sMe finance challenge, in which g-20 leaders called on the
flexible credit line for the strongest performing members and       private sector to provide innovative ideas for public initiatives
the creation of a Precautionary credit line for emerging market     to marshal private financing for sMes, and on international fi­
members with sound policies and need for contingent financing       nancial institutions (IfIs) to support the winning entries. sMes
to maintain market confidence.                                      are key to economic growth and job creation, and the sMe
                                                                    finance challenge will award effective and innovative ideas for
                                                                    financing sMes with the resources to scale up implementation.
Provided financial and logistic support
                                                                    connecting poor households and businesses to resources for sav­
for Haiti earthquake relief
                                                                    ings, credit, and insurance enables them to harness the power of
Immediately following the January 12 earthquake, treasury
                                                                    entrepreneurship and create more stable, successful livelihoods.
officials facilitated the delivery of roughly $2 million in cash
to a major haitian microfinance institution to help survivors
access savings and remittances, even while domestic banks           Conclusion
remained closed. treasury deployed a senior advisor within          In the wake of the financial crisis, the IfIs provided expanded
two weeks of the earthquake to assist in reconstructing the tax     lending facilities and economic advice to merger countries,
system database, recovering and protecting two hundred years’       which helped foster global recovery. While the work done by
worth of land titles and official records of all bank loans, and    these institutions has been instrumental in helping to rebuild
participated in the post-disaster needs assessment team which       the global economy, the two measures associated with this out­
supported the haitian government’s presentation of a credible       come do not adequately capture that work. going forward, the
needs estimate to international donors in March. furthermore,       Department will work to create measures that not only capture
treasury personnel led the global initiative to relieve haiti’s     workload but also focus on broader outcomes that allow for the
debt to the international financial institutions and worked         effective assessment of u.s. investments in these institutions.
extensively to help secure funding from congress for a u.s.



strategic objective: improved economic opportunity, mobility and security
with robust, real, sustainable economic growth at home and abroad                                                                  97
                                    the department of the treasury




                                    Moving Forward
                                    restoring normal growth in emerging markets will require
                                    increased commitments from global governments to provide
                                    funding that is currently unavailable from private markets.
                                    having responded to the needs of borrowers in the wake of the
                                    financial crisis, the next step will be to ensure that the IfIs are
                                    adequately capitalized to meet the needs of members as their
                                    economies recover. further, the Department will continue to
                                    push for reform at these institutions, leveraging u.s. commit­
                                    ments to secure greater performance and results management.
part 2: annual performance report




                                    98                        strategic goal: u.s. and world economies perform at full economic potential
                                                          performance and accountability report | fiscal year 2010




 strategic objective:
        trust and confidence in u.s. currency Worldwide


continued trust and confidence in the integrity of united states
                                                                    Budget Trend                                $4,500,000
currency and its acceptance as a secure medium of exchange          Trust and                                   $4,000,000
in business transactions enables the free flow of domestic and      Confidence in




                                                                                       Dollars (in Thousands)
                                                                                                                $3,500,000
                                                                    U.S. Currency
global commerce and contributes to the security and stability       Worldwide                                   $3,000,000
                                                                                                                $2,500,000
of the world’s monetary system. Worldwide circulation of u.s.
                                                                                                                $2,000,000
currency notes is estimated to exceed $830 billion in value. as                                                 $1,500,000




                                                                                                                             $1,459,176


                                                                                                                                          $1,506,143


                                                                                                                                                       $2,012,017


                                                                                                                                                                        $2,370,208


                                                                                                                                                                                     $2,706,326


                                                                                                                                                                                                  $2,686,145


                                                                                                                                                                                                                $4,301,571
much as two-thirds of that circulates outside the borders of the                                                $1,000,000
                                                                                                                 $500,000
united states. to instill a high degree of trust and confidence                                                        $0
                                                                                                                             2004         2005         2006            2007          2008         2009         2010
in the integrity of u.s. currency, the Department’s currency
                                                                                                                                                                    Fiscal Year
products are designed to achieve the maximum possible levels




                                                                                                                                                                                                                                  part 2: annual performance report
of deterrence against counterfeiting, product quality, user
                                                                    Performance                                 $4,500,000
acceptance, and cost-effectiveness. to achieve these levels,        Cost Trend
                                                                                                                $4,000,000
the bureau of engraving and Printing (beP) and the united           Trust and




                                                                                       Dollars (in Thousands)
                                                                                                                $3,500,000
                                                                    Confidence in
states Mint manufacture and deliver high-quality u.s. currency      U.S. Currency                               $3,000,000
                                                                    Worldwide                                   $2,500,000
notes and coins to the united states federal reserve. the beP
                                                                                                                $2,000,000
also produces security documents for federal agencies, and the                                                  $1,500,000




                                                                                                                             $1,579,915


                                                                                                                                          $1,541,046


                                                                                                                                                       $2,099,429


                                                                                                                                                                       $2,139,937


                                                                                                                                                                                     $2,552,998


                                                                                                                                                                                                  $2,929,234


                                                                                                                                                                                                               $4,134,741
united states Mint also produces and sells investment-grade                                                     $1,000,000
                                                                                                                 $500,000
precious metal bullion coins as well as high-quality numismatic                                                        $0
                                                                                                                             2004         2005         2006            2007          2008         2009         2010
coin products to the public. In addition to producing coins,
                                                                                                                                                                    Fiscal Year
the united states Mint also secures the nation’s precious metal
reserves.
                                                                    Performance Cost
                                                                    by Outcome
the bureaus and policy offices responsible for the achievement      Trust and
of this objective are:                                              Confidence in
                                                                    U.S. Currency
  •	   the bureau of engraving and Printing (beP)                   Worldwide
                                                                                                                 100% Commerce
  •	   the united states Mint                                                                                    enabled through
                                                                                                                 safe secure U.S.
                                                                                                                  notes and coins
  •	   the office of the treasurer of the united states

Performance targets associated with this objective did not
change from 2009 to 2010.




strategic objective: trust and confidence in u.s. currency worldwide                                                                                                                                                         99
                                    the department of the treasury




                                    COmmerCe enableD thrOugh safe , seCure u.s. nOtes anD COins
                                    the performance measure results for this program were significantly impacted by two global economic trends: the slow economic re­
                                    covery and increase in commodity costs. large swings in currency note and coin orders increased production costs, metal prices pushed
                                    down seigniorage rates, and the slow economic recovery led to a smaller customer base for numismatic coins. even with these trends,
                                    treasury still managed to come within 10 percent of its targets for the majority of measures for which it did not meet its targets.

                                    Key Performance Measure Table
                                    the following table contains key performance measures associated with this outcome. actual and target trends represent four years of
                                    data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/management/
                                    dcfo/accountability-reports.

                                                                                                                                           Percent Percent                                   4-year   4-year
                                                                                                             2009      2010      2010     of Target Change in Performance           2011     Target   Actual
                                    Key Performance Measure                                        Bureau   Actual    Target    Actual    Achieved Actual        Rating            Target    Trend    Trend

                                     Currency shipment discrepancies per million notes (%)          BEP      0.00     0.01       0.00*     100.0%       0.00%         Exceeded      0.01              

                                     Manufacturing costs for currency (dollar costs per thousand    BEP     $32.77   $37.00     $44.85*    78.8%        36.9%             Unmet    $44.00             
part 2: annual performance report




                                     notes produced) ($)
                                     Percent of currency notes delivered to the Federal Reserve     BEP      99.9     99.9       97.5*     97.6%         -2.4%            Unmet     99.9              
                                     that meet customer quality requirements (%)
                                     Circulating on-time delivery (%)                               Mint             Baseline    99.8      100.0%         NA              Met       88         B        B
                                     Customer Satisfaction Index - A measure of the satisfaction    Mint     88.3      88        86.1      97.8%         -2.5%            Unmet     88                
                                     of customers with numismatic products (%)
                                     Numismatic Customer Base                                       Mint     1.06      0.9       0.798     88.7%        -24.7%            Unmet      1                
                                     Safety Incident Recordable Rate                                Mint             Baseline    2.29      100.0%         NA              Met       3.34       B        B
                                     Seigniorage per Dollar Issued ($)                              Mint    $0.55     $0.53      $0.49     92.5%        -10.9%            Unmet    $0.41              
                                     *Estimated




                                    Analysis of Performance Results                                                                       Legend                                    Symbol

                                    In fiscal year 2010, eight measures were reported for this objec­                                     Favorable upward trend                         
                                                                                                                                          Favorable downward trend                       
                                    tive, two of which were new measures. of all eight measures,
                                                                                                                                          Unfavorable upward trend                       
                                    one measure (13 percent) exceeded the performance target.
                                                                                                                                          Unfavorable downward trend                     
                                    five measures (62 percent) did not meet targets. a baseline was
                                                                                                                                          No change in trend, no effect                  
                                    being established for two measures (25 percent), which count                                          No change in trend, favorable effect           
                                    as having met their target. eleven measures were discontinued                                         No change in trend, unfavorable effect         
                                    during fiscal year 2010, and two measures were discontinued in                                        Baseline                                       B
                                    fiscal year 2009. the search for new and more informative met­
                                    rics to drive improved performance is a positive effort. however,                    production. Productivity decreased in from 2009 to 2010 by 8.8
                                    a more stable way to measure success is needed.                                      percent largely as a result of high spoilage and slower operating
                                                                                                                         speeds as production of the newly redesigned $100 currency
                                    Bureau of Engraving and Printing                                                     note commenced. beP did not meet its performance target for
                                                                                                                         “cost per 1,000 notes Produced” due to complexities encoun­
                                    In fiscal year 2010, beP delivered 6.4 billion currency notes to
                                                                                                                         tered as production began on the new $100. beP’s manufactur­
                                    the federal reserve board. this is an increase of 200 million
                                                                                                                         ing costs increased from $32.77 per thousand units in 2009 to
                                    units (three percent) over the 6.2 billion notes delivered in
                                                                                                                         $44.85 in 2010, a 37 percent increase. the jump in cost was
                                    2009. beP failed to meet the federal reserve’s quality standard
                                                                                                                         largely driven by a marked increase in the cost of counterfeit
                                    due to a problem with the redesigned $100 note creasing during



                                    100                             strategic goal: u.s. and world economies perform at full economic potential
                                                         performance and accountability report | fiscal year 2010




deterrent features added to the paper beP uses to produce the       97.5 percent of the currency notes delivered to the federal
new $100 note and problems encountered during production            reserve met the product quality requirements. as it has for the
that significantly increased spoilage. another driver of the        past eight years, in fiscal year 2010 beP maintained Iso 9001
increase was a continued trend in the 2010 federal reserve’s        certification in its quality management system for currency
currency order toward a proportionally greater amount of higher     production, indicating ongoing commitment to continuous
denomination notes, which are more costly to manufacture            process and quality improvement. In 2010, beP also continued
due to their enhanced counterfeit deterrent features. unlike        efforts to maintain Iso 14001 certification in its commitment
the u.s. Mint, beP is fully-funded by the federal reserve, and      to high-quality environmental stewardship and management.
any return made is paid by the federal reserve to the treasury
                                                                    following court decisions in 2007 and 2008, the Department
general fund rather than by beP.
                                                                    was ordered to provide meaningful access to united states
the redesigned $100 note made its debut on april 21, 2010           currency for blind and other visually impaired persons. this
during a ceremony at the treasury. the redesign of the $100         may require changes to u.s. currency (excluding the one-dollar
note marked the completion of a multi-year initiative to imple­     note.) the court ordered such changes to be completed in
ment the most ambitious currency redesign in united states          connection with each denomination of currency, not later than
history. the innovative security features in the new note are       the date when a redesign is next approved by the secretary of




                                                                                                                                          part 2: annual performance report
the work of more than a decade of research and development          the treasury. the cost of implementing these changes will be
to protect u.s. currency from counterfeiting. the new notes         incorporated into future currency redesign costs, and cannot be
have enhanced overt counterfeit deterrent features including a      estimated at this time.
“3-D security ribbon” with shifting images and a “bell in the
Inkwell” that disappears and reappears when the note is tilted.     United States Mint
the redesigned notes remain the same size and use the same
                                                                    the economic environment during fiscal year 2010 significantly
portraits and historical images, which have been enhanced. the
                                                                    impacted the united states Mint’s financial results. economic
redesign includes an enlarged, high-contrast numeral to help
                                                                    uncertainty intensified demand for bullion products while
the public, including persons with visual impairments, distin­
                                                                    reducing demand for circulating coinage and numismatic
guish the denominations of notes. the unveiling of the new
                                                                    products. total revenue reached $3.89 billion in fiscal year
$100 note was the first step in a global public education program
                                                                    2010, up 33 percent from total revenue of $2.91 billion in fiscal
implemented by the Department of the treasury, the federal
                                                                    year 2009. record sales of bullion coins drove this revenue
reserve, and the u.s. secret service to educate those who use
                                                                    growth as both circulating and numismatic revenue declined
the $100 note about its changes before it begins circulating.
                                                                    from the prior fiscal year. since the united states Mint manages
rapid improvements in reprographic technologies and com­            the bullion program to a nominal net margin, revenue growth
puter-driven printing pose increasing challenges to counterfeit     did not generate higher earnings in fiscal year 2010. the united
deterrence. beP continues to collaborate with other members         states Mint returned $388 million to the treasury general fund
of the advanced counterfeit Deterrent (acD) steering                in fiscal year 2010, down from $475 million (18 percent) from
committee (which includes representatives from beP, the             fiscal year 2009.
Department of the treasury, the u.s. secret service, and the
                                                                    Weak economic conditions that reduced shipments and revenue
federal reserve) to determine the effectiveness of counterfeit
                                                                    in fiscal year 2009 continued through the first half of fiscal year
deterrent features and to evaluate possible future currency
                                                                    2010. this reversed midway through the fiscal year as retail
designs. the acD committee also monitors the reliability of
                                                                    activity recovered and federal reserve coin inventory fell.
the beP manufacturing process, the incorporation of new design
                                                                    overall, total circulating coins shipped to the federal reserve
features, and the effectiveness of those features during the
                                                                    increased 4 percent to 5.4 billion pieces in fiscal year 2010 from
course of daily cash transactions.
                                                                    5.207 billion pieces in fiscal year 2009. While the total volume
beP efforts related to quality continued as measures of shipment    of circulating coins shipped to the federal reserve grew slightly,
accuracy met its targets and achieved less than 0.01 percent        the composition of shipments ordered by the federal reserve
discrepancies in the currency shipment. In 2010, beP reported       shifted toward lower denomination coins, reducing the total



strategic objective: trust and confidence in u.s. currency worldwide                                                              101
                                    the department of the treasury




                                    dollar value of circulating shipments to the federal reserve         fiscal year 2010 was a challenging year for the united states
                                    by 20 percent to $618.2 million from $777.6 million last year.       Mint’s numismatic product line. the united states Mint was
                                    at the start of fiscal year 2010, the prospect of continued low      unable to offer some key products because blanks were diverted
                                    coin demand prompted the united states Mint to extend                to the bullion program in accordance with statutory mandates
                                    cost-saving measures begun in 2009. the bureau opted not to          to fulfill bullion demand. this negatively affected numismatic
                                    renew appointments for temporary personnel and instituted an         sales and customer acquisition and retention. additionally,
                                    organization-wide hiring freeze. the united states Mint also         poor economic conditions may have suppressed some consumer
                                    suspended all non-essential capital investments in circulating       spending on collectibles. Despite weakened demand, the
                                    operations to cut cash outflow during a time of reduced cash         composition of numismatic sales shifted toward high price and
                                    inflow. even with these measures, the costs of coin production       high margin products. While numismatic sales revenue fell six
                                    continued to increase because of escalating metal market prices.     percent to $413.1 million from $440.1 million in 2009, numis­
                                                                                                         matic net income increased nearly 21 percent to $49.8 million
                                    base metal expenses and the mix of circulating coin denomina­
                                                                                                         in fiscal year 2010 from $41.2 million last year.
                                    tions ordered by the federal reserve negatively affected total
                                    seigniorage and seigniorage per dollar issued. Market prices of      the united states Mint is responsible for protecting over $320
                                    copper, nickel, and zinc recovered from fiscal year 2009 lows and    billion in united states assets stored in its facilities. the Mint’s
part 2: annual performance report




                                    climbed back to pre-2009 levels. rising metal prices increased       office of Protection (united states Mint Police) safeguards
                                    total and per-unit expenses for fabricated blanks and strip. as a    both Mint assets and non-Mint assets in its custody, including
                                    result, seigniorage generated from circulating coinage operations    gold and silver bullion reserves, as well as the Mint’s products,
                                    declined 30 percent to $300.9 million in fiscal year 2010 from       employees, facilities, and equipment.
                                    $427.8 million in fiscal year 2009. seigniorage per dollar issued
                                    declined to $0.49 in fiscal year 2010 from $0.55 (11 percent)        Conclusion
                                    in 2009. the per-unit cost for both one-cent and five-cent
                                                                                                         the beP faced challenges related to the release of the new $100
                                    denominations remained above face value for the fifth consecu­
                                                                                                         note and related spoilage problems. the Mint faced challenges
                                    tive fiscal year.
                                                                                                         related to the price of base metals and the high demand for
                                    Demand appeared to ease along with precious metal market             bullion products. the current suite of measures only partially
                                    prices in the second quarter, but as the year went on, rising        gauges the success of the outcome and objective associated with
                                    global fears over european sovereign debt caused demand to           coins and currency. Improved measures are needed to determine
                                    rebound as spot prices for gold and silver soared during the third   if commerce is effectively enabled for the nation. Proper de­
                                    and fourth quarters. the united states Mint sold 35.8 mil­           mand management will minimize costs across the entire supply
                                    lion ounces of bullion coins in fiscal year 2010, up 8.2 million     chain, including the costs of obsolescence and disposal.
                                    ounces (29.7 percent) from the previous total sales record of
                                                                                                         beP has engaged in an extensive effort to rapidly introduce
                                    27.6 million in fiscal year 2009. the united states Mint sold
                                                                                                         counterfeit-deterrent currency note redesigns, a necessary step
                                    this record volume to authorized purchasers at higher prices,
                                                                                                         to address the increasing frequency of serious counterfeiting
                                    reflecting the increased market value for gold and silver. the
                                                                                                         threats, and to bolster global trust and confidence in the integri­
                                    average spot price of gold and silver increased 29.2 percent
                                                                                                         ty of u.s. currency as a medium of transactional exchange. the
                                    and 40.1 percent, respectively, in fiscal year 2010 from fiscal
                                                                                                         only indicator of success in this arena is the estimated counter­
                                    year 2009. accordingly, total bullion revenue reached a record
                                                                                                         feiting rate. because it is an indicator, setting a target for this
                                    high of nearly $2.9 billion in fiscal year 2010, up by around 70
                                                                                                         would be similar to setting a target for the unemployment rate
                                    percent from $1.7 billion in fiscal year 2009. net income from
                                                                                                         – it is an important outcome, but it is extremely difficult to draw
                                    bullion sales increased 69 percent to $55.2 million in fiscal year
                                                                                                         a direct correlation between it and the actions of the treasury
                                    2010 from $32.7 million in fiscal year 2009. the united states
                                                                                                         Department. however, other measures could be considered such
                                    Mint expects demand for bullion coins to remain strong for
                                                                                                         as the average cycle time and marginal costs to introduce note
                                    a sustained period until economic conditions stabilize and inves­
                                                                                                         redesign. beP will introduce a new suite of performance metrics
                                    tors are drawn toward alternative investments.




                                    102                      strategic goal: u.s. and world economies perform at full economic potential
                                                           performance and accountability report | fiscal year 2010




in fiscal year 2011 that will measure the bureau’s performance        with more energy efficient and environmentally responsible
across a broader spectrum of operations.                              assets; decreased energy usage and cost savings from increased
                                                                      data center efficiency and consolidation from increased server
the u.s. Mint faced challenges related to the price of base met­
                                                                      virtualization and from decreased energy usage and It operation
als and the high demand for bullion products. the u.s. Mint is
                                                                      costs; and savings from reduced material spoilage during the cur­
working to explore options that might help reduce the cost of
                                                                      rency note production process, which should enable reductions
materials used in producing the nation’s coinage. the u.s. Mint
                                                                      in the quantity of currency paper and other materials purchased
baselined two new measures, discontinued four measures, and
                                                                      for use in manufacturing currency notes.
did not meet three measures.
                                                                      other capital assets provide ongoing challenges for the bureau,
Moving Forward                                                        however. the age of beP’s Washington, D.c. facility poses some
                                                                      infrastructure challenges. based on an earlier condition assess­
Bureau of Engraving and Printing                                      ment, it was estimated that an investment of $250-$500 million
to improve efficiency, beP is currently engaged in a multi-year       would be needed to upgrade the main and annex buildings
project to retool its manufacturing processes to improve beP’s        over the next 10 years. beP had been delaying infrastructure
capabilities, increase its flexibility, and improve its response to   improvements pending the outcome of a feasibility study that




                                                                                                                                           part 2: annual performance report
product configuration changes. the project will include instal­       was completed at the end of July 2010. at the end of fiscal year
lation of new state-of-the-art equipment capable of producing         2010, the study was still under executive review but is expected
50-note currency sheets, achieving significantly greater produc­      to enable the beP and the Department of the treasury to
tion efficiency than the existing equipment, which produces           strategically address facility issues going forward.
32-note sheets. the new equipment will include intaglio
presses, electronic inspection systems, and finishing equip­          United States Mint
ment. beP continues to invest in new technologies such as its         although the united states Mint has taken steps to reduce its
beP enterprise (ben) manufacturing support system program             manufacturing costs, base metal expenses continue to make
(Mss), which will integrate, consolidate, and enable improved         up the greatest portion of the cost of circulating coin produc­
analysis of data from various disparate information technology        tion. changing the composition of circulating coinage to less
systems, equipment, and software applications used at beP.            expensive alternative materials could generate significant cost
When completed, this effort will optimize the reliability, inte­      savings and mitigate further reductions in seigniorage if market
gration, and timely collection of online real-time performance        prices for copper, nickel, and zinc increase. base metal prices
data. having this data on hand will enable program managers to        have trended upward during fiscal year 2010. the average daily
proactively manage manufacturing overhead costs, production           spot price increased 57 percent for copper, 56 percent for nickel,
efficiency, and resource productivity.                                and 52 percent for zinc between fiscal year 2009 and fiscal year
                                                                      2010.
In keeping with the commitment by beP’s management to
maintain high-quality environmental management, beP is                In fiscal year 2011, the united states Mint will remain focused
investing in capital improvements that will enhance productiv­        on meeting demand for products as economic uncertainty
ity and lessen the environmental impact of beP operations             continues. the united states Mint expects circulating volumes
on air emissions, wastewater discharge, and solid waste. the          to increase from 2010. however, any volume increase will likely
most significant project will enable waste water recycling to         consist of lower denomination coins as federal reserve inven­
reduce water usage by several million gallons per year. the           tories of higher denominations remain sufficient to fulfill the
project will also reduce the required quantity of chemicals the       majority of demand in upcoming years. bullion demand looks to
beP must use to make currency note wiping solution, which             remain strong until economic conditions stabilize and investors
becomes wastewater. this project will both improve resource           are drawn toward alternative investments. for numismatic
sustainability and reduce the cost and efficiency of currency         products, the Mint will focus on improving customers’ experi­
note production. other projects either already underway or            ence by releasing core products earlier in the year and increasing
currently in the planning stages include improvements in              the availability of precious metal products.
energy efficiency through replacement or upgrade of older assets



strategic objective: trust and confidence in u.s. currency worldwide                                                               103
                                    the department of the treasury




                                    strategic goal:
                                    PreVenteD terrorIsM anD ProMoteD the
                                    natIon’s securIty through strengtheneD
                                    InternatIonal fInancIal systeMs
                                     strategic objective:
                                            Pre-empted and neutralized threats to the international financial
                                            system and enhanced u.s. national security


                                    the office of terrorism and financial Intelligence (tfI)
                                                                                                         Budget Trend                                $1,200,000
                                    marshals the department’s intelligence and enforcement               Pre-empted
                                                                                                                                                     $1,000,000
                                    functions with the twin aims of safeguarding the financial           and Neutralized




                                                                                                                            Dollars (in Thousands)
                                                                                                         Threats to the
                                    system against illicit use and combating rogue nations, terrorist    International                                $800,000
                                                                                                         Financial
part 2: annual performance report




                                    facilitators, weapons of mass destruction (WMD) proliferators,       System and
                                                                                                                                                      $600,000

                                    money launderers, drug kingpins, and other national security         Enhanced                                     $400,000




                                                                                                                                                                                                                                       $1,041,419
                                                                                                         U.S. National




                                                                                                                                                                  $350,001


                                                                                                                                                                             $455,108


                                                                                                                                                                                        $602,332


                                                                                                                                                                                                      $697,774


                                                                                                                                                                                                                 $778,960


                                                                                                                                                                                                                            $987,668
                                    threats. the office works to keep u.s. and world financial           Security                                     $200,000
                                    systems accessible to legitimate users and to avoid exploitation                                                        $0
                                                                                                                                                                  2004       2005       2006          2007       2008       2009       2010
                                    of these systems by unlawful users. Its unique capabilities lever­
                                                                                                                                                                                                   Fiscal Year
                                    age intelligence, law enforcement, sanctions, regulatory, and
                                    diplomatic tools to achieve treasury’s strategic objective. this
                                    is accomplished through four tfI offices, a division within the      Performance                                  $800,000
                                                                                                         Cost Trend
                                    Irs, and a bureau:                                                   Pre-empted
                                                                                                                            Dollars (in Thousands)




                                                                                                         and Neutralized                              $600,000
                                      •	   the office of foreign assets control (ofac) administers       Threats to the
                                           and enforces economic and trade sanctions                     International
                                                                                                                                                      $400,000
                                                                                                         Financial
                                      •	   the office of terrorist financing and financial crimes        System and
                                                                                                         Enhanced                                     $200,000
                                                                                                                                                                  $221,944


                                                                                                                                                                             $270,553


                                                                                                                                                                                        $478,764


                                                                                                                                                                                                      $505,209


                                                                                                                                                                                                                 $555,144


                                                                                                                                                                                                                            $570,087


                                                                                                                                                                                                                                       $668,013
                                           (tffc) is the policy and outreach arm of tfI and provides     U.S. National
                                                                                                         Security
                                           expert analysis on terrorist financing, money laundering,                                                        $0
                                                                                                                                                                  2004       2005       2006          2007       2008       2009       2010
                                           financial crime, and sanctions issues
                                                                                                                                                                                                   Fiscal Year
                                      •	   the office of Intelligence and analysis (oIa) provides
                                           all-source intelligence analysis, leads the Department’s
                                                                                                         Performance Cost         19.7% Safer and
                                           integration into the larger intelligence community, and       by Outcome             more transparent
                                                                                                                                           U.S. and
                                           provides support to Department leadership on a full range     Pre-empted
                                                                                                                                      international
                                                                                                         and Neutralized
                                                                                                                                financial systems
                                           of economic, political, and security issues                   Threats to the
                                                                                                         International
                                                                                                         Financial
                                                                                                         System and
                                                                                                         Enhanced
                                                                                                         U.S. National
                                                                                                         Security           80.3% Removed or reduced threats to national security from
                                                                                                                            terrorism, proliferation of weapons of mass destruction, narcotics
                                                                                                                            trafficking and other criminal activity on the part of rogue regimes,
                                                                                                                            individuals, and their financial and other support networks




                                                                     strategic goal: prevented terrorism and promoted the nation’s security
                                    104                                               through strengthened international financial systems
                                                             performance and accountability report | fiscal year 2010




Performance measures associated with this objective had 35                    intelligence units, and enhances anti-money laundering
percent more aggressive targets compared to 2009.                             and counter-terrorist financing efforts domestically and
                                                                              internationally
  •	   the treasury executive office of asset forfeiture
       (teoaf) administers the treasury forfeiture fund, which         the outcomes associated with this objective are:
       is the receipt account for the deposit of non-tax forfeitures     •	   removed or reduced threats to national security from ter­
  •	   the Irs criminal Investigations division (Irs-cI) investi­             rorism, proliferation of weapons of mass destruction, drug
       gates potential criminal violations of the Internal revenue            trafficking and other criminal activity on the part of rogue
       code and related financial crimes                                      regimes, individuals, and their support networks
  •	   the financial crimes enforcement network (fincen)                 •	   safer and more transparent u.s. and international financial
       administers the bank secrecy act (bsa), supports law                   systems
       enforcement investigations and prosecutions, shares
       bsa information domestically and with foreign financial




                                                                                                                                             part 2: annual performance report




strategic objective: pre-empted and neutralized threats to the
international financial system and enhanced u.s. national security                                                                     105
                                    the department of the treasury




                                    r emOveD Or r eDuCeD threats tO natiOnal seCurity frOm terrOrism,
                                    p rOliferatiOn Of WeapOns Of m ass DestruCtiOn, D rug traffiCking anD
                                    O ther C riminal aCtivity On the part Of rOgue r egimes, i nDiviDuals,
                                    anD their s uppOrt netWOrks

                                    this outcome is linked to treasury’s impact in policy making, outreach, and diplomacy; the impact of economic sanctions; and the
                                    impact of intelligence information and analysis. treasury exceeded its targets in these focus areas.

                                    Key Performance Measure Table
                                    the following table contains only key performance measures associated with this outcome. actual and target trends represent four
                                    years of data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/
                                    management/dcfo/accountability-reports.

                                                                                                                                                  Percent Percent                                 4-year   4-year
                                                                                                                  2009     2010       2010       of Target Change in Performance          2011    Target   Actual
                                    Key Performance Measure                                       Bureau         Actual   Target     Actual      Achieved Actual        Rating           Target   Trend    Trend
part 2: annual performance report




                                     Impact of TFI programs and activities                          DO            7.81    7.40         8.1        109.5%         3.7%         Exceeded    7.6              

                                     Percent of forfeited cash proceeds resulting from high­      Treasury       87.65     75         93.11       124.1%         6.2%         Exceeded    80               
                                     impact cases (%)                                          Forfeiture Fund


                                    Analysis of Performance Results                                                                           Legend                                     Symbol

                                    tfI uses a qualitative self-assessment of its four major areas                                            Favorable upward trend                       
                                                                                                                                              Favorable downward trend                     
                                    of operations—policy, sanctions, intelligence, and money­
                                                                                                                                              Unfavorable upward trend                     
                                    laundering—to measure its performance. the “Impact of tfI
                                                                                                                                              Unfavorable downward trend                   
                                    programs and activites” measure is a composite score, which is
                                                                                                                                              No change in trend, no effect                
                                    the average rating of four performance goals. each performance                                            No change in trend, favorable effect         
                                    goal is linked to components within tfI and the Department’s                                              No change in trend, unfavorable effect       
                                    strategic goals. In fiscal year 2010, this metric achieved a 8.1                                          Baseline                                      B
                                    rating out of 10 possible points, exceeding the target and
                                    improving by 3.7 percent over the previous year.
                                                                                                                             •	    “Provide treasury Department decision makers with timely,
                                    two tfI offices, ofac and tffc, share a combined perfor­                                       accurate, and relevant intelligence support on the full
                                    mance goal, focusing on the impact of policy making, outreach                                  range of economic, political, and security issues”
                                    and diplomacy and the impact of economic sanctions:
                                                                                                                          user data surveys are conducted with financial intelligence users
                                      •	   “tfI u.s. government effectively employed tools and au­                        to gauge the impact and influence oIa has upon those which
                                           thorities to further policy objectives and mitigate national                   use its information.
                                           security threats.”
                                                                                                                          the final performance goal relates to fincen.
                                    oIa has two separate performance goals that focus upon the
                                                                                                                             •	    “anti-money laundering and combating financing of terror­
                                    impact of information, intelligence, and analysis on senior
                                                                                                                                   ism regulations are administered effectively and efficiently.”
                                    leadership and the intelligence community.
                                                                                                                          this performance measure performed at 8.1, high impact, in
                                      •	   “support the formulation of treasury policy and the execu­
                                                                                                                          fiscal year 2010 and was baselined in fiscal year 2009 with a value
                                           tion of departmental authorities through all-source analysis
                                                                                                                          of 7.8, or medium impact. the fiscal year 2010 target was 7.4
                                           of the global financial network”
                                                                                                                          and will be 7.6 in fiscal year 2011. the treasury forfeiture fund
                                                                                                                          achieved 93.11 percent of forfeiture cash proceeds resulting from



                                                                             strategic goal: prevented terrorism and promoted the nation’s security
                                    106                                                       through strengthened international financial systems
                                                                          performance and accountability report | fiscal year 2010




high-impact cases, performing above both the fiscal year 2010                             the Comprehensive Iran Sanctions, Accountability and Divestment
target and 2009 actual.                                                                   Act of 2010, signed by President obama in July, dramatically
                                                                                          expands the tools available to the treasury Department to
the following sections describe efforts undertaken by tfI in
                                                                                          combat Iran’s efforts to acquire proliferation-related materials.
2010. these results are the basis for assessing tfI’s impact and
                                                                                          In august, treasury published the Iranian financial sanctions
are reflected in their performance results.
                                                                                          regulations (Ifsr) as a framework for implementing subsec­
                                                                                          tions 104(c) and 104(d) of the act. under the Ifsr, the
Combated Iran’s Efforts to Acquire                                                        secretary of the treasury may prohibit or impose strict condi­
Proliferation-Related Materials                                                           tions on opening or maintaining accounts with foreign financial
In June 2010, the united nations (un) adopted united                                      institutions that he finds knowingly engage in certain activities
nations security council resolution (unscr) 1929, broaden­                                related to Iran. the Ifsr also prohibits any person owned
ing the existing un sanctions framework. shortly thereafter,                              or controlled by a u.s. financial institution from knowingly
treasury announced new designations under eo 13382 target­                                engaging in transactions with or benefiting Iran’s revolutionary
ing individuals and entities that facilitate Iranian proliferation                        guard corps or any of its agents or affiliates whose property is
activity. Most prominently, treasury designated Post bank, an                             blocked under the International emergency economic Powers




                                                                                                                                                                                   part 2: annual performance report
Iranian state-owned bank for providing support to and acting                              act.
on behalf of un designee bank sepah. When bank sepah, one
                                                                                          treasury officials have been actively engaging with our partners
of Iran’s largest state-owned banks, was sanctioned for financing
                                                                                          throughout the world to describe the u.s. government’s Iran
proliferation, Iran began to use Post bank to facilitate interna­
                                                                                          sanctions programs and to encourage our partners to implement
tional trade. treasury also designated five Islamic republic of
                                                                                          similar restrictions on Iran. as a result of this engagement,
Iran shipping lines (IrIsl) front companies and blocked 27
                                                                                          additional states have demonstrated to Iran the consequences
vessels due to their connection to IrIsl. In august, treasury
                                                                                          of its failure to meet its international obligations. the european
announced a set of designations targeting the government of
                                                                                          union (eu), australia, canada, norway, Japan, and south
Iran’s support for terrorism and terrorist organizations, including
                                                                                          korea have implemented sanctions. these actions strengthen
hizballah, hamas, Palestinian Islamic Jihad, the Popular front
                                                                                          international resolve to prevent proliferation and Iran’s develop­
for the liberation of Palestine-general command, and the
                                                                                          ment of nuclear weapons and to press Iran to return to serious
taliban. from June to august, treasury identified 43 entities
                                                                                          negotiations.
in the banking, investment, mining, engineering, insurance,
energy, petroleum, and petrochemical industries determined to                             the financial measures the u.s. and others are implement­
be owned or controlled by the government of Iran pursuant to                              ing are imposing serious costs and constraints on Iran. Iran is
the Iranian transactions regulations (Itr). finally, treasury                             effectively unable to access financial services from reputable
issued an advisory to financial institutions about the financial                          banks and is increasingly unable to conduct major transactions
provisions in unscr 1929.                                                                 in dollars or euros. over the last several months alone, dozens of
                                                                                          companies have announced publicly that they have curtailed or


Treasury Outcomes                                  Performance Goals                                                                    Focus Areas
 Removed or reduced threats to national security   TFI effectively employed tools and authorities to further U.S. Government policy     Impact of policy making, outreach, and
 from terrorism, proliferation of weapons of       objectives and mitigate national security threats                                    diplomacy
 mass destruction, drug trafficking and other
 criminal activity on the part of rogue regimes,                                                                                        Impact of economic sanctions
 individuals, and their support networks           Support the formulation of Treasury policy and the execution of departmental         Impact of information and analysis
                                                   authorities through all-source analysis of the global financial network
                                                   Provide Treasury Department decision makers with timely, accurate, and relevant
                                                   intelligence support on the full range of economic, political, and security issues
 Safer and more transparent U.S. and               Anti-money laundering and combating financing of terrorism regulations are           Impact of activities to create safer and
 international financial systems                   administered effectively and efficiently                                             more transparent financial systems




strategic objective: pre-empted and neutralized threats to the
international financial system and enhanced u.s. national security                                                                                                         107
                                    the department of the treasury




                                    eliminated their business ties to Iran. Iran is increasingly unable   the tftP has provided thousands of valuable leads to u.s.
                                    to secure needed foreign investment, financing, and technology        government agencies and other governments.
                                    to modernize its aging energy infrastructure, threatening its oil
                                                                                                          Privacy protections in the program specify that the data in
                                    and gas production and export capacity.
                                                                                                          the tftP may only be searched in connection with a specific
                                    reports indicate that the regime is worried about the impact          counterterrorism investigation and not for any other purpose.
                                    of these measures, especially on its banking system and on its        the tftP data can be searched only if an independent basis
                                    prospects for economic growth. for instance, in september,            exists to believe that the subject of a search is connected
                                    former Iranian President rafsanjani publicly warned leaders           to terrorism or its financing. this independent evidentiary
                                    in Iran to take the sanctions seriously. he said that, “We have       predicate must be recorded before any search in the tftP
                                    never had such intensified sanctions and they are getting more        data is conducted. to verify the tftP’s robust safeguards, an
                                    intensified every day. Whenever we find a loophole, they [the         independent auditor reviews the program’s physical security,
                                    Western powers] block it.” the strategy is creating leverage to       ensures proper procedures are implemented, and confirms that
                                    enhance u.s. government diplomatic options.                           no data mining occurs.

                                    on september 29, 2010, President obama signed an executive
                                    order that imposes sanctions on Iranian officials determined          Targeted Threats to the International
part 2: annual performance report




                                    to be responsible for or complicit in serious human rights            Financial System Through Financial
                                    violations. President obama identified eight individuals who          Sanctions
                                    share responsibility for the sustained and severe violation of        treasury seeks to ensure that the financial networks of terrorists,
                                    human rights in Iran since the June 2009 disputed presidential        WMD proliferators, and other criminals are degraded in order to
                                    election. as a result of this action, u.s. persons are prohibited     undermine their illegitimate activities. ofac continues to send
                                    from engaging in transactions with these individuals, and these       the message that violations of u.s. economic sanctions will not
                                    individuals cannot access any property in the u.s. or in the          be handled lightly. since January 2010, treasury has imposed
                                    possession or control of u.s. persons.                                penalties or entered into settlement agreements totaling
                                                                                                          over $200 million for alleged violations of the united states’
                                                                                                          economic sanctions targeting Iran, sudan, cuba, burma, and
                                    Finalized Terrorist Finance Tracking
                                                                                                          designated narcotics traffickers. these penalties and settlements
                                    Program Agreement
                                                                                                          are from cases involving, among other things, the export of
                                    treasury, in conjunction with the Departments of Justice
                                                                                                          aircraft to Iran, the provision of shipping services to Iran and
                                    and state, successfully led negotiations for a new terrorist
                                                                                                          sudan, and the use of vessels owned or managed by the IrIsl.
                                    finance tracking Program agreement (tftP) with the eu.
                                                                                                          the figure also includes ofac’s most recent settlement with a
                                    the agreement was ratified by the european Parliament in
                                                                                                          major international bank, reached in conjunction with relevant
                                    July 2010. the new accord entered into force on august 1 and
                                                                                                          state, federal, and international authorities, involving the
                                    allows the treasury Department to subpoena financial payment
                                                                                                          manipulation of payment data which allowed sanctions targets
                                    messaging data stored in the eu for use in u.s. counterterrorism
                                                                                                          to surreptitiously access the u.s. financial system for over two
                                    investigations. With the resumption of the full functioning of
                                                                                                          decades. the latest bank settlement brings the total amount in
                                    the tftP, the u.s. and the eu restored this highly valuable
                                                                                                          settlements for similar conduct to nearly $930 million.
                                    counterterrorism tool that has aided in the prevention of terror­
                                    ist attacks and investigations.                                       treasury designates foreign adversaries and networks of compa­
                                                                                                          nies, other entities, and associated individuals pursuant to an
                                    after the terrorist attacks on september 11, 2001, the
                                                                                                          eo or statute, and u.s. persons are prohibited from conducting
                                    Department of the treasury initiated the tftP to identify,
                                                                                                          transactions, providing services, and other associated dealings
                                    track, and pursue terrorists and their networks. the treasury
                                                                                                          with those designated. the designations made this year varied
                                    Department is uniquely positioned to track terrorist money
                                                                                                          across a range of sanctions programs and areas across the globe,
                                    flows and assist in u.s. government efforts to uncover terrorist
                                                                                                          including narcotics, WMD proliferation, terrorism, and the
                                    cells and map terrorist networks. since the start of the program,



                                                                     strategic goal: prevented terrorism and promoted the nation’s security
                                    108                                               through strengthened international financial systems
                                                              performance and accountability report | fiscal year 2010




Democratic republic of the congo. key activities in fiscal year          Charitable Outreach
2010 are described below.                                                outreach to the charitable sector represents a fundamental
  •	   treasury sustained a campaign of sanctions against Iran,          objective for treasury in its broader campaign to combat terror­
       its agents, and its front companies in response to Iran’s         ist financing. treasury’s ongoing engagement with the charitable
       continued defiance of various unscr. ofac designated              community strives to protect charities from terrorist abuse and
       23 individuals and entities involved in Iran’s efforts to         empower the sector to adopt and implement effective safeguards
       proliferate WMD under eo 13382; identified a subsidiary           against terrorist exploitation. treasury Department officials have
       contributing to Iran’s proliferation efforts; identified 27 new   continued their active engagement with donor communities
       vessels and updated entries of 71 vessels; designated nine        and other components of the u.s. government to help promote
       entities and individuals involved in Iran’s support for ter­      safe and transparent charitable giving, while protecting against
       rorism under eo 13224; and identified 43 targets as acting        terrorist financing.
       for, acting on behalf of, being owned, or being controlled
       by the government of Iran.                                        this summer, the treasury Department published a factsheet
                                                                         entitled “Protecting charitable giving: frequently asked
  •	   treasury designated 21 individuals and entities pursuant to
                                                                         Questions.” this document provides substantial information
       eo 13224 with respect to terrorism, including the July 16,




                                                                                                                                              part 2: annual performance report
                                                                         about the treasury Department’s approach to combating terror­
       2010 designation of anwar al-awlaki, a key leader for
                                                                         ist abuse of charities and answers important questions raised by
       al-Qa'ida in the arabian Peninsula; a yemen-based terrorist
                                                                         the charitable sector and the donor communities concerning
       group; and the July 22, 2010 designation of three key lead­
                                                                         charitable giving. the factsheet reflects significant dialogue
       ers and financiers for the taliban and its affiliated group,
                                                                         with the charitable sector and also serves as a prime example of
       the haqqani network.
                                                                         outreach to Muslim communities in the united states.
  •	   treasury continued to support Mexican counter narcotics
       law enforcement. In august, 2010, ofac Director adam
       szubin met with private and public sector officials in
                                                                         Strengthened Intelligence to Counter
       Mexico city to strengthen coordination and cooperation            Violent Extremism and Nuclear
       between treasury and Mexican actions against cartels.             Proliferation
       During the year, treasury has designated 49 individuals and       this year, treasury strengthened its ability to shape intelligence
       25 entities associated with Mexican drug cartels, enhanced        analysis and drive collection on the global financial network.
       information exchange with the Mexican financial intel­            treasury has provided analysis of terrorist groups including
       ligence unit (fIu), and improved coordination on a variety        al-Qa’ida and its affiliates, the taliban, hamas, and hizballah;
       of counter narcotics initiatives targeting the arellano felix     WMD proliferation networks; violent extremism and corruption
       organization, beltran leyva organization, and the sinaloa         in afghanistan and Pakistan; Iraqi insurgency support networks;
       cartel.                                                           and nation-states that challenge u.s. interests, such as Iran and
  •	   treasury designated 37 individuals and 37 entities pursuant       north korea.
       to the foreign narcotics kingpin Designation act, and 42
       individuals and 37 entities pursuant to eo 12978 targeting        Countered Insurgency in Afghanistan
       drug traffickers and their networks centered in colombia.         treasury served a leading role in the establishment of the
  •	   In april and June of 2010, treasury designated six militia        afghanistan threat finance cell (atfc) this year. the atfc
       leaders involved in atrocities in the Democratic republic of      is a kabul-based task force charged to enhance the collection,
       the congo.                                                        exploitation, analysis, and dissemination of intelligence to
  •	   In april 2010, the President issued an eo to address the          combat funding and support for the taliban and other terrorist
       conflict in somalia. shortly following the announcement,          and insurgent networks in afghanistan. the atfc provides
       treasury implemented a new sanctions program based                threat finance expertise to u.s. civilian and military leaders and
       on that eo and designated 12 persons identified by the            assists afghan authorities in their investigations into insurgent
       President as contributing to the somali conflict.                 finance, narcotics trafficking, and government corruption.
                                                                         through this assistance, the atfc has helped to build the


strategic objective: pre-empted and neutralized threats to the
international financial system and enhanced u.s. national security                                                                    109
                                    the department of the treasury




                                    capacity of afghan authorities to operate independently, a key      (IeePa), to violate the trading with the enemy act (tWea),
                                    u.s. policy goal in afghanistan.                                    and to violate the bsa. of this amount, $250 million will be
                                                                                                        equitably shared with the Department of Justice forfeiture fund.
                                    Targeted Organized Crime in Mexico
                                    over the past year and in close collaboration with Mexican          Conclusion
                                    counterparts, treasury increased efforts to combat money            tfI discontinued all of its previously reported performance
                                    laundering and target the financial underpinnings of criminal       measures and began applying its composite performance metric
                                    organizations in Mexico. treasury ramped up its technical           “Impact of tfI programs and activities” during fiscal year 2009.
                                    assistance program in Mexico to address key money laundering        tfI met its targets for its two measures. tfI achieved a high
                                    vulnerabilities through courses on forensic accounting, financial   impact for its measure “Impact of tfI programs and activities.”
                                    investigations, and financial sector supervision.                   the external review process for this performance metric still
                                                                                                        needs to be developed, but the implementation of this measure
                                    Prevented North Korean Proliferation and                            is a large step in the effort to measure performance for a policy
                                                                                                        office that also has operational responsibilities. tfI and the
                                    Other Illicit Activities
                                                                                                        Department will continue to refine how the measure is rated
                                    the u.s. government has longstanding concerns regard­
part 2: annual performance report




                                                                                                        and scored. In addition, teoaf achieved 93 percent of for­
                                    ing north korea’s involvement in a range of illicit activities
                                                                                                        feited cash proceeds resulted from high-impact cases, exceeding
                                    conducted through government agencies and associated
                                                                                                        its target of 75 percent.
                                    front companies. In august 2010, President obama issued an
                                    eo freezing the assets of certain persons with respect to the
                                    Democratic People’s republic of korea (north korea). this           Moving Forward
                                    new eo expands the scope of the national emergency declared         Enforcing the New Iran Legislation
                                    in eo 13466 of June 26, 2008 and targets north korean arms
                                                                                                        as part of treasury’s overall strategy with respect to Iran, ofac
                                    trafficking, luxury goods procurement, and illicit economic
                                                                                                        will investigate foreign financial institutions whose dealings
                                    activities. the eo directs the secretary of the treasury, in
                                                                                                        with Iran may subject them to special measures related to
                                    consultation with the secretary of state, to target for sanctions
                                                                                                        legislation passed by congress on July 1. In addition to financial
                                    individuals and entities facilitating north korean trafficking
                                                                                                        institutions, the focus on Iran will include cases involving ship­
                                    in arms and related materiel; procurement of luxury goods;
                                                                                                        ping and the export of sensitive goods to Iran. ofac intends
                                    and engagement in illicit economic activities, such as money
                                                                                                        to continue announcing major enforcement actions involving
                                    laundering, the counterfeiting of goods and currency, bulk cash
                                                                                                        alleged violations of Iranian sanctions over the coming year. by
                                    smuggling, and narcotics trafficking.
                                                                                                        working closely with our colleagues at other agencies, ofac
                                                                                                        will increase the number of entities designated and enforcement
                                    Major Asset Seizures and Forfeitures                                cases resolved by ofac and the Department of Justice or the
                                    teoaf’s mission is to affirmatively influence the consistent        Department of commerce.
                                    and strategic use of asset forfeiture by law enforcement bureaus
                                    from the Department of the treasury and Justice to disrupt and      Strengthening Economic Sanctions Against
                                    dismantle criminal enterprises. the treasury forfeiture fund        other Targets
                                    had a uniquely robust year with over $1 billion in forfeitures      the treasury Department will work to implement a new
                                    and recoveries, including $134 million in the credit suisse case.   sanctions program established by President obama targeting
                                    Irs-cI and the federal bureau of Investigations jointly inves­      north korean illicit activity and will continue to implement
                                    tigated the abn-aMro bank case. In May 2010, the former             pre-existing sanctions targeting north korean proliferation
                                    abn-aMro bank n.V., now named royal bank of scotland                activities. the new sanctions program, announced on august
                                    n.V., agreed to forfeit $500 million to the united states in        30, enhances u.s. implementation of united nations security
                                    connection with a conspiracy to defraud the united states,          council resolutions 1718 and 1874 on north korea, addresses
                                    to violate the International emergency economic Powers act


                                                                    strategic goal: prevented terrorism and promoted the nation’s security
                                    110                                              through strengthened international financial systems
                                                            performance and accountability report | fiscal year 2010




threats to u.s. national security, and protects the international    Supporting Efforts in Afghanistan
financial system from north korea’s abuse.                           treasury will deploy personnel to the atfc to enhance the
                                                                     collection, analysis, and dissemination of timely and relevant
consistent with u.s. foreign policy priorities, ofac will
                                                                     financial intelligence to combat funding and support for terrorist
continue its strengthening of sanctions against targets such as
                                                                     and insurgent networks in afghanistan. treasury will continue
sudan, Zimbabwe, and burma.
                                                                     to investigate bulk cash movements and illicit financial flows in
Supporting the National Intelligence Strategy                        and out of afghanistan. treasury will deploy personnel to the
                                                                     attaché office within the u.s. embassy in kabul to augment
over the coming year, oIa will further develop analysis and
                                                                     treasury’s efforts to bolster the regulatory and investigative
collection to support the national Intelligence strategy on
                                                                     capacity of the afghan government to combat illicit finance.
economic issues such as illicit finance and global cyber threats
to financial systems. oIa will also increase cooperation across
                                                                     Supporting Southwest Border Efforts
the intelligence community on international financial issues
                                                                     In fiscal year 2011, teoaf will focus its resources to enhance
and threats to global financial stability. oIa will provide expert
                                                                     support of law enforcement’s southwest border strategy,
intelligence analysis to support targeted financial measures
                                                                     national Money laundering strategy, and anti-terrorism financ­




                                                                                                                                          part 2: annual performance report
against the networks that fund terrorist and insurgent groups
                                                                     ing efforts. teoaf will provide support to enhance criminal
and support nuclear weapons proliferation, such as al-Qa’ida
                                                                     investigations related to criminal activities on the southwest
and its affiliates, the taliban, hamas, and hizballah.
                                                                     border to deprive criminal enterprises of their profits and
Combating Illicit Finance                                            enabling assets. teoaf will also use its resources to strengthen
                                                                     outbound infrastructure at Ports of entry in order to effectively
treasury will continue to work with interagency colleagues
                                                                     target bulk currency that is smuggled across the border to fuel
and international counterparts to promote strong controls and
                                                                     drug and human smuggling enterprises.
best practices for anti-money laundering and combating the
financing of terrorism. this will guard against illicit finance in
the formal financial sector.




strategic objective: pre-empted and neutralized threats to the
international financial system and enhanced u.s. national security                                                                111
                                    the department of the treasury




                                    safer         anD        mOre transparent u.s. anD i nternatiOnal finanCial s ystems
                                    five performance measures are associated with this outcome. treasury exceed or met targets set for four of the five measures, and
                                    narrowly missed one. overall 81 percent of the measures exceeded their targets, and some targets were exceeded by large margins.

                                    Key Performance Measure Table
                                    the following table contains only key performance measures associated with this outcome. actual and target trends represent four
                                    years of data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/
                                    management/dcfo/accountability-reports.

                                                                                                                                                       Percent Percent                                 4-year   4-year
                                                                                                                          2009      2010     2010     of Target Change in Performance          2011    Target   Actual
                                    Key Performance Measure                                                   Bureau     Actual    Target   Actual    Achieved Actual        Rating           Target   Trend    Trend

                                     Average time to process enforcement matters (in years)                   FinCEN       1         1       0.8       120.0%        -20.0%        Exceeded     1               

                                     Percent of federal and state regulatory agencies with memoranda of       FinCEN      43        46       46        100.0%         7.0%           Met       50               
                                     understanding/information sharing agreements (%)
                                     Percent of FinCEN's compliance MOU holders finding FinCEN's              FinCEN      82        68       86        126.5%         4.9%         Exceeded    86               
part 2: annual performance report




                                     information exchange valuable to improve the BSA consistency and
                                     compliance of the financial system (%)
                                     Percentage of bank examinations conducted by the Federal Banking         FinCEN      2.1       5.2      1.6       169.2%        -23.8%        Exceeded    5.2              
                                     Agencies indicating a systemic failure of the anti-money laundering
                                     program rule (%)
                                     Percentage of customers satisfied with the BSA E-Filing (%)              FinCEN      94        90       96        106.7%         2.1%         Exceeded    92               
                                     Percentage of customers satisfied with direct access to BSA (%)          FinCEN      74        74       74        100.0%         0.0%           Met       74               
                                     Percentage of FinCEN's Regulatory Resource Center Customers rating FinCEN            94        90       92        102.2%        -2.1%         Exceeded    90               
                                     the guidance received as understandable (%)
                                     Share of BSA filings submitted electronically (%)                        FinCEN      82        71       83        116.9%         1.2%         Exceeded    73               
                                     The percentage of domestic law enforcement and foreign financial           FinCEN    81        81       80         98.8%        -1.2%          Unmet      80               
                                     intelligence units finding FinCEN's analytical reports highly valuable (%)


                                    Analysis of Performance Results                                                                                Legend                                     Symbol

                                    fincen has 16 measures for fiscal year 2010, and 94 percent                                                    Favorable upward trend                       
                                                                                                                                                   Favorable downward trend                     
                                    of its targets were achieved. five measures are used to score
                                                                                                                                                   Unfavorable upward trend                     
                                    the focus area, “impact of activities to create safer and more
                                                                                                                                                   Unfavorable downward trend                   
                                    transparent financial systems” for the overall tfI measure.
                                                                                                                                                   No change in trend, no effect                
                                    those measures are:                                                                                            No change in trend, favorable effect         
                                      •	   average time to process enforcement matters                                                             No change in trend, unfavorable effect       
                                                                                                                                                   Baseline                                      B
                                      •	   Percentage of fincen’s regulatory resource center
                                           customers rating the guidance received as understandable
                                      •	   Percentage of domestic law enforcement and foreign                                     In the regulatory area, fincen continues to increase activities to
                                           intelligence units finding fincen’s analytic reports highly                            monitor financial institutions examined for bsa compliance by
                                           valuable                                                                               state and federal regulators through the establishment of Mous
                                                                                                                                  to exchange compliance information. In 2010, fincen executed
                                      •	   Percentage of customers satisfied with the bsa e-filing
                                                                                                                                  four additional Mous and met its fiscal year 2010 target of 46
                                      •	   Percentage of customers satisfied with direct access to bsa                            percent of federal/state regulatory agencies with Mous. these
                                                                                                                                  Mous help ensure effective application of the bsa regulations
                                    fincen achieved a score of 7.8 out of 10 possible points.



                                                                              strategic goal: prevented terrorism and promoted the nation’s security
                                    112                                                        through strengthened international financial systems
                                                             performance and accountability report | fiscal year 2010




across all regulated financial service industries by providing vital   satisfaction level. fincen will continue outreach to e-filers and
compliance data. fincen will continue collaborating with state         ensure the technology supports the demand.
insurance commissioners and other regulatory agencies to sign
                                                                       the following sections describe efforts undertaken by fincen
additional agreements to meet future targets.
                                                                       in 2010. these results are the basis for assessing fincen’s
fincen surveys its compliance Mou holders to determine                 impact and are reflected in their performance results.
the impact of the information exchange to improve the bsa
consistency and compliance of the financial system. In fiscal          Leveraged Partnerships with U.S. Law
year 2010, 86 percent of them rated the information exchange
                                                                       Enforcement and Mexican Foreign
as valuable, and fincen exceeded its target. fincen will
                                                                       Intelligence Unit
continue to facilitate valuable relationships with Mou holders
                                                                       fincen continued to leverage partnerships with u.s. law
to meet future targets.
                                                                       enforcement and the Mexican fIu to support the detection,
fincen’s goal to provide financial institutions with understand­       interdiction, and investigation of the flow of illicit proceeds
able guidance through the bsa resource center is critical to           from narcotics and human smuggling into u.s. and Mexican
institutions establishing anti-money laundering programs that          financial institutions. In support of these efforts, fincen




                                                                                                                                           part 2: annual performance report
comply with the bsa. fincen met its target in fiscal year 2010         completed a joint study with the Mexican fIu of u.s. dollar
with 92 percent. to meet future targets, fincen will continue          currency flows between the u.s and Mexico. the study provides
to strive for consistently high customer satisfaction levels.          a more accurate baseline of u.s. dollar currency activity in
                                                                       Mexico from which both countries can more effectively measure
fincen also works closely with its regulatory partners to take         the scope of bulk cash smuggling into Mexico and the effec­
enforcement action against financial institutions that systemi­        tiveness of future aMl and cash interdiction efforts. fincen
cally and egregiously violate the provisions of the bsa, includ­       dedicated a staff member to work with the Mexican fIu and
ing through imposition of civil money penalties when appropri­         undertook the following in support of u.s. and Mexican law
ate. enforcement action is essential to deter non-compliance           enforcement efforts:
with the bsa. In fiscal year 2010, fincen’s target was to
                                                                         •	   Produced a joint intelligence advisory with the national
process enforcement matters in 1.0 year, and fincen exceeded
                                                                              Drug Intelligence center (nDIc) on trends in trade based
the target at 0.8 years. fincen will continue to actively manage
                                                                              Money laundering and black Market Peso exchange
casework to meet future targets.
                                                                         •	   Initiated support to a newly-created southwest border
In the analytical area, fincen supports domestic law enforce­                 anti-Money laundering alliance through the analysis of
ment and international fIu partners by providing analyses                     wire remittance data
of bsa and other financial information, and measures the                 •	   Issued an advisory on a new Mexican regulation that may
percentage of customers finding fincen’s analytic reports highly              precipitate a significant change in recent cash smuggling
valuable. the measure closely ties to how bsa information is                  trends and conducted studies on the impact of the new
used by law enforcement and international fIus to identify, in­               regulation on money from the region
vestigate, and prevent abuse of the financial system. In fiscal year
                                                                         •	   Developed suspected Mexican cartel money launder­
2010, fincen achieved 80 percent, narrrowly missing its target
                                                                              ing targets and referred them to u.s. and Mexican law 

of 81 percent. fincen will continue its efforts to solicit input
                                                                              enforcement

from customers on types of products they would like and possible
ways to improve the structure of its reports to meet future targets.   fincen continues to coordinate investigative follow-up of
                                                                       these targets with u.s. law enforcement and to develop plans
In the efficient management, safeguarding, and use of bsa
                                                                       and processes for future targeting efforts.
information, fincen conducts a survey of the users of the bsa
e-filing system to determine overall satisfaction and to identify
where improvements are needed. fincen achieved 96 percent




strategic objective: pre-empted and neutralized threats to the
international financial system and enhanced u.s. national security                                                                  113
                                    the department of the treasury




                                    Collaborated with and Support to                                     groups of the ffetf, including acting, along with the executive
                                    Foreign Intelligence Units                                           office for the u.s. attorneys, as co-chair of the task force’s
                                    fincen completed its sponsorship of the afghan fIu, known            training and Information sharing committee.
                                    as fintraca, into the egmont group, the global organization
                                    of fIus. fintraca became a member of the egmont group in             Enhanced Mechanisms to Combat
                                    June 2010, allowing it to engage with the other 119 fIus that        Mortgage and Loan Modification Fraud
                                    form the global network for sharing financial intelligence. fIus     fincen continued to combat mortgage fraud, foreclosure
                                    in the egmont group share information relating to thousands          rescue scams, and loan modification fraud. fincen published
                                    of investigations per year. the multi-year sponsorship process       an advanced notice of proposed rulemaking on the possible
                                    culminated with fincen’s on-site assessment of fintraca to           application of aMl and suspicious activity reporting require­
                                    ensure that the unit complied with egmont group standards.           ments to non-bank residential mortgage lenders and originators.
                                    fintraca’s membership in the egmont group will benefit               the application of such rules would close a regulatory gap by
                                    law enforcement agencies in the united states and throughout         requiring non-bank residential mortgage lenders and originators
                                    the world by facilitating the exchange of information through        to guard against and report on illicit actors engaging in financial
                                    fIu channels. fincen also placed a staff member to work with         transactions.
                                    fintraca to foster tactical information sharing between the
part 2: annual performance report




                                    fIu and u.s. law enforcement.                                        In addition, fincen published its latest mortgage fraud-related
                                                                                                         analytic report in July 2010, the eighth in a series of products
                                    fincen continued outreach and liaison activities to improve          describing filing trends, evolving patterns, emerging typologies,
                                    the quality and quantity of financial intelligence exchanged         as well as analysis of depository institution suspicious activity re­
                                    between fincen and foreign fIus. fincen continued its                ports (sars) that report mortgage fraud. the report contained
                                    leadership role in the egmont group to promote effective in­         information that may be beneficial to law enforcement, regula­
                                    formation sharing. fincen played a key role on egmont group          tors, and the financial industries. In June 2010, fincen released
                                    projects on enterprise-wide suspicious transaction report (str)      a report specifically describing trends found in sars reporting
                                    sharing in the private sector and fIu issues relating to financial   loan modification and foreclosure rescue scams. the relevant
                                    action task force (fatf) mutual evaluations. on behalf of            sars increased from 28 reports filed by depository institutions
                                    the egmont group, fincen developed and managed the most              and money services businesses in 2004, to over 3,000 sars filed
                                    comprehensive database on fIu information in the world.              in 2009. the sars in the sample dataset revealed that in the
                                    fincen created and disseminated tactical financial intelligence      eight months between the issuance of an april 2009 fincen
                                    reports to egmont group fIus and managed case exchange with          advisory, filers increased reporting by over 100 percent during
                                    fIus on behalf of u.s. law enforcement and regulatory agencies.      the entire five-year period. the april 2009 fincen advisory
                                    these intelligence products are integral to domestic and foreign     provided indicators of loan modification and foreclosure rescue
                                    investigations of money laundering, financial fraud, and terrorist   fraud and requested filers to report such activity in sars.
                                    financing around the world.
                                                                                                         fincen also continued to support u.s. government efforts to
                                    President obama established the financial fraud enforcement          combat mortgage fraud and to bring relief to america’s housing
                                    task force (ffetf) in november 2009. With more than 20               market and homeowners by increasing its analytical support to
                                    federal agencies, 94 u.s. attorneys’ offices, and state and local    investigations and prosecutions. fincen published an updated
                                    partners, ffetf is the broadest coalition of law enforcement,        advisory to financial institutions on loan modification fraud
                                    investigative, and regulatory agencies ever assembled to combat      in June 2010 and an advisory to financial institutions on fraud
                                    financial fraud. fincen also undertook efforts to expand infor­      related to home equity conversion mortgages (hecMs) in
                                    mation sharing across the u.s. government in a coordinated           april 2010. through its involvement in the ffetf, fincen
                                    manner, worked to increase understanding of the value and            leveraged the relationships and techniques it developed in the
                                    utilization of bsa data for investigative purposes, and supported    mortgage fraud context to initiate similar efforts in the areas of
                                    ffetf’s events with analytical packages and demonstrations.          health care fraud and securities fraud.
                                    fincen also participated in committees and other working


                                                                    strategic goal: prevented terrorism and promoted the nation’s security
                                    114                                              through strengthened international financial systems
                                                              performance and accountability report | fiscal year 2010




fincen was recognized by the DoJ for playing an important                 in fiscal year 2010. fincen expects to continue and expand this
role in operation stolen Dreams, an effort over 3.5 months                promotional campaign into fiscal year 2011.
to take down mortgage fraud schemes across the country. the
operation involved 1,215 criminal defendants nationwide who               Modernize BSA IT system
were allegedly responsible for more than $2.3 billion in losses.
                                                                          In May 2010, fincen launched the design phase of the bsa It
                                                                          Modernization program. the modernization effort will enrich
Collaborated to Detect Healthcare Fraud                                   and standardize bsa data, evaluate and deploy analytical tools,
fincen proposed to work closely with the Departments of                   establish more effective security technologies to enhance data
health and human services and Justice, and other federal and              confidentiality and integrity, and improve customer satisfaction
state law enforcement agencies to identify increasingly complex           with bsa systems. During the design phase fincen will begin
health care fraud schemes. fincen developed an initiative                 defining the technology to support the business requirements
to use the bsa analytical assessments to identify the most                for the new bsa system of record, basic and advanced analytic
egregious individual perpetrators and organized groups in health          capabilities, enhanced e-filing functionality, as well as improved
care fraud schemes. fincen is working with the health care                customer relations capabilities. fincen has already completed
fraud Prevention and enforcement action team (heat).                      the necessary planning efforts and established the foundation to




                                                                                                                                               part 2: annual performance report
heat brings investigators and prosecutors together in targeted            guide all future activities.
geographical areas to target individuals and organizations who
are defrauding the health care system. through this analytical            Regulatory Efforts
process, fincen will be able to provide the investigators with
                                                                          In the regulatory area, fincen’s policy efforts focus on efficient
an overall assessment of the targeted jurisdictions, as well as
                                                                          and effective bsa administration. this includes ensuring the
the organizations and individuals that are suspected of being
                                                                          consistent application of bsa regulations to regulated financial
engaged in health care fraud schemes. fincen already provided
                                                                          institutions, providing guidance on regulatory expectations, and
assistance to the largest federal health care fraud takedown in
                                                                          initiating enforcement actions when appropriate.
u.s. history: 94 people in four cities were charged for allegedly
participating in schemes to submit more than $251 million in              to enhance bsa compliance, fincen developed analysis cri­
false Medicare claims.                                                    teria to more effectively leverage bsa data to identify potential
                                                                          non-compliant institutions. this strategy should enable fincen
Outreach to Increase the Use of BSA                                       to enhance collaboration with law enforcement to identify
E-filing                                                                  sources of lead information and become even more proactive
                                                                          in identifying and taking action against non-compliant institu­
fincen initiated an important outreach campaign to increase
                                                                          tions, including targeted examination referrals and enforcement
the use of its bsa e-filing Program and thereby reduce the vol­
                                                                          measures as warranted.
ume of paper bsa forms being processed. as a part of that effort,
fincen published an article on bsa e-filing in the october                fincen issued a final rule enhancing domestic and interna­
2009 sar activity review that outlined recent enhancements                tional information sharing to thwart money laundering and
to the system and explained the benefits of filing electronically.        terrorist finance. this rule conforms fincen’s successful 314(a)
fincen also developed and published an informational brochure             program with the treaty agreements between the u.s. and the
highlighting the benefits of the bsa e-filing Program. using              eu. the rule greatly benefits the u.s. by granting federal law
that brochure and in coordination with its federal government             enforcement agencies reciprocal rights to obtain information
examination partners, fincen contacted the largest filers of              about suspect accounts in eu member states. the final rule also
paper currency transaction reports (ctrs) to explain the ben­             gives u.s. state and local law enforcement agencies access to
efits of filing electronically. as a result of these efforts, a growing   the program and further clarifies that fincen and certain units
number of contacted institutions have adopted the bsa e-filing            of the treasury Department can access the program to increase
Program and the percentage of bsa filings filed electronically            the quality of analytical support provided to law enforcement.
has increased from 71 percent in fiscal year 2008 to 83 percent



strategic objective: pre-empted and neutralized threats to the
international financial system and enhanced u.s. national security                                                                     115
                                    the department of the treasury




                                    fincen published guidance on obtaining and retaining                   by large margins. actual results for 37.5 percent of measures
                                    beneficial ownership information. Information on beneficial            showed decreases from last year, while 50 percent saw increases
                                    ownership in account relationships provides another tool for           and 12.5 percent saw no change. fiscal year 2010 performance
                                    financial institutions to better understand and address money          exceeded targets for 10 measures.
                                    laundering and terrorist financing risks, protect themselves from
                                    criminal activity, and assist law enforcement with investigations      Moving Forward
                                    and prosecutions. fincen worked closely with its regulatory
                                                                                                           fincen’s future plans in the regulatory area will improve its
                                    partners to develop the guidance, which was issued jointly with
                                                                                                           ability to strengthen financial system security and enhance u.s.
                                    the federal banking agencies and the securities and exchange
                                                                                                           national security. to ensure financial systems are resistant to
                                    commission.
                                                                                                           abuse by money launderers, terrorists and other perpetrators of
                                    fincen is close to finalizing rules strengthening the confi­           financial fraud and crimes, fincen will:
                                    dentiality of sars and released guidance that permits certain            •	   finalize regulations for non-bank residential mortgage
                                    affiliates of depository institutions, broker-dealers in securities,          lenders and originators that apply aMl program and sar
                                    mutual funds, futures commission merchants, and introduc­                     requirements. this initiative will support efforts to prevent
                                    ing brokers in commodities to share sars within a corporate                   criminal actors from abusing the housing markets and help
part 2: annual performance report




                                    organizational structure for purposes consistent with title II                bring other participants in the loan and finance industry
                                    of the bsa. the revised rules will help financial institutions                under the bsa;
                                    better facilitate compliance with the applicable requirements            •	   finalize proposed amendments to clarify the scope of the
                                    of the bsa and more effectively implement enterprise-wide                     money services business (Msb) definitions to the extent
                                    risk management, resulting in better risk assessment and better               consistent with appropriately managing money laundering
                                    reporting quality.                                                            risks in this industry;

                                    fincen published an assessment of insurance sar reporting,               •	   finalize proposed regulations to bring providers and certain
                                    an assessment of the impact of streamlined ctr exemption                      sellers of prepaid access cards into more comprehensive
                                    rules, and a simplified, revised regulatory structure in the                  bsa requirements, including the aMl program, suspicious
                                    federal register to reorganize bsa regulations under chapter                  activity reporting, registration, and customer identification
                                    X of the code of federal regulations. the assessments provide                 requirements;
                                    valuable information to the industry, and the reorganization             •	   continue to conduct analysis in support of regulatory
                                    would ensure that financial institutions are able to identify                 initiatives (such as identity theft) and efforts to combat
                                    bsa obligations in a more understandable manner when the                      mortgage loan fraud. the analysis will identify emerging
                                    structure becomes effective in fiscal year 2011.                              trends (such as commercial real estate fraud); and
                                                                                                             •	   continue to enhance proactive compliance and enforce­
                                    In March 2010, fincen announced the assessment of a civil
                                                                                                                  ment efforts, including targeted steps to increase money
                                    money penalty, $110 million, against Wachovia bank. the
                                                                                                                  transmitter registration. fincen will also continue to
                                    action represents the largest penalty action to date against a
                                                                                                                  strengthen oversight of recently-covered industries under
                                    financial institutions by fincen for violations of the bsa.
                                                                                                                  the bsa by signing additional information sharing agree­
                                                                                                                  ments with state insurance regulators and working coop­
                                    Conclusion                                                                    eratively with the Irs and state regulators on consistent,
                                    fincen missed only one target this year compared to two last                  risk-based examination procedures.
                                    year. the one target not achieved, “the percentage of domestic
                                    law enforcement and foreign financial intelligence units finding       fincen’s future plans in the analytical area will improve its
                                    fincen’s analytical reports highly valuable,” narrowly missed          ability to strengthen financial system security and enhance
                                    the target by one percentage point. overall 81 percent of the          u.s. national security. to detect and deter financial fraud,
                                    measures exceeded their targets, and some targets were exceeded




                                                                      strategic goal: prevented terrorism and promoted the nation’s security
                                    116                                                through strengthened international financial systems
                                                            performance and accountability report | fiscal year 2010




money laundering, terrorism financing, and other illicit activity,      •	   Increase joint analytical projects with foreign fIu coun­
fincen will:                                                                 terparts through intensified operational engagements with
  •	   continue to work with law enforcement and financial and               key strategic partner fIus. for example, fincen plans to
       international partners to combat Mexican cartel-related               replicate with other foreign fIus a current analytical initia­
       drug, gun, and human smuggling operations in Mexico and               tive involving fincen, the Mexican fIu, and Irs-cI; and
       along the southwest border by improving the sharing and          •	   enhance international information sharing through
       analysis of related financial information;                            expanded collaboration with international bodies, includ­
  •	   continue to work with the southwest border anti-Money                 ing the egmont group, fatf, regional bodies, the World
       laundering alliance and other federal or state efforts to             bank, and the IMf.
       interdict and investigate illicit money laundering on the
                                                                      fincen’s future plans will improve its ability to strengthen
       southwest border through the detection of trends, patterns,
                                                                      financial system security and enhance u.s. national security.
       and significant criminal activity in wire remittance data.
                                                                      to ensure efficient management, safeguarding and use of bsa
       under a state agreement, fincen will receive an estimated
                                                                      information, fincen will:
       100 million records associated with wire transfers to and
                                                                        •	   continue to modernize bsa information management and
       from the Mexican border area from 2005 to 2013;




                                                                                                                                              part 2: annual performance report
                                                                             analysis
  •	   support federal law enforcement efforts to combat health
                                                                        •	   Deploy the new advanced analytical tool on the current
       care fraud by initiating a process to identify potential
                                                                             technical environment
       health care fraud perpetrators and by providing analytical
       support to investigations and prosecutions;                      •	   establish disaster recovery infrastructure
  •	   expand the range of analytical products and identify more        •	   Deploy the registered user Portal, which will provide
       efficiencies in case management of foreign fIu requests.              a common user interface and authentication process for
       fincen intends to dramatically increase the number of                 accessing bsa data
       proactive intelligence reports sent to foreign counterpart       •	   begin the development efforts to build the bsa new 

       fIus. Proactive intelligence reports will enable foreign law          system of record and basic query capabilities

       enforcement agencies to develop new cases or enhance             •	   Implement the ability to electronically enter select forms
       existing ones;                                                        that are currently accepted only via paper filing




strategic objective: pre-empted and neutralized threats to the
international financial system and enhanced u.s. national security                                                                    117
                                    the department of the treasury




                                    strategic goal:
                                    ManageMent anD organIZatIonal eXcellence

                                     strategic objective:
                                            enabled and effective treasury department


                                    the Department of the treasury strives to maintain public trust
                                                                                                          Budget Trend                                 $1,250,000
                                    and confidence through exemplary leadership and creating a            Enabled and
                                    culture of excellence, integrity, and teamwork. the Department        Effective                                    $1,000,000




                                                                                                                              Dollars (in Thousands)
                                                                                                          Treasury
                                    is dedicated to serving the public interest and focused on deliv­     Department                                    $750,000
                                    ering results that align with its strategic objectives. Management
                                                                                                                                                        $500,000
                                    enables this through a strong institution that is citizen-centered,




                                                                                                                                                                               $1,138,100
                                                                                                                                                                    $866,319




                                                                                                                                                                                            $935,132


                                                                                                                                                                                                          $839,007


                                                                                                                                                                                                                     $622,649


                                                                                                                                                                                                                                 $425,196


                                                                                                                                                                                                                                            $444,153
                                    focused on achieving results, and is accountable and transparent                                                    $250,000

                                    to the american people.                                                                                                   $0
part 2: annual performance report




                                                                                                                                                                    2004       2005         2006          2007       2008        2009       2010

                                    strategies to achieve this objective are improved acquisition                                                                                                      Fiscal Year

                                    practices, investing in people and technology, implementing
                                    quarterly performance and budget reviews, and aligning and            Performance                                  $1,200,000
                                                                                                          Cost Trend
                                    managing resources. the treasury Department is committed              Enabled and                                  $1,000,000

                                                                                                                              Dollars (in Thousands)
                                    to planning and assessing performance, reviewing results, and         Effective
                                                                                                                                                        $800,000
                                                                                                          Treasury
                                    working towards continuous improvement.                               Department
                                                                                                                                                        $600,000

                                                                                                                                                        $400,000
                                    the bureaus and offices responsible for achievement of this

                                                                                                                                                                               $1,032,818
                                                                                                                                                                    $858,264




                                                                                                                                                                                            $862,578


                                                                                                                                                                                                          $766,972


                                                                                                                                                                                                                     $507,891


                                                                                                                                                                                                                                 $295,769


                                                                                                                                                                                                                                            $337,389
                                    objective are:                                                                                                      $200,000

                                                                                                                                                              $0
                                      •	   office of the treasury assistant secretary for Management                                                                2004       2005         2006          2007       2008        2009       2010

                                           and chief financial officer (asM/cfo) which includes                                                                                                        Fiscal Year

                                           the Deputy chief financial officer (Dcfo), budget,
                                           Planning, human capital, Information technology,               Performance Cost
                                                                                                          by Outcome
                                           Procurement, Privacy, and operations                           Enabled and                    20.7%
                                                                                                                                                                                                                                79.3%
                                                                                                                                                                                                                                Exceptional
                                                                                                                                     A citizen-                                                                                 accountability
                                                                                                          Effective
                                      •	   office of the treasury Inspector general (oIg)                 Treasury
                                                                                                                                     centered,                                                                                  and transparency
                                                                                                                              results-oriented
                                                                                                          Department
                                      •	   the treasury Inspector general for tax administration                             and strategically
                                                                                                                                       aligned
                                           (tIgta)                                                                               organization


                                      •	   office of the special Inspector general for the troubled
                                           asset relief Program (sIgtarP)

                                    the outcomes associated with this objective are:
                                      •	   a citizen-centered, results oriented and strategically
                                           aligned organization
                                      •	   exceptional accountability and transparency

                                    fifty percent of measures associated with this objective had
                                    targets that were more aggressive compared to 2009.




                                    118
                                                 strategic goal: management and organizational excellence
                                                                        performance and accountability report | fiscal year 2010




a C itizen -C entereD, r esults O rienteD, anD strategiCally a ligneD
OrganizatiOn
based on performance results, treasury succeeded in achieving this outcome for fiscal year 2010.

Key Performance Measure Table
the following table contains only key performance measures associated with this outcome. actual and target trends represent four
years of data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/
management/dcfo/accountability-reports.

                                                                                                           Percent Percent                                 4-year   4-year
                                                                                2009     2010     2010    of Target Change in Performance          2011    Target   Actual
Key Performance Measure                                          Bureau        Actual   Target   Actual   Achieved Actual        Rating           Target   Trend    Trend

 Complete Investigations of EEO Complaints Within 180 Days         DO           65        65      86       132.3%        32.3%         Exceeded    65               
 (%)
 Percent of complainants informally contacting EEO (for the        DO           35        35      51       145.7%        45.7%         Exceeded    40               




                                                                                                                                                                             part 2: annual performance report
 purpose of seeking counseling or filing a complaint) who
 participate in the ADR Process (%)
 Customer Satisfaction Index - Financial Mgmt Admin Support    Treasury         89        80      81       101.3%         -9.0%        Exceeded    80               
 Services (%)                                               Franchise Fund
 Operating expenses as a percentage of revenue--Financial        Treasury       4.72      12       6       150.0%        27.1%         Exceeded   DISC              
 Management Administrative Support (%)                        Franchise Fund


Analysis of Performance Results                                                                        Legend                                     Symbol

In 2010, treasury exceeded all of its performance goals for                                            Favorable upward trend                       
                                                                                                       Favorable downward trend                     
this strategic outcome. furthermore, all measures are now
                                                                                                       Unfavorable upward trend                     
trending in a desirable direction. treasury’s equal employment
                                                                                                       Unfavorable downward trend                   
opportunity (eeo) results are particularly positive suggesting
                                                                                                       No change in trend, no effect                
strengthening of the program. the data also suggests that while                                        No change in trend, favorable effect         
the Department successfully achieved goals for priorities related                                      No change in trend, unfavorable effect       
to this outcome, targets for these measures may not be suf­                                            Baseline                                     B
ficiently aggressive.
                                                                                        both goals, documenting in excess of $241.9 million in savings
Procurement                                                                             vs. the goal of $158.4 million, and $129.4 million in high risk
                                                                                        contracting reduction versus the goal of $48.8 million. the
the office of the Procurement executive (oPe) is responsible
                                                                                        Department has already taken steps to ensure achievement of
for providing department-wide acquisition management, improv­
                                                                                        the required savings of 3.5 percent in fiscal year 2011 ($158
ing guidance for procurement programs and systems, bureau-level
                                                                                        million) and additional reduction in use of high risk contracting
procurement operation evaluation, and facilitating strategic
                                                                                        authorities. While oMb has not mandated a fiscal year 2011
procurement. no performance goals for agency-wide procure­
                                                                                        high risk reduction goal, treasury elected to continue actively
ment were included in treasury’s 2010 performance budget.
                                                                                        transitioning to lower risk contracting strategies. treasury will
the Department executed its fiscal year 2010 plan to meet the                           achieve its targets through active management of acquisition
oMb acquisition improvement mandate to deliver 3.5 percent                              operations and increased examination of high dollar/risk
in procurement savings in fiscal year 2010 (and fiscal year 2011)                       contracts.
and to achieve a ten percent reduction in high risk contracting
in fiscal year 2010. as of september, treasury had exceeded




strategic objective: enabled and effective treasury department                                                                                                       119
                                    the department of the treasury




                                    the Department plan includes specific strategic sourcing             Using taxpayer funding wisely by leveraging
                                    activities that were initiated in both fiscal year 2009 and fiscal   IT investments
                                    year 2010. treasury mandated agency-wide use of the general          treasury is actively using the federal It Dashboard to monitor
                                    services administration (gsa) federal strategic sourcing             and assess its key It investments.
                                    Initiative (fssI) for office supplies 2 (os2) and Domestic
                                    Delivery services 2 (DDs2). the Department also has initi­           While the results for cost and schedule variance in fiscal year
                                    ated several treasury-wide strategic sourcing initiatives, which     2009 showed marked improvement from 2008, they were not in­
                                    include consolidation of software (adobe/symantec) and               dicative of treasury’s performance due to the way in which data
                                    subscription services.                                               was being captured. going forward ocIo is reviewing options
                                                                                                         on what statistics act as best indicators of performance. these
                                    to promote collaboration and make the Department more                metrics are annual snapshots and don’t reflect performance
                                    efficient, treasury held the first ever Joint bureau chief           throughout the year. Ideally, future measures and benchmarks
                                    Procurement officer (bcPo)/ chief financial officer (cfo)            will be consistent with data used by the It Dashboard. the
                                    / chief Information officer (cIo) council meeting focused            project manager qualification measure will be reviewed by
                                    on acquisition reform. later, chief human capital officers           ocIo for follow-up action. the measure requires a longer term
                                    (chcos) were included in the governance model. this “Quad            personnel development and training solution.
part 2: annual performance report




                                    council” identified teams to develop and lead treasury-wide
                                    acquisition improvement initiatives supporting use of strategic                                               Fiscal   Fiscal   Fiscal
                                                                                                                                                   Year     Year     Year
                                    sourcing concepts, demand management, commodity councils,            Measure                                   2008     2009     2010    Change
                                    common technology for visibility and access of data, and              Percent of IT investments reported as   40.33%   1.7%     26%      24.3%
                                                                                                          “red” for cost variance (greater than
                                    improved governance. analysis of research is ongoing with
                                                                                                          10% variance from target)
                                    future actions to be determined based on findings and corporate
                                                                                                          Percent of IT investments reported as   19.4%     0%       9%        9%
                                    potential.                                                            “red” for schedule variance (greater
                                                                                                          than 10% variance from target)
                                    as required by the National Defense Authorization Act for fiscal
                                                                                                          Percent investments reported that       77.42%   83.05    69%      -14.05%
                                    year 2009 and the office of federal Procurement Policy (ofPP),        the Project Manager was validated,
                                    treasury developed an acquisition human capital Plan to               according to 1) Federal Acquisition
                                                                                                          Certification for Program and Project
                                    be used to guide the growth in capacity and capability of its         Managers or 2) Defense Acquisition
                                    acquisition workforce over the next five years. the Plan was          Workforce Improvement Act criteria,
                                                                                                          as qualified
                                    submitted to ofPP in March 2010 and will be updated annu­
                                    ally. the Plan will serve as a component of the agency’s budget
                                    preparation beginning with the fiscal year 2012 budget cycle.        additionally, treasury is actively engaged in data center
                                                                                                         consolidation efforts in support of green It and real Property
                                                                                                         Management. In august 2010, the Department submitted its
                                    Information Technology (IT)
                                                                                                         strategy for reducing the number of treasury data centers to
                                    the office of the chief Information officer is responsible for       oMb. In support of this strategy, the treasury cIo council
                                    all areas of information and technology management. With an          approved proposals of specific initiatives to consolidate and
                                    annual It budget of over $3 billion dollars, the Department is       optimize the Department’s data centers. It is anticipated that
                                    focused on enabling innovation in support of the Department’s        the Department can increase the efficiency of its data centers in
                                    expanding financial and economic missions while also increas­        support of energy reduction and release of real property.
                                    ing the operational efficiency and effectiveness of It assets.
                                    no performance goals for agency-wide It were included as             one specific initiative is the fiscal It consolidation. fMs and
                                    part of treasury’s fiscal year 2010 performance budget. In light     bPD initiated a project to consolidate the data centers across
                                    of the dynamic environment within which treasury operates,           the two bureaus to help achieve the secretary’s objective of
                                    treasury’s It program is focused on the following areas.             increasing the utilization and efficiency of combined It assets,
                                                                                                         while reducing technology costs. the fiscal It effort includes




                                    120                                                 strategic goal: management and organizational excellence
                                                          performance and accountability report | fiscal year 2010




consolidation of five data centers into two shared by both bu­      business processes and information at risk of theft, compromise,
reaus, creation of a single corporate governing body, in-sourcing   and disruption.
of select contracted functions, and consolidation of application
development methodologies and associated infrastructure, all        Providing reliable and robust computing,
leading to a more “green” approach to delivery of It services.      information and communication services
both fMs and bPD anticipate savings due to reductions in            treasury operates one of the largest civilian wide-area networks
energy consumption, equipment, software, and staff.                 in the united states. With a significant percentage of its
                                                                    workforce being mobile, treasury demands a ubiquitous, full­
Enabling an information centric organization                        featured, and cost effective communications service. treasury
treasury investments such as enterprise content Management,         will continue to provide high performing, elastic services by
the Internal revenue service’s customer account Data engine         building on fiscal year 2010 successes in migrating to a common,
II, and fincen’s It Modernization are demonstrably focused          more cost effective wide-area network.
on improving mission performance. effective use of It will also
enable treasury to rapidly begin operations as assigned by the      the Department is currently modernizing several web sites
Dodd–frank act. In addition to business capabilities, treasury      including treas.gov to increase transparency, accessibility,




                                                                                                                                         part 2: annual performance report
It will enable greater public access to data by increasing the      navigability, and usability. to date, treasury has completed an
amount of public data that are readily accessible and in machine    assessment of the current treas.gov website and is in the process
readable formats.                                                   of developing the new design. treasury is moving from an office­
                                                                    based design approach to one which responds to user interests.
to provide timely reporting and monitoring of select cyber          the treas.gov website will be the first federal website rated
security metrics, treasury developed and deployed a Web-based       at the Federal Information Security Management Act (fIsMa)
dashboard that provides real time analysis and an indexed cyber     moderate level to be hosted on the amazon cloud computing
security posture. this dashboard can be easily updated to reflect   platform. additionally, treasury deployed MyMoney.gov to pro­
changes in metrics reported to oMb and to meet evolving cyber       vide financial education to the general public one month ahead
security status monitoring and trend analysis requirements.         of schedule in fiscal year 2010. finally, treasury also deployed
                                                                    web applications that will transform the way the Department
Controlling and protecting Treasury
                                                                    attracts and retains job candidates by providing the information
information assets
                                                                    and functionality needed to decide on a career with treasury.
Within an enterprise as interconnected as treasury, security
is not only essential for protecting information assets, but is     Management and Budget
more importantly a key enabler for many elements of treasury’s
                                                                    the office of the Deputy assistant secretary for Management
business mission. two of treasury’s strategic security objec­
                                                                    and budget (DasMb) is responsible for strategic planning and
tives include the Department-wide use of homeland security
                                                                    performance management, budget formulation and execution,
Presidential Directive-12 (hsPD-12) based credentials for
                                                                    program evaluation, and special projects, such as recovery act
logical access to business applications, and the enterprise-wide
                                                                    coordination for the Department. no performance goals related
use of data loss prevention tools to monitor for and prevent the
                                                                    to DasMb are included in treasury’s 2010 performance budget.
accidental leakage of information.
                                                                    In fiscal year 2010, the Department’s fiscal year 2012 budget
to further protect the Department’s sensitive business informa­
                                                                    submission was meticulously reviewed and prepared to establish
tion, treasury is deploying the capability to monitor the use of
                                                                    funding based on key priorities. treasury also worked to realize
illegal and unauthorized software in its networks and systems.
                                                                    savings during this fiscal year by only funding top priority needs
this capability will help prevent software piracy and the intro­
                                                                    and reallocated savings towards programs aligned with treasury’s
duction of hostile software which would put treasury’s It-based
                                                                    and the President’s priorities.




strategic objective: enabled and effective treasury department                                                                   121
                                    the department of the treasury




                                    During the fiscal year, the Deputy secretary held quarterly          treasury worked to address administration guidance on improv­
                                    performance and budget reviews with bureaus and policy offices.      ing labor management relationships and managing a multi­
                                    these reviews are structured after the “stat” model developed        sector workforce. It established new labor management forums
                                    by police departments to generate data-driven decisions. During      in cooperation with the national treasury employees union
                                    these sessions, bureau mission statements and performance            and benchmarked contractor and federal employee performance
                                    measures are re-evaluated, and then performance results are          within a key treasury data-center against 80 similar facilities.
                                    reviewed. budget discussions were also included in the reviews.
                                                                                                         the Department also began implementation of human capital
                                                                                                         efforts related to the Dodd-frank act, such as new classifica­
                                    Operations                                                           tions and pay systems for new offices and bureaus.
                                    the office of the Deputy assistant secretary for Departmental
                                    offices operations provides management and administrative            Developing and retaining Treasury’s
                                    support for the offices and employees in treasury’s depart­          workforce
                                    mental, or headquarters, offices. no performance goals related       During fiscal year 2010, treasury implemented action plans
                                    to Departmental operations are included in treasury’s 2010           that focused on areas for improvement as identified in the 2008
                                    performance budget.                                                  federal human capital survey. these efforts paid off with
part 2: annual performance report




                                                                                                         improved scores on the 2010 employee Viewpoint survey (now
                                    key Departmental operations accomplishments for fiscal year
                                                                                                         renamed the fedView survey). the Department increased
                                    2010 are:
                                                                                                         positive responses in each area, or index, of the survey by
                                      •	   coordination with gsa for the location planning for the       at least two percent. treasury efforts to improve scores on
                                           stand-up of the consumer financial Protection bureau          the survey and across various indices based on the survey
                                      •	   establishing and maintaining “all green” on the 
             results will continue into the future. additional detail on the
                                           environment and energy scorecard for two reporting 
          survey methodology is available at the office of Personnel
                                           periods covering six months each
                             Management (oPM) website: http://www.opm.gov/surveys/
                                      •	   complete hsPD-12 Physical access control implementa­          results/Employee/2010Employee SurveyResults.asp
                                           tion for all Departmental office owned and leased locations
                                                                                                         Broadening and diversifying Treasury’s talent
                                                                                                         pool
                                    Human Capital
                                                                                                         treasury continued to create effective recruitment strategies and
                                    the Deputy assistant secretary for human resources and chief
                                                                                                         utilize available flexibilities to attract a diverse pool of highly
                                    human capital officer is responsible for all areas of human
                                                                                                         qualified candidates, both external and internal, sufficient to en­
                                    capital management.
                                                                                                         sure that the Department fulfills its mission requirements. fiscal
                                                                                                         year 2010 marked the second successful year of the hamilton
                                    Effectively managing and utilizing human
                                                                                                         fellows program. a total of 42 new fellows were hired treasury­
                                    resources
                                                                                                         wide compared to 16 in fiscal year 2009. the Department
                                    In fiscal year 2010, treasury implemented several changes to
                                                                                                         developed a new hiring strategy for mid-career professionals
                                    the senior executive service (ses) performance management
                                                                                                         during the fiscal year. finally, treasury also continued to recruit
                                    process to clarify performance expectations and support more
                                                                                                         finalists from the oPM sponsored Presidential Management
                                    meaningful distinctions in ratings and rewards, and assessment
                                                                                                         fellowship program.
                                    of those changes will continue in fiscal year 2011. because
                                    ses ratings reform has been identified as a major priority of        the Department’s fiscal year 2010 progress was consistent with
                                    the President’s Management council, treasury plans to pursue         government-wide human capital initiatives including hiring
                                    additional initiatives in fiscal year 2011 related to performance,   reform, veterans hiring, hiring persons with disabilities, and
                                    hiring, and executive development.                                   expanding of benefits to same sex domestic partners. treasury
                                                                                                         made significant progress in addressing the presidential
                                                                                                         memorandum on improving the federal hiring process by




                                    122                                                strategic goal: management and organizational excellence
                                                             performance and accountability report | fiscal year 2010




strengthening communication with applicants, streamlining              finally, treasury eliminated the option to purchase paper sav­
and standardizing vacancy announcements, providing more                ings bonds through payroll deductions for federal employees on
information to managers, and process mapping departmental              september 30, 2010 and will eliminate it for the private sector
hiring efforts. treasury retained its multi-year record as the         by January 1, 2011. this policy covers only paper savings bonds
cabinet level agency with the highest employment of individu­          purchased through payroll sales; individuals will still be able to
als with targeted disabilities. further, treasury created a steering   purchase paper savings bonds at financial institutions for them­
committee which has substantially improved the process for             selves and as gifts. Payroll savers will be encouraged to continue
hiring veterans.                                                       their purchases through treasuryDirect, a web-based system that
                                                                       allows investors to buy and hold electronic treasury securities.
High Priority Performance Goal:                                        transitioning employees to electronic payroll purchases saves
Significantly Increase the Number of                                   employers administrative costs and allows employees to manage
                                                                       their own bond accounts. this is estimated to save nearly $50
Paperless Transactions with the Public
                                                                       million in the first five years.
In addition to greatly reducing costs, enhancing customer
                                                                       treasury has made substantial progress consistent with this ef­
service and minimizing treasury’s environmental impact, the
                                                                       fort. fMs exceeded its target for percentage collected electroni­




                                                                                                                                            part 2: annual performance report
move from paper to electronic transactions will increase reli­
                                                                       cally of total Dollar amount of federal government receipts,
ability, safety, and security for benefit recipients and taxpayers.
                                                                       reaching 85 percent. bPD has been conducting a public aware­
the initiative is expected to save more than $400 million and
                                                                       ness campaign to inform its customers about the elimination of
12 million pounds of paper in the first five years alone while
                                                                       paper payroll savings bonds and the alternative of purchasing
delivering safe and secure payments in an efficient and reliable
                                                                       electronic securities in treasuryDirect. the data demonstrates
manner.
                                                                       that bPD has been successful in moving its customers to
In 2010 treasury began implementing paperless initiatives.             electronic securities. In the fourth quarter of fiscal year 2010,
first, treasury expects individuals receiving social security,         new treasuryDirect accounts increased 268 percent to 47,508
supplemental security Income, Veterans, railroad retirement,           compared to 12,902 new accounts in the fourth quarter of fiscal
and oPM benefits to receive payments electronically. Individuals       year 2009. also, in the fourth quarter of fiscal year 2010 dollar
will be able to receive benefits either through direct deposit into    sales of electronic savings bonds rose 54 percent to $23,150,292
a bank account or treasury’s Direct express debit card. today,         compared to $15,031,333 in the fourth quarter 2009. During
one million americans are receiving their benefit payments             the same period, sales of paper savings bonds decreased from
through Direct express and they have found the card safe,              $386,179,000 in the fourth quarter of 2009 to $383,115,000 in
convenient, and easy to use. the requirement will apply to new         the fourth quarter of 2010. additionally, the office of the fiscal
enrollees beginning on March 1, 2011 and to existing check             assistant secretary (ofas) has led an interagency work group
recipients beginning on March 1, 2013. currently, 85 percent of        to publish proposed regulations to solve the growing problem
federal benefit recipients receive their payments electronically.      of garnishment of exempt federal benefits which will in turn
Moving all recipients of these benefits to electronic payments is      facilitate additional electronic benefits payments rather than
expected to save upwards of $300 million in the first five years.      payment by check.

second, businesses currently permitted to use paper federal tax        Conclusion
Deposit coupons will have to make those deposits electronically
                                                                       the Department exceeded its targets for its strategic outcome:
beginning in 2011 with a few exceptions, primarily businesses
                                                                       “a citizen centered, results oriented, and strategically
with $2,500 or less in quarterly tax liabilities that pay when
                                                                       aligned organization” for fiscal year 2010. the Department’s
filing their returns. currently, nearly 98 percent of all busi­
                                                                       initiatives are moving towards improved management across
ness tax dollars are paid electronically through treasury’s free
                                                                       programs.
eftPs. Irs research has shown that businesses using eftPs are
31 times less likely to make an error. this change will save an
estimated $65 million in the first five years.




strategic objective: enabled and effective treasury department                                                                      123
                                    the department of the treasury




                                    Moving Forward
                                     •	   During fiscal year 2011, treasury will institutionalize its
                                          quarterly performance and budget reviews. treasury will
                                          continue to work to formalize performance metrics in all
                                          management functions.
                                     •	   Data for treasury’s greenhouse gas emissions are not
                                          available annually, however treasury is still committed to
                                          reducing greenhouse gas emissions by 33 percent by 2020.
                                          the Department will continue to work towards reducing
                                          emissions and reporting when possible.
                                     •	   the Department will continue to implement hiring reform,
                                          including decreasing the time to hire, improving the
                                          pipeline of candidates, and supporting veterans and those
                                          with disabilities.
                                     •	   the 2011 goals of the Paperless initiative include increas­
part 2: annual performance report




                                          ing electronic payment, collections, tax filing, and savings
                                          bonds transactions by 33 percent by the end of fiscal year
                                          2011 and increasing the individual e-file rate to 74.7
                                          percent.




                                    124                                                 strategic goal: management and organizational excellence
                                                                           performance and accountability report | fiscal year 2010




exCeptiOnal aCCOuntability anD transparenCy
achieving and maintaining exemplary accountability and transparency is critical for the treasury Department as the primary finan­
cial agency for the u.s. government. the Department follows proper internal controls that serve to deter and eliminate fraud, waste,
and abuse, while increasing efficiency and effectiveness.

Key Performance Measure Table
the following table contains only key performance measures associated with this outcome. actual and target trends represent four
years of data where available. the full suite of measures with detailed explanations is available at http://www.treasury.gov/offices/
management/dcfo/accountability-reports.

                                                                                                            Percent Percent                                 4-year   4-year
                                                                              2009     2010     2010       of Target Change in Performance          2011    Target   Actual
Key Performance Measure                                           Bureau     Actual   Target   Actual      Achieved Actual        Rating           Target   Trend    Trend

 Percentage of timely completed Planned Corrective Actions          DO        85.6    87.5      88.4        101.0%         3.3%         Exceeded    90               
 (PCAs) (%)




                                                                                                                                                                              part 2: annual performance report
 Number of completed audit products                               SIGTARP      3       12        9           75.0%       200.0%          Unmet      12               
 Percent of recommendations implemented (%)                       SIGTARP     100      70       43           61.4%        -57.0%         Unmet      70               
 Congressional requests for testimony completed                   SIGTARP      9        4        7          175.0%        -22.2%        Exceeded     4               
 Percentage of investigations accepted by prosecutors (%)         SIGTARP     95       50       100         200.0%         5.3%         Exceeded    55               
 Percentage of preliminary investigations that are converted      SIGTARP     50       35       80          228.6%        60.0%         Exceeded    40               
 into full investigations (%)
 Percentage of all cases that are joint agency/task force         SIGTARP     60       30       50          166.7%        -16.7%        Exceeded    35               
 investigations (%)
 Percentage of hotline complaints referred for investigation or   SIGTARP     77       60       74          123.3%        -3.9%         Exceeded    65               
 to OFS within 14 days of receipt (%)
 Number of completed audit products                                 OIG       68       62       68          109.7%         0.0%         Exceeded    62               
 Percent of statutory audits completed by the required date (%)     OIG       100      100      50           50.0%        -50.0%         Unmet      100              
 Percentage of all cases closed during fiscal year that             OIG       100      70       93          132.9%        -7.0%         Exceeded    70               
 were referred for criminal/civil prosecution or Treasury
 Administrative action (%)
 Percentage of all cases that were accepted by prosecutors,         OIG       92       70       66           94.3%        -28.3%         Unmet      70               
 referred for agency action, or closed during fiscal year and
 were completed within 18 months of case initiation (%)
 Percentage of audit products delivered when promised to           TIGTA      81       65       76          116.9%        -6.2%         Exceeded    70               
 stakeholders (%)
 Percentage of recommendations made that have been                 TIGTA      91       83       95          114.5%         4.4%         Exceeded    85               
 implemented (%)
 Percentage of results from investigative activities (%)           TIGTA      83       79       87          110.1%         4.8%         Exceeded    80               


                                                                                                       Legend                                      Symbol
                                                                                                        Favorable upward trend                       
                                                                                                        Favorable downward trend                     
                                                                                                        Unfavorable upward trend                     
                                                                                                        Unfavorable downward trend                   
                                                                                                        No change in trend, no effect                
                                                                                                        No change in trend, favorable effect         
                                                                                                        No change in trend, unfavorable effect       
                                                                                                        Baseline                                      B




strategic objective: enabled and effective treasury department                                                                                                        125
                                    the department of the treasury




                                    Analysis of Performance Results                                       to develop guidance and provide leadership on these activities
                                    the Department exceeded targets for 73 percent of performance         across the Department. the Department released 84 data sets
                                    measures in this section. of the four measures (27 percent) that      to date, completed a number of stakeholder outreach efforts,
                                    did not meet the target, the average percent of target achieved       and began a more focused approach to tracking reduction in the
                                    was 70 percent. treasury discontinued two measures: one in            freedom of Information act (foIa) request backlog. In addi­
                                    fiscal year 2010 and one in fiscal year 2009. results suggest         tion, DasPtr identified cost savings from open government
                                    that treasury has room for improvement in this area and that          initiatives, developing a cost-benefit matrix and tracking the
                                    challenging targets have been set. oIg’s audit completion             impact of proactive information disclosure on FinancialStability.
                                    metrics were substantially affected by material loss review work      gov on the number of foIa requests for ofs.
                                    for failed banks. oIg’s ability to meet this metric in fiscal year    the Department of the treasury received a leading Practices
                                    2011 will depend largely on the number and sizes of future bank       award for Participation and collaboration for achievement
                                    failures compared to available oIg audit resources. tIgta             above and beyond the requirements of the Directive. this award
                                    exceeded targets for all of its measures by at least 11 percent.      recognized treasury as an agency that outlined the best and
                                    tIgta should consider setting more aggressive targets for             most innovative strategies for promoting open government over
                                    measures related to audit products delivered and recommenda­          the next two years. treasury was only one of eight agencies to
                                    tions implemented as both also had undesirable target trends.
part 2: annual performance report




                                                                                                          receive an award.
                                    sIgtarP’s completed audit product measure target may have
                                    been overly aggressive. although sIgtarP did not reach its            the office of Disclosure services submitted the final version
                                    goal of producing 12 audit products in fiscal year 2010, it did ex­   of the chief foIa officer’s report in March 2010 to meet the
                                    hibit a 200 percent increase in completed audits (from three to       requirement of submission to the attorney general by March
                                    nine). sIgtarP did not meet its implementation rate measure;          15, 2010. the requirement supports the principles of transpar­
                                    it anticipated a higher implementation rate by ofs, but it was        ency and openness in government. agencies report on the steps
                                    not fully met. ofs is working on implementing the recommen­           taken to apply the presumption of disclosure, including proac­
                                    dations, and planned corrective action dates extend into fiscal       tive disclosure activities, to greater utilization of technology,
                                    2011. sIgtarP will continue to monitor the implementation             and steps taken to reduce backlogs and improve timeliness in
                                    of these recommendations.                                             responding to foIa requests.

                                                                                                          In January 2010, DasPtr launched a lean six sigma study
                                    Privacy, Transparency and Records                                     for foIa requests processing. the objective was to analyze
                                    the office of the Deputy assistant secretary for Privacy,             foIa processes within Departmental offices. the plan was to
                                    transparency, and records (DasPtr) exists to strengthen pri­          enable the Department of the treasury to promptly respond to
                                    vacy and disclosure. civil liberties functions have been included     foIa requests within statutory requirements, increase proactive
                                    to take advantage of existing privacy processes, and the records,     disclosure of information, eliminate the foIa requests backlog,
                                    library, and orders and directives programs are included because      and ensure sensitive or complex foIa requests are processed
                                    they are significantly interrelated with the privacy and disclo­      properly. this will result in disclosure of information more
                                    sure programs. DasPtr sets the standard for the protection,           efficiently, accurately, and rapidly to the american public to
                                    access, and appropriate disclosure of treasury’s information, and     promote public trust and government accountability through
                                    provides support for these activities so that program offices may     increased openness and transparency.
                                    concentrate on their core functions.
                                                                                                          the DasPtr was designated as lead for treasury’s Department­
                                    In april 2010, the Department of the treasury published its first     wide the enterprise content Management (ecM) initiative
                                    open government Plan, which represents the beginning of the           during fiscal year 2010. ecM will enable the Department of
                                    Department’s formal implementation of the open government             treasury to create structure for managing information and
                                    Directive. oMb validated that the plan met every directive re­        complying with foIa requests. In the long term, treasury
                                    quirement. an open government steering committee has been             expects that the project will improve productivity, increase cost
                                    convened with representatives from each of treasury’s bureaus




                                    126                                                strategic goal: management and organizational excellence
                                                            performance and accountability report | fiscal year 2010




savings, provide user satisfaction, and improve response time to       regulated bank failures requiring a review, the oIg was unable
foIa requests.                                                         to meet the performance goal of completing 100 percent of
                                                                       those audits by the statutory deadline. During fiscal year 2010,
the Department of the treasury has embraced digitization in
                                                                       53 treasury-regulated banks failed of which 30 were supervised
another effort to make information more readily available to the
                                                                       by occ and 23 by ots. by comparison, 27 treasury-regulated
public through the internet. treasury’s library maintains several
                                                                       banks failed during fiscal year 2009. for fiscal year 2010, oIg
unique specialized collections. the Department has began
                                                                       had 18 required material loss reviews in progress at the start
digitizing those collections with a goal to digitize 20 percent
                                                                       of the year, initiated 20 new material loss reviews during the
of the collection in fiscal year 2010 and 20 percent within the
                                                                       year; and completed ten material loss reviews. through most
following four years. converting these materials to high quality
                                                                       of the fiscal year, material loss reviews were required when the
digital format will provide historical preservation of the materi­
                                                                       bank failure caused a loss to the Deposit Insurance fund of
als. the materials to be digitized include legislative histories
                                                                       $25 million or more. this threshold was recently increased to
of laws relevant to the treasury Department compiled by the
                                                                       $200 million. as a new requirement, however, the oIg must
library staff over the last 50 years, treasury press releases from
                                                                       perform a review of failures with losses under the threshold that
the 1930s forward, the treasury annual reports from 1789, and
                                                                       is limited to determining (1) the grounds identified by occ or
studies conducted by the treasury Department.




                                                                                                                                              part 2: annual performance report
                                                                       ots for appointing the fDIc as receiver and (2) whether any
In accordance with sec. 522 of the Consolidated Appropriations         unusual circumstances exist that might warrant an in-depth
Act, the Department is required to have a full accounting of its       review of the loss. for fiscal year 2010, the oIg initiated 33
Personally Identifiable Information (PII) holdings. the office         such reviews and completed six of them. for three of the six
of Privacy and civil liberties (oPcl) met this requirement by          completed reviews, the oIg determined that there were unusual
completing a survey of PII holdings in Departmental offices and        circumstances warranting in-depth reviews; those reviews were
the bureaus and submitting a report on the results on time. this       in progress at fiscal year end. for the other three reviews, the
survey captured all systems, paper and electronic, that contain PII.   oIg determined that there were no unusual circumstances and
                                                                       therefore an in-depth review will not be performed. In addition,
                                                                       the office of Investigations initiated four criminal investigations
Office of the Deputy Chief Financial                                   of failed treasury banks as a result the office of audit’s findings.
Officer
Dcfo tracks the closure of Pcas addressing recommendations             the oIg reported on a number of trends from its failed bank
in oIg, gao, tIgta, and sIgtarP audit reports. the                     reviews. With respect to the causes of the failures, the oIg
timeliness of Pca completion goal for fiscal year 2010 was 87.5        found overly aggressive growth strategies fueled by volatile
percent. treasury exceeded the goal for fiscal year 2010 and           and costly wholesale funding (e.g., brokered deposits, federal
closed out the year with a rate of 88.4 percent. the prior two         home loan bank loans, etc.); risky lending products such as
fiscal year’s timeliness of Pca completions were 83 percent in         option adjustable rate mortgages; unsound underwriting; high
fiscal year 2008 and 85.6 percent in fiscal year 2009.                 asset concentrations including high concentrations in cre
                                                                       loans; and inadequate bank risk management systems. the
                                                                       economic recession and the decline in the real estate market
Office of the Inspector General
                                                                       was also found to be a major factor in most failures. With
the oIg performs audits and investigations of non-Irs and              respect to treasury’s supervision of the failed banks, the oIg
non-tarP treasury programs and operations. oIg audits result           found that regular and timely examinations were conducted and
in recommendations to improve the effectiveness, efficiency, and       operational problems identified, but the regulators were slow
integrity of treasury programs and operations. oIg investigators       to take timely and aggressive enforcement action. the oIg
conduct a variety of investigations covering financial, corrup­        made numerous recommendations to both occ and ots to
tion, and other crimes, as well as serious employee misconduct.        strengthen their bank supervision and examination programs.
                                                                       both occ and ots took timely and responsive actions to
the oIg dedicated nearly all audit resources to mandated work
                                                                       address the recommendations.
primarily related to material loss reviews of failed banks during
the fiscal year. With the unprecedented number of treasury­



strategic objective: enabled and effective treasury department                                                                        127
                                    the department of the treasury




                                    although limited due to the oIg’s mandated workload, the              and $36 million in recommendations related to inefficient use of
                                    oIg continued to provide oversight of treasury’s more than $20        resources. these reports also included recommendations impact­
                                    billion of non-Irs programs under the recovery act. these             ing over two million taxpayer accounts.
                                    recovery act programs provide: (1) cash payments to businesses
                                                                                                          tIgta office of Investigations (oI) investigates threats to
                                    for partial reimbursement of energy projects; (2) funding to states
                                                                                                          america’s tax system, which could impede collection of tax
                                    for the development of low income housing; and (3) grants and
                                                                                                          revenue and reduce public confidence. overall, tIgta oI
                                    tax credits for economic development activities administered
                                                                                                          processed 9,513 complaints, resulting in 3,857 opened inves­
                                    through the cDfI fund. During fiscal year 2010, the oIg com­
                                                                                                          tigations. Vigilant work against extortion, bribery, contractor
                                    pleted two reviews that were part of the recovery accountability
                                                                                                          fraud and misconduct, theft, taxpayer abuses, false statements
                                    and transparency board coordinated government-wide reviews.
                                                                                                          and financial fraud, and other criminal activity resulted in
                                    In the first review, the oIg identified potential weaknesses in the
                                                                                                          potential savings of over $230 million. eighty-seven percent of
                                    data prepared by the Department on staffing levels, qualifications,
                                                                                                          the 3,675 final closed investigations generated 1,625 cases of
                                    and training. In the second review, the oIg identified potential
                                                                                                          employee misconduct referred for action and 235 cases accepted
                                    weaknesses in treasury’s processes for reviewing recipient data.
                                                                                                          for criminal prosecution. furthermore, since the april 1, 2009,
                                    for both reviews, the Department took responsive action to the
                                                                                                          inception of the armed escort Program, tIgta has conducted
                                    oIg recommendations for improvement.
                                                                                                          62 armed escorts.
part 2: annual performance report




                                    In fiscal year 2010, the office of Investigations opened 100 new
                                    investigations and closed 74 investigations. oI also referred         Recovery Act Audits
                                    100 percent of investigations that substantiated administra­          the recovery act provided tIgta with $7 million for
                                    tive violations against a treasury employee to the appropriate        oversight and audits of Irs activities. tIgta has performed
                                    regulated bureau for appropriate action. In addition, the office      audits to ensure that Irs’s systems and programs are operating
                                    of Investigations referred 19 investigations for criminal prosecu­    effectively, efficiently, and economically in their activities
                                    tion to the Department of Justice.                                    related to this legislation. tIgta’s fiscal year 2010 recovery
                                                                                                          act oversight Plan and final recovery act reports are posted to
                                    Treasury Inspector General for Tax                                    the tIgta area of the Recovery.Gov website.
                                    Administration
                                                                                                          Security Clearance Modernization and
                                    During fiscal year 2010, tIgta exceeded all of its performance
                                                                                                          Reporting Act of 2009
                                    measure targets. tIgta was responsible for successful investiga­
                                                                                                          tIgta reviewed the Security Clearance Modernization and
                                    tions of entities and individuals who threatened the nation’s tax
                                                                                                          Reporting Act of 2009, which would make changes to security
                                    system and issued many high-profile audit reports that received
                                                                                                          clearance and suitability determination reporting and create a
                                    considerable coverage by the media and others. cumulatively,
                                                                                                          security clearance and suitability Performance accountability
                                    these efforts resulted in $11.46 billion in potential financial
                                                                                                          council. the bill specifies that membership of the council
                                    benefits from audit recommendations and $230 million in po­
                                                                                                          shall include a senior officer from the office of the Director of
                                    tential savings from investigative recoveries in embezzlements,
                                                                                                          national Intelligence, the Department of Defense, and oPM, in
                                    thefts, court order fines, penalties, and restitution.
                                                                                                          addition to other members. tIgta provided comments on the
                                    tIgta strives to protect the integrity of america’s tax system.       bill, suggesting that the draft bill include a member of the Ig
                                    tIgta’s audits focus on the economy, efficiency, and effective­       community on the council. tIgta will continue to monitor
                                    ness of tax administration. overall, tIgta’s office of audit          this bill for changes that may have an impact on its mission.
                                    (oa) issued 129 reports (including 16 Defense contract
                                    audit agency reports), identifying over $11.46 billion in total       Audit Related Accomplishments
                                    potential financial benefits. these benefits included $2.8 billion    the mission of tIgta oa is to promote the sound administra­
                                    in cost savings recommendations, $8.6 billion in potential            tion of the nation’s tax laws by conducting comprehensive
                                    increased revenue/revenue protected recommendations, $198             audits that advise congress, the secretary of the treasury, and
                                    thousand in taxpayer rights and entitlements recommendations,         Irs management of high-risk issues, problems, and deficiencies



                                    128                                                strategic goal: management and organizational excellence
                                                         performance and accountability report | fiscal year 2010




related to the administration of Irs programs and operations.       other oversight agencies, sIgtarP’s audit Division (aD)
fiscal year 2010 audit work resulted in significant recommenda­     conducts and supervises performance audits and evaluations with
tions to improve areas such as systems modernization, security      respect to treasury’s operation of tarP; recipients’ compliance
maintenance, tax compliance, and operations, resulting in           with their obligations under relevant law and contracts; and
potential financial benefits.                                       tarP policies and procedures. since its inception, sIgtarP
                                                                    has commenced 22 distinct audits and has issued 11 audit reports
Inspections and Evaluations–Related                                 covering such topics as the use of tarP funds, external influence
Accomplishments                                                     of programmatic decision-making, oversight of aIg’s compensa­
During fiscal year 2010, tIgta’s office of Inspections and          tion of executives, and treasury’s role in the decision to reduce
evaluations (I&e) provided responsive, timely, and cost­            the number of gM and chrysler dealerships. furthermore, among
effective inspections and evaluations of Irs challenge areas        the policies and procedures that aD has reviewed and comment­
including recovery act implementation, pandemic influenza           ed upon are tarP agreements and warrants, the Public-Private
preparedness, and implementation of the Restructuring and           Investment Program, the capital assistance Program, and the
Reform Act. the I&e staff also provided tIgta with additional       home affordable Modification Program.
flexibility and capability to provide value-added products and
                                                                    sIgtarP’s Investigation Division (ID) supervises and conducts




                                                                                                                                         part 2: annual performance report
services for improving tax administration.
                                                                    criminal and civil investigations into those persons and enti­
                                                                    ties, inside or outside of government, who waste, steal, or abuse
Special Inspector General for the                                   tarP funds. ID is comprised of experienced financial and
Troubled Asset Relief Program                                       corporate fraud investigators, special agents, forensic analysts
sIgtarP advances economic stability by promoting efficiency         and attorney advisors. this structure provides sIgtarP with a
and effectiveness in treasury’s management of tarP through          broad array of expertise and perspectives in developing sophisti­
transparency, coordinated oversight, and robust enforcement         cated investigations. ID leverages its resources by coordinating
against those who waste, steal, or abuse tarP funds.                closely with other law enforcement agencies and forming law
                                                                    enforcement partnerships and task force relationships across the
the american taxpayers have been asked to provide hundreds
                                                                    federal government. ID has over 104 ongoing major criminal
of billions of dollars to stabilize the financial system and
                                                                    and civil investigations, and to date has prevented over $553
promote economic recovery. In this context, they have a right
                                                                    million of tarP funds from being disbursed on the basis of
to know how their money is being spent. Moreover, this same
                                                                    fraudulent representations, and caused indictments of individuals
transparency is a powerful tool to ensure that all those managing
                                                                    for, among other offenses, bribery, embezzlement, bank fraud,
tarP funds act appropriately, consistent with the law, and in
                                                                    mail fraud, wire fraud, and money laundering. ID also manages
the best interests of the country. sIgtarP’s primary tools for
                                                                    the sIgtarP hotline, which abides by all applicable whistle­
informing taxpayers about tarP are audit and quarterly reports,
                                                                    blower protections in processing complaints via telephone,
which are available for inspection at www.sigtarp.gov.
                                                                    e-mail, website, and in-person. ID has received and processed
additionally, sIgtarP ensures that members of congress are          more than 14,000 hotline contacts since february 2009.
kept adequately and promptly informed of developments in
tarP initiatives and of sIgtarP’s oversight activities. In that     Conclusion
regard, the special Inspector general (sIg) and his staff regu­     While over half of the measures for this goal were exceeded, 27
larly meet with and brief members of congress and their staff.      percent of measures for this strategic goal were not met. treasury
sIgtarP also advises tarP managers concerning internal              has opportunities for improving accountability and transpar­
controls and the effectiveness of tarP activities, and makes        ency across the organization and will continue to set aggressive
recommendations for improvements in tarP management.                targets for measures.

sIgtarP closely coordinates its oversight activities with other
tarP oversight bodies to ensure maximum coverage while
avoiding redundancy and undue burden. In coordination with




strategic objective: enabled and effective treasury department                                                                   129
                                    the department of the treasury




                                    Moving Forward                                                          •	   conducting comprehensive audits, inspections, and evalu­
                                    treasury’s three inspectors general will continue to provide                 ations that include recommendations for monetary benefits
                                    oversight of the Department’s programs and operations.                       and enhancing the Irs’s service to taxpayers
                                                                                                            •	   adapting to the Irs’s continually evolving operations
                                    In fiscal year 2011, even with the increase to the threshold                 and mitigating intensified risks associated with moderniza­
                                    triggering a mandated review, oIg anticipates that it will                   tion, security, addressing the tax gap, and human capital
                                    be necessary to devote substantial resources to its statutory                challenges facing the Irs in domestic and international
                                    obligations related to the failures of treasury-regulated banks.             operations
                                    oIg will also undertake work on new mandates such as those
                                                                                                            •	   responding to domestic and international threats and 

                                    in the Dodd-frank act, such as overseeing the transfer ots’s
                                                                                                                 attacks against Irs employees, property, and sensitive 

                                    functions to other banking regulators, as well as work required
                                                                                                                 information

                                    by the Improper Payments Elimination and Recovery Act of 2010.
                                                                                                            •	   Improving the integrity of Irs operations by detecting
                                    other high-priority areas where the oIg plans to focus its
                                                                                                                 and deterring fraud, waste, abuse, and misconduct by Irs
                                    resources are on treasury’s non-Irs recovery act programs, the
                                                                                                                 employees
                                    tftP, and significant capital investments like bsa moderniza­
                                                                                                                 Informing the public, congress, and the secretary of the
part 2: annual performance report




                                    tion. oIg will also investigate (1) criminal matters involving          •	

                                    recovery act funds, (2) matters where there was a subversion                 treasury of problems and progress made to resolve identi­
                                    of the bank examination process by an ots or occ regulated                   fied issues
                                    bank, and (3) claims made against the fMs, check forgery
                                                                                                          sIgtarP intends to focus on increasing staff for field opera­
                                    Insurance fund.
                                                                                                          tions and to address increased workload in audits and investiga­
                                    tIgta’s audits, investigations, inspections and evaluations           tions. the bureau will continue to promote transparency and
                                    priorities include:                                                   prevent abuse in the tarP program.
                                      •	   overseeing the Irs’s efforts to administer tax provisions of   DasPtr will use leverage treasury’s ecM efforts towards its
                                           the recovery act                                               long term goal of improving productivity, increasing cost sav­
                                      •	   Developing a multi-year oversight plan covering the Irs’s      ings, providing user satisfaction, and improving response time to
                                           efforts to implement the various tax-related and health        foIa requests.
                                           coverage tax credit-related provisions of the aca




                                    130                                                 strategic goal: management and organizational excellence
part 3:

annual
financial
report
THIS PAGE INTENTIONALLY LEFT BLANK
                                                             performance and accountability report | fiscal year 2010




Message froM the assIstant secretary for
ManageMent anD chIef fInancIal offIcer

                                     november 15, 2010

                                     In fiscal year 2010, the Department of the treasury built on the framework established during
                                     the preceding year to restore confidence in america’s financial system, ease the housing crisis,
                                     and provide the foundation for sustained economic recovery as treasury’s troubled asset relief
                                     Program and recovery act programs matured.

                                     challenges lie ahead as treasury works to implement myriad changes contained in major legislation
                                     enacted in 2010, including the broad health care reform provisions of the Patient Protection and
                                     Affordable Care Act; the sweeping financial reforms of the Dodd-Frank Wall Street Reform and
                                     Consumer Protection Act; and the new loan programs and tax law changes in the Small Business Jobs
                                     and Credit Act. these programs, once implemented, will have a significant, positive impact in the
                                     lives of millions of americans.

In fiscal year 2010, the Department of the treasury demonstrated fiscal prudence and strong management reforms as we:
  •	   launched a new performance management process, led by the treasury Deputy secretary, to review bureau and Departmental
       office missions, goals, performance measures, and budget proposals
  •	   realized $23.1 billion in net income from troubled asset relief Program (tarP) operations, resulting in reducing the
       cumulative net cost of the program from $41.6 billion at the end of fiscal year 2009 to $18.5 billion at the end of fiscal year 2010
  •	   Identified $315 million in efficiency savings, rescissions, and new user fees in the fiscal year 2011 budget submission, to reduce
       the cost of treasury operations
  •	   supported our veterans by achieving the Department’s goal of spending at least 3 percent of its prime contracting dollars to 

       support service-disabled, veteran-owned small businesses, while generating over $200 million in procurement savings

  •	   Improved the effectiveness and efficiency of treasury’s execution of processes and procedures through the ongoing application of
       continuous improvement techniques
  •	   Implemented the President’s open government Directive, releasing approximately 80 data sets to the public
  •	   reformed treasury’s senior executive service performance management system to strengthen the Department’s performance
       culture



                                                                                                                                              part 3: annual financial report
the Department received an unqualified audit opinion on both our office of financial stability/tarP and treasury-wide fiscal
year 2010 financial statements. treasury closed the material weakness on financial management practices at the Departmental level
during fiscal year 2010, and made progress toward resolving the four material weaknesses remaining open as of september 30, 2010
[Irs - Modernization Management (due to close by 2011), computer security (due to close by 2012), and unpaid tax assessments
(due to close by 2015) and fMs - Preparation of the government-wide financial statements (due to close by 2014)].




message from the assistant secretary for management and chief financial officer                                                         133
                                  the department of the treasury




                                  the complexity of systems enhancements is the major impediment to closing these weaknesses. treasury made significant progress
                                  in managing programs included in the government accountability office’s high-risk list and in addressing management and
                                  performance challenges identified by the Department’s Inspectors general.

                                  We will continue to devote special attention to these programs and challenges as we work to further improve the u.s. economy, help
                                  create jobs, and restore confidence in our financial system.




                                                                                        Dan tangherlini
                                                                                        assistant secretary for Management
                                                                                        and chief financial officer
part 3: annual financial report




                                  134              message from the assistant secretary for management and chief financial officer
PAGES 135-151 INTENTIONALLY LEFT BLANK
                                  the department of the treasury




                                                                                                CONSOLIDATED BALANCE ShEETS
                                                                                                   As of September 30, 2010 and 2009
                                                                                                               (In Millions)

                                  ASSETS                                                                                                                 2010             2009
                                  Intra-governmental Assets
                                      Fund Balance (Note 2)                                                                                     $      437,026   $      504,582
                                      Loans and Interest Receivable (Note 3)                                                                           552,853          410,591
                                      Troubled Asset Relief Program Asset Guarantee Program (Note 8)                                                       815                0
                                      Advances to the Unemployment Trust Fund (Note 4)                                                                  34,111            7,981
                                      Due from the General Fund (Note 4)                                                                            13,655,637       11,992,719
                                      Accounts Receivable and Related Interest (Note 5)                                                                    361              298
                                      Other Intra-governmental Assets                                                                                        3                5
                                  Total Intra-governmental Assets                                                                                   14,680,806       12,916,176


                                  Cash, Foreign Currency, and Other Monetary Assets (Note 6)                                                           375,282          341,308
                                  Gold and Silver Reserves (Note 7)                                                                                     11,062           11,062
                                  Troubled Asset Relief Program Direct Loans and Equity Investments, Net and Asset Guarantee Program (Note 8)          144,692          239,657
                                  Investments in Government Sponsored Enterprises (Notes 4 and 9)                                                      109,216           64,679
                                  Investments in International Financial Institutions (Note 10)                                                          5,580            5,575
                                  Other Investments and Related Interest (Note 11)                                                                      12,639           13,565
                                  Credit Program Receivables and Direct Loans, Net (Note 12)                                                           186,396          184,460
                                  Loans and Interest Receivable (Notes 4 and13)                                                                            124              127
                                  Reserve Position in the International Monetary Fund (Note 14)                                                         12,938           13,469
                                  Tax, Other, and Related Interest Receivables, Net (Note 15)                                                           36,976           30,408
                                  Inventory and Related Property, Net (Note 16)                                                                            697              598
                                  Property, Plant, and Equipment, Net (Note 17)                                                                          2,031            2,036
                                  Beneficial Interest in Trust (Notes 4 and 29)                                                                         20,805           23,472
                                  Other Assets                                                                                                              13                9
                                  Total Assets                                                                                                  $   15,599,257   $   13,846,601



                                  Heritage Assets (Note 17)

                                  The accompanying notes are an integral part of these financial statements.
part 3: annual financial report




                                  152                                                                                                                 financial statements
                                                                         performance and accountability report | fiscal year 2010




                                                             CONSOLIDATED BALANCE ShEETS

                                                                 As of September 30, 2010 and 2009

                                                                            (In Millions)

LIABILITIES                                                                                                     2010              2009
Intra-governmental Liabilities
Federal Debt and Interest Payable (Notes 4 and 19)                                                    $    4,587,802    $    4,403,080
Other Debt and Interest Payable (Note 20)                                                                     10,358            12,060
Due to the General Fund (Notes 4, 6, and 27)                                                               1,414,252         1,263,128
Other Intra-governmental Liabilities (Note 22)                                                                   366               425
Total Intra-governmental Liabilities                                                                       6,012,778         5,678,693

Federal Debt and Interest Payable (Notes 4 and 19)                                                         9,035,929         7,559,305
Certificates Issued to the Federal Reserve (Note 6)                                                            5,200             5,200
Allocation of Special Drawing Rights (Note 6)                                                                 54,958            55,953
Gold Certificates Issued to the Federal Reserve (Note 7)                                                      11,037            11,037
Refunds Payable (Notes 4 and 26)                                                                               4,146             4,040
D.C. Pensions and Judicial Retirement Actuarial Liability (Note 21)                                            9,743             9,049
Liabilities to Government Sponsored Enterprises (Note 9)                                                     359,900            91,937
Other Liabilities (Note 22)                                                                                    4,470             3,331
Total Liabilities                                                                                         15,498,161        13,418,545
    Commitments and Contingencies (Note 31)


NET POSITION
Unexpended Appropriations:
    Earmarked Funds (Note 27)                                                                                    200               200
    Other Funds                                                                                              400,357           454,944
    Subtotal                                                                                                 400,557           455,144
Cumulative Results of Operations:
    Earmarked Funds (Note 27)                                                                                  41,426            41,653
    Other Funds                                                                                             (340,887)          (68,741)
    Subtotal                                                                                                (299,461)          (27,088)
Total Net Position (Note 23)                                                                                 101,096           428,056
Total Liabilities and Net Position                                                                    $   15,599,257    $   13,846,601



The accompanying notes are an integral part of these financial statements.




                                                                                                                                          part 3: annual financial report




financial statements                                                                                                                153
                                  the department of the treasury




                                                                                         CONSOLIDATED STATEMENTS OF NET COST
                                                                                           For the Years Ended September 30, 2010 and 2009
                                                                                                             (In Millions)

                                  COST OF TREASURY OPERATIONS: (Note 24)                                                                             2010           2009
                                  Financial Program:
                                  Gross Cost                                                                                                  $    15,854    $    15,313
                                  Less Earned Revenue                                                                                              (2,611)        (2,258)
                                  Net Program Cost                                                                                                 13,243         13,055

                                  Economic Program:
                                  Gross Cost                                                                                                      314,138        210,490
                                  Less Earned Revenue                                                                                             (16,904)       (14,785)
                                  Net Program Cost                                                                                                297,234        195,705

                                  Security Program:
                                  Gross Cost                                                                                                          344            325
                                  Less Earned Revenue                                                                                                  (4)            (3)
                                  Net Program Cost                                                                                                    340            322

                                  Management Program:
                                  Gross Cost                                                                                                          582            569
                                  Less Earned Revenue                                                                                                 (56)           (60)
                                  Net Program Cost                                                                                                    526            509



                                  Total Program Gross Costs                                                                                       330,918        226,697
                                  Total Program Gross Earned Revenues                                                                             (19,575)       (17,106)
                                  Total Program Cost before Changes in Actuarial Assumptions                                                      311,343        209,591
                                  (Gains)/Losses on Pension, ORB, or OPEB Assumption Changes                                                           820              0
                                  Total Net Cost of Treasury Operations (Note 24)                                                                 312,163        209,591

                                  Federal Costs:
                                  Federal Debt Interest                                                                                           412,855        380,519
                                  Less Interest Revenue from Loans                                                                                (22,258)       (17,326)
                                  Net Federal Debt Interest Costs                                                                                 390,597        363,193
part 3: annual financial report




                                  Other Federal Interest                                                                                                 6              0
                                  Net GSEs Non-Entity Revenue (Note 9)                                                                            (56,678)       (61,983)
                                  Other Federal Costs (Note 24)                                                                                     12,753         12,131
                                  Total Net Federal Costs                                                                                         346,678        313,341

                                  Net Cost of Treasury Operations, Federal Debt Interest, Net GSEs Non-Entity Cost, and Other Federal Costs   $   658,841    $   522,932



                                  The accompanying notes are an integral part of these financial statements.




                                  154                                                                                                             financial statements
                                                                         performance and accountability report | fiscal year 2010




                                            CONSOLIDATED STATEMENT OF ChANGES IN NET POSITION

                                                               For the Year Ended September 30, 2010

                                                                             (In Millions)


                                                                                         Combined           Combined
                                                                                        Earmarked            All Other                  Consolidated
CUMULATIvE RESULTS OF OPERATIONS                                                            Funds               Funds     Elimination           Total
Beginning Balances                                                                  $      41,653       $    ($68,741)     $       0    $    (27,088)

Budgetary Financing Sources:
    Appropriations Used                                                                       527             501,912               0        502,439
    Non-exchange Revenue                                                                        56                229             (4)            281
    Donations and Forfeitures of Cash/Equivalent                                              324                   0               0            324
    Transfers In/Out Without Reimbursement                                                    (27)                 13               0            (14)
    Other                                                                                        0                 12               0              12
Other Financing Sources (non-exchange):
    Donation/Forfeiture of Property                                                            319                  0              0              319
    Accrued Interest and Discount on Debt                                                         0            11,086              0           11,086
    Transfers In/Out Without Reimbursement                                                     (79)                37              0              (42)
    Imputed Financing Sources                                                                    74             1,486          (552)            1,008
    Transfers to the General Fund and Other (Note 23)                                          (65)         (128,880)              0        (128,945)
Total Financing Sources                                                                      1,129            385,895          (556)          386,468
Net Cost of Operations                                                                     (1,356)          (658,041)            556        (658,841)
Net Change                                                                                   (227)          (272,146)              0        (272,373)
Cumulative Results of Operations                                                    $      41,426       $   (340,887)      $       0    $   (299,461)


UNEXPENDED APPROPRIATIONS
Beginning Balances                                                                  $         200       $     454,944      $       0    $    455,144

Budgetary Financing Sources:
    Appropriations Received (Note 23)                                                         527              456,443             0          456,970
    Appropriations Transferred In/Out                                                           0                    92            0                92
    Other Adjustments                                                                           0               (9,210)            0           (9,210)
    Appropriations Used                                                                     (527)            (501,912)                      (502,439)
Total Budgetary Financing Sources                                                               0             (54,587)             0         (54,587)
Total Unexpended Appropriations                                                               200              400,357             0          400,557
Net Position                                                                        $      41,626       $       59,470     $       0    $     101,096




                                                                                                                                                         part 3: annual financial report
The accompanying notes are an integral part of these financial statements.




financial statements                                                                                                                             155
                                  the department of the treasury




                                                                              CONSOLIDATED STATEMENT OF ChANGES IN NET POSITION
                                                                                                 For the Year Ended September 30, 2009
                                                                                                               (In Millions)


                                                                                                                            Combined         Combined
                                                                                                                           Earmarked          All Other                 Consolidated
                                  CUMULATIvE RESULTS OF OPERATIONS                                                             Funds             Funds    Elimination           Total
                                  Beginning Balances                                                                   $      37,586     $         157     $       0    $     37,743

                                  Budgetary Financing Sources:
                                      Appropriations Used                                                                        408           667,745             0         668,153
                                      Non-exchange Revenue                                                                       263               234            (4)            493
                                      Donations and Forfeitures of Cash/Equivalent                                               257                  0             0            257
                                      Transfers In/Out Without Reimbursement                                                     (16)               (7)             2            (21)
                                      Other                                                                                        10                 2             0              12
                                  Other Financing Sources (non-exchange):
                                      Donation/Forfeiture of Property                                                            127                0               0              127
                                      Accrued Interest and Discount on Debt                                                         0           6,027               0            6,027
                                      Transfers In/Out Without Reimbursement                                                     (63)              29             (2)              (36)
                                      Imputed Financing Sources                                                                    61           1,206          (474)               793
                                      Transfers to the General Fund and Other (Note 23)                                          (31)      (217,673)                0       (217,704)
                                  Total Financing Sources                                                                      1,016         457,563           (478)          458,101
                                  Net Cost of Operations                                                                       3,051       (526,461)             478        (522,932)
                                  Net Change                                                                                   4,067         (68,898)               0         (64,831)
                                  Cumulative Results of Operations                                                     $      41,653     $ (68,741)        $       0    $    (27,088)


                                  UNEXPENDED APPROPRIATIONS
                                  Beginning Balances                                                                   $         200     $     271,768     $       0    $    271,968

                                  Budgetary Financing Sources:
                                      Appropriations Received (Note 23)                                                          408        855,354                0         855,762
                                      Appropriations Transferred In/Out                                                             0              11              0                11
                                      Other Adjustments                                                                             0         (4,444)              0           (4,444)
                                      Appropriations Used                                                                       (408)      (667,745)               0        (668,153)
                                  Total Budgetary Financing Sources                                                                 0        183,176               0          183,176
                                  Total Unexpended Appropriations                                                                 200        454,944               0          455,144
part 3: annual financial report




                                  Net Position                                                                         $      41,853     $ 386,203         $       0    $    428,056


                                  The accompanying notes are an integral part of these financial statements.




                                  156                                                                                                                     financial statements
                                                                         performance and accountability report | fiscal year 2010




                                                 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                               For the Year Ended September 30, 2010
                                                                             (In Millions)
                                                                                                                          Non-Budgetary
                                                                                                           Budgetary          Financing              Total
Budgetary Resources
Unobligated balance, brought forward, Oct. 1                                                           $     401,626       $      41,827    $     443,453
ESF Adjustment for Change in Accounting Policy (Notes 1 and 25)                                               14,135                   0           14,135
Unobligated balance, brought forward, Oct. 1, as adjusted                                                    415,761              41,827          457,588
Recoveries of prior year unpaid obligations                                                                    2,979              39,370           42,349
Budget authority:
    Appropriations (Note 23)                                                                                 569,010                  0           569,010
    Borrowing authority (Note 25)                                                                                  1            151,472           151,473
    Spending authority from offsetting collections:
        Earned:
           Collected                                                                                            9,401           204,946           214,347
           Change in receivables from Federal sources                                                              22                 0                22
    Change in unfilled customer orders:
           Advance received                                                                                       (56)                  0               (56)
           Without advance from Federal sources                                                                     2             (5,111)           (5,109)
Subtotal                                                                                                     578,380             351,307           929,687
    Non-expenditure transfers, net                                                                                361                  0                361
    Temporarily not available pursuant to Public Law                                                            (142)                  0              (142)
    Permanently not available                                                                                (47,341)          (189,421)         (236,762)
Total Budgetary Resources                                                                              $     949,998       $    243,083     $   1,193,081

Status of Budgetary Resources
Obligations incurred (Note 25):
    Direct                                                                                             $     581,303       $    219,264     $     800,567
    ESF Adjustment for Change in Accounting Policy                                                            14,135                  0            14,135
    Direct, Adjusted                                                                                         595,438            219,264           814,702
    Reimbursable                                                                                               6,136                  0             6,136
    Subtotal                                                                                                 601,574            219,264           820,838
Unobligated Balance:
    Apportioned                                                                                              267,581             20,961           288,542
    Exempt from apportionment                                                                                 13,269                  0            13,269
    Subtotal                                                                                                 280,850             20,961           301,811
Unobligated balance not available                                                                             67,574              2,858            70,432
Total Status of Budgetary Resources                                                                    $     949,998       $    243,083     $   1,193,081

Change in Obligated Balance
Obligated balance, net:




                                                                                                                                                               part 3: annual financial report
         Unpaid obligations, brought forward, Oct. 1                                                   $      108,210      $       79,209   $     187,419
         Uncollected customer payments from Federal sources, brought forward, Oct. 1                             (168)           (28,928)         (29,096)
    Total unpaid obligated balance, net                                                                       108,042              50,281         158,323
Obligations incurred, net                                                                                     601,574           219,264           820,838
Gross outlays                                                                                               (524,098)          (209,612)        (733,710)
Recoveries of prior year unpaid obligations, actual                                                            (2,979)           (39,370)         (42,349)
Change in uncollected customer payments from Federal sources                                                       (24)             5,111            5,087
Obligated balance, net, end of period:
         Unpaid obligations                                                                                  182,707             49,491           232,198
         Uncollected customer payments from Federal sources                                                     (192)           (23,817)          (24,009)
    Total, unpaid obligated balance, net, end of period (Notes 1 & 25)                                       182,515              25,674          208,189
Net outlays
         Gross outlays                                                                                        524,098            209,612          733,710
         Offsetting collections                                                                                (9,345)         (204,946)        (214,291)
         Distributed offsetting receipts                                                                    (169,303)             (9,606)       (178,909)
Net Outlays                                                                                            $      345,450      $      (4,940)   $     340,510

The accompanying notes are an integral part of these financial statements.


financial statements                                                                                                                                  157
                                  the department of the treasury




                                                                                   COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                                                 For the Year Ended September 30, 2009
                                                                                                               (In Millions)
                                                                                                                                                           Non-Budgetary
                                                                                                                                             Budgetary         Financing                 Total
                                  Budgetary Resources
                                  Unobligated balance, brought forward                                                                   $     260,173      $      24,457     $      284,630
                                  Recoveries of prior year unpaid obligations                                                                    8,097                 (1)             8,096
                                  Budget authority:
                                      Appropriations (Note 23)                                                                                 952,185                  0            952,185
                                      Borrowing authority                                                                                          493            548,242            548,735
                                      Spending Authority from Offsetting Collections
                                  Earned: Collected                                                                                             11,681            272,768            284,449
                                           Change in receivables from Federal sources                                                              (44)                 0                (44)
                                  Change in unfilled customer orders:
                                      Advance received                                                                                            (31)                   0                (31)
                                      Without advance from Federal sources                                                                      (134)               28,926             28,792
                                  Subtotal                                                                                                   964,150               849,936         1,814,086
                                      Non-expenditure transfers, net                                                                              (43)                   0                (43)
                                      Temporarily not available pursuant to Public Law                                                              2                    0                  2
                                      Permanently not available                                                                              (92,001)            (179,736)          (271,737)
                                  Total Budgetary Resources                                                                              $ 1,140,378        $     694,656     $    1,835,034

                                  Status of Budgetary Resources
                                  Obligations incurred (Note 25): Direct                                                                 $   729,697        $     652,829     $    1,382,526
                                                                   Reimbursable                                                                4,669                    0              4,669
                                                                   Subtotal                                                                  734,366              652,829          1,387,195
                                  Unobligated Balance: Apportioned                                                                           349,889               19,612            369,501
                                                         Exempt from apportionment                                                            44,497                    0             44,497
                                                         Subtotal                                                                            394,386               19,612            413,998
                                  Unobligated balance not available                                                                           11,626               22,215             33,841
                                  Total Status of Budgetary Resources                                                                    $ 1,140,378        $     694,656     $    1,835,034

                                  Change in Obligated Balance
                                  Obligated balance, net:
                                      Unpaid obligations, brought forward, Oct. 1                                                        $       57,314     $           10    $         57,324
                                      Uncollected customer payments from Federal sources, brought forward, Oct. 1                                  (346)               (1)                (347)
                                      Total unpaid obligated balance, net                                                                       56,968                   9             56,977
part 3: annual financial report




                                  Obligations incurred, net                                                                                    734,366            652,829          1,387,195
                                  Gross outlays                                                                                               (675,286)          (573,630)        (1,248,916)
                                  Recoveries of prior year unpaid obligations, actual                                                            (8,097)                 1              (8,096)
                                  Change In uncollected customer payments from Federal source                                                        178          (28,926)            (28,748)
                                  Obligated balance, net, end of period:
                                      Unpaid obligations                                                                                       108,297              79,209           187,506
                                      Uncollected customer payments from Federal sources                                                          (168)           (28,926)           (29,094)
                                      Total unpaid obligated balance, net, end of period                                                       108,129             50,283            158,412

                                  Net Outlays
                                      Gross outlays                                                                                            675,286             573,630         1,248,916
                                      Offsetting collections                                                                                     (9,369)         (272,768)          (282,137)
                                      Distributed offsetting receipts                                                                          (40,114)             (4,500)           (44,614)
                                  Net Outlays                                                                                            $     625,803      $     296,362     $      922,165

                                  The accompanying notes are an integral part of these financial statements.




                                  158                                                                                                                           financial statements
                                                                         performance and accountability report | fiscal year 2010




                                                           STATEMENTS OF CUSTODIAL ACTIVITY
                                                         For the Years Ended September 30, 2010 and 2009
                                                                           (In Millions)


                                                                                                                    2010             2009
Sources of Custodial Revenue (Note 26):
Revenue Received

Individual Income and FICA Taxes                                                                           $   1,988,760    $   2,036,557
Corporate Income Taxes                                                                                           277,937           225,482
Estate and Gift Taxes                                                                                             19,751            24,677
Excise Taxes                                                                                                      70,946            67,248
Railroad Retirement Taxes                                                                                           4,648            4,711
Unemployment Taxes                                                                                                  6,543            6,765
Deposit of Earnings, Federal Reserve System                                                                       75,845            34,318
Fines, Penalties, Interest and Other Revenue                                                                        1,880            1,929
Total Cash Revenue Received                                                                                    2,446,310        2,401,687
Less Refunds                                                                                                    (469,937)        (437,972)
Net Cash Revenue Received                                                                                      1,976,373        1,963,715

Non-Cash Custodial Transactions
Beneficial Interest in Trust – Market Adjustment (Note 29)                                                        (2,666)          23,472
Accrual Adjustment                                                                                                  6,539          (1,097)
Total Custodial Revenue                                                                                        1,980,246        1,986,090



Disposition of Custodial Revenue:

Amounts Provided to Fund Non-Federal Entities                                                                        387              487
Amounts Provided to Fund the Federal Government (Notes 26 )                                                    1,975,986        1,963,228
Total Disposition of Cash Revenue                                                                              1,976,373        1,963,715

Non-cash Revenue – Beneficial Interest in Trust – Market Adjustment                                               (2,666)          23,472
Accrual Adjustment                                                                                                  6,539          (1,097)
Total Disposition of Custodial Revenue                                                                         1,980,246        1,986,090
Net Custodial Revenue                                                                                      $            0   $            0




                                                                                                                                             part 3: annual financial report
The accompanying notes are an integral part of these financial statements.




financial statements                                                                                                                 159
                                  the department of the treasury




                                  notes to the fInancIal stateMents


                                  table           Of     COntents
                                  1.     Summary of Significant Accounting Policies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 161

                                  2.     Fund Balance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 176

                                  3.     Loans and Interest Receivable – Intra-governmental . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 178

                                  4.     Due from the General Fund and Due to the General Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 180

                                  5.     Accounts Receivable and Related Interest – Intra-governmental . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 182

                                  6.     Cash, Foreign Currency, and Other Monetary Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 183

                                  7.     Gold and Silver Reserves, and Gold Certificates Issued to the Federal Reserve Banks . . . . . . . . . . . . Page 186

                                  8.     TARP Direct Loans and Equity Investments, Net and Asset Guarantee Program (GSEs) . . . . . . . . . . . Page 187

                                  9.     Investments in Government Sponsored Enterprises . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 211

                                  10. Investments in International Financial Institutions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 216

                                  11.    Other Investments and Related Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 217

                                  12. Credit Program Receivables and Direct Loans, Net . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 218

                                  13. Loans and Interest Receivable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 222

                                  14. Reserve Position in the International Monetary Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 223

                                  15. Tax, Other, and Related Interest Receivables, Net. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 225

                                  16. Inventory and Related Property, Net . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 226

                                  17.    Property, Plant, and Equipment, Net . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 227

                                  18. Non-Entity Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 228

                                  19. Federal Debt and Interest Payable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 229

                                  20. Other Debt and Interest Payable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 232

                                  21. D.C. Pensions and Judicial Retirement Actuarial Liability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 233

                                  22. Liabilities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 235

                                  23. Net Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 237

part 3: annual financial report




                                  24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations . . . . . . . . . . . . . . Page 238

                                  25. Additional Information Related to the Combined Statements of Budgetary Resources . . . . . . . . . . . Page 245

                                  26. Collection and Disposition of Custodial Revenue . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 249

                                  27. Earmarked Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 251

                                  28. Reconciliation of Net Cost of Operations to Budget . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 255

                                  29. Financial Stability and Stimulus Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 256

                                  30. Schedule of Fiduciary Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 260

                                  31. Commitments and Contingencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 262

                                         Required Supplemental Information (Unaudited) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 266





                                  160                                                                                                                  notes to the financial statements
                                                                    performance and accountability report | fiscal year 2010




1.        Summary of Significant Accounting Policies

A. Reporting Entity
the accompanying financial statements include the operations of the u.s. Department of the treasury (Department), one of 24 cfo
act agencies of the executive branch of the united states government, and certain custodial activities managed on behalf of the
entire u.s. government. the following paragraphs describe the activities of the reporting entity.

the Department was created by act (1 stat.65) on september 2, 1789. Many subsequent acts affected the development of the
Department, delegating new duties to its charge and establishing the numerous bureaus and divisions that now comprise the
Department. as a major policy advisor to the President, the secretary has primary responsibility for formulating and managing the
domestic and international tax and financial policies of the u.s. government.

further, the secretary is responsible for recommending and implementing united states domestic and international economic and fiscal
policy; governing the fiscal operations of the government; maintaining foreign assets control; managing the federal debt; collecting income
and excise taxes; representing the united states on international monetary, trade, and investment issues; overseeing Departmental
overseas operations; and directing the manufacturing of coins, currency, and other products for customer agencies and the public.

the Department includes the Departmental offices (Do) and nine operating bureaus. for financial reporting purposes, Do
is composed of: International assistance Programs (IaP), office of Inspector general (oIg), the special office of Inspector
general for the troubled asset relief Program (sIgtarP), treasury forfeiture fund (tff), exchange stabilization fund (esf),
community Development financial Institutions fund (cDfI), office of D.c. Pensions (DcP), treasury Inspector general for tax
administration (tIgta), federal financing bank (ffb), office of financial stability (ofs), government sponsored enterprise
Program (gses) and the Do policy offices.

the nine operating bureaus are: bureau of engraving and Printing (beP); bureau of the Public Debt (bPD); financial crimes enforcement
network (fincen); financial Management service (fMs); Internal revenue service (Irs); united states Mint (Mint); office of the
comptroller of the currency (occ); office of thrift supervision1 (ots); and the alcohol and tobacco tax and trade bureau (ttb).

the Department’s financial statements reflect the reporting of its own entity activities, which include appropriations it receives to
conduct its operations and revenue generated from those operations. they also reflect the reporting of certain non-entity (custodial)
functions it performs on behalf of the u.s. government and others. non-entity activities include collecting federal revenue,
servicing the federal debt, disbursing certain federal funds, and maintaining certain assets and liabilities for the u.s. government, as
well as for other federal entities. the Department’s reporting entity does not include the “general fund” of the u.s. government,




                                                                                                                                                                 part 3: annual financial report
which maintains receipt, disbursement, and appropriation accounts for all federal agencies.

transactions and balances among the Department’s entities have been eliminated from the consolidated balance sheets, the
consolidated statements of net cost, and the consolidated statements of changes in net Position.

following generally accepted accounting Principles (gaaP) for federal entities, the Department has not consolidated into its
financial statements the assets, liabilities, or results of operations of any financial organization or commercial entity in which it holds
either a direct, indirect or beneficial majority equity investment. even though some of the equity investments are significant, these
entities meet the criteria of “bailed out” entities under paragraph 50 of the statement of federal financial accounting concepts
(sffac) no. 2, which directs that such “bailout” investments should not be consolidated into the financial reports of the federal
government, either in part or as a whole.


1    on July 21, 2010, the President signed into law the Dodd-frank Wall street reform and consumer Protection act, which includes the enhancing
     financial Institution safety and soundness act of 2010 (the “act”). under the act, ots will be abolished and some of its functions will be transferred to
     the occ on July 21, 2011 (the “transfer date”).



note 1. summary of significant accounting policies                                                                                                      161
                                  the department of the treasury




                                  In addition, the Department has made loans and investments in certain special Purpose Vehicles2 (sPV). sffac no. 2, paragraphs
                                  43 and 44, reference indicative criteria such as ownership and control over an sPV to carry out government powers and missions,
                                  as criteria in the determination about whether the sPV should be classified as a federal entity. the Department has concluded that
                                  the lack of control over the sPVs is the primary basis for determining that none of the sPVs meet the criteria to be classified as a
                                  federal entity. as a result, the assets, liabilities and results of operations of the sPVs are not included in the Department financial
                                  statements. the Department has recorded the loans and investments in private entities and investments in sPVs in accordance with
                                  credit reform accounting, as discussed below. additional disclosures regarding these sPV investments are included in note 8, see
                                  automotive Industry financing Program, term asset-backed loan facility and the Public-Private Investment Program.


                                  B. Basis of Accounting and Presentation
                                  the financial statements have been prepared from the accounting records of the Department in conformity with accounting
                                  principles generally accepted in the united states for federal entities, and the office of Management and budget (oMb) circular
                                  a-136, Financial Reporting Requirements, as amended. accounting principles generally accepted for federal entities are the standards
                                  prescribed by the federal accounting standards advisory board (fasab). fasab is recognized by the american Institute of
                                  certified Public accountants as the official accounting standards-setting body of the u.s. government.

                                  these financial statements are provided to meet the requirements of the Government Management Reform Act of 1994. they consist
                                  of the consolidated balance sheets, the consolidated statements of net cost, the consolidated statements of changes in net
                                  Position, the combined statements of budgetary resources, and the statements of custodial activity. the statements and the
                                  related notes are prepared in a comparative form to present both fiscal year 2010 and fiscal year 2009 information.

                                  While these financial statements have been prepared from the books and records of the Department in accordance with the formats
                                  prescribed by oMb, these financial statements are in addition to the financial reports used to monitor and control budgetary
                                  resources which are prepared from the same books and records.

                                  Intra-governmental assets and liabilities are those due from or to other federal entities. Intra-governmental earned revenues are
                                  collections or accruals of revenue from other federal entities, and intra-governmental costs are payments or accruals of expenditures
                                  to other federal entities.

                                  the financial statements should be read with the realization that they are for a component of a sovereign entity, that liabilities
                                  not covered by budgetary resources cannot be liquidated without the enactment of an appropriation, and that the payment of all
                                  liabilities other than for contracts can be abrogated by the sovereign entity. liabilities represent the probable and measurable future
                                  outflow or other sacrifice of resources as a result of past transactions or events. since the Department is a component of the u.s.
part 3: annual financial report




                                  government, a sovereign entity, the Department’s liabilities cannot be liquidated without legislation that provides resources or an
                                  appropriation. liabilities covered by budgetary resources are those liabilities for which congress has appropriated funds or funding is
                                  otherwise available to pay amounts due. liabilities not covered by budgetary or other resources represent amounts owed in excess of
                                  available, congressionally appropriated funds or other amounts, and there is no certainty that the appropriations will be enacted. the
                                  u.s. government, acting in its sovereign capacity, can abrogate liabilities of the Department arising from non-contractual activities.


                                  C. Investments
                                  Investments in Troubled Asset Relief Program (TARP)
                                  troubled asset relief Program (tarP) equity investments, including investments in preferred and common stock and warrants of public
                                  companies, are accounted for pursuant to the provisions of the federal credit reform act (fcra) and the associated fasab accounting


                                  2   the Department invested in sPV’s under the consumer and business lending Initiative, the automotive Industry financing Program and the Public-
                                      Private Investment Program.



                                  162                                                                     note 1. summary of significant accounting policies
                                                            performance and accountability report | fiscal year 2010




standard sffas no. 2, Accounting for Direct Loans and Loan Guarantees, as amended. as additional consideration for investments made,
the Department received common stock warrants, additional preferred shares (referred to as warrant preferred shares) or additional
notes. the Department considered market risk in its calculation and determination of the estimated net present value of its direct loans,
equity investments and asset guarantee program for budgetary purposes. similarly, market risk is considered in the valuations for financial
reporting purposes (see note 8 for further discussion). the Department concluded that gaaP accounting for such investments using
the concepts embedded in sffas no. 2 was appropriate analogous accounting guidance based on the similarity between the equity
investments made by the Department and direct loans. consequently, tarP equity investments, including investments in preferred and
common stock and warrants of public companies, are accounted for by the Department using credit reform accounting in accordance with
sffas no. 2, and reported in accordance with fcra in these financial statements. In addition, the inclusion of market risk required by
the emergency economic stabilization act (eesa) in the valuation calculation results in accounting for these investments at estimated
fair value, which is consistent with the accounting for other equity investments held by the Department (i.e. investments in gses).

the Department recognizes dividend revenue associated with equity investments when declared by the entity in which the
Department has invested and when received in relation to any repurchases and restructuring. the Department reflects changes in
the fair value of direct loans, equity investments, and asset guarantees in the subsidy cost on the statement of net cost annually, as
required by fcra. the estimated values associated with these additional instruments are disclosed in note 8.

Investments in Government Sponsored Enterprises (GSEs)
the senior preferred stock liquidity preference (preferred stock) and associated common stock warrant (warrant(s)) in gses are presented
at their fair value as permitted by oMb circular no. a-136. this circular includes language that generally requires agencies to value
non-federal investments at acquisition cost, but permits the use of other measurement basis, such as fair value, in certain situations.

Increases in the non-entity preferred stock liquidity preference occur when quarterly payments to the gses are made pursuant to
the preferred stock purchase agreements (i.e., when a gse’s liabilities exceed its assets at the end of any quarter). as funds for these
payments are appropriated directly to the Department, these payments are treated as entity expenses and reflected as such on the
statement of net cost (snc) and cumulative results of operations. these payments also result in an increase to the non-entity
investment in gses preferred stock, with a corresponding increase in Due to the general fund, as the Department holds the
investment on behalf of the u.s. government general fund.

Investments in International Financial Institutions
the Department invests in Multilateral Development banks (MDb) to support poverty reduction, private sector development, and
transition to market economies and sustainable economic growth and development, thereby advancing the united states’ economic,
political, and commercial interests abroad. these investments are non-marketable equity investments valued at cost.




                                                                                                                                              part 3: annual financial report
Other Investments and Related Interest
the esf holds most of the Department’s other investments. “other foreign currency Denominated assets” and “Investment
securities” are considered “available for sale” securities and recorded at fair value as permitted by oMb circular no. a-136
beginning in fiscal year 2009. these holdings are normally invested in interest bearing securities issued or held through foreign
governments or monetary authorities.


D. Tax and Other Non-Entity Receivables
federal taxes receivable, net, and the corresponding liability, due to the Department are not accrued until related tax returns are
filed or assessments are made by the Irs and agreed to by either the taxpayer or the court. additionally, the prepayments are netted
against liabilities. accruals are made to reflect penalties and interest on taxes receivable through the balance sheet date.




note 1. summary of significant accounting policies                                                                                     163
                                  the department of the treasury




                                  taxes receivable consist of unpaid assessments (taxes and associated penalties and interest) due from taxpayers. the existence of a
                                  receivable is supported by a taxpayer agreement, such as filing of a tax return without sufficient payment, or a court ruling in favor of
                                  the Irs. the allowance reflects an estimate of the portion of total taxes receivable deemed to be uncollectible.

                                  compliance assessments are unpaid assessments which neither the taxpayer nor a court has affirmed the taxpayer owes to the federal
                                  government. examples include assessments resulting from an Irs audit or examination in which the taxpayer does not agree with
                                  the results. Write-offs consist of unpaid assessments for which the Irs does not expect further collections due to factors such as
                                  taxpayers’ bankruptcy, insolvency, or death. compliance assessments and write-offs are not reported on the balance sheet. statutory
                                  provisions require the accounts to be maintained until the statute for collection expires.


                                  E. Inventory and Related Property
                                  Inventory and related property include inventory, operating materials and supplies, and forfeited property. the treasury values
                                  inventories at either standard cost, or lower of cost or latest acquisition cost, except for finished goods inventories, which are valued
                                  at weighted-average unit cost. these inventories were categorized based on the Department’s major activities and the services the
                                  Department provides to the federal government and the public. all operating materials and supplies are recorded as an expense
                                  when consumed in operations.

                                  forfeited property is recorded at estimated fair market value as deferred revenue, and may be adjusted to reflect the current fair
                                  market value at the end of the fiscal year. Property forfeited in satisfaction of a taxpayer’s assessed liability is recorded when title to
                                  the property passes to the u.s. government and a corresponding credit is made to the related taxes receivable. Direct and indirect
                                  holding costs are not capitalized for individual forfeited assets.

                                  Mortgages and claims on forfeited assets are recognized as a valuation allowance and a reduction of deferred revenue from forfeited assets
                                  when the asset is forfeited. the allowance includes mortgages and claims on forfeited property held for sale and a minimal amount of
                                  claims on forfeited property previously sold. revenue from the forfeiture of property is deferred until the property is sold or transferred to
                                  a state, local, or federal agency. revenue is not recognized if the forfeited property is ultimately destroyed or cannot be legally sold.


                                  F. Loans and Interest Receivable, Intra-governmental—Entity and Non-Entity
                                  Intra-governmental entity loans and Interest receivable from other federal agencies represent loans and interest receivable held by
                                  the Department. no credit reform subsidy costs were recorded for loans purchased from federal agencies or for guaranteed loans made
                                  to non-federal borrowers, because of outstanding balances guaranteed (interest and principal) by those agencies.

                                  Intra-governmental non-entity loans and Interest receivable from other federal agencies represent loans issued by the Department to
part 3: annual financial report




                                  federal agencies on behalf of the u.s. government. the Department acts as an intermediary issuing these loans, because the agencies
                                  receiving these loans will lend these funds to others to carry out various programs of the federal government. because of the Department’s
                                  intermediary role in issuing these loans, the Department does not record an allowance related to these intra-governmental loans. Instead,
                                  loan loss allowances and subsidy costs are recognized by the ultimate lender, the federal agency that issued the loans to the public.


                                  G. Advances to the Unemployment Trust Fund
                                  advances have been issued to the Department of labor’s unemployment trust fund from the general fund of the u.s. government to
                                  states for unemployment benefits. the bureau of the Public Debt accounts for the advances on behalf of the general fund. as outlined in
                                  42 usc §1323, these repayable advances bear an interest rate that is computed as the average interest rate, as of the end of the calendar
                                  month preceding the issuance date of the advance, for all interest bearing obligations of the united states then forming the public debt,
                                  to the nearest lower one-eighth of one percent. Interest on the repayable advances is due on september 30th of each year. advances will
                                  be repaid by transfers from the unemployment trust fund to the general fund when the secretary of the treasury, in consultation with
                                  the secretary of labor, has determined that the balance in the unemployment trust fund is adequate to allow repayment.



                                  164                                                                  note 1. summary of significant accounting policies
                                                           performance and accountability report | fiscal year 2010




H. Receivable on Deposit of Earnings, Federal Reserve System
reserve banks are required by the board of governors of the federal reserve system to transfer to the u.s. treasury excess earnings,
after providing for the cost of operations, payment of dividends, and reservation of an amount necessary to equate surplus with capital
paid in. In the event of losses, or a substantial increase in capital, a reserve bank will suspend its payments to the u.s. treasury
until such losses or increases in capital are recovered through subsequent earnings. Weekly payments to the u.s. treasury may vary
significantly. the receivable on Deposit of earnings, federal reserve system, represents the earnings due to the u.s. treasury as of
september 30, but not collected by the u.s. treasury until after the end of the month.


I. Property, Plant, and Equipment
General
Property, plant, and equipment (PP&e) is composed of capital assets used in providing goods or services. It also includes assets
acquired through capital leases, which are initially recorded at the amount recognized as a liability for the capital lease at its
inception. PP&e is stated at full cost, including costs related to acquisition, delivery, and installation, less accumulated depreciation.
Major alterations and renovations including leasehold and land improvements are capitalized, while maintenance and repair costs are
charged to expenses as incurred.

Internal use software encompasses software design, development, and testing of projects adding significant new functionality and long­
term benefits. costs for developing internal use software are accumulated in work in development until a project is placed into service,
and testing and final acceptance are successfully completed. once completed, the costs are transferred to depreciable property.

costs for construction projects are recorded as construction-in-progress until completed, and are valued at actual (direct) cost, plus
applied overhead and other indirect costs.

the Department leases land and buildings from the general services administration (gsa) to conduct most of its operations.
gsa charges a standard level users fee which approximates commercial rental rates for similar properties. therefore, gsa-owned
properties are not included in the Department’s PP&e.

the Department’s bureaus are diverse both in size and in operating environment. accordingly, the Department’s capitalization
policy provides minimum capitalization thresholds which range from $25,000 to $50,000. the Department also uses a capitalization
threshold range for bulk purchases: $250,000 to $500,000 for non manufacturing bureaus and $25,000 to $50,000 for manufacturing
bureaus. bureaus determine the individual items that comprise bulk purchases based on Departmental guidance. In addition, the
Department’s bureaus may expense bulk purchases if they conclude that total period costs would not be materially distorted and the
cost of capitalization is not economically feasible.




                                                                                                                                             part 3: annual financial report
Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of leasehold
improvements and capital leases. leasehold improvements are depreciated over the term of the lease or the useful life of the
improvement, whichever is shorter. capital leases are depreciated over the estimated life of the asset or term of the lease, depending
on the conditions met for capitalization. service life ranges (2-50 years) are high due to the Department’s diversity of PP&e.
construction in progress and internal use software in development are not depreciated.

Heritage Assets
the Department owns the treasury complex (Main treasury and treasury annex)— a multi-use heritage asset. the buildings housing
the united states Mint facilities in Denver, san francisco, and West Point, are also considered multi-use heritage assets. Multi-use
heritage assets are assets of historical significance for which the predominant use is general government operations. all acquisition,
reconstruction, and betterment costs for the treasury buildings are capitalized as general PP&e and depreciated over their service life.




note 1. summary of significant accounting policies                                                                                   165
                                  the department of the treasury




                                  J. Non-Entity Government-Wide Cash
                                  non-entity government-wide cash is held in depositary institutions and federal reserve accounts. agencies can deposit funds that
                                  are submitted to them directly into either a federal reserve treasury general account (tga) or a local tga depositary. the
                                  balances in these tga accounts are transferred to the federal reserve bank of new york (frbny)’s tga at the end of each day.

                                  operating cash of the u.s. government represents balances from tax collections, customs duties, other revenue, federal debt
                                  receipts, and other various receipts net of cash outflows for budget outlays and other payments held in the federal reserve banks,
                                  foreign and domestic financial institutions, and in u.s. treasury tax and loan accounts. outstanding checks are netted against
                                  operating cash until they are cleared by the federal reserve system.

                                  the tga is maintained at the frbny and functions as the government’s checking account for deposits and disbursements of public
                                  funds. the treasury tax and loan (tt&l) program includes about 9,000 depositories that accept tax payments and remit them the
                                  day after receipt to frbny’s tga. certain tt&l depositories also hold non-entity government-wide cash in interest bearing
                                  accounts. cash in the tga and the tt&l program is restricted for government-wide operations.

                                  u.s. treasury tax and loan accounts include funds invested through the term Investment option program and the repo program.
                                  under the term Investment option program treasury auctions funds for a set term, usually in the range of one day to three weeks.
                                  under the repo program, the Department invests funds through overnight reverse repurchase agreements. however, under both
                                  programs, the Department reserves the right to call the funds prior to maturity under special circumstances. these investments
                                  programs where suspended in fiscal year 2010.

                                  the supplementary financing Program (sfP) account is maintained at frbny. sfP is a temporary program announced by the
                                  Department and the federal reserve on september 17, 2008, to provide emergency cash for federal reserve initiatives aimed at
                                  addressing the ongoing crisis in financial markets. the program consists of a series of treasury bills, apart from the Department’s
                                  current borrowing program.


                                  K. Federal Debt
                                  Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as expenses when incurred,
                                  instead of when paid. certain treasury securities are issued at a discount or premium. these discounts and premiums are amortized
                                  over the term of the security using an interest method for all long- term securities and the straight-line method for short-term
                                  securities. the Department also issues treasury Inflation-Protected securities (tIPs). the principal for tIPs is adjusted daily over
                                  the life of the security based on the consumer Price Index for all urban consumers.
part 3: annual financial report




                                  L. Loan Commitments
                                  the ffb recognizes loan commitments when the ffb and the other parties fully execute the promissory notes and reduces loan
                                  commitments when the ffb issues loans or when the commitments expire. Most obligations of the ffb give a borrower the
                                  contractual right to a loan or loans immediately or at some point in the future. the ffb limits the time available for a loan under an
                                  obligation, where applicable.


                                  M. Pension Costs, Other Retirement Benefits, and Other Post-Employment Benefits
                                  the Department recognizes the full costs of its employees’ pension benefits. however, the liabilities associated with these costs are
                                  recognized by the office of Personnel Management (oPM) rather than the treasury.

                                  Most employees of the Department hired prior to January 1, 1984, participate in the civil service retirement system (csrs), to
                                  which the Department contributes a fixed percentage of pay.




                                  166                                                               note 1. summary of significant accounting policies
                                                           performance and accountability report | fiscal year 2010




on January 1, 1987, the federal employees’ retirement system (fers) went into effect pursuant to Public law 99-335. employees
hired after December 31, 1983, are automatically covered by fers and social security. a primary feature of fers is that it offers
a savings plan to which the Department automatically contributes 1 percent of base pay and matches any employee contributions
up to an additional 4 percent of base pay. for most employees hired after December 31, 1983, the Department also contributes the
employer’s matching share for social security. for the fers basic benefit, the Department contributes 11.2 percent for regular fers
employees.

similar to federal retirement plans, oPM, rather than the treasury, reports the liability for future payments to retired employees
who participate in the federal employees health benefits Program (fehbP) and federal employees group life Insurance (feglI)
Program. the Department reports the full cost of providing other retirement benefits (orb). the Department also recognizes an
expense and liability for other post-employment benefits (oPeb), which includes all types of benefits provided to former or inactive
(but not retired) employees, their beneficiaries, and covered dependents. additionally, the Department’s bureaus, occ and ots,
separately sponsor certain benefit plans for their employees. occ sponsors a defined life insurance benefit plan for current and retired
employees. additionally, ots provides the financial Institution retirement fund (fIrf) private defined retirement benefit plan
to certain employees as well as certain health and life insurance benefits for all retired employees that meet eligibility requirements.
effective January 1, 1993, ots adopted sfas no. 106 to account for its share of the cost of life insurance.


N. Special Drawing Rights (SDRs)
the esf was established for use by the secretary of the treasury to account for the purchase or sale of foreign currencies, to hold
special Drawing rights (sDrs) holdings, and to provide financing to foreign governments. sDrs transactions of the esf require the
explicit authorization of the secretary of the treasury.

the International Monetary fund (IMf) has authority to cancel, in part or in whole, sDrs created under previous allocations.
Decisions of the IMf to cancel sDrs are adopted by the IMf’s board of governors on a basis of proposal by the IMf Managing
Director, with concurrence by the IMf executive board. the same majority requirements as those for allocations apply to the
executive board’s concurrence and to the board of governor’s decision on an sDrs cancellation proposal.

Allocations and Holdings
allocations of sDrs are recorded as assets and liabilities. the liabilities represent the amount that is payable in the event of
liquidation of, or u.s. withdrawal from, the sDrs department of the IMf, or cancellation of the sDrs.

sDrs holdings represent transactions resulting from esf sDrs activities. these activities are primarily the result of IMf allocations.
other transactions reported in this account are recorded as incurred. they include sDrs acquisitions and sales, interest received on




                                                                                                                                           part 3: annual financial report
sDrs holdings, interest charges on sDrs allocations, and valuation adjustments. the u.s. government receives remuneration in
sDrs from the IMf. this is based on claims on the IMf, represented by the u.s. reserve Position. the allocations and holdings are
revalued monthly based on the sDrs valuation rate calculated by the IMf.

Certificates
the SDRs Act of 1968 authorized the secretary of the treasury to issue certificates, not to exceed the value of sDrs holdings, to the
federal reserve banks in return for interest-free dollar amounts equal to the face value of certificates issued. the certificates may be
issued to finance the acquisition of sDrs from other countries or to provide resources for financing other esf operations. certificates
issued are to be redeemed by the treasury at such times and in such amounts as the secretary may determine. certificates issued to
federal reserve banks are reported at their face value. It is not practical to estimate the fair value of certificates issued to federal
reserve banks, since these certificates contain no specific terms of repayment.




note 1. summary of significant accounting policies                                                                                  167
                                  the department of the treasury




                                  O. Federal Employee Benefits Payable—FECA Actuarial Liability
                                  the Federal Employees’ Compensation Act (feca) provides income and medical cost protection to covered federal civilian
                                  employees injured on the job, and employees who have incurred a work-related injury or occupational disease. the feca program
                                  is administered by the u.s. Department of labor (Dol), which pays valid claims and subsequently seeks reimbursements from the
                                  treasury for these paid claims. generally, the Department reimburses Dol within two to three years once funds are appropriated.
                                  these future workers’ compensation estimates are generated by applying actuarial procedures developed to estimate the liability for
                                  feca benefits. the actuarial liability estimates for feca benefits include the expected liability for death, disability, medical, and
                                  miscellaneous costs for approved compensation cases.


                                  P. Annual, Sick, and Other Leave
                                  annual and compensatory leave earned by the Department’s employees, but not yet used, is reported as an accrued liability. the
                                  accrued balance is adjusted annually to current pay rates. any portion of the accrued leave, for which funding is not available, is
                                  recorded as an unfunded liability. sick and other leave are expensed as taken.


                                  Q. Revenue and Financing Sources
                                  the Department’s activities are financed either through exchange revenue it receives from others or through non-exchange revenue
                                  and financing sources (such as appropriations provided by the congress and penalties, fines, and certain user fees collected). user fees
                                  primarily include Irs reimbursable costs to process installment agreements and accompanying photocopy and reproduction charges.
                                  exchange revenues are recognized when earned; i.e., goods have been delivered or services have been rendered. non-exchange
                                  revenues are recognized when received by the respective treasury collecting bureau. appropriations used are recognized as financing
                                  sources when related expenses are incurred or assets are purchased. revenue from reimbursable agreements is recognized when the
                                  services are provided. the Department also incurs certain costs that are paid in total or in part by other federal entities, such as
                                  pension costs. these subsidized costs are recognized on the consolidated statement of net cost, and the imputed financing for these
                                  costs is recognized on the consolidated statement of changes in net Position. as a result, there is no effect on net position. other
                                  non-exchange financing sources such as donations and transfers of assets without reimbursements also are recognized for the period in
                                  which they occurred on the consolidated statement of changes in net Position.

                                  the Department recognizes revenue it receives from disposition of forfeited property as non-exchange revenue on the consolidated
                                  statement of changes in net Position. the costs related to the forfeiture fund program are reported on the consolidated statement
                                  of net cost.
part 3: annual financial report




                                  In accordance with sffas no. 30, Inter-Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards and
                                  Concepts, the material imputed inter-departmental financing sources currently recognized by the Department include the actual cost
                                  of future benefits for the federal pension plans that are paid by other federal entities, the federal employees health benefits Program
                                  (fehbP), and any un-reimbursed payments made from the treasury Judgment fund on behalf of the Department.


                                  R. Custodial Revenues and Collections
                                  non-entity revenue reported on the Department’s statement of custodial activity includes cash collected by the Department,
                                  primarily from taxes. It does not include revenue collected by other federal agencies, such as user fees and other receipts, which are
                                  remitted for general operating purposes of the u.s. government or are earmarked for certain trust funds. the statement of custodial
                                  activity is presented on the “modified accrual basis.” revenues are recognized as cash is collected. the “accrual adjustment” is
                                  the net increase or decrease, during the reporting period, in net revenue related-assets and liabilities, mainly taxes receivable. the
                                  balance sheets include an estimated amount for taxes receivable and payable to the general fund of the u.s. government at
                                  september 30, 2010 and september 30, 2009.




                                  168                                                               note 1. summary of significant accounting policies
                                                           performance and accountability report | fiscal year 2010




S. Tax Assessments, Abatements, and Refunds Payable
under Internal revenue code section 6201, the Department is authorized and required to make inquiries, determinations, and
assessments of all taxes which have not been duly paid (including interest, additions to the tax, and assessable penalties) under the
law. unpaid assessments result from taxpayers filing returns without sufficient payment, as well as from tax compliance programs such
as examination, under-reporter, substitute for return, and combined annual wage reporting. the Department also has authority to
abate the paid or unpaid portion of an assessed tax, interest, and penalty. abatements occur for a number of reasons and are a normal
part of the tax administration process. abatements may result in claims for refunds or a reduction of the unpaid assessed amount.

refunds payable arise in the normal course of tax administration when it is determined that taxpayers have paid more than the actual
taxes that they owe. amounts that the Department has concluded to be valid refunds owed to taxpayers are recorded as a liability
(refunds Payable on the balance sheet), with a corresponding receivable from the general fund. this receivable is included on the
balance sheet in the line entitled “Due from the general fund.”


T. Permanent and Indefinite Appropriations
Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax credits. these
appropriations are not subject to budgetary ceilings established by congress. therefore, refunds payable at year end are not subject
to funding restrictions. refund payment funding is recognized as appropriations are used. Permanent indefinite authority for refund
activity is not stated as a specific amount and is available for an indefinite period of time. although funded through appropriations,
refund activity, in most instances, is reported as a custodial activity of the Department, since refunds are, in substance, a custodial
revenue-related activity resulting from taxpayer overpayments of their tax liabilities.

the Department also receives two permanent and indefinite appropriations related to debt activity. one is used to pay interest on
the public debt securities; the other is used to redeem securities that have matured, been called, or are eligible for early redemption.
these accounts are not annual appropriations and do not have refunds. Debt activity appropriations are related to the Department’s
liability and are reported on the Department’s balance sheet. Permanent indefinite authority for debt activity is available for an
indefinite period of time.

the Department receives permanent indefinite appropriations annually to fund increases in the projected subsidy costs of credit
programs as determined by the reestimation process required by the fcra.

additionally, the Department receives other permanent and indefinite appropriations to make certain payments on behalf of the
u.s. government. these appropriations are provided to make payments to the federal reserve banks for fiscal services provided
and to the financial institutions for services provided as financial agents of the u.s. government. they also include appropriations
provided to make other disbursements on behalf of the u.s. government, including payments made to various parties as the result of




                                                                                                                                           part 3: annual financial report
certain claims and judgments rendered against the united states.


U. Income Taxes
as an agency of the federal government, the Department is exempt from all income taxes imposed by any governing body, whether
it is a federal, state, commonwealth, local, or foreign government.


V. Use Of Estimates
the Department has made certain estimates and assumptions relating to the reporting of assets, liabilities, revenues, expenses,
and the disclosure of contingent liabilities to prepare these financial statements. actual results could differ from these estimates.
significant transactions subject to estimates include loan receivables; investments in non-federal securities and related impairment;




note 1. summary of significant accounting policies                                                                                   169
                                  the department of the treasury




                                  tax receivables; loan guarantees; depreciation; liability for liquidity commitment to gses; imputed costs; actuarial liabilities; cost and
                                  earned revenue allocations; contingent legal liabilities; and credit reform subsidy costs.

                                  the loan receivables mentioned above include mortgage-backed securities (Mbs) issued by the gses and gse obligations obtained
                                  under the programs of the housing finance agency (hfa) Initiative, which include securities issued under the new Issue bond
                                  Program (nIbP), and participation interests in liquidity facilities obtained under the temporary credit and liquidity Program
                                  (tclP). other loan receivables exist as part of tarP. Investments in non-federal securities have been made in the gses and other
                                  domestic public entities.

                                  the Department recognizes the sensitivity of credit reform modeling to slight changes in some model assumptions and uses regular
                                  review of model factors, statistical modeling, and annual re-estimates to reflect the most accurate cost of the credit programs to
                                  the u.s. government. the Department currently accounts for the gse Mbs purchase program and the two programs of the hfa
                                  Initiative (the nIbP and tclP) under the provisions of credit reform and the use of estimates is dictated by the federal credit
                                  reform act (note 12). additionally, all tarP credit activity, including investments in common and preferred stock and warrants
                                  of public companies, loans, and loan guarantees or guaranty-like insurance activities, are also subject to credit reform subsidy cost
                                  estimates. (notes 8 and 12)

                                  the forecasted cash flows used to determine these amounts as of september 30, 2010, are sensitive to slight changes in model
                                  assumptions, such as general economic conditions, specific stock price volatility of the entities in which the Department has an
                                  equity interest, estimates of expected default, and prepayment rates. forecasts of financial results have inherent uncertainty. the
                                  tarP Direct loans and equity Investments, net, and asset guarantee Program line items as of september 30, 2010, are reflective
                                  of relatively illiquid, troubled assets whose values are particularly sensitive to future economic conditions and other assumptions.
                                  additional discussion related to sensitivity analysis can be found in the Management’s Discussion and analysis section of this
                                  Performance and accountability report.

                                  the gse Preferred stock Purchase agreements (PsPas) provide that the Department will increase its investment in the gses’
                                  senior preferred stock if at the end of any quarter the federal housing finance agency (fhfa), acting as the conservator, determines
                                  that the liabilities of either gse, individually, exceed its respective assets. based on u.s. gaaP, these contingent liquidity
                                  commitments, predicated on the future occurrence of any shareholders’ deficits of the gses at the end of any reporting quarter, are
                                  potential liabilities of the Department. the Department performs annual valuations, as of september 30th, of the preferred stock
                                  and warrants to attempt to provide a “sufficiently reliable” estimate of the outstanding commitments in order for the Department to
                                  record the remaining liability in accordance with sffas 5.

                                  the valuations incorporated various forecasts, projections and cash flow analyses to develop an estimate of potential liability. any
part 3: annual financial report




                                  changes in valuation, including impairment, are recorded and disclosed in accordance with sffas no. 7, Accounting for Revenue
                                  and Other Financing Sources. since the valuation is an annual process, the change in valuation of the preferred stock and warrants are
                                  deemed usual and recurring. accordingly, since the costs of preferred stock and warrants are exchange transactions, any changes in
                                  valuation are recorded as a non-entity exchange transaction that is either an expense or revenue. Dividends are also recorded as non­
                                  entity exchange transactions and are accrued when declared; therefore, no accrual is made for future dividends. the gses contingent
                                  liability is assessed annually and recorded at the gross estimated amount, without considering the increase in preferred stock liquidity
                                  preference, future dividend payments, or future commitment fees, due to the uncertainties involved. note 9 discusses the results of
                                  the valuation and the liability recorded as of september 30, 2010.

                                  estimation of such complex and long duration contingencies is subject to uncertainty, and it is possible that new developments
                                  adversely impact ultimate amounts required to be funded by treasury under the senior Preferred stock Purchase agreements.
                                  specifically, the occurrence of future shareholder deficits, which ultimately determines our gse contingent liability, are most
                                  sensitive to future changes in the housing price index.




                                  170                                                                note 1. summary of significant accounting policies
                                                            performance and accountability report | fiscal year 2010




It is possible that the results of operations, cash flows or financial position of treasury, could be materially affected in future periods by
adverse changes in the outlook for the key assumptions underlying management’s estimates.


W. Credit Risk
credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or counterparty to perform in
accordance with underlying contractual obligations. the Department takes on possible credit risk when it makes direct loans or
credits to foreign entities or becomes exposed to institutions which engage in financial transactions with foreign countries (note 11).
given the history of the Department with respect to such exposure and the financial policies in place in the u.s. government and
other institutions in which the united states participates, the Department expectation of credit losses is nominal.

the Department also takes on credit risk related to committed but undisbursed direct loans, its liquidity commitment to the gses,
its Mbs portfolio; its gse obligations obtained under the hfa Initiative (the nIbP and tclP); investments, loans, and asset
guarantees of the tarP, and its terrorism risk Insurance Program. except for the terrorism risk Insurance Program, these activities
focus on the underlying problems in the credit markets, and the ongoing instability in those markets exposes the Department to
potential costs and losses. the extent of the risk assumed by the Department is described in more detail in the notes to the financial
statements, and, where applicable, is factored into credit reform models and reflected in fair value measurements (notes 8, 9 & 12).

In addition, for eesa programs, the statute requires that the budgetary costs of the troubled assets and guarantees of troubled assets
be calculated by adjusting the discount rate for market risks. Within the tarP programs, the Department has invested in many
assets that would traditionally be held by private investors and their valuation would inherently include market risk. thus, for all
tarP direct loan, asset guarantee, and equity purchase programs, the Department calculates a Market risk adjusted Discount rate
(MraDr). therefore, the Department’s cost estimates for the tarP programs are adjusted for unexpected loss and the estimated
risk of expected cash flows. under sffas no. 2, including market risk in the cash flow estimates is consistent with the type of assets
being valued. the inclusion of the MraDr is the mechanism for providing the fair value of the assets.


X. Earmarked Funds
the Department has accounted for revenues and other financing sources for earmarked funds separately from other funds. earmarked
funds are financed by specifically identified revenues, often supplemented by other financing sources, which remain available over
time. these specifically identified revenues and other financing sources are required by statute to be used for designated activities or
purposes. sffas no. 27, Identifying and Reporting Earmarked Funds, defines the following three criteria for determining an earmarked
fund: (1) a statute committing the federal government to use specifically identified revenues and other financing sources not used
in the current period for future use to finance the designated activities, benefits, or purposes; (2) explicit authority for the earmarked
fund to retain revenues and other financing sources not used in the current period for future use to finance the designated activities,




                                                                                                                                                 part 3: annual financial report
benefits, or purposes; and (3) a requirement to account for and report on the receipt, use, and retention of the revenues and other
financing sources that distinguished the earmarked fund from the federal government’s general revenues.


Y. Allocation Transfers
the Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity and/or a receiving
(child) entity. allocation transfers are legal delegations by one department of its authority to obligate budget authority and outlay
funds to another department. a separate fund account (allocation account) is created in the u.s. treasury as a subset of the parent
fund account for tracking and reporting purposes. all allocation transfers of balances are credited to this account, and subsequent
obligations and outlays incurred by the child entity are charged to this allocation account as they execute the delegated activity on
behalf of the parent. beginning in fiscal year 2007, parent federal agencies report both the proprietary and budgetary activity and the
child agency does not report any financial activity related to budget authority allocated from the parent federal agency to the child
federal agency.



note 1. summary of significant accounting policies                                                                                       171
                                  the department of the treasury




                                  the Department allocates funds, as the parent, to the Department of energy. oMb allows certain exceptions to allocation reporting
                                  for certain funds. accordingly, the Department has reported certain funds for which the Department is the child in the allocation
                                  transfer, but in compliance with oMb guidance (a-136, III.4.2, section 5, for three exceptions), will report all activities relative
                                  to these allocation transfers in the Department’s financial statements. also, the Department receives allocation transfers, as the
                                  child, from the agency for International Development, general services administration, and Department of transportation. the
                                  Department had no significant allocation transfers to report in fiscal years 2010 and 2009.


                                  Z. Credit Reform Accounting
                                  the authoritative guidance for the credit reform portion of these statements is contained primarily in sffas no. 2, Accounting for
                                  Direct Loans and Loan Guarantees, as amended by sffas no. 18, Amendments to Accounting Standards for Direct Loans and Loan
                                  Guarantees, and sffas no. 19, Technical Amendments to Accounting Standards for Direct Loans and Loan Guarantees. this guidance
                                  was promulgated as a result of the Federal Credit Reform Act of 1990 (fcra).

                                  the fcra requires that the ultimate costs of a credit program be calculated, and the budgetary resources obtained, before the direct
                                  loan obligations are incurred. the cost of loan guarantee programs is the net present value of the estimated future cash flows from
                                  payments (for claims and interest rate subsidies). the primary purpose of the fcra, which became effective on october 1, 1991, is
                                  to more accurately measure the cost of federal credit programs and to place the cost of such credit programs on a basis equivalent with
                                  other federal spending.

                                  sffas no. 2, which generally mirrors the requirements of the fcra, established guidance for estimating the cost of direct and
                                  guaranteed loan programs, asset guarantees, as well as for recording direct loans and liabilities for loan guarantees for financial
                                  reporting purposes. sffas no. 2 states that the actual and expected costs of federal credit programs should be fully recognized in
                                  both budgetary and financial reporting. to accomplish this, agencies first predict or estimate the future performance of direct and
                                  guaranteed loans when preparing their annual budgets. the data used for these budgetary estimates are reestimated after the fiscal
                                  year-end to reflect changes in actual loan performance and actual interest rates in effect when the loans were issued. the data used
                                  for these estimates were reestimated at the fiscal year-end to reflect adjustments for market risks, asset performance and other key
                                  variables and economic factors. the reestimated data are then used to report the cost of the loans disbursed under the direct or
                                  guaranteed loan program as a “Program cost” in the agencies’ statement of net cost.

                                  the fcra establishes budgetary and financing control for each credit program through the use of the program, financing and subsidy
                                  receipt accounts for direct loans obligated after september 30, 1991. these accounts are classified as either budgetary or non­
                                  budgetary in the combined statements of budgetary resources. the budgetary accounts include the program accounts and receipt
                                  accounts. the non-budgetary accounts consist of the credit reform financing accounts.
part 3: annual financial report




                                  the program account is a budget account that receives and obligates appropriations to cover the subsidy cost of a direct loan
                                  or guarantee and disburses the subsidy cost to the financing account. the program account also receives appropriations for
                                  administrative expenses. the financing account is a non-budgetary account that records all of the cash flows resulting from credit
                                  reform direct loans, loan guarantees, or asset guarantees. It disburses loans, collects repayments and fees, makes claim payments,
                                  holds balances, borrows from bPD, earns or pays interest, and receives the subsidy cost payment from the program account.

                                  the general fund receipt account is a budget account used for the receipt of amounts paid from the financing account when
                                  there is a negative subsidy or negative modification from the original estimate or a downward reestimate. they are available for
                                  appropriations only in the sense that all general fund receipts are available for appropriations. any assets in this account are non­
                                  entity assets and are offset by Intra-governmental liabilities. at the end of the fiscal year, the fund balance transferred to the u.s.
                                  treasury through the general fund receipt account is no longer included in the Department’s fund balance reporting.

                                  the Department accounts for the following programs in accordance with fcra and the provisions under the fasab accounting
                                  standard sffas no. 2, as amended:


                                  172                                                                note 1. summary of significant accounting policies
                                                                 performance and accountability report | fiscal year 2010




TARP Direct Loans, Equity Investments and Asset Guarantee Program
the fcra provided for the use of program, financing, and general fund receipt accounts to separately account for activity related to
loans and guarantees. these accounts are classified as either budgetary or non-budgetary in the statement of budgetary resources.
the budgetary accounts include the program and general fund receipt accounts, and the non-budgetary accounts consist of the credit
reform financing accounts.

as discussed previously, the Department accounts for the cost of purchases of troubled assets and guarantees of troubled assets, and
any cash flows associated with authorized activities in accordance with section 123(a) of the eesa and the fcra for budgetary
accounting and sffas no. 2 for financial reporting, except for the treasury housing Programs under tarP (see note 8).

the authoritative guidance for financial reporting is primarily contained in the sffas no. 2, as amended by the sffas no.
18, Amendments to Accounting Standards for Direct Loans and Loan Guarantees, and the sffas no. 19, Technical Amendments to
Accounting Standards for Direct Loans and Loan Guarantees.

In accordance with sffas no. 2, the Department maintains program accounts which receive appropriations and obligate funds
to cover the subsidy cost of direct loans, equity investments and asset guarantees, and disburses the subsidy cost to the Department
financing accounts. the financing accounts are non-budgetary accounts that are used to record all of the cash flows resulting from
the Department direct loans, equity investments and asset guarantees.3 cash flows include disbursements, repayments, repurchases,
fees, recoveries, interest, dividends, proceeds from the sale of stock and warrants, borrowings from treasury, negative subsidy and the
subsidy cost received from the program accounts.

the financing arrangements specifically for the tarP activities are provided for in the eesa as follows: (1) borrowing for program
funds under section 118 that constitute appropriations when obligated or spent, which are reported as “appropriations” in these
financial statements; (2) borrowing by financing accounts for non-subsidy cost under the fcra and section 123; and (3) the
troubled assets Insurance financing fund (taIff) under section 102(d).

the Department uses general fund receipt accounts to record the receipt of amounts paid from the financing accounts when
there is a negative subsidy or negative modification (a reduction in subsidy cost due to changes in program policy or terms that
change estimated future cash flows) from the original estimate or a downward reestimate. amounts in the general fund receipt
accounts are available for appropriations only in the sense that all general fund receipts are available for appropriations. any
assets in these accounts are non-entity assets and are offset by intra-governmental liabilities. at the end of the fiscal year, the fund
balance transferred to the u.s. treasury through the general fund receipt account is closed and therefore no longer included in the
Department’s fund balance reporting.

the sffas no. 2 requires that the actual and expected costs of federal credit programs be fully recognized in financial reporting.




                                                                                                                                                           part 3: annual financial report
the Department calculated and recorded an initial estimate of the future performance of direct loans, equity investments, and asset
guarantees. the data used for these estimates were reestimated at the fiscal year-end to reflect adjustments for market risk, asset
performance, and other key variables and economic factors. the reestimate data was then used to estimate and report the “subsidy
cost” in the statement of net cost. a detailed discussion of the Department subsidy calculation and reestimate assumptions, process
and results is provided in note 8.

GSE MBS Purchase Program
the Department purchases mortgage-backed pass-through securities through the government sponsored enterprise Mortgage­
backed securities (gse Mbs) Purchase Program. the purchase authority under this Program expired December 31, 2009. consistent
with the fcra, these securities are treated as direct loans, and the value of the Department’s position and the associated credit


3   for the asset guarantee Program, the Department has established the troubled assets Insurance financing fund, which is the program’s financing
    account under the fcra, as required by section 102(d) of the eesa.



note 1. summary of significant accounting policies                                                                                                   173
                                  the department of the treasury




                                  subsidy requirements are determined based on the net present value of the securities’ forecasted future cash flows. the Department
                                  estimates nominal future cash flows using a financial model that incorporates each security’s payment characteristics together with
                                  assumptions about the future prepayment, default, and loss severity performance of underlying loan collateral and the gses’ ability to
                                  uphold their guarantee. nominal cash flow forecasts are discounted at interest rates of treasury securities with comparable maturities
                                  using the office of Management and budget’s credit subsidy calculator. cash flows are estimated under the assumption that all
                                  securities will be held to maturity.

                                  security-level data used as the basis for cash flow model forecasts are obtained directly from treasury’s program custodian.
                                  assumptions about security and program performance are drawn from widely available market sources as well as information pub­
                                  lished by the gses. key inputs to the cash flow forecast include:
                                    •	   security characteristics such as unpaid principal balance, pass-through coupon rate, weighted-average loan age, and weighted­
                                         average maturity
                                    •	   forecast prepayment rates and default rates

                                  State and Local Housing Finance Agency Initiative
                                  under the housing and economic recovery act of 2008 (hera), the Department, together with the federal housing finance
                                  agency (fhfa), fannie Mae, freddie Mac, and the Department of housing and urban Development announced in october 2009
                                  an initiative to provide support to state and local housing finance agencies (hfas). hfas have historically played a central role
                                  in providing a safe, sustainable path to homeownership for working families in all 50 states and many localities across the country.
                                  this initiative is designed to support low mortgage rates and expand resources for low and middle income borrowers to purchase or
                                  rent homes, making them more affordable over the long term. In December 2009, several transactions closed as part of the hfa
                                  Initiative’s two separate hfa programs: (1) the new Issue bond Program (nIbP) and (2) the temporary credit and liquidity
                                  Program (tclP).

                                  security-level data used as the basis for the nIbP cash flow model forecasts are obtained directly from the Department’s program
                                  custodian. assumptions about security and program performance are drawn from information published in the fiscal year 2009 fha
                                  actuarial review of the Mutual Mortgage Insurance fund and default and recovery reports published by Moody’s and s&P. key
                                  inputs to the nIbP cash flow forecast include:
                                    •	   security characteristics such as issued bond balance, coupon rate, credit rating, maturity date, and principal and interest payment
                                         schedules
                                    •	   forecast prepayment, and loss rates
                                         expected escrow conversion & return rates
part 3: annual financial report




                                    •	


                                  no tclP disbursements have occurred as of september 30, 2010. In accordance with oMb circular a-11, the Department did not
                                  perform a fiscal year 2010 subsidy reestimate for tclP since there was no disbursement as of september 30, 2010.


                                  AA. Fiduciary Activities
                                  In accordance with sffas no. 31, Accounting for Fiduciary Activities, fiduciary type activities and related transactions will no longer
                                  be reported by the Department in its proprietary financial statements. fiduciary activities are the collection or receipt, and the
                                  management, protection, accounting, investment, and disposition by the federal government of cash or other assets in which non­
                                  federal individuals or entities have an ownership interest that the federal government must uphold. fiduciary cash and other assets
                                  are not assets of the federal government. While these activities are no longer reported in the proprietary financial statements, they
                                  are required to be reported on schedules in the notes to financial statements (note 30).




                                  174                                                                 note 1. summary of significant accounting policies
                                                         performance and accountability report | fiscal year 2010




AB. Related Parties
the primary “related parties” with whom the Department conducts business are other federal agencies, mainly through the normal
lending activities of the bPD and the federal financing bank. these activities are disclosed in these financial statements. the
Department utilizes the services of the federal reserve to execute a variety of transactions on behalf of the bPD and the exchange
stabilization fund. the federal reserve is serving as the Department’s fiscal agent in executing these transactions and receives fees
for its services. the Department also consults with the federal reserve on matters affecting the economy, such as the structuring of
bailout financing for american International group and other companies affected by the current economic situation. however, these
actions do not involve transactions between the Department and the federal reserve.

finally, the secretary of the treasury serves on the fhfa oversight board, and consults with the Director of fhfa in matters
involving fannie Mae and freddie Mac. this provides the Department a voice in the fhfa’s actions as the conservator for fannie
Mae and freddie Mac, and thus some influence over major decisions involving fannie Mae and freddie Mac. the Department has no
transactions with fhfa; transactions and balances arising from transactions with fannie Mae and freddie Mac are accounted for and
disclosed in these financial statements.


AC. Reclassifications
certain fiscal year 2009 balances on the balance sheet and notes to the financial statements have been reclassified to conform to
fiscal year 2010 presentations. In fiscal year 2010, certain balance sheet amounts were aggregated and reclassified, whereas in fiscal
year 2009 they were reported disaggregated. amounts related to the tarP program were disaggregated in fiscal year 2009. the
changes to aggregate and reclassify amounts were made to conform to how tarP is presented on the ofs stand-alone and financial
report of the u.s. government levels. In fiscal year 2010, the cDfI direct loans began to be disclosed in the credit reform footnote.
the change impacted the reclassification of the balance sheet, and disclosures in notes 12 and 13.


AD. Accounting Policy Change
effective fiscal year 2010, as a result of a new united states standard general ledger (ussgl), the Department changed its
budgetary accounting and reporting policy related to esf foreign currency investments. the change in accounting policy permits
the Department to present the revaluations of esf investments as well as other esf assets not readily convertible to cash as a
budgetary resource that is permanently not available without affecting outlays. esf investments includes cash and cash equivalents,
foreign currency Denominated assets (fcDa) (representing long-term investments in interest bearing securities issued by or
held through foreign governments) and special Drawing rights (sDr) allocations (international reserve assets) and Monetization
(sDr certificates) (collectively “esf Investments” henceforth). the new ussgl 4295, Revaluation of Foreign Currency in the
Exchange Stabilization Fund permits the Department to report those assets that are not readily convertible to cash (such as fcDas,




                                                                                                                                         part 3: annual financial report
sDr revaluations (gains/losses) and other sDr additions including sDr allocations and sDr Monetizations) as part of budgetary
resources in the statement of budgetary resources (sbr) Permanently Not Available and report these as a component of status of
budgetary resources in the sbr Unobligated Balance Not Available line, respectively.

In order to facilitate this change, the Department’s current year sbr unobligated balance, brought forward, as well as unpaid
obligations, brought forward, beginning balances, have been adjusted for changes in esf investments balances accumulated
through september 30, 2009, to allow fiscal year 2010 to reflect only current year activity. using guidance provided in sffas no.
21 – Reporting Corrections of Errors and Changes in Accounting Principles, the Department considers this to represent a change from
one generally accepted accounting principle to another more preferable. note 25 - additional Information related to the combined
statements of budgetary resources, explains the effect of the policy change on the sbr beginning balances. this change in
accounting policy and resulting budgetary beginning balance adjustments does not impact the Department’s proprietary accounts.




note 1. summary of significant accounting policies                                                                                175
                                  the department of the treasury




                                  2.       funD balanCe
                                  fund balance with treasury is the aggregate amount of the Department’s accounts with the u.s. government’s central accounts from
                                  which the Department is authorized to make expenditures and pay liabilities. It is an asset because it represents the Department’s
                                  claim to the u.s. government’s resources. fund balance with treasury is not equivalent to unexpended appropriations, because it
                                  also includes non-appropriated revolving and enterprise funds, suspense accounts, and custodial funds such as deposit funds, special
                                  funds, and trust funds.

                                  appropriated funds consist of amounts appropriated annually by congress to fund the operations of the Department. appropriated
                                  funds include clearing funds, which represent reconciling differences with the Department balances.

                                  revolving funds are used for continuing cycles of business-like activity, in which the fund charges for the sale of products or services
                                  and uses the proceeds to finance its spending, usually without requirement for annual appropriations. a public enterprise revolving
                                  fund is an account that is authorized by law to be credited with offsetting collections from the public and those monies are used to
                                  finance operations. the Working capital fund is a fee-for-service fund established to support operations of Department components.
                                  also included are the financing funds for credit reform.

                                  Deposit funds represent amounts received as an advance that are not accompanied by an order and include non-entity collections
                                  that do not belong to the federal government.

                                  trust funds include both receipt accounts and expenditure accounts that are designated by law as a trust fund. trust fund receipts are
                                  used for specific purposes.

                                  special funds include funds designated for specific purposes including the disbursement of non-entity monies received in connection
                                  with the Presidential election campaign.

                                  Fund Balance With Treasury
                                  as of september 30, 2010 and september 30, 2009, fund balances consisted of the following (in millions):
                                                                                                                                       2010	                         2009
                                       Appropriated Funds                                                                      $    402,036                  $    455,983
                                       Revolving Funds                                                                               34,096                        47,897
                                       Clearing Funds                                                                                    21                            93
                                       Deposit Funds                                                                                    132                           146
                                       Trust Funds                                                                                       84                             5
part 3: annual financial report




                                       Special Funds                                                                                    656                           455
                                       Other Funds (Receipt Fund and Suspense Funds)                                                      1                             3
                                   Total Fund Balances	                                                                        $    437,026                  $    504,582


                                  Status Of Fund Balance With Treasury
                                  Portions of the unobligated balance unavailable include amounts appropriated in prior fiscal years that are not available to fund new
                                  obligations. however, it can be used for upward and downward adjustments for existing obligations in future years. the obligated
                                  balance not yet Disbursed represents amounts designated for payment of goods and services ordered but not received or goods and
                                  services received but for which payment has not yet been made.

                                  since the following line items do not post to budgetary status accounts, the following adjustments are required to reconcile the
                                  budgetary status to non-budgetary fund balance with treasury as reported in the accompanying balance sheets:
                                    •	 adjustments for non-budgetary funds are receipt, clearing, and deposit funds that represent amounts on deposit with treasury

                                       that have no budget status



                                  176                                                                                                          note 2. fund balance
                                                          performance and accountability report | fiscal year 2010




  •	   adjustments for borrowing authority – borrowing authority is in budgetary status but not in fund balance with treasury
  •	   adjustments for Intra-treasury Investments – budgetary resources have investments included; however, the money has been
       moved from the fund balance with treasury asset account to Investments
  •	   adjustments for Imprest funds – Imprest funds represent monies moved from fund balance with treasury to cash and other
       Monetary assets with no change in the budgetary status
  •	   adjustments for IMf – Monies moved from fund balance with treasury to other Monetary assets related to IMf accounts that
       have no budgetary resources and are with the federal reserve bank of new york. they also include the IMf reserve Position
       based on sDrs
  •	   adjustments for esf – esf investments and related balances that meet criteria for reporting as part of budgetary resources are
       reported on the sbr, however, they are not a component of fund balance with treasury as they represent invested funds and
       thus have to be excluded from total status of fund balance reported in this note. Prior to fiscal year 2010, the esf budgetary
       resources balances were adjusted in note 2 to show resources net of the esf investments and related balances that are not
       components of fund balance. the change in presentation for fiscal year 2010 was facilitated by the change in accounting policy
       discussed further in note 1aD, and note 25
  •	   adjustment for unavailable for obligations reduced the budgetary resources; however, did not impact the fund balance with
       treasury

as of september 30, 2010 and september 30, 2009, the status of fund balances consisted of the following (in millions):
                                                                                                      2010	                         2009
       Unobligated Balance – Available                                                       $    301,811                  $    382,047
       Unobligated Balance – Unavailable                                                            70,432                       33,841
       Obligated Balance not yet Disbursed                                                        208,189                       158,324
       Subtotal                                                                              $    580,432                  $    574,212
       Adjustment for Non-Budgetary Funds                                                               161                           241
       Adjustment for Borrowing Authority                                                         (23,477)                      (51,510)
       Adjustment for Intra-Treasury Investments                                                    (7,026)                       (8,554)
       Adjustment for Imprest Funds                                                                      (4)                           (4)
       Adjustment for IMF                                                                          (13,081)                     (13,513)
       Adjustment for ESF                                                                        (103,788)                               0
       Adjustments for Temporary Reduction                                                               90                            30
       Authority Unavailable for Obligation                                                           3,727                         3,680
       Adjustment for Indian Trust Funds                                                                 (8)                             0
       Total Status of Fund Balances                                                         $     437,026                 $    504,582


for fiscal year 2009, the above balances only include unobligated balances related to the esf insurance program that began in fiscal




                                                                                                                                             part 3: annual financial report
year 2008, and expired on september 18, 2009. otherwise, esf does not have fund balance with treasury. accordingly, while other
esf balances are included on the statement of budgetary resources (sbr), they are not a component of fund balance with treasury.
the esf balances displayed on the sbr include components of cash, foreign currency, and other monetary assets.

as of september 30, 2010 and september 30, 2009, the Department did not have any budgetary authority in fund balance with
treasury that was specifically withheld from apportionment by oMb. the balances in non-entity funds, such as certain deposit funds
(e.g. seized cash), are being held by the Department for the public or for another federal entity, such as the general fund of the u.s.
government. such funds have an offsetting liability equal to fund balance. see note 14 regarding restrictions related to the line of
credit held on the u.s. Quota in the International Monetary fund.

unused funds in expired appropriations returned to the u.s. treasury were $166 million and $126 million for the fiscal years ending
september 30, 2010 and september 30, 2009, respectively.




note 2. fund balance                                                                                                                177
                                  the department of the treasury




                                  3.        l Oans a nD i nterest r eCeivable – i ntra-gOvernmental
                                  Entity Intra-Governmental
                                  the ffb issues the below loans to federal agencies for their own use or to private sector borrowers, whose loans are guaranteed by
                                  the federal agencies. When a federal agency has to honor its guarantee because a private sector borrower defaults, the federal agency
                                  that guaranteed the loan must obtain an appropriation or use other resources to repay the ffb. loan principal and interest are backed
                                  by the full faith and credit of the u.s. government, except for loans to the u.s. Postal service. the ffb has not incurred and does
                                  not expect to incur any credit-related losses on its loans and accordingly, has not recorded an allowance for uncollectible intra­
                                  governmental loans.

                                  as of september 30, 2010 and september 30, 2009, intra-governmental loans (issued by the ffb) and interest receivable consisted of
                                  the following (in millions):
                                                                                      Loans       Interest        2010              Loans        Interest         2009
                                                                                  Receivable   Receivable         Total         Receivable    Receivable          Total
                                   Department of Agriculture                      $   31,264    $      53    $   31,317         $   28,438      $     52    $   28,490
                                   National Credit Union Administration               10,101           15        10,116             18,384            22        18,406
                                   United States Postal Service                       12,000           41        12,041             10,200            37        10,237
                                   General Services Administration                     1,973           35         2,008              2,037            36         2,073
                                   Department of Energy                                2,931            4         2,935                908             0           908
                                   Department of Housing and Urban Development             0            0             0                587            71           658
                                   Department of Defense                                 417            4           421                546             6           552
                                   Department of Education                               614            4           618                453             2           455
                                   Other Agencies                                          8            0             8                 12             0            12
                                   Subtotal-Entity                                $   59,308    $     156    $   59,464         $   61,565      $    226    $   61,791
part 3: annual financial report




                                  178                                                  note 3. loans and interest receivable - intra-governmental
                                                            performance and accountability report | fiscal year 2010




Non-Entity Intra-Governmental
bPD accounts for and reports on the principal borrowings from and repayments to the general fund of the u.s. government for
approximately 87 funds managed by other federal agencies, as well as the related interest due to the general fund. these agencies are
statutorily authorized to borrow from the general fund, through bPD, to make loans for a broad range of purposes, such as education,
housing, farming, and small business support.

                                                   Loans        Interest        2010                Loans       Interest        2009
                                               Receivable    Receivable         Total           Receivable   Receivable         Total
 Department of Education                       $ 373,717       $      0    $ 373,717            $ 234,918     $      12    $ 234,930
 Department of Agriculture                        56,598              0       56,598               55,627             2       55,629
 Department of Homeland Security                  18,504              0       18,504               19,004             0       19,004
 Small Business Administration                    11,752              0       11,752               10,873             0       10,873
 Department of Labor                               6,290              0        6,290                6,371             0        6,371
 Department of Housing and Urban Development       4,775              0        4,775                4,425             0        4,425
 Export Import Bank of the U.S.                    7,254              0        7,254                3,805             0        3,805
 Railroad Retirement Board                         3,481             54        3,535                3,359            58        3,417
 Department of Energy                              2,601             21        2,622                2,131            18        2,149
 Department of Veterans Affairs                    1,650              0        1,650                1,545             0        1,545
 Department of Transportation                      3,076              0        3,076                2,477             0        2,477
 Overseas Private Investment Corporation           1,403              0        1,403                1,006             0        1,006
 Department of Defense                               518              0          518                  391             0          391
 Agency for International Development                478              0          478                  477             0          477
 Department of the Interior                          308            183          491                  316           328          644
 Federal Communications Commission                    88              0           88                   46             0           46
 Other Agencies                                      638              0          638                1,610             1        1,611
 Subtotal Non-Entity                           $ 493,131       $    258    $ 493,389            $ 348,381     $     419    $ 348,800
 Total Intra-governmental Loans and Interest
 Receivable Entity and Non-Entity                                          $ 552,853                                       $ 410,591




                                                                                                                                        part 3: annual financial report




note 3. loans and interest receivable - intra-governmental                                                                      179
                                  the department of the treasury




                                  4.        D ue       frOm the                general funD anD D ue                 tO the       general funD
                                  the Department is responsible for managing various assets and liabilities on behalf of the u.s. government as a whole. Due from
                                  the general fund represents amounts required to fund liabilities managed by the Department on behalf of the u.s. government.
                                  liabilities managed by the Department are comprised primarily of the federal debt. Due to the general fund represents assets held for
                                  the general fund of the u.s. government.

                                  as of september 30, 2010 and september 30, 2009, Due from and Due to the general fund, included the following non-entity assets
                                  and liabilities (in millions):

                                   Liabilities Requiring Funding from the General Fund                                              2010                          2009
                                   Federal Debt and Interest Payable (Note 19)                                             $    9,035,929                $    7,559,305
                                   Federal Debt and Interest Payable - Intra-governmental (Note 19)                             4,587,802                     4,403,080
                                   Refunds Payable (Note 26)                                                                        4,146                         4,040
                                   Adjustment for Eliminated Liabilities                                                           27,760                        26,294
                                   Total Due from the General Fund                                                         $   13,655,637                $   11,992,719


                                   Assets to be Distributed to the General Fund                                                     2010                          2009
                                   Fund Balance                                                                            $          249                $          202
                                   Advances to the Unemployment Trust Fund                                                         34,111                         7,981
                                   Cash Held by the Treasury Department (Note 6)                                                  303,797                       269,311
                                   Foreign Currency                                                                                     3                            26
                                   Custodial Gold without certificates and Silver held by the U.S. Mint                                25                            25
                                   Loans and Interest Receivable - Intra-governmental (Note 3)                                    493,389                       348,800
                                   Loans and Interest Receivable (Note 13)                                                            124                           127
                                   Investments in Government Sponsored Enterprises (Note 9)                                       109,216                        64,679
                                   Credit Reform Downward Subsidy Reestimate                                                       25,579                       118,139
                                   Accounts Receivable - Intra-governmental                                                           350                           285
                                   Tax and Other Non-Entity Receivables                                                            36,927                        30,353
                                   Beneficial Interest in Trust (Note 29)                                                          20,805                        23,472
                                   Miscellaneous Assets                                                                                 5                             3
                                   Adjustment for Eliminated Assets                                                               389,672                       399,725
                                   Total Due to the General Fund                                                           $    1,414,252                $    1,263,128
part 3: annual financial report




                                  180                                                        note 4. due from the general fund and due to the general fund
                                                         performance and accountability report | fiscal year 2010




the adjustment for eliminated liabilities mainly represents investments in u.s. government securities held by the Department’s
reporting entities that were eliminated against federal Debt and Interest Payable Intra-governmental. the adjustment for
eliminated assets mainly represents loans and interest payable owed by reporting entities that are consolidated with the Department,
which were eliminated against loans and Interest receivable Intra-governmental held by the bPD.

advances have been issued to the Department of labor’s unemployment trust fund from the general fund of the u.s. government
to states for unemployment benefits.

the non-entity credit reform Downward subsidy reestimates represents amounts for the downward subsidy reestimates for the
Department’s credit programs including tarP equity Investments and Direct loan.

Downward subsidy reestimates indicates that too much subsidy will be or has been paid to the credit reform financing account. the
downward reestimates are not available to the Department and they are returned to the u.s. government general fund receipt
account (gfra) in the fiscal year following the accrual of the reestimates. generally, during the year, these gfras contain prior
year reestimates. at year-end, the prior year funds are “swept” by the general fund. also at year-end, the Department accrues the
current year’s reestimates, including downward reestimates, as applicable. for the downward reestimates, in the loan financing funds,
the Department records an intra-governmental accrual adjustment that records a transfer out to the non-entity fund, a reduction
of subsidy allowance or loan guarantee liability, and an account payable to the gfra non-entity fund. In the loan program funds,
the Department records a reduction of loan subsidy expense and the associated impact on the net cost. the non-entity gfras
contain a corresponding intra-governmental account receivable in anticipation of the receipt of the downward reestimates in the
following year and a Downward reestimate liability for non-entity asset due to the general fund. for consolidated financial
statement presentation, the Department is required to eliminate the financing fund’s intra-governmental payable due to the gfra
and the gfra’s intra-governmental receivable due from the financing funds; since both are included in the Department’s reporting
entity. the Downward reestimate liability for non-entity asset Due to the general fund is reflected on the balance sheet’s intra­
governmental liability Due to the general fund line (see notes 8 and 12 for disclosure of credit program’s reestimates).

on the balance sheet, the Department reported $437,026 million in fund balance as of september 30, 2010 ($504,582 million as
of september 30, 2009). however, only $249 million is reported as Due to the general fund of the u.s. government ($202 million
as of september 30, 2009). the balance represents non-entity funds held by the Department on behalf of the general fund of the
u.s. government, and are administered for programs such as the Presidential election campaign and Payments for legal service
corporation. the fund balance is not available for general use of the Department.

on the balance sheet, the Department reported $36,976 million in tax, other, and related Interest receivables as of september 30,
2010 ($30,408 million as of september 30, 2009). however, only $36,927 million is reported as Due to the general fund of the u.s.
government ($30,353 million as of september 30, 2009). the difference is attributable to the exclusion of amounts which will be




                                                                                                                                        part 3: annual financial report
paid to others outside the u.s. government, and miscellaneous entity receivables (see notes 5 and 15).




note 4. due from the general fund and due to the general fund                                                                    181
                                  the department of the treasury




                                  5.	 aCCOunts r eCeivable                         anD      r elateD i nterest —
                                      i ntra-gOvernmental
                                  Intra-governmental accounts receivable and interest mainly represents non-entity payments made by the Department under the
                                  Contract Disputes Act ($350 million of the $361 million and $285 million of the $298 million displayed on the balance sheet for 2010
                                  and 2009, respectively). other federal agencies are required to reimburse the Department for payments made on their behalf, related
                                  to the Contract Disputes Act and the No Fear Act. these amounts are a receivable on the Department’s balance sheet, specifically
                                  the financial Management service, and a payable on the other federal agencies’ balance sheet until reimbursement is made. the
                                  remaining amount displayed as intra-governmental accounts receivable and interest is related to miscellaneous intra-governmental
                                  transactions.
part 3: annual financial report




                                  182                                 note 5. accounts receivable and related interest—intra-governmental
                                                                performance and accountability report | fiscal year 2010




6.         Cash, fOreign C urrenCy, anD O ther mOnetary a ssets
cash, foreign currency, and other monetary assets held as of september 30, 2010 and september 30, 2009 were as follows (in
millions):

 Entity:                                                                                                  2010                   2009
     Cash                                                                                          $        16            $        23
     Foreign Currency and Foreign Currency Denominated Assets                                           13,439                 13,701
     Other Monetary Assets:
         Special Drawing Right Holdings                                                                 57,439                 57,961
         Other                                                                                             144                     44
 Subtotal – Entity                                                                                      71,038                 71,729
 Non-Entity:
     Operating Cash of the U.S. Government                                                             303,576                269,052
     Foreign Currency                                                                                        3                     26
     Miscellaneous Cash held by all Treasury sub-components                                                665                    501
 Subtotal - Non-Entity                                                                                 304,244                269,579
 Total Cash, Foreign Currency, and Other Monetary Assets                                           $   375,282            $   341,308




non-entity operating cash and other cash of the u.s. government held by the Department disclosed above consisted of the
following (in millions):

                                                                                                          2010                   2009
 Operating Cash of the U.S. Government                                                             $      2,032           $      2,063

 Operating Cash - Federal Reserve Bank Account                                                         307,850                273,269 

 Subtotal                                                                                              309,882                275,332
 Outstanding Checks                                                                                     (6,306)                (6,280)
 Total Operating Cash of the U.S. Government                                                           303,576                269,052
 Other Cash                                                                                                 297                     366
 Subtotal                                                                                              303,873                269,418
 Amounts Due to the Public                                                                                  (76)                  (107)
 Total Cash Due to the General Fund (See Note 4)                                                   $   303,797            $   269,311



Entity



                                                                                                                                          part 3: annual financial report
Cash, Foreign Currency, and Other Monetary Assets
entity cash, foreign currency, and other monetary assets primarily include foreign currency Denominated assets (fcDa), special
Drawing rights (sDrs), securities Purchased under agreement to resell, and forfeited cash. sDrs and fcDa are valued as of
september 30, 2010 and september 30, 2009, using current exchange rates plus accrued interest. “other” includes u.s. dollars
restricted for use by the International Monetary fund (IMf), which are maintained in two accounts at the federal reserve bank of
new york (frbny).

the foreign currency holdings are normally invested in interest bearing securities issued by or held through foreign governments or
monetary authorities. fcDa with original maturities of three months or less, classified as cash equivalents, were valued at $10,588
million as of september 30, 2010 ($11,311 million as of september 30, 2009). other fcDas having terms of less than or equal to a
year but greater than three months are classified as available for sale. as of september 30, 2010, fcDa with maturities greater than
three months were valued at $2,849 million ($2,379 million as of september 30, 2009).



note 6. cash, foreign currency, and other monetary assets                                                                        183
                                  the department of the treasury




                                  Special Drawing Rights
                                  the sDr is an international reserve asset created by the IMf to supplement existing reserve assets. the IMf has allocated new sDrs
                                  on several occasions to members participating in the IMf’s sDr Department. the sDr derives its value as a reserve asset, essentially,
                                  from the commitments of participants to hold and accept sDrs and to honor various obligations connected with their proper
                                  functioning as a reserve asset.

                                  the special Drawing rights act of 1968 authorizes the secretary of the treasury to issue certificates, not to exceed the value of
                                  sDr holdings, to the federal reserve banks in return for interest free dollar amounts equal to the face value of certificates issued.
                                  the certificates may be issued for the purpose of financing the acquisition of sDrs from other countries or for financing exchange
                                  stabilization activities. certificates issued are to be redeemed by the Department at such times and in such amounts as the secretary
                                  of the treasury may determine. as of september 30, 2010, the value of the certificates issued to the federal reserve amounted to
                                  $5,200 million ($5,200 million as of september 30, 2009).

                                  on a daily basis, the IMf calculates the value of the sDr using the market value, in terms of the u.s. dollar, from the amounts of
                                  each of four freely usable weighted currencies, as defined by the IMf. these currencies are the u.s. dollar, the european euro, the
                                  Japanese yen, and the british pound sterling. the Department’s sDr holdings (assets resulting from various sDr related activities
                                  including remuneration received on interest earned on the u.s. reserve position – see note 14) and allocations from the IMf
                                  (liabilities of the u.s. coming due only in the event of a liquidation of, or u.s. withdrawal from the sDr Department of the IMf, or
                                  cancellation of sDrs) are revalued monthly based on the sDr valuation rate calculated by the IMf.

                                  Pursuant to the IMf articles of agreement, sDrs allocated to or otherwise acquired by the united states are permanent resources
                                  unless:
                                    a. cancelled by the board of governors based on an 85 percent majority decision of the total voting power of the executive board
                                       of the IMf,
                                    b. the sDr Department of the IMf is liquidated,
                                    c. the IMf is liquidated, or
                                    d. the united states chooses to withdraw from the IMf or terminate its participation in the sDr Department.

                                  except for the payment of interest and charges on sDr allocations to the united states, the payment of the Department’s
                                  commitment related to sDr allocations is conditional on events listed above, in which the united states has a substantial or
                                  controlling voice. allocations of sDrs were made 1970, 1971, 1972, 1979, 1980, 1981, and 2009.

                                  at the g-20 leaders’ summit in london in april 2009, President obama and his g-20 counterparts called for a general sDr
part 3: annual financial report




                                  allocation equivalent to $250,000 million to provide supplemental liquidity to address the consequences of the global economic and
                                  financial crisis and to support global recovery. IMf members endorsed this proposal and the allocation was made on august 28, 2009
                                  to all IMf members in proportion to their IMf quotas. In august 2009, IMf members also adopted the fourth amendment to the
                                  IMf articles of agreement providing for a one-time sDr allocation that was made on september 9, 2009 in proportionally greater
                                  amounts to members that joined the fund after 1981 and never received an sDr allocation. as a result of the general and special
                                  sDr allocations, the united states received sDr 30,416 million, which was the equivalent of $47,283 million as of september 30,
                                  2009.




                                  184                                                    note 6. cash, foreign currency, and other monetary assets
                                                           performance and accountability report | fiscal year 2010




as of september 30, 2010, the total amount of sDr holdings of the united states was the equivalent of $57,410 million, and the
amount of cumulative sDr allocations to the united states was the equivalent of $54,958 million. as of september 30, 2009,
the total amount of sDr holdings of the united states was the equivalent of $57,945 million and the amount of cumulative sDr
allocations to the united states was the equivalent of $55,953 million.

During fiscal year 2010, the united states received remuneration on its reserve position in the IMf, at the prevailing rates, in the
amount of $23 million equivalent of sDrs ($40 million equivalent of sDrs during fiscal year 2009). the sDr amount was credited
to the exchange stabilization fund, which transferred to the treasury general account a counterpart amount of dollars plus $0.0029
million ($0.0038 million in fiscal year 2009) in interest.

Securities Purchased Under Agreement to Resell
the frbny enters into transactions to purchase foreign-currency-denominated government-debt securities under agreements to
resell for which the accepted collateral is the debt instruments, denominated in euro, and issued or guaranteed in full by belgium,
france, germany, Italy, the netherlands, and spain. Maturities of the securities will not exceed 10.5 years. the duration of
individual repo transactions will not exceed 90 days. esf’s investment in reverse repurchase agreements involves a pledge of
securities account with euroclear, the custodian/tri-party agent for such operations, to facilitate intra-day clearance of transactions.
these agreements are subject to daily margining requirements.


Non-Entity
Cash, Foreign Currency, and Other Monetary Assets
non-entity cash, foreign currency, and other monetary assets include the operating cash of the u.s. government, managed by
the Department. also included is foreign currency maintained by various u.s. disbursing offices. It also includes seized monetary
instruments, undistributed cash, and offers in compromises which are maintained as the result of the Department’s tax collecting
responsibilities.

the operating cash of the u.s. government represents balances from tax collections, other revenues, federal debt receipts, and
other various receipts net of checks outstanding, which are held in the federal reserve banks, foreign and domestic financial
institutions, and in u.s. treasury tax and loan accounts at commercial banks.

operating cash of the u.s. government is either insured (for balances up to $0.25 million), as of september 30, 2010, by the fDIc
or collateralized by securities pledged by the depository institutions and held by the federal reserve banks, or through securities held
under reverse repurchase agreements.




                                                                                                                                            part 3: annual financial report
Supplementary Financing Program
the supplementary financing Program (sfP) is a temporary program announced on september 17, 2008, by the Department and the
federal reserve, to provide emergency cash for federal reserve initiatives aimed at addressing the ongoing crisis in financial markets.
as of september 30, 2010, there were a total of 8 outstanding cash management bills earmarked for sfP that totaled $199,962
million (a total of 5 outstanding cash management bills earmarked for sfP that totaled $164,945 million as of september 30, 2009).




note 6. cash, foreign currency, and other monetary assets                                                                             185
                                  the department of the treasury




                                  7.	 gOlD anD silver r eserves, anD gOlD C ertifiCates issueD                                                           tO the
                                      feDeral r eserve banks
                                  the Department is responsible for safeguarding most of the u.s. government’s gold and silver reserves in accordance with 31 usc
                                  §5117. the gold and silver reserves are in the custody of the u.s. Mint and frbny.

                                  the majority of gold reserves being held by the Department are offset by a liability for gold certificates issued by the secretary of
                                  the treasury to the federal reserve banks as provided in 31 usc §5117. since 1934, gold certificates have been issued in non­
                                  definitive or book-entry form to the federal reserve banks. the Department’s liability incurred by issuing the gold certificates, as
                                  reported on the balance sheet, is limited to the gold being held by the Department at the legal standard value established by law.
                                  upon issuance of gold certificates to the federal reserve banks, the proceeds from the certificates are deposited into the operating
                                  cash of the u.s. government. all of the Department’s certificates issued are payable to the federal reserve banks. the u.s. Mint
                                  also holds 100,000 fto ($4 million) of gold reserves without certificates.

                                  the gold and silver bullion reserve (deep storage and working stock) are reported at the values stated in 31 u s c §§ 5116 -
                                  5117 (statutory rates) which are $42.2222 per fine troy ounce (fto) of gold and no less than $1.292929292 per fto of silver.
                                  accordingly, the silver is valued at $1.292929292 per fto. as of september 30, 2010 and september 30, 2009, the gold and silver
                                  reserves consisted of the following (in millions):

                                                                                                                            9/30/10                              9/30/10
                                                                                  FTOs            Statutory Rate    Statutory value      Market Rate        Market value
                                   Gold                                     248,046,116       $         42.2222      $      10,473       $   1,307.00       $    324,196
                                   Gold Held by Federal Reserve Banks        13,452,784       $         42.2222                568       $   1,307.00             17,583
                                   Subtotal - Gold                          261,498,900                                     11,041                               341,779
                                   Silver                                    16,000,000       $    1.292929292                  21       $     22.07                 353
                                   Total Gold and Silver Reserves                                                    $      11,062                          $    342,132


                                                                                                                            9/30/09                              9/30/09
                                                                                  FTOs            Statutory Rate    Statutory value      Market Rate        Market value
                                   Gold                                     248,046,116       $         42.2222      $      10,473       $    995.75        $    246,992
                                   Gold Held by Federal Reserve Banks        13,452,784       $         42.2222                568       $    995.75              13,396
                                   Subtotal - Gold                          261,498,900                                     11,041                               260,388
                                   Silver                                    16,000,000       $    1.292929292                  21       $     16.45                 263
                                   Total Gold and Silver Reserves                                                    $      11,062                          $    260,651
part 3: annual financial report




                                  186          note 7. gold and silver reserves, and gold certificates issued to the federal reserve banks
                                                           performance and accountability report | fiscal year 2010




8.	 trOubleD a sset r elief p rOgram (tarp) D ireCt l Oans anD
    e quity i nvestments, net anD a sset guarantee p rOgram

Direct Loan, Equity Investments and Asset Guarantee Program
the Department administers a number of programs designed to help stabilize the financial system and restore the flow of credit to
consumers and businesses. the Department has made direct loans, equity investments, and entered into asset guarantees. the table
below recaps tarP programs by title and type:

 Program                                                              Program Type
 Capital Purchase Program                                             Equity Investment/Subordinated Debentures
 American International Group, Inc. Investment Program                Equity Investment
 Targeted Investment Program                                          Equity Investment
 Automotive Industry Financing Program                                Equity Investment and Direct Loan
 Consumer and Business Lending Initiative:
   •	 Term Asset-Backed Securities Loan Facility                      Subordinated Debentures
   •	 SBA 7(a) Security Purchase Program                              Direct Loan
   •	 Community Development Capital Initiative                        Equity Investment
 Public-Private Investment Program                                    Equity Investment and Direct Loan
 Asset Guarantee Program                                              Asset Guarantee


the Department applies the provisions of sffas no. 2 to account for direct loans, equity investments, and the asset guarantee
program. this standard requires measurement of the asset or liability at the net present value of the estimated future cash flows. the
cash-flow estimates for each transaction reflect the actual structure of the instruments. for each of these instruments, analytical cash
flow models generate estimated cash flows to and from the Department over the estimated term of the instrument. further, each
cash-flow model reflects the specific terms and conditions of the program, technical assumptions regarding the underlying assets, risk
of default or other losses, and other factors as appropriate. the models also incorporate an adjustment for market risk to reflect the
additional return required by the market to compensate for variability around the expected losses reflected in the cash flows (the
“unexpected loss”).

the adjustment for market risk requires the Department to determine the return that would be required by market participants to
enter into similar transactions or to purchase the assets held by the Department. accordingly, the measurement of the assets attempts
to represent the proceeds expected to be received if the assets were sold to a market participant. the methodology employed for
determining market risk for equity investments generally involves a calibration to market prices of similar securities that results in




                                                                                                                                            part 3: annual financial report
measuring equity investments at fair value. the adjustment for market risk for loans is intended to capture the risk of unexpected
losses, but not intended to represent fair value , i.e. the proceeds that would be expected to be received if the loans were sold to a
market participant. the Department uses market observable inputs, when available, in developing cash flows and incorporating the
adjustment required for market risk. for purposes of this disclosure, the Department has classified the various investments as follows,
based on the observability of inputs that are significant to the measurement of the asset:

Quoted Prices for Identical Assets: the measurement of assets in this classification is based on direct market quotes for the
     specific asset, e.g. quoted prices of common stock.
Significant Observable Inputs: the measurement of assets in this classification is primarily derived from market observable data,
     other than a direct market quote, for the asset. this data could be market quotes for similar assets for the same entity.
Significant Unobservable Inputs: the measurement of assets in this classification is primarily derived from inputs which
     generally represent management’s best estimate of how a market participant would assess the risk inherent in the asset. these
     unobservable inputs are used because there is little to no direct market activity.



note 8. tarp direct loans and equity investments, net and asset guarantee program                                                     187
                                  the department of the treasury




                                  the table below displays the assets held by the observability of inputs significant to the measurement of each value (in millions):
                                                                                                                                                As of September 30, 2010
                                                                                                                      Quoted Prices for             Significant               Significant                    2010
                                      Investment                                                                       Identical Assets       Observable Inputs       Unobservable Inputs                    Total
                                   Capital Purchase Program                                                                $      14,899            $            0             $      33,334         $      48,233
                                   American International Group Investment Program*                                                    0                         0                    26,138                26,138
                                   Targeted Investment Program                                                                         0                         0                         1                     1
                                   Automotive Industry Financing Program                                                               0                         0                    52,709                52,709
                                   Consumer and Business Lending Initiative, which includes TALF, SBA 7(a)
                                      securities and CDCI                                                                              0                        0                       966                   966
                                   Public-Private Investment Program                                                                   0                        0                    14,405                14,405
                                   Asset Guarantee Program                                                                         2,240                      815                         0                 3,055
                                   Total TARP Program                                                                      $      17,139            $         815              $    127,553          $    145,507


                                                                                                                                                As of September 30, 2009
                                                                                                                      Quoted Prices for             Significant               Significant                    2009
                                      Investment                                                                       Identical Assets       Observable Inputs       Unobservable Inputs                    Total
                                   Capital Purchase Program                                                                $      37,231            $           0              $    104,440               141,671
                                   American International Group Investment Program                                                     0                        0                    13,152                13,152
                                   Targeted Investment Program                                                                         0                   40,341                         0                40,341
                                   Automotive Industry Financing Program                                                               0                        0                    42,284                42,284
                                   Consumer and Business Lending Initiative, which includes TALF                                       0                        0                       444                   444
                                   Asset Guarantee Program                                                                             0                        0                     1,765                 1,765
                                   Total TARP Program                                                                      $      37,231            $      40,341              $    162,085               239,657
                                  * Does not give effect to the proposed restructuring as discussed under American International Group, Inc. Investment Program in this note.

                                  Note: Reported on the balance sheet as of September 30, 2010, $815 million is intra-governmental and $144,692 million is with the public for a combined total of $145,507 million.



                                  the following provides a description of the methodology used to develop the cash flows and incorporate the market risk into the
                                  measurement of the Department assets.

                                  Financial Institution Equity Investments4
                                  the estimated values of preferred equity investments are the net present values of the expected dividend payments and repurchases. the
                                  model assumes that the key decisions affecting whether or not institutions pay their preferred dividends are made by each institution
                                  based on the strength of their balance sheet. the model assumes a probabilistic evolution of each institution’s asset-to-liability ratio (the
part 3: annual financial report




                                  asset-to-liability ratio is based on the estimated fair value of the institution’s assets against its liabilities). each institution’s assets are
                                  subject to uncertain returns and institutions are assumed to manage their asset to liability ratio in such a way that it reverts over time to
                                  a target level. historical volatility is used to scale the likely evolution of each institution’s assets-to-liabilities ratio.

                                  In the model, when equity decreases, i.e. the asset-to-liability ratio falls, institutions are increasingly likely to default, either because
                                  they enter bankruptcy or are closed by regulators. the probability of default is estimated based on the performance of a large sample
                                  of u.s. banks over the period 1990-2009. at the other end of the spectrum, institutions call their preferred shares when the present
                                  value of expected future dividends exceeds the call price; this occurs when equity is high and interest rates are low. Inputs to the model
                                  include institution specific accounting data obtained from regulatory filings, an institution’s stock price volatility, historical bank
                                  failure information, as well as market prices of comparable securities trading in the market. the market risk adjustment is obtained
                                  through a calibration process to the market value of certain trading securities of financial institutions within the tarP programs. the
                                  Department estimates the values and projects the cash flows of warrants using an option-pricing approach based on the current stock
                                  price and its volatility. Investments in common stock which are exchange traded are valued at the quoted market price.

                                  4     this consists of equity investments made under cPP, cDcI, and tIP.



                                  188                        note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                                  performance and accountability report | fiscal year 2010




AIG Investment
the method used to measure aIg preferred shares is broadly analogous to the approach used to measure financial institution
preferred shares. however, greater uncertainty exists for the valuation of preferred shares for aIg. first, the size of the Departments’
holding of preferred shares relative to aIg’s total balance sheet makes the valuation extremely sensitive to assumptions about the
recovery ratio for preferred shares should aIg enter default. second, no comparable traded preferred shares exist. therefore, the
Department based the aIg valuation on the observed market values of publicly traded junior subordinated debt, adjusted for the
Departments’ position in the capital structure. further, based on certain publicly available third party sources, assumptions about
payouts in different outcomes and the probability of some outcomes were made. finally, an external asset manager provided estimated
fair value amounts, premised on public information, which also assisted the Department in its measurement. these different factors
were all used in determining the best estimate for the aIg assets. the adjustment for market risk is incorporated in the data points
the Department uses to determine the measurement for aIg as all points rely on market data.

Asset Guarantees Program
for fiscal year 2009, the value of the asset guarantee program reflects the net present value of estimated default-claim payments by the
Department, net of income from recoveries on defaults, fees (including equity received), or other income. Default-claim payments
were based on estimated losses on the guaranteed assets. key inputs into these estimates are forecasted gross domestic product,
unemployment rates, and home price depreciation, in a base scenario and a stress scenario. During fiscal year 2010, an agreement
was entered into to terminate the guarantee of the Department to pay for any defaults. after the termination, the Department still
holds some of the trust preferred securities (initially received as the guarantee fee) issued by citigroup and the potential to receive
$800 million (liquidation preference) of additional citigroup trust preferred securities from the fDIc, see further discussion below
under the heading of asset guarantee Program. as such, as of september 30, 2010, the value of the instruments within the agP is
the value of the trust preferred securities held and the estimated cash flows associated with the contingent right to receive additional
trust preferred securities. on september 30, 2010, the Department entered into an agreement to sell5 the trust preferred securities
held within agP, and the value of the trust preferred securities is approximately the sales price and the contingent right is valued in
a similar manner as the financial institutions preferred equity investments noted above.

Investments in Special Purpose Vehicles
the Department has made certain investments in financial instruments issued by special purpose vehicles (sPVs). generally, the
Department estimates the cash flows of the sPV and then applies those cash flows to the waterfall governing the priority of payments
out of the sPV.

for the loan associated with the term asset-backed securities loan facility (talf), the Department model derives the cash flows to
the sPV, and ultimately the Department, by simulating the performance of underlying collateral. loss probabilities on the underlying




                                                                                                                                            part 3: annual financial report
collateral are calculated based on analysis of historical loan loss and charge off experience by credit sector and subsector. historical
mean loss rates and volatilities are significantly stressed to reflect recent and projected performance. simulated losses are run through
cash flow models to project impairment to the talf-eligible securities. Impaired securities are projected to be purchased by the sPV,
requiring additional funding by the Department. simulation outcomes consisting of a range of loss scenarios are probability-weighted
to generate the expected net present value of future cash flows.

for the Public-Private Investment Program (PPIP) investments and loans made in the Public Private Investment funds (PPIf), the
Department model derives cash flows to the sPV by simulating the performance of the collateral supporting the residential mortgage­
backed securities (rMbs) and commercial mortgage backed securities (cMbs) held by the PPIf (i.e. performance of the residential
and commercial mortgages). the simulated cash flows are then run through the waterfall of the rMbs/cMbs to determine the cash
flows to the sPV. once determined, the cash flows are run through the waterfall of the PPIf to determine the expected cash flows to


5   see further discussion of sale under asset guarantee Program below.



note 8. tarp direct loans and equity investments, net and asset guarantee program                                                   189
                                  the department of the treasury




                                  the Department through both the equity investments and loans. Inputs used to simulate the cash flows are unemployment forecast,
                                  home price appreciation/depreciation forecast, the current term structure of interest rates, historical pool performance as well as
                                  estimates of net income and value of commercial real estate supporting the cMbs.

                                  SBA 7(a) Securities
                                  the valuation of sba 7(a) securities is based the discounted estimated cash-flows of the securities.

                                  Auto Industry Financing Program (AIFP) Investments and Loans
                                  the valuation of equity investments was performed in a manner that is broadly analogous to the methodology used for financial
                                  institution equity investments, with reliance on publicly traded securities to benchmark the assumptions of the valuation exercise.
                                  aIfP loans with potential value is valued using rating agency default probabilities.

                                  as part of the general Motors (gM) bankruptcy proceedings, the Department received a 60.8 percent stake in the common equity of
                                  general Motors company (new gM). because the unsecured bond holders in general Motors corporation (old gM) received 10
                                  percent of the common equity ownership and warrants in new gM, the expected recovery rate implied by the current trading prices
                                  of the old gM bonds provides the implied value of the new gM equity. the Department used this implied equity value to account
                                  for its equity stake in new gM. the adjustment for market risk is incorporated in the data points the Department uses to determine
                                  the measurement for gM as all points rely on market data.

                                  for gMac, Inc. (gMac – currently known as ally financial) trust preferred equity instruments, the Department estimates the
                                  value based on comparable publicly traded securities adjusted for factors specific to gMac, such as credit rating. for investments in
                                  gMac’s common equity and mandatorily convertible preferred stock, which is valued on an “if-converted” basis, the Department
                                  uses certain valuation multiples such as price-to-earnings and price-to-tangible book value to estimate the value of the shares. the
                                  multiples are based on those of comparable publicly-traded entities. the adjustment for market risk is incorporated in the data points
                                  the Department uses to determine the measurement for gMac as all points rely on market data.

                                  the Department values direct loans using an analytical model that estimates the net present value of the expected principal, interest,
                                  and other scheduled payments taking into account potential defaults. In the event of an institution’s default, these models include
                                  estimates of recoveries, incorporating the effects of any collateral provided by the contract. the probability of default and losses
                                  given default are estimated by using historical data when available, or publicly available proxy data, including credit rating agencies
                                  historical performance data. the models also incorporate an adjustment for market risk to reflect the additional return on capital that
                                  would be required by a market participant.
part 3: annual financial report




                                  Subsidy Cost
                                  the recorded subsidy cost of a direct loan, equity investment, or asset guarantee is based on the estimated future cash flows calculated
                                  as discussed above. the Department actions, as well as changes in legislation, that change these estimated future cash flows change
                                  subsidy costs and are recorded as modifications. the cost of a modification is recognized as a modification expense, included in
                                  subsidy cost, when the direct loan, equity investment, or asset guarantee is modified. During fiscal year 2010, modifications occurred
                                  within the capital Purchase Program, the asset guarantee Program, and the automotive Industry financing Program. During the
                                  fiscal year ended september 30, 2009, modifications occurred within the capital Purchase Program; consumer and business lending
                                  Initiative; the american International group, Inc. Investment Program; and the automotive Industry financing Program. see
                                  detailed discussion related to each program and related modifications below. total net modification cost for the fiscal year ended
                                  september 30, 2010 was $47.9 million. for the fiscal year ended september 30, 2009, net modification costs were $412.1 million.

                                  the following table recaps gross loan or equity investment, subsidy allowance, and net loan or equity investment by tarP program.
                                  Detailed tables providing the net composition, subsidy cost, modifications and reestimates, along with a reconciliation of subsidy cost




                                  190                  note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                                           performance and accountability report | fiscal year 2010




allowances as of and for the fiscal year ended september 30, 2010 and september 30,2009, are provided at the end of this note for
Direct loans and equity Investments, detailed by program, and for the asset guarantee Program separately.

Descriptions and chronology of significant events by program are after the summary table.

    (in millions)                                                                                                             As of September 30, 2010
                                                                                             Gross Direct Loans                          Subsidy         Net Direct Loans
    TARP Program                                                                            or Equity Investment                      Allowance      or Equity Investment
 Capital Purchase Program (CPP)                                                                    $        49,779                $       (1,546)           $     48,233
 American International Group, Inc. Investment Program (AIG)*                                               47,543                      (21,405)                  26,138
 Targeted Investment Program (TIP)                                                                               0                              1                      1
 Automotive Industry Financing Program (AIFP)                                                               67,238                      (14,529)                  52,709
 Consumer and Business Lending Initiative (CBLI), which includes TALF, SBA 7(a)
    securities and CDCI                                                                                       908                             58                     966
 Public-Private Investment Program (PPIP)                                                                  13,729                            676                  14,405
 Total TARP Program                                                                                $      179,197                 $     (36,745)            $    142,452



    (in millions)                                                                                                             As of September 30, 2009
                                                                                             Gross Direct Loans                          Subsidy         Net Direct Loans
    TARP Program                                                                            or Equity Investment                      Allowance      or Equity Investment
 Capital Purchase Program (CPP)                                                                    $      133,901                 $        7,770            $    141,671
 American International Group, Inc. Investment Program (AIG)                                               43,206                       (30,054)                  13,152
 Targeted Investment Program (TIP)                                                                         40,000                            341                  40,341
 Automotive Industry Financing Program (AIFP)                                                              73,762                       (31,478)                  42,284
 Consumer and Business Lending Initiative (CBLI), which includes TALF                                         100                            344                     444
 Public-Private Investment Program (PPIP)                                                                       0                              0                       0
 Total TARP Program                                                                                $      290,969                 $     (53,077)            $    237,892
* Does not give effect to the proposed restructuring as discussed under American International Group, Inc. Investment Program in this note.



Capital Purchase Program
In october 2008, the Department began implementation of the tarP with the capital Purchase Program (cPP), designed to help
stabilize the financial system by assisting in building the capital base of certain viable u.s. financial institutions to increase the
capacity of those institutions to lend to businesses and consumers and support the economy. under this program, the Department
purchased senior perpetual preferred stock from qualifying u.s. controlled banks, savings associations, and certain bank and savings




                                                                                                                                                                            part 3: annual financial report
and loan holding companies (Qualified financial Institution or QfI). the senior preferred stock has a stated dividend rate of 5.0
percent through year five, increasing to 9.0 percent in subsequent years. the dividends are cumulative for bank holding companies
and subsidiaries of bank holding companies and non-cumulative for others and payable when and if declared by the institution’s
board of directors. under the original terms of the senior preferred stock the QfI may not redeem the shares within the first three
years of the date of the investment, unless it had received the proceeds of one or more Qualified equity offerings (Qeo)6 which
results in aggregate gross proceeds to the QfI of not less than 25.0 percent of the issue price of the senior preferred stock. QfIs that
are sub-chapter s corporations issued subordinated debentures in order to maintain compliance with the Internal revenue code.
the maturity of the subordinated debentures is 30 years and interest rates are 7.7 percent for the first five years and 13.8 percent for
the remaining years.




6      a Qualified equity offering is defined as the sale by the QfI after the date of the senior preferred stock investment of tier 1 perpetual preferred stock or
       common stock for cash.



note 8. tarp direct loans and equity investments, net and asset guarantee program                                                                                   191
                                  the department of the treasury




                                  In february 2009 and May 2009, the united states congress passed the american recovery and reinvestment act of 2009 and the
                                  helping families save their homes act of 2009, respectively. these acts contained amendments to the eesa (eesa amendments)
                                  which require the secretary to allow QfIs to repay at any time, subject to regulatory approval, regardless of whether the 25.0 percent
                                  or greater Qeo was accomplished. the ability of a QfI to repay the Department investment prior to year three or a 25.0 percent
                                  Qeo was not considered in the original subsidy cost estimate. therefore, a modification cost of $77.7 million was recorded for the
                                  fiscal year ended september 30, 2009 as a result of these amendments.

                                  In addition to the senior preferred stock, the Department received warrants, as required by section 113(d) of eesa, from public QfIs
                                  to purchase a number of shares of common stock. the warrants have an aggregate exercise price equal to 15.0 percent of the total
                                  senior preferred stock investment. the exercise price per share used to determine the number of shares of common stock subject to
                                  the warrant was calculated based on the average closing prices of the common stock on the 20 trading days ending on the last day
                                  prior to the date the QfIs application was preliminarily approved for participation in the program. the warrants include customary
                                  anti-dilution provisions. Prior to December 31, 2009, in the event a public QfI completed one or more Qeos with aggregate gross
                                  proceeds of not less than 100.0 percent (100.0 percent Qeo) of the senior perpetual preferred stock investment, the number of
                                  shares subject to the warrants was reduced by 50.0 percent. as of December 31, 2009, a total of 38 QfIs reduced the number of shares
                                  available under the warrants as a result of this provision. as of september 30, 2009, 19 QfIs had reduced shares pursuant to the
                                  provision. the warrants have a 10 year term. subsequent to December 31, 2009, the Department may exercise any warrants held in
                                  whole or in part at any time.

                                  the Department received warrants from non-public QfIs for the purchase of additional senior preferred stock (or subordinated
                                  debentures if appropriate) with a stated dividend rate of 9.0 percent (13.8 percent interest rate for subordinate debentures) and
                                  a liquidation preference equal to 5.0 percent of the total senior preferred stock (additional subordinate debenture) investment.
                                  these warrants were immediately exercised and resulted in the Department holding additional senior preferred stock (subordinated
                                  debentures) (collectively referred to as “warrant preferred stock”) of non-public QfIs. the Department did not receive warrants
                                  from financial institutions considered community Development financial Institutions (cDfIs). a total of 35 and 20 institutions
                                  considered cDfIs were in the cPP portfolio as of september 30, 2010 and 2009, respectively.

                                  the eesa amendments previously discussed also allow the secretary to liquidate warrants associated with repurchased senior
                                  preferred stock at the market price. In addition, a QfI, upon the repurchase of its senior preferred stock, also has the contractual right
                                  to repurchase the common stock warrants at the market price.

                                  the following table provides key data points related to the cPP. In addition, 106 and 38 QfIs have not declared and paid one or
                                  more dividends to the Department under cPP as of september 30, 2010 and 2009, respectively (dollars in millions):
part 3: annual financial report




                                                                                                                                          2010                         2009
                                   Number of Institutions Participating                                                                      707                         685
                                   Outstanding Beginning Balance, Investment in CPP Institutions                                   $   133,901                  $          0
                                   Purchase Price, current year Investments                                                                  278                    204,619
                                   Repayments and Sales of Investments                                                                 (81,462)                     (70,718)
                                   Write-offs and Losses                                                                                 (2,575)                           0
                                   Transfers to CDCI                                                                                       (363)                           0
                                   Outstanding Ending Balance, Investment in CPP Institutions                                      $     49,779                 $   133,901

                                   Interest and Dividend Collections                                                               $     3,100                  $     6,800
                                   Net Proceeds from Sales and Repurchases of Assets in Excess of Cost                             $     6,700                  $     2,900




                                  192                     note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                             performance and accountability report | fiscal year 2010




the task of managing the investments in cPP banks may require that the Department enter into certain agreements to exchange
and/or convert existing investments in order to achieve the best possible return for taxpayers. In the fiscal year ended september 30,
2009, the Department entered into an exchange agreement with citigroup under which the Department exchanged $25,000 million,
at $3.25 per share, of its investment in senior preferred stock for 7,700 million common shares of citigroup. this exchange
transaction was not considered in the original subsidy cost estimate for cPP. as a result, the Department recorded a modification
cost of $1,800 million for the fiscal year ended september 30, 2009. In april 2010, the Department began a process of selling the
citigroup common stock. as of september 30, 2010, the Department had sold approximately 4,000 million shares for total proceeds
of $16,100 million resulting in proceeds from sales in excess of cost of approximately $3,000 million. as of september 30, 2010, the
Department continues to hold approximately 3,700 million shares of citigroup common stock with an estimated fair value of $14,300
million, based on the september 30, 2010 closing price of $3.91 per share. Included in shares held as of september 30, 2010, is
approximately 77.2 million shares which were sold prior to or on september 30, 2010, but did not settle until october 2010. Proceeds
from these sales were $302.7 million resulting in proceeds from sales in excess of cost of $51.9 million.

In addition to the above transaction the Department has entered into other transactions with various financial institutions including,
exchanging existing preferred shares for a like amount of non tax-deductible trust Preferred securities, shares of mandatorily
convertible preferred securities and selling preferred shares to acquiring financial institutions. generally the transactions are entered
into with financial institutions in poor financial condition with a high likelihood of failure. as such, in accordance with sffas
no. 2, these transactions are considered workouts and not modifications. the changes in cost associated with these transactions are
captured in the year-end reestimates.

During fiscal year 2010, certain financial institutions participating in cPP which are in good standing became eligible to exchange
their Department-held stock investments to preferred stock under the community Development capital Initiative (cDcI) of the
consumer and business lending Initiative Program (cblI). the exchange of stock is treated as a repayment of cPP investments
from the participating financial institution and a distribution for the cDcI. see further discussion of the cblI and cDcI below.
this was not considered in the formulation estimate for the cPP program. as a result, the Department recorded a modification cost
savings of $31.9 million in the cPP program for this option during fiscal year 2010.

Failed institutions
In november 2009, a cPP participant, cIt group, filed for chapter 11 bankruptcy. the Department had invested $2,300 million in
senior preferred stock of cIt group and received a warrant for the purchase of common stock. In fiscal year 2010, as a result of the
bankruptcy proceedings, the Department wrote off the $2,300 million investment in cIt group and will not recover any amounts
associated with it. In addition, during fiscal year 2010, four other financial institutions within the cPP portfolio either filed for
bankruptcy or were closed by their regulators. the Department had invested approximately $396.3 million into these institutions.




                                                                                                                                                   part 3: annual financial report
the Department does not anticipate recovery on these investments and therefore the value of these shares are reflected at zero as
of september 30, 2010. the ultimate amount received, if any, from the investments in institutions that filed for bankruptcy and
institutions closed by regulators will depend primarily on the outcome of the bankruptcy proceedings and of the receivership.


American International Group, Inc. Investment Program (AIG)
the Department provides assistance to certain systemically significant financial institutions on a case-by-case basis in order to
provide stability to institutions that are critical to a functioning financial system and are at substantial risk of failure as well as to
prevent broader disruption to financial markets.

In november 2008, the Department invested $40,000 million in aIg’s cumulative series D perpetual cumulative preferred
stock with a dividend rate of 10.0 percent compounded quarterly. the Department also received a warrant for the purchase of
approximately 53.8 million shares (adjusted to 2.7 million shares after a 20:1 reverse stock split) of aIg common stock. on april 17,
2009, aIg and the Department restructured their november 2008 agreement. under the restructuring, the Department exchanged



note 8. tarp direct loans and equity investments, net and asset guarantee program                                                            193
                                  the department of the treasury




                                  $40,000 million of cumulative series D preferred stock for $41,600 million of non-cumulative 10.0 percent series e preferred stock.
                                  the amount of series e preferred stock is equal to the original $40,000 million, plus approximately $733.0 million in undeclared
                                  dividends as of the february 1, 2009, scheduled quarterly dividend payment date, $15.0 million in dividends compounded on the
                                  undeclared dividends, and an additional $855.0 million in dividends from february 1, 2009, but not paid as of april 17, 2009. aIg’s
                                  restructured agreement kept the quarterly dividend payment dates of May 1, august 1, november 1, and february 1, as established
                                  by the original november 2008 agreement. the original subsidy cost estimate did not consider this restructuring which resulted in a
                                  modification cost of $127.2 million being recorded. the Department requested and received an appropriation for this additional cost
                                  in the fiscal year ended september 30, 2009.

                                  In addition to the exchange, the Department agreed to make available an additional $29,800 million capital facility to allow aIg
                                  to draw additional funds if needed to assist in aIg’s restructuring. the Department investment related to the capital facility consists
                                  of series f non-cumulative perpetual preferred stock with no initial liquidation preference, and a warrant for the purchase of 3,000
                                  shares (adjusted to 150 shares after a 20:1 reverse stock split of aIg common stock). this liquidation preference increases with any
                                  draw down by aIg on the facility. the dividend rate applicable to these shares is 10.0 percent and is payable quarterly, if declared,
                                  on the outstanding liquidation preference. for the fiscal year ended september 30, 2010 and september 30, 2009, $4,300 million
                                  and $3,200 million, respectively, has been funded by the Department to aIg under this additional capital facility. consistent with
                                  sffas no.2, the unused portion of the aIg capital facility is not recognized as an asset as of september 30, 2010 and 2009.

                                  according to the terms of the preferred stock, if aIg misses four dividend payments, the Department may appoint to the aIg board
                                  of directors, the greater of two members or 20.0 percent of the total number of directors of the company. the ability to appoint
                                  such directors shall remain in place until dividends payable on all outstanding shares of the series e Preferred stock have been
                                  declared and paid in full for four consecutive quarterly dividend periods, subject to revesting for each and every subsequent missed
                                  dividend payment. on april 1, 2010, the Department appointed two directors to the company’s board as a result of non-payments of
                                  dividends. the additional two directors increased the total number of aIg directors to twelve.

                                  on september 30, 2010, the Department, federal reserve bank of new york and aIg announced plans for a restructuring of the
                                  federal government’s investments in aIg. the restructuring plan provides for, among other items, the conversion of currently
                                  outstanding series e & f preferred stock to 1,092 million shares of aIg common stock. under the plan the current undrawn portion
                                  of series f will be available to aIg for the repayment of certain amounts owed to the federal reserve bank of new york and for
                                  general corporate liquidity. the plan is still subject to a number of conditions which must be met in order to close. the Department’s
                                  management believes that implementation of this plan would not result in additional losses on the aIg investment. see additional
                                  discussion regarding the proposed restructuring plan within the Management’s Discussion and analysis section of the Performance
                                  and accountability report.
part 3: annual financial report




                                  Targeted Investment Program
                                  the targeted Investment Program (tIP) was designed to prevent a loss of confidence in financial institutions that could result
                                  in significant market disruptions, threatening the financial strength of similarly situated financial institutions, impairing broader
                                  financial markets, and undermining the overall economy. the Department considered institutions as candidates for the tIP on a
                                  case-by-case basis, based on a number of factors including the threats posed by destabilization of the institution, the risks caused by a
                                  loss of confidence in the institution, and the institution’s importance to the nation’s economy.

                                  In fiscal year 2009, the Department invested $20,000 million in each of bank of america and citigroup under tIP. under each
                                  agreement, the Department purchased $20,000 million of perpetual preferred stock with an annual cumulative dividend rate of 8
                                  percent and received a warrant for the purchase of common stock. In December 2009, bank of america and citigroup repaid the
                                  amounts invested by the Department along with dividends through the date of repayment. the amounts remaining within the tIP
                                  subsidy cost allowance represent the estimated value of the citigroup warrant still held by the program.




                                  194                  note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                          performance and accountability report | fiscal year 2010




During fiscal year 2010, the Department received $1,100 million in dividends under the tIP and proceeds of $1,200 million from
the auction of the bank of america warrants. In fiscal year 2009, the Department received $1,900 million in dividends under this
program.


Automotive Industry Financing Program
the automotive Industry financing Program (aIfP) was designed to prevent a significant disruption of the american automotive
industry, which could have had a negative effect on the economy of the united states.

General Motors (GM)
In fiscal year 2009, the Department provided $49,500 million to gM through various loan agreements including the initial loan for
general and working capital purposes and the final loan for debtor in possession (DIP) financing while gM was in bankruptcy. the
Department assigned its rights in these loans (with the exception of $986.0 million which remained in gM for wind down purposes
and $7,100 million that would be assumed) and previously received common stock warrants to a newly created entity (general
Motors company). general Motors company used the assigned loans and warrants to credit bid for substantially all of the assets
of gM in a sale pursuant to section 363 of the bankruptcy code. upon closing of the section 363 sale, the credit bid loans and
warrants were extinguished and the Department received $2,100 million in 9.0 percent cumulative perpetual preferred stock and 60.8
percent of the common equity interest in general Motors company. In addition, general Motors company assumed $7,100 million
of the DIP loan, simultaneously paying $400 million (return of warranty program funds), resulting in a balance of $6,700 million. the
assets received by the Department as a result of the assignment and section 363 sale are considered recoveries of the original loans for
subsidy cost estimation purposes. recovery of the $986.0 million remaining in gM is subject to the final outcome of the bankruptcy
proceedings. During fiscal year 2010, the Department had received the remaining $6,700 million as full repayment of the DIP loan
assumed. In addition as of september 30, 2010 the Department had received $188.8 million in dividends and $343.1 million in
interest on general Motors company preferred stock and the loan prior to repayment, respectively. the Department received $34.1
million in dividends on the preferred stock and no interest on the loan during the fiscal year ended september 30, 2009. on october
27, 2010, the Department signed a letter agreement with gM agreeing to sell the preferred stock to gM. gM will repurchase the
preferred stock for 102 percent of the liquidation amount.

the Department has not yet determined whether to sell any of its shares of general Motors company common stock in connection
with the company’s proposed initial public offering. Due to the uncertainty as to the market price that would result from the initial
public offering, the potential effect on the value of the Department’s investment in general Motors company is unknown and could
be significantly different from the september 30, 2010 financial statement value.

GMAC LLC Rights Offering



                                                                                                                                           part 3: annual financial report
In December 2008, the Department agreed, in principal, to lend up to $1,000 million to gM for participation in a rights offering by
gMac (now known as ally financial, Inc.) in support of gMac’s reorganization as a bank holding company. the loan was secured
by the gMac common interest acquired in the rights offering. the loan agreement specified that at any time, at the option of the
lender (the Department), the unpaid principal and accrued interest was exchangeable for the membership interest purchased by gM
during the rights offering. the loan was funded for $884.0 million. In May 2009, the Department exercised its exchange option under
the loan and received 190,921 membership interests, representing approximately 35.36 percent of the voting interest at the time, in
gMac in full satisfaction of the loan. In addition, during the fiscal year ended september 30, 2009, the Department received $9.1
million in interest while the loan was outstanding. the conversion to gMac shares was not considered in the original subsidy cost.
as a result, a modification was recorded reducing the estimated subsidy cost by approximately $1,600 million for the fiscal year ended
september 30, 2009. as of september 30, 2010 the Department continues to hold the gMac shares obtained in this transaction
(see further discussion of Department’s gMac holdings under gMac, Inc. in this note).




note 8. tarp direct loans and equity investments, net and asset guarantee program                                                  195
                                  the department of the treasury




                                  Chrysler Holding LLC (Chrysler)
                                  In fiscal year 2009, the Department invested approximately $5,900 million in chrysler. specifically, $4,000 million was for general
                                  and working capital purposes (general Purpose loan) and $1,900 million was for DIP financing while chrysler was in bankruptcy
                                  (DIP loan). upon entering bankruptcy, a portion of chrysler was sold to a newly created entity (new chrysler). under the
                                  terms of the bankruptcy agreement, $500.0 million of the general purpose loan was assumed by the new chrysler (see discussion
                                  under chrysler exit for discussion of note terms). In fiscal year 2010, the Department received approximately $1,900 million
                                  and subsequently wrote-off the remaining $1,600 million of the general Purpose loan. recovery of the DIP loan is subject to
                                  the bankruptcy process associated with the chrysler assets remaining after the sale to new chrysler. During fiscal year 2010 the
                                  Department received $40.2 million in recoveries on the DIP loan. the Department did not receive any interest on these loans during
                                  the fiscal year 2010. During fiscal year 2009, the Department had received $52.1 million in interest payments from these loans.

                                  Chrysler Exit
                                  In May 2009, the Department committed to make a loan to new carco acquisition llc (chrysler group llc), the company that
                                  purchased certain assets of chrysler. the final terms of the credit agreement resulted in a loan to new chrysler for approximately
                                  $7,100 million. this amount consists of a commitment to fund up to $6,600 million of new funding and $500 million of assumed
                                  debt7 from the Department January 2, 2009 general Purpose loan with chrysler, described above. the loan was secured by a first
                                  priority lien on the assets of chrysler group llc. funding of the loan was available in two installments or tranches (b and c), each
                                  with varying availability and terms. the following describes the terms of tranches b and c.

                                  the maximum funding under tranche b was $2,000 million and was funded on the closing date of the agreement. Interest on
                                  tranche b is generally8 3-Month eurodollar plus 5.0 percent margin. tranche b is due and payable on December 10, 2011, provided
                                  that the chrysler group llc may elect to extend the maturity of up to $400.0 million of tranche b to the tranche c maturity date.
                                  If so elected, the applicable margin will increase from 5.0 percent to 6.5 percent.

                                  the maximum funding under tranche c is approximately $4,640 million, of which approximately $2,580 million was funded on
                                  the closing date. Interest on tranche c is 3-Month eurodollar plus 7.91 percent margin. on June 10, 2016, the tranche c loan
                                  is due to be prepaid to the extent the funded amount is greater than 50.0 percent of the closing date commitment amount, taking
                                  into consideration amounts previously prepaid as a voluntary prepayment. the remaining balance of the tranche c loan is due and
                                  payable on June 10, 2017.

                                  Interest on both the tranche b and tranche c was payable in-kind through December 2009 and added to the principal balance of
                                  the respective tranche. subsequently, interest is paid quarterly beginning on March 31, 2010. In addition, additional in-kind interest
                                  is being accrued in the amount of $17.0 million per quarter. such amount will be added to the tranche c loan balance subject to
part 3: annual financial report




                                  interest at the appropriate rate.

                                  the Department also obtained other consideration, including a 9.85 percent equity interest in chrysler group llc and additional
                                  notes9 with principal balances of $288.0 million and $100.0 million.10 as of september 30, 2009, the Department had funded
                                  approximately $4,600 million under this facility, which was outstanding as of september 30, 2010 and 2009. During fiscal year 2010,
                                  the Department received $381.8 million in interest payments. no interest was due for payment in the fiscal year ended september 30,
                                  2009. for the fiscal year ended september 30, 2010, the Department has recognized $344.4 million of in-kind interest that has been
                                  capitalized. no in-kind interest was recognized in the fiscal year ended september 30, 2009.



                                  7   the assumed debt contains the same terms as the tranche c loan with respect to mandatory prepayment, interest and maturity.
                                  8   for both tranche b and c, an alternative base rate (defined in agreement) is available at the option of the Department in certain situations defined in
                                      the agreement.
                                  9   the additional notes bear the same interest rate and maturity as the tranche c loan.
                                  10 Interest begins to accrue on this note after certain events, defined in the credit agreement, have taken place.



                                  196                     note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                          performance and accountability report | fiscal year 2010




Chrysler Financial
In January, 2009, the Department loaned $1,500 million to chrysler lb receivables trust (chrysler trust), a special purpose entity
created by chrysler financial, to finance the extension of new consumer auto loans. on July 14, 2009, the loan and additional note
of $15.0 million were paid in full. In fiscal year 2009, the Department received $7.4 million in interest payments while this loan was
outstanding.

Auto Supplier Support Program
In april 2009, under the auto supplier support Program, the Department committed $5,000 million in financing for the auto
supplier Program as follows: $3,500 million for gM suppliers and $1,500 million for chrysler suppliers. these commitments were
subsequently reduced to $2,500 million for gM suppliers and $1,000 million for chrysler suppliers per the loan agreement. under
the program, suppliers were able to sell their receivable to a sPV, created by the respective automaker, at a discount. the Department
provided approximately $413.1 million of funding to this program during fiscal year 2009. the bankruptcy of chrysler and gM
did not impact this program, as both companies were allowed to continue paying suppliers while in bankruptcy. the Department
received $5.9 million in interest during fiscal year 2009.the $413.1 million was repaid in fiscal year 2010 along with approximately
$9.0 million in interest and $101.1 million in fees and other income.

Auto Warranty Program
In april 2009 and May 2009, the Department loaned approximately $280.0 million to chrysler and $360.6 million to gM,
respectively, to capitalize sPVs created by chrysler and gM to finance participation in the Warranty commitment Program
(warranty program). the Department also received additional notes as consideration for its loans in an amount equal to 6.67 percent
of the funded amounts. the warranty program covered all warranties on new vehicles purchased from chrysler and gM during the
period in which chrysler and gM were restructuring. In fiscal year 2009, the Department received all principal amounts due on the
auto Warranty Program loans from both gM and chrysler and terminated the warranty program. Interest in the amount of $3.1
million was received by the Department from chrysler during the fiscal year ended september 30, 2009. no interest was received
in connection with the gM repayment. the gM additional note was assigned to the general Motors company as part of the
bankruptcy proceedings and extinguished as part of the credit bid for the assets of old gM. In fiscal year 2010, the chrysler additional
note was written off with the remaining portion of the chrysler general Purpose loan.

GMAC Inc. (GMAC-currently known as Ally Financial)
In December 2008, the Department purchased preferred membership interests for $5,000 million that were converted to senior
preferred stock with an 8.0 percent annual distribution right (dividends) from gMac. under the agreement, gMac issued warrants
to the Department to purchase, for a nominal price, additional preferred equity in an amount equal to 5.0 percent of the preferred




                                                                                                                                           part 3: annual financial report
equity purchased. these warrants were exercised at closing of the investment transaction. the additional preferred stock provided for
a 9.0 percent annual distribution right. During fiscal year 2009, the Department received $265.2 million in dividends associated with
these preferred and warrant preferred shares. on December 30, 2009, this preferred stock (including the warrant preferred shares) was
exchanged for 105.0 million shares of gMac’s series f-2 fixed rate cumulative Mandatorily convertible Preferred stock (series
f-2) shares (described below). this exchange was not considered in the original subsidy estimate for gMac; therefore the Department
recorded a modification cost of $1,500 million in fiscal year 2010.

In May 2009, the Department published a non-binding term sheet to invest $13,100 million to support gMac, subject to definitive
documentation and gMac’s capital needs. In fiscal year 2009, the Department invested $7,500 million (150.0 million shares) in
9.0 percent Mandatorily convertible Preferred stock in gMac to support its ability to originate new loans to chrysler dealers
and consumers, and help address gMac’s capital needs. the preferred stock have a liquidation preference of $50 per share and are
convertible in whole or in part, at any time, at the option of gMac, subject to the approval of the federal reserve. In addition, the
Department received warrants to purchase an additional 7.5 million shares of Mandatorily convertible Preferred stock, which were
exercised upon closing of the transaction. In December 2009, 97.5 million shares (which include the warrant preferred shares) were



note 8. tarp direct loans and equity investments, net and asset guarantee program                                                   197
                                  the department of the treasury




                                  exchanged for gMac’s series f-2 shares (discussed below) and the remaining 60 million were converted to 259,200 shares of gMac
                                  common stock.

                                  In addition to the exchanges and conversions discussed above, on December 30, 2009, the Department entered into the follow­
                                  ing transactions with gMac to assist it in complying with the requirements of the federal reserve board’s supervisory capital
                                  assessment Program:
                                    1.	 Purchased $2,540 million (2.54 million shares with a face value of $1,000) of 8.0 percent trust Preferred securities and
                                        received a warrant for an additional $127 million of the trust Preferred securities, which was immediately exercised. gMac
                                        issued $2,747 million of subordinate debentures to a trust, established by gMac, which in turn issued the trust preferred
                                        securities. the trust preferred securities pay cumulative cash distributions of 8 percent. gMac may defer payments on the
                                        debentures (and the trust may defer distributions on the trust preferred securities) for a period of up to 20 consecutive quarters,
                                        but such distributions will continue to accrue through any such deferral period. gMac has not elected to defer payments.
                                        the trust Preferred securities have no stated maturity date, but must be redeemed upon the redemption or maturity of the
                                        debentures (february 15, 2040).
                                    2.	 Purchased $1,250 million (25 million shares) of gMac’s series f-2, $50 liquidation preference per share. the series f-2 is
                                        convertible into gMac common stock at the option of gMac subject to the approval of the federal reserve and consent by
                                        the Department or pursuant to an order by the federal reserve compelling such conversion. the series f-2 is also convertible
                                        at the option of the Department upon certain specified corporate events. absent an optional conversion, the series f-2 will
                                        automatically convert to common stock after seven years from the issuance date. the initial conversion rate is .00432 and
                                        is subject to a “reset” such that the conversion price will be adjusted in 2011, if beneficial to the Department, based on the
                                        market price of private capital transactions occurring in 2010 and certain anti-dilution provisions. the series f-2 have a stated
                                        dividend rate of 9 percent, payable when and if declared by the board of directors. the series f-2 may be redeemed by gMac,
                                        subject to certain limitations and restrictions. the Department also received a warrant to purchase $62.5 million (1.25 million
                                        shares) of additional series f-2, which was immediately exercised.

                                  as a result after the December 30, 2009 transaction, the Department has the following investments in gMac, as of september 30,
                                  2010:
                                                                                                                                                                                                      Investment Amount / 

                                                                                                                                                                                                        Percent Ownership

                                                                                                                                         Number of Shares                                               (dollars in millions)

                                   8% Trust Preferred Securities
                                       Purchased                                                                                                    2,540,000                                           $                  2,540
                                       Received from warrant exercise                                                                                 127,000                                                                127
part 3: annual financial report




                                   Total Trust Preferred Securities                                                                                 2,667,000                                           $                  2,667

                                   Series F-2 Mandatorily Convertible Securities
                                       Purchased/exchanged for                                                                                   227,500,000                                            $                 11,375
                                       Received from warrant exercise                                                                              1,250,000                                                                  63
                                   Total Series F-21                                                                                             228,750,000                                            $                 11,438

                                   Common Stock2                                                                                                      450,121                                                             56.3%
                                    1 / These shares are convertible into 988,200 shares of GMAC common stock, which if combined with common stock currently held by the Department would represent approximately 80.5%
                                        ownership of GMAC.
                                    2 / Includes shares received upon conversion of GMAC Rights Loan discussed above.




                                  the Department received $1,200 million and $430.6 million in dividends from gMac in fiscal year 2010 and 2009, respectively.




                                  198                         note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                          performance and accountability report | fiscal year 2010




Consumer and Business Lending Initiative (CBLI)
the consumer and business lending Initiative is intended to help unlock the flow of credit to consumers and small businesses. three
programs were established to help accomplish this. the term asset-backed securities loan facility was created to help jump start
the market for securitized consumer and small business loans. the sba 7(a) securities Purchase Program was created to provide
additional liquidity to the sba 7(a) market so that banks are able to make more small business loans. the community Development
capital Initiative was created to provide additional low cost capital to small banks to encourage more lending to small businesses.
each program is discussed in more detail below.

Term Asset-Backed Securities Loan Facility
the term asset-backed securities loan facility (talf) was created by the federal reserve board to provide low cost funding to
investors in certain classes of asset backed securities (abs). the Department agreed to participate in the program by providing
liquidity and credit protection to the federal reserve board.

under the talf, the federal reserve bank of new york (frbny), as implementer of the talf program, originated loans on a non­
recourse basis to purchasers of certain aaa rated abs secured by consumer and commercial loans and commercial mortgage backed
securities. generally abs issued after January 1, 2009 are eligible collateral under the talf program. In addition, sba securities
issued after January 1, 2008 and cMbs issued prior to January 2009 and originally aaa rated are eligible collateral. talf loans
have a term of three or five years and are secured solely by eligible collateral. haircuts (a percentage reduction used for collateral
valuation) are determined based on the riskiness of each type of eligible collateral and the maturity of the eligible collateral pledged
to the frbny. the “haircuts” provide additional protection to the Department by exposing the talf borrowers to some risk of loss.
Interest rates charged on the talf loans depend on the weighted average maturity of the pledged collateral, the collateral type and
whether the collateral pays fixed or variable interest. the program ceased issuing new loans on June 30, 2010. as of september 30,
2010, approximately $29,700 million of loans due to the frbny remained outstanding.

as part of the program, the frbny has entered into a put agreement with the talf, llc, a special purpose vehicle created by
the frbny. In the event of a talf borrower default, the frbny will seize the collateral and sell it to the talf, llc under this
agreement. the talf, llc receives a monthly fee equal to the difference between the talf loan rate and the frbny’s fee (spread)
as compensation for entering into the put agreement. the accumulation of this fee will be used to fund purchases. In the event there
are insufficient funds to purchase the collateral, the Department originally committed to invest up to $20,000 million in non-recourse
subordinated notes issued by the talf, llc. on July 19, 2010, the Department’s commitment was reduced to $4,300 million. the
subordinated notes bear interest at 1-Month lIbor plus 3.0 percent and mature 10 years from the closing date, subject to extension.
the Department disbursed $100.0 million upon creation of the talf, llc and the remainder can be drawn to purchase collateral in
the event the spread is not sufficient to cover purchases. any amounts needed in excess of the Department commitment and the fee




                                                                                                                                           part 3: annual financial report
would be provided through a loan from the frbny. upon wind-down of the talf, llc (collateral defaults, reaches final maturity or
is sold), the cash balance will be disbursed according to the following payment priority:
  1. frbny principal balance
  2. the Department principal balance
  3. frbny interest
  4. the Department interest
  5. remaining cash balance – 90.0 percent to the Department, 10.0 percent to the frbny

During fiscal year 2009, subsequent to the initial cost estimates prepared for the talf, certain changes were made to the terms of
the program, including increasing the term to five years and the addition of different types of acceptable collateral. these program
changes resulted in a modification, for fiscal year 2009, increasing the original cost estimate by $8.0 million.




note 8. tarp direct loans and equity investments, net and asset guarantee program                                                   199
                                  the department of the treasury




                                  the talf, llc is owned, controlled, and consolidated by the frbny. the credit agreement between the Department and the
                                  talf, llc provides the Department with certain rights consistent with a creditor but would not constitute control. as such, talf,
                                  llc is not a federal entity and the assets, liabilities, revenue and cost of talf, llc are not included in the Department’s financial
                                  statements.

                                  as of september 30, 2010 and 2009, no talf loans were in default and consequently no collateral was purchased by the talf, llc.

                                  SBA 7(a) Security Purchase Program
                                  In March 2010, the Department began the purchase of securities backed by small business administration 7(a) loans (7(a)
                                  securities) as part of the unlocking credit for small business Initiative. under this program the Department purchases 7(a)
                                  securities collateralized with 7(a) loans (these loans are guaranteed by the full faith and credit of the united states government)
                                  packaged on or after July 1, 2008. generally, the Department entered into a trade to purchase 7(a) securities with actual settlement
                                  and delivery to occur one to three months in the future. as of september 30, 2010, the Department has entered into trades to
                                  purchase $356.3 million (excluding purchased accrued interest) of these securities. of this amount, $240.7 million has settled with
                                  the remaining trades to be settled by December 30, 2010. During fiscal year 2010, the Department received $3.5 million in interest
                                  and principal payments on these securities.

                                  Community Development Capital Initiative
                                  In february 2010, the Department announced the community Development capital Initiative (cDcI) to invest lower cost capital
                                  in community Development financial Institutions (cDfIs). under the terms of the program, the Department purchases senior
                                  preferred stock (or subordinated debt) from eligible cDfI financial institutions. the senior preferred stock has an initial dividend rate
                                  of 2 percent. cDfIs may apply to receive capital up to 5 percent of risk-weighted assets. to encourage repayment while recognizing
                                  the unique circumstances facing cDfIs, the dividend rate will increase to 9 percent after eight years.

                                  for cDfI credit unions, the Department purchased subordinated debt at rates equivalent to those offered to cDfI financial
                                  institutions and with similar terms. these institutions may apply for up to 3.5 percent of total assets — an amount approximately
                                  equivalent to the 5 percent of risk-weighted assets available to banks and thrifts.

                                  cDfIs participating in the cPP, subject to certain criteria, were eligible to exchange, through september 30, 2010, their current cPP
                                  preferred shares (subordinated debt) for cDcI preferred shares (subordinated debt). these exchanges were treated as a disbursement
                                  from cDcI and a repayment to cPP.

                                  as of september 30, 2010, the Department has invested $570.1 million ($363.3 million was a result of exchanges from cPP) in 84
part 3: annual financial report




                                  institutions under the cDcI.


                                  Public-Private Investment Program
                                  the PPIP is part of the Department’s efforts to help restart the market and provide liquidity for legacy assets. under this program, the
                                  Department made equity investment in and loans to investment vehicles (referred to as Public Private Investment funds or “PPIfs”)
                                  established by private investment managers. the equity investment was used to match private capital and equaled approximately
                                  50.0 percent of the total equity invested. the loan is, at the option of the investment manager, equal to 50.0 percent or 100.0 percent
                                  of the total equity (including private equity). as of september 30, 2010, all PPIfs have elected to receive loans up to 100 percent of
                                  total equity. the loans bear interest at 1-Month libor, plus 1.0 percent, which accrues monthly and is payable on the 10th business
                                  day of the month following the accrual period. the maturity date of the loan is the earlier of 10 years or the termination of the PPIf.
                                  the loan can be prepaid, subject to compliance with the priority of payments discussed below, without penalty. the PPIf will termi­
                                  nate in eight years from the commencement of the fund. the governing documents of the funds allow for two one-year extensions,
                                  subject to approval of the Department. the loan agreements also require purchased security cash flows from securities received by the
                                  PPIfs to be distributed in accordance with a priority of payments schedule (waterfall) designed to help ensure secured parties are paid


                                  200                  note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                            performance and accountability report | fiscal year 2010




before equity holders. specifically, security cash flows collected are disbursed as follows (steps 7 through 10 are at the discretion of the
PPIf),
  1.	 to pay administrative expenses, excluding certain tax expenses of the Partnership;
  2.	 to pay interest or margin due on permitted interest rate hedges;
  3.	 to pay current period interest due to the lender;11
  4.	 to pay amounts due to an interest reserve account if the total deposit in the interest reserve account is less than the required
      interest reserve account;
  5.	 to pay principal on the loan required when the minimum asset coverage ratio test is not satisfied as of the prior month end;
  6.	 to pay other amounts due on permitted interest rate hedges not paid in accordance with step 2 above;
  7.	 for investment in temporary Investments, prepayments of the loan and/or investment in eligible assets during the investment
      period, which is three years from the Initial closing Date (the “Investment Period”);
  8.	 for distribution to partners after step 1 through 7 not to exceed the lesser of: (a) cumulative consolidated net interest income
      for the preceding twelve months or (b) 8 percent on the funded capital commitments, so long as no event of default is then
      continuing and the appropriate asset coverage ratio requirement is satisfied;
  9.	 to pay the loan not to exceed the lesser of (a) prepayment on the loan as scheduled or (b) an amount which reduces the
      loan to zero, provided that dollar for dollar credit is given for any optional prepayments of the loan made during the related
      collection period on any date prior to the applicable determination date; and
  10. remaining amounts to be used or distributed in accordance with the limited partnership agreement after repayment of the 

      loan.


the loan is subject to certain affirmative and negative covenants as well as a financial covenant, the asset coverage test. the asset
coverage test generally requires that the asset coverage ratio be equal to or greater than 150 percent. the asset coverage ratio is
a percentage obtained by dividing total assets of the PPIf by the principal amount of the loan and accrued and unpaid interest on the
loan. failure to comply with the test could require accelerated repayment of loan principal (see step 7 above) and prohibit the PPIf
from borrowing additional funds under the loan agreement.

as a condition of its investment, the Department also received a warrant from the PPIfs entitling the Department to 2.5 percent
of investment proceeds (excluding those from temporary investments) otherwise allocable to the non-Department partners. the
warrant payment will be distributed by the PPIf to the Department following the return of 100 percent of the non-Department
partner’s capital contributions to the PPIf.

the PPIfs pay a management fee to the fund manager from the Department’s share of investment proceeds. During the Investment




                                                                                                                                               part 3: annual financial report
Period, the management fee is equal to 0.20 percent per annum of the Department’s capital commitment as of the last day of the
applicable quarter. thereafter, the management fee will be equal to 0.20 percent per annum of the lesser of (a) the Department’s
capital commitment as of the last day of the applicable quarter and (b) the Department Interest Value as of the last day of the quarter.

the PPIfs are allowed to purchase commercial mortgage-backed securities (cMbs) and non-agency residential mortgage-backed
securities (rMbs) issued prior to January 1, 2009 that were originally rated aaa or an equivalent rating by two or more nationally
recognized statistical rating organizations without external credit enhancement and that are secured directly by the actual mortgage
loans, leases or other assets (eligible assets) and not other securities. the PPIfs may invest in the aforementioned securities for a
period of three years using proceeds from capital contribution, loans, and amounts generated by previously purchased investments
(subject to the requirements of the waterfall). the PPIfs are also permitted to invest in certain temporary securities, including bank
deposits, u.s. treasury securities, and certain money market mutual funds. at least 90 percent of the assets underlying any eligible
asset must be situated in the united states.

11	 the lender is the Department



note 8. tarp direct loans and equity investments, net and asset guarantee program                                                      201
                                  the department of the treasury




                                  as of september 30, 2010 the total market value of the eligible assets held by all PPIfs was approximately $19,300 million. the
                                  approximate split between rMbs and cMbs was 82 percent rMbs and 18 percent cMbs.

                                  on January 4, 2010, the Department entered into a Winding-up and liquidation agreement with one of the PPIfs. Prior to the
                                  signing of the agreement, the Department had invested $356.3 million ($156.3 million equity investment and $200.0 million loan)
                                  in the fund. upon final liquidation, the Department received $377.4 million representing return of the original investment, interest
                                  on the loan and return on the equity investment and warrant.

                                  as of september 30, 2010, the Department had signed definitive limited partnership and loan agreements with eight investment
                                  managers, committing to disburse up to $22,100 million. During fiscal year 2010, the Department disbursed $4,900 million as equity
                                  investment and $9,200 million as loans to PPIfs. as of september 30, 2009, no investment managers had made any investments
                                  under PPIP and the Department had not disbursed any funds. During fiscal year 2010, the Department received (excluding amounts
                                  repaid in liquidation discussed above) $56.0 million in interest on loans and $151.8 million (net of management fees of $7.2 million)
                                  of income on the equity investments. In addition, the Department received $72.0 million in loan principal repayments.


                                  Asset Guarantee Program
                                  the asset guarantee Program (agP) provided guarantees for assets held by systemically significant financial institutions that faced
                                  a risk of losing market confidence due in large part to a portfolio of distressed or illiquid assets. the agP was applied with extreme
                                  discretion in order to improve market confidence in the systemically significant institution and in financial markets broadly.

                                  section 102 of the eesa required the secretary to establish the agP to guarantee troubled assets originated or issued prior to
                                  March 14, 2008, including mortgage-backed securities, and established the troubled assets Insurance financing fund (taIff). In
                                  accordance with section 102(c) and (d) of the eesa, premiums from financial institutions are collected and all fees are recorded by
                                  the Department in the taIff. In addition, section 102(c) (3) of the eesa requires that the original premiums assessed are “set” at a
                                  minimum level necessary to create reserves sufficient to meet anticipated claims.

                                  the Department completed its first transaction under the agP in January 2009, when it finalized the terms of a guarantee agreement
                                  with citigroup. under the agreement, the Department, the federal Deposit Insurance corporation (fDIc), and the federal reserve
                                  bank of new york (frbny) (collectively the usg Parties) provided protection against the possibility of large losses on an asset pool
                                  of approximately $301,000 million of loans and securities backed by residential and commercial real estate and other such assets,
                                  which remained on citigroup’s balance sheet. the Department’s guarantee was limited to $5,000 million.

                                  as a premium for the guarantee, citigroup issued $7,000 million of cumulative perpetual preferred stock (subsequently converted
part 3: annual financial report




                                  to trust Preferred securities with similar terms) with an 8.0 percent stated dividend rate and a warrant for the purchase of common
                                  stock; $4,000 million and the warrant were issued to the Department, and $3,000 million was issued to the fDIc. the Department
                                  received $265.2 million and $174.8 million during the fiscal years ending september 30, 2010 and september 30, 2009, respectively,
                                  in dividends on the preferred stock received as compensation for this arrangement. these dividends have been deposited into the
                                  taIff. the Department had also invested in citigroup through cPP and the tIP.

                                  as of september 30, 2009, the net present value of the estimated cash inflows from the preferred stock and warrant received by the
                                  Department from citigroup as a premium was greater than the estimated net present value of future claims payments, resulting in an
                                  asset of $1,765 million, after reestimates.

                                  In December 2009, the usg Parties and citigroup agreed to terminate the guarantee agreement. under the terms of the termination
                                  agreement the Department cancelled $1,800 million of the preferred stock previously issued to the Department. In addition, the
                                  fDIc agreed to transfer to the Department $800 million of their trust preferred stock holding plus dividends thereon contingent on




                                  202                 note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                          performance and accountability report | fiscal year 2010




citigroup repaying its previously issued fDIc guaranteed debt. the contingent receipt of additional preferred shares from the fDIc
is included in the subsidy calculation for agP, based on the expected value. termination of the agreement was not considered in the
formulation estimates of the guarantee and therefore the termination resulted in a negative modification cost (reduction of cost) of
$1,400 million recorded in fiscal year 2010. on september 29, 2010, the Department exchanged its existing trust Preferred securities
for securities containing market terms to facilitate a sale. on september 30, 2010, the Department agreed to sell its trust Preferred
securities it held for $2,246 million. the trust Preferred securities are valued at approximately the sales price in the financial
statements. the sale settled on october 5, 2010.

In January 2009, the usg Parties and bank of america signed a summary of terms (term sheet) pursuant to which the usg
Parties agreed to guarantee or lend against a pool of up to $118,000 million of financial instruments consisting of securities backed by
residential and commercial real estate loans and corporate debt and related derivatives. In May 2009, prior to completing definitive
documentation, bank of america notified the usg Parties of its desire to terminate negotiations with respect to the guarantee
contemplated in the term sheet. all parties agreed that bank of america received value for entering into the term sheet with the
usg Parties and that the usg Parties should be compensated for out-of-pocket expenses and a fee equal to the amount bank of
america would have paid for the guarantee from the date of the signing of the term sheet through the termination date. under the
terms of the settlement, the u.s. treasury received $276.0 million for its role in the guarantee agreement. all the Department funds
received for the settlement were deposited in the taIff and subsequently paid to the treasury general fund. the $276 million
received by the Department pursuant to the settlement is reflected in the Department statement of net cost as a reduction of the
agP subsidy cost in the fiscal year ended september 30, 2009.


Subsidy Reestimates
the purpose of reestimates is to update original program subsidy cost estimates to reflect actual cash flow experience as well as
changes in forecasts of future cash flows. forecasts of future cash flows are updated based on actual program performance to date,
additional information about the portfolio, additional publicly available relevant historical market data on securities performance,
revised expectations for future economic conditions, and enhancements to cash flow projection methods. financial statement
reestimates for all programs were performed using actual financial transaction data through september 30, 2010 and 2009. Market
and security specific data publicly available as of september 30, 2010, was used for the cPP, agP, tIP, aIg, cDcI, aIfP, and sba
programs in the reestimate calculations for fiscal year 2010. security specific data through June 30, 2010, with market prices through
september 30, 2010, was used for the PPIP and talf programs in the reestimate calculations for fiscal year 2010. Market and
security specific data publicly available as of september 30, 2009, was used for the cPP, agP, tIP, and aIfP direct loans and data
through august 31, 2009, was used for the equity portion of aIfP, aIg, and talf programs in the reestimate calculations for the
fiscal year ending september 30, 2009.




                                                                                                                                           part 3: annual financial report
the Department using security specific data available as of september 30, 2010 and, in its determination, there were no significant
changes to the portfolio characteristics or performance of the PPIP and talf programs that would require a revision to the
reestimates for fiscal year 2010. for fiscal year 2009, the Department assessed the key inputs of the reestimates using data publicly
available as of september 30, 2009, and in its determination, there were no significant changes to the key inputs for the three
programs for which august 31, 2009, data was used that required a revision to the reestimates.

net downward reestimates for the fiscal years ended september 30, 2010 and september 30, 2009 totaled $30,318 million and
$109,748 million, respectively. Descriptions of the reestimates with approximate amounts, by the Department Program, are as follows:


CPP
the net upward reestimate for the cPP of $3,900 million for the fiscal year ending september 30, 2010 is the net result of a decrease
in the price of citigroup common stock that was partially offset by an increase in the estimated value of the other investments within
the cPP, due to improved market conditions during the year.



note 8. tarp direct loans and equity investments, net and asset guarantee program                                                   203
                                  the department of the treasury




                                  the $70,700 million in repurchases during the fiscal year ending september 30, 2009 accounted for $9,700 million of the $72,400
                                  million in downward reestimates in the cPP for the fiscal year ending september 30, 2009. Projected repurchases of $30,000 million
                                  for fiscal year 2010 accounted for approximately $5,400 million, with the $57,300 million balance in downward reestimates in the
                                  cPP for the fiscal year ending september 30, 2009 primarily due to improved market conditions from when the original estimate was
                                  made in December 2008.


                                  AIG
                                  the $12,000 million in downward reestimates for the aIg Investment Program for the fiscal year ending september 30, 2010 are due
                                  to an increase in the estimated value of aIg assets and subordinated debt and improvements in market conditions over the fiscal year.

                                  the $1,100 million in downward reestimates for the aIg Investment Program in the fiscal year ending september 30, 2009 was
                                  primarily due to improvements in market conditions from when the equities were purchased resulting in a reduction in the projected
                                  costs of the programs.


                                  TIP
                                  the $1,900 million in net downward reestimates in the tIP in fiscal year 2010 included $2,200 million in downward reestimates due
                                  to the repurchase of the program’s investments by the two institutions participating in the program. that downward reestimate amount
                                  was partially offset by a $300 million upward reestimate from a slight reduction in the estimated value of outstanding warrants.

                                  the $21,500 million in downward reestimates in the tIP in the fiscal year ending september 30, 2009 was primarily due to improved
                                  market conditions from when the original estimates were made in December 2008 and January 2009. approximately $2,300 million
                                  was due to a $20,000 million repurchase forecast for fiscal year 2010.


                                  AIFP
                                  the $19,300 million in downward reestimates for the aIfP direct loan and equity investments for the fiscal year ending september
                                  30, 2010 was due to $1,800 million in payments exceeding projections, a reduction in estimated defaults due to improvements in the
                                  domestic automotive industry, and an increase in the bond prices and valuations used to estimate the cost of the remaining aIfP
                                  investments.

                                  the approximately $10,600 million in downward reestimates for the direct loans-aIfP in the fiscal year ending september 30,
                                  2009 was primarily the result of the post bankruptcy improved financial position of one of the major companies participating in the
                                  program. the $2,700 million in downward reestimates for the aIfP equity programs in the fiscal year ending september 30, 2009
part 3: annual financial report




                                  were primarily due to improvements in market conditions from when the equities were purchased resulting in a reduction in the
                                  projected costs of the programs.


                                  CBLI
                                  the talf and sba programs within the cblI had a total upward reestimate of less than $100 million for the fiscal year ending
                                  september 30, 2010. the talf program had a $24 million upward reestimate mostly due to a projected reduction in the size of the
                                  portfolio and higher than projected repayments. the sba program had a downward reestimate of less than $1 million due to an
                                  increase in projected interest rates and a reduction in market risks. the cDcI program had $7.3 million in upward reestimates for
                                  the fiscal year.




                                  204                 note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                         performance and accountability report | fiscal year 2010




the $200 million in downward reestimates for the talf in the fiscal year ending september 30, 2009 was due to projected improved
performance of the securities within the program versus the original estimate.


PPIP
the $1,000 million in downward reestimates for the PPIP debt and equity programs for the fiscal year ending september 30, 2010
was the net of a $1,200 million upward reestimate in the PPIP debt program and $2,200 million in downward reestimates for the
PPIP equity programs mostly due to the use of actual portfolio data for reestimates rather than the proxy data used in developing the
baseline estimates and changes in market risks.


AGP
the agP had a net $100 million downward reestimate for the fiscal year ended september 30, 2010. the reestimate amounts
exclude an estimated cost savings of $1,400 million that resulted from the cancellation of the $5,000 million guarantee because this
transaction was reflected in the subsidy modifications during fiscal year 2010.

the $1,200 million in downward reestimates for the agP in the fiscal year ending september 30, 2009 was primarily due to
improvements in market conditions from when the guarantee was committed in January 2009. the improved market conditions
resulted in an increase in the projected agP asset due to the net present value of the estimated cash inflows from the preferred
stock and warrants received by the Department from citigroup as a premium being greater than the estimated value of future claim
payments associated with the $5,000 million asset guarantee.

the following detailed tables provide the net composition, subsidy cost, modifications and reestimates, a reconciliation of subsidy
cost allowances, budget subsidy rates, and subsidy by component for each tarP direct loan, equity investment or the asset guarantee
program for the fiscal years ended september 30, 2010 and 2009:




                                                                                                                                        part 3: annual financial report




note 8. tarp direct loans and equity investments, net and asset guarantee program                                                 205
                                  the department of the treasury




                                  TROUBLED ASSET RELIEF PROGRAM DIRECT LOANS AND EQUITY INvESTMENTS (dollars in millions):
                                                                                                                2010
                                   As of September 30, 2010                                                   TOTAL                CPP                   AIG                TIP           AIFP         CBLI           PPIP
                                   Direct Loans and Equity Investment Programs:
                                   Direct Loans and Equity Investments Outstanding, Gross                $ 179,197            $ 49,779         $ 47,543              $        0    $ 67,238        $ 908        $ 13,729
                                   Subsidy Cost Allowance                                                  (36,745)             (1,546)         (21,405)                      1     (14,529)           58            676
                                   Direct Loans and Equity Investments Outstanding, Net                  $ 142,452            $ 48,233         $ 26,138              $        1    $ 52,709        $ 966        $ 14,405
                                   New Loans or Investments Disbursed                                        23,373                 277            4,338                      0        3,790          811         14,157
                                   Obligations for Loans and Investments not yet Disbursed                   36,947                   0           22,292                      0        2,066        4,339          8,250

                                   Reconciliation of Subsidy Cost Allowance:
                                   Balance, Beginning of Period                                          $ 53,077             $ (7,770)        $ 30,054              $ (341)       $ 31,478        $ (344)      $        0
                                     Subsidy Cost for Disbursements and Modifications                       7,533                   (16)          4,293                    0          2,644            275             337
                                     Interest and Dividend Revenue                                          6,977                 3,131               0                1,143          2,475              0             228
                                     Net Proceeds from Sales and Repurchases of Assets in
                                        Excess of Cost                                                        8,013              6,676                 0                 1,237            99            0              1
                                     Net Interest Expense on Borrowings                                     (4,690)            (2,018)             (981)                 (161)       (1,309)         (20)          (201)
                                     Write-offs                                                             (3,934)            (2,334)                 0                      0      (1,600)            0              0
                                   Balance, End of Period, Before Reestimates                               66,976             (2,331)           33,366                 1,878        33,787          (89)            365
                                     Subsidy Reestimates                                                  (30,231)               3,877          (11,961)               (1,879)      (19,258)           31        (1,041)
                                   Balance, End of Period                                                $ 36,745             $ 1,546          $ 21,405              $      (1)    $ 14,529        $ (58)       $ (676)

                                   Reconciliation of Subsidy Cost:
                                     Subsidy Cost for Disbursements                                      $      6,067         $       16       $      4,293          $         0   $      1,146    $ 275        $       337
                                     Subsidy Cost for Modifications                                             1,466               (32)                  0                   0          1,498         0                  0
                                     Subsidy Reestimates                                                     (30,231)             3,877            (11,961)              (1,879)       (19,258)       31            (1,041)
                                   Total Direct Loans and Equity Investment Programs
                                     Subsidy Cost (Income)                                               $ (22,698)           $ 3,861          $ (7,668)             $ (1,879)     $ (16,614)      $ 306        $ (704)




                                  TROUBLED ASSET RELIEF PROGRAM LOANS, EQUITY INvESTMENTS AND ASSET GUARANTEE PROGRAM BUDGET SUBSIDY RATES:
                                   As of September 30, 2010                                                        AGP                 CPP                 AIG               TIP         AIFP          CBLI           PPIP
                                   Budget Subsidy Rates, Excluding Modifications and Reestimates (See Note below):
                                     Interest Differential                                                                         (25.62%)                                             37.70%      30.39%           11.72%
                                     Defaults                                                                                       16.36%                                              13.78%       3.93%            0.00%
part 3: annual financial report




                                     Fees and Other Collections                                                                     (3.00%)                                              (0.38%)     0.00%            (0.41%)
                                     Other                                                                                          18.03%                                             (20.85%)     (0.41%)         (10.34%)
                                   Total Budget Subsidy Rate                                                            N/A           5.77%                    N/A           N/A        30.25%      33.91%             0.97%

                                   Subsidy Cost (Income) by Component (in millions):
                                     Interest Differential                                                                         $       (71)      $     1,415                   $      1,429    $     246    $   1,880
                                     Defaults                                                                                                45            2.907                            522           32             0
                                     Fees and Other Collections                                                                              (8)                0                           (15)            0         (55)
                                     Other                                                                                                   50              (29)                         (790)           (3)     (1,488)
                                   Total Subsidy Cost, Excluding Modifications and Reestimates                          N/A        $        16       $     4,293             N/A   $      1,146    $     275    $     337

                                   Note: The rates reflected in the “Budget Subsidy Rate” table above are fiscal year 2010 budget execution rates by program. The subsidy rates disclosed pertain only to the
                                     current year’s cohorts. These rates cannot be applied to the direct loans disbursed during the current reporting year to yield the subsidy cost (income). The subsidy cost
                                     (income) for new loans reported in the current year could result from disbursements of loans from both current year cohorts and prior year cohorts. The subsidy cost (income)
                                     reported in the current year also includes modifications and re-estimates. Therefore, the Total Subsidy Cost, Excluding Modifications and Reestimates will not equal the
                                     New Loans or Investments Disbursed multiplied by the Budget Subsidy Rate.




                                  206                        note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                                           performance and accountability report | fiscal year 2010




Troubled AsseT relief ProgrAm loAns And equiTy invesTmenTs (dollars in millions):
                                                                           2009
 As of september 30, 2009                                                ToTAl              CPP                Aig             TiP            AifP             Cbli         PPiP
 direct loans and equity investment Programs:
 Direct Loans and Equity Investments Outstanding, Gross             $ 290,969         $ 133,901        $ 43,206         $ 40,000        $ 73,762       $        100     $        0
 Subsidy Cost Allowance                                               (53,077)            7,770         (30,054)             341         (31,478)               344              0
 direct loans and equity investments outstanding, net               $ 237,892         $ 141,671        $ 13,152         $ 40,341        $ 42,284       $        444     $        0
 new loans or investments disbursed                                 $ 363,826         $ 204,618        $ 43,206         $ 40,000        $ 75,902       $        100     $        0
 obligations for loans and investments not yet
 disbursed                                                          $    51,681       $         0      $ 26,629         $         0     $    5,152     $      19,900    $        0

 reconciliation of subsidy Cost Allowance:
 Balance, Beginning of Period                                       $         0       $        0       $         0      $        0      $        0     $          0     $        0
   Subsidy Cost for Disbursements and Modifications                     152,179           57,386            31,552          19,540          43,797              (96)             0
   Interest and Dividend Collections                                      9,329            6,790                 0           1,862             677                 0             0
   Net Proceeds from Sales and Repurchases of Assets in
      Excess of Cost                                                    2,916             2,901               0                0              15                   0             0
   Net Interest Income (Expense) on Borrowings                         (2,773)           (2,428)           (373)            (276)            309                  (5)            0
   Balance, End of Period, Before Reestimates                         161,651            64,649          31,179           21,126          44,798               (101)             0
   Subsidy Reestimates                                               (108,574)          (72,419)         (1,125)         (21,467)        (13,320)              (243)             0
 balance, end of Period                                             $ 53,077          $ (7,770)        $ 30,054         $ (341)         $ 31,478       $       (344)    $        0

 reconciliation of subsidy Cost:
   Subsidy Cost (Income) for Disbursements                          $ 151,767         $ 55,520         $ 31,425         $ 19,540        $ 45,386       $       (104)    $        0
   Subsidy Cost (Income) for Modifications                                412            1,866              127                0          (1,589)                  8             0
 Subsidy Reestimates                                                 (108,574)         (72,419)          (1,125)         (21,467)        (13,320)              (243)             0
 Total direct loans and equity investment Programs
 subsidy Cost (income)                                              $    43,605       $ (15,033)       $ 30,427         $ (1,927)       $ 30,477       $       (339)    $        0




Troubled AsseT relief ProgrAm loAns, equiTy invesTmenTs And AsseT guArAnTee ProgrAm budgeT subsidy rATes:
 As of september 30, 2009                                                  AgP              CPP                Aig             TiP            AifP             Cbli         PPiP
 Budget Subsidy Rates, Excluding Modifications and Reestimates (See Note below):
   Interest Differential                                           0.00%          5.97%                    (45.52%)          9.31%           6.97%             5.87%
   Defaults                                                       43.62%         25.60%                    123.56%          48.38%          54.21%             0.00%
   Fees and Other Collections                                   (53.23%)          0.00%                       0.00%           0.00%           0.00%            0.00%




                                                                                                                                                                                     part 3: annual financial report
   Other                                                          (5.37%)        (4.58%)                      4.74%         (8.84%)         (3.13%)        (110.10%)
 Total budget subsidy rate                                      (14.98%)         26.99%                      82.78%         48.85%          58.05%         (104.23%)        n/A

 subsidy Cost (income) by Component (in millions):
   Interest Differential                                            $         0       $ 12,279         $ (17,280)       $    3,724      $    5,446     $          6
   Defaults                                                               2,181         52,655             46,906           19,352          42,384                 0
   Fees and Other Collections                                            (2,662)             0                  0                0               0                 0
   Other                                                                   (270)        (9,414)             1,799           (3,536)         (2,444)            (110)
 Total subsidy Cost (income), excluding modifications
 and reestimates                                                    $     (751)       $ 55,520         $ 31,425         $ 19,540        $ 45,386       $       (104)        n/A

 Note: The rates reflected in the “Budget Subsidy Rate” table above are weighted rates for the program. To compensate for the weighting of the various risk category subsidy 

   rates, the “by component” dollar amounts reflected were computed as a ratio of the component rate to the total weighted subsidy rate multiplied by the subsidy cost 

   (income) for the program. Therefore, the Total Subsidy Cost (Income), Excluding Modifications and Reestimates will not equal the New Loans or Investments Disbursed

   multiplied by the Budget Subsidy Rate. 





note 8. tarp direct loans and equity investments, net and asset guarantee program                                                                                           207
                                  the department of the treasury




                                  TROUBLED ASSET RELIEF PROGRAM ASSET GUARANTEE PROGRAM (in millions):
                                  As of September 30,                                                                                                                      2010                               2009
                                  Asset Guarantees Outstanding:
                                     Outstanding Principal Amount of Guaranteed Loans, Face Value                                                                 $            0                  $    301,000
                                     Amount of Outstanding Principal Guaranteed                                                                                   $            0                  $      5,000

                                  Asset Guarantee Program:
                                      Intra-governmental Portion (See Note below)                                                                                 $         815                   $           0
                                      Portion held by the Department, net                                                                                                 2,240                           1,765
                                  Total Asset Guarantee Program                                                                                                   $       3,055                   $       1,765

                                  Reconciliation of Asset Guarantee Program
                                  Balance, Beginning of Period                                                                                                    $      (1,765)                  $            0
                                      Subsidy Income for Disbursements and Modifications                                                                                 (1,418)                          (751)
                                      Dividend Revenue                                                                                                                       265                            175
                                      Net Interest Income on Borrowings                                                                                                      (50)                           (15)
                                  Balance, End of Period, Before Reestimates                                                                                             (2,968)                          (591)
                                      Subsidy Reestimates                                                                                                                    (87)                       (1,174)
                                  Balance, End of Period                                                                                                          $      (3,055)                  $     (1,765)

                                  Reconciliation of Subsidy Cost (Income):
                                      Subsidy Income for Disbursements                                                                                            $             0                 $       (751)
                                      Subsidy Income for modifications                                                                                                   (1,418)                              0
                                      Subsidy Reestimates                                                                                                                    (87)                       (1,174)
                                      Cancellation Fees Collected                                                                                                               0                         (276)
                                  Total Asset Guarantee Program Subsidy Income                                                                                    $      (1,505)                  $     (2,201)

                                  Note: The net present value of the future cash flows for the Asset Guarantee Program consists of (i) $800 million of Citigroup trust preferred securities, plus dividends
                                    thereon, that the FDIC agreed to transfer to the Department contingent on Citigroup repaying previously issued FDIC guaranteed debt and (ii) additional Citigroup trust
                                    preferred securities valued at $2,240, for a total of $3,055.
part 3: annual financial report




                                  208                       note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                        performance and accountability report | fiscal year 2010




The Department Housing Programs Under TARP
fiscal year 2010 has seen an expansion of programs designed to provide stability for both the housing market and homeowners. these
programs assist homeowners who are experiencing financial hardships to remain in their homes while they get back on their feet or
relocate to a more sustainable living situation. these programs fall into three initiatives:
  1) Making home affordable Program (Mha);
  2) housing finance agency (hfa) hardest-hit fund, and
  3) federal housing administration (fha)-refinance Program.

under Mha, the initial programs rolled out in the fiscal year 2009 were the home affordable Modification Program (haMP)
including the home Price Decline Protection Program (hPDP).

Mha includes haMP, fha-haMP, second lien Program (2MP), Department/fha second lien Program (fha 2lP)
(extinguishment of 2nd lien portion of the program), and rural Development (rD-haMP). the haMP includes first lien
modifications, the hPDP, the Principal reduction alternative Waterfall Program (Pra), the unemployment Program (uP), and
the home affordable foreclosure alternatives Program (hafa). the haMP first lien modification program provides for one-time,
monthly and annual incentives to servicers, borrowers, and investors who participate in the program, whereby the investor and the
Department share the costs of modifying qualified first liens. the hPDP provides incentives to investors to partially offset losses
from home price declines. In fiscal year 2010, additional programs have been introduced under haMP to complement the first lien
modification program and hPDP. the Principal reduction alternative Waterfall Program (Pra) offers mortgage relief to eligible
homeowners whose homes are worth significantly less than the remaining amounts outstanding under their first-lien mortgage. the
unemployment Program (uP) offers assistance to unemployed homeowners through temporary forbearance of a portion of their
mortgage payments. the uP will not have a financial impact on the Department because no incentives are paid by the Department.
finally, the home affordable foreclosure alternatives Program (hafa) is designed to assist eligible borrowers unable to retain their
homes through a haMP modification by simplifying and streamlining the short sale and deed in lieu of foreclosure processes and
providing incentives to borrowers, servicers and investors to pursue short sales and deeds in lieu.

fiscal year 2010 has also seen the introduction of additional programs under Mha. these programs include the fha-haMP which
provides the same incentives as haMP for federal housing administration (fha) guaranteed loans. the 2MP provides additional
incentives to servicers to extinguish second liens on first lien loans modified under haMP. the fha 2lP provides for incentives
to servicers for extinguishment of second liens for borrowers who refinance their fha-insured first lien mortgages under the fha­
refinance Program. the rD-haMP Program provides haMP incentives for usDa guaranteed mortgages.

all Mha disbursements are made to servicers either for themselves or for the benefit of borrowers and investors. furthermore, all




                                                                                                                                       part 3: annual financial report
payments are contingent on borrowers remaining current on their mortgage payments. servicers have until December 31, 2012 to
enter into mortgage modifications with borrowers.

Included in the Department housing Program cost are fees paid to fannie Mae and freddie Mac. fannie Mae provides direct
programmatic support as a third party agent on behalf of the Department. freddie Mac provides compliance oversight as a third party
agent on behalf of the Department, and the servicers work directly with the borrowers to modify and service the borrowers’ loans.

the housing finance agency (hfa) hardest-hit fund was implemented in 2010 and provides targeted aid to families in the states
hit hardest by the housing market downturn and unemployment. states that meet the criteria for this program consist of alabama,
arizona, california, florida, georgia, Illinois, Indiana, kentucky, Michigan, Mississippi, nevada, new Jersey, north carolina, ohio,
oregon, rhode Island, south carolina, tennessee, and Washington D.c. approved states develop and roll out their own programs
with timing and types of programs offered targeted to address the specific needs and economic conditions of their state. states have
until December 31, 2017 to enter into agreements with borrowers.




note 8. tarp direct loans and equity investments, net and asset guarantee program                                               209
                                  the department of the treasury




                                  the fha-refinance Program is a joint initiative with the Department of housing and urban Development (huD) which is
                                  intended to encourage refinancing of existing underwater (i.e. the borrower owes more than the home is worth) mortgage loans not
                                  currently insured by fha into fha-insured mortgages. huD will pay a portion of the amount refinanced to the investor and the
                                  Department will pay incentives to encourage the extinguishment of second liens associated with the refinanced mortgages. the
                                  Department established a letter of credit to fund the Department portion of any claims associated with the fha-insured mortgages.
                                  homeowners can refinance into fha-guaranteed mortgages through December 31, 2012 and the Department will honor its share of
                                  claims against the letter of credit through 2020. as of september 30, 2010, no loans had been refinanced under this program as the
                                  joint initiative was entered into late in the fiscal year. however, in fiscal year 2010, the Department paid $3 million to establish the
                                  letter of credit.

                                  the table below recaps payments and accruals (included in other liabilities) as of september 30, 2010 and september 30, 2009. as
                                  noted above, the uP is structured so that there is no financial impact on the Department. although in operation on september
                                  30, 2010 the Pra, fha-haMP, 2lP and rD-haMP had not been in operation for a period long enough to have fiscal year 2010
                                  financial activity.

                                                                                                     Commitments                 Payments                         Accruals
                                   (in millions)                                                           9/30/2010       9/30/2010        9/30/2009       9/30/2010        9/30/2009
                                   MHA                                                                 $     29,900    $       0        $           0   $       0            $       0
                                   HAMP (1st Lien)                                                                0      473.592               0.946      175.415                1.361
                                       HPDP                                                                       0        8.755                    0     107.914                    0
                                       PRA*                                                                       0            0                    0           0                    0
                                       UP**                                                                       0         N/A                  N/A         N/A                  N/A
                                       HAFA***                                                                    0        1.627                    0        N/A                     0
                                   FHA HAMP                                                                       0            0                    0       0.024                    0
                                   2MP                                                                            0        0.011                    0       0.005                    0
                                   2LP*                                                                           0            0                    0           0                    0
                                   RD-HAMP*                                                                       0            0                    0           0                    0
                                   HFA Hardest Hit Fund                                                       7,600       56.120                    0           0                    0
                                   FHA - Refinance                                                            8,100        3.015                    0           0                    0
                                   Totals                                                              $     45,600    $ 543.120        $      0. 946   $ 283.358            $   1.361
                                   * No fiscal year 2010 activity with financial impact

                                   ** No fiscal financial impact

                                   *** HAFA payments are made in the month earned and not accrued



                                  for fiscal year 2010 and 2009, cost for the Department housing Programs under tarP totaled $825 million and $2 million,
part 3: annual financial report




                                  respectively.




                                  210                               note 8. tarp direct loans and equity investments, net and asset guarantee program
                                                          performance and accountability report | fiscal year 2010




9.      i nvestments             in   gOvernment spOnsOreD enterprises (gse s)
the federal national Mortgage association (fannie Mae) and the federal home loan Mortgage corporation (freddie Mac) are
stockholder-owned gses. congress established these gses to support the supply of mortgage loans. a key function is to package
purchased mortgages into securities. these securities are subsequently sold to investors.

Increasingly difficult conditions in the housing market challenged the soundness and profitability of gses, thereby undermining the
entire housing market. this led congress to pass the housing and economic recovery act of 2008 on July 30, 2008 (hera). this
act created the new federal housing finance agency (fhfa), with enhanced regulatory authority over the gses, and provided the
secretary of the treasury with certain authorities intended to ensure the financial stability of the gses, if necessary. on september 7,
2008, fhfa placed the gses under conservatorship and the Department entered into a senior Preferred stock Purchase agreement
(sPsPa) with each gse. these actions were taken to preserve the gses’ assets, ensure a sound and solvent financial condition, and
mitigate systemic risks that contributed to current market instability.

the actions taken by the Department thus far are temporary, as defined by section 1117 of hera, and are intended to provide
financial stability until fannie Mae and freddie Mac can return to normal operations or until the administration and congress
address how they should be structured going forward. as of september 30, 2010, there are no plans to bring these organizations into
the government; rather, the purpose of these financial arrangements is to maintain the solvency of the gses so they can continue
to fulfill their vital roles in the home mortgage market while the administration and congress deliberate what, if any, structural
changes should be made. the fhfa director may terminate the conservatorship if safe and solvent conditions can be established.
Per sffas no. 2, Entity and Display, these entities meet the criteria of “bailed out” entities under paragraph 50. accordingly, the
Department has not consolidated them into the financial statements, but includes “disclosure of the relationship(s) with the bailed
out entities and any actual or potential material costs or liabilities” in the consolidated financial statements. Draws under the
sPsPas are designed to ensure that the gses maintain positive net worth as a result of any net losses from operations and also meet
taxpayer dividend requirements under the sPsPas. While this construction is somewhat circular in the event that dividends exceed
net income and draws are made to fund dividends, the sPsPas were structured to ensure any investments made on behalf of the
taxpayers were fully and fairly accounted for.

under the sPsPas, the Department initially received from each gse: (1) 1,000,000 shares of non-voting variable liquidation
preference senior preferred stock with a liquidation preference value of $1,000 per share and (2) a non-transferrable warrant for the
purchase, at a nominal cost, of 79.9 percent of common stock on a fully-diluted basis. the warrants expire on september 7, 2028.
the senior preferred stock accrues dividends at 10 percent per year, payable quarterly. this rate will increase to 12 percent if, in any
quarter, the dividends are not paid in cash, until all accrued dividends have been paid. Dividends of $12,142 million and $4,336
million were received for the fiscal years ended september 30, 2010 and september 30, 2009. In addition, beginning on March 31,




                                                                                                                                           part 3: annual financial report
2011, the gses are scheduled to begin paying the Department a periodic commitment fee on a quarterly basis unless the payment is
waived. this fee is to be initially set by December 31, 2010, based on mutual agreement between the Department and each gse, in
consultation with the chairman of the federal reserve board. the fee is to be established for five-year periods, and may be waived by
the Department for one year at a time, if warranted by adverse mortgage market conditions. It may be paid in cash or may be added to
the liquidation preference.

the initial agreements, which had no expiration date, provided that the Department would disburse funds to the gses, if at the
end of any quarter the fhfa determines that the liabilities of either gse exceed its assets. the maximum amount available to each
gse under this agreement was originally $100,000 million and in May 2009 was raised to $200,000 million. In December 2009, the
Department amended the sPsPas to replace the $200,000 million per gse funding commitment cap with a formulaic cap that will
allow continued draws for three years at amounts that will automatically adjust upwards quarterly by the cumulative amount of any
losses realized by either gse and downward by the cumulative amount of any gains, but not below $200,000 million, and will become
fixed at the end of the three years. at the conclusion of the three year period, the remaining commitment will then be fully available



note 9. investments in government sponsored enterprises (gses)                                                                     211
                                  the department of the treasury




                                  to be drawn per the terms of the agreements (referred to hereafter as the “adjusted caps”). Draws against the funding commitment
                                  of the sPsPas do not result in the issuance of additional shares of senior preferred stock; instead, the liquidation preference of the
                                  initial 1,000,000 shares is increased by the amount of the draw.

                                  actual payments to the gses for fiscal years ended september 30, 2010 and september 30, 2009 were $52,600 million and $95,600
                                  million, respectively. additionally, $359,900 million has been accrued as a contingent liability as of september 30, 2010 ($91,937
                                  million as of september 30, 2009). the amount accrued is the total estimated contingent liability under the sPsPas. this accrued
                                  contingent liability is based on the projected draws under the sPsPas. It is undiscounted and does not take into account any of the
                                  offsetting dividends which may be received as a result of those draws.

                                  Accounting Treatment
                                  Entity Transactions – the estimated contingent liability to the gses accrued pursuant to the sPsPas will be funded through the
                                      Department’s direct appropriations. therefore, they are reflected at their gross amount as “entity” costs on the Department’s
                                      statements of net cost and cumulative results of operations, without considering the increase in senior Preferred stock
                                      liquidity preference/fair value adjustments, future dividend receipts from the gses, or any future commitment fees.

                                  Non-Entity Transactions – as actual payments are made to the gses, they result in increases to the u.s. government’s liquida­
                                     tion preference in the gses’ preferred stock, and thus represent general fund exchange revenue reported on the Department’s
                                     statement of net cost as “gse non-entity revenue.” the associated valuation losses and dividends are likewise general fund
                                     costs and revenues.

                                  over time, the Department’s entity expense for the accrued contingent liability under the sPsPas will be offset in part by the
                                  general fund’s exchange revenues recognized when actual draw payments are made to the gses.

                                  Investments in GSEs
                                  as of september 30, 2010 and september 30, 2009, the Department’s investments in the gses consisted of the following
                                  (in millions):
                                                                                                       Gross Investment       Cumulative valuation                  9/30/10
                                   GSEs Investment                                                         as of 9/30/10               Gain/(Loss)               Fair value
                                   Fannie Mae Senior Preferred Stock                                       $     85,941               $   (29,450)           $      56,491
                                   Freddie Mac Senior Preferred Stock                                            63,924                   (12,759)                  51,165
                                   Fannie Mae Warrants Common Stock                                               3,104                     (2,097)                  1,007
                                   Freddie Mac Warrants Common Stock                                              2,264                     (1,711)                    553
                                   Total GSEs Investment                                                   $    155,233               $   (46,017)           $     109,216
part 3: annual financial report




                                                                                                       Gross Investment       Cumulative valuation                  9/30/09
                                   GSEs Investment                                                         as of 9/30/09               Gain/(Loss)               Fair value
                                   Fannie Mae Senior Preferred Stock                                       $     45,740               $   (20,658)           $      25,082
                                   Freddie Mac Senior Preferred Stock                                            51,524                   (23,273)                  28,251
                                   Fannie Mae Warrants Common Stock                                               3,104                      3,603                   6,707
                                   Freddie Mac Warrants Common Stock                                              2,264                      2,375                   4,639
                                   Total GSEs Investment                                                   $    102,632               $   (37,953)           $      64,679




                                  212                                              note 9. investments in government sponsored enterprises (gses)
                                                           performance and accountability report | fiscal year 2010




Senior Preferred Stock and Warrants for Common Stock
In performing the calculations for the valuations of the senior preferred stock and warrants for common stock, the Department relied
on the gses’ public filings and press releases concerning its financial statements, monthly summaries, quarterly credit supplements,
independent research regarding high yield bond and preferred stock trading, independent research regarding the gses’ common
stock trading, and other information pertinent to the valuations.

a complicating issue for the valuation of the senior preferred stock is the interaction between liquidity payments and the ongoing
liquidation preference of the stock and the amount of dividends associated with that liquidation preference. the projections assume
that a hypothetical buyer would acquire the dividend stream related to the existing balance of the liquidation preference on the
transaction date, as well as the commitment fee payment that if agreed upon by the Department and fhfa could begin on March 31,
2011. this stream of dividend payments was then discounted to address certain issues unique to the senior preferred stock.

the valuation of the warrants are impacted by the nominal exercise price and the large number of potential exercise shares,
the market trading of the common stock that underlies the warrants, the principal market, and the market participants. other
discounting factors are the holding period risk related directly to the amount of time that it will take to sell the exercise shares
without depressing the market and the other activity under the sPsPa.

Contingent Liability

as part of the valuation exercise, the Department prepared a series of long-range projections through 2031 to determine what the
implied amount of the contingent liability to the gses under the sPsPas would be and as a result has estimated the contingent
liability to be $359,900 million as of september 30, 2010 as a result of their projected equity deficits stemming from near term losses
and contractual dividend requirements. the valuation analysis resulted in total sPsPa estimates ranging from a “baseline” scenario
of $508,100 million to an “extreme case” scenario of $610,000 million, as of september 30, 2010 ($91,937 million to $206,700 as of
september 30, 2009 of which $76,937 million was recorded as contingent). as future payments under the sPsPa are deemed to be
probable, the baseline scenario was used to record the contingent liability as of september 30, 2010. sffas 5 provides that when a
probable contingent liability is a range of amounts and no amount within the range is a better estimate than any other amount, the
estimated contingent liability should be based on the minimum value in the range, as was done for fy 2009. the recorded contingent
liability is the total estimated payments for the life of the agreements under the adjusted caps, minus actual payments made through
the end of the fiscal year. such accruals are adjusted as new information develops or circumstances change.

In performing the calculations for the valuation and contingent liability estimates, the Department relied on the gses’ public filings
and press releases concerning its audited and unaudited financial statements, monthly summaries, quarterly credit supplements,
september 2010 forecast for the years 2010 through 2013 (as released by fhfa on october 21, 2010), and interviews with the gses’




                                                                                                                                             part 3: annual financial report
management. the gse managers were not able to provide the Department with a forecast of needed draws under the sPsPas after
December 31, 2013; however, they did provide the Department with general guidance as to the key assumptions that were used for
subsequent periods. the forecasts after 2013 generally assume similar operating assumptions on the guarantee business and assume a
gradual wind-down of the retained portfolios (and corresponding net interest income) through 2022, as directed under the provisions
of the sPsPas for the gses to reduce the investment portfolios by 10 percent per annum.




note 9. investments in government sponsored enterprises (gses)                                                                         213
                                  the department of the treasury




                                  as of september 30, 2010 the summarized aggregated financial condition of the gses was as follows:

                                                                                                                                                     (in millions) Combined
                                   As of September 30, 2010
                                   Combined total assets                                                                                                $        5,518,352
                                       of which are:
                                           - investment securities                                                                                                 474,437
                                           - mortgage loans                                                                                                      4,782,405

                                   Combined total liabilities                                                                                           $        5,520,857
                                      of which is:
                                          - long term debt                                                                                                       5,248,221

                                   Combined net deficit                                                                                                 $           (2,505)

                                   For the nine months ended September 30, 2010
                                   Combined net interest income                                                                                         $            24,312
                                       Combined provision for loan losses                                                                                          (35,082)
                                   Net interest income (loss) after provision for loan losses                                                           $          (10,770)

                                   Financial Guarantees not consolidated on GSE balance sheets September 30, 2010                                       $          116,091

                                   Regulatory Capital - minimum capital surplus (deficit) as of September 30, 2010                                      $         (198,999)


                                  the above information was taken directly from the quarterly reports filed with the securities and exchange commission (sec),
                                  which are publicly available on the sec’s website (www.sec.gov) and also the gse investor relations websites.

                                  the Department also relied upon economic and demographic data from the 2010 annual report of the board of trustees of the
                                  federal old-age and survivors Insurance and federal Disability Insurance trust funds, the standard and Poor’s (s&P)/case-shiller
                                  June 2010 housing Price Index, and the federal housing finance agency’s house Price Index. the following paragraph summarizes
                                  information obtained from these sources.

                                  In the near term, the price of u.s single-family homes is the predominant variable affecting the value of the sPsPas in determining
                                  delinquencies, default rates, and severity rates. the prices of u.s. homes depend on numerous factors, including tax incentives,
                                  interest rates, vacant homes, new construction, and unemployment rates. although housing prices have risen recently, they are still
                                  significantly down from the peak experienced in prior years.

                                  both gses reported very low early delinquencies on additions to their credit books in 2009 and the first half of 2010. this favorable
part 3: annual financial report




                                  early delinquency experience is an improvement compared with the loans originated in 2005 through 2008. however, both gses
                                  expect to make additional draws under the sPsPa in future periods despite improving levels of net income as the required dividend
                                  payments required under the sPsPas exceed the net income of the gses and incremental draws under the sPsPas are needed to
                                  meet dividend payment requirements. the gses expect their net worth will also be impacted negatively by dividend payments on
                                  the sPsPas.

                                  under the existing sPsPas, as amended, the Department’s projections show that each gse will fully utilize the amount of funding
                                  available under the adjusted cap. this is in addition to any draws during calendar years 2010 through 2012, as this period is not
                                  subject to the cap. adverse changes in home prices would have a material and adverse impact on the sPsPas.




                                  214                                                           note 9. investments in government sponsored enterprises (gses)
                                                                     performance and accountability report | fiscal year 2010




GSEs Non-Entity Revenue
as of september 30, 2010 and september 30, 2009, gses non-entity revenue consisted of the following (in millions):


 Summary of GSEs Non-Entity Revenue                                                                       2010                    2009
 General Fund Revenue from Increase in Liquidity Preference of GSEs Preferred Stock                $   (52,600)            $   (95,600)
 Current Valuation Loss on GSEs Warrants/Preferred Stock                                                  8,064                  37,953
 GSEs Preferred Stock Dividends                                                                        (12,142)                  (4,336)
 Total GSEs Non-Entity Revenue                                                                     $   (56,678)            $   (61,983)



Changing Regulatory Environment
on July 9, 2010, fhfa published, in the federal register, a proposed rule to clarify certain terms of conservatorship and receivership
operations for the gses. the key issues addressed in the proposed rule are the status and priority of claims and the relationships
among various classes of creditors and equity-holders under conservatorships or receiverships.

on July 21, 2010, the President signed the Dodd-frank Wall street reform and consumer Protection act, or the Dodd-frank act,
into law. the Dodd-frank act will significantly change the regulation of the financial services industry, including the creation of new
standards related to regulatory oversight of financial institutions deemed systemically important; an orderly liquidation mechanism
for these institutions; and oversight of derivatives, capital requirements, asset-backed securitization, mortgage underwriting, and
consumer financial protection. the Dodd-frank act may result in the gses being subjected to new and additional regulatory
oversight and standards, which would lead to increased restrictions on their day-to-day business and operations. also, it contains a
provision requiring the secretary of the treasury to conduct a study and develop recommendations regarding the options for ending
the conservatorship. the secretary’s report and recommendations are required to be submitted to congress by January 31, 2011.




                                                                                                                                           part 3: annual financial report




note 9. investments in government sponsored enterprises (gses)                                                                     215
                                  the department of the treasury




                                  10. i nvestments                       in i nternatiOnal            finanCial i nstitutiOns
                                  the Multilateral Development banks (MDb) consist of the World bank group (International bank for reconstruction and
                                  Development, International finance corporation, and Multilateral Investment guarantee agency), and five regional development
                                  banks (the african, asian, european, Inter-american, and north american institutions), as enumerated in the table below.

                                  as of september 30, 2010 and september 30, 2009, investments in international financial institutions consisted of the following (in
                                  millions):

                                                                                                                                          2010                    2009
                                   African Development Bank                                                                         $       175                 $ 175
                                   Asian Development Bank                                                                                   458                    458
                                   European Bank for Reconstruction and Development                                                         636                    636
                                   Inter-American Development Bank                                                                        1,487                  1,482
                                   International Bank for Reconstruction and Development                                                  1,985                  1,985
                                   International Finance Corporation                                                                        569                    569
                                   Multilateral Investment Guarantee Agency                                                                  45                     45
                                   North American Development Bank                                                                          225                    225
                                   Total                                                                                            $     5,580            $     5,575

                                  refer to note 31 for a description of the additional commitments related to these institutions.
part 3: annual financial report




                                  216                                                      note 10. investments in international financial institutions
                                                              performance and accountability report | fiscal year 2010




11. O ther i nvestments                             anD       r elateD i nterest
Investments in u.s. government securities held by the Department’s entities have been eliminated against the federal debt liability
for financial reporting purposes (see note 4). foreign investment holdings are normally invested in interest bearing securities issued
or held through foreign governments or monetary authorities (see note 6). the $1,100 million of other Investments in gses
securities held by the esf at september 30, 2009 matured in november 2009.

as of september 30, 2010 and september 30, 2009, entity investments in foreign investment holdings and other investments
consisted of the following (in millions):

                                                      Unamortized
                                 Cost/Acquisition      (Premium)/          Interest     Net Investment                           9/30/10
 Type of Investment                        value         Discount       Receivable            at 9/30/10    Gain/(Loss)       Fair value
 Foreign Investments:
     Euro Bonds & Notes             $      4,478          $      76     $      102        $        4,656    $       178      $    4,834
     Japanese Government Bonds             7,729                 10              9                 7,748             35           7,783
 Other Investments                            32                 (2)             0                    30             (8)             22
 Total Non-Federal                  $     12,239          $      84     $      111        $       12,434    $       205      $   12,639



                                                      Unamortized                                 9/30/09
                                 Cost/Acquisition      (Premium)/          Interest           Investment     Unrealized          9/30/09
 Type of Investment                        value         Discount       Receivable               Balance    Gain/ (Loss)      Fair value
 Foreign Investments:
     Euro Bonds & Notes             $      4,827          $      52     $      116        $        4,995    $       184      $    5,179
     Japanese Government Bonds             7,192                  9             12                 7,213             43           7,256
 Other Investments                         1,137                 (7)             0                 1,130              0           1,130
 Total Non-Federal                  $     13,156          $      54     $      128        $       13,338    $       227      $   13,565




                                                                                                                                           part 3: annual financial report




note 11. other investments and related interest                                                                                    217
                                  the department of the treasury




                                  12. C reDit p rOgram r eCeivables                                        anD   DireCt l Oans, net
                                  as of september 30, 2010 and september 30, 2009, credit Program receivables and Direct loans consisted of the following (in
                                  millions):
                                                                                                                                            2010                    2009
                                   GSEs MBS Purchase Program Receivables                                                              $   172,234            $   184,419
                                   CDFI Direct Loans                                                                                           41                     41
                                   State and Local Housing Finance Agency Initiative Program Receivables                                   14,121                      0
                                   Total                                                                                              $   186,396            $   184,460



                                  Government Sponsored Enterprise (GSE) Mortgage-Backed Securities (MBS) Purchase
                                  Program:
                                  the Housing and Economic Recovery Act (hera) (Public law no. 110-289), authorized the Department to enter into the gse
                                  Mbs Purchase Program. under this program, the Department, using private sector asset managers, purchased on the open market a
                                  portfolio of mortgage-backed securities issued by the gses. by purchasing these credit-guaranteed securities, the Department sought
                                  to broaden access to mortgage funding for current and prospective homeowners and to promote stability in the mortgage market. the
                                  asset managers were also authorized to enter into other trade/sell transactions such as pair offs, turns, assignments, and dollar rolls
                                  to further support the market under the hera provisions/mandate. the authority granted by congress to purchase Mbs expired
                                  on December 31, 2009 at which point the purchase of new securities ended, though the Department still retains its portfolio of
                                  previously purchased securities.

                                  the Department’s gse Mbs Purchase Program portfolio consists of mortgage pass-through securities issued by freddie Mac and
                                  fannie Mae. as of september 30, 2010, the Department held $164,340 million ($173,326 million as of september 30, 2009) in
                                  outstanding Mbs principal and estimated the net present value of future cash flows on these holdings to be $172,234 million
                                  ($184,419 million as of september 30, 2009). the difference between the Department’s cost of purchasing the Mbs Portfolio and the
                                  expected value of repayments to the Department is the negative subsidy allowance.


                                  Community Development Financial Institution (CDFI) Direct Loans:
                                  the community Development financial Institutions fund (the fund) was created as a bipartisan initiative in the riegle community
                                  Development and regulatory Improvement act of 1994 (Public law no. 103-325). the fund was placed in the Department and
                                  began operations in July 1995. the fund operates various programs aimed at expanding the availability of credit, investment capital,
part 3: annual financial report




                                  and financial and other services in distressed urban, rural, and native american communities. the fund is intended to help create
                                  a national network of financial institutions dedicated to community development that leverages private resources (financial and
                                  human) to address community development needs. the cDfI Program provides financial and technical assistance awards to certified
                                  community development financial institutions (cDfIs) which in turn provide services to create community development impact in
                                  underserved markets. some of the financial assistance awards take the form of direct loans.




                                  218                                                                note 12. credit program receivables and direct loans, net
                                                          performance and accountability report | fiscal year 2010




State and Local Housing Finance Agency (HFA) Initiative (Accounted for Under the
FCRA):
under hera, the Department, together with the federal housing finance agency, fannie Mae, freddie Mac, and the Department
of housing and urban Development announced in october 2009 an initiative to provide support to state and local housing finance
agencies (hfas). hfas have historically played a central role in providing a safe, sustainable path to homeownership for working
families in all 50 states and many localities across the country. this initiative is designed to support low mortgage rates and expand
resources for low and middle income borrowers to purchase or rent homes, making them more affordable over the long term. In
December 2009, several transactions closed as part of the hfa Initiative’s two separate programs: (1) the temporary credit and
liquidity Program (tclP) and (2) the new Issue bond Program (nIbP). as part of the tclP, the Department has entered into
participation interests with fannie Mae and freddie Mac, supporting credit and liquidity facilities that the gses are providing to
11 states as part of the program. as of september 30, 2010, the liquidity facilities cover $7,572 million of single-family and multi­
family variable-rate demand obligations. as of september 30, 2010, none of these bonds have been tendered to the gses, and the
Department accordingly has not disbursed any funds. as part of the nIbP, as of september 30, 2010, the Department held $15,307
million of gross gses obligations backed by a combination of mortgage revenue bonds and escrowed funds from over 92 hfas in 49
states plus the District of columbia.




                                                                                                                                         part 3: annual financial report




note 12. credit program receivables and direct loans, net                                                                          219
                                  the department of the treasury




                                                                                                              2010
                                  (in millions)                                                             GSE MBS           CDFI          HFA          TOTAL
                                  Net Credit Program Receivables:
                                      Credit Program Receivables, Gross                                 $    164,340     $       56   $   15,307    $   179,703
                                      Subsidy Cost Allowance                                                   7,894           (15)       (1,186)         6,693
                                  Net Credit Program Receivables                                        $    172,234     $       41   $   14,121    $   186,396

                                  New Credit Program and Loan Disbursed                                 $     29,878     $       0    $   15,308    $    45,186



                                  Budget Subsidy Rate, excluding Modifications and Reestimates:
                                      Interest Differential                                                  -3.73%          0.00%        -0.52%
                                      Defaults                                                                0.00%          0.00%         0.00%
                                      Other                                                                   0.00%          0.00%         0.00%
                                  Total Budget Subsidy Rate                                                  -3.73%          0.00%        -0.52%



                                  Subsidy Cost by Component:
                                      Interest Differential                                             $     (1,115)    $       0    $     (79)    $    (1,194)
                                  Total Subsidy Cost, Excluding Modifications and Reestimates           $     (1,115)    $       0    $     (79)    $    (1,194)



                                  Reconciliation of Subsidy Cost Allowance:
                                  Balance, 10/1/2009                                                    $    (11,093)    $      20    $         0   $   (11,073)
                                      Subsidy Cost for Disbursements                                          (1,115)            0           (79)         (1,194)
                                      Subsidy Cost for Modifications                                                 0            0          (20)             (20)
                                      Subsidy Allowance Amortized                                               3,831           (1)        (537)            3,293
                                  Balance, 9/30/2010, Before Reestimates                                       (8,377)          19         (636)          (8,994)
                                  Subsidy Reestimates                                                              483          (4)        1,822            2,301
                                  Balance, 9/30/2010                                                    $     (7,894)    $      15    $    1,186    $    (6,693)



                                  Reestimates:
                                      Interest Rate Reestimate                                          $       (157)    $       0    $      847    $        690
                                      Technical/Default Reestimate                                               640           (4)           975            1611
part 3: annual financial report




                                  Total Reestimates – (Decrease) in Subsidy Cost                        $        483     $     (4)    $    1,822    $      2,301



                                                                                                            GSE MBS           CDFI          HFA          TOTAL
                                  Reconciliation of Subsidy Costs:
                                      Subsidy Cost for Disbursements                                    $     (1,115)    $       0    $      (79)   $    (1,194)
                                      Subsidy Cost for Modifications                                                0            0           (20)            (20)
                                      Subsidy Reestimates                                                         483          (4)         1,822           2,301
                                  Total Credit Program Receivables Subsidy Costs                        $       (632)    $     (4)    $    1,723    $      1,087

                                  Administrative Expense                                                $            6   $       0    $        0    $           6




                                  220                                                           note 12. credit program receivables and direct loans, net
                                                              performance and accountability report | fiscal year 2010




                                                                           2009
(in millions)                                                            GSE MBS            CDFI         HFA         TOTAL
Credit Program Receivables, Gross                                    $    173,326      $       61   $       0   $   173,387
Subsidy Cost Allowance                                                     11,093            (20)           0        11,073
Net Credit Program Receivables                                       $    184,419      $       41   $       0   $   184,460

New Credit Program and Loan Disbursed                                $    192,263      $       0    $       0   $   192,263



Budget Subsidy Rate, Excluding Modifications and Reestimates:
    Interest Differential                                                  -2.61%          0.00%        0.00%
    Defaults                                                                0.25%          0.00%        0.00%
    Other                                                                   0.00%          0.00%        0.00%
Total Budget Subsidy Rate                                                  -2.36%          0.00%        0.00%



Subsidy Cost by Component:
    Interest Differential                                            $     (4,977)     $       0    $       0   $    (4,977)
    Defaults                                                                   477             0            0            477
    Other                                                                        0             0            0              0
Total Subsidy Cost, Excluding Modifications and Reestimates          $     (4,500)     $       0    $       0   $    (4,500)



Reconciliation of Subsidy Cost Allowance:
Balance, 10/1/2008                                                   $          (74)   $      20    $       0   $         (54)
    Subsidy Cost for Disbursements                                          (4,500)            0            0         (4,500)
    Subsidy Cost for Modifications                                                0            0            0                0
    Subsidy Allowance Amortization                                            1,873            0            0           1,873
Balance, 9/30/2009, Before Reestimates                                      (2,701)           20            0         (2,681)
Subsidy Reestimates                                                         (8,392)            0            0         (8,392)
Balance, 9/30/2009                                                   $    (11,093)     $      20    $       0   $   (11,073)



                                                                         GSE MBS            CDFI         HFA         TOTAL
Reestimates
    Interest Rate Reestimate                                         $           0     $       0    $       0   $          0




                                                                                                                                 part 3: annual financial report
    Technical/Default Reestimate                                           (8,392)             0            0        (8,392)
Total Reestimates – (Decreased) in Subsidy Cost                      $     (8,392)     $       0    $       0   $    (8,392)



Reconciliation of Subsidy Costs:
    Subsidy Cost for Disbursements                                   $      (4,500)    $       0    $       0   $     (4,500)
    Subsidy Cost for Modifications                                               0             0            0               0
    Subsidy Reestimates                                                     (8,392)            0            0         (8,392)
Total Credit Program Receivables Subsidy Costs                       $    (12,892)     $       0    $       0   $   (12,892)

Administrative Expense                                               $           12    $       0    $       0   $          12




note 12. credit program receivables and direct loans, net                                                               221
                                  the department of the treasury




                                  13. l Oans            anD i nterest                r eCeivable

                                  Non-Entity Non-Federal
                                  as of september 30, 2010 and september 30, 2009, loans and interest receivable from non-federal entities consisted of the following
                                  (in millions):
                                                                                                                                      2010 Total                2009 Total
                                   Direct Loans                                                                                       $     123                 $     125
                                   Interest Receivable                                                                                        1                         2
                                   Total Non-Federal Loans and Related Interest Receivable                                            $     124                 $     127


                                  loans and Interest receivable amounts include certain loans and credits issued by the united states to various foreign governments
                                  and other entities. the agreements with each debtor government vary as to dates, interest rates, method of payment, and billing
                                  procedures. all such loans and credits represent legally valid and outstanding obligations of foreign governments, other entities, and
                                  the u.s. government has not waived or renounced its rights with respect to any of them. the loans are due and payable in u.s.
                                  denominations.
part 3: annual financial report




                                  222                                                                                note 13. loans and interest receivable
                                                                          performance and accountability report | fiscal year 2010




14. r eserve pOsitiOn                                 in the i nternatiOnal                                  mOnetary funD
the united states participates in the IMf through a quota subscription. Quota subscriptions are paid partly through the transfer
of reserve assets, such as foreign currencies or sDrs, which are international reserve currency assets created by the IMf, and partly
by making domestic currency available as needed through a non-interest-bearing letter of credit. this letter of credit, issued by
the Department and maintained by the frbny, represents the bulk of the IMf’s holdings of dollars. In keeping with IMf rules,
approximately one quarter of 1 percent of the u.s. quota is held in cash in an IMf account at frbny.

While resources for transactions between the IMf and the united states are appropriated, they do not result in net budgetary outlays.
this is because u.s./IMf quota transactions constitute an exchange of monetary assets in which the united states receives an equal
offsetting claim on the IMf in the form of an increase in the u.s. reserve position in the IMf, which is interest-bearing and can
be drawn at any time for balance of payments needs. When the IMf draws dollars from the letter of credit to finance its operations
and expenses, the drawing does not represent a net budget outlay on the part of the united states because there is a commensurate
increase in the u.s. reserve position. When the IMf repays dollars to the united states, no net budget receipt results because the
u.s. reserve position declines concurrently in an equal amount.

as of september 30, 2010, the u.s. quota in the IMf was 37,149 million sDrs, valued at approximately $58,327 million. (the quota
as of september 30, 2009, was 37,149 million sDrs, valued at approximately $66,569 million.) the quota consisted of the following
(in millions):
                                                                                                                                   2010                                 2009
 Letter of Credit /1                                                                                                      $      45,245                        $       53,056
 U.S. Dollars Held in Cash by the IMF /1                                                                                            144                                    44
 Reserve Position /2                                                                                                             12,938                                13,469
 U.S. Quota in the IMF                                                                                                    $      58,327                        $       66,569
 1/ This amount is included in entity appropriated funds under Note 2, Fund Balance with Treasury, and unexpended appropriations – Obligations/ Undelivered orders.

 2/ This amount is included in the Cumulative Results of Operations. 




the u.s. reserve position is denominated in sDr, as is the u.s. quota. consequently, fluctuations in the value of the dollar with
respect to the sDr results in valuation changes in dollar terms for the u.s. reserve position in the IMf as well as the IMf letter of
credit. the Department periodically adjusts these balances to maintain the sDr value of the u.s. quota and records the change as
a deferred gain or loss in its cumulative results of operations. these adjustments, known as maintenance of value adjustments, are
settled annually after the close of the IMf financial year on april 30. such adjustments do not involve a flow of funds. at april 30,
2010, the annual settlement with the IMf resulting from the appreciation of the dollar against the sDr since april 30, 2009, called




                                                                                                                                                                                part 3: annual financial report
for an upward adjustment of the u.s. quota by $349 million and a corresponding decrease to unexpended appropriations on the
statement of changes in net Position. at april 30, 2009, the appreciation of the dollar against the sDr since april 30, 2008, called
for a downward adjustment of the u.s. quota by $4,308 million and a corresponding increase to unexpended appropriations. the
dollar balances shown above for the u.s. quota includes accrued valuation adjustments. on september 30, 2010, the Department
recorded a net deferred valuation loss in the amount of $168 million for deferred maintenance of value adjustments needed at year
end ($498 million gain at september 30, 2009).




note 14. reserve position in the international monetary fund                                                                                                             223
                                  the department of the treasury




                                  the united states earns “remuneration” (interest) on its reserve position in the IMf except for the portion of the reserve position
                                  originally paid in gold. remuneration is paid quarterly and is calculated on the basis of the sDr interest rate. the sDr interest
                                  rate is a market-based interest rate determined on the basis of a weighted average of interest rates on short-term instruments in the
                                  markets of the currencies included in the sDr valuation basket. Payment of a portion of this remuneration is deferred as part of a
                                  mechanism for creditors and debtors to share the financial consequences of overdue obligations to the IMf, such as unpaid overdue
                                  interest, and to similarly share the burden of establishing any contingency accounts deemed necessary to reflect the possibility of
                                  non-repayment of relevant principal amounts. as overdue interest is paid, previously deferred remuneration corresponding to the
                                  creditors’ share of the burden of earlier nonpayment is included in the next payment of remuneration. the deferred remuneration
                                  corresponding to the creditors’ share of establishing the contingency accounts is usually paid when there are no longer any relevant
                                  overdue obligations or when the IMf executive board determines to pay the remuneration. there was no deduction in the
                                  remuneration paid by the IMf as a result of burden-sharing during fiscal years 2010 or 2009. for fiscal years 2010 and 2009, the
                                  Department received $23 million and $40 million as remuneration, respectively. (see note 6).

                                  In addition to quota subscriptions, the IMf maintains borrowing arrangements to supplement its resources in times of crisis when IMf
                                  liquidity is low. the united states currently participates in two such arrangements – the general arrangements to borrow (gab)
                                  and the new arrangements to borrow (nab). there were no u.s. loans outstanding under these arrangements in fiscal year 2010
                                  and fiscal year 2009. the dollar equivalent of sDr $6,712 million has been appropriated to finance u.s. participation in the gab
                                  and nab; as of september 30, 2010 and september 30, 2009, this amounted to $10,445 million and $10,634 million, respectively,
                                  in standing appropriations available for lending through the gab or nab, as needed. as is the case for the u.s. quota in the IMf,
                                  budgetary treatment of u.s. participation in the gab and nab does not result in net budgetary outlays, since transactions under the
                                  gab or nab result in concurrent adjustments to the u.s. reserve position in the IMf.

                                  refer to note 31 for a description of nab commitment related to IMf for a description of the new portion of quota shares and nab
                                  subject to fcra.
part 3: annual financial report




                                  224                                                note 14. reserve position in the international monetary fund
                                                            performance and accountability report | fiscal year 2010




15. tax, O ther , anD r elateD i nterest r eCeivables, net
tax, other, and related interest receivables include receivables from tax assessments, excise taxes, fees, penalties, and interest assessed
and accrued that were not paid or abated, reduced by an estimate for uncollectible amounts. In addition to amounts attributed to
taxes, interest income due on monies deposited in federal reserve banks is also included in this line item.

as of september 30, 2010 and september 30, 2009, tax, other, and related Interest receivables, and net, consisted of the following
(in millions):

 NON-ENTITY:
                                                                                                           2010                        2009

 IRS Federal Tax Receivable, Gross                                                                 $    138,111                  $ 128,115
 Less: Allowance on Taxes Receivable                                                                   (103,091)                   (99,027)
 Receivable, Deposit of Earnings, Federal Reserve Banks                                                    1,910                      1,254
 Other Receivables and Interest                                                                                25                         33
 Less: Allowance on Other and Related Interest Receivable                                                    (24)                       (15)
 Total Tax, and Other Non-Entity Receivables, Net                                                         36,931                     30,360


 ENTITY:
 Miscellaneous Entity Receivables and Related Interest                                                       45                          48
 Total Tax, Other, and Related Interest Receivables, Net                                           $     36,976                  $   30,408


Irs federal taxes receivable constitute the largest portion of the receivables. Irs federal taxes receivable consists of tax assessments,
penalties, and interest which were not paid or abated, and which were agreed to by either the taxpayer and Irs, or the courts. an
allowance for doubtful accounts is established for the difference between the gross receivables and the portion deemed collectible.
the portion of tax receivables estimated to be collectible and the allowance for doubtful accounts are based on projections of
collectability from a statistical sample of taxes receivable. the Department does not establish an allowance for the receivable on
deposits of federal reserve bank earnings.




                                                                                                                                               part 3: annual financial report




note 15. tax, other, and related interest receivables, net                                                                             225
                                  the department of the treasury




                                  16. i nventOry                      anD        r elateD p rOperty, net
                                  the Department’s operating materials and supplies are maintained for the production of bureau products. the Department maintains 

                                  inventory accounts or balances (e.g., paper, metals, etc.) for use in manufacturing currency and coin. the cost of these items is 

                                  included in inventory costs, and is recorded as cost of goods sold upon delivery to customers. Inventory for check processing activities 

                                  is also maintained. as of september 30, 2010 and september 30, 2009, inventory and related property consisted of the following (in 

                                  millions): 


                                                                                                                                             2010                      2009

                                   Operating materials and supplies held for use                                                         $     17                  $    17

                                   Operating materials and supplies held in reserve for future use                                             25                       24

                                   Forfeited property                                                                                          69                       62

                                   Inventory – raw materials                                                                                 299                       239

                                   Inventory – work in process                                                                               158                       128

                                   Inventory – finished goods                                                                                139                       142

                                   Allowance for inventories and related property                                                            (10)                      (14)

                                   Total Inventories and Related Property, Net                                                           $   697                   $   598

part 3: annual financial report




                                  226
                                                                       note 16. inventory and related property, net
                                                          performance and accountability report | fiscal year 2010




17. p rOperty, p lant, anD e quipment, net
as of september 30, 2010 and september 30, 2009, property, plant, and equipment consisted of the following (in millions):

                                                Depreciation          Service                          Accumulated                2010
                                                    Method                Life             Cost        Depreciation     Net Book value
 Buildings, structures, and facilities                  S/L        3 - 50 years       $      701         $     (336)        $      365
 Furniture, fixtures, and equipment                     S/L        2 - 20 years            3,100             (2,295)               805
 Construction in progress                               N/A                N/A                15                   0                15
 Land and land improvements                             N/A                N/A                13                   0                13
 Internal use software                                  S/L         2 -10 years            1,510             (1,003)               507
 Internal use software in development                   N/A                N/A               102                   0               102
 Assets under capital lease                             S/L        2 - 25 years                4                  (2)                2
 Leasehold improvements                                 S/L        2 - 25 years              541               (319)               222
 Total                                                                                $    5,986         $   (3,955)        $    2,031



                                                Depreciation          Service                          Accumulated                2009
                                                    Method                Life             Cost        Depreciation     Net Book value
 Buildings, structures, and facilities                  S/L        3 - 50 years       $      676         $     (308)        $      368
 Furniture, fixtures, and equipment                     S/L        2 - 20 years            3,048             (2,268)               780
 Construction in progress                               N/A                N/A                38                   0                38
 Land and land improvements                             N/A                N/A                12                   0                12
 Internal use software                                  S/L         2-10 years             1,352               (807)               545
 Internal use software in development                   N/A                N/A               112                    0              112
 Assets under capital lease                             S/L        2 - 25 years               25                 (23)                2
 Leasehold improvements                                 S/L        2 - 25 years              482               (303)               179
 Total                                                                                $    5,745         $   (3,709)        $    2,036


the service life ranges vary significantly due to the diverse nature of PP&e held by the Department.


Heritage Assets
the treasury complex (Main treasury building and annex) was declared a national historical landmark in 1972. the treasury
complex is treated as a multi-use heritage asset and is expected to be preserved indefinitely. the buildings housing the united states
Mint in Denver, san francisco, and West Point are also considered multi-use heritage assets. Multi-use heritage assets are recognized




                                                                                                                                         part 3: annual financial report
and presented with general property, plant and, equipment in the balance sheet.




note 17. property, plant, and equipment, net                                                                                      227
                                  the department of the treasury




                                  18. nOn -entity a ssets
                                  non-entity assets are those that are held by the Department but are not available for use by the Department. for example non-entity
                                  fund balance with treasury represents unused balances of appropriations received by various treasury’s entities to conduct custodial
                                  operations such as the payment of interest on the federal debt and refunds of taxes and fees. non-entity loans and interest receivable
                                  represents loans managed by the Department on behalf of the u.s. government. these loans are provided to federal agencies, and
                                  the Department is responsible for collecting these loans and transferring the proceeds to the general fund of the u.s. government.
                                  non-entity cash, foreign currency, and other monetary assets include the operating cash of the u.s. government, managed by the
                                  Department. It also includes foreign currency maintained by various u.s. and military disbursing offices, as well as seized monetary
                                  instruments. non-entity Investments in gses include the gses’ senior preferred stock and warrants held by the Department on
                                  behalf of the general fund. as the stock and warrants are liquidated all proceeds are returned to the general fund.

                                  as of september 30, 2010 and september 30, 2009, non-entity assets consisted of the following (in millions):
                                                                                                                                       2010                          2009
                                   Intra-governmental Assets:
                                       Fund Balance (Note 2)                                                                  $          542                $          513
                                       Loans and Interest Receivable (Note 3)                                                        493,389                       348,800
                                       Accounts Receivable and Related Interest (Note 5)                                                 350                           285
                                       Advances to the Unemployment Trust Fund (Note 1)                                               34,111                         7,981
                                       Due from the General Fund (Note 4)                                                         13,655,637                    11,992,719
                                   Total Non-Entity Intra-governmental Assets                                                     14,184,029                    12,350,298

                                   Cash, Foreign Currency, and Other Monetary Assets (Note 6)                                      304,244                       269,579
                                   Gold and Silver Reserves (Note 7)                                                                11,062                        11,062
                                   Loans and Interest Receivable (Note 13)                                                             124                           127
                                   Investments in GSEs (Note 9)                                                                    109,216                        64,679
                                   Tax, Other, and Related Interest Receivable, Net (Note 15)                                       36,931                        30,360
                                   Beneficial Interest in AIG Trust                                                                 20,805                        23,472
                                   Miscellaneous Assets                                                                                  5                             3
                                   Total Non-Entity Assets                                                                      14,666,416                    12,749,580
                                   Total Entity Assets                                                                             932,841                     1,097,021
                                   Total Assets                                                                               $ 15,599,257                  $ 13,846,601
part 3: annual financial report




                                  228                                                                                                 note 18. non-entity assets
                                                           performance and accountability report | fiscal year 2010




19. feDeral Debt                         anD i nterest          payable
the Department is responsible for administering the federal debt on behalf of the u.s. government. the federal debt includes
borrowings from the public as well as borrowings from federal agencies. the federal debt managed by the Department does not
include debt issued by other governmental agencies such as the tennessee Valley authority or the Department of housing and urban
Development.

the federal debt as of september 30, 2010 and september 30, 2009 was as follows (in millions):

 Intra-governmental                                                                                     2010                          2009
 Beginning Balance                                                                             $   4,319,892                 $   4,179,570
 New Borrowings/Repayments                                                                           181,136                       140,322
 Subtotal at Par value                                                                             4,501,028                     4,319,892
 Premium/(Discount)                                                                                   38,228                        33,779
 Interest Payable Covered by Budgetary Resources                                                      48,546                        49,409
 Total                                                                                         $   4,587,802                 $   4,403,080



 Owed to the Public                                                                                     2010                          2009
 Beginning Balance                                                                             $   7,551,862                 $   5,808,691
 New Borrowings/Repayments                                                                         1,470,946                     1,743,171
 Subtotal at Par value                                                                             9,022,808                     7,551,862
 Premium/(Discount)                                                                                  (33,870)                      (33,906)
 Interest Payable Covered by Budgetary Resources                                                       46,991                        41,349
 Total                                                                                         $   9,035,929                 $   7,559,305


Debt held by the public approximates the u.s. government’s competition with other sectors in the credit markets. In contrast, debt
held by federal entities, primarily trust funds, represents the cumulative annual surpluses of these funds (i.e., excess of receipts over
disbursements plus accrued interest) that have been used to finance general government operations.


Federal Debt held by Other Federal Agencies
certain federal agencies are allowed to invest excess funds in debt securities issued by the Department on behalf of the u.s.
government. the terms and the conditions of debt securities issued are designed to meet the cash needs of the u.s. government.
the vast majority is non-marketable securities issued at par value, but some are issued at market prices and interest rates that reflect




                                                                                                                                              part 3: annual financial report
market terms. the average interest rate for debt held by the federal entities, excluding tIPs, for fiscal year 2010 was 4.3 percent (4.6
percent in fiscal year 2009). the average interest rate on tIPs for fiscal year 2010 was 1.9 percent (2.0 percent in fiscal year 2009).
the average interest rate represents the original issue weighted effective yield on securities outstanding at year end.

the federal debt also includes intra-governmental marketable debt securities that certain agencies are permitted to buy and sell on
the open market. the debt, at par value (not including interest receivable), owed to federal agencies as of september 30, 2010 and
september 30, 2009 was as follows (in millions):
                                                                                                        2010                          2009
 Social Security Administration                                                                $   2,586,333                 $   2,504,248
 Office of Personnel Management                                                                      866,090                       828,952
 Department of Defense Agencies                                                                      433,203                       375,519
 Department of Health and Human Services                                                             355,554                       376,512
 All Other Federal Agencies - Consolidated                                                           259,848                       234,661
 Total Federal Debt Held by Other Federal Agencies                                             $   4,501,028                 $   4,319,892

the above balances do not include premium/discount and interest payable.


note 19. federal debt and interest payable                                                                                            229
                                  the department of the treasury




                                  Federal Debt Held by the Public
                                  as of september 30, 2010 and september 30, 2009, federal Debt held by the Public consisted of the following (in millions):

                                                                                                                                             Average
                                   (at par value)                                                                       Term           Interest Rates                      2010
                                   Marketable:
                                       Treasury Bills                                                          1 Year or Less                   0.2%              $   1,783,674
                                       Treasury Notes                                                  Over 1 Year – 10 Years                  2.6 %                  5,252,585
                                       Treasury Bonds                                                          Over 10 Years                    6.1%                    846,054
                                       Treasury Inflation-Protected Securities (TIPS)                        5 Years or More                    2.2%                    593,615
                                   Total Marketable                                                                                                                   8,475,928
                                   Non-Marketable                                                 On Demand to Over 10 Years                   2.8%                     546,880
                                   Total Federal Debt Held by the Public                                                                                          $   9,022,808



                                                                                                                                             Average
                                   (at par value)                                                                       Term           Interest Rates                      2009
                                   Marketable:
                                       Treasury Bills                                                          1 Year or Less                  0.3%               $   1,986,174
                                       Treasury Notes                                                            2 - 10 Years                  3.0%                   3,772,964
                                       Treasury Bonds                                                          Over 10 Years                   6.5%                     677,491
                                       Treasury Inflation-Protected Securities (TIPS)                        5 Years or More                   2.1%                     551,308
                                   Total Marketable                                                                                                                   6,987,937
                                   Non-Marketable                                                 On Demand to Over 10 Years                   3.7%                     563,925
                                   Total Federal Debt Held by the Public                                                                                          $   7,551,862


                                  the above balances do not include premium/discount and interest payable.

                                  the Department issues marketable bills at a discount or at par and pays the par amount of the security upon maturity. the average
                                  interest rate on treasury bills represents the original issue effective yield on securities outstanding at year-end. treasury bills are issued
                                  with a term of one year or less.

                                  the Department issues marketable notes and bonds as long-term securities that pay semi-annual interest based on the securities’
                                  stated interest rates. these securities are issued at either par value or at an amount that reflects a discount or a premium. the
                                  average interest rate on marketable notes and bonds represents the stated interest rate adjusted by any discount or premium on
part 3: annual financial report




                                  securities outstanding at year-end. treasury notes are issued with a term of 2 to 10 years and treasury bonds are issued with a term of
                                  more than 10 years. the Department also issues treasury Inflation-Protected securities (tIPs) that have interest and redemption
                                  payments, which are tied to the consumer Price Index for all urban consumers, a widely used measurement of inflation. tIPs are
                                  issued with a term of five years or more. at maturity, tIPs are redeemed at the inflation-adjusted principal amount, or the original
                                  par value, whichever is greater. tIPs pay a semi-annual fixed rate of interest applied to the inflation-adjusted principal. the average
                                  interest rate on tIPs represents the stated interest rate on principal plus inflation, adjusted by any discount or premium on securities
                                  outstanding as of september 30, 2010 and september 30, 2009. the tIPs federal Debt held by the Public inflation-adjusted
                                  principal balance includes inflation of $57,481 million and $57,552 million as of september 30, 2010 and 2009, respectively.




                                  230                                                                               note 19. federal debt and interest payable
                                                           performance and accountability report | fiscal year 2010




Debt held by the public primarily represents the amount the federal government has borrowed to finance cumulative cash deficits.
During fiscal year 2010, the Department implemented several important components as a debt management strategy, which affected
the mix of outstanding treasury securities. treasury bills decreased by $202,000 million; whereas, treasury notes and bonds increased
by $1,480,000 million and $169,000 million, respectively, in fiscal year 2010. as of september 30, 2010 and 2009, gross debt held
by the public totaled $9,023,000 million and $7,552,000 million, respectively an increase of $1,471,000 million. this increase was
primarily the result of borrowings needed to finance the government’s fiscal year 2010 deficit. however, as a result of most of the
increase in outstanding gross debt held by the public being in the form of longer term securities, the total dollar amount of activity for
both borrowings and repayments of debt held by the public decreased for fiscal year 2010.

federal Debt held by the Public includes federal debt held outside of the u. s. government by individuals, corporations, federal
reserve banks (frb), state and local governments, foreign governments, and central banks. as of september 30, 2010, the frb had
total holdings of $813,550 million, including a net of $1,880 million in treasury securities held by the frb as collateral for securities
lending activities. as of september 30, 2009, the frb had total holdings of $769,144 million, excluding a very small net amount in
treasury securities lent by the frb to dealers. these securities are held in the frb system open Market account (soMa) for the
purpose of conducting monetary policy.




                                                                                                                                             part 3: annual financial report




note 19. federal debt and interest payable                                                                                           231
                                  the department of the treasury




                                  20. O ther Debt                 anD i nterest            payable
                                  borrowings outstanding and related accrued interest are with the civil service retirement and Disability fund (csr&Df), which is
                                  administered by the office of Personnel Management (oPM). at september 30, 2010 and september 30, 2009, ffb had borrowings
                                  and related accrued interest of $10,358 millions and $12,060 million, respectively. these borrowings have stated interest rates
                                  ranging from 4.63 percent to 5.25 percent, an effective interest rate of 4.13 percent, and with maturity dates range from June 30,
                                  2011 to June 30, 2019.
part 3: annual financial report




                                  232                                                                          note 20. other debt and interest payable
                                                                  performance and accountability report | fiscal year 2010




21. D.C. p ensiOns                          anD juDiCial              r etirement aCtuarial liability
Pursuant to title XI of the balanced budget act of 1997, as amended (the act), on october 1, 1997, the Department became
responsible for certain District of columbia retirement plans. the act was intended to relieve the District of columbia government
of the burden of unfunded pension liabilities transferred to the District by the u.s. government in 1979. to fulfill its responsibility,
the Department manages two funds—the D.c. teachers’, Police officers’, and firefighters’ federal Pension fund (the D.c. federal
Pension fund) and the District of columbia Judicial retirement and survivors’ annuity fund (the Judicial retirement fund). the
Department is required to make annual amortized payments from the general fund of the u.s. government to the D.c. federal
Pension fund and the Judicial retirement fund. the D.c. federal Pension fund benefit payments and administrative expenses
are related to benefits earned based upon service on or before June 30, 1997. the actuarial cost method used to determine costs for
the retirement plans is the aggregate entry age normal actuarial cost Method. the actuarial liability is based upon long term
assumptions selected by the Department. the Department is also responsible for other smaller pension plans administered by the
office of thrift supervision and office of the comptroller of the currency. the pension benefit costs incurred by the plans are
included on the consolidated statements of net cost.

effective in fiscal year 2010 fasab issued sffas 33, Pensions, Other Retirement Benefits, and Other Postemployment Benefits:
Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount Rates and Valuation Dates, which requires disclosure
of the components of the expense associated with federal employee pension, orb, and oPeb liabilities in the notes to the financial
statement. sffas 33 also provides a standard for selecting the discount rate assumption for present value estimates of federal
employee pension, orb, and oPeb liabilities.

as of september 30, 2010, pension expense actuarial liabilities consisted of the following (in millions):


                                                 PENSION ExPENSE ACTUARIAL LIABILITIES - BY FUND
                                                           For the Year Ended September 30, 2010


                                                                              D.C. Federal                 Judicial
                                                                             Pension Fund          Retirement Fund              2010 Total
 Beginning Liability Balance                                             $          8,892          $           157          $       9,049
 Pension Expense:
 Normal Cost                                                                            0                        4                      4
 Interest on Pension Liability During the Year                                        391                        8                    399
 Actuarial (Gains) Losses During the Year:
      From Experience                                                                  (60)                     (2)                    (62)




                                                                                                                                              part 3: annual financial report
      From Discount Rate Assumption Change                                          1,845                       34                  1,879
      From Other Assumption Changes                                                  (991)                      (8)                  (999)
 Prior Service Costs                                                                     0                        0                      0
 Total Pension Expense                                                              1,185                       36                  1,221
 Less Amounts Paid                                                                   (519)                      (8)                  (527)
 Ending Liability Balance                                                $          9,558          $           185          $       9,743




note 21. pensions and other actuarial liability                                                                                      233
                                  the department of the treasury




                                  ADDITIONAL INFORMATION
                                                                                                        DC Federal                 Judicial
                                                                                                      Pension Fund         Retirement Fund         2010 Total
                                  Actuarial Liability                                             $           9,558       $            185     $       9,743
                                  Unobligated Budgetary Resources                                            (3,600)                  (127)           (3,727)
                                  Unfunded Liability                                              $            5,958      $              58    $        6,016

                                  Amount Received from the General Fund                           $             519       $              8     $         527

                                  Annual Rate of Investment Return assumption                         2.79% - 5.13%           2.79% - 5.13%

                                  Future Annual Rate of Inflation and Cost-of-Living Adjustment              2.56%                   2.78%

                                  Future Annual Rate of Salary Increases:
                                      Police Officers & Firefighters                                         4.20%                     N/A
                                      Teachers                                                               4.20%                     N/A
                                      Judicial                                                                 N/A                   2.11%



                                                                                                        DC Federal                 Judicial
                                                                                                      Pension Fund         Retirement Fund         2009 Total
                                  Actuarial Liability                                             $           8,893       $             156    $        9,049
                                  Unobligated Budgetary Resources                                            (3,558)                  (122)           (3,680)
                                  Unfunded Liability                                              $            5,335      $              34    $        5,369

                                  Amount Received from the General Fund                           $             400       $              7     $         407

                                  Annual Rate of Investment Return Assumption                            4.5% - 6.0%             5.2% - 6.0%

                                  Future Annual Rate of Inflation and Cost-of-Living Adjustment               3.5%                    3.5%

                                  Future Annual Rate of Salary Increases:
                                      Police Officers & Firefighters                                    3.5% - 6.5%                    N/A
                                      Teachers                                                          3.5% - 5.5%                    N/A
                                      Judicial                                                                  N/A                   3.5%
part 3: annual financial report




                                  234                                                                     note 21. pensions and other actuarial liability
                                                                     performance and accountability report | fiscal year 2010




22. liabilities
liabilities not covered by budgetary and other resources

as of september 30, 2010 and september 30, 2009, liabilities not covered by budgetary and other resources consisted of the following
(in millions):

                                                                                                                    2010                    2009
 Intra-governmental Liabilities Not Covered by Budgetary and Other Resources:
     Federal Debt Principal, Premium/Discount (Note 19)                                                   $     4,539,256          $    4,353,671
     Other Intra-governmental Liabilities                                                                             123                     105
 Total Intra-governmental Liabilities Not Covered by Budgetary and Other Resources                              4,539,379               4,353,776
 Federal Debt Principal, Premium/Discount (Note 19)                                                             8,988,938               7,517,956
 Gold and Silver Reserves held by the U.S. Mint                                                                    10,494                  10,494
 Pensions and Other Actuarial Liability (Note 21)                                                                   6,016                   5,369
 Liabilities to GSEs (Note 9)                                                                                     359,900                  91,937
 Other Liabilities                                                                                                  1,990                   1,057
 Total Liabilities Not Covered by Budgetary and Other Resources                                                13,906,717              11,980,589
 Total Liabilities Covered by Budgetary and Other Resources                                                     1,591,444               1,437,956
 Total Liabilities                                                                                        $    15,498,161          $   13,418,545




Other Liabilities
total “other liabilities” displayed on the balance sheets consists of both liabilities that are covered and not covered by budgetary
resources.

other liabilities at september 30, 2010 and september 30, 2009 consisted of the following (in millions):
                                                                                                                   2010
                                                                                                     Current         Non-Current            Total
 Intra-governmental
 Unfunded Federal Workers Compensation Program Liability (FECA)                                  $       46           $      57        $     103
 Accounts Payable                                                                                        59                   0               59
 Accrued Interest Payable                                                                                 0                   0                0
 Other Accrued Liabilities                                                                              203                   1              204
 Total Intra-governmental                                                                        $      308           $      58        $     366




                                                                                                                                                    part 3: annual financial report
 With the Public
 Actuarial Federal Workers Compensation Program Liability (FECA)                                 $         0          $     553        $     553
 Liability for Deposit Funds (Held by the Federal Government for Others) and Suspense Accounts           724                  0              724
 Accrued Funded Payroll and Benefits                                                                     533                  0              533
 Capital Lease Liabilities                                                                                 0                  0                0
 Accounts Payable and Other Accrued Liabilities                                                        2,607                 53            2,660
 Total with the Public                                                                           $     3,864          $     606        $   4,470




note 22. liabilities                                                                                                                        235
                                  the department of the treasury




                                                                                                                                                2009
                                                                                                                                      Current   Non-Current            Total
                                  Intra-governmental
                                  Unfunded Federal Workers Compensation Program Liability (FECA)                                  $       46      $     57         $    103
                                  Accounts Payable                                                                                        61             0               61
                                  Accrued Interest Payable                                                                                (3)            0               (3)
                                  Other Accrued Liabilities                                                                              263             1              264
                                  Total Intra-governmental                                                                               367            58              425

                                  With the Public
                                  Actuarial Federal Workers Compensation Program Liability (FECA)                                 $         0     $    533         $     533
                                  Liability for Deposit Funds (Held by the Federal Government for Others) and Suspense Accounts            71            0                71
                                  Accrued Funded Payroll and Benefits                                                                     488            0               488
                                  Capital Lease Liabilities                                                                                 1            0                 1
                                  Accounts Payable and Other Accrued Liabilities                                                        2,194           44             2,238
                                  Total with the Public                                                                           $     2,754     $    577         $   3,331
part 3: annual financial report




                                  236                                                                                                                  note 22. liabilities
                                                                     performance and accountability report | fiscal year 2010




23. net pOsitiOn
unexpended appropriations represents the amount of spending authorized as of year-end that is unliquidated or unobligated and
has not lapsed, been rescinded, or withdrawn. no-year appropriations remain available for obligation until expended. annual
appropriations remain available for upward or downward adjustment of obligations until expired.

cumulative results of operations represents the net results of operations since inception, and includes cumulative amounts related
to investments in capitalized assets and donations and transfers of assets in and out without reimbursement. also included as a
reduction in cumulative results of operations are accruals for which the related expenses require funding from future appropriations
and assessments. these future funding requirements include, among others (a) accumulated annual leave earned but not taken, (b)
accrued workers compensation, (c) credit reform cost reestimates, and (d) expenses for contingent liabilities.

the amount reported as “appropriations received” are appropriated from the treasury general fund of the u.s. government
receipts, such as income taxes, that are not earmarked by law for a specific purpose. this amount will not necessarily agree with the
“appropriation received” amount reported on the statement of budgetary resources (sbr) because of differences between proprietary
and budgetary accounting concepts and reporting requirements. for example, certain dedicated and earmarked receipts are recorded
as “appropriations received” on the sbr, but are recognized as exchange or non-exchange revenue (i.e., typically in special and non­
revolving trust funds) and reported on the statement of changes in net Position in accordance with statement of federal financial
accounting standards (sffas no. 7).


Transfers to the General Fund and Other
the amount reported as “transfers to the general fund and other” on the consolidated statements of changes in net Position
under “other financing sources” includes the following as of september 30, 2010 and september 30, 2009 (in millions):

 Categories of Transfers to the General Fund and Other:                                                             2010            2009
 Downward Reestimates of Credit Reform Subsidies                                                              $    35,906    $   125,359
 Increase in Liquidity Preference of GSEs Preferred Stock, GSEs PS Dividends and Valuation Changes (Note 9)        56,678         61,983
 Interest Revenue/Distribution of Income                                                                           35,993         30,124
 Other                                                                                                                368            238
 TOTAL                                                                                                        $   128,945    $   217,704


the credit reform downward reestimate subsidies are transferred to the general fund due to a change in forecasts of future cash flows
(see notes 8 and 12). also included in “transfers to the general fund and other” are the gses senior Preferred stock investments
and related dividends as well as the annual valuation adjustment to those investments (see note 9). In addition, these transfers also




                                                                                                                                            part 3: annual financial report
include distribution of interest revenue to the general fund of the u.s. government the interest revenue is accrued on inter­
agency loans held by the Department on behalf of the u.s. government. a corresponding balance is reported on the consolidated
statement of net cost under “federal costs: less Interest revenue from loans.” the amount reported on the consolidated
statement of net cost is reduced by eliminations with treasury bureaus.

the Department also includes seigniorage in “transfers to the general fund and other.” seigniorage is the face value of newly
minted circulating coins less the cost of production. the united states Mint is required to distribute the seigniorage that it recognizes
to the general fund of the u.s. government. the distribution is also included in “transfers to the general fund and other.” In
any given year, the amount recognized as seigniorage may differ for the amount distributed to the general fund by an insignificant
amount due to timing differences.




note 23. net position                                                                                                               237
                                  the department of the treasury




                                  24. COnsOliDateD statement Of net COst anD net COsts Of treasury
                                      sub -OrganizatiOns
                                  the Department’s consolidated statement of net cost displays information on a consolidated basis. the complexity of the
                                  Department’s organizational structure and operations requires that supporting schedules for net cost be included in the notes to
                                  the financial statements. these supporting schedules provide consolidating information, which fully displays the costs of each
                                  sub-organization (Departmental offices and each operating bureau). In addition, a separate supporting schedule for fiscal year 2010
                                  provides net cost information for the significant programs within the Departmental offices.


                                  Reporting Entity
                                  the classification of sub-organizations has been determined in accordance with sffas no. 4, “Managerial Cost Accounting Concepts
                                  and Standards for the Federal Government” which states that the predominant factor is the reporting entity’s organization structure and
                                  existing responsibility components, such as bureaus, administrations, offices, and divisions within a department.

                                  each sub-organization is responsible for accumulating costs. the assignment of the costs to treasury-wide programs is the result of
                                  using the following cost assignment methods: (1) direct costs, (2) cause and effect, and (3) cost allocation.


                                  Intra-departmental costs/revenues
                                  Intra-Departmental costs/revenues resulting from the provision of goods and/or services on a reimbursable basis among Departmental
                                  sub-organizations are reported as costs by providing sub-organizations, and as revenues by receiving sub-organizations. accordingly,
                                  such costs/revenues are eliminated in the consolidation process.


                                  Intra-governmental cost
                                  Intra-governmental cost relates to the source of goods and services purchased by the Department and not to the classification of the
                                  related intra-governmental revenue.

                                  In certain cases, other federal agencies incur costs that are directly identifiable to the Department’s operations. In accordance
                                  with sffas no. 30, Inter-Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts,
                                  the Department recognizes identified cost paid for the Department by other agencies as expense of the Department. the material
                                  Imputed Inter-departmental financing sources currently recognized by the Department include the actual cost of future benefits for
                                  the federal pension plans that are paid by other federal entities, the federal employees health benefits Program (fehb), and any
part 3: annual financial report




                                  un-reimbursed payments made from the treasury Judgment fund on behalf of the Department. the funding for these costs is reflected
                                  as imputed financing sources on the statement of changes in net Position. cost paid by other agencies on behalf of the Department
                                  were $1,008 million and $793 million for the years ended september 30, 2010 and september 30, 2009, respectively.




                                  238          note 24. consolidated statement of net cost and net costs of treasury sub-organizations
                                                                   performance and accountability report | fiscal year 2010




Statement of Net Cost
oMb circular no. a-136, Financial Reporting Requirements, as amended, requires that the presentation of the statements of net cost
align directly with the goals and outcomes identified in the strategic Plan. accordingly, the Department has presented the gross costs
and earned revenues by the applicable strategic goals in its fiscal years 2008 - 2013 strategic Plan. the majority of treasury bureaus’
and reporting entities’ net cost information falls within one strategic goal in the statement of net cost. ttb and Do allocate costs
to multiple programs using a net cost percentage calculation.

to the extent practical or reasonable to do so, earned revenue is deducted from the gross costs of the programs to determine their net
cost. there are no precise guidelines to determine the degree to which earned revenue can reasonably be attributed to programs. the
attribution of earned revenues requires the exercise of managerial judgment.

fasab issued sffas 33, Pensions, Other Retirement Benefits, and Other Postemployment Benefits: Reporting the Gains and Losses from
Changes in Assumptions and Selecting Discount Rates and Valuation Dates, which requires gains and losses from changes in long-term
assumptions used to estimate federal employee pensions, orb and oPeb liabilities to be displayed on the statement of net cost
separately from other costs.

the Department’s snc also presents interest expense on the federal Debt and other federal costs incurred as a result of assets and
liabilities managed on behalf of the u.s. government. these costs are not reflected as program costs related to the Department’s
strategic plan missions. such costs are eliminated in the consolidation process to the extent that they involve transactions with
treasury sub-organizations.

other federal costs for the years ended september 30, 2010 and september 30, 2009 consisted of the following (in millions):

                                                                                                          2010                    2009
 Credit Reform Interest on Uninvested Funds (Intra-governmental)                                   $     8,192             $     6,534
 Resolution Funding Corporation                                                                          2,276                   2,120
 Judgment Claims and Contract Disputes                                                                   1,119                   2,305
 Corporation for Public Broadcasting                                                                       506                     461
 Legal Services Corporation                                                                                418                     388
 All Other Payments                                                                                        242                     323
 Total                                                                                             $    12,753             $    12,131




                                                                                                                                          part 3: annual financial report




note 24. consolidated statement of net cost and net costs of treasury sub-organizations                                           239
                                  the department of the treasury




                                  24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations (in millions):

                                   FOR YEAR ENDED SEPTEMBER 30, 2010                                                                          Fin.
                                                                                       Bureau of     Bureau of                             Crimes    Financial    Internal
                                                                                       Engraving     the Public      Departmental     Enforcement Management     Revenue
                                   Program Costs:                                      & Printing         Debt           Offices*         Network     Service     Service     U.S. Mint
                                   FINANCIAL PROGRAM:
                                   Intra-governmental Gross Costs                      $       0      $       120      $     1,712      $      0     $    189    $    4,577   $        0
                                   Less: Earned Revenue                                        0              (21)          (2,234)            0         (168)         (68)            0
                                   Intra-governmental Net Costs                                0               99             (522)            0           21         4,509            0
                                   Gross Costs with the public                                 0              221              459             0         1,185        9,323            0
                                   Less: Earned Revenue                                        0               (6)              (1)            0            0         (386)            0
                                   Net Costs with the public                                   0              215              458             0         1,185        8,937            0
                                       Net Cost: Financial Program                             0              314             (64)             0         1,206       13,446            0
                                   ECONOMIC PROGRAM:
                                   Intra-governmental Gross Costs                             90                0           12,727             0            0            0            75
                                   Less: Earned Revenue                                       (4)               0           (2,260)            0            0            0           (11)
                                   Intra-governmental Net Costs                               86                0           10,467             0            0            0            64
                                   Gross Costs with the public                               515                0          308,859             0            0            0         3,451
                                   Less: Earned Revenue                                     (627)               0          (11,698)            0            0            0        (3,566)
                                   Net Costs with the public                                (112)               0          297,161             0            0            0         (115)
                                       Net Cost: Economic Program                            (26)               0          307,628             0            0            0          (51)
                                   SECURITY PROGRAM:
                                   Intra-governmental Gross Costs                              0                0              141            71             0           0             0
                                   Less: Earned Revenue                                        0                0              (19)           (3)            0           0             0
                                   Intra-governmental Net Costs                                0                0              122            68             0           0             0
                                   Gross Costs with the public                                 0                0              156            57             0           0             0
                                   Less: Earned Revenue                                        0                0                0             0             0           0             0
                                   Net Costs with the public                                   0                0              156            57             0           0             0
                                       Net Cost: Security Program                              0                0              278           125             0           0             0
                                   MANAGEMENT PROGRAM:
                                   Intra-governmental Gross Costs                              0               65              160             0             0           0             0
                                   Less: Earned Revenue                                        0          (180)               (206)            0             0           0             0
                                   Intra-governmental Net Costs                                0          (115)                (46)            0             0           0             0
                                   Gross Costs with the public                                 0              102              337             0             0           0             0
part 3: annual financial report




                                   Less: Earned Revenue                                        0                0                0             0             0           0             0
                                   Net Costs with the public                                   0              102              337             0             0           0             0
                                        Net Cost: Management Program                           0              (13)             291             0             0           0             0
                                   Total Program Cost Before Assumption Changes              (26)             301          308,133           125         1,206       13,446         (51)
                                   (Gains)/Losses on Pension, ORB, or OPEB
                                   Assumption Changes                                          0                0              818             0             0           0             0
                                   Net Cost of Operations                              $     (26)     $       301      $ 308,951        $    125     $   1,206   $ 13,446     $     (51)
                                  * Additional information by DO components are provided on subsequent page




                                  240            note 24. consolidated statement of net cost and net costs of treasury sub-organizations
                                                             performance and accountability report | fiscal year 2010




24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations (in millions):

FOR YEAR ENDED SEPTEMBER 30, 2010                                                    Alcohol,
                                                 Office of the      Office of        Tobacco                   Eliminations
                                               Comptroller of      the Thrift         Tax and   Combined                  &      9/30/2010
Program Costs:                                  the Currency     Supervision    Trade Bureau        Total      Adjustments    Consolidated
FINANCIAL PROGRAM:
Intra-governmental Gross Costs                     $        0      $       0       $      15    $     6,613    $    (1,985)    $     4,628
Less: Earned Revenue                                        0              0               0         (2,491)           276          (2,215)
Intra-governmental Net Costs                                0              0              15          4,122         (1,709)          2,413
Gross Costs with the public                                 0              0              38         11,226              0          11,226
Less: Earned Revenue                                        0              0              (3)          (396)             0            (396)
Net Costs with the public                                   0              0              35         10,830              0          10,830
    Net Cost: Financial Program                             0              0              50         14,952         (1,709)         13,243
ECONOMIC PROGRAM:
Intra-governmental Gross Costs                            111             39              15         13,057        (12,661)            396
Less: Earned Revenue                                      (21)           (10)              0         (2,306)         2,279             (27)
Intra-governmental Net Costs                               90             29              15         10,751        (10,382)            369
Gross Costs with the public                               676            202              39        313,742              0         313,742
Less: Earned Revenue                                    (766)           (220)              0        (16,877)             0         (16,877)
Net Costs with the public                                 (90)           (18)             39        296,865              0         296,865
    Net Cost: Economic Program                              0             11              54        307,616        (10,382)        297,234
SECURITY PROGRAM:
Intra-governmental Gross Costs                              0              0               0            212            (81)            131
Less: Earned Revenue                                        0              0               0            (22)            18              (4)
Intra-governmental Net Costs                                0              0               0            190            (63)            127
Gross Costs with the public                                 0              0               0            213              0             213
Less: Earned Revenue                                        0              0               0              0              0               0
Net Costs with the public                                   0              0               0            213              0             213
    Net Cost: Security Program                              0              0               0            403            (63)            340
MANAGEMENT PROGRAM:
Intra-governmental Gross Costs                              0              0               0            225            (82)            143
Less: Earned Revenue                                        0              0               0           (386)           330             (56)
Intra-governmental Net Costs                                0              0               0           (161)           248              87
Gross Costs with the public                                 0              0               0            439              0             439
Less: Earned Revenue                                        0              0               0              0              0               0




                                                                                                                                              part 3: annual financial report
Net Costs with the public                                   0              0               0            439              0             439
    Net Cost: Management Program                            0              0               0            278            248             526
Total Program Cost Before Assumption Changes                0             11             104        323,249        (11,906)        311,343
(Gains)/Losses on Pension, ORB, or OPEB
Assumption Changes                                          2              0               0            820              0             820
Net Cost of Operations                             $        2      $      11       $     104    $ 324,069      $   (11,906)    $   312,163




note 24. consolidated statement of net cost and net costs of treasury sub-organizations                                               241
                                  the department of the treasury




                                  24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations (in millions):

                                  FOR YEAR ENDED SEPTEMBER 30, 2009                                                                 Fin.
                                                                                 Bureau of    Bureau of                          Crimes    Financial    Internal
                                                                                 Engraving    the Public   Departmental     Enforcement Management     Revenue
                                  Program Costs:                                 & Printing        Debt          Offices        Network     Service     Service     U.S. Mint
                                  FINANCIAL PROGRAM:
                                  Intra-governmental Gross Costs                 $       0    $     111      $     1,440      $      0     $    184    $    4,145   $        0
                                  Less: Earned Revenue                                   0          (22)          (1,948)            0         (167)         (55)            0
                                  Intra-governmental Net Costs                           0           89             (508)            0           17         4,090            0
                                  Gross Costs with the public                            0          221              829             0         1,153        8,725            0
                                  Less: Earned Revenue                                   0           (8)              (1)            0            0         (313)            0
                                  Net Costs with the public                              0          213              828             0         1,153        8,412            0
                                      Net Cost: Financial Program                        0          302              320             0         1,170       12,502            0
                                  ECONOMIC PROGRAM:
                                  Intra-governmental Gross Costs                        83            0           12,151             0            0            0            73
                                  Less: Earned Revenue                                  (3)           0           (6,146)            0            0            0           (10)
                                  Intra-governmental Net Costs                          80            0            6,005             0            0            0            63
                                  Gross Costs with the public                          392            0          206,456             0            0            0         2,380
                                  Less: Earned Revenue                                (481)           0          (10,824)            0            0            0        (2,456)
                                  Net Costs with the public                            (89)           0          195,632             0            0            0           (76)
                                      Net Cost: Economic Program                        (9)           0          201,637             0             0           0          (13)
                                  SECURITY PROGRAM:
                                  Intra-governmental Gross Costs                         0            0              121            68             0           0             0
                                  Less: Earned Revenue                                   0            0              (16)           (1)            0           0             0
                                  Intra-governmental Net Costs                           0            0              105            67             0           0             0
                                  Gross Costs with the public                            0            0              147            55             0           0             0
                                  Less: Earned Revenue                                   0            0                0             0             0           0             0
                                  Net Costs with the public                              0            0              147            55             0           0             0
                                        Net Cost: Security Program                       0            0              252           122             0           0             0
                                  MANAGEMENT PROGRAM:
                                  Intra-governmental Gross Costs                         0           56              145             0             0           0             0
                                  Less: Earned Revenue                                   0         (159)            (222)            0             0           0             0
                                  Intra-governmental Net Costs                           0         (103)             (77)            0             0           0             0
                                  Gross Costs with the public                            0          104              329             0             0           0             0
part 3: annual financial report




                                  Less: Earned Revenue                                   0            0                0             0             0           0             0
                                  Net Costs with the public                              0          104              329             0             0           0             0
                                        Net Cost: Management Program                     0            1              252             0             0           0             0
                                  Total Program Cost Before Assumption Changes          (9)         303          202,461           122         1,170       12,502          (13)
                                  (Gains)/Losses on Pension, ORB, or OPEB
                                  Assumption Changes                                     0            0                0             0             0           0             0
                                  Net Cost of Operations                         $      (9)   $     303      $ 202,461        $    122     $   1,170   $ 12,502     $     (13)




                                  242            note 24. consolidated statement of net cost and net costs of treasury sub-organizations
                                                            performance and accountability report | fiscal year 2010




24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations (in millions):

FOR YEAR ENDED SEPTEMBER 30, 2009                                                    Alcohol,
                                                 Office of the      Office of        Tobacco                   Eliminations
                                               Comptroller of      the Thrift         Tax and   Combined                  &       9/30/2009
Program Costs:                                  the Currency     Supervision    Trade Bureau        Total      Adjustments     Consolidated
FINANCIAL PROGRAM:
Intra-governmental Gross Costs                     $        0      $       0       $      14    $     5,894     $    (1,548)    $     4,346
Less: Earned Revenue                                        0              0               0         (2,192)            258          (1,934)
Intra-governmental Net Costs                                0              0              14          3,702          (1,290)          2,412
Gross Costs with the public                                 0              0              39         10,967               0          10,967
Less: Earned Revenue                                        0              0              (2)          (324)              0            (324)
Net Costs with the public                                   0              0              37         10,643               0          10,643
    Net Cost: Financial Program                             0              0              51         14,345         (1,290)          13,055
ECONOMIC PROGRAM:
Intra-governmental Gross Costs                            100             37              13         12,457         (12,066)            391
Less: Earned Revenue                                      (22)           (11)              0         (6,192)          6,166             (26)
Intra-governmental Net Costs                               78             26              13          6,265          (5,900)            365
Gross Costs with the public                               632            202              37        210,099               0         210,099
Less: Earned Revenue                                    (752)           (245)             (0)       (14,758)             (1)        (14,759)
Net Costs with the public                               (120)            (43)             37        195,341              (1)        195,340
    Net Cost: Economic Program                           (42)            (17)             50        201,606         (5,901)         195,705
SECURITY PROGRAM:
Intra-governmental Gross Costs                              0              0               0            189             (66)            123
Less: Earned Revenue                                        0              0               0            (17)             14              (3)
Intra-governmental Net Costs                                0              0               0            172             (52)            120
Gross Costs with the public                                 0              0               0            202               0             202
Less: Earned Revenue                                        0              0               0              0               0               0
Net Costs with the public                                   0              0               0            202               0             202
    Net Cost: Security Program                              0              0               0            374            (52)             322
MANAGEMENT PROGRAM:
Intra-governmental Gross Costs                              0              0               0            201             (65)            136
Less: Earned Revenue                                        0              0               0           (381)            321             (60)
Intra-governmental Net Costs                                0              0               0           (180)            256              76
Gross Costs with the public                                 0              0               0            433               0             433




                                                                                                                                               part 3: annual financial report
Less: Earned Revenue                                        0              0               0              0               0               0
Net Costs with the public                                   0              0               0            433               0             433
    Net Cost: Management Program                            0              0               0            253             256             509
Total Program Cost Before Assumption Changes              (42)           (17)            101        216,578          (6,987)        209,591
(Gains)/Losses on Pension, ORB, or OPEB
Assumption Changes                                          0              0               0              0               0               0
Net Cost of Operations                             $     (42)      $     (17)      $     101    $ 216,578       $   (6,987)     $   209,591




note 24. consolidated statement of net cost and net costs of treasury sub-organizations                                                243
                                   the department of the treasury




                                  24. Consolidated Statement of Net Cost and Net Costs of Departmental Offices Accounts (in millions):

                                  FOR YEAR ENDED SEPTEMBER 30, 2010                Exchange       Government          Office of       Office of                              DO
                                                                                 Stabilization     Sponsored      International       Financial                        Combined
                                  Program Costs:                                         Fund      Enterprises          Affairs        Stability   All Others              Total
                                  FINANCIAL PROGRAM:
                                  Intra-governmental Gross Costs                  $          -     $         -     $          -   $            -   $    1,712      $       1,712
                                  Less: Earned Revenue                                       0               0                                         (2,234)           (2,234)
                                  Intra-governmental Net Costs                               0               0               0                0          (522)              (522)
                                  Gross Costs with the public                                0               0                                             459                459
                                  Less: Earned Revenue                                       0               0                                               (1)               (1)
                                  Net Costs with the public                                  0               0               0                0            458                458
                                       Net Cost: Financial Program                           0               0               0                0           (64)               (64)
                                  ECONOMIC PROGRAM:                                                                                                           0
                                  Intra-governmental Gross Costs                              0           6,666             47             5,957            57            12,727
                                  Less: Earned Revenue                                     (19)         (1,035)                          (1,173)           (33)           (2,260)
                                  Intra-governmental Net Costs                             (19)           5,631             47             4,784            24            10,467
                                  Gross Costs with the public                            1,476         321,679           2,348         (23,176)          6,532          308,859
                                  Less: Earned Revenue                                 (1,373)          (5,631)                          (4,691)            (3)         (11,698)
                                  Net Costs with the public                                103         316,048           2,348         (27,867)          6,529          297,161
                                       Net Cost: Economic Program                           84         321,679           2,395         (23,083)         6,553           307,628
                                  SECURITY PROGRAM:
                                  Intra-governmental Gross Costs                             0               0               0                0            141               141
                                  Less: Earned Revenue                                       0               0               0                0            (19)              (19)
                                  Intra-governmental Net Costs                               0               0               0                0            122               122
                                  Gross Costs with the public                                0               0               0                0            156               156
                                  Less: Earned Revenue                                       0               0               0                0              0                 0
                                  Net Costs with the public                                  0               0               0                0            156               156
                                       Net Cost: Security Program                            0               0               0                0            278               278
                                  MANAGEMENT PROGRAM:
                                  Intra-governmental Gross Costs                             0               0               0                0           160                160
                                  Less: Earned Revenue                                       0               0               0                0          (206)             (206)
                                  Intra-governmental Net Costs                               0               0               0                0           (46)               (46)
                                  Gross Costs with the public                                0               0               0                0           337                337
                                  Less: Earned Revenue                                       0               0               0                0              0                  0
                                  Net Costs with the public                                  0               0               0                0           337                337
part 3: annual financial report




                                       Net Cost: Management Program                          0               0               0                0           291               291
                                  Total Program Cost Before Assumption Changes              84         321,679           2,395         (23,083)         7,058           308,133
                                  (Gains)/Losses on Pension, ORB, or OPEB
                                  Assumption                                                 0             0                 0             0              818               818
                                  Net Cost of Operations                          $         84     $ 321,679       $     2,395    $ (23,083)       $    7,876      $    308,951




                                   244             note 24. consolidated statement of net cost and net costs of treasury sub-organizations
                                                         performance and accountability report | fiscal year 2010




25.	 a DDitiOnal i nfOrmatiOn r elateD tO                                      the     COmbineD statements
     Of buDgetary r esOurCes

federal agencies are required to disclose additional information related to the combined statements of budgetary resources (per
oMb circular no. a-136). In accordance with sffas no. 7, the Department must report the value of goods and services ordered
and obligated which have not been received. this amount includes any orders for which advance payment has been made but for
which delivery or performance has not yet occurred. the information for the fiscal years ended september 30, 2010 and september
30, 2009 is as follows (in millions):


Undelivered Orders
                                                                                                    2010	                         2009
 Undelivered orders:
    Paid                                                                                    $        126                  $        171
    Unpaid                                                                                       169,305                       185,641
 Undelivered orders at the end of the year                                                  $    169,431                  $    185,812

 Contributed Capital	                                                                       $         20                  $         40




Apportionment Categories of Obligations Incurred
apportionment categories are determined in accordance with the guidance provided in oMb circular no. a-11, Preparation,
submission and execution of the budget. category a represents resources apportioned for calendar quarters. category b represents
resources apportioned for other time periods; for activities, projects, or objectives; or for any combination thereof (in millions).

 Direct vs. Reimbursable Obligations Incurred:	                                                     2010                          2009
     Direct - Category A                                                                    $      2,849                  $      14,715
     Direct - Category B                                                                         330,068                        977,506
     Direct - Exempt from Apportionment                                                          481,785                        390,305
 Total Direct                                                                                    814,702                      1,382,526

     Reimbursable - Category A                                                                        11                              1
     Reimbursable - Category B                                                                     4,883                          3,386
     Reimbursable - Exempt from Apportionment                                                      1,242                          1,282




                                                                                                                                          part 3: annual financial report
 Total Reimbursable                                                                                6,136                          4,669
 Total Direct and Reimbursable Obligations Incurred                                         $    820,838                  $   1,387,195




note 25. additional information related to the combined statements of budgetary resources                                         245
                                  the department of the treasury




                                  Terms of Borrowing Authority Used
                                  several Department’s programs have authority to borrow under the Federal Credit Reform Act of 1990 (fcra), as amended. the
                                  ffb and IaP also have borrowing authority. the fcra provides indefinite borrowing authority to financing accounts to fund
                                  the unsubsidized portion of direct loans and to satisfy obligations in the event the financing account’s resources are insufficient.
                                  repayment requirements are defined by oMb circular a-11. Interest expense due is calculated based on the beginning balance of
                                  borrowings outstanding and the borrowings/repayments activity that occurred during the fiscal year. undisbursed treasury borrowings
                                  earn interest at the same rate as the financing account pays on its debt owed to bPD. In the event that principal and interest
                                  collections exceed the interest expense due, the excess will be repaid to the Department. If principal and interest do not exceed
                                  interest expense due, the Department will borrow the difference. the Department makes periodic principal repayments based on
                                  the analysis of cash balances and future disbursement needs. all interest on borrowings were due the last day of the fiscal year, on
                                  september 30, 2010. Interest rates on fcra borrowings range from 0.08 percent to 9.38 percent.


                                  Available Borrowing, End of Year:
                                                                                                                                     2010                         2009
                                   Beginning Balance                                                                         $      51,510                $      29,810
                                   Current Authority                                                                               151,473                      548,734
                                   Decreases                                                                                       (19,274)                   (107,475)
                                   Borrowing Authority Withdrawn                                                                   (37,982)                           0
                                   Borrowing Authority Converted to Cash                                                         (122,250)                    (419,559)
                                   Ending Balance                                                                            $       23,477               $      51,510




                                  Reconciliation of the President’s Budget
                                  the Budget of the United States (also known as the President’s budget), with actual numbers for fiscal year 2010, was not published
                                  at the time that these financial statements were issued. the President’s budget is expected to be published in february 2011, and
                                  can be located at the oMb website http://www.whitehouse.gov/omb. It will be available from the u.s. government Printing office.
                                  the following chart displays the differences between the combined statement of budgetary resources (sbr) in the fiscal year 2009
                                  Agency Financial Report and the actual fiscal year 2009 balances included in the fiscal year 2011 President’s budget (Pb).
part 3: annual financial report




                                  246      note 25. additional information related to the combined statements of budgetary resources
                                                                            performance and accountability report | fiscal year 2010




                      RECONCILIATION OF FISCAL YEAR 2009 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                  TO ThE FISCAL YEAR 2011 PRESIDENT’S BUDGET (IN MILLIONS)

                                                                                                          Outlays (net
                                                                                          Budgetary       of offsetting          Offsetting                            Obligations
                                                                                          Resources       collections)            Receipts       Net Outlays             Incurred
Statement of Budgetary Resources Amounts                                              $ 1,835,034        $     966,779       $     (44,614)     $    922,165       $    1,387,195

Included in the Treasury Department Chapter of the President’s Budget
(PB) but not in the Statement of Budgetary Resources (SBR):
IRS non-entity tax credit payments (1)                                                       82,378             82,378                  (5)           82,373               82,378
Tax and Trade Bureau (TTB) non-entity collections for Puerto Rico                               473                473                    0              473                  473
Non-Treasury offsetting receipts included in Treasury chapter of PB                               0                  0                 (40)              (40)                   0
Treasury offsetting receipts considered to be “General Fund” transactions
   for reporting purposes (2)                                                                     0                  0                 128               128                    0
Continued dumping subsidy – CBP                                                                 217                226                   0               226                  226
SIG for TARP Appropriations not recorded                                                         35                  0                   0                 0                    0
Other                                                                                            21                  0                   3                 3                    1
Subtotal                                                                                     83,124             83,077                  86            83,163               83,078

Included in the SBR but not in the Treasury Department chapter of the PB:
Treasury resources shown in non-Treasury chapters of the PB, included in
   SBR (3)                                                                     (38,760)                         (3,281)                  0            (3,281)              (4,423)
Offsetting collections net of collections shown in PB                            (8,013)                             0                  59                 59                   (1)
Treasury offsetting receipts shown in other chapters of PB, part of which is
   in SBR                                                                               0                             0                531                531                    0
Unobligated balance carried forward, recoveries of prior year funds and
   expired accounts                                                          (201,406)                              0                    0                  0                  (73)
Exchange Stabilization Fund resources not shown in PB (4)                      (34,317)                             0                    0                  0                  (64)
Treasury Financing Accounts (CDFI, OFS and GSEs)                             (694,656)                       (300,862)                   0          (300,862)            (652,828)
Enacted reduction, 50% Transfer Accounts, and Capital Transfers to
   General Fund not included in PB                                                   (17)                            0                   0                  0                    0
Other                                                                                  (5)                           0                   0                  0                    0
Subtotal                                                                     (977,174)                       (304,143)                 590          (303,553)            (657,389)
Trust Fund – Comptroller of the Currency (OCC) (5)                                   (71)                           71                   0                 71                    0

President’s Budget Amounts*                                                           $     940,913      $     745,784       $    (43,938)      $    701,846       $      812,884




                                                                                                                                                                                      part 3: annual financial report
1. 	These are primarily Earned Income Tax Credit and Child Tax Credit payments that are reported with refunds as custodial activities in the Department’s financial statements
    and thus are not reported as budgetary resources.
2. 	These are receipt accounts that the Department manages on behalf of other agencies and considers to be “General Fund” receipts rather than receipts of the Department
    reporting entity.
3. The largest of these resources relate to the Department’s International Assistance Programs.
4. 	Exchange Stabilization Fund (ESF) is a self-sustaining component that finances its operations with the buying and selling of foreign currencies to regulate the fluctuations of
    the dollar. Because of the nature of the activities of the component, it does not receive appropriations, and therefore is excluded from the PB.
5. The OCC negative outlay also appears in the offsetting receipts section of the Analytical Perspectives, and hence shown as a reconciling item.
 * 	Per the President’s Budget for fiscal year 2011 – Budgetary Resources and Outlays are from the Analytical Perspective.
   Offsetting Receipts and Obligations Incurred are from the Appendix.




note 25. additional information related to the combined statements of budgetary resources                                                                                     247
                                  the department of the treasury




                                  Legal Arrangements Affecting Use of Unobligated Balances
                                  the use of unobligated balances is restricted based on annual legislation requirements or enabling authorities. funds are presumed to
                                  be available for only one fiscal year unless otherwise noted in the annual appropriation language. unobligated balances in unexpired
                                  fund symbols are available in the next fiscal year for new obligations unless some restrictions had been placed on those funds by law.
                                  In those situations, the restricted funding will be temporarily unavailable until such time as the reasons for the restriction have been
                                  satisfied or legislation has been enacted to remove the restriction.

                                  amounts in expired fund symbols are not available for new obligations, but may be used to adjust obligations and make disbursements
                                  that were recorded before the budgetary authority expired or to meet a bona fide need that arose in the fiscal year for which the
                                  appropriation was made.


                                  Change in Accounting Policy Effect on Unobligated and Unpaid Obligations
                                  beginning in fiscal year 2010, the Department changed its budgetary accounting policy for the accounting and reporting of esf
                                  investment balance changes. the change in accounting policy allows the Department to present the revaluations of esf investments
                                  as well as other esf assets not readily convertible to cash as a budgetary resource that is permanently not available without affecting
                                  outlays (see note1 aD for change in accounting Policy).

                                  In order to facilitate this change in accounting, an adjustment for $14,135 million to the sbr line, Unobligated balances, brought
                                  forward, October 1, 2009 was required. this adjustment primarily included additions of prior year accumulated fcDa investment
                                  balances now permitted by office of Management and budget to be reported on the sbr through the use of the new ussgl. these
                                  budgetary adjustments have no impact on esf proprietary account balances in fiscal year 2010 or previous years.

                                  In order to maintain appropriate budgetary relationships on the sbr between budgetary resources, status of budgetary resources,
                                  and relationship of obligations to outlays, an adjustment corresponding to the fcDa investment balance of net $14,135 million
                                  was made to Obligations Incurred, Unpaid Obligations Brought Forward, and Obligations Incurred, net.
part 3: annual financial report




                                  248     note 25. additional information related to the combined statements of budgetary resources
                                                                    performance and accountability report | fiscal year 2010




26. COlleCtiOn                       anD        DispOsitiOn              Of     C ustODial r evenue
the Department collects the majority of federal revenue from income and excise taxes. collection activity, by revenue type and tax
year, was as follows for the years ended september 30, 2010 and september 30, 2009 (in millions):

                                                                                               Tax Year
                                                                                                                                           2010
                                                                        2010           2009                 2008        Pre-2008    Collections
 Individual Income and FICA Taxes                               $   1,315,876    $   635,920         $     20,182   $     16,782   $ 1,988,760
 Corporate Income Taxes                                                55,035        221,235                  716            951       277,937
 Estate and Gift Taxes                                                      4          7,841                  881         11,025        19,751
 Excise Taxes                                                          52,112         18,583                   98            153        70,946
 Railroad Retirement Taxes                                              3,547          1,099                    1              1         4,648
 Unemployment Taxes                                                     4,697          1,726                   37             83         6,543
 Fines, Penalties, Interest & Other Revenue - Tax Related                 244              1                    0              0           245
 Tax Related Cash Revenue Received                                  1,431,515        886,405               21,915         28,995     2,368,830
 Federal Reserve Earnings                                              56,582         19,263                    0              0        75,845
 Fines, Penalties, Interest & Other Revenue - Non-Tax Related           1,613             22                    0              0         1,635
 Non-Tax Related Cash Revenue Received                                 58,195         19,285                    0              0        77,480
 Total Cash Revenue Received                                        1,489,710        905,690               21,915         28,995     2,446,310
 Less Amounts Collected for Non-Federal Entities                                                                                          (387)
 Total                                                                                                                             $ 2,445,923


                                                                                          Tax Year
                                                                                                                                           2009
                                                                        2009           2008                 2007        Pre-2007    Collections
 Individual Income and FICA Taxes                               $   1,296,427    $   702,557              $22,250       $15,323    $ 2,036,557
 Corporate Income Taxes                                               138,144         69,016                1,692        16,630        225,482
 Estate and Gift Taxes                                                     92          3,979                  796        19,810         24,677
 Excise Taxes                                                          54,502         12,512                  102           132         67,248
 Railroad Retirement Taxes                                              3,559          1,148                    3             1          4,711
 Unemployment Taxes                                                     4,772          1,859                   36            98          6,765
 Fines, Penalties, Interest & Other Revenue - Tax Related                 516              0                    0             0            516
 Tax Related Cash Revenue Received                                  1,498,012        791,071               24,879        51,994      2,365,956
 Federal Reserve Earnings                                              24,552          9,766                    0                       34,318
 Fines, Penalties, Interest & Other Revenue - Non-Tax Related           1,376             37                    0              0         1,413
 Non-Tax Related Cash Revenue Received                                 25,928          9,803                    0              0        35,731
 Total Cash Revenue Received                                        1,523,940        800,874               24,879         51,994     2,401,687




                                                                                                                                                  part 3: annual financial report
 Less Amounts Collected for Non-Federal Entities                                                                                          (487)
 Total                                                                                                                             $ 2,401,200


amounts reported for corporate Income taxes collected in fiscal year 2010 include corporate taxes of $13,179 million for tax year
2011 (similarly, amounts reported for corporate Income taxes collected in fiscal year 2009 include corporate taxes of $9,000 million
for tax year 2010).




note 26. collection and disposition of custodial revenue                                                                                  249
                                  the department of the treasury




                                  Amounts Provided to Fund the Federal Government
                                  for the years ended september 30, 2010 and september 30, 2009, collections of custodial revenue transferred to other entities were
                                  as follows (in millions):
                                                                                                                                2010                                    2009
                                   Department of the Interior                                                       $             361                       $             453
                                   General Fund                                                                             1,975,625                               1,962,775
                                   Total                                                                            $       1,975,986                       $       1,963,228




                                  Federal Tax Refunds Paid
                                  refund activity, broken out by revenue type and by tax year, was as follows for the years ended september 30, 2010 and september
                                  30, 2009 (in millions):
                                                                                                               Tax Year
                                                                                          2010              2009                   2008       Pre-2008      2010 Refunds


                                   Individual Income and FICA Taxes                 $   113,577      $   179,159            $    48,846   $     29,724          $    371,306
                                   Corporate Income Taxes                                 2,630           15,913                 16,414         61,229                96,186
                                   Estate and Gift Taxes                                      0              209                    439            277                   925
                                   Excise Taxes                                             429              611                    171            215                 1,426
                                   Railroad Retirement Taxes                                  0                1                      0              0                     1
                                   Unemployment Taxes                                         1               56                     13             23                    93
                                   Total                                            $   116,637      $   195,949            $    65,883   $     91,468          $    469,937


                                                                                                               Tax Year
                                                                                          2009              2008                   2007       Pre-2007      2009 Refunds
                                   Individual Income and FICA Taxes                 $     1,075      $   293,971            $    30,361   $     14,222          $    339,629
                                   Corporate Income Taxes                                 6,626           32,646                 17,370         38,558                95,200
                                   Estate and Gift Taxes                                      0              324                    566            358                 1,248
                                   Excise Taxes                                             535              541                     81            626                 1,783
                                   Railroad Retirement Taxes                                  0                2                      0              1                     3
                                   Unemployment Taxes                                         1               66                     13             29                   109
                                   Total                                            $     8,237      $   327,550            $    48,391   $     53,794          $    437,972
part 3: annual financial report




                                  Federal Tax Refunds Payable
                                  as of september 30, 2010 and september 30, 2009, refunds payable to taxpayers consisted of the following (in millions):

                                                                                                                                 2010                                   2009
                                   Alcohol, Tobacco Tax and Trade Bureau                                                $           13                      $              9

                                   Internal Revenue Service                                                                      4,133                                 4,031

                                   Total                                                                                $        4,146                      $          4,040




                                  250                                                     note 26. collection and disposition of custodial revenue
                                                             performance and accountability report | fiscal year 2010




27. earmarkeD funDs
the majority of the Department’s earmarked fund activities are attributed to the esf and the pension and retirement funds managed
by the office of DcP. In addition, several Department bureaus operate with “public enterprise revolving funds” and receive no
appropriations from the congress. these bureaus are beP, u.s. Mint, occ, and ots. other miscellaneous earmarked funds are
managed by bPD, Do, fMs, Irs, and tff.

the following is a list of earmarked funds and a brief description of the purpose, accounting, and uses of these funds.

 Exchange Stabilization Fund (ESF)
 ESF                20X4274            ESF Money Market Guaranty Facility
 ESF                20X4444            Exchange Stabilization Fund

 D.C. Pensions
 DCP                20X1713            Federal payment – D.C. Judicial Retirement
 DCP                20X1714            Federal payment – D.C. Federal Pension Fund
 DCP                20X5511            D.C. Federal Pension Fund
 DCP                20X8212            D.C. Judicial Retirement and Survivor’s Annuity Fund


 Public Enterprise Revolving Funds
 BEP                20X4502            Bureau of Engraving and Printing Fund
 MNT                20X4159            Public Enterprise Revolving Fund
 OCC                20X8413            Assessment Funds
 OTS                20X4108            Public Enterprise Revolving Fund
 IRS                20X4413            Federal Tax Lien Revolving Fund


 Other Earmarked Funds
 BPD                20X5080            Gifts to Reduce Public Debt
 DO                 20X5407            Sallie Mae Assessments
 DO                 20X5590            Financial Research Fund
 DO                 20X5816            Confiscated and Vested Iraqi Property and Assets
 DO                 20X8790            Gifts and Bequests Trust Fund
 FMD                205445             Debt Collection
 FMD                20X5081            Presidential Election Campaign
 FMD                20X8902            Esther Cattell Schmitt Gift Fund




                                                                                                                                     part 3: annual financial report
 FMS                204/55445          Debt Collection Special Fund
 FMS                205/65445          Debt Collection Special Fund
 FMS                206/75445          Debt Collection Special Fund
 FMS                207/85445          Debt Collection Special Fund
 FMS                208/95445          Debt Collection Special Fund
 FMS                209/05445          Debt Collection Special Fund
 FMS                200/15445          Debt Collection Special Fund
 IRS                20X5510            Private Collection Agency Program
 IRR                20X5433            Informant Reimbursement
 TFF                20X5697            Treasury Forfeiture Fund


the esf uses funds to purchase or sell foreign currencies, to hold u.s. foreign exchange and sDr assets, and to provide financing
to foreign governments. esf accounts and reports its holdings to fMs on the sf224, “statement of transactions,” as well as to the
congress and the Department’s policy office. the gold reserve act of 1934, bretton Woods agreement act of 1945, P.l. 95-147
and P.l. 94-564 established and authorized the use of the fund. sDrs in the IMf, Investments in u.s. securities (bPD), and


note 27. earmarked funds                                                                                                       251
                                  the department of the treasury




                                  Investments in foreign currency assets are the sources of revenues or other financing sources. esf’s earnings and realized gains on
                                  foreign currency assets represent inflows of resources to the government, and the revenues earned are the result of intra-governmental
                                  inflows.

                                  D.c. Pension funds provide annuity payments for retired D.c. teachers, police officers, judges, and firefighters. the sources of
                                  revenues are through annual appropriations, employees’ contributions, and interest earnings from investments. all proceeds are
                                  earmarked. note 21 provides detailed information on various funds managed by the office of DcP.

                                  the Department’s four non-appropriated bureaus, Mint, beP, occ, and ots, operate “public enterprise funds” that account for
                                  the revenue and expenses related to the production and sale of numismatic products and circulating coinage (Mint), the currency
                                  printing activities (beP), and support of oversight functions of banking (occ) and thrift operations (ots). 31 usc § 5142
                                  established the revolving fund for beP to account for revenue and expenses related to the currency printing activities. Public law
                                  104-52 (31 usc §5136) established the Public enterprise fund for the Mint to account for all revenue and expenses related to the
                                  production and sale of numismatic products and circulating coinage. revenues and other financing sources at the Mint are mainly
                                  from the sale of numismatic and bullion coins, and the sale of circulating coins to the federal reserve bank system. 12 usc § 481
                                  established the assessment funds for occ, and 12 u.s.c. § 1467 governs the collection and use of assessments and other funds by
                                  ots. revenue and financing sources are from the bank examination and assessments for the oversight of the national banks, savings
                                  associations, and savings and loan holding companies. these non-appropriated funds do not directly contribute to the inflows of
                                  resources to the government. there are minimal transactions with other government agencies.

                                  there are other earmarked funds at several treasury bureaus, such as donations to the Presidential election campaign fund, funds
                                  related to the debt collection program, gifts to reduce the public debt, and other enforcement related activities. Public laws, statutory
                                  laws, u.s. code, and the Debt collection Improvement act established and authorized the use of these funds. sources of revenues
                                  and other financing sources include contributions, cash and property forfeited in enforcement activities, public donations, and debt
                                  collection.


                                  Intra-governmental Investments in Treasury Securities
                                  the federal government does not set aside assets to pay future benefits or other expenditures associated with earmarked funds. the
                                  Department’s bureaus and other federal agencies invest some of the earmarked funds that they collect from the public. the funds are
                                  invested in securities issued by the Department’s bureau of the Public Debt (bPD). the cash collected by bPD is deposited in the
                                  general fund of the u.s. government, which uses the cash for general government purposes.

                                  the investments provide Department bureaus and other federal agencies with authority to draw upon the general fund of the u.s.
part 3: annual financial report




                                  government to make future benefit payments or other expenditures. When the Department bureaus or other federal agencies require
                                  redemption of these securities to make expenditures, the government finances those expenditures out of accumulated cash balances,
                                  by raising taxes or other receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. this is the
                                  same way that the government finances all other expenditures.

                                  the securities are an asset to the Department bureaus and other federal agencies and a liability of the bPD. the general fund of the
                                  u.s. government is liable to bPD. because the Department bureaus and other federal agencies are parts of the u.s. government,
                                  these assets and liabilities offset each other from the standpoint of the government as a whole. for this reason, they do not represent
                                  an asset or a liability in the u.s. government-wide financial statements.

                                  the balances related to the investments made by the Department bureaus are not displayed on the Department’s financial statements
                                  because the bureaus are subcomponents of the Department. however, the general fund of the u.s. government remains liable to
                                  bPD for the invested balances and bPD remains liable to the investing Department bureaus (see note 4).




                                  252                                                                                                   note 27. earmarked funds
                                                                          performance and accountability report | fiscal year 2010




Summary Information for Earmarked Funds as of and for the Year ended September 30, 2010
(in millions):
                                                                                            Public
                                                 Exchange                               Enterprise            Other               Combined
                                               Stabilization               D.C.         Revolving         Earmarked              Earmarked                             9/30/2010
                                                       Fund            Pensions             Funds             Funds                  Funds      Eliminations                Total
ASSETS
Fund Balance                                   $          0        $          7        $      490         $      362         $        859        $         0       $         859
Investments and Related Interest - Intra­
   governmental                                     20,436                3,980             1,398              1,385               27,199            27,199                    0
Cash, Foreign Currency and Other
   Monetary Assets                                70,878                      0                 0                 12            70,890                  0               70,890
Investments and Related Interest                  12,616                      0                 0                  0            12,616                  0               12,616
Other Assets                                           0                      5             1,306                114             1,425                  7                1,418
Total Assets                                   $ 103,930           $      3,992        $    3,194         $    1,873         $ 112,989           $ 27,206          $    85,783

LIABILITIES
Intra-governmental Liabilities                            0                   0                 38               260                  298                 55                 243
Certificates Issued to Federal Reserve
   Banks                                             5,200                    0                 0                  0                5,200                  0             5,200
Allocation of Special Drawing Rights                54,958                    0                 0                  0               54,958                  0            54,958
Other Liabilities                                       27                9,797               628                455               10,907                  0            10,907
Total Liabilities                                   60,185                9,797               666                715               71,363                 55            71,308

Net Position
Unexpended Appropriations-Earmarked
   Funds                                               200                    0                  0                  0                 200                  0                 200
Cumulative Results of Operations-
   Earmarked Funds                                43,545                (5,805)             2,528              1,158            41,426                     0          41,426
Total Liabilities and Net Position             $ 103,930           $     3,992         $    3,194         $    1,873         $ 112,989           $        55       $ 112,934

Statement of Net Cost
Gross Cost                                     $      1,476        $        417        $ 5,159            $      229         $       7,281       $        80       $      7,201
Less: Earned Revenue                           $    (1,392)        $      (128)        $ (5,225)          $        0         $     (6,745)       $     (177)       $    (6,568)
Gains/Losses on Pension, ORB, or OPEB
Assumption Changes                             $          0        $        818        $         2        $        0         $        820        $         0       $          820
Total Net Cost of Operations                   $         84        $      1,107        $      (64)        $      229         $      1,356        $      (97)       $        1,453

Statement of Changes in Net Position




                                                                                                                                                                                    part 3: annual financial report
Cumulative Results of Operations:
Beginning Balance, as Adjusted                 $    43,647         $    (5,225)        $    2,465         $       766        $     41,653        $         0       $    41,653
Budgetary Financing Sources                            (18)                 527               (13)               384                   880              (12)                892
Other Financing Sources                                   0                   0                 12                237                   249             (38)                 287
Total Financing Sources                                (18)                 527                (1)                621                1,129              (50)              1,179
Net Cost of Operations                                  (84)            (1,107)                 64              (229)              (1,356)                97            (1,453)
Change in Net Position                                (102)               (580)                 63                392                 (227)               47               (274)
Ending Balance                                 $    43,545         $    (5,805)        $    2,528         $    1,158         $     41,426        $        47       $    41,379

* The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the eliminations 

   reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.





note 27. earmarked funds                                                                                                                                                     253
                                  the department of the treasury




                                  Summary Information for Earmarked Funds as of and for the Year ended September 30, 2009
                                  (in millions):
                                                                                                                              Public
                                                                                   Exchange                               Enterprise            Other              Combined
                                                                                 Stabilization               D.C.         Revolving         Earmarked             Earmarked                             9/30/2009
                                                                                         Fund            Pensions             Funds             Funds                 Funds     Eliminations*                Total
                                  ASSETS
                                  Fund Balance                                   $          0        $          0        $      573         $      312        $        885         $        0       $          885
                                  Investments and Related Interest - Intra­
                                     governmental                                     19,816               3,866              1,346                707              25,735             25,735                    0
                                  Cash, Foreign Currency and Other
                                     Monetary Assets                                71,662                     0                  0                 18           71,680                   0                 71,680
                                  Investments and Related Interest                  13,537                     0                  0                  0           13,537                   0                 13,537
                                  Other Assets                                           0                    13              1,207                104            1,324                  10                  1,314
                                  Total Assets                                   $ 105,015           $     3,879         $    3,126         $    1,141        $ 113,161            $ 25,745         $       87,416

                                  LIABILITIES
                                  Intra-governmental Liabilities                 $          0        $          0        $       37         $      194        $        231         $       28       $          203
                                  Certificates Issued to Federal Reserve
                                     Banks                                             5,200                   0                  0                  0               5,200                  0                5,200
                                  Allocation of Special Drawing Rights                55,953                   0                  0                  0              55,953                  0               55,953
                                  Other Liabilities                                       16               9,104                623                181               9,924                  0                9,924
                                  Total Liabilities                                   61,169               9,104                660                375              71,308                 28               71,280

                                  Net Position
                                  Unexpended Appropriations-Earmarked
                                     Funds                                               200                    0                  0                 0                 200                  0                  200
                                  Cumulative Results of Operations-
                                     Earmarked Funds                                43,646                (5,225)             2,466                766           41,653                     0          41,653
                                  Total Liabilities and Net Position             $ 105,015           $     3,879         $    3,126         $    1,141        $ 113,161            $       28       $ 113,133

                                  Statement of Net Cost
                                  Gross Cost                                     $      1,117        $       785         $     3,899        $      214        $       6,015        $      60        $         5,955
                                  Less: Earned Revenue                                (4,951)               (134)            (3,981)                 0              (9,066)             (187)               (8,879)
                                  Gains/Losses on Pension, ORB, or OPEB
                                  Assumption Changes                             $         0         $         0         $         0        $        0        $           0        $        0       $             0
                                  Total Net Cost of Operations                   $   (3,834)         $       651         $      (82)        $      214        $     (3,051)        $    (127)       $       (2,924)
part 3: annual financial report




                                  Cumulative Results of Operations:
                                  Beginning Balance, as Adjusted                 $    39,618         $    (4,982)        $    2,350         $      575        $     37,561         $         0      $       37,561
                                  Budgetary Financing Sources                            194                  408                 0                345                 947                   1                 946
                                  Other Financing Sources                                  0                    0                34                 60                  94                (27)                 121
                                  Total Financing Sources                                194                 408                 34                405               1,041                (26)               1,067
                                  Net Cost of Operations                               3,834                (651)                82              (214)               3,051                127                2,924
                                  Net Changes                                          4,028                (243)               116                191               4,092                101                3,991
                                  Total Cumulative Results of
                                  Operations                                     $    43,646         $    (5,225)        $    2,466         $      766        $     41,653         $      101       $       41,552

                                  * The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the eliminations
                                     reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.




                                  254                                                                                                                               note 27. earmarked funds
                                                                       performance and accountability report | fiscal year 2010




28. r eCOnCiliatiOn Of net COst Of OperatiOns                                                                 tO   buDget
the reconciliation of net cost of operations to budget explains the difference between the budgetary net obligations and the
proprietary net cost of operations. for fiscal years 2010 and 2009, oMb did not prescribe a format for this reconciliation in oMb
circular no. a-136, Financial Reporting Requirements, as amended, so that preparers might develop a more robust presentation
tailored to their agency. as of september 30, 2010 and september 30, 2009, the reconciliation of net cost of operations to budget
consisted of the following (in millions):

                                                                                                                            2010              2009
 RESOURCES USED TO FINANCE ACTIvITIES:
     Budgetary Resources Obligated:
     Obligations Incurred                                                                                           $     820,838    $   1,387,195
     Less: Spending Authority from Offsetting Collections and Recoveries                                                (251,553)         (321,262)
     Obligations Net of Offsetting Collections and Recoveries                                                            569,285         1,065,933
     Less: Offsetting Receipts                                                                                          (178,909)           (44,614)
     Net Obligations                                                                                                     390,376         1,021,319

     Other Resources:
     Donations and Forfeiture of Property                                                                                     319              127
     Financing Sources for Accrued Interest and Discount on the Debt                                                       11,086            6,027
     Transfers In/Out Without Reimbursement                                                                                   (42)             (36)
     Imputed Financing from Cost Absorbed by Others                                                                         1,008              793
     Transfers to the General Fund and Other (Note 23)                                                                  (128,945)        (217,704)
     Net Other Resources Used to Finance Activities                                                                     (116,574)        (210,793)
     Total Resources Used to Finance Activities                                                                           273,802          810,526

 RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF OPERATIONS:
     Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but not yet Provided                 20,955          49,063
     Credit Program Collections that Increase Liabilities for Loans Guarantees or Allowances for Subsidy                  (40,146)              (6)
     Adjustment to Accrued Interest and Discount on the Debt                                                                12,011           8,687
     Other (Primarily offset to offsetting receipts)                                                                      (98,559)         320,755
     Total Resources Used to Finance Items Not Part of the Net Cost of Operations                                       (105,739)          378,499
     Total Resources Used to Finance the Net Cost of Operations                                                           379,541          432,027

     Total Components of Net Cost of Operations that will Require or Generate Resources in Future Periods                307,422            87,673
     Total Components of Net Cost of Operations that will not Require or Generate Resources                              (28,122)            3,232
     Total Components of Net Cost of Operations that will not Require or




                                                                                                                                                       part 3: annual financial report
        Generate Resources in the Current Period                                                                         279,300            90,905
 Net Cost of Operations                                                                                             $    658,841     $     522,932




note 28. reconciliation of net cost of operations to budget                                                                                    255
                                  the department of the treasury




                                  29. finanCial stability                         anD       stimulus aCtivities

                                  Government Sponsored Enterprises (GSEs)
                                  the federal national Mortgage association (fannie Mae) and the federal home loan Mortgage corporation (freddie Mac) are
                                  stockholder-owned gses. congress established these gses to increase the supply of mortgage loans and to reduce the accompanying
                                  costs. starting in early fiscal year 2008, increasingly difficult conditions in the housing market challenged the soundness and
                                  profitability of gses, thereby undermining the entire housing market. several actions have been taken by the Department that are
                                  intended to provide financial stability to the gses (note 9 and 12 disclosures further describes these actions).


                                  Temporary Guarantee Program Money Market Funds
                                  In september 2008, the Department established a temporary guarantee Program for Money Market funds. under this Program,
                                  the Department guaranteed to investors that they would receive the stable share price (ssP) for shares held in participating money
                                  market funds up to the number of shares held as of the close of business on september 19, 2008. to participate in the Program,
                                  eligible money market funds had to submit an application and pay a premium of 1 basis point if the fund’s net asset value (naV) is
                                  greater than or equal to 99.75 percent of the ssP, or 1.5 basis points of the ssP if the fund’s naV is less than 99.75 percent of the
                                  ssP but greater than or equal to 99.50 percent of the ssP.

                                  under this program, any outlays would have been paid out initially from the esf, and then under the provisions of section 131 of
                                  the emergency economic stabilization act of 2008. such outlays would then be reimbursed from funds available under the troubled
                                  asset relief Program. the temporary guarantee program was extended and continued to provide coverage through september 19,
                                  2009 to shareholders up to amounts that they held in participating money market funds as of the close of business on september 19,
                                  2008. as of september 30, 2009, the program had expired. the Department did not receive any claims for payment. as of september
                                  30, 2009, the Department had collected a total of approximately $1,200 million in program participation payments. all participant
                                  payments are invested into u.s. government securities.


                                  Home Ownership Preservation Entity (HOPE Bond)
                                  the home ownership Preservation entity (hoPe) fund for homeowners act of 2008, of the housing and recovery act of 2008,
                                  authorizes the secretary of the treasury to issue hoPe bonds without any limitations as to the purchaser of the issuance. Due to the
                                  cost of issuing special purpose bonds to the public, the secretary of the treasury has decided to issue the hoPe bonds to the federal
                                  financing bank (ffb). the total outstanding hoPe bonds may not exceed $300,000 million. the ffb’s purchase of hoPe bonds
part 3: annual financial report




                                  issued by the secretary is consistent with the core mission of the ffb. ffb purchased $0.577 million and $462.5 million in bonds at
                                  par value in fiscal year 2010 and 2009, respectively, with a floating interest rate to be reset quarterly. the interest rate is 0.153 percent
                                  and 0.183 percent as of september 30, 2010 and september 30, 2009, respectively. the bonds have 30 year maturity dates starting on
                                  august 27, 2038 and ending on July 16, 2040. the hoPe bonds are reported as investments held-to-maturity and the related interest
                                  receivable is reported as accrued interest receivable in ffb’s stand-alone financial statements. the hoPe bond transactions are
                                  subsequently eliminated at the Departmental level.


                                  Troubled Asset Relief Program (TARP)
                                  the emergency economic stabilization act of 2008 (eesa) established the troubled asset relief Program (tarP) on october
                                  3, 2008 to be administered by the Department and established the office of financial stability within the Department’s office of
                                  Domestic finance. the act gave the treasury secretary broad and flexible authority to purchase and insure mortgages and other
                                  troubled assets, as well as to inject capital into banks and other commercial companies by taking equity positions in those entities, if
                                  needed, to stabilize the financial markets. the actions taken by tarP are intended to promote market stability and protect the u.s.
                                  economy and are disclosed further in note 8.


                                  256                                                                 note 29. financial stability and stimulus activities
                                                          performance and accountability report | fiscal year 2010




Small Business Lending Initiatives
on september 27, 2010, the small business Jobs and credit act of 2010 (Public law 111-240) was enacted to create the small
business lending fund Program to direct the secretary of the treasury to make capital investments in eligible institutions in order
to increase the availability of credit for small businesses, to amend the Internal revenue code of 1986 to provide tax incentives for
small business job creation, and for other purposes.

two small business lending initiatives were created:

Small Business Lending Fund (SBLF)
the primary purposes of the $30,000 million sblf is to support lending among small and medium sized banks (with assets under
$10,000 million). the new lending fund is an initiative to invest in smaller banks under terms that provide strong incentives to
increase lending to small businesses. as participating banks increase lending to small firms compared to 2009 levels, the dividend
paid to treasury on that capital investment would be reduced.

as of september 30, 2010, no disbursements were made under the sblf program.

State Small Business Credit Initiative (SSBCI)
a $1,500 million initiative that allocates funds to participating states to establish or maintain approved state small business programs
that include capital access programs. the initiative provides portfolio insurance for business loans and provides for contributions to
be made by the state to the reserve fund in amounts at least equal to the sum of the amount of the insurance premium charges paid by
the borrower and the financial institution to the reserve fund for any newly enrolled loan.

as of september 30, 2010 no disbursements were made under the ssbcI program.


Establishment of the Consumer Financial Protection Bureau
the Dodd-frank Wall street reform and consumer Protection act of 2010, which was signed into law on July 21, 2010, established
the consumer financial Protection bureau (cfPb) within the federal reserve system. the cfPb is charged with protecting
consumers against deceptive and unscrupulous practices and ensuring that consumers have the information they need to choose
consumer financial products and services that best meet their needs. the cfPb will implement rules for consumer financial products
and services, develop supervision programs to regularly examine the most critical bank and nonbank financial services providers,
and develop programs to promote greater financial literacy of consumers. funding for the cfPb is to be provided by the board of
governors of the federal reserve system.




                                                                                                                                           part 3: annual financial report
the Department is working to start up the cfPb by defining the organizational structure, establishing program and administrative
support offices, and recruiting staff. In 2010, cfPb entered into a reimbursable agreement with the Department to provide services
before the designated transfer date of July 21, 2011.


American International Group (AIG)
as described in note 8, in fiscal year 2009 the Department ultimately invested $41,600 million in series e perpetual, non-cumulative
10 percent preferred shares of aIg through the aIg Investment Program. the Department also received warrants for the purchase of
approximately 2.7 million shares of aIg common stock. and, to further assist the stability and restructuring of aIg, the Department
agreed to make an additional $29,800 million available to aIg under the Department’s credit facility. In return, the Department
received $29,800 million of aIg series f perpetual, non-cumulative 10 percent preferred stock (300,000 shares). the initial
liquidation preference of the series f preferred shares was zero and increases pro rata by the amount of each drawdown by aIg. as
of september 30, 2010 and september 30, 2009, aIg had drawn a cumulative $7,544 million and $3,206 million through the credit
facility, leaving an outstanding commitment to aIg of $22,256 million and $26,594 million, respectively.



note 29. financial stability and stimulus activities                                                                                 257
                                  the department of the treasury




                                  under the initial terms of the credit facility agreement with aIg and the federal reserve bank of new york (frbny), a
                                  77.9 percent equity interest in aIg (in the form of series c convertible Participating serial Preferred stock convertible into
                                  approximately 77.9 percent of the issued and outstanding shares of common stock) was issued to a trust established by the frbny.
                                  subsequent to the initial agreement, a reverse stock split of aIg’s common stock increased this to 79.8 percent. the u.s.
                                  government is the sole beneficiary of that trust, so that when the stock is ultimately liquidated the proceeds will be deposited into
                                  the general fund of the u.s. government. the u.s. government will be the ultimate recipient of any dividends on the stock and
                                  any proceeds from the liquidation of the stock. the accounting and reporting for any activities related to the government’s beneficial
                                  interest in the stock held by the trust is done by the Department. the trustees of the trust are independent of both the Department
                                  and the frbny, and are not involved in day-to-day management of aIg.

                                  as the u.s. government is the sole beneficiary of the trust, and as it is anticipated that the u.s. government will ultimately realize
                                  an economic benefit from its beneficial interest in the trust, the Department recorded a non-entity asset of $23,472 million as of
                                  september 30, 2009, and corresponding custodial revenue for the same amount. the value recorded was based on the market value
                                  of the trust’s aIg holdings at september 30, 2009; as the underlying aIg common stock is actively traded on the new york stock
                                  exchange, this represents the best independent valuation available for the government’s beneficial interest. as of september 30,
                                  2010, the underlying market value of the trust’s aIg holdings had declined by approximately $2,666 million. the carrying value of
                                  the beneficial interest in the trust was reduced by this amount, and a corresponding expense recorded on the statement of custodial
                                  activity.

                                  under the terms of the existing trust agreement, the u.s. government’s proceeds will be received when aIg’s credit line with the
                                  frbny is terminated, aIg has redeemed the preferred stock owned by the Department through tarP, and the trustees sell the
                                  stock held by the trust. the Department will re-value its beneficial interest in the trust each year until the trust is liquidated. like any
                                  asset, future events may increase or decrease the value of the u.s. government’s interest in the trust.

                                  the Department’s participation in enhancing aIg’s capital and liquidity in order to facilitate an orderly restructuring of the company
                                  are in addition to the frbny activities in this regard.

                                  as noted in note 8, on september 30, 2010, the Department, the frbny, and aIg announced plans for a restructuring of the
                                  federal government’s investments in aIg. the aIg recapitalization agreement is intended to convert the trust’s preferred stock
                                  into common stock that will be transferred to the Department, as custodian for the u.s. government, in the second quarter of fiscal
                                  year 2011. under this agreement, it is anticipated that the Department would sell its shares in the open market over time. this
                                  planned conversion of the trust’s preferred stock into common stock, in conjunction with the conversion of tarP’s aIg preferred
                                  stock into aIg common stock, would reduce the trust’s common stock ownership percentage from 79.8 percent to approximately
part 3: annual financial report




                                  31 percent, with the tarP holding approximately 61 percent of aIg’s common stock. actual execution of the recapitalization
                                  agreement is contingent on numerous material conditions being satisfied prior to the closing of the agreement. If the closing does not
                                  occur on or prior to March 15, 2011, any of aIg, the frbny, or the Department may terminate the agreement.


                                  The American Recovery and Reinvestment Act of 2009 (Recovery Act)
                                  the President of the united states signed the recovery act into law on february 17, 2009. the recovery act is an extraordinary
                                  response to a crisis unlike any since the great Depression, and includes measures to modernize the nation’s infrastructure, enhance
                                  energy independence, expand educational opportunities, preserve and improve affordable health care, provide tax relief, and protect
                                  those in greatest need. by providing targeted investments and implementing tax provisions to benefit both businesses and individuals,
                                  the Department of the treasury continued to stimulate the u.s. economy, create and sustain jobs, and build the foundation for long­
                                  term economic growth.




                                  258                                                                note 29. financial stability and stimulus activities
                                                           performance and accountability report | fiscal year 2010




the Department has various responsibilities related to recovery act programs, including the implementation of some 60 tax
incentives for households and businesses; local and state government support; and investments in renewable energy, low-income
housing, and health care. the Department’s work on these programs continued in fiscal year 2010. from the beginning, the
Department has taken a risk-based approach and focused on balancing the requirements of speed, quality, and accountability to
ensure the timely, accurate, and transparent distribution of recovery act funds. to achieve these objectives, treasury established
a recovery act implementation team housed within the purview of the assistance secretary for Management and chief financial
officer responsible for working with the program offices across the Department. the recovery act team facilitates all recovery act
implementation department-wide and interfaces with the broader recovery act community. as part of this broad responsibility, the
team establishes internal processes; addresses external data requirements; manages risk inherent in recovery act implementation, in
conjunction with the Dcfo’s treasury recovery act risk Management council; and coordinates the Department’s recovery act
audits.

the Department administers nine recovery act programs:
  •	   community Development financial Institutions (cDfI) Program
  •	   native american cDfI assistance Program
  •	   new Markets tax credit Program
  •	   economic recovery act Payments
  •	   tax Provision Implementation Program
  •	   cash assistance in lieu of tax credits to states for low-Income housing Projects
  •	   cash assistance in lieu of tax credits for specified energy Property
  •	   health Insurance tax credit administration Program
  •	   tax Provision oversight Program


The Qualified Therapeutic Discovery Project (QTDP) Program
the Qualified therapeutic Discovery Project (QtDP) program, created in section 9023 of the Affordable Care Act (aca), provides
tax credits, or grants in lieu of credits, to small firms that demonstrate potential to produce new and cost-saving therapies, support
job creation, and increase u.s. competitiveness in the healthcare field. the credit covers up to 50 percent of the cost of qualifying
biomedical research, with a maximum of $5 million per firm and $1 billion overall. It is available only to firms with no more than 250
employees and only for investments made in 2009 and 2010. Qualifying firms must have current taxable income. additionally, firms
may opt to receive a grant in lieu of the tax credit.




                                                                                                                                         part 3: annual financial report




note 29. financial stability and stimulus activities                                                                             259
                                  the department of the treasury




                                  30. sCheDule                  Of   fiDuCiary aCtivity
                                  the following funds have been identified by the Department as meeting the criteria for fiduciary activity. Details of the funds, as well
                                  as fiduciary relationships, is provided below.

                                   Bureau         Fund Code             Authority               Fund Title
                                   BEP            20X6513.013           31 USC 5119             Mutilated Currency Claims Funds
                                   BPD            20X6008               31 USC 3513             Payment Prin. & Interest Govt. Agencies
                                   FMD            20X6045               31 USC 3328             Proceeds, Payments of Unpaid Checks
                                   FMD            20X6048               31 USC 3329, 3330       Proceeds of Withheld Foreign Check
                                   FMD            2015X6078             50 APP. USC 2012        War Claims FD, FCSC
                                   FMD            20X6092               31 USC 1321             Debt Management Operations
                                   FMD            20X6104               22 USC 1627             Albanian Claims Fund, Treasury
                                   FMD            20X6133               31 USC 1322             Payment of Unclaimed Moneys
                                   FMD            20X6309               22 USC 1627(a)          Libyan Claims Settlement Fund
                                   FMD            20X6310               22 USC 1627(a)          Libyan Claims Settlement Fund
                                   FMD            20X6311               98 Stat. 1876           Kennedy Center Revenue Bond
                                   FMD            20X6312               22 USC 1627             Iranian Claims Settlement Fund
                                   FMD            20X6314               22 USC 1644g            German Democrat Settlement Fund
                                   FMD            20X6315               22 USC 1645h            Vietnam Claims Settlement Fund
                                   FMD            20X6501.018           31 USC 3513             Small Escrow Amounts
                                   FMD            20X6720               31 USC 3513             SM DIF Account for Dep. & Check Adj.
                                   FMD            20X6830               104 Stat. 1061          Net Interest Payments to/from State
                                   FMD            20X6999               31 USC 3513             Accounts Payable, Check Issue UNDDR
                                   IRR            20X6737               90 Stat. 269-270        Internal Revenue Collections for Northern Mariana Island
                                   IRR            20X6738               31 USC 3513             Coverover Withholdings-U.S. Virgin Islands
                                   IRR            20X6740               31 USC 3515             Coverover Withholdings-Guam
                                   IRR            20X6741               31 USC 3513             Coverover Withholdings-American Samoa
                                   OAS            20X6317.001           22 USC 2431             Belize Escrow, Debt Reduction
                                   OAS            20X6501.018           31 USC 3513             Small Escrow Amounts
                                   OTS            20X6501.76            31 USC 3513             Small Escrow Amounts

                                  unclaimed monies were authorized by 31 u.s.c. 5119, which authorized financial Management service, Department of the
                                  treasury, to collect unclaimed monies on behalf of the public. other fiduciary activities by the Department as listed above are
                                  included in all other fiduciary funds.
part 3: annual financial report




                                  260                                                                                    note 30. schedule of fiduciary activity
                                                              performance and accountability report | fiscal year 2010




SCHEDULE OF FIDUCIARY ACTIvITY (in millions)
                                                                     2010                                       2009
                                                  Unclaimed          All Other             Total    Unclaimed   All Other          Total
                                                    Monies-          Fiduciary         Fiduciary      Monies-   Fiduciary      Fiduciary
                                                       FMD              Funds             Funds          FMD       Funds          Funds
Fiduciary Net Assets,
Beginning of the Year                             $     390      $          208    $         598    $     366   $        43    $     409

Increases
Contributions to Fiduciary Net Assets                   103             1,004              1,107           28          1,063       1,091
Investment earnings                                       0                 1                  1            0              1           1
Total Increases                                         103             1,005              1,108           28          1,064       1,092

Decreases
Disbursements to and on behalf of beneficiaries        (73)            (1,057)            (1,130)         (4)          (899)       (903)
Total Decreases                                        (73)            (1,057)            (1,130)         (4)          (899)       (903)

Net Increase (Decrease) in fiduciary assets              30                 (52)             (22)          24           165          189
Fiduciary Net Assets, End of Year                 $     420      $          156    $         576    $     390   $       208    $     598




SCHEDULE OF FIDUCIARY NET ASSETS (in millions)
                                                  Unclaimed          All Other         2010 Total   Unclaimed   All Other      2009 Total
                                                    Monies-          Fiduciary          Fiduciary     Monies-   Fiduciary       Fiduciary
                                                       FMD              Funds              Funds         FMD       Funds           Funds
Fiduciary Assets
Cash and cash equivalents                         $     420      $           57    $         477    $     390   $       193    $     583
Investments                                               0                  99               99            0            15           15
Total Fiduciary Assets                            $     420      $          156    $         576    $     390   $       208    $     598




                                                                                                                                            part 3: annual financial report




note 30. schedule of fiduciary activity                                                                                             261
                                  the department of the treasury




                                  31. COmmitments                       anD     COntingenCies

                                  Legal Contingencies
                                  the Department is a party in various administrative proceedings, legal actions, and claims, including equal opportunity matters
                                  which may ultimately result in settlements or decisions adverse to the u.s. government. these contingent liabilities arise in the
                                  normal course of operations and their ultimate disposition is unknown. the Department has disclosed contingent liabilities where
                                  the conditions for liability recognition have not been met and the likelihood of unfavorable outcome is more than remote. the
                                  Department does not accrue for possible losses related to cases where the potential loss cannot be estimated or the likelihood of an
                                  unfavorable outcome is less than probable.

                                  In some cases, a portion of any loss that may occur may be paid by the Department’s Judgment fund, which is separate from the
                                  operating resources of the Department. for cases related to the contract Disputes act of 1978 and awards under federal anti­
                                  discrimination and whistle-blower protection acts, the Department must reimburse the Judgment fund from future appropriations.

                                  the Department has one contingent liability in fiscal year 2010 related to legal action taken in the case American Council of the Blind
                                  and Others where losses are determined to be probable and amount of loss cannot be estimated. In the opinion of the Department’s
                                  management and legal counsel, based on information currently available, the expected outcome of other legal actions, individually
                                  or in the aggregate, will not have a materially adverse effect on the Department’s financial statements, except for the pending legal
                                  actions described below which may have a materially adverse impact on the financial statements depending on the outcomes of the
                                  cases.


                                  Pending Legal Actions
                                    •	   American Council of the Blind and Others, et. al. v. Paulson: Plaintiffs have filed suit against the Department under section 504
                                         of the rehabilitation act seeking the redesign of u.s. currency. In 2007, a u.s. District court judge ruled that the current
                                         u.s. currency design violates this act; this ruling was subsequently appealed. In 2008, the united states court of appeals for
                                         the District of columbia circuit affirmed the District court’s ruling. no monetary damages were awarded by the court but the
                                         Department was ordered to provide meaningful access to united states currency for blind and other visually impaired persons.
                                         this may require changes to u.s. currency (excluding the one-dollar note.) the court ordered such changes to be completed
                                         in connection with each denomination of currency, not later than the date when a redesign is next approved by the secretary
                                         of the treasury. because the cost of implementing these changes will be incorporated into future currency redesign costs, and
                                         cannot be estimated at this time, no redesign costs have been accrued in the accompanying financial statements as of september
part 3: annual financial report




                                         30, 2010 and september 30, 2009.

                                         the court of appeals in the above mentioned case ordered the parties to confer and attempt to negotiate attorney fees and
                                         costs to be awarded the plaintiffs. In December 2008, the parties filed a joint stipulation agreeing to the payment of $672,675 in
                                         attorney fees and costs that was paid from the Judgment fund in february 2009.

                                         on May 20, 2010, the bureau of engraving and Printing published in the federal register its proposed recommendations on
                                         the appropriate method(s) to comply with the court’s order to make currency accessible to the blind to be implemented with
                                         the next currency design. the comment period for the federal register notice closed on august 18, 2010. the beP is currently
                                         evaluating the comments received and is considering various options to comply with the court’s order.




                                  262                                                                               note 31. commitments and contingencies
                                                           performance and accountability report | fiscal year 2010




 •	   Amidax Trading Group v. S.W.I.F.T.: Plaintiffs allege that the Department’s terrorist finance tracking Program has involved un­
      lawful disclosure of information by the society for Worldwide Interbank financial telecommunications (s.W.I.f.t.). Defendants
      include the Department of the treasury as well as several treasury officials. the case was dismissed by the District court on
      february 13, 2009, and the plaintiff has subsequently appealed that ruling to the court of appeals for the second circuit. the
      parties have completed the appellate briefing, and the oral argument occurred on July 14, 2010. the Department is unable to
      determine the likelihood of an unfavorable outcome or an estimate of potential loss at this time.

 •	   James X. Bormes v. United States of America: the complaint alleges that the government willfully violated certain provisions of
      the fair and accurate credit transaction act (facta) P.l. 108-159. the transaction confirmation received by the complain­
      ant from Pay.gov included the expiration date of the credit card used for that transaction. the complaint does not state the
      amount of damages sought on behalf of the class beyond asserting that each class member would be entitled to $100 to $1,000 in
      statutory damages. In a letter sent to the Department of Justice, the plaintiff proposed a fund of $30 million for just the Illinois
      class members.

 •	   Cobell et al. v. Salazar et al. (formerly Cobell v. Kempthorne): native americans allege that the Department of Interior and the
      Department of the treasury have breached trust obligations with respect to the management of the plaintiffs’ individual Indian
      monies. on august 7, 2008, the federal District court issued an opinion awarding $455 million to the plaintiffs. this decision
      was overturned on appeal in July 2009. the appellate court found that the government owes a cost-effective accounting, in
      scale with available funds.

      on December 8, 2009, a settlement was announced between the parties related to the claims raised in this lawsuit, as well
      as other claims for the mismanagement of assets and land. the settlement is contingent on the passage of new legislation to
      authorize the settlement terms and court approval. If the court approves the settlement after notice to the class, the government
      will pay $1.4 billion from the Judgment fund to settle the claims for an historical accounting and for mismanagement of assets
      and land. the government will also make available an additional sum of $2.0 billion from the Judgment fund to purchase
      numerous small interests in land from native americans, as well as for other purposes. It has not been determined which federal
      agency will be assigned responsibility for the payment through the Judgment fund. the Department is unable to determine the
      likelihood of an unfavorable outcome or an estimate of potential loss at this time. the case was appealed to the u.s. supreme
      court however, the appeal was denied in June 2010. legislation authorizing settlement is pending in congress.

      tribal trust fund cases: numerous cases have been filed in u.s. District courts in which native american tribes seek a
      declaration that the u.s. has not provided the tribes with a full and complete accounting of their trust funds, and seek an order
      requiring the government to provide such an accounting. In addition, there are a number of other related cases seeking damages
      in the united states court of federal claims which do not name the Department as a defendant. the government is currently




                                                                                                                                             part 3: annual financial report
      in the early stages of a discussion with counsel representing approximately 80 tribes with tribal trust cases pending against the
      united states (the settlement Proposal to the obama administration or “sPoa” group) about the feasibility of an omnibus
      settlement of the tribal trust cases. the Department is unable to determine the likelihood of an unfavorable outcome or an
      estimate of potential loss at this time.

      other legal actions: the Department is also involved in employment related legal actions (e.g., matters alleging discrimination
      and other claims before the equal employment opportunity commission, Merit system Protection board, etc.) for which an
      unfavorable outcome is reasonably possible, but for which an estimate of potential loss cannot be determined at this time. It is
      not expected that these cases will have a material effect on the Department’s financial position or results.




note 31. commitments and contingencies                                                                                               263
                                  the department of the treasury




                                        there are other legal actions pending for which the possibility of loss could not be determined, and where the ultimate
                                        resolution of the legal action may materially affect the Department’s financial position or results. as of september 30, 2010, one
                                        legal claim existed for which the possibility of loss could not be determined.


                                  Other Commitments and Contingencies
                                  Treaties and International Agreements
                                  the Department does not have any treaties or international agreements to report for fiscal year 2010.

                                  Multilateral Development Banks (MDB)
                                  the Department has subscribed to capital for certain MDb, portions of which are callable under certain limited circumstances to
                                  meet the obligations of the respective MDb. there has never been, nor is there anticipated, a call on the Department’s commitment
                                  for these subscriptions. as of september 30, 2010 and september 30, 2009, u.s. callable capital in MDb was as follows (in millions):

                                                                                                                                  2010                                2009
                                   African Development Bank                                                              $       1,634                       $       1,634
                                   Asian Development Bank                                                                        5,911                               5,911
                                   European Bank for Reconstruction and Development                                              1,805                               1,805
                                   Inter-American Development Bank                                                              28,687                              28,687
                                   International Bank for Reconstruction and Development                                        24,251                              22,641
                                   Multilateral Investment Guarantee Agency                                                        301                                 301
                                   North American Development Bank                                                               1,275                               1,275
                                   Total                                                                                 $      63,864                       $      62,254



                                  Terrorism Risk Insurance Program
                                  the Terrorism Risk Insurance Act (trIa or the act) was signed into law on november 26, 2002. this law was enacted to address
                                  market disruptions resulting from terrorist attacks on september 11, 2001. the act helps to ensure available and affordable
                                  commercial property and casualty insurance for terrorism risk, and simultaneously allows private markets to stabilize. the terrorism
                                  risk Insurance Program is activated upon the certification of an “act of terrorism” by the secretary of the Department in concurrence
                                  with the secretary of state and the attorney general. If a certified act of terrorism occurs, insurers may be eligible to receive
                                  reimbursement from the u.s. government for insured losses above a designated deductible amount. Insured losses above this amount
                                  will be shared between insurance companies and the u.s. government. the act also gives the treasury Department authority
part 3: annual financial report




                                  to recoup federal payments made under the Program through policyholder surcharges under certain circumstances and contains
                                  provisions designed to manage litigation arising from or relating to a certified act of terrorism.

                                  the original trIa program was to expire on December 31, 2005, but the Program was extended through December 31, 2007 by the
                                  Terrorism Risk Insurance Extension Act of 2005 (extension act). this law included the following significant changes: it reduced the
                                  federal role in terrorism risk insurance markets by increasing insurer deductibles and excluding certain types of previously covered
                                  insurance. the extension act also reduced the u.s. government’s share of insured losses and added a “Program trigger” provision
                                  which precludes federal payments unless insured losses from a certified act of terrorism exceed $ 100 million.

                                  on December 26, 2007, the Terrorism Risk Insurance Program Reauthorization Act of 2007 (reauthorization act) was enacted
                                  extending the Program through December 31, 2014. the reauthorization act, among other Program changes, revised the definition
                                  of “act of terrorism” to remove the certification requirement that the act be committed by an individual acting on behalf of a foreign




                                  264                                                                              note 31. commitments and contingencies
                                                          performance and accountability report | fiscal year 2010




person or foreign interest; revised the provisions of the act with regard to the cap on annual liability for insured losses of $100
billion; and established deadlines by which recoupment of federal payments made under the Program would have to be accomplished.

In september 2008, the Department issued two notices of proposed rulemaking with requests for comment. one proposed rule
incorporated and clarified statutory requirements of the reauthorization act for capping the annual liability for insured losses at $100
billion. the proposed rule described how the Department will determine the pro rata share of insured losses to be paid by each insurer
that incurs losses under the Program when insured losses would otherwise exceed the cap and how the federal share of compensation
will be calculated. the Department issued a final rule on December 14, 2009.

the other proposed rule set forth the requirements for recoupment of the federal share of compensation for insured losses. the rule
described how the Department will determine the amounts to be recouped and the requirements for insurers to collect, report, and
remit surcharges to the Department. the Department issued a final rule on December 14, 2009. there were no claims under trIa as
of september 30, 2010, or september 30, 2009.

on august 3, 2010, the Department issued a notice of proposed rulemaking with requests for comment. the intent of this rule
is to provide a process by which the Department would close out its claims operation for insured losses from a Program year. the
Department expects to issue a final rule incorporating public comments early in fiscal year 2011.

Exchange Stabilization Agreement (ESA)
In april 1994, treasury signed the north american framework agreement (nafa), which includes the esa with Mexico. the
Department has a standing swap line for $3 billion with Mexico under the nafa and its implementing esa. the amounts and
terms (including the assured source of repayment) of any borrowing under nafa and esa will have to be negotiated and agreed to
before any actual drawing can occur. the esa does provide sample clauses that state that transactions shall be exchange rate neutral
for the esf and shall bear interest based on a then current rate tied to u.s. treasury bills. there were no drawings outstanding on the
esf swap line as of september 30, 2010 and september 30, 2009. on December 10, 2008, the Department renewed its participation
in the agreement until December 2010.

New Arrangements to Borrow (NAB)
Public law 111-32 also provided the authorization and appropriations for an increase in the united states participation in the
nab by the dollar equivalent of sDr 75,000 million which at the sDr/dollar exchange rate applicable on september 30, 2010
is equivalent to $116,714 million. however, this increase in the united states participation in the nab is not effective as of
september 30, 2010 and will not come into effect until all IMf member countries participating in the nab submit notification
of their consent to modifications to the decision governing the nab and to their new sDr commitments to the nab. although
$119,000 million was appropriated under Public law 111-32, the united states publicly stated that it would limit its commitment




                                                                                                                                           part 3: annual financial report
to $100,000 million and agreed to a final commitment – which has not yet come into effect - of sDr 69,074.27 million (from sDr
6,639.83 million) on May 10, 2010 pursuant to IMf executive board Decision no. 14577-(10/35) adopted april 12, 2010. as with
the quota increase, the new portion of the nab will be subject to the fcra and treated as a direct loan. similarly, this will not
affect the treatment of the reserve position in the IMf, only the budget presentation.

Contingent Liability to Government Sponsored Enterprises
the Department has recorded a contingent liability at september 30, 2010 of $359,900 million ($76,937 million at september 30,
2009) to the government sponsored enterprises, fannie Mae and freddie Mac, based on probable future liability under the senior
Preferred stock Purchase agreement between the Department and the gses. refer to note 9 for a full description of the agreements
and related contingent liability.




note 31. commitments and contingencies                                                                                             265
                                  the department of the treasury




                                  r equireD supplemental i nfOrmatiOn (unauDiteD)

                                  Introduction
                                  this section provides the required supplemental Information as prescribed by office of Management and budget (oMb) circular
                                  a-136, financial reporting requirements, as amended.


                                  Other Claims For Refunds
                                  the Department has estimated that $27,587 million may be payable as other claims for tax refunds. this estimate represents amounts
                                  (principal and interest) that may be paid for claims pending judicial review by the federal courts or internally. the total estimated
                                  payout (including principal and interest) for claims pending judicial review by the federal courts is $19,603 million and by appeals is
                                  $7,984 million.


                                  Federal Taxes Receivable, Net
                                  In accordance with sffas no. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling Budgetary and
                                  Financial Accounting, some unpaid tax assessments do not meet the criteria for financial statement recognition as discussed in note 1
                                  to the financial statements. although compliance assessments and write-offs are not considered receivables under federal accounting
                                  standards, they represent legally enforceable claims of the u.s. government. there is, however, a significant difference in the
                                  collection potential between compliance assessments and receivables.

                                  the components of the total unpaid assessments at september 30, 2010 and september 30, 2009, were as follows (in millions):

                                                                                                                                          2010                       2009
                                   Total Unpaid Assessments                                                                       $     330,000              $     308,000
                                   Less: Compliance Assessments                                                                         (93,000)                   (75,000)
                                         Write Offs                                                                                     (99,000)                 (105,000)
                                   Gross Federal Taxes Receivable                                                                       138,000                    128,000
                                   Less: Allowance for Doubtful Accounts                                                              (103,091)                    (99,000)
                                   Federal Taxes Receivables, Net                                                                 $      34,909              $       29,000



                                  to eliminate double counting, the compliance assessments reported above exclude trust fund recovery penalties, totaling $2,850
part 3: annual financial report




                                  million, assessed against officers and directors of businesses who were involved in the non-remittance of federal taxes withheld from
                                  their employees. the related unpaid assessments of those businesses are reported as taxes receivable or write-offs, but the Department
                                  may also recover portions of those businesses’ unpaid assessments from any and all individual officers and directors against whom a
                                  trust fund recovery penalty is assessed.

                                  Internal Revenue Service (IRS)
                                  the unpaid assessments balance represents assessments resulting from taxpayers filing returns without sufficient payment, as well
                                  as from the Irs’s enforcement programs such as examination, under-reporter, substitute for return, and combined annual wage
                                  reporting. a significant portion of this balance is not considered a receivable. also, a substantial portion of the amounts considered
                                  receivables is largely uncollectible.

                                  under federal accounting standards, unpaid assessments require taxpayer or court agreement to be considered federal taxes receivable.
                                  assessments not agreed to by taxpayers or the courts are considered compliance assessments and are not considered federal taxes
                                  receivable. Due to the lack of agreement, these compliance assessments are less likely to have future collection potential than those
                                  unpaid assessments that are considered federal taxes receivable.


                                  266                                                                   required supplemental information (unaudited)
                                                          performance and accountability report | fiscal year 2010




assessments with little or no future collection potential are called write-offs. Write-offs principally consist of amounts owed by
deceased, bankrupt, or defunct taxpayers, including many failed financial institutions liquidated by the federal Deposit Insurance
corporation (fDIc) and the former resolution trust corporation (rtc). as noted above, write-offs have little or no future
collection potential, but statutory provisions require that these assessments be maintained until the statute for collection expires.


Alcohol and Tobacco Tax and Trade Bureau (TTB)
as an agent of the federal government and as authorized by 26 u.s.c., the alcohol and tobacco tax and trade bureau (ttb)
collects excise taxes from alcohol, tobacco, firearms, and ammunition industries. In addition, special occupational taxes are collected
from certain tobacco businesses. During fiscal year 2010, ttb collected nearly $23,800 million in taxes, interest, and other revenues.
federal excise taxes are also collected on certain articles produced in Puerto rico and the Virgin Islands, and imported into the
united states. In accordance with 26 u.s.c. 7652, such taxes collected on rum imported into the united states are “covered over”
or paid into the treasuries of Puerto rico and the Virgin Islands.

substantially all of the taxes collected by ttb net of related refund disbursements are remitted to the general fund of the u.s.
government. the Department further distributes this revenue to federal agencies in accordance with various laws and regulations.
the firearms and ammunition excise taxes are an exception. those revenues are remitted to the fish and Wildlife restoration fund
under provisions of the Pittman-Robertson Act of 1937.


Deferred Maintenance
In fiscal year 2010 and 2009, the Department had no material amounts of deferred maintenance costs to report on vehicles, buildings,
and structures owned by the Department.

Deferred maintenance applies to owned PP&e. Deferred maintenance is maintenance that was not performed when it should have
been, or was scheduled to be, and is put off or delayed for a future period. Maintenance is defined as the act of keeping capitalized
assets in an “acceptable condition” to serve their required mission. It includes preventive maintenance, normal repairs, replacement
of parts and structural components, and other activities needed to preserve the asset so that it continues to provide acceptable
services and achieves its expected useful life. Maintenance excludes activities aimed at expanding the capacity or significantly
upgrading the assets to a different form than it was originally intended (i.e., activities related to capitalized improvements,
modernization, and/or restoration).

logistic personnel use condition assessment surveys and/or the total life-cycle cost methods to determine deferred maintenance and
acceptable operating condition of an asset. Periodic condition assessments, physical inspections, and review of manufacturing and
engineering specifications, work orders, and building and other structure logistics reports can be used under these methodologies.




                                                                                                                                              part 3: annual financial report
Statement of Budgetary Resources Disaggregated by Treasury Reporting Entity
the following table provides the statement of budgetary resources disaggregated by treasury reporting entity for fiscal year 2010. In
addition, a new table provides the fiscal year 2010 sbr by significant programs within the Departmental offices.




required supplemental information (unaudited)                                                                                           267
                                  the department of the treasury




                                  Fiscal Year 2010 Statement of Budgetary Resources Disaggregated by Sub-organization Accounts
                                  (in millions)
                                                                                                 Bureau of            Bureau                         Fin. Crimes       Financial           Internal
                                                                                                 Engraving               of the   Departmental      Enforcement     Management            Revenue
                                                                                                 & Printing        Public Debt          Offices         Network          Service           Service
                                  BUDGETARY RESOURCES
                                  Unobligated balance, brought forward, Oct. 1                   $       46    $            91    $    454,924        $       25     $        274     $        876
                                  Recoveries of prior year unpaid obligations                             0                  9          42,191                 1               24               90
                                  Budget authority:
                                    Appropriations (Note 23)                                              0           512,067           19,468              111           24,818            12,443
                                    Borrowing authority:                                                  0                 0          151,473                0                0                 0
                                    Spending Authority from Offsetting Collections:
                                    Earned:
                                       Collected                                                       632                 213         208,575                 4              236              136
                                       Change in receivables from Federal sources                        0                  (5)              4                 3               (3)              23
                                    Change in unfilled customer orders:
                                       Advance received                                                 (3)                   0              (45)             0                   0               0
                                       Without advance from Federal sources                              0                  (4)          (5,105)              3                 (5)               1
                                       Anticipated for rest of year, w/o advances                        0                    0                0              0                  0                0
                                    Subtotal                                                           629            512,271           374,370             121           25,046            12,603
                                  Non-expenditure transfers, net                                         0                  (4)              394              0               (29)                0
                                  Temporarily not available pursuant to Public Law                       0                  (5)            (137)              0                  0                0
                                  Permanently not available                                              0            (97,800)        (130,177)               0           (8,620)             (152)
                                  Total Budgetary Resources                                      $     675     $      414,562     $    741,565        $     147      $    16,695      $     13,417
                                  STATUS OF BUDGETARY RESOURCES
                                  Obligations incurred (Note 25):
                                    Direct                                                               0            414,266          371,565              109           16,185            12,475
                                    Reimbursable                                                       616                201              299               10              223               136
                                    Subtotal                                                           616            414,467          371,864              119           16,408            12,611
                                  Unobligated Balance:
                                    Apportionment                                                       59                 80          287,754               26              273               236
                                    Exempt from apportionment                                            0                  0           12,116                0                2                 0
                                    Subtotal                                                            59                 80          299,870               26              275               236
                                  Unobligated balance not available                                      0                 15           69,831                2               12               570
                                  Total Status of Budgetary Resources                            $     675     $      414,562     $    741,565        $     147      $    16,695      $     13,417
                                  CHANGE IN OBLIGATED BALANCE
                                  Obligated balance, net:
                                    Unpaid obligations brought forward, Oct. 1                         115                  75         184,825                15              339            1,620
part 3: annual financial report




                                    Uncollected customer payments from Federal sources brought
                                       forward                                                          (29)               (23)         (28,958)              (5)             (37)              (32)
                                    Total unpaid obligated balance, net                                  86                 52          155,867               10              302             1,588
                                  Obligations incurred, net                                             616            414,467          371,864              119           16,408            12,611
                                  Gross outlays                                                       (614)          (414,457)        (285,223)            (102)         (16,310)          (12,335)
                                  Recoveries of prior year unpaid obligations, actual                     0                 (9)        (42,191)               (1)             (24)              (90)
                                  Change In uncollected customer payments from Federal source             0                  9            5,101               (6)               8               (24)
                                  Obligated balance, net, end of period:
                                    Unpaid obligations                                                 117                   76        229,275                30              413            1,807
                                    Uncollected customer payments Federal sources                      (29)                (14)        (23,857)             (10)              (29)             (57)
                                    Total unpaid obligated balance, net, end of period           $      88     $            62    $    205,418        $      20      $        384     $      1,750
                                  NET OUTLAYS
                                  Net Outlays:
                                    Gross outlays                                                       614           414,457           285,223             102           16,310            12,335
                                    Offsetting collections                                            (629)              (213)        (208,530)              (4)            (236)             (136)
                                    Distributed offsetting receipts                                       0           (36,615)        (141,300)               0             (279)             (715)
                                    Net Outlays                                                  $     (15)    $      377,629     $    (64,607)       $      98      $    15,795      $     11,484



                                  268                                                                          required supplemental information (unaudited)
                                                                    performance and accountability report | fiscal year 2010




                                                                               Office of the         Office          Alcohol and
                                                                              Comptroller of       of Thrift    Tobacco Tax and                               Non-
                                                                   U. S. Mint the Currency      Supervision        Trade Bureau         Budgetary         Budgetary
BUDGETARY RESOURCES
Unobligated balance, brought forward, Oct. 1                   $          246     $     793        $    310           $        3    $     415,761     $      41,827
Recoveries of prior year unpaid obligations                                29             0               4                    1            2,979            39,370
Budget authority:
  Appropriations (Note 23)                                                   0             0               0                103           569,010                 0
  Borrowing authority:                                                       0             0               0                  0                 1           151,472
  Spending Authority from Offsetting Collections:
  Earned:
     Collected                                                         3,519            794             234                    4            9,401           204,946
     Change in receivables from Federal sources                            0              0               0                    0               22                 0
  Change in unfilled customer orders:
     Advance received                                                       0             0              (8)                  0                (56)              0
     Without advance from Federal sources                                   1             0               0                   0                  2         (5,111)
     Anticipated for rest of year, w/o advances                             0             0               0                   0                  0              0
  Subtotal                                                             3,520            794             226                 107           578,380         351,307
Non-expenditure transfers, net                                              0             0               0                   0                361              0
Temporarily not available pursuant to Public Law                            0             0               0                   0              (142)              0
Permanently not available                                                (13)             0               0                   0           (47,341)      (189,421)
Total Budgetary Resources                                      $       3,782      $   1,587        $    540           $     111     $     949,998     $ 243,083
STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 25):
  Direct                                                                   0              0               0                 102           595,438           219,264
  Reimbursable                                                         3,671            740             236                   4             6,136                 0
  Subtotal                                                             3,671            740             236                 106           601,574           219,264
Unobligated Balance:
  Apportionment                                                          111              0               0                   3           267,581            20,961
  Exempt from apportionment                                                0            847             304                   0            13,269                 0
  Subtotal                                                               111            847             304                   3           280,850            20,961
Unobligated balance not available                                          0              0               0                   2            67,574             2,858
Total Status of Budgetary Resources                            $       3,782      $   1,587        $    540           $     111     $     949,998     $     243,083
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
  Unpaid obligations brought forward, Oct. 1                              191           177               41                  21          108,210            79,209
  Uncollected customer payments from Federal sources brought




                                                                                                                                                                        part 3: annual financial report
     forward                                                                (7)           (3)               0                 (2)             (168)          (28,928)
  Total unpaid obligated balance, net                                     184            174              41                  19           108,042            50,281
Obligations incurred, net                                               3,671            740             236                 106           601,574           219,264
Gross outlays                                                         (3,604)          (733)           (229)               (103)         (524,098)         (209,612)
Recoveries of prior year unpaid obligations, actual                       (29)             0              (4)                 (1)           (2,979)         (39,370)
Change In uncollected customer payments from Federal source                (1)             0               0                   0               (24)            5,111
Obligated balance, net, end of period:
  Unpaid obligations                                                      229           185              44                  22           182,707             49,491
  Uncollected customer payments Federal sources                            (8)           (4)              0                  (1)            (192)           (23,817)
  Total unpaid obligated balance, net, end of period           $          221     $     181        $     44           $      21     $     182,515     $       25,674
NET OUTLAYS
Net Outlays:
  Gross outlays                                                         3,604            733             229                103         524,098          209,612
  Offsetting collections                                              (3,519)          (794)           (226)                 (4)         (9,345)       (204,946)
  Distributed offsetting receipts                                           0              0               0                  0       (169,303)           (9,606)
  Net Outlays                                                  $           85     $     (61)       $       3          $      99     $ 345,450         $ (4,940)



required supplemental information (unaudited)                                                                                                                   269
                                  the department of the treasury




                                  Fiscal Year 2010 Statement of Budgetary Resources Disaggregated by Departmental Offices Accounts
                                  (in millions)
                                                                                            Exchange      Government         Internal       Office of
                                                                                          Stabilization    Sponsored      Assistance        Financial            All        Combined
                                                                                                  Fund     Enterprises     Programs          Stability        Others            Total
                                  BUDGETARY RESOURCES
                                  Unobligated balance, brought forward                     $ 44,001       $    337,290    $   34,303    $     37,101     $     2,229    $     454,924
                                  Recoveries of prior year unpaid obligations                      983               6           516          40,537             149           42,191
                                  Budget authority:
                                    Appropriations (Note 23)                                         0               0         2,475            5,151         11,842           19,468
                                    Borrowing authority:                                             0          82,026             0          69,440               7          151,473
                                    Spending Authority from Offsetting Collections:
                                        Earned:
                                             Collected                                             276          48,826           911         156,112           2,450          208,575
                                             Change in receivables from Federal sources              0               0             0                0              4                4
                                    Change in unfilled customer orders:
                                        Advance received                                             0               0             0                0            (45)             (45)
                                        Without advance from Federal sources                         0               0             0          (5,111)              6           (5,105)
                                    Anticipated for rest of year, w/o advances                                       0                              0              0                0
                                        Subtotal                                                   276         130,852         3,386         225,592          14,264          374,370
                                  Non-expenditure transfers, net                                     0              29            67                0            298              394
                                  Temporarily not available pursuant to Public Law                   0               0             0                0           (137)            (137)
                                  Permanently not available                                     59,510         (81,440)            0        (107,976)           (271)        (130,177)
                                  Total Budgetary Resources                                $ 104,770      $    386,737    $   38,272    $    195,254     $    16,532    $     741,565
                                  STATUS OF BUDGETARY RESOURCES
                                  Obligations incurred (Note 25):
                                    Direct                                                 $ 61,169       $    121,658    $    3,414    $    173,631     $    11,693    $     371,565
                                    Reimbursable                                                     0               0             0                0            299              299
                                    Subtotal                                                    61,169         121,658         3,414         173,631          11,992          371,864
                                  Unobligated Balance:
                                    Apportionment                                                    0         265,077        12,343            7,834          2,500          287,754
                                    Exempt from apportionment                                        0               0        11,624                0            492           12,116
                                    Subtotal                                                         0         265,077        23,967            7,834          2,992          299,870
                                  Unobligated balance not available                             43,601               2        10,891          13,789           1,548           69,831
                                  Total Status of Budgetary Resources                       $ 104,770     $    386,737    $   38,272    $    195,254     $    16,532    $     741,565
                                  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
                                  Obligated balance, net:
                                    Unpaid obligations brought forward, Oct. 1              $        0    $          6    $   46,206    $    135,353     $     3,260    $     184,825
part 3: annual financial report




                                    Uncollected customer payments from Federal sources
                                      brought forward                                                0               0             0         (28,927)            (31)         (28,958)
                                    Total unpaid obligated balance, net                              0               6        46,206         106,426           3,229          155,867
                                  Obligations incurred, net                                     61,169         121,658         3,414         173,631          11,992          371,864
                                  Gross outlays                                                      0        (114,083)       (3,478)       (157,401)        (10,261)        (285,223)
                                  Recoveries of prior year unpaid obligations, actual            (983)              (6)         (516)        (40,537)           (149)         (42,191)
                                  Change In uncollected customer payments from Federal
                                  source                                                             0               0             0            5,111            (10)           5,101
                                  Obligated balance, net, end of period:
                                    Unpaid obligations                                          60,186           7,575        45,626         111,046           4,842          229,275
                                    Uncollected customer payments Federal sources                    0               0             0         (23,816)            (41)         (23,857)
                                  Total unpaid obligated balance, net, end of period            60,186           7,575        45,626          87,230           4,801         205,418
                                  Net Outlays:
                                    Gross outlays                                          $         0    $    114,083    $    3,478    $    157,401     $    10,261    $     285,223
                                    Offsetting collections                                       (276)         (48,826)         (911)       (156,112)         (2,405)        (208,530)
                                    Distributed offsetting receipts                                  0         (21,748)          (24)       (118,860)           (668)        (141,300)
                                    Net Outlays                                            $     (276)    $     43,509    $    2,543    $   (117,571)    $     7,188    $    (64,607)


                                  270                                                                              required supplemental information (unaudited)
part 4:

other
accompanying
information

APPendiceS

a ppenDix a: O ther a CCOmpanying i nfOrmatiOn (u nauDiteD )

a ppenDix b: i mprOper p ayments i nfOrmatiOn a Ct   anD

             r eCOvery a uDiting a Ct

a ppenDix C: m anagement anD p erfOrmanCe C hallenges
             anD r espOnses


a ppenDix D: m aterial W eaknesses , a uDit f OllOW - up ,
             f inanCial s ystems , anD r eCOvery a Ct r isk
             m anagement

a ppenDix e: g lOssary   Of   a CrOnyms
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                                                     performance and accountability report | fiscal year 2010




appendix a:

otHer accoMPanyinG inforMation (unaudited)



   this section provides other accompanying Information as prescribed by oMb circular no. a-136, Financial Reporting
   Requirements.




p rOmpt payment
the Prompt Payment Act requires federal agencies to make time­                                                                 Percentage of    1.40%
                                                                                                                               Number of
ly payments to vendors for supplies and services, to pay interest                                                              Invoices         1.20%
                                                                                                                               Paid Late
penalties when payments are made after the due date, and to                                                                                     1.00%

take cash discounts only when they are economically justified.




                                                                                                                                                                                                                     part 4: other accompanying information
                                                                                                                                                0.80%

treasury bureaus report Prompt Payment data on a monthly                                                                                        0.60%

basis to the Department, and periodic quality control reviews                                                                                   0.40%

are conducted by the bureaus to identify potential problems.                                                                                    0.20%




                                                                                                                                                         1.39%



                                                                                                                                                                   1.05%



                                                                                                                                                                                0.84%



                                                                                                                                                                                           0.52%



                                                                                                                                                                                                     0.25%
                                                                                                                                                0.00%
                                                                                                                                                         2006      2007        2008        2009      2010

                                                                                                                                                                             Fiscal Year



 Total Dollar                                   $7,000                                                                         Percentage of    0.002%
 Amount of                                                                                                                     Dollar Amount
 Invoices Paid                                  $6,000                                                                         of Interest
                                                                                                                               Penalties Paid   0.015%
                        Dollars (in Millions)




                                                $5,000

                                                $4,000
                                                                                                                                                0.010%
                                                $3,000

                                                $2,000
                                                                                                                                                0.005%
                                                              $4,227



                                                                          $4,384



                                                                                        $4,704



                                                                                                      $4,773



                                                                                                                  $6,250




                                                                                                                                                          0.002%



                                                                                                                                                                    0.001%



                                                                                                                                                                                0.001%



                                                                                                                                                                                            0.001%



                                                                                                                                                                                                      0.001%
                                                $1,000

                                                      $0                                                                                        0.000%
                                                             2006        2007           2008          2009       2010                                    2006      2007         2008       2009      2010

                                                                                      Fiscal Year                                                                            Fiscal Year



 Total Number of                                600                                                                            Percentage        0.5%
 Invoices Paid                                                                                                                 of Number
                                                500                                                                            of Interest
                                                                                                                                                 0.4%
                                                                                                                               Penalties Paid
                   Number (in Thousands)




                                                400
                                                                                                                                                 0.3%
                                                300
                                                                                                                                                 0.2%
                                                200

                                                                                                                                                 0.1%
                                                100
                                                                                                                                                         0.38%



                                                                                                                                                                   0.42%



                                                                                                                                                                                0.28%



                                                                                                                                                                                           0.17%



                                                                                                                                                                                                     0.08%
                                                           160



                                                                       166



                                                                                      191



                                                                                                    338



                                                                                                               541




                                                  0                                                                                              0.0%
                                                           2006        2007          2008        2009          2010                                      2006      2007        2008        2009      2010

                                                                                   Fiscal Year                                                                               Fiscal Year




appendix a: other accompanying information (unaudited)                                                                                                                                                         273
                                         the department of the treasury




                                         tax gap
                                         reducing the tax gap is at the heart of Irs’ enforcement programs. the tax gap is the difference between what taxpayers should
                                         pay and what they actually pay due to not filing tax returns, not paying their reported tax liability on time, or failing to report their
                                         correct tax liability. the tax gap, about $345 billion based on updated fiscal year 2001 estimates, represents the amount of noncom­
                                         pliance with the tax laws. underreporting tax liability accounts for 82 percent of the gap, with the remainder almost evenly divided
                                         between non-filing (8 percent) and underpaying (10 percent). the Irs remains committed to finding ways to increase compliance
                                         and reduce the tax gap, while minimizing the burden on the vast majority of taxpayers who pay their taxes accurately and on time.

                                         the tax gap is the aggregate amount of tax (i.e., excluding interest and penalties) that is imposed by the tax laws for any given tax
                                         year but is not paid voluntarily and timely. the tax gap arises from the three types of noncompliance: not filing required tax returns
                                         on time or at all (the non-filing gap), underreporting the correct amount of tax on timely filed returns (the underreporting gap), and
                                         not paying on time the full amount reported on timely filed returns (the underpayment gap). of these three components, only the
                                         underpayment gap is observed; the non-filing gap and the underreporting gap must be estimated. each instance of noncompliance
part 4: other accompanying information




                                         by a taxpayer contributes to the tax gap, whether or not the Irs detects it, and whether or not the taxpayer is even aware of the
                                         noncompliance. obviously, some of the tax gap arises from intentional (willful) noncompliance, and some of it arises from uninten­
                                         tional mistakes.

                                         the collection gap is the cumulative amount of tax, penalties, and interest that has been assessed over many years, but has not been
                                         paid by a certain point in time, and which the Irs expects to remain uncollectible. In essence, it represents the difference between
                                         the total balance of unpaid assessments and the net taxes receivable reported on the Irs’ balance sheet. the tax gap and the collec­
                                         tion gap are related and overlapping concepts, but they have significant differences. the collection gap is a cumulative balance sheet
                                         concept for a particular point in time, while the tax gap is like an income statement item for a single year. Moreover, the tax gap
                                         estimates include all noncompliance, while the collection gap includes only amounts that have been assessed (a small portion of all
                                         noncompliance).




                                         274                                                   appendix a: other accompanying information (unaudited)
                                                                                                                       performance and accountability report | fiscal year 2010




tax burDen
the Internal revenue code provides for progressive rates of tax, whereby higher incomes are generally subject to higher rates of
tax. the following graphs and charts present the latest available information on income tax and adjusted gross income (agI) for
individuals by agI level and for corporations by size of assets. for individuals, the information illustrates, in percentage terms, the
tax burden borne by varying agI levels. for corporations, the information illustrates, in percentage terms, the tax burden borne by
these entities by various sizes of their total assets. the graphs are only representative of more detailed data and analysis available from
the statistics of Income (soI) office.




 Average                       $1,600,000
                                                                                                                                                      Individual                        25%

                                                                                                                       $1,633,572
 Adjusted Gross                                  Average AGI                                                                                          Income Tax
 Income (AGI)                  $1,400,000                                                                                                             Liability as a
                                                 Average income tax                                                                                                                     20%
 and Average                   $1,200,000                                                                                                             Percentage




                                                                                                                                                                                                                                                                         part 4: other accompanying information
 Individual Income                                                                                                                                    of AGI
                               $1,000,000                                                                                                                                               15%
 Tax Liability                                                                                                                                        Tax Year 2008
                     Dollars




                                $800,000




                                                                                                                                                                             Percent
 Tax Year 2008
                                                                                                                                    $381,445




                                                                                                                                                                                        10%
                                                                                                            $285,714




                                $600,000
                                                                                          $133,211




                                $400,000
                                                                             $70,934




                                                                                                      $55,709
                                                                 $39,117




                                                                                                                                                                                        5%
                                                      $22,065




                                                                                       $16,769




                                                                                                                                                                                                                                       12.6%


                                                                                                                                                                                                                                                  19.5%


                                                                                                                                                                                                                                                          23.4%
                                            $2,740




                                                                $2,221




                                                                                                                                                                                               2.1%


                                                                                                                                                                                                       2.9%


                                                                                                                                                                                                                  5.7%


                                                                                                                                                                                                                           8.4%
                                                                           $5,968




                                $200,000
                                                     $639
                                            $59




                                      $0                                                                                                                                                0%
                                            Under $15,000 $30,000 $50,000 $100,000 $200,000 $500,000                                                                                          Under $15,000 $30,000 $50,000 $100,000 $200,000 $500,000
                                            $15,000 under    under   under under       under or more                                                                                          $15,000 under    under   under under       under or more
                                                    $30,000 $50,000 $100,000 $200,000 $500,000                                                                                                        $30,000 $50,000 $100,000 $200,000 $500,000




 INDIvIDUAL INCOME TAX LIABILITY
 Tax Year 2008
                                                       Number of                                                                                                            Average AGI                    Average income
                                                 taxable returns                                          AGI                                  Total income tax               per return                      tax per return                     Income tax as a
 Adjusted gross income (AGI)                      (in thousands)                                 (in millions)                                      (in millions)      (in whole dollars)                 (in whole dollars)                   percentage of AGI

 Under $15,000                                              37,970                         $            104,025                                  $        2,227          $               2,740                $                   59                              2.1%
 $15,000 under $30,000                                      29,687                                      655,035                                         18,958                          22,065                               639                                  2.9%
 $30,000 under $50,000                                      25,641                                   1,002,998                                          56,953                          39,117                             2,221                                  5.7%
 $50,000 under $100,000                                     30,926                                   2,193,691                                         184,554                          70,934                             5,968                                  8.4%
 $100,000 under $200,000                                    13,851                                   1,845,103                                         232,270                         133,211                            16,769                              12.6%
 $200,000 under $500,000                                        3,477                                   993,427                                        193,700                         285,714                            55,709                              19.5%
 $500,000 or more                                                 899                                1,468,581                                         342,919                  1,633,572                                381,445                              23.4%

 Totals                                                   142,451                      $             8,262,860                                   $ 1,031,581




appendix a: other accompanying information (unaudited)                                                                                                                                                                                                            275
                                         the department of the treasury




                                                                       40%
                                          Corporation
                                          Tax Liability as
                                          a Percentage                 35%
                                          of Taxable
                                          Income
                                                             Percent




                                          Tax Year 2007                20%
                                          Data
                                                                       10%
                                                                              32.7%

                                                                                       19.3%

                                                                                                   23.7%

                                                                                                                 29.7%

                                                                                                                                 33.0%

                                                                                                                                                33.3%

                                                                                                                                                                33.1%

                                                                                                                                                                                32.4%

                                                                                                                                                                                                 32.5%

                                                                                                                                                                                                                  31.0%

                                                                                                                                                                                                                                   30.6%

                                                                                                                                                                                                                                                    25.0%
                                                                       0%
                                                                               Zero
                                                                             assets



                                                                                                 $500 under
                                                                                                      $1,000
                                                                                                               $1,000 under
                                                                                                                      $5,000
                                                                                                                               $5,000 under
                                                                                                                                    $10,000
                                                                                                                                              $10,000 under
                                                                                                                                                    $25,000
                                                                                                                                                              $25,000 under
                                                                                                                                                                    $50,000
                                                                                                                                                                              $50,000 under
                                                                                                                                                                                   $100,000
                                                                                                                                                                                              $100,000 under
                                                                                                                                                                                                    $250,000
                                                                                                                                                                                                               $250,000 under
                                                                                                                                                                                                                     $500,000
                                                                                                                                                                                                                                $500,000 under
                                                                                                                                                                                                                                     $2,500,000
                                                                                                                                                                                                                                                  $2,500,000
                                                                                                                                                                                                                                                    or more
                                                                                      $1 under
                                                                                          $500




                                         CORPORATION TAX LIABILITY
                                         Tax Year 2007
                                                                                                                                                                      Income subject to tax                                                                    Total income tax after credits    Percentage of income tax after
part 4: other accompanying information




                                         Total Assets (in thousands)                                                                                                           (in millions)                                                                                     (in millions)        credits to taxable income
                                         Zero Assets                                                                                                                                    $                                26,280                                             $          8,593                             32.7%
                                         $1 under $500                                                                                                                                                                    8,205                                                        1,582                             19.3%
                                         $500 under $1,000                                                                                                                                                                4,292                                                        1,017                             23.7%
                                         $1,000 under $5,000                                                                                                                                                             15,577                                                        4,628                             29.7%
                                         $5,000 under $10,000                                                                                                                                                            10,008                                                        3,299                             33.0%
                                         $10,000 under $25,000                                                                                                                                                           16,650                                                        5,547                             33.3%
                                         $25,000 under $50,000                                                                                                                                                           13,139                                                        4,347                             33.1%
                                         $50,000 under $100,000                                                                                                                                                          16,621                                                        5,392                             32.4%
                                         $100,000 under $250,000                                                                                                                                                         27,977                                                        9,100                             32.5%
                                         $250,000 under $500,000                                                                                                                                                         35,046                                                       10,876                             31.0%
                                         $500,000 under $2,500,000                                                                                                                                                      145,944                                                       44,586                             30.6%
                                         $2,500,000 or more                                                                                                                                                             928,546                                                      232,408                             25.0%
                                         Total                                                                                                                                          $                             1,248,285                                             $        331,375                             26.5%




                                         276                                                                                                                                                                   appendix a: other accompanying information (unaudited)
                                                          performance and accountability report | fiscal year 2010




appendix b:
iMProPer PayMents inforMation act and
recoVery auditinG act

the Improper Payments Information Act of 2002 (IPIa) requires agencies to review their programs and activities annually to identify
those susceptible to significant improper payments. according to the office of Management and budget (oMb) circular a-123,
Management’s Responsibility for Internal Control, appendix c, Requirements for Effective Measurement and Remediation of Improper
Payments (a-123, appendix c), “significant” means that an estimated error rate and a dollar amount exceed the threshold of 2.5
percent and $10 million of total program funding. a-123, appendix c also requires the agency to implement a corrective action plan
that includes improper payment reduction targets.

the government-wide chief financial officers council developed an alternative for meeting IPIa requirements for federal programs
that are so complex that developing an annual error rate is not feasible. agencies may establish an annual estimate for a high-risk
component of a complex program (e.g., a specific program population) with oMb approval. agencies must also perform trend




                                                                                                                                            part 4: other accompanying information
analyses to update the program’s baseline error rate in the interim years between detailed program studies. When development of a
statistically valid error rate is possible, the reduction targets are revised and become the basis for future trend analyses.

I.	 Description of the Department’s risk assessment(s) performed subsequent to compiling its full
    program inventory and risk-susceptible programs
    each year, the Department develops a comprehensive inventory of the funding sources for all programs and activities and distrib­
    utes it to the treasury bureaus and offices. If program or activity funding is at least $10 million, risk assessments are required at
    the payment type level (e.g., payroll, contracts, vendors, travel, etc.). the Department’s risk assessment follows the committee
    of sponsoring organizations of the treadway commission (coso) Internal control Integrated framework. the framework
    includes:
        1. Internal control environment
        2. risk assessment
        3. Internal control activities
        4. Information and communications
        5. Monitoring

    Within the coso Integrated framework, the factors addressed to determine risk levels include:
      •	   Operating Environment – existence of factors which necessitate or allow for loosening of financial controls; any known
           instances of fraud
      •	   Payment Processing Controls – Management’s implementation of internal controls over payment processes including
           existence of current documentation, the assessment of design and operating effectiveness of internal controls over pay­
           ments, the identification of deficiencies related to payment processes, and whether or not effective compensating controls
           are present
      •	   Quality of Internal Monitoring Controls – Periodic internal program reviews to determine if payments are made properly;
           strength of documentation requirements and standards to support testing of design and operating effectiveness for key
           payment controls
      •	   Human Capital – experience, training, and size of payment staff; ability of staff to handle peak payment requirements; level
           of management oversight and monitoring against fraudulent activity




appendix b: improper payments information act and recovery auditing act                                                              277
                                         the department of the treasury




                                                    •	   Complexity of Program – length of time program has been operating; complexity and variability of interpreting and
                                                         applying laws, regulations, and standards required of the program

                                               for those payment types resulting in high-risk assessments that comprise at least 2.5 percent and $10 million of a total funding
                                               source, (1) statistical sampling must be performed to determine the actual improper payment rate, and (2) a corrective action
                                               plan must be developed and submitted to the Department and oMb for approval.

                                               responses to the risk assessments produce a score that falls into pre-determined categories of risk. the following table describes
                                               the actions required at each risk level:

                                                                                     Risk Level                                                           Required Action(s)
                                                   High Risk > 2.5% Error Rate & > $10 Million                               Corrective Action Plan
                                                   Medium Risk                                                               Review Payment Controls for Improvement
                                                   Low Risk                                                                  No Further Action Required

                                               the risk assessments performed across the Department in fiscal year 2010 resulted in all programs and activities as low and
part 4: other accompanying information




                                               medium risk susceptibility for improper payments except for the Internal revenue service’s (Irs) earned Income tax credit
                                               (eItc) program. the eItc’s high-risk status is well-documented, having been previously identified in the former section 57
                                               of oMb circular a-11, Preparation, Submission, and Execution of the Budget, and has been deemed a complex program for the
                                               purposes of the IPIa.

                                               In addition to the risk assessments monitored under IPIa, the Department continued its review of initial risk assessments related
                                               to the American Recovery and Reinvestment Act of 2009 (recovery act) and required reassessments of high-risk recovery act
                                               programs.

                                         II.	 Describe the statistical sampling process conducted to estimate the improper payment rate for
                                              each program identified

                                               Earned Income Tax Credit
                                               the eItc is a refundable federal tax credit that offsets income taxes owed by low-income workers and, if the credit
                                               exceeds the amount of taxes owed, provides a lump-sum payment to those who qualify.

                                               the section below describes how the Irs currently develops its erroneous payment projections. the most recent projec­
                                               tion is based on a tax year 2006 reporting compliance study that estimated the level of improper overclaims for fiscal year
                                               2010 to range between $15.3 to $18.4 billion and 23.9 percent (lower bound) to 28.7 percent (upper bound) of approxi­
                                               mately $64.2 billion in total program payments.


                                               National Research Program (NRP) Analysis
                                               the complexity of the eItc program, the nature of tax processing, and the expense of compliance studies preclude statistical
                                               sampling on an annual basis to develop error rates for comparison to reduction targets. the estimates are based primarily on
                                               information from the national research Program (nrP) reporting compliance study of individual income tax returns for tax
                                               year 2006—the most recent year for which compliance information from a statistically valid, random sample of individual tax
                                               returns is available. the approach is nearly identical to that used for earlier years.

                                               under the tax year 2006 nrP reporting compliance study, individual income tax returns filed during calendar year 2007 for tax
                                               year 2006 were randomly selected for examination.1 this selection method allows the measures for the individual income tax

                                               1     the nrP used a stratified, random sample design. returns are grouped into predefined categories or “strata” and selected randomly within each
                                                     stratum.



                                         278                                      appendix b: improper payments information act and recovery auditing act
                                                                        performance and accountability report | fiscal year 2010




   return filing population to be estimated from the results of the nrP sample returns. because one of the objectives of the nrP
   is to provide data for compliance measurement, nrP procedures and data collection differed from those followed in standard
   examination programs. nrP classification and examination procedures were more comprehensive in scope and depth than those
   for standard examination programs. these expanded procedures were designed to provide a more thorough determination of
   what taxpayers should have reported on their returns.

   the tax year 2006 nrP individual income tax return study covered filers of all types of individual income tax returns. about
   2,200 of the returns in the regular nrP sample were eItc claimants. the nrP study results for this eItc claimant subset of
   nrP returns were the primary source of data for the improper payments estimates. other data and information sources used for
   the estimates included the Irs enforcement revenue Information system (erIs), which tracks assessments and collections
   from Irs enforcement-related activities; treasury Department estimates of the effect of the eItc provisions in the Economic
   Growth and Tax Relief Reconciliation Act of 2001 on erroneous eItc claims; and treasury Department fiscal year 2010 eItc
   budget estimates.

III. Describe the Corrective Action Plans for reducing the estimated rate of improper payments for




                                                                                                                                                                             part 4: other accompanying information
     the EITC program

   Base Program
   In 2010, the Irs prevented more than $3.7 billion from being paid in error. the prevention activity primarily focused on three
   areas:
     •	   Examinations – Irs identifies tax returns for examination and holds the eItc portion of the refund until an audit can
          be conducted. this is the only ongoing Irs audit program where exams are conducted before a refund is released. the
          examination closures and enforcement revenue protected in the charts below do not include test initiatives
     •	   Math Error – refers to an automated process in which the Irs identifies math or other statistical irregularities and auto­
          matically prepares an adjusted return for a taxpayer. congressional approval is required for math error use
     •	   Document Matching – Involves comparing income information provided by the taxpayer with matching information (e.g.,
          W-2s, 1099s) from employers to identify discrepancies

   the chart below shows significant results from fiscal year 2005 through an estimate of fiscal year 2011. In fiscal year 2010 alone,
   the Irs conducted over 474,000 examinations, issued 300,000 math error notices, and closed over 900,000 document matching
   reviews.

    Compliance Activities
    (thousands)
                                            FY05*           FY06*          FY07*           FY08*          FY09*          FY10**            FY11***         FY05-FY11 Total
    Examination Closures                    527,969        517,617         503,267         503,755        508,180         474,092             475,000           3,509,880
    Math Error Notices**                    515,890        460,316         393,263         432,797        355,416         300,000             250,000           2,707,682
    Document Matching****                   324,419        364,020         734,603         727,916        688,087         904,920             900,000           4,643,965
    Amended Returns1                                                                        32,473         25,395          19,400              20,000              97,268
    * Restated actual
    ** Preliminary estimates
    *** Estimate based on fiscal year 2011 preliminary data.
    **** Fiscal year 2007 and fiscal year 2008 restated to include enterprise data. In prior years, data included Wage and Investment data only. Small Business and Self-
       Employed data have been added.
    1
      Amended returns are a subset of Examination Closures.

   these activities had a significant effect. treasury projects that continued enforcement efforts will protect over $23 billion in
   revenue through fiscal year 2011.



appendix b: improper payments information act and recovery auditing act                                                                                                279
                                         the department of the treasury




                                               Enforcement Revenue Protected
                                               ($ billions)
                                                                                    FY05*          FY06*           FY07*         FY08*    FY09*    FY10**      FY11***     FY05-FY11 Total
                                                Examination Closures                   1.35            1.50           1.49         2.00     2.15        1.96        1.96           12.41
                                                Math Error Notices**                   0.52            0.46           0.41         0.44     0.40        0.34        0.28            2.85
                                                Document Matching****                  0.53            0.60           1.29         1.23     1.17        1.43        1.43            7.68
                                                Amended Returns                                                                    0.07     0.07        0.06        0.06            0.26
                                                TOTAL                                  2.40            2.56           3.19         3.74     3.79        3.79        3.73           23.20
                                                * Restated actual
                                                ** Preliminary estimates
                                                *** Estimate based on fiscal year 2011 preliminary data
                                                **** Fiscal year 2007 and fiscal year 2008 restated to include enterprise data


                                               Testing New Business Processes
                                               the Irs continues to build new solutions for existing business processes and to use other activities to combat program
part 4: other accompanying information




                                               error including:

                                               Pilot Concept – Assessing State Data for Validating EITC Eligibility
                                                      treasury proposes a Partnership fund pilot to assess the availability, quality, completeness, and overall usefulness of state­
                                                      administered benefits data, as well as state benefits screening processes, to help validate eItc eligibility. the pilot would
                                                      address whether state data could identify both ineligible individuals who receive improper eItc payments and eligible
                                                      individuals who are not claiming the eItc. the assessment will be conducted separate from, but parallel to, normal federal
                                                      eItc operations. the Irs’s actual eligibility results based on eItc claims in a pilot state will be compared to simulated
                                                      eligibility results based on analysis of existing state data and potential state data that could be collected from new benefits
                                                      enrollment questions. the results of the pilot will be used to develop administrative changes and statutory proposals to
                                                      improve eItc payments nationally.


                                               Maximize Current Business Processes
                                                 •	   Increase the activities associated with a suite of eItc paid preparer treatments, based on risk-based selections, including
                                                      due diligence audits, visits by revenue and criminal investigation agents, streamlined injunctions, and educational and
                                                      compliance notices to first-time and experienced preparers to influence the accuracy of eItc returns filed. analyze short­
                                                      term outcomes, including penalties and accuracy of returns
                                                 •	   continuing the partnership with members from two key tax software associations to identify software enhancements and
                                                      collaborative efforts that can help reduce eItc errors and assist preparers in meeting their eItc due diligence requirements
                                                 •	   assess the 2010 eItc marketing/awareness campaigns that target eItc eligible and non-compliant populations to refine/
                                                      focus efforts and to incorporate recent tax law changes on eligibility and benefits to increase overall participation and
                                                      improve compliance




                                         280                                    appendix b: improper payments information act and recovery auditing act
                                                                         performance and accountability report | fiscal year 2010




IV. EITC Improper Payment Reduction Outlook
   the reduction outlook for eItc improper payments is as follows:

    Improper Payment (IP) Reduction Outlook
    ($ in billions)




                                                                                                                     CY+1 IP$




                                                                                                                                                      CY+2 IP$




                                                                                                                                                                                       CY+3 IP$
                                                                                               CY+1 Est




                                                                                                                                CY+2 Est




                                                                                                                                                                 CY+3 Est
                               Outlays




                                                             Outlays




                                                                                               Outlays




                                                                                                                                Outlays




                                                                                                                                                                 Outlays
                                                                          CY IP%


                                                                                      CY IP$
                                            PY %




                                                                                                           CY+1




                                                                                                                                            CY+2




                                                                                                                                                                             CY+3
                                                      PY $




                                                                                                           IP%




                                                                                                                                            IP%




                                                                                                                                                                             IP%
                               PY




                                                             CY
    Program
    EITC Upper Bound          $48.1      28.0%     $13.3     $64.2     28.7%       $18.4       $64.1      28.7%   $18.4         $58.2      28.7%   $16.7         $58.3      28.7%   $16.7
    Estimate
    EITC Lower Bound          $48.1      23.0%     $11.2     $64.2     23.9%       $15.3       $64.1      23.9%   $15.3         $58.2      23.9%   $13.9         $58.3      23.9%   $13.9
    Estimate
    Outlays: The amounts shown are projections of total payments for the EITC, estimated by the Office of Tax Analysis within the Department of the Treasury.
    Following prior methodology, the amount shown is the total EITC claimed.
    IP % and IP $: These estimates follow the prior approach which provided a range for improper payments.
    Note: The Improper Payment percentage and Estimated Outlay columns reflect a constant error rate pending the development of an annual error rate measurement.
    CY and CY+1 estimates include Recovery Act EITC provisions which expand the EITC for families with three children and increase the beginning of the phaseout range




                                                                                                                                                                                                  part 4: other accompanying information
       for couples filing a joint return.
    CY: Current year; PY: Prior year



V. Management Accountability
   the secretary of the treasury has delegated responsibility for addressing improper payments to the assistant secretary for
   Management and chief financial officer (asM/cfo). Improper payments fall under the Department’s management and
   internal control program. a major component of the internal control program is risk assessments, which are an extension of
   each bureau’s annual improper payment review process. under treasury Directive 40-04, Treasury Internal (Management) Control
   Program, executives and other managers are required to have management control responsibilities as part of their annual perfor­
   mance plans. With oversight mechanisms such as the treasury cfo council and the Irs’s financial and Management controls
   executive steering committee, managerial responsibility and accountability in all management and internal control areas are
   visible and well-documented.

   Improper payments also have been monitored for improvement as a significant deficiency under the Federal Managers’ Financial
   Integrity Act. executives who are responsible and accountable for reducing the level of eItc overclaims have been identified,
   while other senior and mid-level officials have responsibility for monitoring progress in this area as bureau and program internal
   control officers.

VI. Resources Requested in the Fiscal Year 2011 Budget Submission to Congress
    the fiscal year 2011 President’s budget submission included no new initiatives related directly to the eItc program.

VII. Limiting Statutory and Regulatory Barriers
    a number of factors continue to serve as barriers to reducing overclaims in the eItc program. these include:
     •	   complexity of the tax law
     •	   structure of the earned Income tax credit
     •	   confusion among eligible claimants
     •	   high turnover of eligible claimants
     •	   unscrupulous return preparers
     •	   fraud




appendix b: improper payments information act and recovery auditing act                                                                                                              281
                                         the department of the treasury




                                               no one of these factors can be considered the primary driver of program error. furthermore, the interaction among the factors
                                               makes addressing the credit’s erroneous claims rate, while balancing the need to ensure the credit makes its way to taxpayers who
                                               are eligible, extremely difficult.

                                         VIII. Executive Order 13520 - Reducing Improper Payments and Eliminating Waste in Federal
                                               Programs
                                                on november 20, 2009, President barack obama issued executive order 13520 - Reducing Improper Payments and Eliminating
                                                Waste in Federal Programs (eo 13520). according to eo 13520, the purpose of the order is to “reduce improper payments by in­
                                                tensifying efforts to eliminate payment error, waste, fraud, and abuse in the major programs administered by the Federal Government,
                                                while continuing to ensure that Federal programs serve and provide access to their intended beneficiaries.”

                                                the eItc has been identified as a “high-priority program” under eo 13520. Due to the “high-priority program” status, certain
                                                requirements must be met. oMb developed these requirements to promote accountability and transparency by the agency
                                                program and federal government to the public for its use of public funds. requirements include but are not limited to:
part 4: other accompanying information




                                                 •	   Designation of a senate-confirmed accountable official
                                                 •	   establishment of annual or semi-annual targets for reducing improper payments
                                                 •	   report on agency methodology for identifying and measuring improper payments by the agency’s high-priority program(s)
                                                 •	   agency plan for meeting the reduction targets for improper payments in the high-priority program(s)
                                                 •	   agency plan for ensuring that initiatives undertaken do not unduly burden program access and participation by eligible 

                                                      beneficiaries


                                                Periodic reviews and analysis of the progress of remediation plans will be addressed with the accountable program officials,
                                                Inspector general, chief financial officer, and oMb. treasury submitted the required plan and informational documents as
                                                required by 13520.




                                         282                              appendix b: improper payments information act and recovery auditing act
                                                                     performance and accountability report | fiscal year 2010




Recovery Auditing Act
IX. Treasury’s Recovery Auditing Program
   section 831 of the Defense Authorization Act for fiscal year 2002 added a new subchapter to u.s. code (31 u.s.c 3561-3567),
   also known as the recovery auditing act, that requires agencies that enter into contracts with a total value in excess of $500
   million in a fiscal year to carry out a cost-effective program for identifying errors made in paying contractors and for recovering
   amounts erroneously paid to the contractors. a required element of such a program is the use of recovery audits and recovery
   activities. In accordance with oMb circular a-123, appendix c, reporting on recovery auditing is required annually.

   In fiscal year 2010, treasury issued contracts totaling $6.4 billion. treasury’s annual IPIa risk assessment process includes a
   review of pre-payment controls that minimize the likelihood and occurrence of improper payments. for recovery auditing act
   compliance, treasury requires each bureau and office to review their post-payment controls and report on recovery auditing
   activities, contracts issued, improper payments made, and recoveries achieved. bureaus and offices may use recovery auditing
   firms to perform many of the steps in their recovery auditing program and identify candidates for recovery action.




                                                                                                                                                   part 4: other accompanying information
   treasury considers both pre-payment and post-payment reviews to identify payment errors a sound management practice that
   should be included among basic payment controls. all of treasury’s bureaus use some form of recovery auditing techniques to
   identify improper payments during post-payment reviews. at times, bureaus may use the services of recovery auditors to help
   them identify payment anomalies and target areas for improvement. however, treasury has extensive contract payment controls
   that are applied at the time each payment is processed, making recovery activity minimal. the low level of improper payments
   in 2010 did not require any treasury bureau to develop a management improvement program under recovery auditing act
   guidance.


   Recovery Auditing Information Fiscal Year 2004 - Fiscal Year 2010




                                                                                                                       Cumulative




                                                                                                                                      Cumulative
                                                                               Recovered




                                                                                                           Recovered




                                                                                                                                      Recovered
                            to Review




                                             Reviewed
                            Reporting




                                                                 Identified




                                                                                           Identified




                                                                                                                       Identified
                                                                 Recovery




                                                                                           Recovery




                                                                                                                       Recovery
                                                                                                                       (CY+PYs)




                                                                                                                                      (CY+PYs)
                                             Reported
                            Amount
                            Subject




                                             Amount




                                                                 Amount




                                                                               Amount



                                                                                           Amount




                                                                                                           Amount
                                             Actual
                            for CY




                                                                                                                       Amts.




                                                                                                                                      Amts.
                                                                               CY*
                                             and

                                             CY



                                                                 for

                                                                 CY




                                                                                           for

                                                                                           PY




                                                                                                           PY



                                                                                                                       for
    Agency
    Treasury              $6,388,181,812     $5,825,819,856        $466,792   $518,000      $1,475,232   $1,357,672      $7,200,597   $6,018,579
    Note: CY: Current year; PY: Prior year
    * Includes amounts identified for recovery in prior years.


   for fiscal year 2010, the total number of contracts subject to review was 33,069; the total number reviewed was 25,479, for
   a total recovery auditing program cost of approximately $1.2 million dollars.




appendix b: improper payments information act and recovery auditing act                                                                    283
                                         the department of the treasury
part 4: other accompanying information




                                                                             This page left intentionally blank


                                         284
                  appendix b: improper payments information act and recovery auditing act
                                                        performance and accountability report | fiscal year 2010




appendix c:
ManaGeMent and PerforMance
cHallenGes and resPonses

In accordance with the Reports Consolidation Act of 2000, the Inspectors general issue semiannual reports to congress that identify
specific management and performance challenges facing the Department. at the end of each fiscal year, the treasury office of
Inspector general (oIg) and the treasury Inspector general for tax administration (tIgta) send an update of these management
challenges to the secretary and cite any new challenges for the upcoming fiscal year.

under the Emergency Economic Stabilization Act of 2008 (Pub. law no. 110-343), the special Inspector general for the troubled
asset relief Program (sIgtarP) is not required to provide the secretary with a semi-annual report or annual update on manage­
ment and performance challenges.

the appendix contains the incoming management and performance challenges letters from oIg and tIgta and the secretary’s




                                                                                                                                      part 4: other accompanying information
responses describing actions taken and planned to address the challenges.




appendix c: management and performance challenges and responses                                                                285
                                         the department of the treasury
part 4: other accompanying information




                                                                             This page left intentionally blank


                                         286
                        appendix c: management and performance challenges and responses
                                               performance and accountability report | fiscal year 2010


                                      DEPARTMENT OF THE TREASURY

                                                   WASHINGTON



INSPECTOR GENERAL	                                      October 22, 2010


         INFORMATION MEMORANDUM FOR SECRETARY GEITHNER

         FROM:	                     Eric M. Thorson
                                    Inspector General

         SUBJECT:	                  Management and Performance Challenges Facing
                                    the Department of the Treasury (OIG-CA-11-001)


         In accordance with the Reports Consolidation Act of 2000, we are providing you with our
         perspective on the most serious management and performance challenges facing the Department




                                                                                                                 part 4: other accompanying information
         of the Treasury.

         This year we have combined three challenges reported last year into two, renamed those two and
         expanded them to reflect significant economic events and new responsibilities given to
         Treasury. Specifically, we have:

         •	   renamed the challenge previously reported as “Regulation of National Banks and Thrifts” to
              “Transformation of Financial Regulation.” We have also expanded this challenge to
              incorporate significant events and changes that have taken place since last year, most notably
              those related to Treasury’s new responsibilities under the recently enacted Dodd-Frank Wall
              Street Reform and Consumer Protection Act.
         •	   renamed the challenge previously reported as “Management of Treasury’s New Authorities
              Related to Distressed Financial Markets” to “Management of Treasury’s Authorities Intended
              to Support and Improve the Economy.” This challenge encompasses the previously reported
              challenge entitled “Management of Recovery Act Programs” and has been expanded to
              recognize Treasury’s new responsibilities and authorities related to the recently enacted
              Small Business Jobs Act of 2010.

         We also continue to report two challenges from last year.

         •	   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement
         •	   Management of Capital Investments

         Challenge 1: Transformation of Financial Regulation

         In response to the need for financial reform, Congress passed the Dodd-Frank Wall Street
         Reform and Consumer Protection Act (Dodd-Frank) in July 2010. Dodd-Frank established new
         responsibilities for Treasury and created new offices tasked to fulfill those responsibilities.

         A critical challenge in the near term is Treasury’s role in standing up the Bureau of Consumer
         Financial Protection (BCFP). Established by Dodd-Frank, the purpose of BCFP is to implement
         and, where applicable, enforce federal consumer financial law consistently to ensure that all




appendix c: management and performance challenges and responses                                            287
                                         the department of the treasury




                                               Page 2


                                               consumers have access to markets for consumer financial products and services and that those
                                               markets are fair, transparent, and competitive. Eventually, BCFP will be an independent bureau
                                               of the Board of Governors of the Federal Reserve System (the Board of Governors). However,
                                               the Treasury Secretary is charged with supporting the creation and management of BCFP until a
                                               Director is confirmed. On September 17, 2010, the President appointed Elizabeth Warren to
                                               serve as Assistant to the President and Special Advisor to the Secretary of the Treasury on
                                               BCFP. At this time, it is uncertain when a BCFP Director will be confirmed. In the mean time,
                                               much needs to be done to set up the BCFP. While BCFP remains in Treasury, it will be under the
                                               audit and investigative oversight of my office. We are, however, coordinating those oversight
                                               efforts with the Office of Inspector General of the Board of Governors.

                                               Dodd-Frank also established the Financial Stability Oversight Council (FSOC), which is chaired
                                               by the Treasury Secretary. FSOC held its inaugural meeting on October 1, 2010. FSOC’s
                                               mission is to identify risks to financial stability that could arise from the activities of large,
                                               interconnected financial companies; respond to any emerging threats to the financial system; and
part 4: other accompanying information




                                               promote market discipline. The Council of Inspectors General on Financial Oversight (CIGFO),
                                               which I chair, facilitates the sharing of information among inspectors general with a focus on
                                               reporting our concerns that may apply to the broader financial sector and ways to improve
                                               financial oversight. Accordingly, CIGFO will be an important source of independent, unbiased
                                               analysis to FSOC. In the future, CIGFO may also vote to convene a working group to evaluate
                                               the effectiveness and internal operations of the FSOC. We held our inaugural meeting on
                                               October 21, 2010.

                                               Dodd-Frank also established two new offices within Treasury: the Office of Financial Research
                                               (OFR) and the Federal Insurance Office (FIO). OFR is to be a data collection, research and
                                               analysis arm of FSOC. OFR will operate under a confirmed Director while the Director of FIO
                                               will be appointed by the Treasury Secretary. Among other things, the Director of OFR is to
                                               report to Congress annually on the office’s activities and its assessments of systemic risk. FIO is
                                               to monitor the insurance industry, including identifying gaps or issues in the regulation of
                                               insurance that could contribute to a systemic crisis in the insurance industry or financial system.
                                               The Director of FIO will advise FSOC on insurance matters.

                                               Intended to streamline the supervision of depository institutions and holding companies, Dodd-
                                               Frank transfers the powers and duties of the Office of Thrift Supervision (OTS) to the Office of
                                               the Comptroller of the Currency (OCC), the Board of Governors, and the Federal Deposit
                                               Insurance Corporation (FDIC) no later than July 21, 2011. Dodd-Frank requires OCC, OTS, the
                                               Board of Governors, and FDIC to jointly submit a plan within 180 days of the enactment of
                                               Dodd-Frank to their respective Inspectors General and Congress detailing the steps they will take
                                               to implement the transfer. The respective Inspectors General will evaluate that plan and jointly
                                               provide a written report to OCC, OTS, the Board of Governors, and FDIC, with a copy to
                                               Congress, on whether it conforms to the provisions of Dodd-Frank. Our joint report will be
                                               issued within 60 days of receiving the plan. In addition, we will jointly report on the status of the
                                               implementation of the plan every 6 months thereafter until all aspects of the plan are
                                               implemented.




                                         288                             appendix c: management and performance challenges and responses
                                                performance and accountability report | fiscal year 2010




     Page 3


     Clearly, the intention of Dodd-Frank is most notably to prevent, or at least minimize, the impact
     of a future financial sector crisis on our economy. In order to accomplish this, Dodd-Frank has
     placed a great deal of responsibility within Treasury and on the Treasury Secretary. The
     management challenge from our perspective is to implement an effective FSOC process
     supported by the newly created offices within Treasury and the streamlined banking regulatory
     structure that timely identifies and strongly responds to emerging risks. This is especially
     important in times of economic growth and financial institution profitability when such
     government action is likely to be unpopular. Our future work plans will include reviews to look
     at how well Treasury establishes the new offices and undertakes its other critical roles.

     The other regulatory challenges that we discussed last year still remain. Specifically, since
     September 2007, 90 Treasury-regulated financial institutions have failed, with estimated losses
     to the Deposit Insurance Fund of approximately $36 billion. This is an increase of 51 financial
     institutions and $9 billion in losses since my last challenges letter. More financial institutions are
     expected to fail over the next 2 years.




                                                                                                                    part 4: other accompanying information
     Although many factors contributed to the turmoil in the financial markets, our work found that
     OCC and OTS did not identify early or force timely correction of unsafe and unsound practices
     by numerous institutions under their respective supervision. The irresponsible lending practices
     of many institutions are now well-recognized—including reliance on risky products, such as
     option adjustable rate mortgages, and degradation of underwriting standards. At the same time,
     financial institutions engaged in other high-risk activities, including high asset concentrations in
     commercial real estate and overreliance on unpredictable brokered deposits to fund rapid growth.
     Recently, the unprecedented speed at which servicers were foreclosing on defaulted mortgages
     has revealed flaws in the processing of those foreclosures. A number of the largest banks with
     servicing functions have voluntarily placed moratoriums on foreclosures either in certain states
     or nationwide until these matters are resolved. While the depth and extent of these problems are
     not fully known at the time of this writing, this is yet another troubling development in the
     manner in which financial institutions have been operating. I am also concerned about the impact
     this could have on an already stressed housing market. Addressing this issue could be the first
     major challenge for the FSOC.

     The banking industry will continue to be stressed over the next several years. In the 2010
     interagency Shared National Credits (SNC) review, OCC, OTS, and the other federal banking
     regulators found that credit quality improved from 2009 but remained weak with respect to the
     $2.5 trillion in large ($20 million or more) loans and loan commitments held by domestic bank
     organizations, foreign bank organizations, and nonbank entities such as securitization pools,
     hedge funds, insurance companies, and pension funds. The review, which covered $1 trillion of
     the $2.5 trillion SNC portfolio, identified total losses of $15 billion, down from total losses of
     $53 billion in 2009. Criticized assets declined to $448 billion from $642 billion and represented
     nearly 18 percent of the SNC portfolio, compared with 22 percent in 2009. The volume of poorly
     underwritten credits originated in 2006 and 2007 continued to adversely affect the overall credit
     quality of the portfolio. Refinancing risk within the portfolio is also significant, with nearly 67
     percent of criticized assets maturing between 2012 and 2014.




appendix c: management and performance challenges and responses                                               289
                                         the department of the treasury




                                               Page 4


                                               Our office is mandated to review the failures of Treasury-regulated financial institutions that
                                               result in material losses to the Deposit Insurance Fund. Since 2007, we have completed 21 such
                                               reviews and are engaged in 31 others. These reviews identify the causes of the failures and assess
                                               supervision exercised over failed institutions. Both OCC and OTS have been responsive to our
                                               recommendations for improving supervision. Dodd-Frank now mandates that our office also
                                               review failures that result in non-material losses to the Deposit Insurance Fund. To that end, we
                                               have completed 28 such reviews. However, neither the material nor non-material reviews address
                                               the broader supervisory effectiveness of the federal banking regulators as a whole or the
                                               effectiveness of the supervisory structure. It is therefore essential that OCC and OTS continue to
                                               take a critical look at their supervisory processes to identify why those processes did not prevent
                                               or mitigate the practices that led to the current crisis and what can be done to better protect the
                                               financial health of the banking industry and consumers going forward.

                                               Since implementation of Dodd-Frank is in its early stages, Treasury and its two federal bank 

                                               regulators, OCC and OTS, will need to work in concert with the other affected federal bank 

part 4: other accompanying information




                                               regulators to ensure a smooth and effective transition to the new regulatory structure and 

                                               requirements.


                                               Challenge 2: Management of Treasury’s Authorities Intended to Support and Improve the
                                               Economy

                                               Congress provided Treasury with broad authorities to address the financial crisis under the
                                               Housing and Economic Recovery Act (HERA) and the Emergency Economic Stabilization Act
                                               (EESA) enacted in 2008, the American Recovery and Reinvestment Act of 2009 (Recovery Act),
                                               and the Small Business Jobs Act of 2010. Certain authorities in HERA and EESA have now
                                               expired but challenges still remain in managing Treasury’s outstanding investments. To an
                                               extent, Treasury’s program administration under these two Acts has matured. In contrast,
                                               program administration for the Recovery Act is still evolving, and the Small Business Jobs Act
                                               programs must be stood up. Our discussion of this challenge will begin with the most recent Act
                                               passed to support and improve the economy and then discuss the other new programs Treasury is
                                               responsible for.

                                                  Management of the Small Business Lending Fund and State Small Business Credit Initiative

                                               In late September 2010, Congress enacted the Small Business Jobs Act of 2010 creating within
                                               Treasury a $30 billion Small Business Lending Fund (SBLF) and providing $1.5 billion to be
                                               allocated by Treasury to approved states for eligible state programs through the State Small
                                               Business Credit Initiative (SSBCI). The Act represents a key initiative of the Administration to
                                               increase lending to small business and thereby support job creation. The challenge for Treasury
                                               will be to get these two programs up and running quickly while maintaining proper control to
                                               ensure transparency, equitable treatment of all participants, and program results. Our office is
                                               specifically directed in the Act to exercise vigorous oversight. To that end, I am establishing an
                                               Office of Small Business Lending Fund Oversight to be headed by a Special Deputy Inspector
                                               General.




                                         290                             appendix c: management and performance challenges and responses
                                               performance and accountability report | fiscal year 2010




     Page 5


        SBLF Under SBLF, Treasury will make capital investments in eligible financial institutions
        (e.g., banks with total assets of $10 billion or less and not on FDIC’s problem bank list) after
        consultation with the institution’s regulator. Eligible institutions are permitted to refinance
        securities issued to Treasury under the Troubled Asset Relief Program (TARP) Capital
        Purchase Program (CPP) as long as they are current on their CPP obligations. Treasury’s
        capital investment may be up to 5 percent of the institution’s risk-weighted assets depending
        on the institution’s size. During the first 4½ years of Treasury’s investment, participating
        institutions initially pay dividends to Treasury of 5 percent but that rate may be reduced to as
        low as 1 percent based on their demonstrated increase in small business lending (after 4 ½
        years, the dividend rate increases to 9 percent and Treasury’s investment is expected to be
        repaid within 10 years although there are provisions for extending repayment beyond that
        time).

        As of this writing, Treasury has not published specific policies and guidance for program
        administration. It is critically important that a strong control structure along with




                                                                                                                  part 4: other accompanying information
        commensurate staffing be established on the front-end of this effort. It is also critical in
        setting up this program that Treasury build on its experience with CPP. For example, in a
        recent (October 2010) report on TARP, GAO observed that applicants that withdrew from
        consideration for CPP in response to a request from their regulator received no review by
        Treasury or other regulators. GAO recommended that if Treasury administers programs
        containing elements similar to those of CPP, such as SBLF, that Treasury should implement
        a process for monitoring all applicants that regulators recommend for withdrawal to ensure
        that similar applicants are treated equitably. Treasury agreed to consider the GAO
        recommendation, and we believe that this should be a component of the control structure that
        Treasury establishes for SBLF. Another key provision of the Act is that banking regulators
        publish guidance by the end of November 2010 regarding prudent underwriting standards
        that must be used for loans made by participating institutions; these standards will need to be
        in place so that participating institutions have a clear understanding on how the funds are to
        be used. Furthermore, it is important that Treasury and regulators coordinate to ensure that
        participating institutions comply with the terms and conditions of the investments, to include
        validation of increased small business lending in return for reduced dividend rates on
        Treasury investments.

        SSBCI On October 8, 2010, Treasury announced individual SSBCI funding allocations
        totaling $1.46 billion for the 50 States, the District of Columbia, and the U.S. territories,
        intended to support new small business lending through local programs. Under the SSBCI,
        states may apply for federal funds for programs that partner with private lenders to extend
        greater credit to small businesses. SSBCI allows states to build upon existing state-level
        small business lending programs. If a State does not have an existing small business lending
        program, the state can establish one in order to access SSBCI funding. States must provide
        plans for utilizing their funding allocations to Treasury for review and approval and report
        quarterly and annually on results. Another key feature is that participating states receive their
        allocations in 1/3 increments. Treasury may withhold a successive increment to a State
        pending the results of an audit by our office.




appendix c: management and performance challenges and responses                                             291
                                         the department of the treasury




                                               Page 6


                                                  The Act also details specific expectations of Treasury for program administration to include
                                                  consulting with the Small Business Administration and federal banking agencies;
                                                  establishing minimum national standards for approved State programs; providing technical
                                                  assistance and disseminating best practices; managing, administering, and performing
                                                  necessary program integrity functions; and ensuring adequate oversight of approved State
                                                  programs, including oversight of the cash flows, performance, and compliance of each
                                                  approved State program. As with SBLF, Treasury will be challenged to stand this program up
                                                  quickly with an adequate control structure and commensurate staffing to meet these
                                                  expectations and make the federal funds available to the states.

                                               A common theme we have seen in recent years, most notably with TARP and Recovery Act
                                               programs, is that Treasury first attempts to administer new and complex programs with minimal
                                               staffing only to find that more resources need to be devoted to program administration after
                                               problems start to surface. We cannot stress enough that a similar approach be avoided with SBLF
                                               and SSBCI.
part 4: other accompanying information




                                                  Management of Recovery Act Programs

                                               Treasury is responsible for overseeing an estimated $150 billion of Recovery Act funding and
                                               tax relief. Treasury’s oversight responsibilities include grants for specified energy property in
                                               lieu of tax credits, grants to states for low-income housing projects in lieu of tax credits,
                                               increased Community Development Financial Institutions Fund grants and tax credits, economic
                                               recovery payments to social security beneficiaries and others, and payments to U.S. territories for
                                               distribution to their citizens.

                                               Many of these programs were new to Treasury in 2009 and involve very large dollar amounts. It
                                               is estimated that Treasury’s Recovery Act payments in lieu of tax credit programs—for specified
                                               energy property and to states for low-income housing projects—will cost more than $20 billion
                                               over their lives. To date, Treasury has already awarded more than $6 billion under these
                                               programs and has yet to implement comprehensive monitoring procedures. In 2009, we reported
                                               that Treasury had dedicated only a small number of staff to award and monitor these funds. That
                                               has not changed and we continue to have concerns that the current staffing level is not
                                               commensurate with the size of these programs. Payments made to recipients under the specified
                                               energy property program alone comprise more than $5 billion of the funds awarded to date and
                                               the number of applicants continues to grow. We initiated and plan a number of audits of
                                               recipients of payments under the specified energy property program to ensure funds were
                                               properly awarded to eligible applicants for eligible properties. Our audits of these recipients,
                                               however, should not be viewed as a substitute for appropriate and comprehensive management
                                               oversight and monitoring of the program.




                                         292                             appendix c: management and performance challenges and responses
                                               performance and accountability report | fiscal year 2010




     Page 7



        Management of the Housing and Economic Recovery Act and the Emergency Economic
        Stabilization Act

     Through several HERA and EESA programs, Treasury injected much needed capital into
     financial institutions and businesses.

     Under HERA, Treasury continues to address the distressed financial condition of Fannie Mae
     and Freddie Mac which are under the conservatorship of the Federal Housing Finance Agency.
     In order to cover the continuing losses of the two entities and their ability to maintain a positive
     net worth, Treasury agreed to purchase senior preferred stock, and as of June 30, 2010, had
     purchased $145 billion. Treasury also purchased and is still holding $184 billion of mortgage-
     backed securities issued by two entities under a temporary purchase program that expired in
     December 2009. Through the Housing Finance Agency Initiative supporting state and local
     finance agencies, Treasury purchased securities in Fannie Mae and Freddie Mac backed by state




                                                                                                                  part 4: other accompanying information
     and local Housing Finance Agency bonds (New Issue Bond Program) and a participation interest
     in the obligations of Fannie Mae and Freddie Mac (Temporary Credit and Liquidity Program).
     Prior to expiring in December 2009, Treasury purchased $15.3 billion of securities under the
     New Issue Bond Program and provided $8.3 billion under the Temporary Credit and Liquidity
     Program. Even with this assistance, both entities remain in a weakened financial condition and
     may require prolonged assistance. Dodd-Frank requires the Secretary of the Treasury to conduct
     a study on ending the conservatorship of Fannie Mae and Freddie Mac and minimizing the cost
     to taxpayers. The report on this study is to be presented to Congress no later than January 31,
     2011.

     TARP, established under EESA, gave Treasury the authorities necessary to bolster credit
     availability and address other serious problems in the domestic and world financial markets.
     Treasury’s Office of Financial Stability administers TARP, and through several of its programs,
     made purchases of direct loans and equity investments in many large financial institutions and
     other businesses, as well as guaranteed other troubled mortgage-related and financial assets. On
     October 3, 2010, the authority to make new investments under the TARP program expired.
     Treasury will, however, continue making payments for programs which have existing contracts
     and commitments. TARP is expected to be less costly than first thought. Treasury has recently
     estimated that the total cost of TARP will be about $50 billion. As the life-cycle of TARP is
     maturing, Treasury’s challenge in this area is morphing from standing-up and running TARP
     programs to winding them down. That means Treasury must now focus on managing and exiting
     from its current TARP investments. These investments include, but are not limited to, AIG and
     General Motors. In this regard, at the time of this writing, it has been reported that AIG
     announced a restructuring plan that will accelerate the timeline for repaying the government, and
     General Motors is planning an initial public offering for later this year.

     EESA also established a special inspector general for TARP and imposed oversight and periodic
     reporting requirements on both the special inspector general and GAO.




appendix c: management and performance challenges and responses                                             293
                                         the department of the treasury




                                               Page 8



                                               As conditions improve, Treasury will need to continue to work with its partners to disassemble
                                               the structure established to support recovery efforts and ensure that federal funds no longer
                                               needed for those efforts are returned in an orderly manner to the Treasury general fund.

                                               Challenge 3: Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act
                                               Enforcement

                                               Treasury faces unique challenges in carrying out its responsibilities under the Bank Secrecy Act
                                               (BSA) and USA Patriot Act to prevent and detect money laundering and terrorist financing. The
                                               Financial Crimes Enforcement Network (FinCEN) is the Treasury bureau responsible for
                                               administering BSA. However, a large number of other federal and state entities participate in
                                               efforts to ensure compliance with BSA, including the five federal banking regulators, the Internal
                                               Revenue Service, the Securities and Exchange Commission, the Department of Justice, and state
                                               regulators. Many of these entities also participate in efforts to ensure compliance with U.S.
part 4: other accompanying information




                                               foreign sanction programs administered by Treasury’s Office of Foreign Assets Control (OFAC).

                                               Treasury must coordinate the efforts of these multiple entities. To this end, FinCEN and OFAC
                                               have entered into memoranda of understanding with many federal and state regulators in an
                                               attempt to build a consistent and effective process. In 2009, FinCEN had memoranda of
                                               understanding with 43 percent of federal and state regulators. While important to promote
                                               coordination and cooperation, it should be noted that these instruments are nonbinding and carry
                                               no penalties for violations, and their overall effectiveness has not been independently assessed.
                                               Furthermore, the USA Patriot Act has increased the types of financial institutions required to file
                                               BSA reports. In fiscal year 2009, financial institutions filed approximately 15 million BSA
                                               reports. The number is lower than 2008, which Treasury has attributed primarily due to a change
                                               in law that increased currency transaction report exemptions. FinCEN needs to work with
                                               regulators to ensure that financial institutions establish effective BSA compliance programs and
                                               file BSA reports, as required.

                                               Adding to this risk in the current environment is that financial institutions and their regulators
                                               may have decreased their attention to BSA and OFAC program compliance as they address
                                               safety and soundness concerns during the current economic crisis. FinCEN’s analysis of
                                               suspicious activity report data also found non-bank lenders and originators initiated many of the
                                               mortgages associated with suspicious activity reports filed for possible mortgage fraud.
                                               Furthermore, evidence suggests a link between mortgage fraud and money laundering. In that
                                               regard, FinCEN is considering applying anti-money laundering and suspicious activity report
                                               regulations to these non-bank institutions.

                                               FinCEN also has a particularly difficult challenge in dealing with money services businesses
                                               (MSB). FinCEN has to balance the needs of certain consumers who depend on access to MSBs
                                               (particularly the unbanked), with potentially unfettered access to the financial system that non-
                                               transparent MSBs create for those engaged in money laundering and terrorist financing. FinCEN
                                               has been working with the IRS to ensure MSBs comply with BSA registration and report filing
                                               requirements. IRS serves as the examining agency for MSBs but does not have the resources to
                                               annually inspect all MSBs or even identify unregistered MSBs, estimated to be in the tens of




                                         294                             appendix c: management and performance challenges and responses
                                                performance and accountability report | fiscal year 2010




     Page 9



     thousands. Within this framework, FinCEN has been concerned with MSBs that use informal
     value transfer systems and with MSBs that issue, redeem, or sell prepaid (or stored value) cards.
     MSBs using informal transfers have been identified in several attempts to launder proceeds of
     criminal activity or finance terrorism. Similarly, prepaid cards can make it easier for some to
     engage in money laundering or terrorist financing. In September 2010, FinCEN notified financial
     institutions to be vigilant and file suspicious activity reports on MSBs that may be
     inappropriately using informal transfers, when they use financial institutions to store currency,
     clear checks, remit and receive funds, and obtain other financial services. Also this year, FinCEN
     proposed revising definitions and other regulations pertaining to prepaid access to close
     regulatory gaps.

     In September 2010, to add transparency to possible illicit wire transfer use of the financial
     system, FinCEN proposed a regulatory requirement for certain depository institutions and MSBs
     to report cross-border electronic transmittals of funds (CBETF). FinCEN determined that




                                                                                                                  part 4: other accompanying information
     establishing a centralized database will greatly assist law enforcement in detecting and ferreting
     out transnational organized crime, multinational drug cartels, terrorist financing, and
     international tax evasion. If implemented, ensuring financial institutions, particularly MSBs,
     comply with the CBETF reporting requirements, as well as managing this new database, will be
     a significant challenge for FinCEN.

     To ensure efficient management, safeguarding, and use of BSA information, FinCEN also plans
     to modernize BSA information management. BSA data is currently maintained by IRS and
     access to the database is generally handled through an IRS system known as WebCBRS.
     FinCEN believes modernization will provide increased data integrity and analytical tools, and
     maximize value for state and federal partners. BSA Information Technology (IT) Modernization
     is also discussed in challenge 4.

     Given the criticality of this management challenge to the Department’s mission, we continue to
     consider anti-money laundering and combating terrorist financing programs as inherently high-
     risk. Mandatory work, particularly material loss reviews of failed banks and thrifts, prevented us
     from performing any audits in this area in Fiscal Year 2009 and in 2010 we were limited to
     completing audits started years earlier. With legislated changes to the financial loss threshold for
     performing material loss reviews, we expect to be able to increase audit coverage of anti-money
     laundering and terrorist financing programs in Fiscal Year 2011.

     Challenge 4: Management of Capital Investments

     Managing large capital investments, particularly information technology investments, is a
     difficult challenge for any organization, whether public or private. In prior years, we reported on
     a number of capital investment projects that either failed or had serious problems. This year, we
     identified challenges in 4 on-going investments, 2 of which were identified by the Office of
     Management and Budget (OMB) as high-risk projects.

        Replacement telecommunications platform The Information Technology Infrastructure
        Telecommunications investment with an overall value of $3.7 billion was rated as poorly




appendix c: management and performance challenges and responses                                             295
                                         the department of the treasury




                                               Page 10



                                                  performing by the Acting Chief Information Officer (CIO) and a high-risk project by OMB.
                                                  This investment includes the Treasury’s replacement telecommunications platform, TNet, as
                                                  a major component. Treasury was originally to have begun implementation of TNet in
                                                  November 2007 but was delayed until August 2009 and is still in transition. Additionally,
                                                  TNet does not currently incorporate all OMB security requirements, and many Treasury
                                                  components have reported performance concerns with the network.

                                                  Treasury implementation of a common identity management system OMB also recognized
                                                  Treasury’s Consolidated Enterprise Identity Management system as a high-risk project. This
                                                  system is a $147 million effort to implement the requirements of the Homeland Security
                                                  Presidential Directive 12. This directive requires deployment of a common identity standard.
                                                  This initiative was identified as being more than $40 million over budget and significantly
                                                  behind schedule.
part 4: other accompanying information




                                                  Data Center Consolidation OMB initiated the Federal Data Center Consolidation Initiative to
                                                  consolidate the number of federal data centers. Treasury has over 60 data centers around the
                                                  country. Treasury is currently in the planning phase of a significant effort to reduce the
                                                  number of data centers by 2015. This effort would require restructuring of Treasury’s IT
                                                  infrastructure over a relatively short time. Relocating and consolidating data centers is a
                                                  major investment that requires careful planning to address security concerns, disaster
                                                  recovery, and infrastructure support.

                                                  FinCEN’s BSA IT Modernization As discussed in Challenge 3, Treasury, through FinCEN,
                                                  is undertaking a major project known as BSA IT Modernization. Already underway, the
                                                  project is expected to cost about $120 million. This project requires coordination between
                                                  FinCEN and IRS, which has historically maintained the BSA database, and effective
                                                  oversight by the Treasury Office of the CIO. A prior attempt, from 2004 to 2006, to develop
                                                  a new BSA system ended in failure with over $17 million wasted because of shortcomings in
                                                  project planning, management, and oversight.

                                               Treasury’s decentralized management of IT investments presents a significant hurdle to the
                                               successful implementation of major department-wide and government-wide initiatives. Large
                                               initiatives are often tasked to individual bureaus for overall management with some direction
                                               provided by the Treasury Office of the CIO. Coordination issues between bureaus can delay and
                                               disrupt implementation of department-wide policies and systems or prevent necessary changes
                                               from proceeding. Accordingly, Treasury should exercise continuous vigilance in managing the
                                               investments described above and others due to previously reported problems with large capital
                                               investments, and billons of procurement dollars at risk.

                                               We would be pleased to discuss our views on these management and performance challenges in
                                               more detail.

                                               cc: Daniel Tangherlini
                                                   Assistant Secretary for Management, Chief Financial Officer, and

                                                     Chief Performance Officer





                                         296                            appendix c: management and performance challenges and responses
                                                                      performance and accountability report | fiscal year 2010




                                                    D EPAR TMEN T O F T H E T REAS U RY
                                                                 WA S H I NGTO N , D . C .

   S E C R E TA R Y O F T H E T R E A S U R Y
                                                                  november 15, 2010


      MEMORANDUM FOR ERIC M. THORSON

                                                INSPECTOR GENERAL


      FROM: 	                                   timothy f. geithner

      SUBJECT:	                                 Management and Performance challenges facing the
                                                Department of the treasury

      I am responding to your october 22, 2010, memorandum describing the most serious management and perfor­




                                                                                                                                      part 4: other accompanying information
      mance challenges facing the Department of the treasury. this memorandum provides information on the actions
      completed in fiscal year (fy) 2010 and the actions planned for fy 2011 to address these challenges.

      treasury has established effective control structures to monitor the implementation of the Dodd-Frank Wall Street
      Reform and Consumer Protection Act (Dodd-frank act) and the Small Business Jobs Act of 2010, to ensure the
      acts achieve their intended purposes, as well as provide unprecedented accountability and transparency. the
      Department is committed to staying vigilant about the risks associated with all of our programs and to adjust our
      strategies based on changing circumstances to achieve financial stability, economic security, and protection of the
      taxpayer. We look forward to working with you to further address these challenges.


      Challenge 1 – Transformation of Financial Regulation
      on July 21, 2010, the President signed into law the historic Dodd-frank act. the comprehensive financial regula­
      tory reforms enacted under the Dodd-frank act include new requirements for enhanced prudential supervision
      of financial firms that could threaten financial stability; the creation of a financial stability oversight council
      (fsoc) to monitor emerging threats to the stability of the financial system; the establishment of a new consumer
      financial Protection bureau (cfPb) to protect consumers against unfair, deceptive, or abusive financial practices
      and ensure consumers have the information they need to choose financial products that best meet their needs. the
      act also includes reforms that bring transparency and regulation to the over-the-counter derivatives markets for
      the first time; and the creation of a resolution regime for large, highly interconnected financial firms to allow these
      firms to fail while protecting taxpayers and the economy. these reforms will help guard against many of the gaps,
      lapses, and inconsistencies in supervision of financial firms that clearly contributed to the recent financial crisis.
      More broadly, these reforms will help set a new foundation for a pro-investment and pro-growth financial system.

      In implementing the Dodd-frank act, treasury is working hard to ensure that the new rules provide necessary
      protections against financial excess while preserving the benefits of financial innovation. to that end, treasury
      has adopted the following guiding principles for implementation:
          •	   reforms are implemented as quickly as possible to provide clarity to the public and the markets, recognizing
               that implementation will be complex in some cases




appendix c: management and performance challenges and responses                                                                 297
                                         the department of the treasury




                                                                                                      Page 2



                                                 •	   full transparency and disclosure are provided in the implementation process through publication of draft
                                                      rules, available opportunities for public comment, and consultation with a broad range of groups and
                                                      individuals
                                                 •	   regulations are streamlined and simplified where possible to minimize duplication and eliminate rules that
                                                      do not work
                                                 •	   Implementation is coordinated with other federal agencies to ensure new rules across government work
                                                      together, not against, each other
                                                 •	   every effort is made to create a more level playing field, both between banks and non-banks in the u.s., as
                                                      well as between major financial institutions globally
part 4: other accompanying information




                                                 •	   freedom of innovation is protected to ensure economic growth

                                               treasury has been working to implement the reforms of the Dodd-frank act since enactment. Immediately after
                                               passage, treasury put in place a governance structure to oversee the Department’s implementation of the reforms.
                                               generally, treasury developed implementation teams dedicated to each of its core responsibilities, such as helping
                                               to establish the fsoc, laying the groundwork for the office of financial research (ofr), launching the cfPb,
                                               and creating a federal Insurance office (fIo). these teams update a steering committee of senior treasury of­
                                               ficials who meet daily to consider options, make decisions, move implementation forward, and, where appropriate,
                                               make recommendations.

                                               Consumer Financial Protection Bureau
                                               title X of the Dodd-frank act establishes the cfPb within the federal reserve system to protect consumers
                                               against unfair, deceptive, or abusive financial practices and ensure consumers have the information necessary to
                                               choose consumer financial products and services that best meet their needs. the Dodd-frank act consolidates
                                               core authorities currently fragmented across seven federal agencies into a single, dedicated, and independent
                                               federal consumer protection watchdog. the cfPb will implement rules for consumer financial products and
                                               services and develop supervision programs to regularly examine the most critical bank and nonbank financial
                                               services providers. In addition, the cfPb will develop programs to promote greater financial literacy and establish
                                               a nationwide consumer complaint response unit, which will include a dedicated website and hotline for receiving
                                               consumer complaints about financial services.

                                               under the Dodd-frank act, the Department is responsible for standing up the new agency until the first cfPb
                                               Director is confirmed by the senate. the Department has designated July 21, 2011, as the “designated transfer
                                               date,” which is the date on which the cfPb will assume existing authorities of seven federal agencies. treasury
                                               has made substantial progress preparing the cfPb to incorporate staff and assume authorities from those agencies.

                                               Financial Stability Oversight Council
                                               on october 1, 2010, the fsoc held its first meeting at which it took a number of important steps to fulfill its
                                               mandate under the Dodd-frank act. as established under the act, the fsoc will provide, for the first time,




                                         298                                  appendix c: management and performance challenges and responses
                                                        performance and accountability report | fiscal year 2010




                                                             Page 3



     comprehensive monitoring to ensure the stability of our nation’s financial system. the fsoc is charged with
     identifying threats to the financial stability of the u.s., promoting market discipline, and responding to emerging
     risks to the stability of the u.s. financial system.

     at its inaugural meeting, in addition to adopting organizational documents, the fsoc approved resolutions to
     seek public comment on the criteria for designating nonbank financial companies for heightened supervision, as
     well as to inform recommendations the fsoc will make on how to implement statutory restrictions on banking
     institutions’ proprietary trading and investments in private funds (the “Volcker rule”). In addition, the fsoc
     must also study and make recommendations for implementing the concentration limit, the macroeconomic effects
     of risk retention requirements, and the economic implications of financial regulation. Work on those studies is
     underway.




                                                                                                                                     part 4: other accompanying information
     Office of Financial Research
     the ofr is housed within the treasury Department and will ultimately support the fsoc and its member
     agencies by providing them with better financial data, information, and analysis so policymakers and market
     participants have a more complete understanding of risk in the financial system. the ofr will be headed by a
     director nominated by the President and confirmed by the senate. a treasury staff team has begun to plan the
     ofr’s functions and gather input from regulators and private stakeholders.

     In fy 2011, treasury will conduct a census of existing data standardization initiatives and existing sources of
     reference data. once completed, the ofr team will move quickly to draw up detailed plans for ofr to facilitate
     and advance these initiatives without duplication or unnecessary burden. treasury is also developing an organiza­
     tional structure, hiring procedures and pay structures, information technology, and other requirements.

     Federal Insurance Office
     the Dodd-frank act established the fIo to monitor important domestic and international insurance matters and
     coordinate federal efforts and develop federal policy on prudential aspects of international insurance matters. as
     part of the Department, fIo will monitor all aspects of the insurance industry, including identifying issues and
     gaps in the regulation of insurance that could contribute to a systemic crisis in the insurance industry or within
     the broader u.s. financial system. the fIo will also use its authority to negotiate, together with the u.s. trade
     representative, international insurance agreements on prudential measures. the fIo director will serve on the
     fsoc as a nonvoting member in an advisory capacity.

     treasury officials and staff are engaging frequently with interested parties and developing a framework within which
     fIo and the states, which would remain as the functional regulators, can work together. In fy 2011, treasury will
     stand up the office, appoint a director, and hire key staff. treasury will also begin to engage with representatives of
     other countries on insurance prudential issues as well as working closely with the u.s. trade representative.




appendix c: management and performance challenges and responses                                                                299
                                         the department of the treasury




                                                                                                      Page 4



                                               Transfer and Abolishment of OTS
                                               the Dodd-frank act abolishes the office of thrift supervision (ots), transferring its duties to the office of
                                               the comptroller of the currency (occ), federal reserve, and federal Deposit Insurance corporation. these
                                               reforms streamline the regulatory system and reduce potential for regulatory arbitrage. occ’s and ots’s cur­
                                               rent on-site supervisory assessments, which focus on the quality of credit risk management practices (including
                                               effective credit risk rating systems and problem loan identification), adequacy of loan-loss reserves, and effective
                                               loan work-out strategies, will continue in the new regulatory structure to prevent a repeat of the current crisis.
                                               In addition, in the new regulatory structure, occ will continue to perform individual bank examinations on a
                                               variety of other activities aimed at identifying and responding to systemic trends and emerging risks that could
                                               adversely affect asset quality or the availability of credit at national banks and the banking system, and fair access
                                               to financial services. In fy 2011, treasury will work closely with the occ, ots, and other federal financial
part 4: other accompanying information




                                               regulatory agencies to implement the Dodd-frank act reforms and to monitor and respond to any residual threats
                                               to a robust economic recovery of the u.s. financial system.


                                               Challenge 2 – Management of Treasury’s Authorities Intended to Support and Improve
                                               the Economy
                                               Small Business Lending Fund
                                               treasury’s office of financial Institutions is working expeditiously to finalize and promulgate policy guidance for
                                               the small business lending fund (sblf). More specifically, treasury’s stand-up team has drafted term sheets and
                                               applications, which soon will be posted to a newly created treasury website for the sblf. additionally, treasury
                                               is working with the federal banking agencies (fbas) to come to agreement on a process for the intake and review
                                               of applications and lending plans (which are required pursuant to the Small Business Jobs Act of 2010). once
                                               treasury and the fbas have agreed on the process, treasury will post the term sheets and applications publicly.

                                               as the treasury team works to stand up the sblf, careful consideration is being given to suggestions from the
                                               government accountability office (gao) and other oversight bodies.

                                               State Small Business Credit Initiative
                                               treasury is also implementing the state small business credit Initiative (ssbcI). staffing and hiring are
                                               integral components of this process. accordingly, treasury has formulated a detailed hiring plan with full-time
                                               equivalent estimates, as well as the functional competencies that will be needed to support this initiative, includ­
                                               ing legal, analytical, and programmatic oversight support. treasury is in the process of posting position descrip­
                                               tions for new hires and will likely engage contract support in the near term while hiring continues. this will
                                               provide the ssbcI with an adequate control structure and sufficient staff to meet the needs of the program.

                                               Management of Recovery Act Programs
                                               the Department of the treasury played a pivotal role in implementing the American Recovery and Reinvestment
                                               Act of 2009 (recovery act). by providing targeted investments and implementing tax provisions to benefit both




                                         300                                 appendix c: management and performance challenges and responses
                                                     performance and accountability report | fiscal year 2010




                                                           Page 5



     businesses and individuals, the Department continued to stimulate the u.s. economy, create and sustain jobs, and
     build the foundation for long-term economic growth. of the $787 billion provided by the recovery act, treasury
     is managing programs that will contribute nearly $300 billion in benefits to the american people through 2019.
     these programs, once implemented, will have a significant, positive impact on the lives of millions of americans.

     treasury’s recovery act programs include investments in renewable energy and low income housing, local
     and state government support, and the implementation of approximately 60 tax incentives for households and
     businesses. the tax incentive programs include the Making Work Pay credit, which by the end of calendar year
     2010, will provide an estimated $49 billion in refundable tax credits to working individuals and married taxpay­
     ers filing joint returns; and build america bonds, which in fy 2010 provided over $107 billion in financing to
     state and local governments throughout the country to help finance schools, utilities, public safety programs, and




                                                                                                                                 part 4: other accompanying information
     transportation.

     treasury has managed the low income housing and specified energy property programs by supplementing a small,
     core staff in the Departmental offices with support from treasury bureaus, including Irs. for the energy program,
     treasury entered into an interagency agreement with the Department of energy to assist with the technical
     aspects of that program. as a result, treasury successfully implemented both of these programs in five months and
     has made awards to date in excess of $10 billion.

     In fy 2010, the Department implemented compliance monitoring programs for both the low-income housing and
     specified energy property programs. for the housing program, treasury staff conducted reviews of state housing
     agencies, either by conducting in-person site visits or desk reviews. these reviews will continue in fy 2011. for
     the energy program, treasury implemented an annual reporting process through an automated system, which
     provides information and supporting documentation necessary for treasury to evaluate compliance with the pro­
     gram’s terms and conditions. this process will be ongoing throughout the program’s five year compliance period.
     additionally, the Irs has plans to initiate a compliance initiative project relative to the energy property program
     in fy 2011. this project is being designed to ensure that recipients do not also claim a tax credit with respect
     to the same property and that recipients have properly stated their basis. further, treasury has and will continue
     to inform Irs of particular areas of concern related to energy property compliance for their consideration as Irs
     designs the project.

     treasury expanded the recovery act implementation team in fy 2010 with the addition of two senior manag­
     ers. the recovery act team facilitates all recovery act implementation efforts department-wide and interfaces
     with the broader recovery act community. as part of this broad responsibility, the team establishes internal
     processes, addresses external data requirements, manages risk inherent in recovery act implementation, and
     coordinates treasury recovery act audits.

     Management of the Housing and Economic Recovery Act and the Emergency Economic Stabilization Act
     treasury used the authority provided by the Emergency Economic Stabilization Act (eesa) to implement the
     troubled asset relief Program (tarP) and strengthen the u.s. financial system, restore credit markets for




appendix c: management and performance challenges and responses                                                            301
                                         the department of the treasury




                                                                                                       Page 6



                                               businesses and consumers, and address foreclosures in the housing market. During fy 2010, as the financial
                                               system stabilized and the Department began to wind down its activities, treasury closed five programs to new
                                               investments: the cPP, the targeted Investment Program, the asset guarantee Program, the term asset­
                                               backed securities loan facility (part of the consumer and business lending Initiative), and the Public-Private
                                               Investment Program. In fy 2010, treasury implemented two new programs: the small business administration
                                               (sba) 7a Purchases Program and the community Development capital Initiative, both part of the consumer
                                               and business lending Initiative.

                                               treasury also introduced several initiatives in fy 2010, which together comprise the treasury housing Programs
                                               under tarP. these include the hardest-hit fund, the federal housing administration (fha) refinance
                                               Program, and subprograms under the home affordable Mortgage Program (haMP). subprograms under haMP,
part 4: other accompanying information




                                               the first lien loan modification program, include the Principal reduction alternative Waterfall Program, the
                                               unemployment Program, and the home affordable foreclosure alternatives Program, as well as programs under
                                               the Making home affordable Program including the fha-haMP Program, the second lien Program, the
                                               fha-refinance Program, and the u.s. Department of agriculture-haMP Program. as additional focus turns to
                                               winding down the tarP investments, other dispositions will occur in fy 2011, including the possible conversion
                                               of capital Purchase senior Preferred loans to those offered through the sblf.

                                               as of september 30, 2010, $475 billion of eesa had been designated for particular tarP programs. of that
                                               amount, over $474 billion had been obligated to specific institutions under signed agreements, over $387 billion
                                               of those funds had been disbursed, and $204 billion of tarP investments were repaid with income received on
                                               tarP investments totaling over $28 billion.

                                               treasury Departmental offices played a critical role in contributing to a well-functioning office of financial stability
                                               (ofs), which oversees all eesa investments. since its inception, ofs has aggressively implemented the programs
                                               listed above and has grown into an organization of 215 full-time employees. for each program, ofs designed,
                                               planned, and implemented sound controls and oversight. the assistant secretary for Management has provided
                                               support services such as accounting, information technology, administration, and human resources on a reimbursable
                                               basis. ofs has prepared separate financial statements on its programs for which gao gave an unqualified opinion.
                                               gao also provided an unqualified opinion on ofs’s internal controls and identified no material weaknesses.

                                               under the additional purchase authorities granted by the Housing and Economic Recovery Act of 2008, treasury’s
                                               office of Debt Management purchased mortgage-backed securities (Mbs) guaranteed by fannie Mae and freddie
                                               Mac from september 2008, until the authority’s expiration on December 31, 2009. treasury purchased over $220
                                               billion face value of agency Mbs through two expert asset managers, barclays global Investors (now blackrock)
                                               and state street global advisors. through august 2010, treasury received $69.8 billion in principal and interest
                                               payments with $164 billion of unpaid principal balance remaining. for increased transparency, the Department
                                               publishes aggregate information on its holdings of agency Mbs monthly on financialstability.gov.




                                         302                                  appendix c: management and performance challenges and responses
                                                      performance and accountability report | fiscal year 2010




                                                            Page 7



     Challenge 3 - Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act
     Enforcement
     the Department faces unique challenges in carrying out its responsibilities under the Bank Secrecy Act (bsa) and
     the USA PATRIOT Act to prevent and detect money laundering and terrorist financing. the financial crimes
     enforcement network (fincen) has overall authority for bsa enforcement and compliance, and delegates
     examination authority to the Internal revenue service (Irs), occ, ots, and other federal banking agencies.
     the following paragraphs highlight actions taken by fincen, Irs, occ, and ots, in coordination with other
     federal and state authorities, in fy 2010, and actions planned in fy 2011 related to this challenge.

     In the last several years, fincen has focused on effective and efficient administration, outreach, and engagement
     of existing industries covered by the bsa. however, new payment systems and industries vulnerable to money




                                                                                                                                  part 4: other accompanying information
     laundering continually evolve, such as prepaid access products, non-bank mortgage lenders and originators, and
     hedge funds. In fy 2011 and beyond, fincen will expand bsa regulations to new industry sectors, consistent
     with the administration’s priorities. Increasingly, fincen’s regulations focus on risks involving transactions and
     institutions for which there is no federal regulator or, in some cases not even a state regulator, and for which any
     existing regulators or delegated supervisory functions will require significant guidance and support from fincen.

     In fy 2009, fincen published a proposal simplifying the organizational structure of bsa requirements, and
     expects to implement it fully in fy 2011. fincen worked with the Irs and state regulators to develop a Money
     services business (Msb) examination manual. fincen initially released the manual in fy 2009, and translated
     it into spanish in fy 2010. fincen facilitated the development of training materials on this manual, and
     fostered training for Irs and state examiners in fy 2010. additionally, fincen issued an assessment in fy 2010
     showing that regulatory changes in fy 2009 simplifying the appropriate exemption of customers from currency
     transaction reporting requirements resulted in higher value for law enforcement and efficiency for financial
     institutions. fincen also continued to promote electronic filing of bsa reports in fy 2010, issuing a brochure
     highlighting the benefits of e-filing and initiating a phased outreach approach to financial institutions that
     continue to file bsa reports on paper that has met with positive industry response.

     to enhance the efficiency and effectiveness of the bsa regulatory framework, fincen also issued final rules in fy
     2010 to accomplish the following:
       •	   expand the successful “314(a) program” to certain foreign law enforcement agencies, u.s. state and local
            law enforcement agencies, and certain other components within the Department of the treasury
       •	   Move to streamline mutual fund bsa requirements by allowing mutual funds to file currency transaction
            reports

     fincen, in close cooperation with law enforcement and regulatory authorities, developed and issued a proposed
     rule in fy 2010 that proposes to establish a more comprehensive regulatory framework for non-bank prepaid
     access. the proposed rule focuses on prepaid programs that pose the greatest potential risks of money laundering
     and terrorist financing. also in fy 2010, fincen issued a proposed rule that would require certain depository




appendix c: management and performance challenges and responses                                                             303
                                         the department of the treasury




                                                                                                      Page 8



                                               institutions and Msbs to affirmatively provide records to fincen of certain cross-border electronic transmit­
                                               tals of funds (cbeft). fincen issued this proposal to meet the requirements of the Intelligence Reform and
                                               Terrorism Prevention Act of 2004. In addition, fincen reviewed comments received on a wide range of questions
                                               pertaining to the possible application of anti-money laundering (aMl) program and suspicious activity reporting
                                               rules to non-bank residential mortgage lenders and originators in response to an advance notice of Proposed
                                               rulemaking. In fy 2011, fincen will continue working toward finalizing these proposals, as well as proposed
                                               and/or final regulations related to:
                                                 •	   clarifying the confidentiality of suspicious activity reports (sars) and accompanying guidance to finan­
                                                      cial institutions on sharing sar information within their organizational structure
                                                 •	   clarifying foreign bank account reporting requirements
part 4: other accompanying information




                                                 •	   Implementing regulations related to due diligence in correspondent banking pursuant to the Comprehensive
                                                      Iran Sanction, Accountability, and Divestment Act of 2010

                                               outreach plays an important role in effectively administering the bsa. the bank secrecy act advisory group
                                               (bsaag) serves as the principal forum to discuss bsa issues among regulators, law enforcement, and industry.
                                               occ, ots, and other federal banking agencies actively participate on various bsaag subcommittees. In fy
                                               2010, fincen continued outreach to specific financial institutions, visiting several small depository institutions
                                               and insurance companies, and plans to conduct further outreach to additional industry segments in fy 2011.

                                               active engagement with other regulators is also critical to meeting this challenge. by the end of fy 2010,
                                               fincen had established 59 memoranda of understanding (Mou) with federal and state regulators to enhance
                                               the sharing of information derived from compliance examinations. fincen shared analytic reports in the form of
                                               bsa data profiles with these federal and state regulators, and surveyed its Mou partners to determine the impact
                                               of the information exchanged. eighty-six percent of respondents indicated the information shared with them
                                               was valuable. as these Mous mature, the information exchanged will help fincen improve bsa examination
                                               consistency and compliance. In fy 2011, fincen will pursue Mous with additional state regulators, focusing
                                               specifically on state insurance regulators.

                                               to enhance regulated financial industry understanding of and compliance with bsa requirements, in fy 2010,
                                               fincen, with input from occ, ots and other agencies, published a range of financial institution advisories
                                               and regulatory guidance, including an advisory for financial institutions on key terms to use when filing sars
                                               regarding loan modification and foreclosure rescue scams, an updated advisory on informal value transfer systems,
                                               a distillation of existing guidance on obtaining and retaining beneficial ownership information, guidance to
                                               casinos on compliance program risk indicators, and advisories to financial institutions on several international
                                               issues including statements from the financial action task force and changes to Mexican currency regulations.
                                               In fy 2010, occ and ots collaborated with fincen and other federal banking agencies to issue guidance on
                                               the impact of new, more transparent messaging standards being adopted by industry via measures undertaken by
                                               the society for Worldwide Interbank financial telecommunication. In fy 2011, fincen, occ and ots will




                                         304                                  appendix c: management and performance challenges and responses
                                                         performance and accountability report | fiscal year 2010




                                                             Page 9



     continue to work with other federal banking agencies to issue guidance to institutions as needed and additional
     financial institution advisories as risks emerge.

     In fy 2010, fincen conducted strategic analytical studies and published reports promoting greater awareness of
     emerging money laundering trends and vulnerabilities. those analytic products included an assessment of suspi­
     cious activity reporting by insurance companies and casinos/card clubs, and several reports analyzing sars related
     to mortgage loan and loan modification fraud. In fy 2011, fincen will continue to publish analytic products,
     which assess trends and patterns in mortgage fraud. other analytic studies planned for fy 2011 include strategic
     assessments of suspicious activities which involve title and escrow companies, prepaid access devices, remote
     deposit capture, debt settlement and debt relief fraud, commercial real estate fraud, and identify theft.




                                                                                                                                part 4: other accompanying information
     a primary strategy for meeting the goal of a safer, more transparent financial system includes effective examina­
     tion for any potential money laundering, terrorist financing, and bsa issues in supervised institutions. occ
     and ots continue to examine compliance with bsa, USA PATRIOT Act, and other aMl provisions through a
     process which consists of on-site examinations conducted every 12-18 months, supplemented by off-site monitor­
     ing and follow-up to address identified supervisory issues. additionally, in fy 2010 fincen and the Irs finalized
     a referral process to implement a more effective bsa examination regime for non-bank financial institutions
     that the Irs examines. Implementation of this process is part of a broader strategy implemented in fy 2010 to
     better enable fincen to develop cases and pursue enforcement actions based, in part, on its own analytical efforts
     and information from law enforcement. fincen will build upon current initiatives through fy 2011; work will
     include coordinating with the Irs to develop stronger relationships with state regulatory agencies, particularly
     with regard to non-bank financial institution examinations.

     throughout fy 2010, fincen, occ, and ots continued to work with the federal financial Institution
     examination council (ffIec) agencies to ensure examination consistency, and to provide guidance and training
     to financial institutions and examiners regarding aMl and bsa requirements. this collaboration helps achieve
     a consistent examination approach that is risk focused and provides uniform guidance to financial institutions on
     regulatory expectations. In april 2010, occ, ots, and the other federal banking agencies, in consultation with
     fincen, issued an updated ffIec bsa/aMl examination Manual. the 2010 version was the fourth revision
     of the manual. occ and ots joined the other federal banking agencies in a webinar hosted by the american
     bankers association to provide an overview of significant revisions to the manual for the banking industry. In
     august 2010, the ffIec, with participation from occ, ots and fincen, continued to enhance advanced bsa/
     aMl training for banking examiners through the fourth ffIec advanced bsa/aMl specialists conference in
     august 2010. also, in fy 2010, the ffIec agencies, in consultation with fincen, completed the development
     of a software application used by examiners to analyze bsa data for purposes of improving the scoping of bsa
     examinations.

     ensuring financial institutions comply with the bsa, aMl, USA PATRIOT Act, and related regulations is criti­
     cal to protecting the integrity of the u.s. financial system and combating money laundering and terrorist financ­
     ing. In fy 2010, fincen, occ, ots, and Irs worked collectively and with other federal banking agencies to




appendix c: management and performance challenges and responses                                                           305
                                         the department of the treasury




                                                                                                     Page 10



                                               review examination results and take enforcement actions, as appropriate, against institutions that egregiously
                                               violated regulatory requirements. In March 2010, fincen and occ, in conjunction with the Department of
                                               Justice, reached settlement on the largest civil penalty action to date under the bsa. these bureaus and agencies
                                               will continue to work together in fy 2011 to ensure financial institutions comply with aMl and bsa require­
                                               ments and protect the integrity of the financial system.


                                               Challenge 4 - Management of Capital Investments
                                               the Department takes its investment management role very seriously and remains committed to improving the
                                               management of information technology (It). In support of this commitment, the office of the chief Information
                                               officer (ocIo) is actively engaged in the following activities:
part 4: other accompanying information




                                               Infrastructure Optimization/Data Center Consolidation and Shared Services
                                               In august 2010, the Department submitted its strategy for reducing the number of treasury data centers to the
                                               office of Management and budget (oMb). In support of this strategy, the treasury cIo council approved
                                               proposals of specific initiatives to consolidate and optimize the Department’s data centers. Data center consolida­
                                               tion efforts will focus on coordinating planning among those bureaus (e.g., bureau of the Public Debt, financial
                                               Management service, occ, ots, and Irs) that have begun to work together to consolidate their operations.
                                               the Department expects to increase the efficiency of its data centers in support of energy reduction and release
                                               of real property. enterprise content Management will be a key shared service that will foster collaboration across
                                               the Department for a variety of administrative activities such as records management and correspondence track­
                                               ing. In fy 2011, the Department will continue to focus on data center consolidation and shared services as key
                                               strategies to better manage costs of It investments.

                                               Monthly Evaluation of IT Investments
                                               the treasury ocIo continues to evaluate, on a monthly basis, the degree to which major It investments achieve
                                               cost control, schedule, and other performance goals. the ocIo inputs and monitors progress made on these
                                               goals via an oMb website. the public transparency and the increased frequency of assessments have resulted in
                                               increased executive attention to It investment management, which in turn results in more consistent manage­
                                               ment of the treasury It budget.

                                               taking advantage of the potential cost savings and/or cost avoidance from these efforts is not only good man­
                                               agement, but is necessary if the Department is to effectively field the new capabilities required to support the
                                               Department’s expanding financial and economic missions.




                                         306                                 appendix c: management and performance challenges and responses
                                     performance and accountability report | fiscal year 2010




                                                                                                part 4: other accompanying information




appendix c: management and performance challenges and responses                          307

                                         the department of the treasury
part 4: other accompanying information




                                         308                         appendix c: management and performance challenges and responses
                                     performance and accountability report | fiscal year 2010




                                                                                                part 4: other accompanying information




appendix c: management and performance challenges and responses                          309

                                         the department of the treasury
part 4: other accompanying information




                                         310                         appendix c: management and performance challenges and responses
                                     performance and accountability report | fiscal year 2010




                                                                                                part 4: other accompanying information




appendix c: management and performance challenges and responses                          311

                                         the department of the treasury
part 4: other accompanying information




                                         312                         appendix c: management and performance challenges and responses
                                     performance and accountability report | fiscal year 2010




                                                                                                part 4: other accompanying information




appendix c: management and performance challenges and responses                          313

                                         the department of the treasury
part 4: other accompanying information




                                         314                         appendix c: management and performance challenges and responses
                                     performance and accountability report | fiscal year 2010




                                                                                                part 4: other accompanying information




appendix c: management and performance challenges and responses                          315

                                         the department of the treasury
part 4: other accompanying information




                                         316                         appendix c: management and performance challenges and responses
                                     performance and accountability report | fiscal year 2010




                                                                                                part 4: other accompanying information




appendix c: management and performance challenges and responses                          317

                                         the department of the treasury
part 4: other accompanying information




                                         318                         appendix c: management and performance challenges and responses
                                     performance and accountability report | fiscal year 2010




                                                                                                part 4: other accompanying information




appendix c: management and performance challenges and responses                          319

                                         the department of the treasury
part 4: other accompanying information




                                         320                         appendix c: management and performance challenges and responses
                                     performance and accountability report | fiscal year 2010




                                                                                                part 4: other accompanying information




appendix c: management and performance challenges and responses                          321

                                         the department of the treasury
part 4: other accompanying information




                                         322                         appendix c: management and performance challenges and responses
                                                                      performance and accountability report | fiscal year 2010




                                                    D EPAR T M EN T O F T H E T R EAS U RY 

                                                                 WA S H I NGTO N , D . C . 



   S E C R E TA R Y O F T H E T R E A S U R Y

                                                                  november 15, 2010



      MEMORANDUM FOR J. RUSSELL GEORGE
                                                TREASURY INSPECTOR GENERAL FOR
                                                TAX ADMINISTRATION


      FROM: 	                                   timothy f. geithner




                                                                                                                                    part 4: other accompanying information
      SUBJECT:	                                 response to Management and Performance challenges facing the
                                                Internal revenue service


      I am responding to your october 15, 2010, memorandum describing the Internal revenue service’s (Irs) most
      serious management and performance challenges. this memorandum provides information on the actions
      completed in fiscal year (fy) 2010 and the actions planned for fy 2011 to address these challenges.


      Challenge 1 – Security
      In fy 2010, Irs implemented a number of security enhancements at Irs buildings nationwide as a result of the
      february incident in austin in which an Irs employee perished and several others were injured. the Irs placed
      guards on a 24/7 basis in 11 of the austin offices, and security guards at all of the 401 taxpayer assistance centers
      (tacs). the Irs also established a more vigilant security posture at all buildings through increased canine
      patrols, random searches, and guard vigilance. In addition, Irs is conducting in-depth risk assessments at all 669
      facilities that house Irs employees to identify any security countermeasures that would enhance security.

      the Irs’s criminal Investigation Division (cI) enhanced its partnerships with the treasury Inspector general for
      tax administration and federal Protective service to share information on potential threats so Irs can institute
      appropriate countermeasures. the Irs included physical security briefings for all employees in mandatory annual
      security awareness briefings.

      During fy 2010, Irs expanded efforts to detect and prevent security threats and to protect access to taxpayer
      information, identifying and mitigating over 5,200 individual cyber incidents which could have compromised
      the integrity of the Irs to address computer security. the Irs combated online fraud schemes by monitoring,
      identifying, and mitigating fraudulent sites and phishing scams, shutting down 4,109 phishing sites (899 domestic
      and 3,210 international) in fy 2010, up from 3,444 sites shut down in 2009. the Irs has a team of capable “first
      responders” who are organized, trained, and equipped to identify, contain, and eradicate cyber threats targeting
      Irs computing assets.




appendix c: management and performance challenges and responses                                                               323
                                         the department of the treasury




                                                                                                      Page 2




                                               the Irs continues to take the issue of identity theft very seriously. In fy 2010, Irs flagged more than 284,000
                                               accounts of identity theft victims with “markers” that indicated to an employee that they were dealing with a
                                               substantiated case of identity theft. In addition, Irs ensured that identity theft indicators and business rules
                                               isolated returns for additional screening to validate whether the true taxpayer filed the return. More than 82,000
                                               returns were selected for additional screening and closed, and more than $245 million was protected from being
                                               refunded to perpetrators on thousands of fraudulent returns.

                                               In fy 2011, Irs will deploy additional account “markers” that will improve the processing of taxpayer accounts
                                               impacted by identity theft. the Irs will also complete the development of a cI Disaster recovery site in
                                               Martinsburg, WV which will be used to prepare for, respond to, and recover from a disaster or emergency incident.
part 4: other accompanying information




                                               Challenge 2 – Modernization
                                               In fy 2010, Irs modernization efforts continued to focus on core tax administration systems designed to provide
                                               more sophisticated tools to taxpayers and to Irs employees. the customer account Data engine (caDe),
                                               Modernized e-file (Mef), and account Management services (aMs) modernization projects delivered the
                                               changes necessary for a successful filing season, and continued to support implementation of the tax provisions of
                                               the American Recovery and Reinvestment Act of 2009 (recovery act).

                                               In fy 2010, Irs revised its caDe strategy (caDe 2) to implement a new taxpayer account database for the
                                               2012 filing season that provides for daily updating of individual taxpayer accounts to improve taxpayer service and
                                               accuracy, reduce interest paid on late refunds, improve data security, and allow the development of new tools to
                                               combat fraud and improve enforcement activities. completion of the taxpayer account database is the prerequi­
                                               site for other major initiatives, including significant expansion of online services and transactions and the next
                                               generation of enforcement technologies.

                                               the Irs deployed an additional release of Mef that enabled acceptance of additional forms and schedules to
                                               reach 61 percent of the e-file population, and with enhanced disaster recovery capabilities to manage operational
                                               risk. In addition, Irs deployed the final release of aMs, enabling users to view correspondence images online,
                                               eliminating manual processing, and reducing case cycle time from 10-14 days to zero days. aMs also facilitated
                                               the identification of unallowable or fraudulent claims for first-time home buyer credits claimed by taxpayers
                                               filing amended returns.

                                               In fy 2011, Irs will continue to focus on modernization of the tax administration systems to provide additional
                                               benefits to taxpayers. the Irs will further develop caDe 2 to accommodate tax law changes in the 2012 filing
                                               season.




                                         324                                 appendix c: management and performance challenges and responses
                                                      performance and accountability report | fiscal year 2010




                                                            Page 3




     Challenge 3 – Tax Compliance Initiatives
     During fy 2010, Irs continued to focus on improving voluntary compliance in support of treasury’s goal of re­
     ducing the tax gap, ensuring businesses and individuals pay the correct amount of tax and overseeing tax-exempt
     and government entities. the Irs research community strategic Plan, released in fy 2010, focuses on research
     efforts aimed at effectively determining ways to address taxpayer compliance. specifically, Irs will develop several
     new estimates of taxpayer compliance, undertake research to support efficient methods to enhance compliance,
     and use analytically based technologies to provide tools for detecting and reducing noncompliance.

     Businesses and Individuals
     In fy 2010, Irs continued to make closing the tax gap, especially the portion attributable to underreporting of




                                                                                                                                   part 4: other accompanying information
     individual and business income tax, a major priority. While enforcement efforts are crucial, Irs also recognized
     the need to better identify noncompliant taxpayers, conduct exams more efficiently and with less taxpayer
     burden, and to engage and monitor tax return preparers, who are uniquely situated to impact taxpayer behavior
     and compliance.

     the Irs requested increases in its fy 2011 treasury budget submission to support the Presidential priority of ad­
     dressing international tax evasion. the Irs’s planned initiatives build on the work started in fy 2010, allowing
     Irs to continue the multi-year investment in international tax compliance activities. Increases in the coverage
     of the most strategically important international issues, including complex enterprise structures and transactions,
     promote greater compliance in high net-worth individuals and large enterprises, including those with internation­
     al components, operated by businesses and investors through multiple interrelated financial and tax entities. the
     Irs will also be able to continue directing significant resources to examining returns from the offshore Voluntary
     Disclosure Initiative and to the development of cases built upon data received from ubs for taxpayers who did
     not voluntarily disclose ownership of offshore accounts.

     the Irs is continuing the individual national research Program in order to update case scoring models to better
     identify noncompliant taxpayers. In fy 2011, Irs plans to use the improved case scoring models to identify a
     sample population on which to conduct examinations beginning in fy 2012.

     During fy 2010, while Irs continued to take enforcement actions crucial to closing the tax gap, it also took
     steps to conduct exams more efficiently and with less taxpayer burden. In fy 2010, Irs began using new software
     that reduces the taxpayer burden of printing records stored electronically in response to business owners and tax
     professionals who have been advocating for the acceptance of taxpayer records in electronic format. the new
     software will allow Irs to retain a complete set of the taxpayer’s accounting records. as a result, Irs anticipates a
     decrease in the size and complexity of initial document requests during an examination and in follow-up requests
     to taxpayers. the new software also has the potential to allow Irs to resolve audits more quickly due to increased
     efficiency in the analysis and testing of the books and records in electronic format.




appendix c: management and performance challenges and responses                                                              325
                                         the department of the treasury




                                                                                                        Page 4




                                               for the first time since the early 1980s, Irs embarked on a three-year employment tax compliance study to de­
                                               termine the employment tax gap and employment tax compliance rates. the Irs developed new forms designed
                                               to provide a clearer procedure for workers who are being incorrectly classified as contractors by their employers.
                                               In fy 2011, systemic changes will identify returns that have incomplete forms attached, reducing the number
                                               of forms filed with incorrect social security and Medicare taxes reported. the Irs will report the results of the
                                               employment tax compliance study once three years of data are available to develop robust compliance estimates,
                                               and will use the results to develop processes to correct the problem of misclassification of employees.

                                               Tax-Exempt Entities
                                               During fy 2010, Irs continued to recognize the importance of maintaining a strong enforcement presence in the
part 4: other accompanying information




                                               tax-exempt sector and ensured that tax-exempt organizations met their requirements under federal tax law. In fy
                                               2010, Irs improved the filing of required forms 8871, Political Organization Notice of Section 527 Status, and 8872,
                                               Political Organization Report of Contributions and Expenditures, to better identify non-compliance by section 527
                                               political organizations. In fy 2011, Irs will continue to focus on these organizations by revising form instruc­
                                               tions to improve the guidance provided to filers, developing procedures to both periodically sample forms submit­
                                               ted for compliance and to conduct reviews of responses received to compliance notices, and seeking to correct
                                               systemic issues related to the issuance of form 8872 notices.

                                               In fy 2010, Irs assisted the Department of Justice (DoJ) in fraud and conspiracy investigations related to
                                               municipal bond contracts and initiated examination projects in identified areas of noncompliance. one notable
                                               accomplishment is that compliance contacts for tax-exempt and government entities increased 19.7 percent in fy
                                               2010 when compared to the previous year.

                                               During fy 2010, international tax compliance continued to challenge Irs. In fy 2010, Irs addressed interna­
                                               tional compliance issues, including internationally sponsored pension plans, the movement of in-kind charitable
                                               gifts offshore, and cross-border commerce using Indian reservations and casinos. In fy 2011, Irs will continue
                                               to ensure tax-exempt organizations comply with applicable laws and regulations, as well as continue to address
                                               international compliance issues.

                                               In fy 2010, Irs released an interim report on the compliance of colleges and universities for unrelated business
                                               taxable income and compensation. the colleges and universities project is part of an ongoing effort by Irs to
                                               review the largest, most complex organizations in the tax-exempt sector to identify issues that warrant additional
                                               guidance or scrutiny. based on responses to compliance questionnaires sent to 400 public and private colleges and
                                               universities, Irs has opened several dozen examinations focusing on unrelated business income and executive
                                               compensation and will issue a final report in fy 2011.




                                         326                                 appendix c: management and performance challenges and responses
                                                      performance and accountability report | fiscal year 2010




                                                            Page 5




     Tax Return Preparers
     the Irs recognizes that return preparers are a critical component of tax administration and are uniquely situated
     to impact taxpayer behavior and improve compliance with tax laws. In fy 2010, Irs emphasized compliance
     among return preparers through a variety of methods, including due diligence and “knock and talk” visits, as well
     as examinations of cases where potential preparer violations were identified. as discussed further below, in 2010
     Irs also began to lay a foundation for ensuring the quality and integrity of professional tax return preparation
     through a program of registration, competency testing, and continuing professional education.


     Challenge 4 – Implementing Health Care and Other Tax Law Changes




                                                                                                                                part 4: other accompanying information
     Health Care
     the Affordable Care Act (aca) was signed into law on March 23, 2010, and later amended by the Health Care
     and Education Reconciliation Bill of 2010 on March 30, 2010. aca represents the largest set of tax law changes
     in more than 20 years, with more than 40 provisions that amend the tax laws. although the new law goes into
     effect gradually over many years, numerous provisions required Irs to take immediate action, including the small
     business health care tax credit, the Qualifying therapeutic Discovery credit, the expanded adoption credit,
     and numerous tri-departmental aca market reform regulations and subregulatory guidance issued jointly by the
     Department of health and human services (hhs), Department of labor, and treasury (with Irs).

     to implement various aca provisions that are effective in 2010 and 2011, Irs established teams, organized by
     affected taxpayer groups: individual taxpayers, small businesses, large industry, and tax-exempt and government
     entities. During fy 2010, Irs focused on:

       •	   Developing new systems and business processes for near-term provisions

       •	   conducting initial planning for longer-term provisions, and

       •	   Defining appropriate outreach activities for each affected group

     the Irs and hhs partnered to form a coordinating committee to assess cross-cutting policy considerations.
     also, interagency working teams have formed to assess operational needs such as data infrastructure, eligibility,
     enrollment, customer service, communications, and payment of premium tax credits.

     Provisions taking effect in later years (including the individual responsibility requirement and premium tax
     credit), when new options for buying health insurance through state-sponsored exchanges go into effect, place
     significant new administrative responsibilities on Irs. In preparation for these provisions, in fy 2010, Irs began
     to design and develop the requisite complex new systems and business processes and coordinate with other federal
     and state entities.




appendix c: management and performance challenges and responses                                                           327
                                         the department of the treasury




                                                                                                       Page 6




                                               Recovery Act
                                               the Irs is faced with implementing tax law changes each filing season, and in fy 2010 Irs successfully imple­
                                               mented the fy 2010 provisions of the recovery act. In response to the fraud that sometimes accompanies major
                                               tax law changes, Irs identified erroneous and fraudulent first-time homebuyer credit claims through new
                                               system programming and pre-refund filters that rejected returns where claims in excess of the maximum allowable
                                               credit were made or claims in excess of allowable amounts for taxpayers with adjusted gross income exceeded
                                               income limitations. the Irs continues to take a strategic approach to this credit which includes both aggressive
                                               compliance and outreach components. from october to December 2010, Irs plans to send a series of notices to
                                               the millions of taxpayers who benefited from the program to remind them of the requirements on repayment and
                                               recapture of the credit. the Irs will also send notices to taxpayers who may have disposed of their home within
part 4: other accompanying information




                                               the three years, reminding them of the requirement to report the disposition for the year it occurred. the Irs is
                                               also moving forward with its plans to use third party data to identify non-compliance and to address the areas of
                                               non-compliance already identified.

                                               In fy 2010, Irs provided detailed recovery act training to employees responsible for developing recovery act­
                                               funded requirements to ensure the necessary controls were in place to comply with procurement requirements.
                                               the Irs also increased staff to ensure full coverage of required procurement activities. In fy 2011, Irs will
                                               continue to assess staffing throughout the procurement lifecycle to maintain adequate internal control functions.

                                               Other Tax Law Changes
                                               In fy 2010, taxpayers continued to use Irs.gov in record numbers to get real-time, updated information on avail­
                                               able tax credits as they filed their returns. taxpayers used the site to find answers to tax law questions through
                                               an Interactive tax assistant and updated phone tools to obtain information on the one-time $250 economic
                                               recovery payment.

                                               In fy 2011, Irs will continue to monitor proposed changes to the tax laws and prepare accordingly to ensure
                                               taxpayers have the necessary forms and information for the filing season. based on preliminary analysis of the
                                               affordable care act, Irs will prepare to implement the act, including the revision of more than 17 tax forms
                                               and the creation of three new forms.


                                               Challenge 5 – Providing Quality Taxpayer Service Operations
                                               During the 2010 filing season, Irs.gov remained the preferred source of information for taxpayers seeking answers
                                               to their questions on preparing and filing their tax returns accurately and timely and on new legislation. the
                                               Irs added more automated self-help web tools and services; e.g., an application for taxpayers to obtain a personal
                                               identification number to satisfy e-filing signature requirements and a multilingual website to facilitate participa­
                                               tion in the tax system by individuals who do not speak english. these improvements are a part of Irs’s contin­
                                               ued implementation of the taxpayer assistance blueprint (tab) service improvements.




                                         328                                 appendix c: management and performance challenges and responses
                                                       performance and accountability report | fiscal year 2010




                                                            Page 7




     the Irs and its partners provided free tax assistance to the elderly, disabled, and limited english proficient
     individuals and families at Volunteer Income tax assistance (VIta) and tax counseling for the elderly (tce)
     sites during the filing season. Volunteers at over 12,000 VIta and tce sites throughout the nation prepared
     more than 3.1 million tax returns, including 360,500 returns for individuals with disabilities and/or families with
     disabled dependents.

     During fy 2010, Irs and its partners hosted five open house events at 200 tacs and partner sites, including at
     least one in every state, in an effort to assist taxpayers during the economic downturn. the goal of these events
     was to improve the taxpayer’s experience by creating seamless case resolution on a variety of tax issues and to
     assist taxpayers in preparing their tax returns. as a result, they served more than 31,400 taxpayers and prepared




                                                                                                                                 part 4: other accompanying information
     over 7,700 returns. Included in the 2010 events were assistors trained to help taxpayers who owed delinquent
     taxes, especially those who were having difficulties meeting their tax obligations because of unemployment or
     other financial problems. services offered to taxpayers included added flexibility for missed installment agreement
     payments and streamlined processing for offers in compromise.

     In fy 2011, Irs will continue to implement its tab service improvements and provide greater access to service
     on non-workdays through events such as open houses. the Irs will also use Irs.gov to disseminate informa­
     tion to taxpayers quickly, continue to simplify forms to comply with the Plain Writing Act of 2010, and look for
     additional ways to improve the tax filing process.


     Challenge 6 – Human Capital
     In fy 2010, Irs completed its human capital business Plan for 2010-2014, which describes how Irs will work
     toward further improving its ranking as a “best place to work in government.”

     to attract the best and most qualified applicants, Irs enhanced its recruitment programs and introduced a new
     recruitment brand – “count on Me!” – on print materials, usajobs.gov, the Irs careers website, Internet
     advertisements, and social media. a job search tool on youtube helped provide the public with information on
     employment opportunities. the Irs also took steps to streamline its hiring process to make it faster and more
     efficient, while reducing applicant burden.

     In fy 2010, Irs had noteworthy hiring accomplishments, including meeting its goal of hiring 1,000 military
     veterans for the third year in a row, with veterans comprising 11 percent of total hires, up from 9 percent in fy
     2009, and 7 percent in fy 2008. the Irs achieved this goal by working with veterans’ organizations and other
     government agencies to hold targeted job fairs.

     also, Irs developed an overall strategy for improving coaching and mentoring skills at all leadership levels,
     including implementation of an internal coaching certification program and core workshops for all leaders to de­
     velop, promote, and retain Irs leaders. the Irs also completed 41 of 58 recommendations outlined in its 2009




appendix c: management and performance challenges and responses                                                            329
                                         the department of the treasury




                                                                                                       Page 8




                                               Workforce of tomorrow (Wot) report, helping to resolve some of the most significant recruitment and retention
                                               workforce challenges facing current employees and managers.

                                               In fy 2011, Irs will implement additional Wot recommendations, as well as an accelerated leadership
                                               Program pilot to test a “fast track” training program for identified high-potential candidates. the Irs will also
                                               continue to use cutting edge technologies and communication tools to increase the breadth of recruitment in an
                                               effort to attract the best and brightest applicants and will continue efforts to streamline the hiring process.


                                               Challenge 7 – Erroneous and Improper Payments and Credits
part 4: other accompanying information




                                               Refundable Credits
                                               During fy 2010, Irs continued to focus on refundable credits and the earned Income tax credit (eItc) as
                                               areas for reducing erroneous payments. the Irs protected over $3.7 billion in revenue through eItc enforce­
                                               ment efforts, which included the examination of over 474,000 original and amended returns claiming the eItc,
                                               900,000 document matching reviews, and 300,000 math error process corrections. the Irs also identified more
                                               than 405,555 fraudulent returns claiming over $3.0 billion in refunds, and stopped over $2.6 billion in fraudulent
                                               claims using the electronic fraud Detection system, with an average refund of $8,230.

                                               In fy 2011, Irs will continue to address eItc noncompliance through its aggressive compliance program which
                                               includes examinations, reviews of income misreporting, systemic corrections during return processing, and focus
                                               on paid return preparers, who prepare 66 percent of eItc returns. the Irs believes the implementation of new
                                               preparer requirements for registration, competency testing, continuing education, and compliance checks will
                                               improve eItc compliance, decrease fraud, and reduce overall program noncompliance.

                                               Contracts and Other Payments
                                               In fy 2010, Irs emphasized the importance of the role of the contracting officer’s technical representative
                                               (cotr) in contract administration and contract monitoring by providing on-line reference resources and
                                               developing more comprehensive training. the training is a mandatory requirement for all managers and employ­
                                               ees involved in contract administration. It includes courses that separate the receipt and acceptance processes
                                               to clarify the requirements. the Irs has also established an automated system to ensure only properly certified
                                               employees serve as cotrs. to further assist cotrs in the contractor invoice review and approval process,
                                               detailed procedures include a requirement to verify contractor employee qualifications against the contract labor
                                               categories and descriptions prior to approval of any voucher for payment.


                                               Challenge 8 – Globalization
                                               During fy 2010, Irs continued to focus on taxpayers who shift income abroad and engage in offshore tax evasion
                                               schemes to hide their wealth and avoid paying taxes. With cross-border transactions on the rise, Irs more than




                                         330                                 appendix c: management and performance challenges and responses
                                                      performance and accountability report | fiscal year 2010




                                                             Page 9




     doubled its offshore presence by opening new offices in asia and central america, placing additional personnel
     at its existing offices throughout the world, and expanding its interaction with key international organizations
     involved in tax and financial law compliance.

     In fy 2010, Irs used audit results and intelligence from ongoing offshore initiatives to refine case identification
     and selection methods and to identify promoters, facilitators, and participants in abusive offshore arrangements.
     the Irs also began mining the information from participants of its offshore voluntary disclosure program, started
     in 2009, to identify financial institutions, advisors, and others who promoted or otherwise helped u.s. taxpayers
     hide assets and income offshore. this mined data will be used in fy 2011 to develop additional strategies to
     prohibit promoters and facilitators from soliciting new clients.




                                                                                                                                   part 4: other accompanying information
     as part of a continuing effort to ensure the issues with erroneous and fraudulent refund claims on forms 1040nr,
     U.S. Nonresident Alien Income Tax Return, are not widespread, Irs has developed new procedures for reviewing
     and processing the refund claims, assisted by recently passed legislation that extends the timeframe allowed for
     review. In fy 2011, a new database will be developed to provide for better tracking and validity reviews, and
     new criteria will be established to assist in the validation of claims. the Irs also plans to take steps to recover
     erroneous refunds through enforcement. the Irs continued to address emerging compliance issues with interna­
     tionally sponsored pension plans, the movement of in-kind charitable gifts offshore, and adherence by charities to
     requirements for foreign bank accounts.


     Challenge 9 – Taxpayer Protection and Rights
     taxpayer protection is a top priority for Irs. In fy 2010, Irs continued to monitor compliance with the tax­
     payer rights provisions of the IRS Restructuring and Reform Act of 1998 (rra 98), including quarterly managerial
     certifications and annual independent reviews of the rra 98 section 1204 provisions. the certification process
     serves to ensure management does not use enforcement statistics to evaluate employees and drive behavior in
     conflict with taxpayer rights. the Irs issued new policy guidance and developed an improved briefing on the
     retention standard to ensure that the fair and equitable treatment of taxpayers remains a critical factor in evaluat­
     ing employees.

     During fy 2010, Irs began laying the groundwork to ensure the quality and integrity of professional tax return
     preparation, which most taxpayers rely on in one form or another. the Irs successfully implemented an applica­
     tion process to comply with the mandate that all paid tax return preparers obtain a preparer tax identification
     number. In fy 2011, Irs will proceed with additional requirements related to competency testing and continuing
     professional education.

     the notice of federal tax lien process is an important component of the Irs recovery strategy to protect the gov­
     ernment’s interest on unpaid tax liabilities. the Irs has taken several steps to address systemic and procedural




appendix c: management and performance challenges and responses                                                              331
                                         the department of the treasury




                                                                                                      Page 10




                                               concerns identified with the notice of federal tax lien process, including system enhancements, Internal revenue
                                               Manual procedural updates, and operational reviews. the Irs continually examined and improved processes
                                               to ensure the protection of taxpayer rights. In fy 2011, Irs will implement automation tools to address notice
                                               requirements.


                                               Challenge 10 – Leveraging Data to Improve Program Effectiveness and Reduce Costs
                                               In fy 2010, Irs continued to make progress in financial management, particularly with use of its managerial
                                               cost accounting system that provides timely, accurate, and useful data across multiple business units. currently,
                                               the system has five years of data that provide managers with useful cost information for decision making related
part 4: other accompanying information




                                               to their programs and activities. the Irs has used its Integrated financial system cost module to determine the
                                               full cost of a number of compliance activities at the program level, including the eItc program, and to develop
                                               cost-benefit analyses on other enforcement programs.

                                               the Irs implemented the redesign revenue accounting control system (rracs) in January 2010, bringing
                                               the revenue financial system substantially compliant with the united states standard general ledger. the
                                               requirement that rracs provide transaction traceability for unpaid tax assessments to the sub-ledger prevents
                                               closure of the unpaid assessment material weakness at this time. closure of this material weakness depends on
                                               implementation of caDe 2 (transition state 2) to provide the capability to properly categorize unpaid assess­
                                               ment data and provide an audit trail to the detailed transactions residing in modernized and legacy operating
                                               systems.




                                         332                                appendix c: management and performance challenges and responses
                                                            performance and accountability report | fiscal year 2010




appendix d:

Material WeaKnesses, audit folloW-uP, 

financial systeMs, and recoVery act

risK ManaGeMent


     this section consists of detailed descriptions of treasury’s material weakness inventory, including a summary of actions taken and
     planned to resolve the weaknesses; tracking and follow-up activities related to treasury’s gao, oIg, tIgta, and the special
     Inspector general for the troubled asset relief Program audit inventory; an analysis of potential monetary benefits arising from
     audits performed by treasury’s Inspectors general; an update on treasury’s financial systems framework; and an overview of
     treasury’s risk management activities related to the American Recovery and Reinvestment Act of 2009 (recovery act).




                                                                                                                                            part 4: other accompanying information
i.    treasury’s m aterial Weaknesses
Management may declare audit findings or internal situations as a material weakness whenever a condition exists that may jeopar­
dize the treasury mission or continued operations. reporting on material weaknesses is required in these instances by the Federal
Managers’ Financial Integrity Act of 1982 (fMfIa) and the Federal Financial Management Improvement Act of 1996 (ffMIa).


Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
the fMfIa requires agencies to establish and maintain internal controls. the secretary must annually evaluate and report on the
controls (fMfIa section 2) and financial systems (fMfIa section 4 and ffMIa) that protect the integrity of federal programs.
the requirements of the fMfIa serve as an umbrella under which other reviews, evaluations, and audits should be coordinated and
considered to support management’s assertion about the effectiveness of internal control over operations, financial reporting, and
compliance with laws and regulations.

as of september 30, 2010, treasury has four material weaknesses under section 2 of the fMfIa, summarized as follows:

Summary of FMFIA and FFMIA Material Weaknesses                                        Section 2          Section 4            Total
 Balance at the Beginning of FY 2010                                                     5                   0                  5
 Closures/Downgrades during FY 2010                                                      1                   0                  1
 Reassessed during FY 2010                                                               0                   0                  0
 New MW declared during FY 2010                                                          0                   0                  0
 Balance at the End of FY 2010                                                           4                   0                  4




appendix d: material weaknesses, audit follow-up,
financial systems, and recovery act risk management                                                                                   333
                                         the department of the treasury




                                         below are detailed descriptions of treasury’s four material weaknesses:

                                         Material Weakness Description
                                          INTERNAL REvENUE SERvICE - Improve Modernization Management Controls and Processes
                                          The IRS needs to improve its management of the Business Systems Modernization program. Key elements:
                                               •	 Assess the recommendations from the Special Studies and Reviews of the Business Modernization program and projects

                                               •	 Implement and institutionalize procedures for validating contractor-developed costs and schedules

                                               •	 Establish effective contract management practices

                                               •	 Complete a human capital strategy

                                               •	 Improve configuration management practices


                                         Actions Completed                                                                          What Remains to be Done
                                             Deployed release 5.2 of the Customer Account Data Engine (CADE) in
                                            55                                                                                           Allow assessment time to observe long-term effect of actions completed and
                                                                                                                                        5
                                                 January 2010, delivering the tax year 2009 filing season tax law changes                   demonstrate sustained improved performance
                                                 affecting individual taxpayers, and providing technical improvements to the             Targeted Downgrade/Closure: Fiscal year 2011
                                                                                                                                        5
                                                 infrastructure and availability of current CADE
                                             Deployed Modernized e-File (MeF) release 6.1 in January 2010, delivering all
                                            55
part 4: other accompanying information




                                                 functionality and tax law changes for corporate, partnership, and non-profit/
                                                 tax exempt returns; and the build-out of the infrastructure to include a more
                                                 robust disaster recovery capability to support 1040 processing
                                             Deployed Account Management Services (AMS) release 2.1 in September
                                            55
                                                 2009, providing all AMS users the ability to view correspondence images
                                                 online and on demand, eliminating users’ reliance on manual processes to
                                                 obtain copies of images.
                                             Exited CADE 2 Transition State 1 milestone 0-2 in February 2010; implemented
                                            55
                                                 CADE 2 Acquisition Strategy and Plan which provides oversight for all CADE 2
                                                 acquisition tasks



                                         Material Weakness Description
                                          INTERNAL REvENUE SERvICE - Computer Security
                                          The IRS has various computer security controls that need improvement. Key elements:
                                               •	 Adequately restrict electronic access to and within computer network operational components

                                               •	 Adequately ensure that access to key computer application and systems is limited to authorized persons for authorized purposes

                                               •	 Adequately configure system software to ensure the security and integrity of system programs, files, and data

                                               •	 Appropriately delineate security roles and responsibilities within functional business operating and program units, as required by the Federal Information Security
                                                 Management Act
                                               •	 Appropriately segregate system administration and security administration responsibilities

                                               •	 Sufficiently plan or test the activities required to restore certain critical business systems where unexpected events occur

                                               •	 Effectively monitor key networks and systems to identify unauthorized activities and inappropriate system configurations

                                               •	 Provide sufficient technical, security-related training to key personnel

                                               •	 Certify and accredit 90 percent of all systems


                                         Actions Completed                                                                          What Remains to be Done
                                             Security roles and responsibilities
                                            55                                                                                           Systems/Application access controls
                                                                                                                                        5
                                             Security/System Administration segregation of duties
                                            55                                                                                           Systems software configuration access controls
                                                                                                                                        5
                                             Security training
                                            55                                                                                           Contingency planning
                                                                                                                                        5
                                             Certification and Accreditation
                                            55                                                                                           Audit trails
                                                                                                                                        5
                                             Network access controls
                                            55                                                                                           Targeted Downgrade/Closure: Fiscal year 2012
                                                                                                                                        5




                                                                                                                                appendix d: material weaknesses, audit follow-up,
                                         334                                                                                 financial systems, and recovery act risk management
                                                                            performance and accountability report | fiscal year 2010




Material Weakness Description
INTERNAL REvENUE SERvICE – Unpaid Assessments (remaining portions of Financial Accounting of Revenue – Custodial)
The IRS needs to improve its internal control over Unpaid Assessments. Key elements:
     •	 Subsidiary ledger does not track and report one Trust Fund Recovery Penalty (TFRP) balance

    •	 Untimely posting of TFRP assessments and untimely review of TFRP accounts

    •	 IRS’ general ledger for its custodial activities does not use the standard federal accounting classification structure


Actions Completed                                                                         What Remains to be Done
   Implemented the Redesign Revenue Accounting Control System (RRACS) in
  55                                                                                           Achievement of CADE 2 Transition State 2 target of a single, data-centric
                                                                                              5
       January 2010, which enabled the custodial financial management system to                   solution system which provides for daily processing of taxpayer accounts
       substantially comply with the United States Standard General Ledger (USSGL)             Targeted Downgrade/Closure: Fiscal year 2015
                                                                                              5
       chart of accounts to address noncompliance with FFMIA.
   RRACS now records all tax revenue and refunds using the USSGL format
  55
       and for the first time records the taxes receivable and allowance for doubtful
       accounts addressing this component of the material weakness




                                                                                                                                                                                     part 4: other accompanying information
Material Weakness Description
FINANCIAL MANAGEMENT SERvICE - Consolidated Government-wide Financial Statements
The government does not have adequate systems, controls, and procedures to properly prepare the Consolidated Government-wide Financial Statements. Key elements:
     •	 The government lacks a process to obtain information to effectively reconcile the reported excess of net costs over revenue with the budget deficit, and when
        applicable, a reported excess of revenue over net costs with the budget surplus
    •	 Weaknesses in financial reporting procedures in internal control over the process for preparing the Consolidated Financial Statements



Actions Completed                                                                         What Remains to be Done
   Partially reconciled fiscal year 2009 operating revenues with budget receipts
  55                                                                                           Complete reconciliation of operating revenues to budget receipts
                                                                                              5
   Developed a model to provide analysis of unreconciled transactions that
  55                                                                                           Complete reciprocal category for the Treasury General Fund
                                                                                              5
       affect the change in net position                                                       Implement changes identified by the Office of the Fiscal Assistant Secretary
                                                                                              5
   Accounted for intra-governmental differences through formal consolidating
  55                                                                                              as a result of its review of the Reporting Entity definitions per the Financial
       and elimination accounting entries using all reciprocal fund categories                    Accounting Standards Advisory Board criteria
       including the General Fund                                                              Include all disclosures as appropriate
                                                                                              5
   Federal agencies submit complete closing packages to GAO
  55                                                                                           Include all loss contingencies as appropriate
                                                                                              5
   Establish traceability from agency footnotes to the Consolidated Financial
  55                                                                                           Targeted Downgrade/Closure: Fiscal year 2014
                                                                                              5
       Statements (CFS) for completeness




appendix d: material weaknesses, audit follow-up,
financial systems, and recovery act risk management                                                                                                                            335
                                         the department of the treasury




                                         ii.     auDit fOllOW-up aCtivities
                                         During fiscal year 2010, treasury placed renewed emphasis on both the general administration of internal control issues through­
                                         out the Department and the timely resolution of findings and recommendations identified by the office of the Inspector general
                                         (oIg), the treasury Inspector general for tax administration (tIgta), the special Inspector general for the troubled asset
                                         relief Program (sIgtarP), the government accountability office, and external auditors. During the year, treasury continued
                                         to implement enhancements to the tracking system called the “Joint audit Management enterprise system” (JaMes). JaMes is
                                         a Department-wide, interactive, web-based system accessible to the oIg, tIgta, sIgtarP, bureau management, Departmental
                                         management, and others. the system tracks information on audit reports from issuance through completion of all corrective actions
                                         required to address findings and recommendations contained in an audit report. JaMes is the official system of record for treasury’s
                                         internal control program.


                                         Potential Monetary Benefits
                                         the Inspector General Act of 1978, as amended, Public law 95-452, require the Inspectors general and the secretaries of executive
part 4: other accompanying information




                                         agencies and Departments to submit semiannual reports to the congress on actions taken on audit reports issued that identify poten­
                                         tial monetary benefits. the Department consolidates and analyzes all relevant information for inclusion in this report. the informa­
                                         tion contained in this section represents a consolidation of information provided separately by the oIg, tIgta, and Department
                                         management.

                                         In the course of their audits, the Inspectors general periodically identify questioned costs, make recommendations that funds be put
                                         to better use, and identify measures that demonstrate the value of audit recommendations to tax administration and business opera­
                                         tions. “Questioned costs” include a:
                                           •	   cost that is questioned because of an alleged violation of a provision of a law, regulation, contract, or other requirement govern­
                                                ing the expenditure of funds
                                           •	   finding, at the time of the audit, that such costs are not supported by adequate documentation (i.e., an unsupported cost)
                                           •	   finding that expenditure of funds for the intended purpose is unnecessary or unreasonable

                                         the Department regularly reviews progress made by the bureaus in realizing potential monetary benefits identified in audit reports,
                                         and coordinates with the auditors as necessary to ensure the consistency and integrity of information on monetary benefit recommen­
                                         dations being tracked.

                                         the statistical data in the following summary table and charts represent audit report activity for the period from october 1, 2009
                                         through september 30, 2010. the data reflect information on reports that identified potential monetary benefits issued by the oIg
                                         and tIgta.




                                                                                                          appendix d: material weaknesses, audit follow-up,
                                         336                                                           financial systems, and recovery act risk management
                                                                                      performance and accountability report | fiscal year 2010




Audit Report Activity With Potential Monetary Benefits for Which Management has Identified Corrective Actions (OIG and TIGTA)
October 1, 2009 through September 30, 2010
(Dollars in Millions)
                                                                 Disallowed Costs            Funds Put to Better Use              Revenue Enhancements                             Totals
                                                                 Reports        Dollars      Reports              Dollars            Reports             Dollars         Report Total     Total Dollars
 Beginning Balance                                                     10         $36.9              6            $159.1                   11          $2,536.3                   27           $2,732.3
 New Reports                                                            2             .4           11            2,818.7                   11            3,929.0                  23            6,748.1
 Total                                                                 12          37.3            17            2,977.8                   22            6,465.3                  50            9,480.4
 Reports Closed                                                         8           4.3              4              155.2                     5            906.4                  16            1,065.9
    a. Realized or Actual                                               6           1.1              2               29.2                     3             16.1                  10                46.4
       b. Unrealized - Written off                                      7           3.2              3             126.01                     5           890.32                  15            1,019.5
 Ending Balance                                                         4         $33.0            13           $2,822.6                   17          $5,558.9                   34           $8,414.5
 1 This category includes one report, with $125.66 million written off, for which IRS management did not concur with TIGTA’s projected benefits.
 2 This category includes one report, with $209 million written off, for which IRS management did not concur with TIGTA’s projected benefits; and one report, with $539.6 million written off, for which
    TIGTA does not agree with the IRS that the benefits have not been realized.




                                                                                                                                                                                                           part 4: other accompanying information
the following table presents a summary of oIg and tIgta audit reports with potential monetary benefits that were open for more
than one year as of the end of fiscal years 2008, 2009, and 2010.


Number of Reports with Potential Monetary Benefits Open for More than One Year
                                                       PAR Report Year                                                            9/30/2008                     9/30/2009                     9/30/2010
 OIG                                                   No. of Reports                                                                     1                               0                            1
                                                       $ Projected Benefits                                                  $29.4 million                     $0 million                  $10.5 million
 TIGTA                                                 No. of Reports                                                                    12                              10                           12
                                                       $ Projected Benefits                                                 $661.5 million                $673.8 million                $1,783.7 million



the following table presents a summary of tIgta and oIg audit reports, broken out by year of report issuance, on which manage­
ment decisions were made on or before september 30, 2009, but the final actions had not been taken as of september 30, 2010.


Details of the Audit Recommendations with Potential Monetary Benefits on Which Management Decisions Were Made On or Before September 30, 2009,
But Final Actions have Not Been Taken as of September 30, 2010
(Dollars In Thousands)
                        Report           Report                                                             Disallowed         Funds Put to            Revenue
Bureau                 Number        Issue Date Brief Description                                                 Costs         Better Use         Enhancement                   Total        Due Date
 IRS              2004-20-142        8/26/2004      The IRS should ensure the Storage Strategy                                $        200.0                         $          200.0              Due
                                                    Study addresses the data storage capacity                                                                                               12/31/2010
                                                    deficiency and recommends a cost-effective
                                                    virtual tape system solution to reduce
                                                    maintenance and tape shipping costs.
 FY 2004                       1                                                                                              $        200.0                         $          200.0
 IRS               2006-1c-142       9/25/2006      The IRS Contracting Officer (CO) should use             $ 32,373.8                                               $        32,373.8       Delayed to
                                                    the results of the Defense Contract Auditing                                                                                            10/15/2011
                                                    Agency (DCAA) report to fulfill his/her duties
                                                    in awarding and administering contracts.
 FY 2006                       1                                                                            $ 32,373.8                                               $        32,373.8
 IRS               2007-1c-149       9/24/2007      The IRS will work with DCAA and the                     $        62.2                                            $            62.2       Delayed to
                                                    contractor to resolve the questioned costs                                                                                               8/31/2011
                                                    applicable to IRS contracts.
 FY 2007                       1                                                                            $        62.2                                            $            62.2
                                                                                                                                                                         table continued on next page



appendix d: material weaknesses, audit follow-up,
financial systems, and recovery act risk management                                                                                                                                                337
                                         the department of the treasury




                                         Details of the Audit Recommendations with Potential Monetary Benefits on Which Management Decisions Were Made On or Before September 30, 2009,
                                         But Final Actions have Not Been Taken as of September 30, 2010
                                         (Dollars In Thousands)
                                                            Report       Report                                                   Disallowed    Funds Put to        Revenue
                                         Bureau            Number    Issue Date Brief Description                                       Costs    Better Use     Enhancement                 Total     Due Date
                                         FY 2008              N/A         N/A                                                             —               —                 —                 —           N/A
                                         DO             OIG-09-024    1/7/2009   Treasury should reactivate the state-held                                      $     10,500.0    $     10,500.0           Due
                                                                                 federal unclaimed assets recovery program                                                                           6/30/2012
                                                                                 with appropriate policies, procedures, and
                                                                                 controls.
                                         IRS          2009-10-107    7/24/2009   IRS should develop procedures requiring                        $   30,000.0                            30,000.0           Due
                                                                                 that workstation sharing levels are included                                                                        1/15/2011
                                                                                 in space needs assessments. When
                                                                                 implementing these procedures the IRS
                                                                                 should adjust its space needs to reflect
                                                                                 workstation sharing and take action to
                                                                                 release any unneeded space identified,
                                                                                 where appropriate.
                                         IRS          2009-30-068    5/28/2009   As resources become available, the                                                   92,200.0          92,200.0           Due
part 4: other accompanying information




                                                                                 IRS should initiate actions to develop                                                                              3/15/2011
                                                                                 compliance strategies for ensuring more
                                                                                 Commodity Credit Corporation income
                                                                                 payments are properly reported.
                                         IRS          2009-30-106    8/18/2009   IRS should coordinate with the respective                          92,600.0                            92,600.0           Due
                                                                                 functional areas to ensure employees                                                                                1/15/2011
                                                                                 receive periodic computer alerts to review
                                                                                 large dollar frozen taxpayer accounts for
                                                                                 credits that can be reelased and the freeze
                                                                                 on accounts is systematically released when
                                                                                 credits fall below the $10 million threshold
                                                                                 by implementing agreed-upon computer
                                                                                 programming modifications.
                                         IRS          2009-40-112     8/6/2009   IRS should explore the feasibility of                                              1,426,735.7       1,426,735.7          Due
                                                                                 making greater use of mortgage interest                                                                            12/15/2011
                                                                                 data to pursue additional nonfilers and
                                                                                 underrerporters for audit.
                                         IRS          2009-40-137    9/24/2009   IRS should develop processes to identify                            9,000.0                              9,000.0          Due
                                                                                 erroneous Health Coverage Tax Credit claims                                                                         1/15/2011
                                                                                 based on criteria used to select taxpayers for
                                                                                 examination and reject e-filed tax returns or
                                                                                 forward paper-filed tax returns to the Error
                                                                                 Resolution function at the time the tax return
                                                                                 is filed.
                                         IRS          2009-40-138    9/23/2009   IRS should discontinue providing the                                                   1,100.7           1,100.7          Due
                                                                                 option to taxpayers of self-identifying by                                                                          1/15/2012
                                                                                 annotating a tax return with “Combat Zone”
                                                                                 and continue to provide individuals the
                                                                                 option of self-identifying by telephone or
                                                                                 electronically.
                                         IRS           2009-1c-134   9/28/2009   IRS should use the DCAA results in fulfilling    $    145.6                                               145.6           Due
                                                                                 the awarding and administration of IRS                                                                             10/15/2012
                                                                                 contracts.
                                         FY 2009                 8                                                                $    145.6    $ 131,600.0     $ 1,530,536.4     $ 1,662,282.0
                                         TOTAL                  11                                                                $ 32,581.6    $   131,800.0   $ 1,530,536.4     $ 1,694,918.0




                                                                                                                    appendix d: material weaknesses, audit follow-up,
                                         338
                                                                    financial systems, and recovery act risk management
                                                                performance and accountability report | fiscal year 2010




the following table provides a snapshot of oIg and tIgta audit reports with significant recommendations reported in previous
semiannual reports for which corrective actions had not been completed as of september 30, 2009 and september 30, 2010, respec­
tively. oIg and tIgta define “significant” as any recommendation open for more than one year. there were no “undecided audit
recommendations” during the same periods.


 Audit Reports with Significant Unimplemented Recommendations
                                                                 9/30/2009                                    9/30/2010
                                                      OIG                    TIGTA                OIG                     TIGTA
 No. of Reports                                        8                      26                   6                       24




iii.    finanCial m anagement s ystems frameWOrk




                                                                                                                                         part 4: other accompanying information
Overview
the Department of the treasury’s financial management systems structure consists of financial and mixed systems maintained by the
treasury bureaus and the Department-wide financial analysis and reporting system (fars). the bureau systems process and record
the detailed financial transactions and submit summary-level data to fars on a scheduled basis. fars maintains the key financial
data necessary for consolidated financial reporting. In addition, the fars modules also maintain data on the status of audit-based
corrective actions. under this systems structure, the bureaus are able to maintain financial management systems that meet their
specific business requirements. on a monthly basis, the required financial data submitted to fars to meet Departmental analysis
and reporting requirements. the Department uses fars to produce its periodic financial reports as well as the annual Performance
and accountability report (Par). this structured financial systems environment enables treasury to receive an unqualified audit
opinion and supports its required financial management reporting and analysis requirements.

the fars structure consists of the following components:
  •	   bureau core and financial management systems that process and record detailed financial transactions
  •	   treasury Information executive repository (tIer) that consolidates bureau financial data
  •	   cfo Vision that produces monthly financial statements and performs financial analysis
  •	   Joint audit Management enterprise system (JaMes) that tracks information on audit findings, recommendations, and planned
       corrective actions

bureaus submit summary-level financial data to tIer on a monthly basis, within three business days of the month-end. these data
are then used by cfo Vision to generate financial statements and reports on both a Department-wide and bureau-level basis. this
structure enables the Department to produce its audited annual financial statements and monthly management reports. During fiscal
year 2010, treasury continued to upgrade its fars applications to take advantage of technology improvements such as information
security and the technical environment.

as part of the Department’s enhancement effort, 14 treasury bureaus and reporting entities are cross-serviced for financial systems
by the bureau of the Public Debt’s (bPD) administrative resource center (arc). cross-servicing enables these bureaus to have
access to core financial systems without having to maintain the necessary technical and systems architectures. In an ongoing effort to
streamline its financial systems environment, treasury continues to work with the bureaus to evaluate plans for continuous improve­
ment to their financial management systems structure.




appendix d: material weaknesses, audit follow-up,
financial systems, and recovery act risk management                                                                               339
                                         the department of the treasury




                                         Continued Improvement
                                         treasury’s target financial management systems structure continues to build upon the current fars foundation. treasury has
                                         enhanced fars to support new financial and performance requirements and continues to provide management with the appropriate
                                         tools needed to align the Department’s goals and objectives.

                                         In fiscal year 2010, treasury established a tIer focus group to improve communication with the bureaus and to coordinate changes
                                         impacting financial management systems and financial operations. treasury enhanced the fars applications to be section 508
                                         compliant, which assists users with disabilities in accessing reports and performing data entry. In addition, treasury upgraded the
                                         fars servers to improve performance.

                                         the Irs continued to modernize the tax administration systems, improving the speed in which the Irs processes tax returns. In
                                         fiscal year 2010, the customer account Data engine (caDe) posted more than 41.2 million tax returns and more than 35.8 million
                                         refunds. the account Management services system, which stores taxpayer information, has been enhanced to eliminate the process­
                                         ing of paper and reduce case cycle time from 14 days to recognizing real-time submissions; and Irs upgraded the servers which host
                                         the financial management system that accounts for $11.5 billion in Irs funding.
part 4: other accompanying information




                                         bPD/arc continued to improve the effectiveness of providing efficient financial management systems and financial operations
                                         services to 14 treasury bureaus and offices by implementing best practices in financial management. In fiscal year 2010, bPD/arc
                                         upgraded the core financial management systems platform to increase its responsiveness in producing financial management reports
                                         and to adhere to financial reporting governance standards. bPD/arc also provides administrative services in the areas of account­
                                         ing, travel, payroll, human resources, and procurement to treasury bureaus and offices and to other federal entities to support core
                                         business activities.

                                         the bureau of engraving and Printing (beP) enhanced its manufacturing system to be fully integrated into its existing financial
                                         management system to support capturing performance data into the managerial cost accounting process. beP also participated in a
                                         pilot program with the bureau of the Public Debt (bPD) for intra-governmental transactions, utilizing a secure, web-based electronic
                                         invoicing and payment information system provided by the treasury’s financial Management service.

                                         Federal Financial Management Improvement Act (FFMIA) of 1996 Compliance
                                         With the exception of the Irs, all treasury bureaus are in compliance with ffMIa. as required by ffMIa, the Irs has a remedia­
                                         tion plan in place to correct the deficiencies. for each ffMIa recommendation, the remediation plan identifies specific remedies,
                                         target dates, responsible officials, and resource estimates required for completion. this plan is reviewed and updated quarterly.

                                         the Irs made significant progress in fiscal year 2010 toward achieving ffMIa compliance by implementing the redesign revenue
                                         accounting control system (rracs), which enabled the custodial financial management system to substantially comply with the
                                         united states standard general ledger (ussgl) chart of accounts. rracs now records all tax revenue and refunds using the
                                         ussgl format and, for the first time, records the taxes receivable and allowance for doubtful accounts. the Irs also implemented
                                         automated interfaces which enabled traceability for 98.6 percent of the over $2.3 trillion in revenue collections.




                                                                                                       appendix d: material weaknesses, audit follow-up,
                                         340                                                        financial systems, and recovery act risk management
                                                          performance and accountability report | fiscal year 2010




iv.      r eCOvery aCt r isk m anagement aCtivities
upon the enactment of the recovery act in february 2009, just weeks after the new administration took office, treasury quickly
designed and implemented a robust risk management program to support the Department’s implementation of the act. following
oMb’s recovery act implementation guidance, treasury required the programs’ senior accountable officials in the bureaus to certify
that they had taken the following actions for each recovery act program:
  •	   Identified and documented program-specific risks
  •	   Identified and documented applicable current process internal controls
  •	   Determined the risk level (high, medium, or low) by using treasury’s recovery act risk and impact assessment questionnaire
  •	   Determined additional controls needed, if any
  •	   Developed (or updated existing) and implemented a risk mitigation plan for each program with a risk level of medium or high
  •	   Performed ongoing monitoring and testing




                                                                                                                                      part 4: other accompanying information
treasury created a recovery act risk Management council that continued to meet regularly during fiscal year 2010 to discuss the
progress and status of each bureau’s recovery act risk management activities.




appendix d: material weaknesses, audit follow-up,
financial systems, and recovery act risk management                                                                             341
                                         the department of the treasury
part 4: other accompanying information




                                                                          This page left intentionally blank

                                                                                     appendix d: material weaknesses, audit follow-up,
                                         342                                      financial systems, and recovery act risk management
                                                                    performance and accountability report | fiscal year 2010




appendix e:

Glossary of acronyMs


Glossary of Acronyms                                                         Glossary of Acronyms
ABS               Asset-Backed Securities                                    CHCO              Chief Human Capital Officer
ACA               Patient Protection and Affordable Care Act                 CHIPRA            Children’s Health Insurance Program Reauthorization Act
ACD               Advanced Counterfeit Deterrent                                               of 2009

ACH               Automated Clearing House                                   CI                Criminal Investigators

AD                Audit Division                                             CIF               Climate Investment Funds

ADR               Alternative Dispute Resolution                             CIGFO             Council of Inspectors General on Financial Oversight

AFR               Agency Financial Report                                    CIO               Chief Information Officer

AGP               Asset Guarantee Program                                    CMBS              Commercial Mortgage Backed Securities

AIFP              Automotive Industry Financing Program                      CMF               Capital Magnet Fund

AIG               American International Group                               CO                Contracting Officer




                                                                                                                                                             part 4: other accompanying information
AML               Anti-money laundering                                      COBRA             Consolidated Omnibus Budget Reconciliation Act of 1985

AMS               Account Management Services                                COLA              Certificate of Label Approval

APR               Annual Performance Report                                  COP               Congressional Oversight Panel

ARC               Administrative Resource Center                             COSO              Committee of Sponsoring Organizations of the Treadway
                                                                                               Commission
ASM/CFO           Assistant Secretary for Management & Chief Financial
                  Officer                                                    CPP               Capital Purchase Program

ATFC              Afghanistan Threat Finance Cell                            CRA               Community Reinvestment Act

AUR               Automated Underreporter                                    CRE               Commercial Real Estate

BCPO              Bureau Chief Procurement Officer                           Credit CARD Act   Credit Card Accountability, Responsibility and Disclosure
                                                                                               Act of 2009
BEA               Bank Enterprise Award
                                                                             CSI               Customer Service Index
BEP               Bureau of Engraving and Printing
                                                                             CSR               Customer Service Representative
BPD               Bureau of the Public Debt
                                                                             CSRS              Civil Service Retirement System
BSA               Bank Secrecy Act
                                                                             CTF               Clean Technology Fund
BSM               Business Systems Modernization
                                                                             DASHR/CHCO        Office of the Deputy Assistant Secretary for Human
CADE              Customer Account Data Engine                                                 Resources/Chief Human Capital Officer
CAMELS            Capital adequacy, Asset quality, Management, Earnings,     DASMB             Deputy Assistant Secretary for Management and Budget
                  Liquidity and Sensitivity to market risk
                                                                             DASPTR            Deputy Assistant Secretary Privacy, Transparency, and
CAP               Capital Assistance Program                                                   Records
CAP               Compliance Assurance Process                               DCAA              Defense Contract Auditing Agency
CAR               Collection Activity Report                                 DCFO              Deputy Chief Financial Officer
CBP               U.S. Customs and Border Patrol                             DCIA              Debt Collection Improvement Act of 1996
CBLI              Consumer and Business Lending Initiative                   DCP               Office of D.C. Pensions
CBO               Congressional Budget Office                                DIP               Debtor-in-Possession
CCMM              Collections and Cash Management Modernization              DISC              Discontinued
CDCI              Community Development Capital Initiative                   DMAS              Debt Management Account System
CDE               Community Development Entities                             DO                Departmental Offices
CDFI              Community Development Financial Institutions               Dodd-Frank Act    Dodd-Frank Wall Street Reform and Consumer Protection
CDS               Credit Default Swaps                                                         Act
CFPB              Consumer Financial Protection Bureau                       DOJ               Department of Justice
CFO               Chief Financial Officer                                    EBRD              European Bank for Reconstruction and Development
CFS               Consolidated Financial Statements                          ECM               Enterprise Content Management
CFT               Counter-terrorist financing                                EEO               Equal Employment Opportunity
CFTC              Commodity Futures Trading Commission                       EESA              Emergency Economic Stabilization Act of 2008




appendix e: glossary of acronyms                                                                                                                       343
                                         the department of the treasury




                                         Glossary of Acronyms                                                          Glossary of Acronyms
                                         EFT               Electronic Funds Transfer                                   Freddie Mac       Federal Home Loan Mortgage Corporation
                                         EFTPS             Electronic Federal Tax Payment System                       FSB               Financial Stability Board
                                         EGTRRA            Economic Growth and Tax Relief Reconciliation Act           FSOB              Financial Stability Oversight Board
                                         EITC              Earned Income Tax Credit                                    FST               Floor Stocks Tax
                                         EO                Executive Order                                             FTO               Fine Troy Ounce
                                         ERP               Economic Recovery Payment                                   FY                Fiscal Year
                                         ESF               Exchange Stabilization Fund                                 G-7               Group of Seven
                                         ETD               Error Tracking Database                                     G-20              Group of Twenty
                                         EU                European Union                                              GAAP              Generally Accepted Accounting Principles
                                         FAET              Firearms and Ammunition Excise Tax                          GAB               General Arrangement to Borrow
                                         Fannie Mae        Federal National Mortgage Association                       GAFSP             Global Agriculture and Food Security Program
                                         FARS              Financial Analysis and Reporting System                     GAIS              Government Agency Investment Services
                                         FASAB             Federal Accounting Standards Advisory Board                 GAO               Government Accountability Office
                                         FATF              Financial Action Task Force                                 GEF               Global Environmental Facility
part 4: other accompanying information




                                         FCDA              Foreign Currency Denominated Assets                         GFRA              General Fund Receipt Account
                                         FCRA              Federal Credit Reform Act                                   Ginnie Mae        Government National Mortgage Association
                                         FDIC              Federal Deposit Insurance Corporation                       GM                General Motors
                                         FEC               Financial Education and Counseling                          GMAC              General Motors Acceptance Corporation
                                         FECA              Federal Employees’ Compensation Act                         GSA               General Services Administration
                                         FERS              Federal Employees’ Retirement System                        GSE               Government Sponsored Enterprises
                                         FEGLI             Federal Employees Group Life Insurance                      GWA               Government-wide Accounting
                                         FEHBP             Federal Employees Health Benefits Program                   HAMP              Home Affordable Modification Program
                                         FFB               Federal Financing Bank                                      HCTC              Health Coverage Tax Credit
                                         FFETF             Financial Fraud Enforcement Task Force                      HEAT              Health Care Fraud Prevention and Enforcement Action Team
                                         FFIEC             Federal Financial Institutions Examination Council          HECM              Home Equity Conversion Mortgage
                                         FFMIA             Federal Financial Management Improvement Act                HERA              Housing and Economic Recovery Act
                                         FHA               Federal Housing Administration                              HFA               Housing Finance Agency
                                         FHFA              Federal Housing Finance Agency                              HFFI              Healthy Food Financing Initiative
                                         FHLB              Federal Home Loan Bank                                      HHF               Hardest Hit Fund
                                         FinCEN            Financial Crimes Enforcement Network                        HHS               Department of Health and Human Services
                                         FinTRACA          Financial Transactions and Reports Analysis Center of       HIRE              Hiring Incentives to Restore Employment Act of 2010
                                                           Afghanistan                                                 HRF               Haitian Reconstruction Fund
                                         FIO               Federal Insurance Office                                    HSPD              Homeland Security Presidential Directive
                                         FISMA             Federal Information Security Management Act                 HUD               Department of Housing and Urban Development
                                         FIRST             Financial Information and Reporting Standardization         I&E               Inspections and Evaluations
                                         FIST              Fraud Investigative Strike Team                             IAP               International Assistance Programs
                                         FIT               Office of Financial Innovation and Transformation           ID                Investigation Division
                                         FIU               Financial Intelligence Unit                                 IDB               Inter-American Development Bank
                                         FMFIA             Federal Managers’ Financial Integrity Act                   IEEPA             International Emergency Economic Powers Act
                                         FMIS              Financial Management Information System                     IFI               International Financial Institution
                                         FMS               Financial Management Service                                IFSR              Iranian Financial Sanctions Regulations
                                         FOIA              Freedom of Information Act                                  IG                Inspector General
                                         FONL              Formulas Online                                             IMF               International Monetary Fund
                                         FR                Consolidated Financial Report of United States Government   IPIA              Improper Payments Information Act
                                         FRB               Federal Reserve Bank                                        IRIS              Integrated Revenue Information System
                                         FRBNY             Federal Reserve Bank of New York                            IRISL             Islamic Republic of Iran Shipping Lines




                                         344                                                                                                  appendix e: glossary of acronyms
                                                                       performance and accountability report | fiscal year 2010




Glossary of Acronyms                                                            Glossary of Acronyms
IRS               Internal Revenue Service                                      ORB               Other Retirement Benefits
IRS-CI            Internal Revenue Service - Criminal Investigations            OTC               Over-the-Counter
ISO               International Organization for Standardization                OTS               Office of Thrift Supervision
IT                Information Technology                                        PACT Act          Prevent All Cigarette Trafficking Act of 2009
ITR               Iranian Transactions Regulations                              PAM               Payments Application Modernization
JAMES             Joint Audit Management Enterprise System                      PAR               Performance and Accountability Report
LMSB              Large and Mid Sized Businesses                                PB                President’s Budget
MBS               Mortgage-Backed Securities                                    PCA               Planned Corrective Actions
MDB               Multilateral Development Banks                                PCC OTC           Paper Check Conversion Over-the-Counter
MeF               Modernized Electronic File                                    PII               Personal Identifiable Information
MHA               Making Home Affordable Program                                PONL              Permits Online
MINT              U.S. Mint                                                     PP&E              Property, Plant, and Equipment
MOU               Memorandum of Understanding                                   PPIF              Public-Private Investment Fund
MRADR             Market Risk Adjusted Discount Rate                            PPIP              Public-Private Investment Program




                                                                                                                                                              part 4: other accompanying information
MSB               Money services business                                       PSPA              Preferred Stock Purchase Agreements
MV&S              Modernization, Vision, and Strategy                           PTIN              Preparer tax identification number
NAB               New Arrangement to Borrow                                     QEO               Qualified Equity Offering
NACA              Native American CDFI Assistance                               QFI               Qualified Financial Institution
NDIC              National Drug Intelligence Center                             QTDP              Qualified Therapeutic Discovery Project
NEI               National Export Initiative                                    Recovery Act      American Recovery and Reinvestment Act of 2009
NIBP              New Issue Bond Program                                        RMBS              Residential Mortgage Backed Securities
NMTC              New Markets Tax Credit                                        RRACS             Redesign Revenue Accounting Control System
NOL               Net Operating Loss                                            S&ED              Strategic and Economic Dialogue
NPRM              Notice of Proposed Rulemaking                                 S.A.F.E. Act      Secure and Fair Enforcement for Mortgage Licensing Act
NRC               National Revenue Center                                                         of 2008

NRP               National Research Program                                     SAR               Suspicious Activity Report

NTDO              Non-Treasury Disbursing Office                                SAS               Statement on Auditing Standards

OA                Office of Audits                                              SBA               Small Business Administration

OCC               Office of the Comptroller of the Currency                     SBLF              Small Business Lending Fund

ODM               Office of Debt Management                                     SBR               Statement of Budgetary Resources

OECD              Organization for Economic Co-operation and Development        SCAP              Supervisory Capital Assessment Program

OFAC              Office of Foreign Assets Control                              SCF               Strategic Climate Fund

OFAS              Office of the Fiscal Assistant Secretary                      SCMA              Strategic Cash Management Agreements

OFP               Office of Fiscal Projections                                  SDR               Special Drawing Rights

OFPP              Office of Federal Procurement Policy                          SEC               Securities and Exchange Commission

OFR               Office of Financial Research                                  SES               Senior Executive Service

OFS               Office of Financial Stability                                 SFFAS             Statement of Federal Financial Accounting Standards

OI                Office of Investigations                                      SFP               Supplementary Financing Program

OIA               Office of Intelligence and Analysis                           SIG               Special Inspector General

OID               Original Issue Discount                                       SIGTARP           Special Inspector General for TARP

OIG               Office of Inspector General                                   SME               Small and Medium-sized Enterprise

OMB               Office of Management and Budget                               SNC               Statement of Net Cost

OPCL              Office of Privacy and Civil Liberties                         SOMA              System Open Market Account

OPE               Office of the Procurement Executive                           SPSPA             Senior Preferred Stock Purchase Agreements

OPEB              Other Post Employment Benefits                                SPV               Special Purpose Vehicle

OPM               Office of Personnel Management                                SSBCI             State Small Business Credit Initiative




appendix e: glossary of acronyms                                                                                                                        345
                                         the department of the treasury




                                         Glossary of Acronyms
                                         SSG               Senior Supervisors’ Group
                                         SSP               Shared Service Provider
                                         SSP               Stable Share Price
                                         STR               Suspicious Transaction Report
                                         TAC               Taxpayer Assistance Center
                                         TAIFF             Troubled Assets Insurance Financing Fund
                                         TALF              Term Asset-Backed Securities Loan Facilities
                                         TARP              Troubled Asset Relief Program
                                         TCE               Tax Counseling for the Elderly
                                         TCLP              Temporary Credit and Liquidity Program
                                         TE/GE             Tax Exempt and Government Entities
                                         TEOAF             Treasury Executive Office for Asset Forfeiture
                                         TFF               Treasury Forfeiture Fund
                                         TFFC              Office of Terrorist Financing and Financial Crimes
part 4: other accompanying information




                                         TFI               Terrorism and Financial Intelligence
                                         TFR               Thrift Financial Reports
                                         TFTP              Terrorist Finance Tracking Program
                                         TIER              Treasury Information Executive Repository
                                         TIGTA             Treasury Inspector General for Tax Administration
                                         TIP               Targeted Investment Program
                                         TIPS              Treasury Inflation-Protected Securities
                                         TOP               Treasury Offset Program
                                         TPP               Trans-Pacific Partnership
                                         TRIA              Terrorism Risk Insurance Act
                                         TTB               Alcohol and Tobacco Tax and Trade Bureau
                                         TWEA              Trading with the Enemy Act
                                         UN                United Nations
                                         UNSCR             United Nations Security Council Resolution
                                         UP                Unemployment Program
                                         USA PATRIOT Act   Uniting and Strengthening America by Providing Appropriate
                                                           Tools Required to Intercept and Obstruct Terrorism Act of
                                                           2001
                                         USDA              United States Department of Agriculture
                                         USPS              United States Postal Service
                                         USSGL             United States Standard General Ledger
                                         VA                Department of Veteran’s Affairs
                                         VITA              Volunteer Income Tax Assistance
                                         WHBAA             Worker, Homeownership, and Business Assistance Act of
                                                           2009
                                         WMD               Weapons of Mass Destruction
                                         WTO               World Trade Organization




                                         346                                                                            appendix e: glossary of acronyms
                           website information
                                  Treasury On-line    www.treas.gov

   Treasury Performance and Accountability Reports    www.treasury.gov/offices/management/dcfo/accountability-reports

         Alcohol and Tobacco Tax and Trade Bureau     www.ttb.gov

Community Development Financial Institutions Fund     www.cdfifund.gov

                      Comptroller of the Currency     www.occ.treas.gov

                    Bureau of Engraving & Printing    www.bep.treas.gov

            Financial Crimes Enforcement Network      www.fincen.gov

                    Financial Management Service      www.fms.treas.gov

                         Internal Revenue Service     www.irs.gov

                                        U.S. Mint     www.usmint.gov

                         Bureau of the Public Debt    www.publicdebt.treas.gov

                       Office of Thrift Supervision   www.ots.treas.gov

                       The Financial Stability Plan   www.financialstability.gov

                   Help for America’s Homeowners      www.makinghomeaffordable.gov

                           Recovery Act Spending      www.recovery.gov
www.Treas.gov
